                           CT
                      INSPE OR GE
               AL                        N
             CI




                                         ER
        E
       SP




                                            A L
      TRO




                                              M
                                              RA
       UB




            LE
                                         OG

                 D
                     ASS                 PR
                           E T R ELIEF




SIGTARP                                            Office of the Special Inspector General
                                                   for the Troubled Asset Relief Program
Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement



                                                                    Quarterly Report to Congress
                                                                               October 21, 2009
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (EESA). Under EESA, the Special Inspector General
has the duty, among other things, to conduct, supervise and coordinate audits
and investigations of the purchase, management and sale of assets under the
Troubled Asset Relief Program (TARP). In carrying out those duties, SIGTARP
has the authority set forth in Section 6 of the Inspector General Act of 1978,
including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
Contents


Executive Summary 	                                                 1
	   Program Updates and Financial Overview of TARP	                 5
	   The Role of Ratings Agencies in TARP and Beyond	                5
	   Oversight Activities of SIGTARP	                                6
	   SIGTARP Recommendations on the Operation of TARP	               9
	   Report Organization	                                            9

Section 1
The Office of the Special Inspector General for the
	Troubled asset relief program	                                    11
	 SIGTARP Creation and Statutory Authority	                        13
	 SIGTARP Oversight Activities Since the July Quarterly Report	    13
	
Section 2 	
TARP overview	                                                     29
	 Financial Overview of TARP	                                      31
	 TARP Tutorial: Where Does TARP Money Come From	                  34
	 Financial Institution Support Programs	                          55	
  Asset Support Programs	                                          72
	 Automotive Industry Support Programs	                            89
	 Homeowner Support Program	                                       94
	 Executive Compensation	                                         106
	
Section 3 	
the impact of credit rating agencies on tarp and beyond	          113
	 Introduction	                                                   115
	 Background on Credit Rating Agencies	                           116
	 Credit Rating Market	                                           124	
  How the Federal Government Uses Ratings in Regulating the
  	 Financial Sector	                                             128
	 Role of Rating Agencies in the Financial Crisis	                135
	 Evolving Regulatory Environment	                                142	
Section 4       	
tarp operations and administration	                                                    149
	 TARP Administrative and Program Expenditures	                                        151
	 Current Contractors and Financial Agents	                                            152	
  Conflicts of Interest	                                                               152	

Section 5 	
SIGTARP Recommendations	                                                               155	
  Progress on Lessening the Term Asset-Backed Securities Loan
  	 Facility’s Reliance on Rating Agencies	                                             157
	 Developments Relating to HAMP Streamlining	                                           158
	 Developments in the Implementation of the
  	 Public-Private Investment Program	                                                  159
	 Update on Recommendations and Lessons Learned from
  	 SIGTARP Audit Reports	                                                              161
	 Tracking the Implementation of Recommendations in
  	 Previous Reports	                                                                   165

	 Endnotes	                                                                             173

appendices
A. 	 Glossary	                                                                          181
B. 	 Acronyms and Abbreviations	                                                        185
C. 	 Reporting Requirements	                                                            187
D.	 Transaction Detail	                                                                 191
E. 	 Cross-Reference of Report to the Inspector General Act of 1978	                    216
F. 	 Public Announcement of Audits*	                                                      –
G. 	 Key Oversight Reports and Testimonies*	                                              –
H.	 Correspondence	                                                                     217
I. 	 Organizational Chart	                                                              251
		
*Visit www.sigtarp.gov to view Appendix F: Public Announcement of Audits, and Appendix G: Key
Oversight Reports and Testimonies for further reference material.
 investigations
EXECUTIVE SUMMARY
2   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I october 21, 2009             3




More than a year has now passed since the Emergency Economic Stabilization
Act of 2008 (“EESA”) authorized creation of the Troubled Asset Relief Program
(“TARP”), and preliminary assessments of TARP — both its effectiveness and its
costs — can begin to be made. As to effectiveness, there are significant signs of
improvement in the stability of the financial system. Although the causes for such
improvement are many and complex, it appears that the dramatic steps taken by
the U.S. Department of the Treasury (“Treasury”) and other agencies through
TARP and related programs played a significant role in bringing the system back
from the brink of collapse. On the other hand, the risk of foreclosure continues to
affect too many Americans, unemployment continues its rise, and the stresses on
the commercial real estate market threaten to increase the pressure on banks and
small businesses alike yet again.
    On the cost side of the ledger, although it will take many years to assess all
of the costs associated with TARP, financial and otherwise, this report begins
                                                                                               Moral Hazard: A term used in eco-
to categorize them. It is useful to analyze any Governmental intervention in the
                                                                                               nomics and insurance to describe the
market like TARP against three distinct types of cost: the financial cost to the               lack of incentive individuals have to
taxpayers; the “moral hazard” damage to market incentives created by Government                guard against a risk when they are
intervention; and a cost that has received scant attention thus far — the impact on            protected against that risk (for ex-
Government credibility due to the failure to explain what is being done with billions          ample, through an insurance policy).
of taxpayer dollars transparently and forthrightly. The past year has demonstrated             In the context of TARP, it refers to the
that TARP’s costs, in each category, could prove to be substantial.                            danger that private-sector execu-
                                                                                               tives/investors/lenders may behave
•	 Financial Cost: Although several TARP recipients have repaid funds for what                 more recklessly believing that the
   has widely been reported as a 17% profit, it is extremely unlikely that the taxpay-         Government has insulated them from
                                                                                               the risks of their actions.
   ers will see a full return on their TARP investments. Certain TARP programs,
   such as the mortgage modification component of the Making Home Affordable
   (“MHA”) program, which is scheduled to use $50 billion of TARP funds, will
   yield no direct return; for others, including the extraordinary assistance to
   American International Group, Inc. (“AIG”) and the auto companies, full recov-
   ery is far from certain. Some of these potential costs are discussed in Section 2
   of this report, including a discussion of financial cost that is rarely considered —
   the cost associated with borrowing the money used to fund TARP.
•	 Moral Hazard: Market behavior is bound to be impacted by the massive infu-
   sions of Government capital into the very institutions that caused the crisis;
   by the modifications of mortgages for homeowners who may have borrowed ir-
   responsibly; and by the provision of cheap, non-recourse loans to incentivize the
   purchase of the same volatile and over-valued asset-backed securities (“ABS”)
   that were a major cause of the current crisis. The firms that were “too big to
   fail” last October are in many cases bigger still, many as a result of Government-
   supported and -sponsored mergers and acquisitions; the inherently conflicted
   rating agencies that failed to warn of the risks leading up to the financial crisis
   are still just as conflicted; and the recent rebound in big bank stock prices
4   special inspector general I troubled asset relief program




                                              risks removing the urgency of dealing with the system’s fundamental problems.
                                              Absent meaningful regulatory reform, TARP runs the risk of merely re-animat-
                                              ing markets that had collapsed under the weight of reckless behavior. Section 3
                                              of this report addresses the role of rating agencies in particular, their crucial role
                                              in the financial system, and their impact on the current financial crisis.
                                           •	 Government Credibility: The Government’s capacity to address financial crises
                                              depends in no small measure on its credibility, both with market participants
                                              whose confidence is essential to stabilize the financial system and with the
                                              American public whose confidence is essential to underpin the political sup-
                                              port required to take the difficult (and often expensive) steps that are needed.
                                              Unfortunately, several decisions by Treasury — including Treasury’s refusal to
                                              require TARP recipients to report on their use of TARP funds, its less-than-
                                              accurate statements concerning TARP’s first investments in nine large financial
                                              institutions, and its initial defense of those inaccurate statements — have served
                                              only to damage the Government’s credibility and thus the long-term effective-
                                              ness of TARP. Notwithstanding TARP’s role in bringing the financial system
                                              back from the brink of collapse, it has been widely reported that the American
                                              people view TARP with anger, cynicism, and distrust. These views are fueled
                                              by the lack of transparency in the program. The beliefs of some, for example,
                                              that TARP funds went into a “black hole”; that TARP was created in secrecy
                                              to transfer wealth from taxpayers to Wall Street insiders (exacerbated by the
                                              announcement of billions of dollars of profits and record-setting bonus pools
                                              at TARP recipients while unemployment and foreclosures continue to rise); or
                                              that Treasury is just too closely aligned with the interests of Wall Street are only
                                              reinforced by Treasury’s failures of transparency. Despite the aspects of TARP
                                              that could reasonably be viewed as a substantial success, Treasury’s actions
                                              in this regard have contributed to damage the credibility of the program and
                                              of the Government itself, and the anger, cynicism, and distrust created must
                                              be chalked up as one of the substantial, albeit unnecessary, costs of TARP.
                                              Section 5 of this report reviews some of the unadopted recommendations of the
                                              Office of the Special Inspector General for the Troubled Asset Relief Program
                                              (“SIGTARP”), the adoption of which could help bring greater transparency to
                                              TARP and answer some of the criticisms of the program.

                                               In this report, SIGTARP endeavors to (i) explain the various TARP programs
                                           and how Treasury has used those programs through September 30, 2009; (ii)
                                           provide a description of what ratings agencies do and their role in the market, in
                                           Governmental decisions, and in TARP; (iii) describe what SIGTARP has done to
                                           oversee the various TARP programs since its Quarterly Report to Congress dated
                                           July 21, 2009 (the “July Quarterly Report”); and (iv) set forth new recommenda-
                                           tions, and provide updates on past recommendations, relating to the operation of
                                           TARP.
                                                                               quarterly report to congress I october 21, 2009   5




PROGRAM UPDATES AND FINANCIAL OVERVIEW
OF TARP
TARP consists of 12 announced programs, of which 10 have been implemented. As
of September 30, 2009, Treasury had announced commitments to spend $636.9
billion of the $699 billion maximum available for the purchase of troubled assets
under TARP as authorized by Congress in EESA. Of this amount, approximately
$454.3 billion had been expended through the 10 implemented programs to pro-
vide support for U.S. financial institutions, the automobile industry, the markets in
certain types of ABS, and homeowners. As of September 30, 2009, 47 TARP recipi-
ents have paid back all or a portion of their principal or repurchased shares for an
aggregate total of $72.9 billion of repayments, leaving $317.3 billion, or 45.4%, of
TARP’s allocated $699 billion available for distribution.
     In addition to the principal repayments, Treasury has received interest and
dividend payments on its investments, as well as revenue from the sale of its war-
rants. As of September 30, 2009, $9.5 billion in interest, dividends, and other
income had been received by the Government, and $2.9 billion in sales proceeds
had been received from the sale of warrants and preferred stock received as a result
of exercised warrants. At the same time, some TARP participants have missed divi-
dend payments: among Capital Purchase Program (“CPP”) participants, 46 have
missed dividend payments to the Government, some of which made the payments
on a later date. As of September 30, 2009, there was $75.7 million in outstanding
unpaid CPP dividends.


THE ROLE OF RATING AGENCIES IN TARP AND
BEYOND
Credit rating agencies play critically important roles in the financial markets, in
Government decision making, and in several areas of TARP operations. Section 3
of this report describes these various roles so that the reader can understand the
effects that the agencies have on TARP — and on the system in general — and
so that the various proposals for reform of the ratings system can be evaluated in
proper context.
    Among other things, Section 3 describes the background of the credit rating
agencies, the basics of how they provide ratings for securities at issuance, and
how they monitor the securities after issuance. The report goes on to discuss how
ratings are used in the marketplace, the effect that ratings of securities have on
the financial institutions that hold such securities, and the various ways that the
Government uses ratings in the regulation of the financial markets and, in several
ways, in the operation of TARP. Section 3 also addresses the role of rating agen-
cies in the financial crisis, examining in particular the inherent conflicts of interest
that the “issuer-pay” model poses; the agencies’ failure to assess properly the risk of
6            special inspector general I troubled asset relief program




                                                    subprime mortgages and exotic financial products; and the extreme volatility posed
                                                    by the effects of rating downgrades on the liquidity of financial institutions, with
                                                    AIG as a prime example. Finally, Section 3 describes the outlines of various propos-
                                                    als that have been introduced to reform the credit rating system.



                                                    OVERSIGHT ACTIVITIES OF SIGTARP
                                                    Since the July Quarterly Report, SIGTARP has been actively engaged in fulfill-
                                                    ing its vital investigative and audit functions as well as in building its staff and
                                                    organization.
                                                         SIGTARP’s Investigations Division has developed into a sophisticated white-
                                                    collar investigative agency. Through September 30, 2009, SIGTARP has opened 61
                                                    and has 54 ongoing criminal and civil investigations. These investigations include
                                                    complex issues concerning suspected TARP fraud, accounting fraud, securities
                                                    fraud, insider trading, bank fraud, mortgage fraud, mortgage servicer misconduct,
                                                    fraudulent advance-fee schemes, public corruption, false statements, obstruction
                                                    of justice, money laundering, and tax-related investigations. While the vast majority
                                                    of SIGTARP’s investigative activity remains confidential, developments in several of
                                                    SIGTARP’s investigations have become public over the past quarter, as discussed
                                                    more fully in Section 1 of this report.
                                                    •	 Federal Trade Commission v. Federal Housing Modification
                                                        Administration, Inc.: On September 16, 2009, the Federal Trade Commission
                                                        (“FTC”) filed a complaint against Federal Housing Modification Administration,
                                                        Inc. (“FHMA”) and its principals in the U.S. District Court for the District of
                                                        Columbia. With investigative support from SIGTARP, FTC alleged violations of
                                                        the FTC Act and telemarketing sales rules by FHMA by misrepresenting itself as
                                                        a Federal Government agency and falsely claiming that it would obtain mort-
                                                        gage modifications for consumers for a $3,000 fee. SIGTARP’s investigation of
                                                        FHMA, in coordination with the U.S. Postal Inspection Service, is ongoing.
                                                    •	 Gordon Grigg Sentenced to 10 Years’ Imprisonment: On August 6, 2009,
                                                        Gordon B. Grigg, a financial advisor and owner of ProTrust Management,
                                                        Inc., formerly based in Franklin, Tennessee, was sentenced to serve a 10-year
                                                        prison term after pleading guilty to four counts of mail fraud and four counts
                                                        of wire fraud in the U.S. District Court for the Middle District of Tennessee.
                                                        The charges stemmed from a SIGTARP-assisted investigation into Grigg’s role
    Ponzi Scheme: An illegal pyramid                    in a Ponzi scheme which he promoted, in part, by marketing fictional TARP-
    scheme in which money from new                      guaranteed debt.
    investors is used to pay off earlier
                                                    •	 Search Warrants Executed at Taylor, Bean & Whitaker Mortgage
    investors.
                                                        Corporation and Colonial Bancgroup: On August 3, 2009, SIGTARP,
                                                        along with its Federal law enforcement partners, executed search warrants at
                                                                               quarterly report to congress I october 21, 2009   7




   the offices of Colonial Bancgroup (“Colonial”) and Taylor, Bean & Whitaker
   Mortgage Corporation, formerly the nation’s 12th-largest loan originator and
   servicer. Prior to the execution of these warrants, SIGTARP had served subpoe-
   nas on Colonial after it had announced that it had received preliminary con-
   tingent approval from Treasury to receive $553 million in TARP funding. The
   funding was never made. On August 7, 2009, Colonial reported that it is the
   target of a criminal probe. This investigation is ongoing.
•	 Bank of America Investigations: SIGTARP continues to play a significant
   role in the investigations by the New York State Attorney General’s Office, the
   Securities and Exchange Commission (“SEC”), and the Department of Justice
   (“DOJ”) into the circumstances of Bank of America’s merger with Merrill
   Lynch and its receipt of additional TARP funds under the Targeted Investment
   Program (“TIP”).

     Nearly 50% of SIGTARP’s ongoing investigations were developed in whole or
in part through tips or leads provided on SIGTARP’s Hotline (877-SIG-2009 or ac-
cessible at www.SIGTARP.gov). Since its inception, the SIGTARP Hotline received
and analyzed more than 7,000 contacts, running the gamut from expressions of
concern over the economy to serious allegations of fraud.
     On the audit side, as of the initial drafting of this report, SIGTARP had issued
its first four audit reports, which are addressed in greater detail in Sections 1 and 5.
A fifth audit on AIG bonuses was subsequently issued and will be described in
greater detail in SIGTARP’s next quarterly report.

•	 Use of Funds: In July 2009, SIGTARP issued its first formal audit report
   concerning how recipients of CPP funds reported their use of such funds based
   upon a February 2009 survey that SIGTARP sent to 364 financial and other
   institutions that had completed TARP funding agreements through January
   2009. For some respondents the infusion of TARP funds helped to increase
   lending; others were able to avoid a “managed” reduction of their activities; oth-
   ers reported that their lending activities would have come to a standstill without
   TARP funds; and others explained that they used TARP funds to acquire other
   institutions, invest in securities, pay off debts, or that they retained the funds to
   serve as a cushion against future losses.
•	 External Influences: In August, SIGTARP issued an audit that examined
   undue external influences over the CPP decision-making process. SIGTARP
   found no information indicating that external inquiries on CPP applications had
   affected the decision-making process, but gaps in the internal controls by the
   Government agencies conducting the CPP application process made it impos-
   sible to determine if all attempts to influence TARP decisions were captured
8   special inspector general I troubled asset relief program




                                              by the audit. In connection with the audit, SIGTARP made recommendations
                                              regarding the improvement of internal controls and record keeping, which
                                              Treasury has adopted.
                                           •	 Executive Compensation: SIGTARP also issued in August an audit examining
                                              executive compensation restriction compliance. This audit examined the efforts
                                              of TARP recipients to comply with executive compensation restrictions in place
                                              at the time of SIGTARP’s survey of banks’ use of funds.
                                           •	 Original CPP and Bank of America Investments: Finally, SIGTARP recently
                                              released an audit examining the review and approval process associated with
                                              TARP assistance to the first nine CPP recipients, with emphasis on additional
                                              assistance to Bank of America subsequently authorized under TIP and the Asset
                                              Guarantee Program (“AGP”). The audit concludes that Treasury, the Federal
                                              Reserve, and the Federal Deposit Insurance Corporation (“FDIC”) implemented
                                              programs designed to help prevent a further deterioration of the economy and
                                              a significant risk of financial market collapse. The audit also finds that Treasury
                                              and other regulators’ descriptions of the financial conditions of the first nine
                                              institutions as “healthy” were inconsistent with the private beliefs of decision
                                              makers at Treasury and the Federal Reserve, and later proved to be inaccurate.
                                              In addition to the basic transparency concern that this inconsistency raises, by
                                              stating expressly that the “healthy” institutions would be able to increase overall
                                              lending, Treasury created unrealistic expectations about the institutions’ condi-
                                              tions and their ability to increase lending. Treasury lost credibility when lending
                                              at those institutions did not in fact increase and when subsequent events — the
                                              further assistance needed by Citigroup and Bank of America being the most
                                              significant examples — demonstrated that at least some of those institutions
                                              were not in fact healthy.

                                               SIGTARP is continuing work on audits described in the July Quarterly Report
                                           examining AIG counterparty payments, the CPP warrant valuation and disposi-
                                           tion process, a use of funds follow-up assessment, governance issues where the
                                           Government holds large ownership interests, the status of Citigroup asset guar-
                                           antees, and compliance procedures relating to the MHA mortgage modification
                                           program. SIGTARP anticipates that several of these audits will be released over the
                                           next quarter.
                                               In addition, SIGTARP has announced two new audits, as follows:

                                           •	 Automobile Dealership Closures: This audit, undertaken at the requests of
                                              Senator Jay Rockefeller and Congressman David Obey, examines the process
                                              used by GM and Chrysler to identify the more than 2,000 automobile dealer-
                                              ships that will be terminated in connection with the recent GM and Chrysler
                                              bankruptcies. The objectives of the audit will be to determine whether GM and
                                                                            quarterly report to congress I october 21, 2009   9




   Chrysler developed and followed a fair, consistent, and reasonable documented
   approach; to understand the role of the Government in these decisions; and to
   establish to what extent the terminations will lead to cost savings or other ben-
   efits to GM and Chrysler.
•	 Review of CPP Applications Receiving Conditional Approval: This audit
   will examine those CPP applications that received preliminary approval from
   the Treasury Investment Committee conditioned upon the institutions meeting
   certain requirements before funds were disbursed. One example was Colonial,
   which received CPP approval conditioned on Colonial raising $300 million in
   private capital. The audit will assess the basis for the decision to grant such
   conditional approvals and the bank regulators’ role in such decisions; whether
   and how timeframes are established for meeting such conditions; and whether
   internal controls are in place to ensure that the conditions are met before funds
   are disbursed.


SIGTARP RECOMMENDATIONS ON THE
OPERATION OF TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations to
Treasury so that TARP programs can be designed or modified to facilitate effective
oversight and transparency and to prevent fraud, waste, and abuse. In Section 5 of
this report, SIGTARP provides updates on recommendations and a summary of the
implementation of recommendations made in previous reports and in SIGTARP’s
audits. In particular, Section 5 recounts: progress made by the Federal Reserve with
respect to decreasing the influence of credit rating agencies in the operation of the
Term Asset-Backed Securities Loan Facility (“TALF”); developments, both positive
and negative, in Treasury’s operation of MHA’s mortgage modification program;
and two new recommendations concerning PPIP to address Treasury actions that,
if unaddressed, would limit SIGTARP’s ability to review changes to the PPIP com-
pliance regime and to access certain documents that may be necessary to under-
take oversight of this important program.



REPORT ORGANIZATION
The report is organized as follows:

•	 Section 1 describes the activities of SIGTARP.
•	 Section 2 describes how Treasury has spent TARP funds thus far and contains
   an explanation or update of each program, both implemented and recently
   announced.
10   special inspector general I troubled asset relief program




                                            •	 Section 3 discusses the role of rating agencies in the market, in Government
                                               decision making, and in the operation of TARP, and examines the agencies’ part
                                               in the financial crisis and the proposals for reforming the rating system.
                                            •	 Section 4 describes the operations and administration of the Office of Financial
                                               Stability, the office within Treasury that manages TARP.
                                            •	 Section 5 lays out SIGTARP’s recommendations to Treasury with respect to the
                                               operation of TARP.
                                            •	 The report also includes numerous appendices containing, among other things,
                                               figures and tables detailing all TARP investments through September 30, 2009.

                                                The goal is to make this report a ready reference on what TARP is and how it
                                            has been used to date. In the interest of making this report as understandable as
                                            possible, and thereby furthering general transparency of the program itself, certain
                                            technical terms are highlighted in the text and defined in the adjacent margin. In
                                            addition, portions of Sections 2 and 3 are devoted to tutorials explaining the finan-
                                            cial terms and concepts necessary to obtain a basic understanding of the programs’
                                            operations.
            The Office of the Special
section 1
               investigations
            Inspector General for the
            Troubled Asset Relief Program
12   special inspector general I troubled asset relief program
                                                                             quarterly report to congress I october 21, 2009   13




SIGTARP Creation and Statutory Authority
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Program
(“TARP”) and, with certain limitations, any other action taken under EESA.
SIGTARP is required to report quarterly to Congress to describe SIGTARP’s activi-
ties and to provide certain information about TARP over that preceding quarter.
EESA gives SIGTARP the authorities listed in section 6 of the Inspector General
Act of 1978, including the power to obtain documents and other information from
Federal agencies and to subpoena reports, documents, and other information from
persons or entities outside of Government.
    The Special Inspector General, Neil M. Barofsky, was confirmed by the Senate
on December 8, 2008, and sworn into office on December 15, 2008.


SIGTARP Oversight Activities Since the July
Quarterly Report
SIGTARP has continued to fulfill its oversight role in multiple parallel tracks: from
making recommendations relating to preventing fraud and abuse prospectively; to
auditing aspects of TARP both inside and outside of Government; to investigating
allegations of fraud, waste, and abuse in TARP programs; to coordinating closely
with other oversight bodies; all while trying to promote transparency in TARP
programs.

Providing Advice on Compliance and Fraud Prevention
To further its goal of improving prospectively the compliance and fraud prevention
aspects of TARP programs, SIGTARP has attempted to establish and maintain reg-
ular lines of communications with the personnel primarily responsible for running
TARP, including those working within the U.S. Department of the Treasury’s Office
of Financial Stability (“OFS”) and within other agencies who manage TARP-related
programs or activities, including the bank regulators, the Federal Reserve Board,
and the Federal Reserve Bank of New York (“FRBNY”), as follows:

•	 SIGTARP personnel generally receive briefings concerning each new TARP
   initiative and developments in implemented programs when necessary.
•	 The Special Inspector General and Deputy Special Inspector General typically
   meet weekly with the head of OFS, OFS’s Chief Compliance Officer, and OFS’s
   General Counsel to discuss ongoing issues and new developments.
14   special inspector general I troubled asset relief program




                                            •	 SIGTARP has established regular communication with officials from the
                                               Federal Reserve System (staff from the Federal Reserve Board of Governors and
                                               FRBNY) in connection with the Federal Reserve’s TARP-related programs.

                                                Generally, the U.S. Department of the Treasury (“Treasury”) and the other
                                            agencies have been cooperative in making their personnel available to SIGTARP
                                            and have responded to SIGTARP’s requests for documents and information.
                                                SIGTARP has endeavored, to the extent it has had an opportunity, to examine
                                            the planned framework for TARP initiatives before their terms are finalized and to
                                            make recommendations designed to advance oversight and internal controls and to
                                            prevent fraud, waste, and abuse within the programs. Since SIGTARP’s Quarterly
                                            Report to Congress dated July 21, 2009 (the “July Quarterly Report”), and in
                                            addition to recommendations made in formal audit reports, SIGTARP has made
                                            follow-up recommendations with regard to the Public-Private Investment Program
                                            (“PPIP”) final fund manager agreements within the Legacy Securities Program as
                                            well as modifications to the Home Affordable Modification Program (“HAMP”),
                                            which is part of the Making Home Affordable (“MHA”) program. These recom-
                                            mendations are discussed in Section 5 of this report.

                                            SIGTARP Audit Activity
                                            SIGTARP has initiated a total of 13 audit projects since its inception: 4 that
                                            were released as of the initial drafting of this report; 1 that has been subse-
                                            quently released; 2 that are nearing completion; and 6 others on which work has
                                            commenced.

                                            Completed SIGTARP Audits
                                            As of the initial drafting of this report, SIGTARP had released its first four audit
                                            reports. Its fifth audit report, on American International Group (“AIG”) bonuses,
                                            was subsequently issued and will be described in detail in the next quarterly report.

                                            Use of Funds Audit
                                            SIGTARP’s first audit report, issued on July 20, 2009, examined how recipients of
                                            Capital Purchase Program (“CPP”) investments reported their use of such funds.
                                            In February 2009, SIGTARP sent survey letters to 364 financial and other institu-
                                            tions that had completed TARP funding agreements through January 2009. In
                                            response to those surveys, although most banks reported that they did not segregate
                                            or track TARP fund usage on a dollar-for-dollar basis, they were able to provide
                                            insights into their actual or planned future use of TARP funds. The details of this
                                            audit and its findings are described in SIGTARP’s July Quarterly Report, page 17.
                                                                            quarterly report to congress I october 21, 2009   15




   Copies of the responses to SIGTARP’s February 2009 survey are posted on the
Internet at www.sigtarp.gov/audit_useoffunds.shtml.

External Influence Audit
This audit report, issued on August 6, 2009, examined whether or to what extent
external parties may have unduly influenced decision making by Treasury or bank
regulators in approving bank applications for funding under CPP. In October
2008, Treasury established CPP to inject capital into healthy, viable U.S. financial
institutions in order to stabilize financial markets and increase lending. OFS and
each of the four Federal banking regulators — the Office of the Comptroller of the
Currency (“OCC”), the Office of Thrift Supervision (“OTS”), the Federal Deposit
Insurance Corporation (“FDIC”), and the Federal Reserve — implemented a
standardized process to review applications from institutions. As of July 30, 2009,
more than 2,700 institutions had submitted applications to regulators for CPP
funding, regulators had submitted approximately 1,300 applications to Treasury for
review, and Treasury had funded 660 applications. Within Treasury, an Investment
Committee is responsible for making the final recommendation on whether an ap-
plication should be approved.
    This audit examined the extent to which Treasury and the banking regula-
tors have controls in place to safeguard against external influence over the CPP
decision-making process and whether there were any indications of external parties
having unduly influenced CPP decision making. SIGTARP auditors reviewed
Treasury and regulatory policies, collected documents that recorded external
communications, and interviewed officials to identify the controls over external
communications. To determine possible indications of external influence, auditors
reviewed the CPP applications and supporting documents for all institutions in
which SIGTARP found an external inquiry.
    SIGTARP found limitations and inconsistencies in the logging of telephone and
meeting conversations regarding individual CPP applicants, making it impossible to
examine the impact of all potential external inquiries on the CPP process. Available
information, however, gave little indication that external inquiries on CPP applica-
tions had affected the decision-making process. Of the 56 institutions SIGTARP
identified as subjects of external inquiries, the analysis showed that, as of June
17, 2009, only 16 applications (29%) had been funded, 12 (21%) were still pend-
ing within Treasury or a banking agency, and 26 (47%) did not receive CPP funds
because the institutions either withdrew or were recommended to withdraw their
applications, failed, or were acquired during the application review process. Two
institutions did not formally submit applications for funds.
    SIGTARP’s analysis of the funded applications showed that 13 of the 16 clearly
met all of the criteria established by Treasury. The remaining three institutions did
16              special inspector general I troubled asset relief program




     For a description of regulatory capitalization    not meet all of the CPP quantitative criteria but were approved based on mitigat-
     standards, see SIGTARP’s July Quarterly           ing factors considered by Treasury and banking agency officials. For example, one
     Report, page 55.                                  application’s approval was contingent on the institution raising additional capital to
                                                       bring it to a well-capitalized position, and another application’s approval focused on
                                                       the bank’s management plan to address a weak performance ratio. These mitigating
                                                       factors were not unique to institutions that were the subject of an external inquiry.
                                                       SIGTARP did find unique mitigating factors affecting one institution, however.
                                                       With respect to that institution, SIGTARP’s analysis indicated that discretion af-
                                                       forded this applicant in its approval was greater than that accorded other applica-
                                                       tions but was still consistent with applicable statutory requirements.
                                                           In light of these findings, and to improve transparency and further guard
                                                       against outside influence, SIGTARP made two recommendations:

                                                       •	 Treasury should record the vote count for Investment Committee decisions.
                                                       •	 Treasury and each individual participating Federal banking agency should
                                                          improve existing control systems to document the occurrence and nature of
                                                          external oral communication about actual and potential recipients of funding
                                                          under CPP and other similar TARP-assistance programs to which they may be
                                                          part of the decision making.

                                                         Treasury concurred with these recommendations and stated that it has imple-
                                                       mented them.

                                                       Executive Compensation Audit
                                                       SIGTARP’s third audit report, issued on August 19, 2009, is the first in a series of
                                                       audits on executive compensation. The audit examined TARP recipients’ efforts to
                                                       comply with evolving executive compensation restrictions. EESA placed restrictions
                                                       on executive compensation for all TARP recipients, and, in February 2009, the
                                                       American Recovery and Reinvestment Act of 2009 (“ARRA”) amended the EESA
                                                       executive compensation requirements. Neither EESA nor ARRA directly limits the
                                                       annual base pay of senior executive officers; rather, executive compensation restric-
                                                       tions placed thus far on CPP recipients have more specifically targeted incentive
                                                       compensation and severance payments.
                                                           In February 2009, SIGTARP sent survey letters to 364 financial and other insti-
                                                       tutions that had completed TARP funding agreements through January 2009. The
                                                       survey asked about the institutions’ efforts to comply with executive compensation
                                                       restrictions in place at the time of the survey and plans to comply with subsequent-
                                                       ly enacted changes in requirements. In light of the timing of the survey, many of
                                                       the responses reflected uncertainty and a wait-and-see attitude about the emerging
                                                       guidelines and restrictions on executive compensation. Nevertheless, many respon-
                                                       dents provided insights regarding their efforts to comply with the requirements as
                                                                             quarterly report to congress I october 21, 2009   17




they understood them. Survey responses regarding compliance with EESA bonus
and severance pay restrictions varied from simple statements of compliance to de-
tailed answers about efforts to assess compensation practices relative to the restric-
tions. Although some recipients expressed frustration with changing compensation
guidance and legislation, many respondents noted actions they were taking at the
time of the survey based on known requirements and with the understanding that
final guidelines were pending. These actions included taking steps to assess risks
and procure expert compensation consultants.
    The responses to this SIGTARP survey provide necessary context for examining
the evolution of executive compensation requirements, adding clarity to what was
required, and highlighting some relevant issues that could impact implementation of
requirements going forward. As the executive compensation picture becomes clearer
in the future, SIGTARP plans to conduct follow-up audits on this important topic to
build on these initial findings.

Original CPP and Bank of America Investments Audit
SIGTARP’s fourth audit report, issued on October 5, 2009, examined the review
and approval process associated with TARP assistance to the first nine CPP recipi-
ents, with emphasis on additional assistance to Bank of America subsequently au-
thorized under the Targeted Investment Program (“TIP”) and the Asset Guarantee
Program (“AGP”). The audit also examined selected issues and interactions among
Treasury, Federal Reserve, and Bank of America officials in connection with Bank
of America’s acquisition of Merrill Lynch and the timing of Government assistance
under TIP and AGP following the acquisition.
    On October 13, 2008, Treasury made the first use of its authority granted under
EESA by making capital injections into nine financial institutions, including Bank
of America, under CPP. Merrill Lynch, which was facing severe financial problems
and was in the process of being acquired by Bank of America, was also included in
the initial nine banks. Following the completion of the acquisition of Merrill Lynch
in January 2009, Bank of America received additional assistance under TIP and
announced loss protections under AGP.
    This report addressed three issues:

•	 the significant economic events in September 2008 that led Treasury to inject
   capital into the financial system
•	 the rationale and criteria used to select these institutions compared to those
   used to select subsequent institutions for CPP participation
•	 the basis for the decision by Treasury and Federal regulators to provide Bank of
   America with additional assistance following the acquisition of Merrill Lynch,
   and Federal efforts to forestall Bank of America from terminating the planned
   acquisition
18   special inspector general I troubled asset relief program




                                                The audit concluded that Treasury, the Federal Reserve, and FDIC imple-
                                            mented programs designed to help prevent further deterioration of the economy
                                            and significant risk of financial market collapse. Although it may be difficult in the
                                            near term to assess fully the impact of Treasury’s initial injections of capital to the
                                            first nine institutions on preventing an economic collapse, what is clear is that key
                                            Federal officials and senior industry leaders believed that the risks to the financial
                                            stability and economic growth of the United States and the rest of the world were
                                            too great for inaction.
                                                The audit also concluded that Treasury’s public description of the invest-
                                            ments in the first nine institutions provided an important lesson for Treasury on
                                            using greater care and accuracy in describing its actions and rationales in future
                                            programs. In an October 14, 2008, statement announcing the investment in the
                                            original nine institutions, then-Secretary of the Treasury Henry Paulson stated:
                                            “These are healthy institutions, and they have taken this step for the good of the
                                            U.S. economy. As these healthy institutions increase their capital base, they will be
                                            able to increase their funding to U.S. consumers and businesses.” The nine institu-
                                            tions were similarly described as healthy in a joint statement released that same day
                                            by Treasury, the Federal Reserve, and FDIC, and in a separate statement released
                                            by Treasury.
                                                It is apparent, however, that senior Government officials had concerns, at
                                            the time the nine institutions were selected, about the health of at least some of
                                            those institutions. The Federal Reserve had concerns over the financial condition
                                            of several of these institutions individually and for all of them collectively absent
                                            some Governmental action; and Secretary Paulson noted concerns about the
                                            potential of an outright failure of one of the institutions. In addition to the basic
                                            transparency concern that this inconsistency raises, by stating expressly that the
                                            “healthy” institutions would be able to increase overall lending, Treasury may have
                                            created unrealistic expectations about the institutions’ conditions and their ability
                                            to increase lending. Treasury lost credibility when lending at those institutions did
                                            not in fact increase and when subsequent events — the further assistance needed
                                            by Citigroup and Bank of America being the most significant examples — demon-
                                            strated that at least some of those institutions were not healthy.

                                            Audits Nearing Completion
                                            Several additional audits are nearing completion, and SIGTARP plans to issue
                                            reports on at least the two following audits over the next quarter:

                                            •	 AIG Counterparty Payments: This audit, conducted at the request of
                                               Representative Elijah Cummings and 26 other Members of Congress, examines
                                               payments made to AIG counterparties on behalf of AIG, which has received the
                                               largest amount of financial assistance from the Government during the current
                                                                            quarterly report to congress I october 21, 2009   19




   financial crisis. FRBNY reportedly made counterparty payments at 100% of face
   value to other financial institutions, including some foreign institutions and
   other financial institutions that had received financial assistance under TARP.
   Among other things, this audit will explore whether any efforts were made to
   negotiate a reduction in those payments. This report is expected to be issued in
   November 2009.
•	 Follow-up Assessments of Use of Funds by TARP Recipients: This audit
   follows up on SIGTARP’s earlier use of funds audit. It focuses on use of TARP
   funds by recipients receiving extraordinary assistance under the Automotive
   Industry Financing Program (“AIFP”) as well as insurance companies receiving
   assistance under CPP. This review seeks to provide a more complete picture
   of use of funds across a broader category of TARP recipients. This report is
   expected to be issued by the end of 2009.

Audits Underway
SIGTARP has a number of other audits that have been announced and on which
work has begun, including:

•	 CPP Warrant Valuation and Disposition Process: This audit, which is being
   conducted in response to requests by Senator Jack Reed and Representative
   Maurice Hinchey, seeks to determine (i) the extent to which financial institu-
   tions have repaid Treasury’s investment under CPP and which warrants as-
   sociated with that process were repurchased or sold; and (ii) what process and
   procedures Treasury has established to ensure that the Government receives fair
   market value for the warrants and the extent to which Treasury follows a clear,
   consistent, and objective process in reaching decisions where differing valua-
   tions of warrants exist. This audit complements a Congressional Oversight Panel
   (“COP”) report released on July 10, 2009, that examined the warrant valuation
   process.
•	 Home Affordable Modification Program: According to Treasury, approximate-
   ly three to four million homeowners could benefit from TARP’s HAMP, part of
   the broader MHA program. SIGTARP has launched an audit examining (i) the
   status of HAMP; (ii) the extent to which Treasury is measuring the program’s
   effectiveness; (iii) the extent to which lenders and loan servicers have developed
   capabilities to provide services under HAMP; and (iv) the challenges associated
   with HAMP implementation, execution, and assessment.
•	 Governance Issues Where U.S. Holds Large Ownership Interest: SIGTARP
   received a request from Senator Max Baucus to undertake a body of work ex-
   amining U.S. Government oversight of, and interaction with, the management
   of institutions such as AIG, General Motors (“GM”), Chrysler, and Citigroup,
   where the Government has or is approaching majority owner status. The audit,
20   special inspector general I troubled asset relief program




                                               which will be conducted jointly with the Government Accountability Office
                                               (“GAO”), will also examine the two mortgage giants Freddie Mac and Fannie
                                               Mae, which are under Government conservatorship.
                                            •	 Status of the Government’s Asset Guarantee Program with Citigroup: This
                                               review, requested by Representative Alan Grayson, addresses a series of ques-
                                               tions about the Government’s guarantee of certain Citigroup assets through
                                               AGP such as (i) the basis on which the decision was made to provide asset
                                               guarantees to Citigroup and the process for selecting the loans and securities
                                               to be guaranteed; (ii) the characteristics of the assets deemed acceptable for
                                               inclusion in the program and how those assets differ from other Citigroup as-
                                               sets; (iii) whether adequate risk management controls are in place to mitigate
                                               the risks to the taxpayer; and (iv) what safeguards exist to protect taxpayer
                                               interests and what the losses on the portfolio have been thus far.
                                            •	 Automobile Dealership Closures: This audit, undertaken at the requests of
                                               Senator Jay Rockefeller and Representative David Obey, examines the process
                                               used by GM and Chrysler to identify the more than 2,000 automobile dealer-
                                               ships that will be terminated in connection with the recent GM and Chrysler
                                               bankruptcies. The objectives of the audit will be to determine whether GM
                                               and Chrysler developed and followed a fair, consistent, and reasonable docu-
                                               mented approach; to understand the role of Government in these decisions;
                                               and to establish to what extent the terminations will lead to cost savings or
                                               other benefits to GM and Chrysler.
                                            •	 Review of CPP Applications Receiving Conditional Approval: This audit
                                               will examine those CPP applications that received preliminary approval from
                                               the Treasury Investment Committee conditioned upon the institutions meet-
                                               ing certain requirements before funds were disbursed. One example was
                                               Colonial Bancgroup (“Colonial”), which received CPP approval conditioned
                                               on Colonial raising $300 million in private capital. (As discussed later in this
                                               section, SIGTARP’s Investigations Division undertook a search warrant of
                                               Colonial offices in Florida, and Colonial has announced that it is the subject
                                               of a criminal investigation.) The audit will assess the basis for the decision to
                                               grant such conditional approvals and the bank regulators’ role in such deci-
                                               sions; whether and how timeframes are established for meeting such condi-
                                               tions; and whether internal controls are in place to ensure that the conditions
                                               are met before funds are disbursed.

                                                Materials related to SIGTARP’s audits, including the engagement letters
                                            describing the audits at the outset and the final audit reports themselves, can be
                                            found on SIGTARP’s website, www.SIGTARP.gov. Specific recommendations
                                            from audits released over the last quarter are discussed more fully in Section 5 of
                                            this report.
                                                                            quarterly report to congress I october 21, 2009   21




SIGTARP’s Investigations Activity
SIGTARP’s Investigations Division has developed into a sophisticated white-collar
investigative agency. Through September 30, 2009, SIGTARP has opened 61
and has 54 ongoing criminal and civil investigations. These investigations include
complex issues concerning suspected TARP fraud, accounting fraud, securities
fraud, insider trading, bank fraud, mortgage fraud, mortgage servicer misconduct,
fraudulent advance-fee schemes, public corruption, false statements, obstruction
of justice, money laundering, and tax-related investigations. While the vast majority
of SIGTARP’s investigative activity remains confidential, developments in several of
SIGTARP’s investigations have become public over the past quarter.

•	 Federal Trade Commission v. Federal Housing Modification
   Administration, Inc.: On September 16, 2009, the Federal Trade Commission
   (“FTC”) filed a complaint against Federal Housing Modification Administration,
   Inc. (“FHMA”) and its principals in the U.S. District Court for the District
   of Columbia. With investigative support from SIGTARP, in partnership with
   the U.S. Postal Inspection Service (“USPIS”), FTC alleged violations of the
   FTC Act and telemarketing sales rules by FHMA by misrepresenting itself as a
   Federal Government agency or affiliate and falsely claiming that it would obtain
   mortgage modifications for consumers for a $3,000 fee. SIGTARP’s investiga-
   tion of FHMA, in coordination with USPIS, is ongoing.
•	 Gordon Grigg Sentenced to 10 Years’ Imprisonment: On August 6, 2009,
   Gordon B. Grigg, a financial advisor and owner of ProTrust Management,
   Inc., formerly based in Franklin, Tennessee, was sentenced to serve a 10-year
   prison term after pleading guilty to four counts of mail fraud and four counts of
   wire fraud in the U.S. District Court for the Middle District of Tennessee. The
   charges stemmed from Grigg’s role in embezzling nearly $11 million from his
   investor clients through false statements, including claims that Grigg was mak-
   ing investments in fictional “TARP-guaranteed debt.” SIGTARP participated
   in the investigation of Grigg and supported the prosecution along with its law
   enforcement partners, the Securities and Exchange Commission (“SEC”), the
   Federal Bureau of Investigation (“FBI”), USPIS, the Tennessee Department of
   Commerce and Insurance, and the Franklin, Tennessee, Police Department.
   The prosecution was handled by the United States Attorney’s Office for the
   Middle District of Tennessee.
•	 Search Warrants Executed at Taylor, Bean & Whitaker Mortgage
   Corporation and Colonial Bancgroup: On August 3, 2009, SIGTARP, along
   with agents of the FBI, the Office of Inspector General of the Department
   of Housing and Urban Development (“HUD OIG”), and the FDIC Office of
   Inspector General (“FDIC OIG”), executed search warrants at Colonial and
   at the offices of Taylor, Bean & Whitaker Mortgage Corporation, formerly the
22   special inspector general I troubled asset relief program




                                               nation’s 12th-largest loan originator and servicer. Prior to the execution of these
                                               warrants, SIGTARP had served subpoenas on Colonial after Colonial had an-
                                               nounced that it had received preliminary contingent approval from Treasury to
                                               receive $553 million in TARP funding. The funding was never made. On August
                                               7, 2009, Colonial reported that it is the target of a criminal probe. This investi-
                                               gation is ongoing.
                                            •	 Bank of America Investigations: SIGTARP continues to play a significant
                                               role in the investigations by the New York State Attorney General’s Office, the
                                               SEC, and the Department of Justice (“DOJ”) into the circumstances of Bank of
                                               America’s merger with Merrill Lynch and its receipt of additional TARP funds
                                               under TIP.

                                            SIGTARP Hotline
                                            One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                            Hotline and thus provide an interface with the American public to facilitate the
                                            reporting of concerns, allegations, information, and evidence of violations of crimi-
                                            nal and civil laws in connection with TARP. Since its inception in February, the
                                            SIGTARP Hotline has received and analyzed more than 7,000 Hotline contacts.
                                            These contacts run the gamut from expressions of concern over the economy to
                                            serious allegations of fraud involving TARP, and almost half of SIGTARP’s investi-
                                            gations were generated in connection with Hotline tips. The SIGTARP Hotline is
                                            capable of receiving information anonymously, and confidentiality can and will be
                                            provided to the fullest extent possible. The American public can provide informa-
                                            tion by telephone, mail, fax, or online. SIGTARP has established a Hotline connec-
                                            tion on its website at www.SIGTARP.gov. SIGTARP honors all applicable whistle-
                                            blower protections.
                                                The SIGTARP Hotline has received and processed thousands of calls and faxes
                                            intended for Treasury’s MHA hotline. As a result of issues identified in these calls
                                            and faxes, the Investigations Division staff developed a series of recommenda-
                                            tions intended to improve implementation of MHA. These recommendations were
                                            delivered as a Management Alert to OFS. OFS responded favorably to the alert,
                                            making several policy changes to the MHA program. For example, OFS added
                                            SIGTARP’s Hotline number to its MHA materials so that homeowners can report
                                            any MHA-related fraud allegations to SIGTARP for further review and investiga-
                                            tion. Additionally, at the staff’s suggestion, OFS is considering the addition of
                                            contact numbers for both the mortgage servicing operators and the Homeowner’s
                                            HOPE Hotline. A copy of the Management Alert is included in Appendix H:
                                            “Correspondence.”
                                                                           quarterly report to congress I october 21, 2009   23




Coordination with Other Law Enforcement Agencies
As part of its coordination role, SIGTARP has been active in forging partnerships
with other criminal and civil law enforcement agencies. These relationships are de-
signed to benefit both investigations originated by other agencies, when SIGTARP
expertise can be brought to bear, and SIGTARP’s own investigations, which can be
improved by tapping into additional resources. In this regard:

•	 SIGTARP has continued to develop close working relationships with the FBI,
   the Internal Revenue Service Criminal Investigation Division (“IRS-CI”),
   USPIS, the United States Secret Service, U.S. Immigration and Customs
   Enforcement (“ICE”), the SEC, FTC, the investigations divisions of several
   offices within the Inspector General (“IG”) community, DOJ, and numerous
   United States Attorney’s Offices.
•	 SIGTARP continues to organize the activities of the TALF-PPIP Task Force,
   a multi-agency working group consisting of SIGTARP, FBI, the SEC, IRS-CI,
   ICE, Treasury’s Financial Crimes Enforcement Network (“FinCEN”), USPIS,
   and the Office of the Inspector General of the Board of Governors of the
   Federal Reserve System.
•	 The Special Inspector General is in regular contact with the SEC’s Director of
   the Enforcement Division, and SIGTARP has several ongoing investigations
   with the SEC.
•	 SIGTARP has brought on board a detailee from the SEC to assist in SIGTARP
   investigations and to serve as a liaison with the SEC.
•	 SIGTARP continues to coordinate with more than a dozen States Attorneys
   General.
•	 SIGTARP continues to work closely with the New York High Intensity Financial
   Crime Area (“NY HIFCA”). NY HIFCA provides SIGTARP with two dedicated
   financial analysts, supervised by a Senior Special Agent from ICE, to provide
   database search and analytical support. This relationship has generated several
   complex ongoing investigations.
•	 SIGTARP obtains access to Bank Secrecy Act (31 U.S.C. § 5311 et seq.) data-
   base services through FinCEN. SIGTARP is working with FinCEN to develop
   an advisory regarding TARP programs that will be sent to thousands of financial
   institutions.
•	 SIGTARP organized and hosted securitization and hedge fund training for nu-
   merous law enforcement partners; the training was provided by subject matter
   experts from the SEC.
24   special inspector general I troubled asset relief program




                                            Coordination with Other EESA Oversight Bodies
                                            EESA, as amended, is explicit in mandating that SIGTARP coordinate audits and
                                            investigations into TARP with the other primary oversight bodies: the Financial
                                            Stability Oversight Board (“FSOB”), COP, and GAO. Numerous other agencies,
                                            both in the IG community and among criminal and civil law enforcement agen-
                                            cies, potentially have responsibilities that touch on TARP as well. SIGTARP takes
                                            seriously its mandate to coordinate these overlapping oversight responsibilities,
                                            both to ensure maximum coverage and to minimize duplicative requests of TARP
                                            managers.
                                                SIGTARP and its partners have continued to have significant success on this
                                            front since the July Quarterly Report. These coordination efforts include:

                                            •	 bi-weekly conference calls with staff from FSOB
                                            •	 regular meetings with staff from COP, with whom SIGTARP is conducting a
                                               coordinated audit project concerning the warrant valuation and repurchase
                                               process
                                            •	 frequent interactions with GAO to coordinate ongoing and planned work, in-
                                               cluding an overarching joint audit examining the Government’s role in the man-
                                               agement of companies in which the Government holds a large ownership stake

                                            TARP-IG Council
                                            Due to the scope of the various programs under TARP, numerous Federal agen-
                                            cies have some role in administering or overseeing TARP programs. To further
                                            facilitate SIGTARP’s coordination role, the Special Inspector General founded and
                                            chairs the TARP Inspector General Council (“TARP-IG Council”), made up of the
                                            Comptroller General and those IGs whose oversight functions are most likely to
                                            touch on TARP issues. The Council meets regularly to discuss developments in
                                            TARP and to coordinate overlapping audit and investigative issues. The TARP-IG
                                            Council currently consists of:

                                            •	   The Special Inspector General
                                            •	   Inspector General of the Department of the Treasury
                                            •	   Inspector General of the Board of Governors of the Federal Reserve System
                                            •	   Inspector General of the Federal Deposit Insurance Corporation
                                            •	   Inspector General of the Securities and Exchange Commission
                                            •	   Inspector General of the Federal Housing Finance Agency
                                            •	   Inspector General of the Department of Housing and Urban Development
                                            •	   Treasury Inspector General for Tax Administration
                                            •	   Inspector General for the Small Business Administration
                                            •	   Comptroller General of the United States (head of GAO) or designee
                                                                              quarterly report to congress I october 21, 2009   25




Communications with Congress
One of the primary functions of SIGTARP is to ensure that Members of Congress
are kept adequately and promptly informed of developments in TARP initiatives
and of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector
General and SIGTARP staff regularly brief Members and staff. More formally, dur-
ing the quarter covered by this report, the Special Inspector General testified three
times before Congressional committees.

•	 On July 21, 2009, Special Inspector General Barofsky testified before the House
   Committee on Oversight and Government Reform, during a hearing entitled
   “Following the Money: Report of the Special Inspector General for the Troubled
   Asset Relief Program.” The hearing focused on SIGTARP’s July Quarterly
   Report, and Special Inspector General Barofsky discussed his recommendations
   to enhance the success of TARP and highlighted the major themes of his report.
•	 The next day, July 22, 2009, Special Inspector General Barofsky testified
   before the Oversight Subcommittee of the House Committee on Financial
   Services, during a hearing entitled “TARP Oversight: Warrant Repurchases and
   Protecting Taxpayers.” The hearing examined warrants issued in connection
   with TARP. These warrants give Treasury the right to buy shares of TARP recipi-
   ent stock at a set price at some point in the future and thus provide an opportu-
   nity for taxpayers to share in the upside for their TARP investments.
•	 On September 24, 2009, Special Inspector General Barofsky testified before the
   Senate Committee on Banking, Housing and Urban Affairs, during a hearing
   entitled “Emergency Economic Stabilization Act: One Year Later.” In light of the
   first anniversary of EESA, the hearing examined how TARP is working.

    Copies of all of the Special Inspector General’s written testimony, hearing
transcripts, and a variety of other materials associated with Congressional hearings
since SIGTARP’s inception are posted at www.SIGTARP.gov/reports.



Building the SIGTARP Organization
From the day that the Special Inspector General was confirmed by the Senate,
SIGTARP has worked to build its organization through various complementary
strategies, including hiring experienced senior executives who can play multiple
roles during the early stages of the organization, leveraging the resources of other
agencies, and, where appropriate and cost-effective, obtaining services through
SIGTARP’s authority to contract. Since the July Quarterly Report, SIGTARP has
continued to make substantial progress in building its operation.
26                special inspector general I troubled asset relief program




      For information on the Ensign-Boxer                Hiring
      Amendment, see SIGTARP’s July Quarterly
                                                         Each of SIGTARP’s divisions has continued the process of filling out its ranks. As
      Report, page 14.
                                                         of September 30, 2009, SIGTARP had more than 90 personnel, including detailees
                                                         from other agencies, with several new hires to begin over the coming weeks.
                                                             SIGTARP’s employees hail from many Federal agencies, including DOJ,
                                                         FBI, IRS-CI, Air Force Office of Special Investigations, GAO, Department of
                                                         Transportation, Department of Energy, the SEC, DOJ, U.S. Secret Service, United
                                                         States Postal Service, U.S. Army Criminal Investigation Command, Naval Criminal
                                                         Investigative Service, Treasury-Office of the Inspector General, Department
                                                         of Energy-Office of the Inspector General, Department of Transportation-
                                                         Office of the Inspector General, Department of Homeland Security-Office of
                                                         the Inspector General, FDIC OIG, Office of the Special Inspector General for
                                                         Iraq Reconstruction, and the HUD OIG. Hiring is actively ongoing, building to
                                                         SIGTARP’s current goal of approximately 160 full-time employees. The SIGTARP
                                                         organizational chart, as of September 30, 2009, is included in Appendix I:
                                                         “Organizational Chart.”

                                                         SIGTARP Budget
                                                         Section 121(j) of EESA provided $50 million in initial operating funds to
                                                         SIGTARP. When SIGTARP was established and its initial operating resources were
                                                         allocated, TARP was envisioned as a $700 billion asset purchase and guarantee
                                                         program. In the months that followed, however, TARP evolved into 12 separate
     Figure 1.1                                          programs that could involve far more than $700 billion, significantly expanding the
                                                         necessary scope of SIGTARP’s oversight operations and resource needs. SIGTARP
     SIGTARP FY 2010 PROPOSED BUDGET
     $ Millions, % of $48.4 Million                      anticipates that its total budget for FY 2010 will be $48.4 million, based on the as-
                                                         sumption that it will reach its target of 160 staff by early 2010. Approximately 50%
 Other $1.4       3%
                                                         of SIGTARP’s non-personnel costs will be payments to other Government agencies
 Transportation
                                                         for services provided. For a detailed breakdown of SIGTARP’s FY 2010 budget, see
 $3.1                        6%                          Figure 1.1.
          Advisory
                       15%                                   As noted in the July Quarterly Report, SIGTARP estimates that its initial oper-
          $7.3
                                                         ating funds will be expended by approximately the second quarter of FY 2010 and
                                      48% Personnel
                                            $23.2        that an additional $28.3 million will be needed to fully fund operations through
                          28%                            the fiscal year. Taking into account a portion of the $15 million in additional funds
         Rent, Services                                  made available by the Ensign-Boxer Amendment, which SIGTARP expects to
         $13.4
                                                         spend over three years (i.e., $5 million per year), SIGTARP has submitted a request
                                                         to Treasury for a $23.3 million amendment to the FY 2010 budget submission.
                                                         Although SIGTARP has been informed repeatedly by Treasury that it is taking steps
                                                         to meet this budgetary need, as of the drafting of this report, SIGTARP’s budgetary
                                                         needs for FY 2010 have not been met.
                                                                            quarterly report to congress I october 21, 2009   27




SIGTARP Independence and Position within Treasury
On April 15, 2009, Treasury asked the Office of Legal Counsel of the Department
of Justice (“OLC”) for an opinion on the following issues pertaining to SIGTARP:

•	 whether SIGTARP is located within Treasury
•	 whether the Special Inspector General was subject to the Secretary of the
   Treasury’s (“Treasury Secretary’s”) general supervision
•	 whether Treasury’s compliance with SIGTARP’s document requests waives
   privileges applicable to the subject documents

    In response, SIGTARP made clear its position that the language and legisla-
tive history of section 121 of EESA unambiguously provides that SIGTARP is
an independent entity within Treasury, that the Special Inspector General is not
subject to the Treasury Secretary’s supervision, and that privileges are not bars
to SIGTARP’s access to Treasury’s records and information. On August 7, 2009,
Treasury withdrew its request for an OLC opinion. SIGTARP views such with-
drawal as Treasury’s acknowledgement that SIGTARP is an independent entity
within Treasury and that the Special Inspector General is not subject to the super-
vision of the Treasury Secretary. SIGTARP commends Treasury’s decision to bring
to a close this needless distraction.

Physical and Technical SIGTARP Infrastructure
SIGTARP occupies office space at 1801 L Street, NW, in Washington, D.C., the
same office building in which most Treasury officials managing TARP are located.
SIGTARP is already occupying temporary quarters in that building while its two
permanent floors are being renovated. SIGTARP anticipates occupying its perma-
nent space by early 2010.
   SIGTARP has a website, www.SIGTARP.gov, on which it posts all of its re-
ports, testimony, audits, contracts, and more. The website prominently features
SIGTARP’s Hotline, which can also be accessed by phone at 877-SIG-2009
(877-744-2009).
   From the website’s inception through September 30, 2009, more than 26.5
million visitors have accessed SIGTARP’s website, and SIGTARP’s first three
reports to Congress have been downloaded, collectively, almost 1.5 million times.
28   special inspector general I troubled asset relief program
s ection 2   tarp overview
30   special inspector general I troubled asset relief program
                                                                           quarterly report to congress I october 21, 2009                                31




This section summarizes the activities of the U.S. Department of the Treasury
(“Treasury”) in its management of the Troubled Asset Relief Program (“TARP”). It
includes a financial overview and provides updates on established TARP programs,
including the status of TARP executive compensation restrictions.



Financial Overview of TARP                                                                Figure 2.1

As of September 30, 2009, Treasury had announced plans to spend up to $636.9              CUMULATIVE EXPENDITURES AND
                                                                                          REPAYMENTS, AS OF 9/30/2009
billion of the $699 billion maximum available under TARP as authorized by                 $ Billions
Congress in the Emergency Economic Stabilization Act of 2008 (“EESA”).1 Of
this amount, approximately $454.3 billion had been expended through 10 imple-
mented programs to provide support for U.S. financial institutions, companies, and                                                        $317.3
individual mortgage borrowers.2 Treasury has indicated that it is operating TARP                                           $72.9
as essentially a “revolving fund” — as recipients of TARP funds repay the original          $698.8

principal that they received from Treasury, the TARP funds available to Treasury                           $454.3
increase by that amount and are available for further investment in other TARP ac-
tivities subject to the overall limit established by EESA. As of September 30, 2009,
47 TARP recipients have paid back all or a portion of their principal or repurchased       Total TARP     TARP         TARP       TARP
                                                                                           Released       Expenditures Repayments Balance
shares for an aggregate total of $72.9 billion of repayments, leaving $317.3 bil-                                                 Remaining

lion, or 45.4% of TARP’s allocated $699 billion, available for distribution.3 Figure       Notes: Numbers affected by rounding. From a budgetary
                                                                                           perspective, expenditures are what Treasury has committed to
2.1 provides a snapshot of the cumulative expenditures and repayments as of                spend (e.g., signed agreements with TARP fund recipients).

                                                                                           Source: Treasury, Transactions Report, 10/2/2009.
September 30, 2009.
32             special inspector general I troubled asset relief program




                                                          In addition to the principal repayments, Treasury has received interest and divi-
     Warrant: The right, but not the obligation,      dend payments on its investments, as well as revenue from the sale of its warrants.
     to purchase a certain number of shares           These payments are deposited into Treasury’s general fund for the reduction of
     of common stock at a fixed price.                public debt and are not available to be re-issued by Treasury.4 As of September 30,
                                                      2009, $9.5 billion in interest, dividends, and other income had been received by
     Common Stock: Equity ownership that              the Government, and $2.9 billion in sales proceeds had been received from the sale
     entitles an individual to share in the cor-      of warrants and preferred stock received as a result of exercised warrants.5
     porate earnings and voting rights.
                                                          Of the $454.3 billion expended through TARP, $381.4 billion remains out-
                                                      standing (i.e., has not been paid back or repurchased) as of September 30, 2009,
     Preferred Stock: Equity ownership that
     usually pays a fixed dividend, gives the         largely in the form of equity ownership. For those companies from which Treasury
     holder a claim on corporate earnings             received equity and which have not yet repaid their TARP funds, Treasury, and
     superior to common stock owners, and             therefore the American taxpayer, is a shareholder. Treasury received equity owner-
     has no voting rights. Preferred stock also       ship interest in exchange for the overwhelming majority of its TARP investments.
     has priority in the distribution of assets       Treasury’s equity ownership came primarily in two forms: common stock and
     in the case of liquidation of a bankrupt         preferred stock, with the bulk of Treasury’s investments in preferred stock. In addi-
     company.
                                                      tion to its equity investment, Treasury also received senior subordinated debentures
                                                      under various TARP programs.
     Senior Subordinated Debenture: A sub-
     ordinated debenture is a loan or security            On September 24, 2009, the Assistant Secretary for Financial Stability testi-
     that is junior to other loans or securities      fied before Congress that Treasury’s Office of Financial Stability (“OFS”) is audited
     with regards to the debt holders’ claims         by the Government Accountability Office (“GAO”) and “will publish its first set of
     on assets or earnings. Senior debt hold-         annual financial statements on November 16th,” although Treasury has informed
     ers get paid in full before subordinated         SIGTARP that this may be pushed back 30 days.6 The financial statements will
     debt holders get paid. There are ad-             include estimates of the value of Treasury’s TARP investments. As noted in the
     ditional levels of priority among subordi-
                                                      Office of the Special Inspector General for the Troubled Asset Relief Program’s
     nated debt holders. CPP invests in senior
                                                      (“SIGTARP’s”) Quarterly Report to Congress dated July 21, 2009 (the “July
     subordinated debt.
                                                      Quarterly Report”), Treasury also receives monthly valuations of its portfolio from
                                                      its asset managers but has not shared them with the public.
                                                                             quarterly report to congress I october 21, 2009                                     33




    TARP consists of 12 announced programs, of which 10 have been implement-
ed. The programs can be categorized in four general groups depending on the type
of support each was designed to provide:

•	 Financial Institution Support Programs — These programs share a common,
   stated goal of stabilizing the financial market to avoid disruption and provide for
   a healthy economy.
•	 Asset Support Programs — These programs attempt to support asset values
   and liquidity in the market by providing funding to certain holders or purchasers
   of assets.
                                                                                           Figure 2.2
•	 Automotive Industry Support Programs — These programs were intended by
   Treasury to stabilize the American automotive industry.                                 TARP EXPENDITURES BY SUPPORT
                                                                                           CATEGORY, AS OF 9/30/2009
•	 Homeowner Support Program — This program and its initiatives were de-                   $ Billions, % of $454.3
   signed to help homeowners facing difficulty paying their mortgages by subsidiz-
   ing loan modifications, loan servicer costs, and potential equity declines in bank       Asset Support
                                                                                                Programs
   holdings.                                                                                        $26.7



   Figure 2.2 provides a breakdown of how TARP funding is distributed between
the four categories of programs.                                                           Homeowner
                                                                                              Support
                                                                                             Program
                                                                                                $27.1
                                                                                                                                     Financial Institution
                                                                                                  Automotive Industry
                                                                                                                                      Support Programs
                                                                                                   Support Programs
                                                                                                                                                 $319.5a
                                                                                                               $81.1b




                                                                                           Notes: Numbers affected by rounding. From a budgetary
                                                                                           perspective, expenditures are what Treasury committed to spend
                                                                                           (e.g., signed agreements with TARP fund recipients).
                                                                                           a
                                                                                             CPP funding of $70.7 billion had been repaid.
                                                                                           b
                                                                                             AIFP loan principal payments of $2.1 billion had been repaid. (Of
                                                                                             the $2.1 billion, $0.6 billion was from AWCP.)

                                                                                           Source: Treasury, Transactions Report, 10/2/2009.
34            special inspector general I troubled asset relief program




                                                     TARP Tutorial: Where Does TARP Money Come From?


                                                     TARP expenditures to date have been funded largely by increases in the national debt.7
                                                     EESA, the Act of Congress that created TARP, did not contain significant new taxes or other
                                                     revenue-raising measures — making it necessary to fund TARP with debt. This is not unusual
                                                     for emergency spending bills like EESA; because emergency spending bills are created
                                                     outside of the annual budget cycle, they often do not have dedicated sources of funds.8
                                                     EESA, in section 118, authorized Treasury to fund TARP through public debt, and, in section
                                                     122, authorized an increase of the national debt to $11.315 trillion, up from $10.615 tril-
                                                     lion.9 Subsequently, the American Recovery and Reinvestment Act (“ARRA”) authorized the
                                                     increase of the national debt limit to its current level of $12.104 trillion.
                                                         Taking on new debt is an action that has implications for the true cost of the U.S.
                                                     Government’s financial rescue initiatives. This tutorial explains the mechanics of how TARP is
                                                     funded and describes the factors that contribute to the true cost of TARP to the taxpayer.


                                                     TARP Congressional Appropriations Process
                                                     SIGTARP’s Initial Report to Congress dated February 6, 2009 (the “Initial Report”) provides
                                                     an overview of EESA’s legislative background and the process by which it became law.10
                                                     Emergency appropriations, like the one provided for in EESA, have often been used by the
                                                     Government to fund activities such as wartime operations, natural disaster recovery efforts,
                                                     and, now, the financial crisis bailout. In order to understand the appropriations process for
                                                     emergency spending bills, it is helpful to discuss briefly the Government’s annual budget
                                                     process.
                                                         The U.S. annual budget process is conceptually simple. In February of each year, the
                                                     President submits the Administration’s budget to Congress. By April or May, the budget com-
     Appropriation: Authority provided by            mittees in the Senate and House will have reviewed the budget and will pass a concurrent
     law for Federal agencies to incur obli-         budget resolution setting the overall spending limits. Within those limits, the appropriations
     gations and to make payments out of             committees then develop individual appropriations bills (each covering a particular depart-
     the Treasury for specified purposes.
                                                     ment or group of agencies) that generally must be passed by the end of the Federal fiscal
                                                     year (September 30). There are almost eight months between the President’s submission of
                                                     the initial budget request and the end of the fiscal year.11 Special appropriations rarely have
                                                     that much time for approval.
                                                         As outlined in SIGTARP’s Initial Report, the process of arriving at EESA was a complicat-
                                                     ed, but short, process. A request by the Executive Branch was submitted on
                                                     September 20, 2008, and a formal version of the request was introduced as a bill in
                                                                                     quarterly report to congress I october 21, 2009                             35




                                                                                                   Figure 2.3

                                                                                                   PERCENTAGE OF U.S. GOVERNMENT
Congress. The bill was rejected initially, re-written, approved by the Senate on October 1,        EXPENDITURES FUNDED THROUGH
2008, and approved by the House and signed into law by President George W. Bush on                 DEBT, 1990 − 2009
                                                                                                   Percent of Total Expenditures
October 3, 2008. In total, just two weeks had elapsed for a $700 billion appropriations
bill. Furthermore, given the urgency of the situation, EESA granted Treasury a great deal of       50%

discretion, which allowed for a streamlined approach to spending.                                   40

                                                                                                    30

Creating Funds for TARP                                                                             20

The portion of Government spending funded with debt has been rising. In fiscal year 2009,           10

the year that TARP was funded, the Federal Government paid for approximately 46% of its              0

expenditures by issuing new debt.12 This contrasts with a 10-year average of 9% as seen            -10

                                                                                                   -20
in Figure 2.3.13 This does not include the accumulation of other future liabilities such as
                                                                                                         1990                       2000                   2009*
Social Security and Medicare.14
                                                                                                   Note: Numbers affected by rounding. 2009 figures are
                                                                                                   estimated.

TARP Cash Flow Management                                                                          Sources: White House, FY2010 President’s Budget, Historical
                                                                                                   Tables, http://www.whitehouse.gov/omb/budget/fy2010/
The ultimate mix of tax revenues and debt proceeds used to fund TARP will be determined            assets/hist0121.xls, accessed 10/7/2009.


by the actual cash needs of the program. To meet cash outlay requirements, TARP will               Figure 2.4
draw from the same general public debt operations that Treasury uses to fund other pro-
                                                                                                   MONTHLY TARP OUTLAYS AGAINST
grams. Thus, it may be difficult to disaggregate specifically TARP-related borrowing from          MONTHLY TREASURY BORROWING,
other Treasury borrowing.                                                                          CUMULATIVE, 9/2008 – 8/2009
                                                                                                   $ Billions
   Periodically, Treasury estimates how many debt securities it will need to sell to meet
                                                                                                   $2000
all of its cash management goals and obligations, which may include the redemption of
maturing securities. If it does not have sufficient funds on hand, it schedules a sale of U.S.
                                                                                                    1500
Treasury securities to raise the funds. The Bureau of Public Debt (“BPD”) is the agency
within Treasury that issues the securities and manages interest payments and redemp-                1000

tions. For the monthly U.S. debt issuances and TARP outlays since September 2008, see
Figure 2.4.                                                                                           500



                                                                                                         0
                                                                                                             SEP OCT NOV DEC JAN FEB MAR APR MAY JUN JUL AUG

                                                                                                                 20O8                        20O9

                                                                                                                Cumulative New U.S. Debt — All Purposes
                                                                                                                Cumulative TARP Outlays


                                                                                                   Note: Numbers affected by rounding.

                                                                                                   Sources: Treasury Financial Management Service, Monthly
                                                                                                   Treasury Statement, various, http://www.fms.treas.gov/mts/
                                                                                                   backissues.html, accessed 9/30/2009; Treasury, Monthly
                                                                                                   Statement of the Public Debt of the United States, various,
                                                                                                   www.treasurydirect.gov/govt/reports/pd/ mspd/mspd.htm,
                                                                                                   accessed 9/30/2009.
36            special inspector general I troubled asset relief program




                                                     Treasury Security Issuance Process
     Treasury Bill: A short-term debt obliga-        To finance the public debt, Treasury sells a range of instruments, including bills, notes,
     tion of the U.S. Government with a              bonds, and Treasury Inflation-Protected Securities (“TIPS”) to institutional and individual
     maturity of up to one year. Sold in
                                                     investors through public auctions. The auctions occur regularly and have a set schedule,
     denominations of $100 with maturities
     of 4 weeks, 13 weeks, 26 weeks, and             occurring more frequently for the shorter-duration instruments and less frequently for the
     52 weeks. Sold at auction, with the             longer-duration instruments.
     price below face value (discount to par)            There are a number of steps to a Treasury auction. The schedule for Treasury auctions
     determining the yield.
                                                     is usually set and announced at least six months in advance. The details of each specific

     Treasury Note: A marketable U.S.                auction are publicly disclosed within a week of the actual auction.
     Government debt security with a fixed               Typically, investors who wish to purchase the new Treasury securities in the auction
     interest rate and a maturity between            send their orders to their brokers or to one of 18 primary dealers of Treasury securities.15
     1 and 10 years. Notes pay interest
                                                     The primary dealers are then required to bid in the auctions. When BPD holds an auction,
     semi-annually.
                                                     bids are submitted electronically and monitored by three sites simultaneously, including the
     Treasury Bond: A marketable, fixed-             Federal Reserve Bank of New York (“FRBNY”). Bids are arranged from lowest to highest
     interest U.S. Government debt security          yield (highest to lowest price) until the desired amount of the offering has been reached.
     with a maturity of between 10 and 30            The yield refers to the effective interest rate that a security pays — the lower the yield,
     years; paying interest semi-annually.
                                                     the cheaper it is for Treasury. Since auctions are conducted in a single price (or “Dutch

     Treasury Inflation-Protected Securities         auction”) format, all winning bidders pay the same price for the securities. On issue day,
     (“TIPS”): A special type of Treasury            Treasury delivers the securities to all auction winners, and the corresponding proceeds
     note or bond that offers protection             are deposited into the Treasury General Account at FRBNY. Individual investors may also
     from inflation. TIPS pay interest semi-
                                                     bid in the auctions through Treasury’s auction website, TreasuryDirect. Most individuals
     annually, but the coupon payments and
     underlying principal are automatically          who want to buy Treasuries at auction use TreasuryDirect rather than going through a
     increased to compensate for inflation           broker, and most institutional investors do so by contacting the institutional sales desk of a
     as measured by the consumer price               broker-dealer.
     index (“CPI”).
                                                         Treasury bonds, notes, and TIPS are issued with a stated interest rate on the face
                                                     amount and they pay out interest to the holder at a regular interval (every six months). The
     Primary Dealers: Banks and securities
     broker-dealers that trade in U.S. Gov-          price is determined at auction; the price can be less than, greater than, or equal to the
     ernment securities with FRBNY for the           face amount of the security. Alternatively, Treasury bills are issued at a discount from their
     purpose of carrying out open market             face value ($100) and are paid at their par (face amount) at maturity. Unlike investors in
     operations.
                                                     bonds, notes, and TIPS, investors in Treasury bills will not receive regular interest pay-
                                                     ments; rather they will receive the full face value of the bill — in this case $100 — at its
                                                     maturity. A $100 one-year bill, which sold for $95, would effectively mean an interest rate
                                                     of 5.3% for investors (calculated as ($100 – $95)/$95). The purchase prices of the bills at
                                                     auction are listed on Treasury’s auction results press release and are expressed as a price
                                                     per hundred dollars.16 It is difficult to ascertain the identities of the investors who bought
                                                                                        quarterly report to congress I october 21, 2009                               37




                                                                                                          Dutch Auction: Auction technique used
                                                                                                          for selling Treasury securities where
the Treasury debt used to pay for TARP. However, in the aggregate, the dominant inves-                    investors bid different prices (yields)
                                                                                                          for different quantities of the offered
tors in U.S. Government debt are Federal agencies. As seen in Figure 2.5, the Federal
                                                                                                          security. Treasury selects the highest
Government, including the Federal Reserve, owned a total of approximately 41.3% of the                    group of bids that sells the full offering,
outstanding debt as of March 31, 2009.                                                                    and all winning bidders pay the same
                                                                                                          price — the lowest bid within that win-
Cost of Capital Implications                                                                              ning group. For instance, three inves-
                                                                                                          tors place bids for $500 million each
Because the source of funding for TARP was an increase in the national debt (EESA
                                                                                                          worth of securities (on a $1 billion
raised the statutory limit of U.S. debt to $11.315 trillion from $10.615 trillion), there is              offering by Treasury). Treasury selects
a long-term cost to taxpayers in terms of the interest that they must pay for the duration                the two highest bidders (totaling $1
that any TARP funds remain outstanding.17 Fortunately, Treasury bonds are considered a                    billion) and they both pay the price bid
                                                                                                          by the lower of the two winners.
relatively risk-free investment, and their interest rate is one of the lowest in the world. Yet,
Treasury still must pay an interest rate that is sufficiently high enough to provide a positive
                                                                                                      Figure 2.5
real return to investors (the interest paid is greater than annual inflation). Although interest
                                                                                                      OWNERSHIP OF TREASURY SECURITIES,
rates are currently low, the added debt and associated stimulus could eventually lead to              AS OF 3/31/2009
                                                                                                      % of $11.1 trillion
the possibility of inflation, and the Federal Reserve might eventually have to raise interest
rates in response.                                                                                                              U.S. Government−
                                                                                                                                Intra-Governmental Holdings
    Also potentially affecting the Government’s cost of capital for TARP is the duration
                                                                                                                                38.6%
of the securities it issued to fund the program. Treasury has the ability to borrow short-
term, medium-term, and long-term funds, and the duration of Treasury’s debt instruments
directly affects the cost of Treasury’s borrowing. Typically, the cost of borrowing is higher
for longer-duration debt; the assumption is that shorter-term investments are less risky                                                 29.4%        Foreign and
                                                                                                                                                      International
(the change in interest rates is more predictable over a short period of time) and require a
lower effective interest rate. For instance, a one-month Treasury bill issued on October 28,
                                                                                                                                           Other Investors 7.9%
2008 (the date of the first CPP investments), carried a 0.4% interest rate, while a Treasury                                                 Mutual Funds 6.4%
security with 20 years to maturity carried a 4.5% interest rate.18 Although shorter-term                                                       State and
                                                                                                                                      Local Governments 4.7%
debt is generally less expensive, it provides less certainty about future borrowing costs.                                                Federal Reserve 4.4%
When the Government goes back to the market to issue new debt to replace its maturing                                              Private Pension Funds 2.7%
                                                                                                                                      U.S. Savings Bonds 1.7%
debt, the market may have changed and rates may have increased. Longer-term debt, on                                     State and Local Pension Funds 1.6%
the other hand, allows the Government to know what its interest cost will be for a longer                                           Insurance Companies 1.3%
                                                                                                                                   Depository Institutions 1.1%
period of time.
                                                                                                      Notes: Numbers affected by rounding. March 2009 is the most
                                                                                                      recent month with complete data available.


Methods for Calculating Interest Costs                                                                Sources: Treasury Financial Management Service, Ownership of
                                                                                                      Federal Securities, www.fms.treas.gov/bulletin/b2009-3ofs.doc,
                                                                                                      accessed 9/30/2009; Treasury, Monthly Statement of the Public
Determining the actual interest costs for Treasury’s TARP funds is difficult because, as              Debt of the United States, 3/31/2009,
                                                                                                      www.treasurydirect.gov/govt/reports/pd/mspd/2009/opds032009.
the GAO observed in its recent report (“Troubled Asset Relief Program: One Year Later,                pdf, accessed 10/7/2009.
38   special inspector general I troubled asset relief program




                                            Actions Are Needed to Address Remaining Transparency and Accountability Challenges”),
                                            “Treasury manages its cash position and debt issuances from a government-wide perspec-
                                            tive, therefore it is generally not possible to match TARP disbursements with specific debt
                                            securities issued by Treasury and the related borrowing costs.”19 Thus, any interest cost
                                            calculation would require an estimate based on certain assumptions. Potential approaches
                                            to estimating interest rates include:


                                            •	 Short-term cost of borrowing. This method assumes that the entire program is
                                               funded by short-term borrowings (maturing between 91 and 270 days) that are rolled
                                               over into new short-term borrowings as they come due. Using an average of short-
                                               term interest rates produces a much lower cost of borrowing than other methods but
                                               has the potential for higher volatility due to fluctuations in interest rates over time.
                                               Potentially useful in such short-term estimates is the “Economic Assumptions” sec-
                                               tion of the President’s annual budget submission, which provides a projected average
                                               91-day Treasury bill rate across several years to calculate projected short-term interest
                                               costs for a range of Government programs. The document provides short-term bor-
                                               rowing cost estimates of 0.2% for fiscal year 2009 and 1.6% for fiscal year 2010.20
                                            •	 Average blended cost of Treasury funds. A more medium-term approach is to
                                               attempt to use an index of short- and medium-term Treasury securities, since the dura-
                                               tion of Treasury’s TARP investments has ranged from a few months to nearly a year.
                                               Freddie Mac maintains an index called the Federal Cost of Funds Index (“COFI”) — an
                                               average of short- and medium-term Treasury interest rates. According to COFI, the
                                               blended interest rates of U.S. Treasury securities issued at the time of TARP’s inception
                                               was approximately 2.7% and has dropped below 2% in the second half of fiscal year
                                               2009.21
                                            •	 “All-In” cost of Treasury borrowing. This method is used by many Federal credit
                                               agencies and reflects the blended cost of all Treasury borrowings, including long-term
                                               maturities. This rate has the lowest risk of future interest rate increases but is also
                                               generally more expensive. Potentially useful in such conservative estimates is the
                                               “Economic Assumptions” section of the President’s annual budget submission, which
                                               uses a projected average 10-year Treasury note rate to calculate projected interest
                                               costs for a variety of programs. The document provides long-term borrowing cost
                                               estimates of 2.8% for fiscal year 2009 and 4.0% for 2010.22
                                                                                      quarterly report to congress I october 21, 2009              39




Treasury’s TARP Interest Cost Estimates
As cited in GAO’s report, Treasury used a short-term borrowing method for its estimates
of TARP interest costs.23 To do so, Treasury’s Office of Fiscal Projections attempted to               Cash Management Bill (“CMB”): A type
identify the actual debt offerings used to fund TARP expenditures. Treasury was able to                of short-term Treasury bill sold by Trea-
                                                                                                       sury to meet temporary funding short-
identify three specific cash management bills (“CMBs”) used to fund the majority of the
                                                                                                       falls. CMB maturities can range from a
initial $115 billion of TARP disbursements in late October 2008. These CMBs averaged                   few days to more than six months, and
221 days’ maturity at an average interest rate of 1.4%.24 Based on these calculations,                 auctions can be announced with less
Treasury “estimated TARP borrowing costs as a proportion of total monthly borrowing                    than one week’s notice.

costs on a rolling basis since program inception. These borrowing costs include refinanc-
                                                                                                       Return on Investment (“ROI”): A mea-
ing TARP when initial financing matured as well as the reduction of financing costs due                sure of the efficiency of one invest-
to repayments.”25 Using this method, Treasury estimates that approximately 90% of the                  ment option versus other options.
securities used to fund TARP were short-term bills, with interest rates between 0 and 1%.              Calculated as a percentage: (the gain
                                                                                                       from an investment minus the cost of
Treasury estimates that the dollar-weighted average cost of funding was below 0.9% for
                                                                                                       the investment) divided by the cost of
its TARP borrowings for a total interest cost of $2.3 billion, as of September 30, 2009.26
                                                                                                       that investment.
Calculations using an average blended cost of Treasury funds would indicate a cost of at
least twice this amount, and an “all-in” estimate would yield an amount 3 to 4 times the
$2.3 billion estimate.27



Other Factors Affecting Return on TARP Investments
The $699 billion in potential TARP expenditures would account for approximately 6% of the
national debt limit as specified in EESA section 122 (and 5% of the 2008 Gross Domestic
Product (“GDP”)), or approximately $5,000 per U.S. taxpayer.28 Given the magnitude of
this potential investment, it is important to pay close attention to the costs that affect the
return on TARP investments.
    There has been considerable discussion of the potential return on investment (“ROI”)
for TARP. Considering the size of the dividend payments from many TARP recipients and
the value from exercising or selling warrants for shares of participating institutions, some
observers have even posited that TARP may ultimately be deficit neutral, or even net
positive, to Treasury and taxpayers. However, these estimates of return can be mislead-
ing. Each TARP program has different characteristics and potential for returns. HAMP,
for example, is a pure incentive-payout program and results in no repayment of funds to
Treasury; it is designed to produce benefits to the market, but not a direct monetary return
to the taxpayers. On the other hand, there will be returns for CPP; but these returns will
depend on Treasury’s ability to collect dividends, convert warrants into cash, and recover
40            special inspector general I troubled asset relief program




                                                     invested principal. In particular, failures to recover significant amounts of principal could
     Crowding Out: A term historically used          entirely wipe out some of the early TARP returns.
     to describe the impact on the private               In addition to program-specific return characteristics, there are a wide range of costs
     sector of heavy Government debt                 that must be applied against any calculation of TARP ROI, foremost of which is the cost
     issuance. This drives up interest rates,
                                                     of capital that Treasury pays on the debt it uses to fund TARP investments, as previously
     forcing the private sector to pay more,
     and edging it out of the market. Just           discussed. This cost may have significant refinancing risk if, as Treasury asserted, TARP
     as private-sector issuances have to             has been funded predominantly with short-term instruments. These short-term obligations
     compete with the lending Treasury did           must be refinanced continually, through subsequent Treasury auctions, or repaid. This
     for TARP, so too will other Treasury
                                                     cycle will continue until all TARP funds are repaid, and the interest rates of instruments
     issuances be forced to pay the higher
     interest rates resulting from the TARP          from subsequent debt auctions may be heavily influenced by inflationary pressure which
     borrowing.                                      could drive up interest rates and result in a significant increase in the cost of financing
                                                     TARP-related debt.
     Moral Hazard: A term used in econom-
                                                         The ultimate cost of TARP to U.S. taxpayers will not be known for some time, and
     ics and insurance to describe the lack
                                                     in fact a true net cost may never be known with precision. Many factors have yet to be
     of incentive individuals have to guard
     against a risk when they are protected          determined: the net recovery value of investments made by Treasury; the cost to the
     against that risk (for example, through         Federal Reserve, the Federal Deposit Insurance Corporation (“FDIC”), and other agencies
     an insurance policy). In the context            acting in concert with TARP; the administrative costs of setting up OFS and the various
     of TARP, it refers to the danger that
                                                     oversight agencies, including SIGTARP; and other administrative expenses. However, the
     private-sector executives/investors/
     lenders may behave more recklessly              Congressional Budget Office (“CBO”) estimated the net cost of TARP as $356 billion (as
     believing that the Government has               of March 2009), which it later reduced to $159 billion (as of June 2009).29 The methodol-
     insulated them from the risks of their          ogy used by CBO, however, does not include indirect costs or other externalities that will
     actions.
                                                     impact the costs of the program, both tangible and intangible, possibly including:


                                                     •	 higher borrowing costs in the future as a result of increased Treasury borrowing levels
                                                     •	 a potential ‘crowding out effect’ on prospective private-sector borrowers, potentially
                                                        driving private-sector borrowers out of the market
                                                     •	 moral hazard, or unnecessary risk-taking in the private sector due to the bailout
                                                     •	 costs incurred by the other financial-rescue-related Federal agencies that have not yet
                                                        been quantified
                                                                            quarterly report to congress I october 21, 2009             41




Financial Institution Support Programs
The primary tool of TARP for assisting financial institutions thus far has been a
direct investment of capital. Financial institutions, for TARP purposes, include
banks, bank holding companies and, if deemed critical to the financial system,               Systemically Significant: A financial
certain systemically significant institutions.                                               institution whose failure would impose
                                                                                             significant losses on creditors and
                                                                                             counterparties, call into question the
•	 Capital Purchase Program (“CPP”). Under CPP, TARP funds are used to pur-
                                                                                             financial strength of other similarly
   chase directly preferred stock or subordinated debentures in qualified financial
                                                                                             situated financial institutions, disrupt
   institutions. Treasury created CPP to provide funds to “stabilize and strengthen
                                                                                             financial markets, raise borrowing
   the U.S. financial system by increasing the capital base of an array of healthy,          costs for households and businesses,
   viable institutions, enabling them [to] lend to consumers and business[es].”30            and reduce household wealth.
   As of September 30, 2009, Treasury had invested $204.6 billion in institutions
   through CPP.31 This represents 94% of the maximum projected funding total of
   $218 billion under the program, of which $70.7 billion had been repaid as of
   September 30, 2009.32 See the “Capital Purchase Program” discussion in this
   section for more detailed information.
•	 Capital Assistance Program (“CAP”). Similar to CPP, the goal of CAP is to
   “ensure the continued ability of U.S. financial institutions to lend to creditwor-
   thy borrowers in the face of a weaker than expected economic environment and
   larger than expected potential losses.”33 As of September 30, 2009, no transac-
   tions had occurred under this program. See the “Capital Assistance Program”
   part of this section for a more detailed discussion on this program.
•	 Systemically Significant Failing Institutions (“SSFI”) Program. Under the
   stated terms of the SSFI program, Treasury invests in systemically significant in-
   stitutions to prevent their failure and the market disruption that would follow.34
   As of September 30, 2009, Treasury, through SSFI, had made and is commit-
   ted to make further investments in one institution — American International
   Group, Inc. (“AIG”). This support was provided through two transactions —
   $40 billion for the purchase of preferred stock from AIG to repay debt owed to
   the Federal Reserve and approximately $29.8 billion for an equity capital facility
   that AIG can draw on as needed.35 As of September 30, 2009, AIG had drawn
   down $3.2 billion in equity from the capital facility.36 See the “Systemically
   Significant Failing Institutions” portion of this section for a more detailed dis-
   cussion of the AIG transactions.
•	 Targeted Investment Program (“TIP”). The stated objective of TIP is to
   make targeted investments in financial institutions “to avoid significant market
   disruptions resulting from the deterioration of one financial institution that can        Senior Preferred Stock: Shares that
   threaten other financial institutions and impair broader financial markets and            give the stockholder priority dividend
   pose a threat to the overall economy.”37 As of September 30, 2009, Treasury               and liquidation claims over junior pre-
   had made two expenditures under this program totaling $40 billion — pur-                  ferred and common stockholders.
   chasing $20 billion of senior preferred stock from each of Citigroup and Bank
42            special inspector general I troubled asset relief program




                                                        of America.38 In addition to the senior preferred stock, Treasury also received
                                                        warrants of common stock for its investment in these financial institutions. See
                                                        the “Targeted Investment Program” portion of this section for a more detailed
                                                        discussion on these two transactions.
                                                     •	 Asset Guarantee Program (“AGP”). Through AGP, Treasury’s stated goal is to
                                                        use insurance-like protections to help stabilize at-risk financial institutions. AGP
                                                        provides certain loss protections on a select pool of mortgage-related or similar
                                                        assets held by participants whose portfolios of distressed or illiquid assets pose a
     Illiquid Assets: Assets that cannot be             risk to market confidence.39 Treasury, FDIC, and the Federal Reserve agreed to
     quickly converted to cash. CPP invests             provide certain loss protections with respect to $301 billion in troubled assets
     in senior subordinated debt.                       held by Citigroup.40 Should Citigroup’s losses rise above $39.5 billion, Treasury
                                                        is obligated to pay up to $5 billion in protection toward additional losses; as
     Commercial Mortgage-Backed Securi-                 of September 30, 2009, Citigroup had not received any funds from AGP.41
     ties (“CMBS”): A financial instrument
                                                        A similar arrangement with Bank of America was announced on January 16,
     that is backed by a commercial real
                                                        2009; Bank of America, however, chose not to go through with the program. On
     estate mortgage or a group of com-
                                                        September 21, 2009, Bank of America agreed to compensate the Government
     mercial real estate mortgages that are
                                                        $425 million for the economic benefit it received while the market believed
     packaged together.
                                                        that the Government would be backing its assets. See the “Asset Guarantee
                                                        Program” discussion in this section for more information on this program.

                                                     Asset Support Programs
                                                     The purpose of these programs is to support the liquidity and market value of as-
                                                     sets owned by financial institutions. These assets may include various classes of
                                                     asset-backed securities (“ABS”) and several types of loans. These programs seek
                                                     to bolster the balance sheets of the financial firms and help free up capital so that
                                                     financial institutions can extend more credit to support the U.S. economy.

                                                     •	 Term Asset-Backed Securities Loan Facility (“TALF”). TALF was originally
                                                        designed to increase the credit available for consumer and small-business loans
                                                        through a Federal Reserve loan program backed by TARP funds. TALF pro-
                                                        vides non-recourse loans to investors secured by certain types of ABS including
                                                        credit card loans, student loans, floorplan loans, insurance premium finance
                                                        loans, loans guaranteed by the Small Business Administration (“SBA”), residen-
                                                        tial mortgage servicing advances, and commercial mortgage-backed securities
                                                        (“CMBS”). According to Treasury, it will provide up to $80 billion42 of TARP
                                                        funds to support this program (Treasury’s current TALF commitment is $20
                                                        billion, but should TALF exceed a total of $200 billion in loans extended by
                                                        FRBNY, then Treasury will commit additional TARP funds). As of September
                                                        30, 2009, FRBNY had facilitated seven TALF subscriptions of non-mortgage-
                                                        related ABS, totaling approximately $47.3 billion of TALF borrowings.43 In ad-
                                                        dition, as of September 30, 2009, FRBNY had conducted four subscriptions for
                                                                             quarterly report to congress I october 21, 2009              43




   CMBS for which $4.2 billion in loans were issued.44 An overview of TALF, later
   in this section, provides more information on these activities.
•	 Public-Private Investment Program (“PPIP”). As originally announced,
   Treasury, in coordination with FDIC and the Federal Reserve, intended PPIP
   to improve the health of financial institutions and restart frozen credit markets
   through the purchase of legacy assets (e.g., legacy loans, CMBS, residential
   mortgage-backed securities (“RMBS”)).45 PPIP was intended to involve invest-               Legacy Assets: Also commonly
   ments made through multiple Public-Private Investment Funds (“PPIFs”) in                   referred to as troubled or toxic assets,
   two subprograms — one to purchase real estate-related loans (“legacy loans”)               legacy assets are real estate-related
   and the other to purchase real estate-related securities (“legacy securities”) from        loans and securities (legacy loans and
   financial institutions. FDIC launched a pilot Legacy Loans Program on July                 legacy securities) that remain on banks’
   31, 2009, with assets it had seized from bankrupt institutions. FDIC did not               balance sheets that have lost value but
   use TARP funds for this pilot program and is considering an expansion of this              are difficult to price due to the recent
   program without TARP funding.46 The Legacy Securities Program continues to                 market disruption.
   develop, and on July 8, 2009, Treasury announced the selection of nine PPIF
                                                                                              Legacy Loans: Underperforming real
   managers that will receive debt and equity financing of up to $30 billion in
                                                                                              estate-related loans held by a bank
   TARP funds during the initial capital-raising efforts for the PPIFs.47 Treasury
                                                                                              that it wishes to sell, but recent market
   has stated that PPIP, originally intended to involve up to $1 trillion in total
                                                                                              disruptions have made difficult to price.
   funds, may involve up to $75 billion of TARP funds.48 See the “Public-Private
   Investment Program” discussion later in this section for details about the pro-            Legacy Securities: Troubled real estate-
   gram structure and fund manager terms.                                                     related securities (RMBS, CMBS), and
•	 Unlocking Credit for Small Businesses (“UCSB”). Under UCSB, Treasury                       other asset-backed securities (“ABS”)
   announced that it will begin purchasing up to $15 billion in securities backed             lingering on institutions’ balance sheets
   by SBA loans.49 As of September 30, 2009, no transactions had occurred under               because their value could not be
   this program. See the discussion of “Small Business Administration Loan                    determined.
   Support” in this section for more information on the program.

Automotive Industry Support Programs
The stated objective of TARP’s automotive industry support programs is to “prevent
a significant disruption of the American automotive industry, which would pose a
systemic risk to financial market stability and have a negative effect on the econo-
my of the United States.”50

•	 Automotive Industry Financing Program (“AIFP”). Under this program,
   Treasury made emergency loans to Chrysler Holding LLC (“Chrysler”), Chrysler
   Financial Services Americas LLC (“Chrysler Financial”), and General Motors
   Corporation (“GM”). In addition to these investments, Treasury purchased
   senior preferred stock from GMAC LLC (“GMAC”). Treasury also provided
   financing to Chrysler and GM to assist in their restructuring process. As of
   September 30, 2009, Treasury had expended or committed $76.9 billion in
   AIFP investments, of which $1.5 billion had been repaid.51 Treasury received an
44            special inspector general I troubled asset relief program




                                                        8% pro forma equity stake in Chrysler and a 61% equity stake in General Motors
                                                        as partial repayment of TARP funds.52 See the discussion of “Automotive
     Pro Forma: In finance, refers to the
                                                        Industry Financing Program” later in this section for a detailed discussion on
     presentation of hypothetical financial
     information assuming that certain as-              these companies.
     sumptions will happen.                          •	 Auto Supplier Support Program (“ASSP”). The stated purpose of ASSP is to
                                                        provide Government-backed financing to break the adverse credit cycle affect-
                                                        ing the auto suppliers and the manufacturers by “providing suppliers with the
                                                        confidence they need to continue shipping their parts and the support they need
                                                        to help access loans to pay their employees and continue their operations.”53
                                                        Treasury’s original commitment under this program was $5 billion, but as of
                                                        September 30, 2009, it had been reduced to $3.5 billion — $1.0 billion for
                                                        Chrysler and $2.5 billion for GM.54 After emerging from bankruptcy, the new,
                                                        non-bankrupt GM and Chrysler assumed the debts associated with ASSP.55
                                                        See the discussion of “Auto Supplier Support Program” in this section for more
                                                        information.
                                                     •	 Auto Warranty Commitment Program (“AWCP”). The Auto Warranty
                                                        Commitment Program was designed by the Administration with the intention of
                                                        bolstering consumer confidence in automobile warranties on Chrysler- and GM-
                                                        built vehicles. Under this program, Government-backed financing was to be
                                                        provided for the warranties of cars sold during the Chrysler and GM restructur-
                                                        ing periods. As reported in SIGTARP’s July Quarterly Report, Treasury funded
                                                        $640.7 million toward this program — $280.1 million was made available to
                                                        Chrysler and $360.6 million was made available to GM.56 As of September
                                                        30, 2009, the entire $640.7 million had been repaid with interest, and the
                                                        program was terminated in July 2009.57 See the discussion of “Auto Warranty
                                                        Commitment Program” in this section for more information.

                                                     Homeowner Support Program
                                                     The homeowner support program and its initiatives are aimed at assisting troubled
                                                     homeowners and financial institutions holding the affected assets.

                                                     •	 Making Home Affordable (“MHA”) Program. According to Treasury, MHA
                                                        is a foreclosure mitigation plan intended to “help bring relief to responsible
                                                        homeowners struggling to make their mortgage payments while preventing
                                                        neighborhoods and communities from suffering the negative spillover effects of
                                                        foreclosure, such as lower housing prices, increased crime, and higher taxes.”58
                                                        Within MHA, there are three major initiatives, only one of which involves TARP
                                                                           quarterly report to congress I october 21, 2009                                     45




   funds — the Home Affordable Modification Program (“HAMP”). Under HAMP,
   Treasury announced that up to $50 billion of TARP funds could be expended
   for this $75 billion program.59 As of September 30, 2009, $27.1 billion in TARP
   funds had been allocated to the program. See the “Making Home Affordable”             Figure 2.6
   discussion in this section for more detailed information.                             PROJECTED TARP FUNDING,
                                                                                         BY PROGRAM
                                                                                         $ Billions, % of $699 Billion
   The following figures and tables provide a status summary of the implemented
and announced TARP and TARP-related initiatives:                                                          UCSB 2%             ASSPd $3.5 1%
                                                                                                          $15.0
                                                                                                                               AGP $5.0 1%

•	 projected TARP funding by program (Figure 2.6)                                                      TIP $40.0
•	 expenditure levels by program as of September 30, 2009 (Table 2.1)                        MHA $50.0
                                                                                                                  6%                       CPP $218.0
                                                                                                            6%                    21%          ($70.7)a
•	 total potential funds subject to SIGTARP oversight as of September 30, 2009
   (Table 2.2)                                                                          SSFI $69.8 10%
•	 cumulative expenditures over time for implemented programs (Figure 2.7)
•	 summary of dividend and interest payments received by program (Table 2.3)                             11%                         20%       New
                                                                                         PPIP $75.0
                                                                                                                                               Programs, or
•	 expenditures by program snapshot as of September 30, 2009 (Figure 2.8)                                       11%                            Remaining
                                                                                                                           11%                 Funds for
•	 summary of terms of TARP agreements (Table 2.4 and Table 2.5)                                   AIFP $77.6b,c                               Existing
•	 summary of largest warrant positions held by Treasury by program as of                               ($2.1)         TALF $80.0e             Programs
                                                                                                                                               $138.0
   September 30, 2009 (Table 2.6)
                                                                                             Implemented Programs
                                                                                             Announced Programs
  For a reporting of all purchase, obligations, expenditures, and revenues of                Remaining Funds
TARP, see Appendix C: “Reporting Requirements.”
                                                                                         Notes: Numbers affected by rounding. Data as of 9/30/2009.
                                                                                         Funding for Capital Assistance Program (“CAP”) to be determined.
                                                                                         a
                                                                                           CPP funding of $70.7 billion had been repaid.
                                                                                         b
                                                                                           AIFP loan principal payments of $2.1 billion had been repaid.
                                                                                           (Repayment of $0.6 billion was from AWCP.)
                                                                                         c
                                                                                           For the purpose of this chart, AIFP includes the $641 million for
                                                                                           AWCP, which was fully repaid as of 7/10/2009.
                                                                                         d
                                                                                           Treasury’s original commitment under this program was $5 billion,
                                                                                           but was subsequently reduced to $3.5 billion effective 7/1/2009.
                                                                                         e
                                                                                           Treasury’s current TALF commitment is $20 billion but should TALF
                                                                                           exceed a total of $200 billion in loans extended by FRBNY, then
                                                                                           Treasury’s commitment could reach $80 billion.

                                                                                         Sources: See final endnote.
46             special inspector general I troubled asset relief program




     Table 2.1

     Expenditure Levels by Program, AS OF 9/30/2009                        ($ Billions)
                                                                                             Amount            Percent (%)   Section Reference
     Authorized Under EESA                                                                            $700.0
     Released Immediately                                                           $250.0                          35.8%
     Released Under Presidential Certificate of Need                                 100.0                          14.3%
     Released Under Presidential Certificate of Need &                               350.0                          50.1%
     Resolution to Disapprove Failed
     Helping Families Save Their Homes Act of 2009                                        (1.2)                     (0.2%)
     Total Released                                                                                   $698.8      100.0%
     Less: Expenditures by Treasury Under TARPa
     Capital Purchase Program (“CPP”):
            Bank of Americab                                      $25.0                                              3.6%
            Citigroup                                              25.0                                              3.6%
            JPMorganc                                              25.0                                              3.6%    “Financial Institution Support
            Wells Fargo                                            25.0                                              3.6%    Programs”
            The Goldman Sachsc                                     10.0                                              1.4%
            Morgan Stanley c                                       10.0                                              1.4%
            Other Qualifying Financial Institutionsd               84.6                                             12.1%
     CPP Total                                                                     $204.6                          29.3%
     Systemically Significant Failing Institutions (“SSFI”)
     Program:                                                                                                                “Financial Institution Support
                                                                                                                             Programs”
           American International Group, Inc. (“AIG”)             $69.8                                             10.0%
     SSFI Total                                                                      $69.8                         10.0%
     Targeted Investment Program (“TIP”):
                                                                                                                             “Financial Institution Support
            Bank of America Corporation                           $20.0                                              2.9%    Programs”
            Citigroup, Inc.                                        20.0                                              2.9%
     TIP Total                                                                       $40.0                           5.7%
     Asset Guarantee Program (“AGP”):                                                                                        “Financial Institution Support
            Citigroupe                                             $5.0                                              0.7%    Programs”
     AGP Total                                                                        $5.0                           0.7%
     Term Asset-Backed Securities Loan Facility (“TALF”):
                                                                                                                             “Asset Support Programs”
            TALF LLCf                                             $20.0                                              2.9%
     TALF Total                                                                      $20.0                           2.9%
     Automotive Industry Financing Program (“AIFP”):
            GM                                                    $49.5                                              7.0%
                                                                                                                             “Automotive Industry Support
            GMAC                                                   13.4                                              1.9%    Programs”
            Chryslerg                                              12.5                                              1.8%
            Chrysler Financialh                                     1.5                                              0.2%
     AIFP Total                                                                      $76.9                         11.0%
     Automotive Supplier Support Program (“ASSP”):
                                                                                                                             “Automotive Industry Support
           GM Suppliers Receivables LLCi                           $2.5                                              0.4%    Programs”
           Chrysler Holding LLCi                                    1.0                                              0.1%
     ASSP Total                                                                       $3.5                           0.5%
     Automotive Warranty Commitment Program (“AWCP”):
                                                                                                                             “Automotive Industry Support
           GM                                                      $0.4                                              0.1%    Programs”
           Chrysler                                                 0.3                                              0.0%
     AWCP Total                                                                       $0.6                           0.1%
                                                                                                                           quarterly report to congress I october 21, 2009                                    47




Expenditure Levels by Program, AS OF 9/30/2009                                                  ($ Billions)
                                                                                                                   Amount                    Percent (%)            Section Reference
Legacy Securities Public-Private Investment Program
(“PPIP”)
       TCW Senior Mortgage Securities Fund, L.P.                                          $3.3                                                        0.5%          “Asset Support Programs”
       Invesco Legacy Securities Master Fund, L.P.                                         3.3                                                        0.5%
PPIP Total                                                                                                     $6.7                                   1.0%
Making Home Affordable (“MHA”):
       Countrywide Home Loans Servicing LP                                                $4.5                                                       0.6%
       Wells Fargo Bank, NA                                                                2.5                                                       0.4%
       CitiMortgage                                                                        2.1                                                       0.3%
       GMAC Mortgage                                                                       3.6                                                       0.5%
                                                                                                                                                                    “Homeowner Support Program”
       Wachovia Mortgage                                                                   1.4                                                       0.2%
       American Home Mortgage Servicing                                                    1.2                                                       0.2%
       J.P. Morgan Chase Bank                                                              2.7                                                       0.4%
       Litton Loan Servicing                                                               1.1                                                       0.2%
       Other Financial Institutionsj                                                       8.1                                                       1.2%
MHA Total                                                                                                    $27.1                                   3.9%
Subtotal - TARP Expenditures                                                                                                    $454.3              65.0%
TARP Repaymentsk                                                                                                                $(72.9)           (10.4%)
Balance Remaining of Total Funds Made
Available as of 9/30/2009                                                                                                       $317.3              45.4%

Notes: Numbers affected by rounding. Expenditures do not reflect any repayments received.
a
    From a budgetary perspective, expenditures are what Treasury has committed to spend (e.g., signed agreements with TARP fund recipients).
b
    Bank of America’s share is equal to two CPP investments totaling $25 billion, which is the sum of $15 billion received on 10/28/2008 and $10 billion received on 1/9/2009.
c
    These institutions repaid their CPP funds pursuant to Title VII, section 7001(g) of the American Recovery and Reinvestment Act of 2009.
d
    Other Qualifying Financial Institutions (“QFIs”) include all QFIs that have received less than $10 billion through CPP.
e
    Treasury committed $5 billion to Citigroup under AGP; however, this funding is conditional based on losses realized and may potentially never be expended. This amount is not an actual outlay of cash.
f
   Treasury committed $20 billion to TALF; however only $100 million had been funded as of 9/30/2009.
g
    According to Treasury, the 4/29/2009 $500 million expansion of the 1/2/2009 $4 million loan was de-obligated before being funded. Treasury de-obligated a further $1.9 billion in debtor-in-possession
    financing to Chrysler on 6/30/2009.
h
    Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
i
    Represents a special purpose vehicle (“SPV”) created by the manufacturer. Balance represents the maximum loan amount, which will be funded incrementally. Treasury’s original commitment under this 	
    program was $5 billion, but was subsequently reduced to $3.5 billion effective 7/1/2009.
j
   Other Financial Institutions that have received less than $1 billion through MHA.
k
    As of 9/30/2009, CPP repayments total $70.7 billion and AIFP loan repayments total $2.1 billion.

Sources:
Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A Joint Resolution Relating to the Disapproval of Obligations under the Emergency Economic Stabilization Act of
2008,” 1/15/2009, www.thomas.loc.gov, accessed 1/25/2009; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury, Transactions Report, 10/2/2009.
48           special inspector general I troubled asset relief program




     Table 2.2

     Total Potential funds subject to sigtarp oversight, As of 9/30/2009                                                                 ($ Billions)

                                                                                                                                            Total Projected                 Projected TARP
     Program                                                     Brief Description or Participant                                        Funding at Risk ($)                    Funding ($)
     Capital Purchase Program (“CPP”)                            Investments in 685 banks to date; 8 institutions                                          $218.0                         $218.0
                                                                 total $134 billion; received $70.7 billion in capital                                     ($70.7)                        ($70.7)
                                                                 repayments
     Automotive Industry Financing Program                       GM, Chrysler, GMAC, Chrysler Financial; received                                              76.9                         76.9
     (“AIFP”)                                                    $1.5 billion in loan repayments                                                             ($1.5)                        ($1.5)
     Auto Supplier Support Program (“ASSP”)                      Government-backed protection for auto parts                                                   3.5a                          3.5a
                                                                 suppliers
     Auto Warranty Commitment Program                            Government-backed protection for warranties of                                                 0.6                          0.6
     (“AWCP”)                                                    cars sold during the GM and Chrysler bankruptcy                                             ($0.6)                        ($0.6)
                                                                 restructuring periods; fully repaid on 7/10/2009
     Unlocking Credit for Small Businesses                       Purchase of securities backed by SBA loans                                                   15.0b                         15.0
     (“UCSB”)
     Systemically Significant Failing Institutions               AIG investment                                                                               69.8c                        69.8c
     (“SSFI”)
     Targeted Investment Program (“TIP”)                         Citigroup, Bank of America investments                                                        40.0                         40.0
     Asset Guarantee Program (“AGP”)                             Citigroup, ring-fence asset guarantee                                                       301.0                           5.0
     Term Asset-Backed Securities Loan Facility                  FRBNY non-recourse loans for purchase of asset-                                          1,000.0                          80.0d
     (“TALF”)                                                    backed securities
     Making Home Affordable (“MHA”) Program                      Modification of mortgage loans                                                               75.0e                         50.0
     Public-Private Investment Program (“PPIP”)                  Disposition of legacy assets; Legacy Loans                                    500.0 – 1,000.0                              75.0
                                                                 Program, Legacy Securities Program
                                                                 (expansion of TALF)
     Capital Assistance Program (“CAP”)                          Capital to qualified financial institutions; includes                                         TBD                           TBD
                                                                 stress test
     New Programs, or Funds Remaining for                        Potential additional funding related to CAP; other                                          138.0                         138.0
     Existing Programs                                           programs
     Total                                                                                                                            $2,365.0 – $2,865.0                                 $698.8

     Notes: Numbers affected by rounding.
     a
       Treasury’s original commitment under this program was $5 billion, but subsequently reduced to $3.5 billion effective 7/1/2009.
     b
       Treasury announced that it would purchase up to $15 billion in securities under the Unlocking Credit for Small Businesses program.
     c
       Actual TARP expenditures as of 9/30/2009.
     d
       Treasury’s current TALF commitment is $20 billion but should TALF exceed a total of $200 billion in loans extended by FRBNY, then Treasury’s commitment could reach $80 billion.
     e
       $75 billion is for mortgage modification.


     Sources: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009; Treasury, Transactions Report, 10/2/2009; Treasury, “Auto Supplier Support
     Program: Stabilizing the Auto Industry in a Time of Crisis,” 3/19/2009, http://www.treas.gov/press/releases/docs/supplier_support_program_3_18.pdf, accessed 3/19/2009; Treasury,
     “Unlocking Credit for Small Businesses Fact Sheet,” 3/17/2009, http://www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.html, accessed 6/10/2009; Treasury,
     “Treasury, Federal Reserve, and FDIC Provide Assistance to Bank of America,” 1/16/2009, http://www.treas.gov/press/releases/hp1356.htm, accessed 1/16/2009; Treasury Press Release,
     “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, http://www.financialstability.gov/latest/hp1358.html, accessed 6/8/2009; Treasury, “Financial
     Stability Plan Fact Sheet,” 2/10/2009, http://www.financialstability.gov/docs/fact-sheet.pdf, accessed 6/8/2009; Treasury, “Making Home Affordable: Updated Detailed Program Description,”
     3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/10/2009; Treasury, “Public-Private Investment Program,” 4/6/2009, http://www.financialstabil-
     ity.gov/roadtostability/publicprivatefund.html, accessed 6/9/2009.
                                                                                                                                         quarterly report to congress I october 21, 2009   49




                                                                                                                      Figure 2.8

Table 2.3                                                                                                            EXPENDITURES BY PROGRAM, SNAPSHOT
                                                                                                                     $ Billions, % of $454.3 Billion

DIVIDEND and interest payments,                                                                                                                        PPIP $6.7 1%
by program ($ MIllions)                                                                                                                                AGP $5.0 1%
                                                                                                                     TALF $20.0 4%                      ASSP $3.5c 0.1%
Program                                                   Amount
                                                                                                                     MHA $27.1 6%
CPPa                                                     $6,789.7                                                                                                     AWCP $0.6d
                                                                                                                                                                           >0.1%
SSFI                                                                —–
                                                                                                                        TIP $40.0
                                                                                                                                        9%
TIP                                                        1,862.2                                                                                                  45% CPP $204.6a
      b
AIFP                                                          670.9                                                  SSFI $69.8 15%
AGP	                                                          174.8
ASSP                                                              5.9                                                                             17%
Total                                                   $9,503.5                                                                           AIFP $76.9b

Notes: Numbers affected by rounding. Data as of 9/30/2009.
a Includes $13 million fee received as part of the Banco                                                             Notes: Numbers affected by rounding. Data as of 9/30/2009.
  Popular exchange.                                                                                                  From a budgetary perspective, expenditures are what Treasury
b Includes AWCP.                                                                                                     committed to spend (e.g., signed agreements with TARP fund
                                                                                                                     recipients). Expenditures do not reflect any repayments received.
                                                                                                                     a
Source: Treasury, response to SIGTARP data call, 10/7/2009.                                                            $70.72 billion of CPP funding had been repaid.
                                                                                                                     b
                                                                                                                       $1.5 billion of principal payments related to AIFP loans had
                                                                                                                       been repaid.
                                                                                                                     c
                                                                                                                       Treasury’s original commitment under this program was
                                                                                                                       $5 billion, but subsequently reduced to $3.5 billion effective
                                                                                                                       7/1/2009.
                                                                                                                     d
                                                                                                                       The $0.6 billion expended for AWCP was repaid on
                                                                                                                       7/10/2009.

                                                                                                                     Source: Treasury, Transactions Report, 10/2/2009.



       Figure 2.7
       EXPENDITURES, BY PROGRAM, CUMULATIVE, 10/2008 – 9/2009
       $ Billions


      $500
                                                                                                                                                           $6.7     PPIP
                                                                                                                                                           $5.0     AGP
                                                                                                                                                          $27.0     MHA
       400                                                                                                                                                $20.0     TALF
                                                                                                                                                          $40.0     TIP
                                                                                                                                                                a
                                                                                                                                                          $81.1     Auto
       300                                                                                                                                                          Programs

                                                                                                                                                          $69.8 SSFI

       200


                                                                                                                                                                b
       100                                                                                                                                               $204.6 CPP


                          0
          0
              10/31      11/30       12/31       1/31        2/28        3/31        4/30       5/31        6/30        7/31        8/31       9/30
                         2008                                                                  2009

                        PPIP
                        AGP
                        MHA
                        TALF
                        TIP
                        Auto Programs
                        SSFI
                        CPP


              Notes: Numbers affected by rounding.
              a Auto Programs include AIFP, ASSP, and AWCP. AIFP loan principal of $2.1 billion has been repaid. (Repayment of $0.6 billion was from
                AWCP.) AIFP commitment amount reduced through $2.4 billion de-obligation. (Not reflected on the Transactions Report.)
              b CPP funding of $70.7 billion has been repaid.


              Source: Treasury, Transactions Report, 10/2/2009.
50                 special inspector general I troubled asset relief program




     Table 2.4


     Equity Agreements

     TARP Program             Company                          Date of Agreement                        Cost Assigned         ($ Billions)            Description of Investment
     CPP – Public             284 QFIs                         10/14/2008a and later                           $200.1                                 Senior Preferred Equity

                                                                                                                                                      Common Stock Purchase Warrants

     CPP – Private            352 QFIs                         11/17/2008b and later                             $ 4.0                                Preferred Equity


                                                                                                                                                      Preferred Stock Purchase Warrants that
                                                                                                                                                      are exercised immediately
     SSFI                      AIG                             4/17/2009                                        $41.6c                                Non-Cumulative Preferred Equity

                                                                                                                                                      Common Stock Purchase Warrants



     SSFI                      AIG                             4/17/2009                                        $29.8d                                Non-Cumulative Preferred Equity


                                                                                                                                                      Common Stock Purchase Warrants


     TIP                      Citigroup                        12/31/2008                                       $20.0e                                Trust Preferred Securities
                                                                                                                                                      Warrants

     TIP                      Bank of America                  1/16/2009f                                       $20.0                                 Senior Preferred Equity
                                                                                                                                                      Warrants

     AIFP                     GMAC LLC                         12/29/2008                                         $5.0                                Senior Preferred
                                                                                                                                                      Membership Interests
                                                                                                                                                      Preferred Stock
                                                                                                                                                      Purchase Warrants that are exercised immediately

     AIFP                     GMAC LLC                         5/21/2009                                          $7.5                                Mandatorily Convertible Preferred Stock


                                                                                                                                                      Preferred Stock
                                                                                                                                                      Purchase Warrants that are exercised immediately

     AIFP                     GMAC LLC                         5/29/2009                                          $0.9                                Common Equity Interest



     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP Public Term Sheet.
     b
       Announcement date of CPP Private Term Sheet.
     c
       AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
     d
       The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
     e
       Citigroup exchanged its $20 billion senior preferred equity (obtained on 12/31/2008) for trust preferred securities.
     f
       Date as of the Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 1/15/2009.

     Sources: Treasury, Transactions Report, 10/2/2009; Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury,
     “TARP Capital Purchase Program Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase
     Agreement dated as of November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock
     and Warrant, Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,”
     1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation and United
     States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Member-
     ship Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, response to SIGTARP data call, 10/7/2009.
                                                                                             quarterly report to congress I october 21, 2009                     51




Investment Information                                                                  Dividends                  Term of Agreement
1 – 3% of risk weighted assets, not to exceed $25 billion for each QFI                  5% for first 5 years,      Perpetual
                                                                                        9% thereafter
15% of senior preferred amount                                                          —                          Up to 10 years

1 – 3% of risk weighted assets, not to exceed $25 billion for each QFI                  5% for first 5 years,      Perpetual
                                                                                        9% thereafter

5% of preferred amount                                                                  9%                         Perpetual


$41.6 billion aggregate liquidation preference                                          10%                        Perpetual

2% of issued and outstanding common stock on investment date of 11/25/2008;             -—                         Up to 10 years
warrant originally for 53,798,766 shares with a $2.50 exercise price; after 6/30/2009
split, it is for 2,689,938.30 shares with a $50 exercise price.

Up to $29.8 billion aggregate liquidation preference. As of 9/30/2009, aggregate        10%                        Perpetual (life of the facility is 5 years)
liquidation preference of $3.2 billion.

150 common stock warrants outstanding; $0.00002 exercise price                          —                          Up to 10 years


$20 billion                                                                             8%                         Perpetual
10% of total preferred stock issued; $10.61 exercise price                              —                          Up to 10 years

$20 billion                                                                             8%                         Perpetual
10% of total preferred stock issued; $13.30 exercise price                              —                          Up to 10 years

$5 billion                                                                              8%                         Perpetual

5% of preferred amount                                                                  9%                         Perpetual


$7.5 billion                                                                            9%                         Converts to common equity interest
                                                                                                                   after 7 years

5% of preferred amount                                                                  9%                         Converts to common equity interest
                                                                                                                   after 7 years

This equity interest was obtained by exchanging a prior debt obligation with            —                          Perpetual
General Motors. See “Debt Agreements” table for more information.
52               special inspector general I troubled asset relief program




     Table 2.5

     Debt Agreements

     TARP Program           Company                         Date of Agreement   Cost Assigned   ($ Billions)   Description of Investment
     CPP - S-Corps          49 QFIs                         1/14/2009a                $0.5                     Senior Subordinated Securities


                                                                                                               Senior Subordinated Security Warrants that are
                                                                                                               exercised immediately

     AIFP                   General Motors                  12/31/2008               $19.8b                    Debt Obligation with Warrants and
                                                                                                               Additional Note




     AIFP                   General Motors                  1/16/2009                 $0.9                     Debt Obligation


     AIFP                   Chrysler                        1/2/2009                  $4.8                     Debt Obligation with Additional Note




     AIFP                   Chrysler Financial              1/16/2009                 $1.5                     Debt Obligation with Additional Note



     AIFP                   Chrysler                        5/1/2009                  $3.8                     Debt Obligation with Additional Note



     AIFP                   Chrysler                        5/27/2009                 $6.6                     Debt Obligation with Additional Note, Equity
                                                                                                               Interest




     AIFP                   General Motors                  6/3/2009, amended        $30.1                     Debt Obligation with Additional Note
                                                            7/10/2009




     ASSP                   GM Supplier                     4/9/2009                  $2.5                     Debt Obligation with Additional Note
                            Receivables LLC



     ASSP                   Chrsyler Receivables            4/9/2009                  $1.0                     Debt Obligation with Additional Note
                            SPV LLC




     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP S-Corporation Term Sheet.
     b
       Amount includes AWCP commitments.
                                                                                                                          quarterly report to congress I october 21, 2009                              53




Investment Information                                                                                        Interest / Dividends                                    Term of Agreement
Each QFI may issue senior securities with an aggregate principal amount of 1% - 3%                            7.7% for first 5 years; 13.8%                           30 years
of its risk-weighted assets, but not to exceed $25 billion.                                                   thereafter

Treasury will receive warrants to purchase an amount equal to 5% of the senior                                13.8%                                                   30 years
securities purchased on the date of investment.

This loan was funded incrementally; $4 billion funded on 12/31/2008, $5.4 billion                             For General Advances - (i) the greater of               12/29/2011
funded on 1/21/2009, $4 billion funded on 2/17/2009. Subsequently, this loan                                  (a) 3 Month LIBOR or (b) 2% plus (ii) 3%;
was then amended; $2 billion on 4/22/2009 and $4 billion on 5/20/2009 (General                                For Warrant Advances (i) the greater of
Advances). In addition, on 5/27/2009, $361 million was set aside in an                                        (a) 3 Month LIBOR for the related Interest
SPV for the AWCP (Warranty Advances).                                                                         Period or (b) 2% plus (ii) 3.5%


This loan was exchanged for a portion of GM’s common equity interest in GMAC LLC                              3 Month LIBOR                                           1/16/2012
on 5/29/2009. See “Equity Agreement” table for more information.                                              + 3%

Loan of $4 billion; Additional note of $267 million (6.67% of the maximum loan                                For General Advances - (i) the greater of               1/2/2012
amount). Subsequently, this loan was then amended; $500 million on 4/29/2009,                                 (a) 3 Month LIBOR or (b) 2% plus (ii) 3%;
this amount was never drawn and subsequently de-obligated (General Advances). In                              For Warrant Advances (i) the greater of
addition, on 4/29/2009, $280 million was set aside in an SPV for the AWCP; this                               (a) 3 Month LIBOR for the related Interest
advance was repaid (Warrant Advances).                                                                        Period or (b) 2% plus (ii) 3.5%



Loan was funded incrementally at $100 million per week until it reached the                                   LIBOR + 1% for first year                               1/16/2014
maximum amount of $1.5 billion on 4/9/2009. Additional note is $75 million (5% of                             LIBOR + 1.5% for remaining years
total loan size), which vests 20% on closing and 20% on each anniversary of closing.
Loan of $3.0 billion committed to Chrysler for its bankruptcy period. Subsequently,                           (i) the greater of (a) 3 Month Eurodollar               9/30/2009, subject to
this loan was amended; $757 million was added on 5/20/2009. Treasury funded                                   or (b) 2% plus (ii) 3.0%                                certain conditions
$1.9 billion during bankruptcy period. The remaining amount will be de-obligated.

Commitment to New CarCo Acquisition LLC (renamed Chrysler Group LLC on or about                               For $2 billion: (i) The 3 Month Eurodol-                For $2 billion note:
6/10/2009) of up to $6.642 billion. The total loan amount is up to $7.142 billion                             lar Rate, plus (ii) (a) 5% or, on loans                 12/10/2011; provided that
including $500 million of debt assumed from Treasury’s 1/2/2009 credit agreement                              extended past the original maturity date,               issuer may extend matu-
with Chrysler Holding LLC. The debt obligations are secured by a first priority lien on                       (b) 6.5%. For $5.142 billion note: (i)                  rity for up to $400 million of
the assets of New CarCo Acquisition LLC (the company that purchased Chrysler LLC’s                            The 3 Month Eurodollar Rate plus 7.91%                  principal to 6/10/2017. For
assets in a sale pursuant to section 363 of the Bankruptcy Code).                                             and (ii) an additional $17 million in PIK               other notes: 6/10/2017
                                                                                                              interest per quarter. For other notes: 3
                                                                                                              Month Eurodollar Rate plus 7.91%

Original $30.1 billion funded. Amended loan documents provided that $986 million                              Originally, (i) the greater of (a) 3 Month              Originally 10/31/2009. For
of the original DIP loan was left for the old GM. In addition $7.1 billion was assumed                        Eurodollar or (b) 2% plus (ii) 3.0%. For                amounts assumed by New
by New GM of which $0.4 billion was repaid resulting in $6.7 billion remaining                                amounts assumed by New GM, the inter-                   GM, June 10, 2015, subject
outstanding.                                                                                                  est rates became (i) the greater of (a) 3               to acceleration
                                                                                                              Month Eurodollar or (b) 2% plus (ii) 5%

The original amount was $3.5 billion, but it was decreased permanently to $2.5 billion (i) the greater of (a) LIBOR for the related 4/9/2010
effective 7/1/2009.                                                                    interest period or (b) two percent (2%)
                                                                                       plus (ii) three and five-tenths percent
                                                                                       (3.5%)

The original amount was $1.5 billion, but it was decreased permanently to $1.0 billion (i) the greater of (a) LIBOR for the related 4/9/2010
effective 7/1/2009.                                                                    interest period or (b) two percent (2%)
                                                                                       plus (ii) three and five-tenths percent
                                                                                       (3.5%)

Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender
Dated as of December 31, 2008,” 12/31/2008. Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008;
Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury, “Loan and Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States
Department of Treasury as Lender Dated as of December 31, 2008,” 12/31/2008; Treasury, “Chrysler, Indicative Summary of Terms for Secured Term Loan Facility,”
12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of Terms,” 1/16/2009; OFS, response to
SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 10/2/2009; Treasury, response to SIGTARP data call, 10/7/2009.
54            special inspector general I troubled asset relief program




     Table 2.6

     LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 9/30/2009
                                                                                                                                                                                      Amount
                                                                                      Current                                                                                 “In the Money”
                                                                                   Number of                       Current        Stock Price                                  or “Out of the
                                                           Transaction            Outstanding                       Strike              as of           In or Out of            Money” as of
     Participant                                                 Date               Warrants                         Price        9/30/2009             the Money?                9/30/2009
     Capital Purchase Program (“CPP”):
       Bank of America Corporationa                       10/28/2008                                                $30.79                $16.92                   OUT                  ($13.87)
                                                                                  121,792,790
       Bank of America Corporationa                           1/9/2009                                              $30.79                $16.92                   OUT                  ($13.87)
       Citigroup Inc.b                                    10/28/2008              210,084,034                       $17.85                 $4.84                    N/A                            —
       JPMorgan Chase &           Co.c                    10/28/2008                88,401,697                      $42.42                $43.82                       IN                  $1.40
       Wells Fargo & Company                              10/28/2008              110,261,688                       $34.01                $28.18                   OUT                    ($5.83)
     Systemically Significant Failing Institutions (“SSFI”) Program:
       AIGd                                               11/25/2008                 2,689,938                      $50.00                $44.11                   OUT                    ($5.89)
       AIGd                                                 4/17/2009                          150               $0.00002                 $44.11                       IN                $44.11
     Targeted Investment Program (“TIP”):
       Citigroup Inc.                                     12/31/2008              188,501,414                       $10.61                 $4.84                   OUT                    ($5.77)
       Bank of America Corporation                          1/16/2009             150,375,940                       $13.30                $16.92                       IN                  $3.62
     Asset Guarantee Program (“AGP”):
       Citigroup Inc.                                       1/16/2009               66,531,728                      $10.61                 $4.84                   OUT                    ($5.77)

     Notes:
     Numbers affected by rounding.
     a According to Treasury, the Bank of America warrants were replaced with one warrant certificate for 121,792,790 total warrant shares.
     b According to Treasury, on 9/11/2009, an “extinguishment” transaction “made [warrants] worthless upon execution of Citi [Series M Common Stock Equivalent] to Common Exchange.”
     c This institution repaid its CPP funds pursuant to Title VII, section 7001(g) of the American Recovery and Reinvestment Act of 2009. Treasury still holds these warrants in its portfolio.
     d All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.

     Sources: Treasury, Transactions Report, 10/2/2009; Treasury, response to SIGTARP data call, 10/7/2009; Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com; Treasury,
     response to SIGTARP draft, 10/16/2009.
                                                                             quarterly report to congress I october 21, 2009                            55




Financial Institution Support Programs
Treasury created five TARP programs that involve investment of capital or guaran-
tee of assets in return for equity in financial institutions. Two investment pro-
grams, the Capital Purchase Program (“CPP”) and the Capital Assistance Program
(“CAP”), are open to all qualifying financial institutions (“QFIs”). The other three
programs, the Systemically Significant Failing Institutions (“SSFI”) program,
Targeted Investment Program (“TIP”), and Asset Guarantee Program (“AGP”) are
made available on a case-by-case basis to specific institutions needing exceptional
assistance above that of CPP and CAP.

Capital Purchase Program
Treasury currently anticipates that $218 billion of TARP funds will eventually be            For more information on the Capital
invested in QFIs under CPP.60 According to Treasury, the intention of CPP is to              Purchase Program, see SIGTARP’s July
invest in healthy, viable banks to promote financial stability, maintain confidence in       Quarterly Report, page 45.
the financial system, and permit institutions to continue meeting the credit needs
of American consumers and businesses.61 For a summary of the distribution of CPP
funding by participant — not including any repayment — see Figure 2.9.

Status of Funds                                                                              Figure 2.9
As of September 30, 2009, Treasury had purchased $204.6 billion in preferred                 CPP EXPENDITURES, BY PARTICIPANT,
stock and subordinated debentures from 685 different QFIs in 48 states, the                  CUMULATIVEa
District of Columbia, and Puerto Rico. See Figure 2.10 on the following page for             $ Billions, % of $204.6 Billion

the geographical distribution of all the QFIs that have received funding. For a full
listing of CPP recipients, see Appendix D: “Transaction Detail.”                                                                  Bank of America
                                                                                                                                  $25.0
                                                                                                   Other
                                                                                             Institutions
                                                                                                                           12.2%              JPMorgan
                                                                                                                                              Chase
                                                                                                   $84.6    41.4%
                                                                                                                                              $25.0
                                                                                                                                 12.2%

                                                                                                                                 12.2%
                                                                                                                                              Wells Fargo
                                                                                                                                              $25.0
                                                                                                                            12.2%

                                                                                                            4.9%                  Citigroup
                                                                                                  Morgan Stanley                  $25.0
                                                                                                          $10.0
                                                                                                                          4.9%
                                                                                                                          Goldman Sachs
                                                                                                                          $10.0

                                                                                             Notes: Numbers affected by rounding. Data as of 9/30/2009.
                                                                                             Bank of America = Bank of America Corporation; JPMorgan Chase =
                                                                                             JPMorgan Chase & Co.; Wells Fargo = Wells Fargo and Company;
                                                                                             Citigroup = Citigroup Inc.; Goldman Sachs = The Goldman Sachs
                                                                                             Group, Inc.
                                                                                             a
                                                                                               $204.6 billion represents total CPP funds expended before any
                                                                                             CPP repayments. JPMorgan, Goldman Sachs, Morgan Stanley,
                                                                                             and some other institutions have repaid their TARP funds under
                                                                                             CPP.

                                                                                             Source: Treasury, Transactions Report, 10/2/2009.
56                special inspector general I troubled asset relief program




      Figure 2.10

      TRACKING CAPITAL PURCHASE PROGRAM INVESTMENTS ACROSS THE COUNTRY




                                                                                                                       $10 Billion or More
                                                                                                                       $1 Billion to $10 Billion
                                                                                                                       $100 Million to $1 Billion
                                                                                                                       $10 Million to $100 Million
                                                                                                                       Less than $10 Million
                                                                                                                       $0



                                                                                                                    Note: Banks in Montana and Vermont had not received any funds as of
                                                                                                                    9/30/2009.

                                                                                                                    Source: Treasury, “Local Impact of the Capital Purchase Program,”
                                                                                                                    10/1/2009, www.financialstability.gov, accessed 10/5/2009.




     Table 2.7
                                                                        Although the 8 largest investments accounted for $134.2 billion of the pro-
     cpp ORIGINAL investment
     summary                                                         gram, CPP has also had many more modest investments: 322 of the 685 recipients
     Largest Capital Investment              $25 Billion             received $10 million or less. Table 2.7 and Table 2.8 show the distribution of the
     Smallest Capital Investment             $301,000                investments by size.
     Average Capital Investment              $298.7 Million
     Median Capital Investment               $11.3 Million           Repayment of Funds
                                                                     As of September 30, 2009, 42 banks had repurchased some or all of their shares
     Notes: Numbers affected by rounding. Data as of 9/30/2009.
     These numbers are based on total Treasury CPP investment        from Treasury, with Treasury receiving $70.7 billion in principal repayments.
     since 10/28/2008. Bank of America Corporation, SunTrust
     Banks, Inc., and Yadkin Valley Financial Corporation each       Figure 2.11 shows the amount of CPP funds outstanding, adjusted for repayments.
     received investments in two separate transactions.
                                                                     Table 2.9 shows the share repurchases conducted as of September 30, 2009. In
     Source: Treasury, Transactions Report, 10/2/2009.
                                                                     addition, Treasury had received $6.8 billion in dividends and interest from its CPP
     Table 2.8                                                       investments. Among CPP recipients, 46 QFIs have missed CPP dividend payments
                                                                     to the Government; some of these institutions made the payments on a later date.
     CPP ORIGINAL Investment
     size                                                            As of September 30, 2009, there were $75.7 million in outstanding CPP dividends.
     $10 Billion or More                                        6    If a QFI misses six quarterly dividend payments, Treasury retains the right to elect
     $1 Billion to $10 Billion                                 19    two directors to sit on the QFI’s board. As of September 30, 2009, there were no
     $100 Million to $1 Billion                                57    participants subject to this penalty.62
     Less than $100 Million                                  603
     Total                                                  685

     Notes: Data as of 9/30/2009. These numbers are based
     on total Treasury CPP investment since 10/28/2008. Bank
     of America Corporation, SunTrust Banks, Inc., and Yadkin
     Valley Financial Corporation each received investments in two
     separate transactions.

     Source: Treasury, Transactions Report, 10/2/2009.
                                                                                                                       quarterly report to congress I october 21, 2009                             57


Table 2.9

CPP share repurchases, AS OF 9/30/2009
                                                                                                      Amount of Repurchase
Repurchase Date                 Institution                                                                       ($ Millions)
3/31/2009                       Centra Financial Holdings, Inc.                                                           $15.0
                                                                                                                                      Figure 2.11
3/31/2009                       Old National Bancorp                                                                      100.0
3/31/2009                       Iberiabank Corporation                                                                     90.0       SNAPSHOT OF CPP FUNDS
3/31/2009                       Bank of Marin Bancorp                                                                      28.0       OUTSTANDING AND REPAID,
3/31/2009                       Signature Bank                                                                            120.0       BY QUARTER
                                                                                                                                      $ Billions
4/8/2009                        Sun Bancorp, Inc.                                                                          89.3
4/15/2009                       Shore Bancshares, Inc.                                                                     25.0
                                                                                                                                                            $198.8        $203.2          $204.6
4/22/2009                       First ULB Corp.                                                                              4.9      $200                    $0.4
                                                                                                                                               $177.5                       $70.1          $70.7
4/22/2009                       FirstMerit Corporation                                                                    125.0                             $198.4
                                                                                                                                       150     $177.5
4/22/2009                       Independent Bank Corp.                                                                     78.2
4/22/2009                       TCF Financial Corporation                                                                 361.2                                           $133.1          $133.9
                                                                                                                                       100
5/5/2009                        Sterling Bancshares, Inc.                                                                 125.2
5/13/2009                       Alliance Financial Corporation                                                             26.9         50
5/13/2009                       Texas Capital Bancshares, Inc.                                                             75.0
                                                                                                                                          0
5/20/2009                       Somerset Hills Bancorp                                                                       7.4
                                                                                                                                              Q42008        Q12009        Q22009          Q32009
5/20/2009                       SCBT Financial Corporation                                                                 64.8
5/27/2009                       First Manitowoc Bancorp, Inc.                                                              12.0                CPP Funds Outstanding at Quarter’s End
                                                                                                                                               CPP Funds Repaid at Quarter’s End
5/27/2009                       First Niagara Financial Group                                                             184.0
5/27/2009                       Berkshire Hills Bancorp, Inc.                                                              40.0
                                                                                                                                      Notes: Numbers affected by rounding. Data as of 9/30/2009.
5/27/2009                       Washington Federal Inc.                                                                   200.0
                                                                                                                                      Source: Treasury, Transactions Report, 10/2/2009.
6/3/2009                        HF Financial Corp.                                                                         25.0
6/3/2009                        Valley National Bancorpa                                                                  200.0
6/17/2009                       State Street Corporation                                                                2,000.0
6/17/2009                       U.S. Bancorp                                                                            6,599.0
6/17/2009                       The Goldman Sachs Group, Inc.                                                          10,000.0
6/17/2009                       BB&T Corp.                                                                              3,133.6
6/17/2009                       American Express Company                                                                3,388.9
6/17/2009                       The Bank of New York Mellon Corporation                                                 3,000.0
6/17/2009                       Morgan Stanley                                                                         10,000.0
6/17/2009                       Northern Trust Corporation                                                              1,576.0
6/17/2009                       JPMorgan Chase & Co.                                                                   25,000.0
6/17/2009                       Capital One Financial Corporation                                                       3,555.2
7/8/2009                        First Community Bankshares Inc.                                                            41.5
7/15/2009                       Old Line Bancshares, Inc.                                                                    7.0
8/5/2009                        Bancorp Rhode Island, Inc.                                                                 30.0
8/12/2009                       State Bankshares, Inc.b                                                                    12.5
8/26/2009                       CVB Financial Corp.c                                                                      130.0
9/2/2009                        Westamerica Bancorporationd                                                                41.9
9/9/2009                        Wesbanco Bank Inc.                                                                         75.0
9/9/2009                        F.N.B. Corporation                                                                        100.0
9/16/2009                       Manhattan Bancorp                                                                           1.7
9/30/2009                       Centerstate Banks of Florida Inc.                                                          27.9
Total                                                                                                                 $70,717.0

Notes: Numbers affected by rounding.
a
  Valley National Bancorp repaid $75.0 million on 6/3/2009 and $125.0 million on 9/23/2009.
b
  State Bankshares, Inc. repaid $12.5 million on 8/12/2009. It has a balance of $37.5 million still outstanding.
c
  CVB Financial Corp. repaid $97.5 million on 8/26/2009 and $32.5 million on 9/2/2009.
d
  Westamerica Bancorporation repaid $41.9 million on 9/2/2009. It has a balance of $41.9 million still outstanding.
Source: Treasury, Transactions Report, 10/2/2009.
58   special inspector general I troubled asset relief program




                                                Table 2.10 lists the banks that have one or more outstanding dividend payments
                                            as of September 30, 2009. For a complete listing of CPP recipients and the institu-
                                            tions that have paid dividends or interest, see Appendix D: “Transaction Detail.”

                                            Table 2.10

                                            UNPAID dividend payments under cpp, AS of 9/30/2009
                                            Institution                                                      Value of Unpaid Dividends
                                            CIT Group Inc.                                                                $29,125,000
                                            Popular, Inc.                                                                  11,687,500
                                            First BanCorp                                                                   5,000,000
                                            Pacific Capital Bancorp                                                         4,515,850
                                            First Banks, Inc.                                                               4,024,825
                                            Sterling Financial Corporation/Sterling Savings Bank                            3,787,500
                                            UCBH Holdings, Inc.                                                             3,734,213
                                            Anchor BanCorp Wisconsin, Inc.                                                  2,979,167
                                            Midwest Banc Holdings, Inc.                                                     2,119,600
                                            Dickinson Financial Corporation II                                              1,989,980
                                            Central Pacific Financial Corp.                                                 1,687,500
                                            Seacoast Banking Corporation of Florida/Seacoast National Bank                  1,250,000
                                            Blue Valley Ban Corp                                                              543,750
                                            Centrue Financial Corporation                                                     408,350
                                            Royal Bancshares of Pennsylvania, Inc.                                            380,088
                                            One United Bank                                                                   301,575
                                            United American Bank                                                              230,490
                                            Pacific City Financial Corporation/Pacific City Bank                              220,725
                                            Commonwealth Business Bank                                                        209,850
                                            The Connecticut Bank and Trust Company                                            178,573
                                            Peninsula Bank Holding Co.                                                        162,500
                                            Commerce National Bank                                                            150,000
                                            Citizens Bancorp                                                                  141,700
                                            Pacific Coast National Bancorp                                                    112,270
                                            Premier Service Bank                                                              105,972
                                            Idaho Bancorp                                                                      94,013
                                            Lone Star Bank                                                                     87,917
                                            Pacific International Bancorp Inc                                                  81,250
                                            One Georgia Bank                                                                   80,766
                                            Georgia Primary Bank                                                               70,850
                                            Saigon National Bank                                                               54,378
                                            Patterson Bancshares, Inc.                                                         50,288
                                            Grand Mountain Bancshares, Inc.                                                    35,395
                                            Fresno First Bank                                                                  33,357
                                            Citizens Bank & Trust Company                                                      32,700
                                            Pacific Commerce Bank                                                              31,961
                                            Community Bank of the Bay                                                          28,874
                                            Community First Bank                                                               11,199
                                            Total                                                                        $75,739,924

                                            Source: Treasury, response to SIGTARP data call, 10/7/2009.
                                                                                                         quarterly report to congress I october 21, 2009        59




   Repurchase of Warrants by Financial Institutions
   To maximize the benefit to the taxpayer, EESA mandated that Treasury receive war-                                      For more information on Treasury’s
   rants or senior debt instruments when it invests in troubled assets.63 The warrants                                    valuation methodologies for war-
   provide Treasury the right to purchase shares of common stock in the case of pub-                                      rants, see SIGTARP’s July Quarterly
   licly traded institutions, or, in the case of non-publicly traded institutions, preferred                              Report, page 48.
   stock or debt at a fixed price.64 As of September 30, 2009, 21 public institutions
   had repurchased their warrants for a total of $2.9 billion, and 3 private institutions
   whose warrants were immediately exercised into preferred shares repurchased
   those shares for a total of $1.6 million. Some CPP recipients have announced that
   they will not be negotiating to repurchase their warrants; Treasury intends to auc-
   tion these warrants on the public market before the end of 2009.65
       For a list of private institutions that have repaid their TARP funds and repur-
   chased their preferred shares as of September 30, 2009, see Table 2.11.




Table 2.11

CPP repurchases of preferred shares resulting from immediate
exercise of warrants (private), as of 9/30/2009
                                                                                  Number of          Amount of
Repurchase                                                                         Preferred        Repurchase
Date                            Institution                                          Shares           ($ Millions)
4/15/2009                       Centra Financial Holdings, Inc.                             750             $0.8
4/22/2009                       First ULB Corp.                                             245               0.2
5/27/2009                       First Manitowoc Bancorp, Inc.                               600               0.6
Total                                                                                    1,595              $1.6

Note: Numbers affected by rounding.
Sources: Treasury, Transactions Report, 10/2/2009; OFS, response to SIGTARP data call, 9/30/2009.
60   special inspector general I troubled asset relief program




                                               For a list of public institutions that have repaid their TARP funds and repur-
                                            chased their warrants as of September 30, 2009, see Table 2.12. SIGTARP has an-
                                            nounced a pending audit that examines the procedures used by Treasury to ensure
                                            that the Government receives a fair market value for the warrants.

                                            Table 2.12

                                            CPP warrant repurchases (public), as of 9/30/2009
                                                                                                                                    Number of           Amount of
                                            Repurchase                                                                               Warrants          Repurchase
                                            Date                             Institution                                          Repurchased            ($ Millions)
                                            5/8/2009                         Old National Bancorp                                         813,008              $1.2
                                            5/20/2009                        Iberiabank Corporationa                                      138,490                1.2
                                            5/27/2009                        FirstMerit Corporation                                       952,260                5.0
                                            5/27/2009                        Sun Bancorp, Inc.                                         1,543,376                 2.1
                                            5/27/2009                        Independent Bank Corp.                                      481,664                 2.2
                                            6/17/2009                        Alliance Financial Corporation                              173,069                 0.9
                                            6/24/2009                        First Niagara Financial Groupa                               953,096                2.7
                                            6/24/2009                        Berkshire Hills Bancorp, Inc.                                226,330                1.0
                                            6/24/2009                        Somerset Hills Bancorp                                       163,065                0.3
                                            6/24/2009                        SCBT Financial Corporation                                  303,083                 1.4
                                            6/30/2009                        HF Financial Corp.                                          302,419                 0.7
                                            7/8/2009                         State Street Corporationa                                 2,788,104               60.0
                                            7/15/2009                        U.S. Bancorp                                            32,679,102               139.0
                                            7/22/2009                        The Goldman Sachs Group, Inc.                           12,205,045             1,100.0
                                            7/22/2009                        BB&T Corp.                                              13,902,573                67.0
                                            7/29/2009                        American Express Company                                24,264,129               340.0
                                                                             The Bank of New York Mellon
                                            8/5/2009                                                                                 14,516,129               136.0
                                                                             Corporation
                                            8/12/2009                        Morgan Stanley                                          65,245,759               950.0
                                            8/26/2009                        Northern Trust Corporation                                3,824,624               87.0
                                            9/2/2009                         Old Line Bancshares, Inc.                                    141,892                0.2
                                            9/30/2009                        Bancorp Rhode Island, Inc.                                   192,967                1.4
                                            Total                                                                                175,810,184             $2,899.3

                                            Notes: Numbers affected by rounding.
                                            a
                                              These institutions reduced the original amount of warrants issued through a qualified equity offering.
                                            Sources: Treasury, Transactions Report, 10/2/2009; OFS, response to SIGTARP data call, 9/30/2009.
                                                                              quarterly report to congress I october 21, 2009              61




Banco Popular Exchange Offering
To improve the composition of its regulatory capital, on June 12, 2009, Popular,             For more information on a bank’s
Inc. (“Banco Popular”) proposed that Treasury participate in a securities exchange,          capital structure, see SIGTARP’s
in which Treasury would exchange its Series C preferred shares in Banco Popular,             April Quarterly Report, page 58, and
                                                                                             SIGTARP’s July Quarterly Report,
which it acquired through CPP, for a new series of Banco Popular trust preferred
                                                                                             page 55.
securities (the “TARP Exchange”). In conjunction with this transaction, Banco
Popular initiated an exchange with its other, non-TARP preferred shareholders
through which those shareholders would receive common stock (the “non-TARP
Exchange”). The non-TARP Exchange was completed on August 21, 2009, and the
TARP Exchange was completed on August 24, 2009.66 Both exchanges bolstered
                                                                                               Securities Exchange: An agreement
Banco Popular’s regulatory capital position by increasing the amount of its tier one
                                                                                               between a firm and investors, permit-
common equity (“T1 Common”). In the TARP exchange, Treasury exchanged $935
                                                                                               ting the investors to exchange one
million in face value of preferred shares and received $935 million in face value of           class of securities for another.
trust preferred securities.67
    Prior to the TARP Exchange, Banco Popular announced that it was planning                   Trust Preferred Securities: A security
to suspend all dividend payments to its preferred shareholders. As a trust preferred           that has both equity and debt char-
shareholder, however, Treasury’s dividend payment will be protected. TARP’s new                acteristics created by establishing a
trust preferred securities will pay the same dividend rate as the previously held              trust and issuing debt to it. A company
preferred shares. The TARP Exchange allowed Treasury’s cash flow from Banco                    would create a trust preferred security
Popular to remain unchanged. The TARP Exchange also placed Treasury in what                    to realize tax benefits, since the trust
is effectively a more senior capital position, meaning that, in the event of liquida-          is tax deductible.
tion, Treasury’s trust preferred securities now have a higher-priority claim on Banco
                                                                                               Tier One Common Equity
Popular’s assets. In connection with this transaction, Banco Popular paid a $13
                                                                                               (“T1 Common”): Also known as
million exchange fee to Treasury.68 The non-TARP and TARP Exchange benefit-
                                                                                               tangible common equity (“TCE”), is cal-
ted Banco Popular by improving its regulatory capital levels. According to Banco
                                                                                               culated by removing all non-common
Popular, the non-TARP Exchange generated approximately $900 million of T1                      elements from T1, e.g., preferred
Common, and the TARP Exchange generated approximately $500 million in T1                       equity, minority interests, and trust
Common. The $500 million represents “the difference between the book value of                  preferred securities. It can be thought
Series C Preferred Stock and the estimated fair value of the New Trust Preferred               of as the amount that would be left
Securities.”69 Both exchange offerings raised Banco Popular’s tier one common                  over if the bank were dissolved and all
risk-based ratio (“T1 Common Ratio”).                                                          creditors and higher levels of stock,
    The non-TARP Exchange initially raised Banco Popular’s T1 Common Ratio                     such as preferred stock, were paid
from 2.45% to 5.7%. Subsequently the TARP Exchange raised the ratio from                       off. T1 Common is the highest “qual-
5.7% to 7.5%.70 In assessing the level of capital necessary for an institution to              ity” of capital in the sense of providing
                                                                                               a buffer against loss by claimants
absorb losses, the Federal Reserve, in the Supervisory Capital Assessment Program
                                                                                               on the bank. T1 Common is used
(“SCAP”) stress test, used the T1 Common Ratio as one measure of capital ad-
                                                                                               in calculating the tier one common
equacy.71 According to the Federal Reserve, to be considered “well-capitalized,” an
                                                                                               risk-based ratio (“T1 Common Ratio”)
institution generally must maintain a T1 Common Ratio of 4%.72
                                                                                               which determines what percentage of
                                                                                               a bank’s total assets is categorized as
    Tier One Common Risk-Based Ratio (“T1 Common Ratio”): Determines what percent-             T1 Common. The higher the percent-
    age of a bank’s total assets is categorized as T1 Common. Under traditional Federal        age, the better capitalized the bank.
    regulations, a bank with a T1 Common Ratio of 4% or greater is considered adequate-        Preferred stock is an example of
    ly capitalized. = T1 Common / Risk-weighted assets                                         capital that is counted in T1, but not in
                                                                                               T1 Common.
62                special inspector general I troubled asset relief program




                                                                       Treasury Lending Reports
                                                                       Treasury snapshots were instituted in January 2009 as a means to track progress
                                                                       toward the stated goal of CPP: “building a capital base of viable U.S. financial
                                                                       institutions, enabling them to continue lending to businesses and consumers dur-
                                                                       ing the unprecedented financial crisis and economic downturn.”73 The monthly
                                                                       intermediation snapshots focus on tracking the 22 largest CPP recipients. Acting
                                                                       on a recommendation from GAO, Treasury later announced that it would require
                                                                       all CPP participants to submit data for a new monthly lending report that would
                                                                       complement the original monthly intermediation snapshot. The initial report was
                                                                       released on June 1, 2009, and subsequent reports have been released on a monthly
                                                                       basis.

                                                                       July 2009 Monthly Intermediation Snapshot
                                                                       The most recent monthly intermediation snapshot for the 22 largest CPP recipi-
                                                                       ents was released on September 15, 2009, reporting data for the period of July 1,
                                                                       2009, to July 31, 2009. Treasury reviewed and analyzed the data and came to the
                                                                       following conclusions:74

                                                                       •	 The 22 institutions originated a total of $282 billion in new loans — a 10%
                                                                          decrease from June to July.
                                                                       •	 Overall outstanding loan balances fell 1% due mainly to a decrease in demand
                                                                          from borrowers, payment of outstanding debt, and charge-offs by banks.
                                                                       •	 Banks continued to report that demand was well below normal market levels in
                                                                          the Commercial Real Estate (“CRE”) market and the Commercial & Industrial
                                                                          (“C&I”) market.
                                                                       •	 Total small business originations decreased by 14% from June to July. Because
     Table 2.13                                                           most small business originations are CRE or C&I originations, this decrease is
     july monthly lending report                                          in-line with overall declining trends.
     ($ trillions)
     Average Consumer Loans                                            CPP Monthly Lending Report
                                                              $2.8
     Outstanding
                                                                       The CPP Monthly Lending Report requires banks to report to Treasury on three
     Average Commercial Loans Outstanding                       2.3
                                                                       data points each month: average consumer loans outstanding, average commer-
     Total Average Loans Outstanding                          $5.0
                                                                       cial loans outstanding, and total loans outstanding. The aggregate totals from the
     Notes: Numbers affected by rounding. Data as of 7/31/2009.
                                                                       July report are listed in Table 2.13. There were 56 banks that did not report by the
     Source: Treasury, “Summary of CPP Monthly Lending Report
     Data,” no date, http://www.financialstability.gov/docs/surveys/   August 31, 2009, deadline.75
     SummaryTable_Feb-July_2009.pdf, accessed 10/8/2009.
                                                                                                                             quarterly report to congress I october 21, 2009         63




Quarterly Analysis of Institutions in CPP
Treasury recently released its first Quarterly Capital Purchase Program Report.
This report provides data from the quarterly call reports that financial institutions
are required to file with FDIC. For this analysis, institutions were divided into four                                                        Call Report: Quarterly report of
groups, and Treasury analyzed the aggregate changes in each group from the fourth                                                             financial condition commercial banks
quarter of 2008 to the first quarter of 2009. The four different groups are summa-                                                            file with their Federal and state
                                                                                                                                              regulatory agencies.
rized in Table 2.14.76 For all banks with more than $500 million in assets, Treasury
reported that additional analysis was performed using reports filed with the Federal
Reserve.
    According to the report, banks in all groups experienced positive overall asset                                                         For further discussion on Treasury’s quar-
growth in the fourth quarter of 2008. This growth either slowed or turned nega-                                                             terly CPP analysis and lending reports, see
tive for all banks other than those in Group III (the banks that received CPP funds                                                         Section 5: “SIGTARP Recommendations”
in the first quarter of 2009). Treasury acknowledges that “it is difficult to draw                                                          in this report.
specific conclusions about the effectiveness of the CPP program from solely these
ratios.” Treasury expects the effects will be better understood once there is data
from a more significant number of quarters to compare.77
    On September 16, 2009, Treasury sent a letter to SIGTARP explaining how
subsequent quarterly reports will be expanded to address SIGTARP recommenda-
tions concerning use of funds reporting. Future reports will include data such as
the institutions’ repayments of outstanding debt obligations and total investments.
The next report is expected to be released in October 2009.78 Further discus-
sion of Treasury’s actions in this regard is contained in Section 5: “SIGTARP
Recommendations” in this report.

Table 2.14

quarterly analysis groups
                                                                                                               Average Asset
                                                                                                                       Size of
                                                                              Number              Number of           Insured
                                                                               of CPP                 Insured     Institutions
Group           Description                                               Participants            Institutions      ($ Billions)
                Subsidiaries of the 21 largest CPP
Group I                                                                                  21                    67               $125.6
                participants (as of March 31, 2009)
                Subsidiaries of CPP participants that
Group II                                                                               193                   295                      3.0
                were funded in Q4 2008
                Subsidiaries of CPP participants that
Group III                                                                              318                   368                      1.0
                were funded in Q1 2009
                Non-CPP participants
Group IV                                                                                 NA               7,516                       0.5
                (as of March 31, 2009)

Source: Treasury, “Quarterly Analysis of Institutions in the Capital Purchase Program 2009 Q1,” no date, http://www.financialstability.
gov/docs/CPP/Report/Quarterly%20Analysis%20-%20Data%20Section%2007%2030%2009.pdf, accessed 9/30/2009.
64           special inspector general I troubled asset relief program




          For more information on CPP for
          Small Banks, see SIGTARP’s July           CPP for Small Banks
          Quarterly Report, page 45.                On May 13, 2009, Treasury announced an expansion of CPP for Small Banks.79 As
                                                    of September 30, 2009, 35 banks have applied to this program and 24 banks have
                                                    been funded a total of $187.7 million.80

                                                    Capital Assistance Program
                                                    The Capital Assistance Program (“CAP”) was created to “ensure the continued
     Bank Holding Company (“BHC”):
                                                    ability of U.S. financial institutions to lend to creditworthy borrowers in the face of
     A company that controls a bank.
                                                    a weaker-than-expected economic environment and larger-than-expected potential
     Typically, a company controls a bank
                                                    losses.”81 CAP consists of two parts:
     through the ownership of 25% or more
     of its voting securities.
                                                    •	 a “stress test” (also known as the Supervisory Capital Assessment Program
     Mandatorily Convertible Preferred                 (“SCAP”)) to evaluate the 19 largest bank holding companies’ (“BHCs’”) capital
     (“MCP”) Share: A type of preferred                levels for their ability to withstand an adverse economic scenario
     share (ownership in a company that             •	 an application to Treasury for funding in the form of additional capital infu-
     generally entitles the owner of the               sions or as a means to convert CPP investments to CAP mandatorily convertible
     share to collect dividend payments)               preferred (“MCP”) shares (available to all QFIs)
     that can be converted to common
     stock under certain parameters at              Supervisory Capital Assessment Program
     the discretion of the company — and
                                                    On May 7, 2009, the Federal Reserve released the results of the SCAP process,
     must be converted to common stock
                                                    revealing that 9 out of 19 BHCs had sufficient capital to withstand the adverse sce-
     by a certain time.
                                                    nario while maintaining a tier one risk-based capital ratio (“T1 Ratio”) in excess of
                                                    6% and a T1 Common Ratio in excess of 4%.82 As of September 30, 2009, six of the
     Tier One Risk-Based Capital Ratio (“T1
     Ratio”): A ratio which determines what         eight participating institutions had repaid their CPP funds in full and purchased
     percentage of a bank’s total assets is         their outstanding warrants from the Government, thus fully completing their CPP
     categorized as tier one capital (“T1”).        and CAP participation. The other two participating institutions repaid their princi-
     T1 Ratio = T1 divided by risk-weighted         pal capital investment but did not repurchase the outstanding warrants. The ninth
     assets.                                        BHC, MetLife, is not a TARP recipient.83
                                                        The Federal Reserve determined that 10 of the SCAP participants needed an
     Tier One Capital (“T1”): Consists              approximate total of $75 billion in additional capital in order to meet the capital
     primarily of common equity (including          level deemed necessary to withstand the more adverse economic scenario. Should
     retained earnings), limited types and          a BHC not meet its required SCAP buffer by November 9, 2009, it will have to
     amounts of preferred equity, certain
                                                    take additional capital assistance through CAP. This may include either Treasury-
     minority interests, and limited types
                                                    approved conversion of the BHCs’ CPP investment to CAP MCP shares or the
     and amounts of trust preferred securi-
                                                    issuance of new CAP MCP shares.84
     ties. T1 does not include goodwill and
     certain other intangibles. Certain other
     assets are also excluded from T1. It           Status of CAP
     can be described as a measure of the           According to Treasury, the funding deadline for CAP applicants is November 9,
     bank’s ability to sustain future losses        2009. Applications initially go to the bank’s primary regulator, which will then for-
     and still meet depositor’s demands.            ward the application to Treasury. In order to ensure compliance with this deadline,
                                                    those institutions that were not subject to SCAP are encouraged to apply for CAP
                                                    funding by October 15, 2009.85 QFIs can either apply directly for additional TARP
                                                                             quarterly report to congress I october 21, 2009             65




funding in the form of CAP MCP shares or apply to convert their CPP preferred               For more information on CAP, see
shares in exchange for CAP MCP shares.86 As of September 30, 2009, Treasury                 SIGTARP’s July Quarterly Report,
had informed SIGTARP that there had not been any CAP applications forwarded                 page 52.
to Treasury from the primary Federal banking regulators.87

Systemically Significant Failing Institutions Program
According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
program was established to “provide stability and prevent disruptions to financial
markets from the failure of institutions that are critical to the functioning of the
nation’s financial system.”88 As of September 30, 2009, $69.8 billion had been al-
located through the SSFI program to American International Group, Inc. (“AIG”),
the sole participant.89

Status of SSFI Funds
Treasury purchased $40 billion of preferred stock from AIG on November 25,                    Cumulative Preferred Stock: A type of
2008. On April 17, 2009, Treasury and AIG signed a securities exchange agreement              stock that requires a defined dividend
in which Treasury exchanged its cumulative preferred stock (“Series D stock”) for             payment. If the company does not pay
non-cumulative preferred stock (“Series E stock”). As a result of this exchange, AIG          the dividend, it still owes the missed
has an additional obligation to Treasury of $1.6 billion in unpaid dividends from             dividend to the owner of the stock.
the Series D shares.90
                                                                                              Non-Cumulative Preferred Stock: A
    As part of the April 17, 2009, agreement, Treasury also committed to fund a
                                                                                              type of stock in which unpaid dividends
$29.8 billion equity capital facility. As of September 30, 2009, AIG had drawn
                                                                                              do not accrue when a company fails to
down a total of $3.2 billion in equity from this facility.91
                                                                                              make a dividend payment.

AIG Update                                                                                    Equity Capital Facility: A commitment
Subsequent to SIGTARP’s July Quarterly Report, AIG, FRBNY, and Treasury have                  to invest equity capital in a firm under
continued to work together to improve AIG’s overall health and viability through              certain future conditions.
the use of the Government’s assistance package and AIG’s continued efforts at re-
structuring through asset dispositions and sales. AIG reported improved operational
performance for the second quarter of 2009, in which the company turned its first           For more information on AIG’s
quarterly profit since the third quarter of 2007.92 In addition, AIG stated that it         preferred stock purchase, the AIG
expects to meet all of its maturing debt obligations primarily though the Treasury          exchange, or its equity capital facility,
facility, the FRBNY facility, and the disposition of assets.93 Other recent AIG up-         see SIGTARP’s July Quarterly Report,
dates include the following items:                                                          page 60.
•	 Borrowing Capacity: As of July 29, 2009, under its FRBNY credit facility, AIG
   had $40 billion in outstanding borrowings, $20 billion in remaining borrowing
   capacity, and accrued compounding interest and fees totaling $4.8 billion.94
•	 Dividend Payments: As of September 30, 2009, AIG had missed three dividend
   payments to Treasury. If AIG misses its fourth dividend payment on November
   1, 2009, Treasury will have the right to elect directors to the AIG board.95 As of
   September 30, 2009, neither Treasury nor FRBNY had selected members of
   AIG’s board of directors.
66   special inspector general I troubled asset relief program




                                            •	 Management Change: On August 10, 2009, Robert H. Benmosche as-
                                               sumed the role of President and Chief Executive Officer (“CEO”), and Harvey
                                               Golub became the new Non-Executive Chairman of the Board.96 The former
                                               Chairman and CEO, Edward M. Liddy, retired.97
                                            •	 Management Compensation Approval in Principle: Mr. Benmosche’s an-
                                               nual salary will consist of $3 million cash and $4 million in common stock
                                               that is generally not transferable until 2014. He will be eligible to receive an
                                               annual bonus of up to $3.5 million based on the achievement of objective
                                               performance goals. This common stock will generally not vest for two years
                                               and will not be transferable until a certain amount of AIG’s TARP assistance is
                                               repaid to Treasury. Kenneth Feinberg, the Special Master for TARP Executive
                                               Compensation, approved this contract in principle in August and gave his formal
                                               approval in a determination letter released by Treasury on October 2, 2009.98

                                                AIG is the subject of three SIGTARP audits. The first examines the large bonus
                                            payments to employees in its Financial Products unit in March 2009. The second
                                            examines payments made to AIG’s counterparties by FRBNY. The third is part of
                                            a broader audit on Treasury’s governance of financial institutions in which it has
                                            acquired ownership interests. For more information on SIGTARP’s AIG audits, see
                                            Section 1: “SIGTARP’s Creation and Statutory Authority” in this report.

                                            Use of Funds Report
                                            As part of its equity capital facility agreement, AIG is required to submit a use of
                                            funds report describing its expected use of proceeds received under the transac-
                                            tion.99 According to AIG, the funds will be used to meet capital solvency require-
                                            ments resulting from declines in the value of investments. Additional funds will
                                            be used to purchase shares of United Guaranty Corporation (“UGC”), an AIG
                                            subsidiary, provide capital support for UGC, and settle a payment with a UGC
                                            subsidiary.100

                                            Targeted Investment Program and Asset Guarantee Program
                                            As of September 30, 2009, Treasury had invested a total of $40 billion of TARP
                                            funds in Citigroup and Bank of America through the Targeted Investment Program
                                            (“TIP”).101 The stated goal of TIP is to “strengthen the economy and protect
                                            American jobs, savings, and retirement security,” where “the loss of confidence in a
                                            financial institution could result in significant market disruptions that threaten the
                                            financial strength of similarly situated financial institutions.”102
                                                Additionally, should Citigroup’s losses rise above $39.5 billion, Treasury is ob-
                                            ligated to pay up to $5 billion in protection as part of its Asset Guarantee Program
                                            (“AGP”) toward additional losses in a $301 billion group of Citigroup’s assets. In
                                            consideration for this commitment, Treasury received $4.03 billion of preferred
                                                                                                      quarterly report to congress I october 21, 2009   67




stock.103 The stated goal of AGP is to use insurance protections to help stabilize
at-risk financial institutions. Treasury insures a select pool of troubled assets and
collects premiums in return.104 This program differs from other financial institution
support programs in that Treasury does not invest TARP funds in the institution
directly; rather, TARP funds are reserved to cover a portion of the possible losses
in the selected assets. As of September 30, 2009, no payment had been made to
Citigroup for AGP.105

Citigroup, Inc.
As of September 30, 2009, Citigroup had received a total of $45 billion in invest-
ments and $5 billion in loss protection through three separate TARP programs.
Table 2.15 shows the timing of these investments as well as the related dividend
payments that Treasury received.

Table 2.15

treasury’s investments in citigroup, As of 9/30/2009
($ Billions)

                                             Amount Invested/                         Dividends
Date                      Program                 Committed                                Paid
10/28/2008                CPP                                $25.00                           $0.93
12/31/2008                TIP                                 20.00                            0.93
1/16/2009                 AGP                                   5.00                           0.17
Total                                                       $50.00                            $2.04

Note: Numbers affected by rounding.
Sources: Treasury, Transactions Report, 10/2/2009; Treasury, response to SIGTARP data call,
10/7/2009.
68          special inspector general I troubled asset relief program




     For more information on the                   Citigroup Exchange
     Citigroup exchange offering, see              Treasury has not made any additional TARP investments in Citigroup since January
     SIGTARP’s July Quarterly Report,              2009; however the initial investments have been modified through a series of secu-
     page 66.                                      rities exchange offerings. Figure 2.12 presents a timeline of key events.
                                                        Through private, public, and Treasury CPP exchanges, Citigroup exchanged a
                                                   total of approximately $58 billion of preferred and trust preferred securities into
                                                   common stock. As a result, Treasury now holds 33.6% of Citigroup’s outstanding
                                                   common stock.106 Additionally, on July 30, 2009, Treasury exchanged its TIP and
                                                   AGP preferred shares for trust preferred shares. Details of the exchanges for private
                                                   shareholders, public shareholders, and Treasury can be found in Table 2.16. The
                                                   impact of the exchange on Citigroup’s capital structure can be seen in Table 2.17.



                                                   Figure 2.12

                                                   CITIGROUP EXCHANGE OFFERING TIMELINE


                                                     FEBRUARY 2009                    MAY 2009                         JUNE 2009                       JULY 2009



                                                                FEBRUARY 27                 MAY 7                               JUNE 10                             JULY 23
                                                             Exchange offering              Exchange offering                   Exchange offering          Exchange offering
                                                                 is announced.              is amended.                         is finalized.          is closed with private
                                                                                                                                                            shareholders and
                                                                                                                                                              Treasury (CPP).

                                                                                                                                                                   JULY 26
                                                                                                                                                      Preliminary results of
                                                                                                                                                  exchange are announced.

                                                                                                                                                                   JULY 30
                                                                                                                                                          Exchange offering
                                                                                                                                                       is closed with public
                                                                                                                                                           shareholders and
                                                                                                                                                  Treasury (CPP/TIP/AGP).



                                                   Sources: Announced: Citigroup Inc, 8-K, 2/27/2009, http://www.sec.gov/Archives/edgar/data/831001/000095010309000421/
                                                   dp12698_8k.htm, accessed 10/7/2009; Amended: Citigroup Inc, 8-K, 5/11/2009, http://www.sec.gov/Archives/edgar/data/831001/
                                                   000119312509106618/d8k.htm, accessed 10/7/2009; Finalized: Citigroup Inc, 8-K, 6/10/2009, http://www.sec.gov/Archives/edgar/data/
                                                   831001/000095010309001394/dp13784_8k.htm, accessed 10/7/2009; Closed with private shareholders: Citigroup Inc, 8-K, 7/23/2009,
                                                   http://www.sec.gov/Archives/edgar/data/831001/000095012309024819/y78424e8vk.htm, accessed 10/7/2009; Preliminary results
                                                   announced: Citigroup Inc, 8-K, 7/27/2009, http://www.sec.gov/Archives/edgar/data/831001/000119312509155289/d8k.htm, accessed
                                                   10/7/2009; Closed with public shareholders: Citigroup Inc, 8-K, 7/30/2009, http://www.sec.gov/Archives/edgar/data/831001/
                                                   000095012309027722/y78559e8vk.htm, accessed 10/7/2009.
                                                                                                             quarterly report to congress I october 21, 2009                            69




Table 2.16

citigroup exchange offerings                          ($ billions)
                              Private Exchange                                Public Exchange                                       Treasury Exchange
                            Pre-                Post-                    Pre-                      Post-                    Pre-                                 Post-
                            Exchange            Exchange                 Exchange                  Exchange                 Exchange                             Exchange
                            $12.5
                            Convertible         $12.5
Private Shareholders                                                     —                         —                        —                                    —
                            Preferred           Common Stock
                            Securities
                                                                         $20.3 Convertible
                                                                         and Non-convertible $20.3
Public Shareholders         —                   —                                                                           —                                    —
                                                                         Preferred and Trust Common Stock
                                                                         Preferred Securities
                            $12.5 CPP
                                                                                                                            $20 Billion TIP Preferred
                            Non-convertible $12.5                        $12.5 CPP                 $12.5                                                         $25 Billion Trust
Treasury                                                                                                                    Stock and $5 Billion AGP
                            Preferred       Common Stock                 Preferred Stock           Common Stock                                                  Preferred Securities
                                                                                                                            Preferred Stock
                            Securities

Sources: Citigroup, Inc, 10-Q, 8/7/2009, http://www.sec.gov/Archives/edgar/data/831001/000104746909007400/a2193853z10-q.htm, accessed 9/14/2009; Treasury, Transactions Report,
10/2/2009.



Table 2.17

Citigroup’s capital structure                       ($ Billions)
Equity Type                                              Pre-Exchange                 Post-Exchange
Tier 1 Common Equity (“T1 Common”)                             $27                                   $91

Tangible Common Equity (“TCE”)                                 $40                                 $100

Source: Citigroup, Inc, 10-Q, 8/7/2009, http://www.sec.gov/Archives/edgar/data/831001/000104746909007400/
a2193853z10-q.htm, accessed 9/14/2009.




Ring-Fence Update
As of September 30, 2009, the list of Citigroup assets to be included in the AGP
ring-fence had not yet been finalized. According to Treasury, the list is expected to
be finalized by October 31, 2009.107
    SIGTARP has announced an audit of AGP as it pertains to Citigroup. The audit
will examine the basis for the decision to provide the guarantees, the process of
selecting the assets in the ring-fence, the risk management controls in place, and
the safeguards available to protect taxpayers’ interest.

Use of Funds Report
Under its TIP agreement, based on SIGTARP’s recommendations, Citigroup is
required to submit a quarterly use of funds report. The report must include the
following information:

•	 how TARP funds were used
•	 the implementation of internal controls for TARP funds
•	 compliance or non-compliance with restrictions on use of TARP funds
70        special inspector general I troubled asset relief program




                                                      On August 11, 2009, Citigroup released its “TARP Progress Report for Second
                                                 Quarter 2009.” According to the report, Citigroup’s Special TARP Committee
                                                 approved $6 billion in new initiatives during the second quarter. Of this $6 billion,
                                                 $4 billion was allocated to support municipal letters of credit, and the remaining $2
                                                 billion was allocated to support lending facilities for mortgage originators. As of June
                                                 30, 2009, Citigroup had authorized $50.8 billion in initiatives supported by TARP
                                                 capital.108
                                                      The report also describes Citigroup’s participation in the MHA program, detailing
                                                 its efforts to modify mortgages and increase mortgage lending. In the second quarter
                                                 of 2009, Citigroup reported that it worked to avoid foreclosures through various loss
                                                 mitigation activities on more than $16 billion of mortgages it owns or services and
                                                 funded approximately $31 billion in new mortgage loans.109
     For more information on Bank of
     America’s participation in AGP, see         Bank of America
     SIGTARP’s April Quarterly Report,           As of September 30, 2009, Bank of America had received a total of $45 billion in
     page 76.                                    three separate infusions of TARP funds. Table 2.18 shows the timing of these invest-
                                                 ments as well as the related dividend payments that Treasury had received.
                                                     Bank of America originally sought protection under AGP but, on May 7, 2009,
                                                 announced that it was no longer seeking such assistance.110 On September 21, 2009,
                                                 in exchange for Treasury’s previous public commitment to provide additional funds,
                                                 Bank of America agreed to pay $425 million to the Government.111 Of this $425
                                                 million, $276 million was paid to Treasury, $92 million was paid to FDIC, and $57
                                                 million was paid to the Federal Reserve. According to Treasury, the $276 million will
                                                 be deposited into Treasury’s general fund for the reduction of public debt and will
                                                 not be re-issued by Treasury for TARP.112


                                                 Table 2.18

                                                  treasury’s investments in bank of america, as of 9/30/2009
                                                  ($ Billions)
                                                                                                                              Amount            Dividends
                                                 Date                         Program                                        Invested                Paid
                                                 10/28/2008                   CPP                                              $15.00
                                                                                                                                                   $0.90
                                                 1/9/2009                     CPPa                                               10.00
                                                 1/16/2009                    TIP                                                20.00              0.93
                                                 Total                                                                        $45.00               $1.83

                                                 Notes: Numbers affected by rounding.
                                                 a
                                                   Bank of America received $10 billion on 1/9/2009 related to the Merrill Lynch acquisition.
                                                 Source: Treasury, Transactions Report, 10/2/2009.
                                                                           quarterly report to congress I october 21, 2009   71




Use of Funds Report
Under its TIP agreement, based on SIGTARP’s recommendations, Bank of America
is required to submit a quarterly use of funds report. The report must include the
following information:

•	 how TARP funds were used
•	 the implementation of internal controls for TARP funds
•	 compliance or non-compliance with restrictions on use of TARP funds

    According to the second edition of Bank of America’s “Quarterly Impact
Report,” Bank of America lent more than $211 billion during the second quar-
ter, some of which is presumably supported by TARP capital; however Bank of
America’s report does not provide any details about the amount of lending that has
occurred as a result of the increased capital provided by TARP.113
72           special inspector general I troubled asset relief program




                                                    Asset Support Programs
                                                    Treasury, either on its own or in conjunction with the Federal Reserve, has an-
                                                    nounced three programs intended to support demand in financial markets for hard-
                                                    to-value assets and to restart the credit markets by supporting new loans: the Term
                                                    Asset-Backed Securities Loan Facility (“TALF”), the Public-Private Investment
                                                    Program (“PPIP”), and the Unlocking Credit for Small Businesses (“UCSB”)
                                                    program.
                                                        The Federal Reserve’s TALF program has been announced to provide up to
                                                    $1 trillion in funding to institutions pledging asset-backed securities (“ABS”) as
                                                    collateral. According to Treasury, it will provide up to $80 billion114 of TARP funds
                                                    to support this program (Treasury’s current TALF commitment is $20 billion, but
                                                    should TALF lending exceed $200 billion, then Treasury will commit additional
                                                    TARP funds up to a total of $80 billion). On August 17, 2009, the Federal Reserve
                                                    and Treasury announced the extension of TALF, beyond the originally contem-
     Commercial Mortgage-Backed                     plated termination date of December 31, 2009, to March 2010 for non-mortgage-
     Securities (“CMBS”): A financial instru-       backed ABS and legacy commercial mortgage-backed securities (“CMBS”), and
     ment that is backed by a commercial real       June 2010 for newly issued CMBS.115 Through September 30, 2009, the Federal
     estate mortgage or a group of com-
                                                    Reserve had facilitated 11 TALF subscriptions for a total of $51.5 billion in TALF
     mercial real estate mortgages that are
                                                    loans: 7 subscriptions related to non-mortgage-backed ABS totaling approximately
     packaged together.
                                                    $47.3 billion in TALF loans, and 4 CMBS subscriptions resulting in $4.2 billion in
     Legacy CMBS: CMBS issued before
                                                    TALF loans. As of September 30, 2009, $42.7 billion of the $51.5 billion in TALF
     January 1, 2009.                               loans settled remains outstanding.116 According to the Federal Reserve “the aggre-
                                                    gated amount outstanding can vary from the aggregate amount requested or funded
                                                    at subscription for reasons including prepayments and principal pay downs.”117
                                                        In addition to the expansion of TALF, PPIP, as announced, included two
                                                    subprograms, the Legacy Loans Program and the Legacy Securities Program. The
                                                    Legacy Loans Program was intended to utilize equity provided by Treasury and debt
                                                    guarantees provided by FDIC to facilitate purchases of legacy mortgage loans held
                                                    by banks. On July 31, 2009, FDIC launched a pilot sale of assets as a proposed
                                                    funding mechanism for the Legacy Loans Program. No TARP funds were used in
                                                    the sale.118 The Legacy Securities Program, on the other hand, utilizes equity pro-
                                                    vided by Treasury and debt potentially provided by Treasury, through TARP,
                                                    and/or the Federal Reserve, through TALF, to facilitate purchases of legacy mort-
                                                    gage-backed securities (“MBS”) held by various financial institutions.
                                                        Through the UCSB program, Treasury announced plans to purchase up to
                                                    $15 billion in securities backed by Small Business Administration (“SBA”)-
                                                    guaranteed loans.
                                                                         quarterly report to congress I october 21, 2009            73




Term Asset-Backed Securities Loan Facility                                             For more information on the mechanics
                                                                                       of TALF, see SIGTARP’s April Quarterly
In November 2008, the Federal Reserve and Treasury announced TALF, under
                                                                                       Report, page 96 and SIGTARP’s July
which FRBNY would issue up to $200 billion in loans to make credit available to        Quarterly Report, page 73.
consumers and small businesses; up to $20 billion in TARP funds would be used to
purchase surrendered collateral of TALF loans.119 Subsequently, in February 2009,
Treasury and the Federal Reserve announced that they were prepared to expand
TALF to up to $1 trillion, which, according to Treasury, would include up to $80
billion of TARP funds.120 TALF has been divided into two parts:

•	 lending program: originates loans to eligible borrowers
•	 asset disposition facility (“TALF LLC”): a special purpose vehicle (“SPV”)
   used by FRBNY to purchase and manage any collateral surrendered by borrow-             Non-Recourse Loan: A secured loan
   ers from the TALF lending program                                                      whereby the borrower is relieved of the
                                                                                          obligation to repay the loan upon the
    FRBNY manages both the lending program and TALF LLC. The funding for                  surrender of the collateral.
the lending program comes in the form of non-recourse loans issued by FRBNY.
According to Treasury, the funding for TALF LLC will first come from a portion
of interest payments made by borrowers from the lending program, then from
Treasury’s use of up to $20 billion in TARP funds (should TALF lending exceed
$200 billion then Treasury will commit additional TARP funds up to a total of
$80 billion) to purchase subordinated debt from TALF LLC, and finally, from
FRBNY. Because TALF loans are non-recourse, TALF borrowers may, at any time,
walk away from their loans, surrendering their collateral to FRBNY, which would
sell it to TALF LLC. That is, upon surrender, the TALF borrower would owe no
more on their TALF loan, and TALF LLC would recover only whatever the col-
lateral is worth. As of September 30, 2009, the Federal Reserve had not announced
the surrender of any collateral to TALF LLC.

Program Developments
Subsequent to SIGTARP’s July Quarterly Report, a number of TALF program
updates have been announced that, according to the Federal Reserve, promote the
flow of credit to businesses and households, and facilitate the financing of some
commercial properties.121 The following program-related developments occurred
and are discussed in greater detail in this section:

•	 The TALF deadline was extended, based on the type of collateral provided,
   to March 2010 (for newly issued ABS and legacy CMBS) and June 2010 (for
   newly issued CMBS).
74            special inspector general I troubled asset relief program




                                                     •	 Updates to legacy CMBS eligibility guidance were introduced.
                                                     •	 Additional guidance was issued on eligible non-mortgage-backed ABS collateral.
                                                     •	 Two changes were made to the procedures for evaluating non-mortgage-backed
                                                        ABS collateral: a proposed rule related to eligible nationally recognized statisti-
                                                        cal rating organizations (“NRSROs”) and the implementation of a formal risk
                                                        assessment for proposed collateral.
                                                     •	 An additional collateral monitor that will be responsible for assessing the entire
                                                        TALF portfolio was announced (Pacific Investment Management Company
                                                        LLC (“PIMCO”)).
                                                     •	 Three listings of accepted and rejected CUSIPs for legacy CMBS have been
     CUSIP: Unique identifying number
     assigned to all registered securities              released.
     (similar to a social security number).          •	 TALF dealers were re-designated as TALF Agents, and four non-primary dealers
                                                        were added to the list of eligible agents.
                                                     •	 Six additional TALF subscriptions (for a total of 11 since the inception of the
                                                        program) were conducted by FRBNY.
                                                     •	 Program mechanics concerning TALF interaction with PPIP were updated,
                                                        effectively limiting the amount of TALF debt that PPIP funds are eligible to
                                                        receive.

                                                     TALF Deadline Extension
                                                     On August 17, 2009, the Federal Reserve and Treasury announced the extension of
                                                     TALF beyond the originally contemplated termination date of December 31, 2009.
                                                     For TALF loans collateralized by newly issued ABS and legacy CMBS, availability
                                                     has been extended by FRBNY through March 2010 due to the continuing impair-
                                                     ment of the markets. Additionally, TALF loans collateralized by newly issued CMBS
                                                     will be made by FRBNY through June 2010 in order to provide the market enough
                                                     time to arrange newly issued CMBS transactions.122

                                                     New Eligibility Rules for Commercial Mortgage-Backed Securities
                                                     As discussed in SIGTARP’s July Quarterly Report, TALF collateral includes newly
                                                     issued and legacy CMBS. For purposes of TALF, eligible CMBS collateral has been
                                                     divided into two classes: newly issued (after January 1, 2009), and legacy CMBS
                                                     (issued before January 1, 2009). According to the Federal Reserve, “the inclusion
                                                     of CMBS as eligible collateral for TALF loans will help prevent defaults on eco-
                                                     nomically viable commercial properties, increase the capacity of current holders of
                                                     maturing mortgages to make additional loans, and facilitate the sale of distressed
                                                     properties.”123

                                                     CMBS Criteria as of SIGTARP’s July Quarterly Report
                                                     In May 2009, the Federal Reserve announced the inclusion of newly issued and
                                                     legacy CMBS as eligible collateral for TALF loans. The Federal Reserve issued the
                                                                               quarterly report to congress I october 21, 2009            75




initial eligibility requirements for both newly issued and legacy CMBS; they include
the following:124

•	 Eligible CMBS must evidence an interest in a trust fund consisting of fully
   funded mortgage loans and not other CMBS, other securities, interest rate swap
   or cap instruments, or other hedging instruments.
•	 Eligible CMBS must have a credit rating in the highest long-term investment-
   grade rating category from at least two TALF CMBS-eligible rating agencies and
   must not have a credit rating below the highest investment-grade rating category
   from any TALF CMBS-eligible rating agency.
•	 Eligible CMBS must entitle its holders to payments of principal and interest.
•	 Eligible CMBS must not be issued by an agency or instrumentality of the
   United States or a Government-sponsored enterprise.
•	 Eligible CMBS must include a mortgage or similar instrument on a fee or lease-
   hold interest in one or more income-generating commercial properties.

   For more information on the differences in eligibility criteria for newly issued
and legacy CMBS, see SIGTARP’s July Quarterly Report, page 76.

Updated CMBS Criteria as of September 30, 2009
In August 2009, FRBNY updated the eligibility requirements regarding CMBS.
FRBNY stated that it will not fund a TALF loan if, during the risk assessment pe-
riod, it finds that the potential borrower has a direct or indirect economic interest
in the loans supporting the ABS collateral, or products or services relating to such
collateral.125 Such a conflict of interest would make the application ineligible for a
TALF loan.

Additional Guidance on Eligibility of Existing ABS Collateral                                  Small Business Administration (“SBA”)
Subsequent to SIGTARP’s July Quarterly Report, FRBNY issued additional guid-                   7(a) Pool Certificates (“pool certifi-
ance related to specific loan classes for non-mortgage-backed securities. In particu-          cates”): 7(a) loans grouped together to
lar, it will allow borrowers to pledge more than one security as collateral for a single       form one security eligible as collateral
loan in the case of Small Business Administration (“SBA”) 7(a) Pool Certificates               against a TALF loan.
(“pool certificates”).126 SBA 7(a) loans, which collateralize the pool certificates, are
those made by participating lenders in the 7(a) program in which the Government                Weighted Average Life: The average
                                                                                               number of years for which each dollar
guarantees a percentage of loans for small businesses that cannot otherwise obtain
                                                                                               of unpaid principal on a mortgage or
conventional loans at reasonable terms.
                                                                                               loan remains outstanding.
     In the revised guidance, each certificate must have a similar weighted average
life so that together they fall under the same haircut percentage. For example, if
two SBA 7(a) pool certificates have weighted average lives of two and four years,
respectively, they are eligible to be pledged together with a haircut percentage of
5%. Should the weighted average life of two SBA 7(a) pool certificates be two and
76            special inspector general I troubled asset relief program




                                                     Table 2.19

                                                     SBA Haircut percentages
                                                     Average Life (years)
                                                     0-<1            1-<2             2-<3              3-<4             4-<5             5-<6              6-<7
                                                      5%                5%                5%               5%               5%               6%                6%

                                                     Source: FRBNY, “Term Asset-Backed Securities Loan Facility: FAQs,” 9/1/2009, http://www.newyorkfed.org/markets/
                                                     talf_faq.html, accessed 9/14/2009.




                                                     six years, however, they do not share the same haircut percentage and therefore are
                                                     not eligible to be pledged together as collateral for a single TALF loan.127 See Table
                                                     2.19 for details on the relationship between average life of SBA pool certificates
                                                     and their respective TALF haircuts.
                                                         Additionally, the Federal Reserve clarified what sorts of receivables were eligible
     Floorplan: Revolving lines of credit
                                                     in auto and non-auto floorplan ABS. Floorplan loans will include revolving lines of
     used to finance inventories of items.
                                                     credit to finance dealer inventories of certain items. Table 2.20 shows a breakdown
                                                     of what type of inventories are eligible under auto and non-auto floorplans.

                                                     Changes to Procedures for Evaluating Non-Mortgage-Backed ABS Collateral
                                                     Subsequent to SIGTARP’s July Quarterly Report, FRBNY announced two potential
                                                     changes to its evaluation procedures for securities pledged as TALF collateral.128
                                                     The first is a new proposed rule that would provide a process by which FRBNY
                                                     may determine the eligibility of credit rating agencies and their ratings for use in
                                                     TALF.129 This new rule would apply to non-mortgage-backed ABS and would likely
                                                     increase the number of TALF-eligible NRSROs. According to the Federal Reserve,
                                                     the new rule “is intended to promote competition among NRSROs and ensure ap-
                                                     propriate protection against credit risk for the U.S. taxpayer.”130


                                                     Table 2.20


                                                     fLOORPLAN ELIGIBILiTY
                                                     Inventory Category                                                    Auto                      Non-Auto
                                                     Cars                                                                    X
                                                     Light Trucks                                                            X
                                                     Motorcycles                                                             X                             X
                                                     Boats/Sports Vehicles                                                                                 X
                                                     Appliances/Electronics                                                                                X
                                                     Construction/Manufacturing Equipment                                                                  X

                                                     Notes: Up to 5% of the receivables of an auto or non-auto ABS may be any type of floorplan receivable. Up to 5% of the
                                                     receivables of a non-auto ABS may be receivables arising under asset-based lending facilities or loans secured by accounts
                                                     receivable.

                                                     Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: FAQs,” 9/1/2009, http://www.newyorkfed.org/markets/
                                                     talf_faq.html, accessed 9/1/2009; Federal Reserve, response to SIGTARP draft report, 10/8/2009.
                                                                             quarterly report to congress I october 21, 2009   77




    The second change to FRBNY’s collateral-evaluation procedures is the imple-
mentation of a formal risk assessment process for all non-mortgage-backed securi-
ties pledged as collateral for a TALF loan beginning with the November subscrip-
tion date. This practice is similar to the existing risk assessment process for CMBS
collateral. The formal process gives FRBNY the right to reject any ABS as collateral
based on this risk assessment. According to the Federal Reserve, the change will
enhance its “ability to ensure that TALF collateral complies with its existing high
standards for credit quality, transparency, and simplicity of structure.”131

Proposed Rule for Evaluating NRSROs
The Federal Reserve proposed a new rule governing FRBNY’s acceptance of credit
ratings for non-mortgage-backed ABS proposed as TALF collateral. The rule is
currently open for public comment until early November 2009. The new rule
would require FRBNY to accept only credit ratings issued by a credit rating agency
that is registered with the Securities and Exchange Commission (“SEC”) as an
NRSRO for issuers of ABS that meet certain experience-based criteria and other
requirements. Currently there are only three NRSROs that can rate all proposed
TALF collateral, and five that can rate CMBS collateral. According to the Federal
Reserve, limiting acceptable ratings to certain NRSROs would provide risk mitiga-
tion due to the higher standards such rating agencies must meet — such as “disclo-
sure provisions and conflict of interest prohibitions that are prudent and relevant to
the evaluation of credit ratings agencies with respect to TALF.”132 For more infor-
mation on the NRSRO designation and SEC regulations on NRSROs established
by the Credit Rating Agency Reform Act of 2006 (“CRARA”), see Section 3: “The
Impact of Credit Rating Agencies on TARP and Beyond” of this report.
    Under the rule, FRBNY would review and accept a particular NRSRO and its
credit ratings on proposed ABS collateral by using certain experience-based criteria.
The proposed rule would require that, in order for an NRSRO to be accepted by
TALF as a rating agency for securities based on a particular asset category, the
NRSRO must have issued ratings on at least 10 transactions in that specific asset
category within a three-year period. FRBNY divides the assets underlying the non-
mortgage-backed ABS into four categories:133

•	   Category 1: auto loans, floorplan loans, and equipment loans
•	   Category 2: credit card receivables and insurance premium finance loans
•	   Category 3: mortgage servicing advance receivables
•	   Category 4: student loans

    TALF’s current evaluation process for CMBS collateral, including its credit
rating requirement, will remain unchanged and is outlined in SIGTARP’s July
Quarterly Report, page 76.
78   special inspector general I troubled asset relief program




                                            Risk Assessment
                                            FRBNY announced the addition of a formal risk assessment process for non-
                                            mortgage-backed ABS pledged as collateral for a TALF loan. The TALF evaluation
                                            process for CMBS collateral already includes a risk assessment process that deter-
                                            mines whether potential collateral meets certain criteria. For example, the securi-
                                            ties must meet FRBNY’s TALF terms and conditions. In addition, the securities
                                            must satisfy the following general standards for TALF collateral:134

                                            •	 Credit Quality: The ABS has the highest credit rating quality with minimal risk
                                               of default and low probability of deterioration in credit quality.
                                            •	 Transparency: Sufficient information is available for investors to make in-
                                               formed decisions about the collateral’s credit risk and the due diligence on the
                                               collateral completed by the issuer of the ABS.
                                            •	 Simplicity of Structure: Relationships between performance of the collateral
                                               of the ABS and the payments of the ABS are clear and uncomplicated.

                                                 In order for FRBNY and the appropriate collateral monitor to have sufficient
                                            time to conduct the risk assessment, issuers of the proposed TALF-eligible ABS
                                            must provide to FRBNY all data on the ABS and its underlying collateral that it
                                            provided to any NRSRO when the ABS was rated. The information must be pro-
                                            vided at least three weeks in advance of the applicable TALF subscription date. The
                                            issuer must also provide a written waiver to all NRSROs with which it has shared
                                            data regarding the proposed ABS. The written waiver permits the NRSRO to share
                                            its view of the securities’ credit quality with FRBNY. FRBNY will communicate the
                                            status of the risk assessment process, at a minimum, within two weeks of receipt of
                                            the required information.135
                                                 Additionally, FRBNY will be performing this risk assessment process on non-
                                            mortgage-backed ABS that have previously been accepted as TALF-eligible collater-
                                            al. Issuers will not be required to provide information on the ABS as is required for
                                            newly proposed ABS. According to FRBNY, the results of this risk assessment pro-
                                            cess will not impact the eligibility of the previously accepted non-mortgage-backed
                                            ABS as long as the ABS continue to meet the collateral eligibility requirements.136
                                            Collateral eligibility requirements for TALF collateral are outlined in SIGTARP’s
                                            April Quarterly Report, page 96.

                                            Role of the Collateral Monitors
                                            As discussed in SIGTARP’s July Quarterly Report, the Federal Reserve had retained
                                            the services of a collateral monitor, Trepp LLC, to evaluate TALF-eligible CMBS
                                            to ensure that specific risks to the Federal Reserve and Treasury are mitigated. On
                                                                             quarterly report to congress I october 21, 2009           79




August 4, 2009, FRBNY announced the hiring of PIMCO as an additional collater-
al monitor. According to FRBNY, both collateral monitors “will assist the New York          For more information on collateral
Fed by providing valuation, modeling, analytics and reporting, as well as advising on       monitoring, see SIGTARP’s July Quarterly
                                                                                            Report, page 80.
these matters.”137
    According to FRBNY, Trepp LLC will only be responsible for monitoring the
CMBS collateral, while PIMCO will focus on the entire TALF portfolio (both
mortgage-backed and non-mortgage-backed securities). With input from the collat-
eral monitors on the valuations and analytics, FRBNY will make decisions regard-
ing the eligibility of collateral — subsequently accepting or rejecting it for a TALF
loan. After each subscription date, a listing of all CUSIPs for accepted and rejected
collateral is then posted by FRBNY on its website.138 According to FRBNY, “the col-
lateral monitors will not establish policies or make decisions for FRBNY, including
decisions whether to reject a CMBS as collateral for a TALF loan or exclude loans
from mortgage pools.”139

Other Roles of PIMCO in TARP and the CMBS Market
As discussed in SIGTARP’s July Quarterly Report, PIMCO has held different roles
in several programs. These roles include:

•	 Asset Manager for FRBNY’s Agency MBS Purchase Program (left program as of
   8/17/2009)
•	 Asset Manager for FRBNY’s Commercial Paper Funding Facility
•	 TALF Collateral Monitor

    In addition to being selected as a collateral monitor for the entire TALF port-
folio, PIMCO plays a significant role in the MBS marketplace, which includes
CMBS. MBS make up 61% of PIMCO’s $161 billion Total Return Fund, or ap-
proximately $98 billion of that portfolio.140 PIMCO also manages approximately
$983 million of assets in its Mortgage-Backed Securities Fund.141

    Under PIMCO’s TALF Collateral Monitor Agreement with FRBNY, certain
PIMCO employees and independent contractors engaged by PIMCO are required
to follow outlined procedures in order to establish an ethical wall to “protect
the confidentiality” of the TALF collateral-related information and “mitigate any
conflicts of interest by implementing measures designed to restrict access to such
information.”142 The community of PIMCO employees and PIMCO-employed
independent contractors engaged by PIMCO and working on the TALF con-
tract are considered “Restricted Persons.” Any employee or contractor who has a
80   special inspector general I troubled asset relief program




                                            “substantive role” in developing and providing guidance to FRBNY is considered a
                                            “Special Restricted Person.”143 PIMCO’s conflict wall provisions include, but are
                                            not limited to, the following:144

                                            •	 Identification of Restricted Persons: Restricted Persons shall be identified
                                               and listed — with all pertinent information — with the compliance department,
                                               subject to approval by FRBNY.
                                            •	 Physical Separation of Restricted Persons: Restricted Persons will all work in
                                               an environment physically segregated from the general trading, brokerage, and
                                               sales activities of PIMCO that may conflict with FRBNY and TALF. This sepa-
                                               rate location must be secure and limited to Restricted Persons and FRBNY.
                                            •	 Special Restricted Persons: Special Restricted Persons shall be prohibited
                                               from trading or valuing restricted ABS on behalf of anyone other than FRBNY.
                                            •	 Personal Trading of Restricted Persons: PIMCO’s code of ethics applies to all
                                               employees. Each Restricted Person may not purchase or sell any stock or debt
                                               securities of ABS, a bank or BHC, and any financial institution that is a recipi-
                                               ent of TARP or any U.S. Government economic stabilization program.
                                            •	 Compliance Training and Monitoring: All Restricted Persons must complete
                                               compliance training specifically designed for the TALF program. Additionally,
                                               PIMCO will hire staff on a full-time basis to provide ongoing monitoring of its
                                               compliance policies and procedures and to assess its compliance program on an
                                               annual basis.
                                            •	 Incident Reporting: Employees and Restricted Persons of PIMCO will be re-
                                               quired to immediately report any violation or suspected violation of the conflict
                                               wall provisions to the compliance department for review. Additionally, PIMCO
                                               will report the occurrence of any risk event to FRBNY.

                                                Additionally, FRBNY has the right to monitor PIMCO at any time during the
                                            term of their agreement. This includes, but is not limited to, inspections of records
                                            in PIMCO’s possession, an audit of PIMCO’s performance, and access to PIMCO
                                            property. PIMCO shall provide internal reporting to FRBNY of internal audit re-
                                            views, Sarbanes-Oxley certifications, and other types of reviews and audits.145

                                            CMBS Acceptances and Rejections
                                            Each security potentially pledged as collateral for a TALF loan can be identified by
                                            its unique CUSIP number. As of September 30, 2009, FRBNY posts those CMBS
                                            CUSIPs accepted as collateral, but only lists those CMBS CUSIPs that have been
                                            rejected for reasons relating to the security itself. According to FRBNY, “rejec-
                                            tions due to the failure to properly complete a TALF loan request form, the failure
                                            to provide a sales confirmation that meets the requirements of the [Master Loan
                                            and Security Agreement], borrower ineligibility, or the FRBNY’s assessment of the
                                                                           quarterly report to congress I october 21, 2009          81




reasonableness of the secondary market transaction price are not published.”146
                                                                                           Primary Dealer: Banks and securities
FRBNY is currently considering whether it will publish accepted and rejected
                                                                                           broker-dealers that trade in U.S. Gov-
CUSIPs for the non-mortgage-backed ABS.147 As of September 30, 2009, FRBNY                 ernment securities with FRBNY for the
had accepted 177 legacy CMBS CUSIPs and rejected 4 legacy CMBS CUSIPs.                     purpose of carrying out open market
According to FRBNY, it reserves the right to reject any CMBS as collateral based           operations.
on the terms and conditions of the TALF program.148
    According to FRBNY, the rejection of four CMBS was based on either a failure           Non-Primary Dealer: Banks and
to meet the terms and conditions of the TALF program or the inability of the               securities broker-dealers that are not
CMBS to pass a risk assessment requiring that the valuation of the proposed col-           approved by FRBNY to trade in U.S.
lateral perform to certain standards using adverse economic assumptions. This risk         Government securities.
assessment assists FRBNY in the determination of whether the total amount of
                                                                                           TALF Agent: Financial institution that
money lent to the borrower would exceed the total value of the CMBS should the
                                                                                           is a party to the Master Loan and
market deteriorate.149
                                                                                           Security Agreement and from time to
                                                                                           time acts as an agent to the borrower.
TALF Agents
                                                                                           TALF Agents include primary and non-
TALF borrowers must work through an agent dealer in interactions with FRBNY                primary broker-dealers.
in order to participate in TALF. Originally, only primary dealers were eligible to
serve in this agent role. On September 1, 2009, however, FRBNY announced that              Primary Dealer List:
four non-primary dealers would also be allowed to function as TALF Agents. This            BNP Paribas Securities Corp
is a designation that FRBNY now uses to describe both primary and non-primary              Banc of America Securities LLC
dealers that play the role of representing borrowers participating in TALF. FRBNY          Barclays Capital Inc.
President William C. Dudley stated that “establishing a wider network of TALF              Cantor Fitzgerald & Co.
Agents as a distribution mechanism for TALF financing is an important step that            Citigroup Global Markets Inc.
should enable a broader range of investors to access the facility, leading up to a         Credit Suisse Securities (USA) LLC
                                                                                           Daiwa Securities America Inc.
further improvement in the securitization market.”150
                                                                                           Deutsche Bank Securities Inc.
    Under the FRBNY Terms and Conditions, the TALF Agents’ primary role is to
                                                                                           Goldman, Sachs & Co.
act as an agent on behalf of a TALF borrower, which is no different from the role of
                                                                                           HSBC Securities (USA) Inc.
a primary dealer. The TALF Agents’ duties include collecting information related to
                                                                                           Jefferies & Company, Inc.
the borrower’s loan requests such as the amount, CUSIPs, and related prospectus            J.P. Morgan Securities Inc.
documentation. The TALF Agent will also submit the requested loan amount with              Mizuho Securities USA Inc.
a package containing all information relative to the ABS collateral.151 According          Morgan Stanley & Co. Incorporated
to FRBNY, a TALF Agent is required to apply its internal customer identification           Nomura Securities International, Inc.
program and due diligence procedures (“Know Your Customer” program) to each                RBC Capital Markets Corporation
borrower and represent that each borrower is eligible. A TALF Agent is required to         RBS Securities Inc.
provide FRBNY with information sufficient to describe the Agent’s customer risk            UBS Securities LLC
assessment methodology prior to participation in the program.152
                                                                                           TALF-Eligible Non-Primary Dealer List:
                                                                                           CastleOak Securities, LP
TALF Loan Activity
                                                                                           Loop Capital Markets, LLC
As of September 30, 2009, FRBNY had conducted 11 subscriptions for TALF: 7 re-
                                                                                           Wells Fargo Securities, LLC
lated to non-mortgage backed ABS and 4 related to CMBS. The 11 TALF subscrip-
                                                                                           The Williams Capital Group, LP
tions have resulted in $51.5 billion in TALF loans made to 160 TALF borrowers,
82   special inspector general I troubled asset relief program




                                                   of which 132 pledged non-mortgage-backed ABS collateral and 57 pledged CMBS
                                                   collateral.153 Of the $51.5 billion in TALF loans settled, there are currently $42.7
                                                   billion of TALF loans outstanding.154 According to the Federal Reserve “the aggre-
                                                   gated amount outstanding can vary from the aggregate amount requested or funded
                                                   at subscription for reasons including prepayments and principal pay downs.”155 As
                                                   of September 30, 2009, the subscriptions for newly issued CMBS had not resulted
                                                   in any loan activity.

                                                   Subscriptions Using Non-Mortgage-Backed Collateral
                                                   As of September 30, 2009, FRBNY had facilitated seven TALF non-mortgage-
                                                   backed ABS subscriptions, totaling approximately $47.3 billion in TALF loans.
                                                   Table 2.21 includes all non-mortgage-backed ABS subscriptions since the inception
                                                   of TALF.

                                                   Subscriptions Using Commercial Mortgage-Backed Collateral
                                                   As of September 30, 2009, FRBNY had facilitated four TALF CMBS subscriptions
                                                   totaling approximately $4.2 billion in TALF loans. One subscription allowed the
                                                   posting of newly issued CMBS as collateral, while the other three subscriptions




                       Table 2.21

                       TALF Loans Originated by ABS Sector (Non-mortgage-backed Collateral)                                                                   ($ billions)
                                                                   March            April         May           June          July       August       September
                       ABS Sector                                   2009           2009          2009           2009         2009         2009             2009                 Total
                       Auto Loans                                     $1.9           $0.8          $2.2          $3.3         $2.8          $0.6               $1.2             $12.7
                       Student Loans                                     —              —            2.4           0.2          1.0           2.5                0.2              6.2
                       Credit Card Receivables                          2.8            0.9           5.5           6.2          1.5           2.6                4.4             23.9
                       Equipment Loans                                   —              —            0.5           0.6           —              —                0.1              1.2
                       Floorplan Loans                                   —              —             —             —            —            1.0                 —               1.0
                       Small-Business Loans                              —              —            0.1           0.1          0.1           0.2                0.2              0.6
                       Servicing Advance Receivables                     —              —             —            0.5         0.0   a
                                                                                                                                              0.1                 —               0.6
                       Premium Finance                                   —              —             —            0.5           —              —                0.5              1.1
                       Total                                          $4.7          $1.7        $10.6          $11.5          $5.4          $6.9               $6.5         $47.3

                       Notes: Numbers affected by rounding. Data as of 9/30/2009. As of 9/30/2009, $38.6 billion in TALF loans collateralized by non-mortgage-backed ABS were
                       outstanding. The 10/2/2009 subscription was for approximately $2.5 billion in TALF loans.
                       a
                         The July 2009 servicing receivables TALF subscription was for approximately $34 million. For purposes of this table it rounds to $0.0 billion.

                       Sources: FRBNY, “TALF non-CMBS Operations,” no date, http://www.newyorkfed.org/markets/talf_operations.html, accessed 9/24/2009; Federal Reserve, response
                       to SIGTARP draft, 10/8/2009.
                                                                                                                         quarterly report to congress I october 21, 2009   83




allowed both newly issued and legacy CMBS. The four newly issued CMBS sub-
scriptions have not yet resulted in any TALF loan activity. For a summary of TALF
CMBS loans by date and collateral asset category, see Table 2.22.



Table 2.22

TALF Loans Originated (CMBS Collateral)                                        ($ billions)
                                                 May               July          August           September
Type of Collateral Assets                       2009              2009            2009                 2009                    Total
Newly Issued CMBS                                  $—                $—                $—                    $—                  $—
Legacy CMBS                                          —               0.7               2.2                    1.4                4.2
Total                                              $—              $0.7              $2.2                   $1.4               $4.2

Notes: Numbers affected by rounding. Data as of 9/30/2009. Of the $4.2 billion in TALF loans collateralized by CMBS, $4.1 billion were
outstanding.
Sources: FRBNY, “TALF non-CMBS Operations,” no date, http://www.newyorkfed.org/markets/talf_operations.html, accessed
9/24/2009; Federal Reserve, response to SIGTARP draft, 10/8/2009.




Updated Program Mechanics Related to the Public-Private Investment Program
As reported in SIGTARP’s July Quarterly Report, following a SIGTARP recommen-
dation, OFS had stated that, “haircuts will be increased so that the combination
of Treasury- and TALF-supplied debt will not exceed the total amount of TALF
debt that would be available leveraging the PPIF equity alone.”156 On August 18,
2009, FRBNY announced that a Public-Private Investment Fund (“PPIF”) will be
eligible to borrow from TALF if it has received Treasury debt financing equal to or
less than 50% of the PPIF’s total equity (including private and Treasury-supplied
equity). In addition, the PPIF will be required to satisfy all TALF borrower eligibil-
ity requirements.157 In order to make sure that the combination of Treasury- and
TALF-supplied debt does not exceed the total amount of debt leveraging that could
be achieved with only the PPIF equity, TALF haircuts for PPIFs will be adjusted
50% higher than they are for other borrowers.158
84             special inspector general I troubled asset relief program




                                                      Public-Private Investment Program
                                                      On March 23, 2009, Treasury, along with FDIC and the Federal Reserve, an-
                                                      nounced the Public-Private Investment Program (“PPIP”), intended to “repair
     PPIF Managers:                                   the balance sheet of financial institutions and ensure that credit is available for
     •	 AllianceBernstein, L.P. and its sub-          households and businesses.”159 PPIP is designed to purchase legacy assets from
        advisors Greenfield Partners, LLC,            institutions through various Public-Private Investment Funds (“PPIFs”), which
        and Rialto Capital Management, LLC*           are capitalized with private investment, public investment, and advantageous
     •	 Angelo, Gordon & Co. and GE                   non-recourse debt financing. As of September 30, 2009, Treasury had commit-
        Capital Real Estate
                                                      ted $30 billion of equity and debt financing to PPIP.160 As of October 6, 2009,
     •	 BlackRock, Inc.*
                                                      five PPIF managers, Invesco Ltd. (“Invesco”); The TCW Group, Inc. (“TCW”);
     •	 Invesco Ltd.*
                                                      AllianceBernstein, L.P. and its sub-advisors Greenfield Partners, LLC and Rialto
     •	 Marathon Asset Management, L.P.
                                                      Capital Management, LLC (“AllianceBernstein”); BlackRock, Inc. (“BlackRock”);
     •	 Oaktree Capital Management, L.P.
     •	 RLJ Western Asset Management, L.P.            and Wellington Management Company, LLP (“Wellington”), signed final PPIP
     •	 The TCW Group, Inc.*                          agreements, each having raised at least $500 million in committed equity capital
     •	 Wellington Management Company,                from private investors. The remaining four PPIFs are still in the capital-raising por-
        LLP*                                          tion of the process.161According to Treasury, PPIP, as originally envisioned, could
        *Have signed final PPIP agreements            generate $500 billion to $1 trillion in legacy-asset purchasing power through three
        as of the drafting of this report             programs:162
     Purchasing Power: The total amount
     of goods or services that can be                 •	 Legacy Loans Program: PPIFs purchase legacy loans with TARP funds, private
     purchased by a unit of currency. For                equity capital, and FDIC-guaranteed debt.
     the purpose of PPIP, purchasing power            •	 Legacy Securities Program: PPIFs purchase legacy securities using TARP
     refers to the combined buying power                 funds and private investment capital combined with TARP-issued debt.
     of the PPIFs’ private capital, Treasury          •	 Expanded TALF: The Federal Reserve expanded the eligible asset classes for
     equity, and Treasury debt.                          TALF to include legacy CMBS.
     Receivership Assets: When an FDIC-
     insured institution fails, FDIC is               Legacy Loans Program
     ordinarily appointed as receiver. In that        As announced, the Legacy Loans Program was designed to purchase legacy loans
     capacity, it assumes responsibility for          — hard-to-value real estate-related loans — from financial institutions. In the
     efficiently recovering the maximum               Legacy Loans Program as originally announced, Treasury would form PPIFs with
     amount possible from the disposition             private investors and would match the private investment dollar-for-dollar (i.e., for
     of the receivership’s assets and the             every $1 invested by the private investor, Treasury would invest $1). FDIC would
     pursuit of the receivership’s claims.            provide a debt guarantee of either a 4-to-1 or 6-to-1 leverage ratio (i.e., debt-to-
     Funds collected from the sale of assets
                                                      equity ratio) on the pool of loans.163 The permissible amount of leverage would be
     and the disposition of valid claims are
                                                      predetermined by FDIC after an independent, third-party analysis of the loans.
     distributed to the receivership’s credi-
                                                          On July 31, 2009, FDIC launched the pilot sale of receivership assets, which
     tors in accordance with the priorities
     set by law. For more information on
                                                      did not use any TARP funds.164 Under the proposed funding mechanism, FDIC
     bankruptcy procedures, see SIGTARP’s             transferred a portfolio of residential mortgage loans it had seized through bank
     July Quarterly Report, “TARP Tutorial:           failures to a newly created limited liability company (the “LLC”) in exchange for
     Bankruptcy,” page 97.                            a partial ownership interest in the LLC. FDIC then conducted a sale of an equity
                                                      stake in the LLC.165
                                                                              quarterly report to congress I october 21, 2009                                85




   On September 16, 2009, FDIC announced that Residential Credit Solutions,
Inc. (“RCS”) was the winning bidder in the pilot sale. RCS paid $64 million for
a 50% equity stake in the LLC (FDIC will maintain 50% ownership in the LLC).
                                                                                               Note: A short-term debt security,
The LLC then borrowed $728 million from FDIC which received a note.166 FDIC
                                                                                               usually with a maturity of less than five
guaranteed the note and plans to sell it at a later date. FDIC plans to analyze
                                                                                               years.
the results of this test sale to determine whether this mechanism can be used to
remove troubled assets from the balance sheets of operational banks.167 As more in-
formation on the Legacy Loans Program becomes available, SIGTARP will provide
updates through its future quarterly reports to Congress.

Legacy Securities Program                                                                   For information on the Legacy Securities
According to Treasury, “the goal of the Legacy Securities Program is to restart             Program process, refer to SIGTARP’s July
                                                                                            Quarterly Report, page 86.
the market for legacy securities, allowing banks and other financial institutions
to free up capital and stimulate the extension of new credit.”168 For the purposes
of PPIP, legacy securities are ABS supported by real estate-related loans issued
before January 1, 2009, and originally rated AAA (or an equivalent rating) by two
                                                                                               Pro Rata: Refers to dividing something
or more NRSROs.169 Private investors and Treasury will co-invest in PPIFs to                   among a group according to the pro-
purchase these assets from financial institutions. Furthermore, Treasury will offer            portionate share that each participant
debt financing to the PPIF equal to or double the total private equity investment.             holds as a part of the whole.
Treasury, the PPIF manager (which is required to invest at least $20 million of its
own money in the PPIF), and the private investors will share in PPIF profits on a
pro rata basis. PPIF losses will be shared on a pro rata basis up to each participant’s
investment amount. As of September 30, 2009, there were no asset purchases.                 For information on the manager selection
                                                                                            process for PPIP, refer to SIGTARP’s July
Legacy Securities Program Updates                                                           Quarterly Report, page 87.
On July 8, 2009, Treasury announced the selection of nine pre-qualified PPIF
managers. Though Treasury did not approve any specific arrangements, it encour-             Table 2.23
aged these PPIF managers to establish partnerships with small- , veteran- ,
                                                                                            PPIP Purchasing Power ($ billions)
minority- , and women-owned businesses that would provide a variety of services
                                                                                            Capital                        Individual          Total
to PPIFs.170 The maximum matching by Treasury is $1.1 billion in equity and $2.2            Source                               PPIF       Program
billion in debt for each PPIF. As illustrated in Table 2.23, if all PPIF managers raise     Private Investor                     $1.11              $10
                                                                                            Equity and PPIF
the maximum matched private capital, the program would create approximately
                                                                                            Manager Equity
$40 billion in purchasing power for legacy securities.                                      Treasury Matching                      1.11                 10
     As of September 30, 2009, two PPIF managers had signed final PPIP agree-               Equity
ments. Subsequently, on October 5, 2009, three other PPIF managers executed                 Treasury Debt                          2.22                 20
their final PPIP agreements. These legal agreements define the terms and scope              Total                               $4.44              $40
of the limited partnership, the PPIF’s financing options, investment restrictions,          Notes: Numbers affected by rounding. Funds illustrate the
                                                                                            maximum equity matching and debt issuance by Treasury
reporting requirements, solvency testing, and compliance rules. All five PPIF man-          under PPIP.
agers have each raised a minimum of $500 million in private-sector equity capital.          Source: Treasury Press Release, “Treasury Department
                                                                                            Announces Additional Initial Closings of Legacy Securities
Treasury anticipates that the remaining fund managers will each raise a minimum             Public-Private Investment Funds,” 10/6/2009, http://www.
                                                                                            financialstability.gov/latest/tg_10052009.html, accessed
of $500 million in private-sector capital and sign final agreements in October 2009.        10/6/2009.
86                special inspector general I troubled asset relief program                                                                                 86




                                                                       In the final agreements, Treasury added three important provisions to the
     Derivative: A financial instrument whose                      original term sheets including reporting of trades in derivatives, adopting a luxury-
     value is based on (“derived from”) a                          expense policy, and providing quarterly compliance certifications. First, Treasury,
     different underlying asset, indicator, or                     pursuant to SIGTARP’s recommendations, is requiring PPIF managers to disclose
     financial instrument.                                         (to both Treasury and SIGTARP) any trades in derivative instruments in the man-
                                                                   ager’s or the manager’s affiliates’ non-PPIF funds where the value is connected to a
     Credit Default Swap (“CDS”): A contract                       PPIP-eligible asset held in the PPIF.171 This is in addition to the requirement in the
     where the seller receives a series of                         original term sheet that all PPIF managers report any trades in eligible assets in the
     payments from the buyer in return                             manager’s PPIF and non-PPIF funds. This is potentially a significant provision be-
     for agreeing to make a payment to
                                                                   cause there are many asset types or liability exposures, such as credit default swaps
     the buyer when a particular credit
                                                                   (“CDS”), that could be held in a manager’s non-PPIF fund and the value of which
     event outlined in the contract occurs
                                                                   is predictably tied to eligible assets. Second, Treasury is requiring all PPIF manag-
     (for example, if the credit rating on a
                                                                   ers to adopt a luxury expense policy within 90 days of signing the final agreement
     particular bond or loan is downgraded
     or goes into default). It is commonly                         and to post the policy on the PPIF managers’ websites.172 Finally, Treasury is requir-
     referred to as an insurance-like product                      ing fund managers to certify on a quarterly basis that they have materially complied
     where the seller is providing the buyer                       with PPIF Compliance Rules that are part of the final agreement.
     insurance-like protection against the                             Despite the addition of these important provisions to the final agreements
     failure of a bond. The buyer, however,                        and despite SIGTARP’s ongoing recommendation, Treasury did not impose strict
     does not need to own the asset cov-                           information barriers, or “walls,” between the PPIF managers making investment
     ered by the contract, which means it                          decisions on behalf of the PPIF and those employees of the fund manager who
     can serve essentially as a “bet” against                      manage non-PPIF funds.
     the underlying bond.                                              Although Treasury commits to match capital raised by the PPIF managers
                                                                   ranging from $500 million to $1.1 billion in equity, Treasury does not fund the
     Capital Call Notice: A capital call, or
                                                                   PPIF immediately upon signing the final agreements with each fund manager.173
     draw down, is an investment firm’s
                                                                   Treasury will instead fund the equity capital a minimum of 10 calendar days after
     legal right to demand a portion of the
                                                                   receipt of a capital call notice from the PPIF to its private investors and Treasury,
     money promised to it by an investor.
                                                                   requesting the physical transference of capital to the PPIF account. On the tenth
                                                                   day, if Treasury verifies that the private investor money has come into the PPIF,
     Table 2.24                                                    Treasury will disburse its matching equity funds to the PPIF.174
                                                                       As of October 6, 2009, PPIF managers Invesco, TCW, AllianceBernstein,
     PPIP FUNDS RAISED ($ BILLIONS)
                                                                   BlackRock, and Wellington had collectively raised $3.07 billion of private-sector
     Funding Source                                        Total
                                                                   capital commitments, which Treasury matched dollar-for-dollar, for a total program
     Private Investor Equity and PPIF
                                                          $3.07    equity capital commitment of $6.14 billion.175 In addition, Treasury announced it
     Manager Equity
     Treasury Matching Equity                               3.07   will provide debt financing of 100% of the total capital commitments for the PPIFs,
     Treasury Debt                                          6.13   bringing the total capitalization of the program to approximately $12.27 billion —
     Total                                              $12.27     of which Treasury is providing 75% ($9.20 billion).176 Table 2.24 provides a break-
                                                                   down of the available PPIP debt and equity.
     Notes: Numbers affected by rounding. Data as of 10/6/2009.

     Source: Treasury Press Release, “Treasury Department
     Announces Additional Initial Closing of Legacy Securities
     Public-Private Investment Funds,” 10/6/2009, http://www.
     financialstability.gov/latest/tg_10052009.html, accessed
     10/8/2009.
87                                                                               quarterly report to congress I october 21, 2009             87




     Legacy Securities Contractors
     PricewaterhouseCoopers (“PWC”) and Bank of New York Mellon are assisting in
     the compliance and operating activities of PPIP, respectively.
         Treasury has hired PWC to assist in compliance activities. According to
     Treasury, some of the expected responsibilities of the compliance consultant
     include:177

     •	 testing the PPIFs’ compliance with certain material aspects of PPIP rules as
        well as identifying fraud and potentially fraudulent behavior
     •	 reviewing allocation decisions and determining if the decisions are in compli-
                                                                                                 System Gaming: Using the rules,
        ance with PPIP policy
                                                                                                 policies, and procedures of a system
     •	 reporting on allocation decisions that were not in accordance with the compli-
                                                                                                 against itself for purposes other
        ance rules                                                                               than those originally intended by the
     •	 determining the reasonableness of the valuation of the eligible assets in the fund       system designers.
        managers’ individual PPIFs and non-PPIF funds
     •	 screening for illegal transactions such as system gaming which includes: asset           Asset Flipping: Buying assets with the
        flipping, proprietary front-running of trades for proprietary accounts, asset            intention of reselling those assets in
        crossing between PPIFs, and asset round tripping                                         the short term.


          The compliance consultant may also provide Treasury technical advice on mat-           Front-Running: Entering into a trade
     ters needing attention after Treasury conducts regular reviews of the PPIFs and             while taking advantage of advance
                                                                                                 knowledge of pending orders from
     their activities.178
                                                                                                 other investors.
          In addition, according to Treasury, all of the PPIF managers will utilize Bank
     of New York Mellon as the administrative agent, custodian, and valuation agent.
                                                                                                 Asset Crossing: Buying or selling
     In its capacity as administrative agent, Bank of New York Mellon collects PPIF              assets from other PPIFs or affiliates,
     documents such as: the loan documents, evidence of custodial and interest reserve           either directly or through third parties.
     accounts, financial statements, reports, and notices of material events (default,
     litigation, waste, fraud, and abuse). As custodian, it is responsible for providing         Round Tripping: Buying an asset from
     “agreed-upon periodic reports” to Treasury on the PPIFs, determining and monitor-           an entity and reselling the asset back
     ing the deposit amount of the interest reserve account, and verification of appli-          to the entity or its affiliates.
     cable tests. As valuation agent, Bank of New York Mellon is also responsible for
     calculating the market value of eligible assets and temporary investments held by           Temporary Investments: For the
     the PPIFs on a daily and monthly basis.                                                     purposes of PPIP, they are cash,
                                                                                                 Treasuries, money market mutual
                                                                                                 funds, and interest rate hedges.
88            special inspector general I troubled asset relief program




                                                     Small Business Administration Loan Support (formerly
     7(a) Program: SBA loan program
                                                     Unlocking Credit for Small Businesses)
     guaranteeing a percentage of loans for
                                                     On March 16, 2009, Treasury announced the Unlocking Credit for Small
     small businesses that cannot otherwise
                                                     Businesses (“UCSB”) program to encourage banks to extend more credit to small
     obtain conventional loans at reasonable
                                                     businesses.179 Under the UCSB program, Treasury stated that it would purchase
     terms.
                                                     up to $15 billion in securities backed by pools of Small Business Administration
     504 Community Development Loan                  (“SBA”) loans from two SBA participating programs: the 7(a) Program and the
     Program: SBA program combining                  504 Community Development Loan Program. According to Treasury, the UCSB
     Government-guaranteed loans with                program is designed to provide banks the liquidity necessary to start writing new
     private-sector mortgage loans to                small-business loans again.180
     provide loans of up to $10 million for             On September 24, 2009, during Congressional testimony, Assistant Treasury
     community development.                          Secretary for Financial Stability, Herbert Allison, noted that Treasury would soon
                                                     announce further program details.181 As of September 30, 2009, no TARP funds
                                                     had been expended under this program.
                                                                             quarterly report to congress I october 21, 2009                               89




Automotive Industry Support Programs
During the current financial crisis, Treasury, through TARP, has launched three au-        For a timeline of the Chrysler and GM
tomotive programs: the Automotive Industry Financing Program (“AIFP”), the Auto            bankruptcy proceedings, see SIGTARP’s
Supplier Support Program (“ASSP”), and the Auto Warranty Commitment Program                July Quarterly Report, pages 106 and 108,
(“AWCP”). According to Treasury, these programs were established “to prevent a             respectively.

significant disruption of the American automotive industry that poses systemic risk
to financial market stability and will have a negative effect on the real economy of
the United States.”182
     No new TARP funds have been committed to the automotive sector this quar-
ter. As of September 30, 2009, Treasury’s commitments through these programs
totaled $81.1 billion and were distributed to GM, Chrysler, GMAC, and Chrysler
Financial. Treasury’s investments also provided some of the financing for GM and
Chrysler during their recent restructuring periods. Both firms recently emerged
from bankruptcy — Chrysler on June 10, 2009, and GM on July 10, 2009.
According to a Congressional Oversight Panel (“COP”) report, then Senior Advisor
on Auto Issues at Treasury, Ron Bloom, stated that “it was possible, but unlikely
that taxpayers would recover all of the money they had invested in Chrysler and
General Motors.” Mr. Bloom further stated that there is a “reasonable probability”
that the money given to the post-bankruptcy entities (“New Chrysler” and “New
GM”) would be recovered, but that there would be “much lower recoveries” for the
“initial loans” provided to GM and Chrysler.183 According to the Auto Task Force,
“initial loans” refer to pre-bankruptcy loans of $4 billion to Chrysler and $19.4 bil-
lion to GM. Treasury investments in the three TARP automotive industry support
programs and any repayments of principal are summarized in Table 2.26 on the
following page, categorized by the timing of the investment in relation to the firm’s       Table 2.25
progress through the bankruptcy process.
                                                                                            AIFP Status of FUnds,
                                                                                            as of 9/30/2009 ($ Millions)
Automotive Industry Financing Program                                                                                                             Total
As of September 30, 2009, Treasury had invested $76.9 billion through the                                                                 Interest and
                                                                                            Financial                 TARP                   Dividends
Automotive Industry Financing Program (“AIFP”) to support the automotive manu-              Institution         Commitment                   Received
facturing companies and their financing arms to “avoid a disorderly bankruptcy of           GMa                        $49,500                      $178
one or more auto companies.”184 As of September 30, 2009, Treasury had received             Chryslera                    12,542                           55
approximately $465 million in dividends and approximately $206 million in interest          GMAC                         13,384                          431
payments on these investments, and Chrysler Financial had paid back $1.5 billion            Chrysler
                                                                                            Financial                    1,500b                            7
in AIFP funds. Treasury’s AIFP investments, as well as the interest and dividends
                                                                                            Total                     $76,926                       $671
earned on the investments, are listed in Table 2.25.
                                                                                            Notes: Numbers affected by rounding.
                                                                                            a
                                                                                              Post-bankruptcy, interest accrues in the note for GM and
Auto Supplier Support Program                                                               b
                                                                                              Chrysler.
                                                                                              Has been repaid.
On March 19, 2009, Treasury announced the $5 billion Auto Supplier Support                  Sources: Treasury, Transactions Report, 10/2/2009; Treasury,
                                                                                            response to SIGTARP draft report, 10/8/2009.
Program (“ASSP”) in an effort to “help stabilize the auto supply base and re-
store credit flows in a critical sector of the American economy.”185 Because of the
90   special inspector general I troubled asset relief program




                                            Table 2.26

                                            TARP AUTOMOTIVE PROGRAMS COMMITMENTS AND REPAYMENTS,
                                            AS OF 9/30/2009 ($ BILLIONS)
                                                                                                                                      Chrysler
                                                                                                      Chrysler        GM              Financial GMAC                 Total
                                            Pre-Bankruptcy
                                              AIFP                                                       $4.0a          $19.4         $1.5b         $13.4                $38.3
                                              ASSP                                                         1.0c           2.5d                                               3.5
                                              AWCPe                                                        0.3              0.4                                              0.6
                                              Subtotal                                                   $5.3           $22.3         $1.5          $13.4                $42.4
                                            In-Bankruptcy (DIP Financing)
                                              AIFP                                                       $1.9f          $30.1                                            $32.0
                                              Subtotal                                                   $1.9           $30.1                                            $32.0
                                            Post-Bankruptcy (Working Capital)
                                              AIFP                                                       $6.6g                                                             $6.6
                                              Subtotal                                                   $6.6                                                              $6.6
                                            Subtotals by Program:
                                              AIFP                                                                                                                       $76.9
                                              ASSP                                                                                                                           3.5
                                              AWCPe                                                                                                                          0.6
                                            Total Commitments                                          $13.8           $52.4          $1.5          $13.4               $81.1
                                            Principal Repaid to Treasury                                 ($0.3)         ($0.4)        ($1.5)        $     —              ($2.1)
                                            Net Commitments                                            $13.5           $52.0          $ —           $13.4               $79.0

                                            Notes: Numbers affected by rounding.
                                            a
                                              According to Treasury, the 4/29/2009 $500 million expansion of the 1/2/2009 $4 billion loan was de-obligated before being funded.
                                            b
                                              Has been repaid.
                                            c
                                              Announced as $1.5 billion, but was reduced to $1 billion on 7/8/2009.
                                            d
                                              Announced as $3.5 billion, but was reduced to $2.5 billion on 7/8/2009.
                                            e
                                              AWCP has been repaid in full and was terminated in July 2009.
                                            f
                                              According to Treasury, $1.9 billion of the original $3.8 billion of announced funding was de-obligated before being funded.
                                            g
                                              Approximately $4.7 billion of this commitment was provided in working capital; approximately $2 billion was used to pay senior
                                              secured lenders.

                                            Sources: Treasury, Transactions Report, 10/2/2009; Treasury, responses to SIGTARP draft reports, 7/13/2009 and 10/8/2009; Trea-
                                            sury Press Release, “Ron Bloom, Senior Advisor at the U.S. Treasury Department Written Testimony House Judiciary Commercial and
                                            Administrative Law Subcommittee ‘Ramifications of Auto Industry Bankruptcies, Part II,’” 7/21/2009, http://treas.gov/press/releases/
                                            tg222.htm, accessed 9/9/2009.



                                            current credit crisis, suppliers had not been able to borrow from banks using their
                                            receivables as collateral. ASSP allowed auto parts suppliers to access Government-
                                            backed protection for money owed to them for the products they had shipped to
                                            manufacturers. The suppliers sold their receivables into the program at a discount,
                                            providing heavily relied upon operating capital for the suppliers. Treasury intended
                                            for this program to provide confidence to suppliers so they would continue to ship
                                            parts, pay employees, and continue operations.186 The program was available to all
                                            American auto companies; Chrysler and GM were the only two that decided to
                                            take advantage of the program.187 Each company created an SPV to hold the fund-
                                            ing: Chrysler Receivable LLC and GM Supplier Receivable LLC.188
                                                                                                                               quarterly report to congress I october 21, 2009           91




Table 2.27

ASSP Status of FUnds, as of 9/30/2009                                         ($ millions)
                                              TARP                     Principal                Principal                Total Interest
Financial Institution                   Commitments                 Reductionsa              Outstanding                     Received
GM Supplier Receivable LLC                         $3,500                 ($1,000)                   $2,500                           $3.6
Chrysler Receivable LLC                              1,500                     (500)                   1,000                            2.3
Total                                             $5,000                 ($1,500)                   $3,500                            $5.9

Notes: Numbers affected by rounding.
a
  At the request of Chrysler and GM, on July 8, 2009, the original commitments were reduced to $1.0 billion and $2.5 billion, respectively.
Sources: Treasury, Transactions Report, 10/2/2009; Treasury, response to SIGTARP data call, 10/8/2009.




    Under the original loan agreements for each SPV, the Treasury commitments
could be decreased if the outstanding amounts did not exceed the commitments
made on June 30, 2009. On July 8, 2009, the original commitments were reduced
to $1.0 billion for Chrysler Receivable LLC and $2.5 billion for GM Supplier
Receivable LLC.189 After emerging from bankruptcy, the new, non-bankrupt
Chrysler and GM assumed the debts of the pre-bankruptcy SPVs.190 ASSP is con-
tinuing to operate and is scheduled to terminate in April 2010; New GM and New
Chrysler can add receivables at their discretion. Table 2.27 summarizes the status
of the ASSP investments.

Auto Warranty Commitment Program
On March 30, 2009, Treasury announced the creation of the Auto Warranty
Commitment Program (“AWCP”), under AIFP, as a means to provide assurance
to vehicle buyers that the warranties on any purchases made during the restruc-
turing of Chrysler and GM would be guaranteed by the Government.191 Treasury
made $641 million available to Chrysler and GM through two SPVs — Chrysler
Warranty SPV LLC and GM Warranty LLC — to backstop warranties on new                                                                          Pro Forma: In finance, refers to the
car sales. Both Chrysler and GM were able to honor their warranties during their                                                              presentation of hypothetical financial
restructuring periods and, according to Treasury, all $641 million in principal                                                               information assuming that certain
has been repaid with $5.5 million in interest.192 In July 2009, the AWCP was                                                                  assumptions will happen. For example,
terminated.                                                                                                                                   Table 2.28 sets forth the ownership
                                                                                                                                              interests in New Chrysler based on
Automotive Companies Today                                                                                                                    the assumption that Fiat will meet
As discussed in SIGTARP’s July Quarterly Report, Chrysler and GM went through                                                                 its performance goals and obtain an
bankruptcies in which each sold substantially all of their assets into newly created                                                          additional 15% of equity from the other
                                                                                                                                              equity holders. If the new equity stakes
companies — New Chrysler and New GM. The corporate structure and ownership
                                                                                                                                              were not reported pro forma, the
of these new companies changed dramatically, with Treasury now owning an 8%
                                                                                                                                              equity interest of the other equity par-
pro forma equity stake in New Chrysler and a 61% equity stake in New GM.193
                                                                                                                                              ticipants would be higher to account
Treasury’s investments in Chrysler and GM were initially debt obligations for                                                                 for Fiat’s additional 15%.
the companies; as part of the bankruptcy proceedings, these investments were
92                   special inspector general I troubled asset relief program




                                                                            restructured as common equity, preferred equity, and new debt. See the following
                                                                            discussion for details on the post-bankruptcy composition of Treasury’s investments
                                                                            in New Chrysler and New GM.

                                                                            Chrysler
                                                                            Treasury has committed a total of $13.8 billion in financing to Chrysler, including
      Debtor-in-Possession (“DIP”): A com-                                  $1.3 billion in funding for ASSP and AWCP. The $12.5 billion committed directly
      pany which is operating under Chapter                                 to Chrysler was contributed in three stages: $4 billion was provided before bank-
      11 bankruptcy protection, which still                                 ruptcy, $1.9 billion was provided as debtor-in-possession (“DIP”) financing during
      technically owns its assets but is
                                                                            bankruptcy, and $6.6 billion was provided as working capital after bankruptcy.
      operating them to maximize the benefit
                                                                            Under the terms of the bankruptcy reorganization, Treasury’s investment was
      to its creditors.
                                                                            restructured into debt assumed and common equity. Of Treasury’s $12.5 billion
      Reorganization: Agreements between a                                  commitment to Chrysler, $2.0 billion has not been drawn down and the remainder
      company, its creditors, and the courts                                has been restructured in the following manner:194
      that allow the company to emerge
      from bankruptcy with an altered debt
                                                                            •	 an 8% pro forma common equity interest in New Chrysler
      structure.
                                                                            •	 $5.1 billion in debt owed by New Chrysler

                                                                               The owners of New Chrysler include Fiat, the United Auto Workers (“UAW”),
                                                                            Treasury, and the Canadian Government, as described in Table 2.28.195

     Table 2.28                                                             Chrysler Financial
     New Chrysler                                                           In January 2009, Treasury loaned $1.5 billion to a bankruptcy-remote SPV to sup-
     Stakeholder                       Equity Stake                         port Chrysler Financial retail loan originations. In July 2009, Chrysler Financial
     Fiat                              20%                                  repaid the entire loan and $7.4 million in interest to Treasury.196 Chrysler Financial
                                       15% additional equity
                                                                            is no longer originating loans.197
                                       based on performancea
     UAW (VEBAb)                       55%
     Treasury                          8%
                                                                            GM
     Canadian Government 2%                                                 Treasury has committed $52.4 billion of assistance to GM since December 2008,
                                                                            including $2.9 billion in commitments for ASSP and AWCP. Of the $49.5 billion
     Notes: Numbers affected by rounding. Data as of 9/30/2009.
     The listed ownership percentages are based on the assumption           committed directly to GM, $19.4 billion was provided pre-bankruptcy, and $30.1
     that Fiat will achieve all three performance metrics.
     a
       Fiat can earn this 15% equity by achieving certain perfor-           billion was provided during bankruptcy. Unlike Chrysler, where some of Treasury’s
       mance metrics. It would receive 5% for meeting each of three
       performance goals: produce a vehicle in a U.S. based Chrysler        investment has not been converted into New Chrysler equity and debt, all of
       factory that performs 40 mpg or better; provide Chrysler with
       a distribution network in numerous foreign jurisdictions; and        Treasury’s investment in GM was either converted into New GM common stock,
       manufacture state-of-the-art, next generation engines at a U.S.
     b
       Chrysler facility.                                                   preferred stock, or debt assumed by New GM. Treasury’s $49.5 billion investment
       Voluntary Employee Beneficiary Association (“VEBA”).
                                                                            in GM is now a 61% common equity stake in New GM, $2.1 billion in preferred
     Sources: Treasury, “Obama Administration Auto Restructuring
     Initiative: Chrysler-Fiat Alliance,” 4/30/2009, www.financialstabil-   stock in New GM, and $7.1 billion of debt assumed by New GM (of which $360
     ity.gov/docs/AIFP/Chrysler-restructuring-factsheet_043009.
     pdf, accessed 6/9/2009; Treasury, responses to SIGTARP draft           million has been repaid as part of the wind-down of the warranty program).198
     reports, 7/9/2009 and 7/13/2009.
                                                                            Under the terms of the bankruptcy reorganization, UAW, bondholders, Treasury,
                                                                            and the Governments of Canada and Ontario are the owners of New GM as listed
                                                                            in Table 2.29.199
                                                                                                                          quarterly report to congress I october 21, 2009        93




Table 2.29

New GM          ($ Billions)
                                                               Equity            Debt Assumed                Preferred Stock in
Stakeholder                                                    Stake               by New GM                           New GM
UAW (VEBA)a                                              17.5%                                  $2.5                              $6.5
                                           Warrants to purchase
                                                           2.5%
Bondholders                                                10%                                     —                                 —
                                           Warrants to purchase
                                                           15%
Treasury                                                          61%                           $7.1                              $2.1
Governments of Canada                                             12%                           $1.3                              $1.7
and Ontario

Notes: Numbers affected by rounding. Data as of 9/30/2009. Treasury did not publish pro forma data on equity ownership that would
capture the dilutive effect of the exercise of warrants.
a
  Voluntary Employee Beneficiary Association (“VEBA”).

Sources: Treasury, “Obama Administration Auto Restructuring Initiative: General Motors Restructuring,” 6/1/2009, www.financialstability.
gov/latest/05312009_gm-factsheet.html, accessed 6/10/2009; Treasury, responses to SIGTARP draft reports, 7/9/2009 and
7/13/2009.




GMAC
As reported in SIGTARP’s July Quarterly Report, Treasury invested $13.4 billion in                                                         For more information on Treasury’s
GMAC and owns a 35.4% common equity stake. As of September 30, 2009, there                                                                 GMAC investment, see SIGTARP’s July
                                                                                                                                           Quarterly Report, page 112.
have not been any updates to Treasury’s investment in GMAC. Treasury’s out-
standing investment amount was $13.4 billion and it had received $431 million in
dividend payments from GMAC.
94            special inspector general I troubled asset relief program




                                                     Homeowner Support Program
                                                     Making Home Affordable Program
                                                     The Making Home Affordable (“MHA”) Program was introduced by the
                                                     Administration on February 18, 2009, and was intended to assist homeowners who
                                                     are struggling to make their monthly mortgage payments. MHA comprises three
                                                     major initiatives: a loan modification program, a loan refinancing program, and
                                                     additional support to lower mortgage interest rates. Only the loan modification pro-
                                                     gram, known as the Home Affordable Modification Program (“HAMP”), currently
                                                     involves TARP funds.200 According to Treasury, HAMP is a $75 billion program that
                                                     will lower monthly mortgage payments for homeowners by providing loan modifi-
                                                     cation incentive payments to the servicers and loan holders (lenders or investors
     Private-Label Mortgages: Loans that             — referred to as investors in this section), and by protecting against further loss of
     are not owned or guaranteed by Fannie           collateral value.201 Of the $75 billion reserved for HAMP, $50 billion will be from
     Mae, Freddie Mac, or another Federal            TARP and will be used to modify private-label mortgages. Of the $50 billion for
     agency.
                                                     private-label mortgage modifications, $10 billion will be used to provide recently
                                                     announced incentives through the Home Price Decline Protection (“HPDP”) pro-
     Government-Sponsored Enterprises
                                                     gram, which is intended to protect investors from potential price declines on modi-
     (“GSEs”): Private corporations created
                                                     fied mortgage properties.202 Treasury estimates that $4.6 billion of the $50 billion
     by the Government to reduce borrow-
     ing costs. They are chartered by the            will be used for the Short Sale / Deeds-In-Lieu of Foreclosure (“SS/DIL”) program.
     U.S. Government but are not consid-             This program, previously announced but not yet launched, will be discussed later in
     ered to be direct obligations.                  this section.203 The additional $25 billion in HAMP funding is provided under the
                                                     Housing and Economic Recovery Act of 2008 (“HERA”) and will be used to modify
                                                     mortgages that are owned or guaranteed by Government-sponsored enterprises
     For more information regarding HAMP             (“GSEs”), particularly Fannie Mae and Freddie Mac.204
     eligibility, modifications, and incentive
     payments, see SIGTARP’s July Quarterly          Status of Funds
     Report, page 114.                               As of September 30, 2009, Treasury had signed agreements with 63 loan servicers
                                                     allocating up to $27.1 billion under HAMP.205 Funds are not actually spent at the
                                                     time they are allocated but only upon successful completion of certain loan modi-
                                                     fication milestones. Of the $27.1 billion that had been allocated, $950,000 had
                                                     been spent on actual modifications as of September 30, 2009.206 To date, the larg-
                                                     est allocation of incentive payments has been made to Countrywide Home Loans
                                                     Servicing, LP, which will receive up to $4.5 billion in TARP funds. The average
                                                     allocation to each servicer through HAMP is $429.6 million.207 Table 2.30 provides
                                                     a detailed list of allocations made under HAMP as of September 30, 2009.
                                                                                          quarterly report to congress I october 21, 2009   95




Table 2.30

home affordable modification program funding ALLOCATIONS,
AS of 9/30/2009
                                                                                         Adjusted
Institution                             Ultimate Parent Company                      Funding Capa
Countrywide Home Loans Servicing LP     Bank of America Corporation                $ 4,465,420,000
GMAC Mortgage, Inc.                     GMAC                                         3,554,890,000
J.P. Morgan Chase Bank, NA              JPMorgan Chase & Co.                         2,684,870,000
Wells Fargo Bank, NA                    Wells Fargo & Company                        2,475,080,000
CitiMortgage, Inc.                      Citigroup, Inc.                              2,089,600,000
Wachovia Mortgage, FSB                  Wells Fargo & Company                        1,357,890,000
American Home Mortgage Servicing, Inc N/A                                            1,218,820,000
Litton Loan Servicing LP                Goldman Sachs Group, Inc.                    1,087,950,000
Bank of America, N.A.                   Bank of America Corporation                    967,120,000
Saxon Mortgage Services, Inc.           Morgan Stanley                                 886,420,000
Select Portfolio Servicing              Credit Suisse Group AG                         782,500,000
EMC Mortgage Corporation                JPMorgan Chase & Co.                           707,370,000
OneWest Bank                            OneWest Bank Group, LLC                        668,440,000
Ocwen Financial Corporation, Inc.       N/A                                            655,960,000
National City Bank                      PNC Financial Services Group, Inc.             610,150,000
HomEq Servicing                         Barclays Bank PLC                              552,810,000
Home Loan Services, Inc.                Bank of America Corporation                    494,030,000
Aurora Loan Services, LLC               Aurora Bank, FSB                               447,690,000
Nationstar Mortgage LLC                 N/A                                            251,700,000
Carrington Mortgage Services, LLC       N/A                                            222,010,000
Green Tree Servicing LLC                N/A                                            221,790,000
Wilshire Credit Corporation             Bank of America Corporation                    203,460,000
U.S. Bank National Association          U.S. Bancorp                                   114,220,000
Bayview Loan Servicing, LLC             Bayview Financial Holdings, L.P.                68,110,000
Wachovia Bank, N.A.                     Wells Fargo & Company                           47,320,000
RG Mortgage Corporation                 R&G Financial Corporation                       45,700,000
MorEquity, Inc.                         American International Group, Inc.              42,010,000
CCO Mortgage                            The Royal Bank of Scotland, PLC                 29,590,000
Franklin Credit Management Corporation Franklin Credit Holding Corp.                    27,510,000
PNC Bank, National Association          PNC Financial Services Group, Inc.              18,230,000
Residential Credit Solutions            Residential Credit Holdings, LLC                17,540,000
Vantium Capital, Inc.                   N/A                                              6,000,000
Mortgage Center, LLC                    N/A                                              5,990,000
PennyMac Loan Services, LLC             N/A                                              5,010,000
First Bank                              First Banks Inc.                                 4,930,000
AMS Servicing, LLC                      N/A                                              4,390,000
CUC Mortgage Corporation                Credit Union Association of New                  4,350,000
                                        York, Inc.
Servis One, Inc.                        N/A                                              4,220,000
                                                                             Continued on next page.
96   special inspector general I troubled asset relief program




                                            home affordable modification program funding ALLOCATIONS,
                                            AS of 9/30/2009 (Continued)
                                                                                                                                                                   Adjusted
                                            Institution                                            Ultimate Parent Company                                     Funding Capa
                                            ShoreBank                                              N/A                                                              2,300,000
                                            ORNL Federal Credit Union                              N/A                                                              2,070,000
                                            Central Florida Educators Federal Credit N/A                                                                            1,250,000
                                            Union
                                            Purdue Employees Federal Credit Union                  N/A                                                              1,030,000
                                            Wescom Central Credit Union                            N/A                                                                 870,000
                                            IBM Southeast Employees’ Federal Credit N/A                                                                                860,000
                                            Union
                                            First Federal Savings and Loan                         N/A                                                                 770,000
                                            Lake City Bank                                         Lakeland Financial Corp.                                            600,000
                                            RoundPoint Mortgage Servicing                          N/A                                                                 570,000
                                            Corporation
                                            Horicon Bank                                           Sword Financial Corporation                                         560,000
                                            SEFCU                                                  N/A                                                                 440,000
                                            Oakland Municipal Credit Union                         N/A                                                                 430,000
                                            Bay Federal Credit Union                               N/A                                                                 410,000
                                            Schools Financial Credit Union                         N/A                                                                 390,000
                                            Mission Federal Credit Union                           N/A                                                                 370,000
                                            Stanford Federal Credit Union                          Cardtronics, Inc.                                                   300,000
                                            Metropolitan National Bank                             Rogers Bancshares, Inc.                                             280,000
                                            Lake National Bank                                     N/A                                                                 250,000
                                            Allstate Mortgage Loans & Investments, N/A                                                                                 250,000
                                            Inc.
                                            Yadkin Valley Bank                                     Yadkin Valley Financial Corp.                                       240,000
                                            Glass City Federal Credit Union                        N/A                                                                 230,000
                                            Farmers State Bank                                     Community Independent Bancorp,                                       80,000
                                                                                                   Inc.
                                            Technology Credit Union                                N/A                                                                  70,000
                                            Central Jersey Federal Credit Union                    N/A                                                                  30,000
                                            Citizens First Wholesale Mortgage                      N/A                                                                  20,000
                                            Company
                                            Chase Home Finance, LLCb                               JPMorgan Chase & Co.                                                        —
                                            Total                                                                                                       $27,065,760,000

                                            Notes: Numbers affected by rounding.
                                            a Funding cap amounts represent the funding allocated to each institution. Funds are not spent until successful completion of certain
                                              loan modifications milestones.
                                            b Chase Home Finance, LLC was allocated $3.5 billion on 4/13/2009. On 7/31/2009, the agreement was terminated and superseded
                                              by new agreements with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
                                            Sources: Treasury, Transactions Report, 10/2/2009; Factiva website, http://fce.factiva.com/pcs/default.aspx, accessed 6/24/2009;
                                            Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/6/2009; “Saxon, Who We Are,”
                                            https://www.saxononline.com/common/about/, accessed 10/6/2009; “Litton Loan Servicing LP–Overview,” http://www.fins.com/
                                            Finance/Recruiter/companies/1789/Litton-Loan-Servicing-LP, accessed 10/19/2009.
                                                                             quarterly report to congress I october 21, 2009            97




Home Price Decline Protection (“HPDP”) Program
On July 31, 2009, Treasury released a Supplemental Directive for HAMP outlin-
ing its Home Price Decline Protection (“HPDP”) program. The stated goal of
the program is to “encourage additional investor participation and HAMP modi-
fications in areas with recent price declines by helping to offset any incremental
collateral loss on modifications that do not succeed.”208 The program is designed to         Mortgage-Backed Securities (“MBS”):
provide incentives to mortgage-backed securities (“MBS”) investors to participate            A pool of mortgages bundled together
in HAMP. Through their ownership of MBS, these investors have an interest in the             by a financial institution and sold as
performance of the mortgages underlying the MBS. According to Treasury, HPDP                 securities — a type of asset-backed
is designed to address the fears of investors that may withhold their consent to a           security.
loan modification due to the potential future decrease in the value of the homes
that secure the mortgages. In such a circumstance, the investor would suffer
greater losses than it would under an immediate foreclosure. By providing incentive
payments to mitigate that potential loss for a 24-month period, Treasury hopes to
encourage more lenders and investors to modify loans.
    Under HPDP, Treasury has published a standard formula, based on the unpaid
principal balance (“UPB”) of the mortgage, the projected decline in area home pric-
                                                                                             Unpaid Principal Balance (“UPB”):
es, and the loan-to-value (“LTV”) ratio, that will determine the size of the incentive
                                                                                             Amount of a loan that is unpaid. This
payment. The projected home price decline is expressed in percentage terms and
                                                                                             does not include additional charges.
is based on recent trends in local home prices. The projection is determined by the
percentage change in surrounding area home prices during the six months prior to             Loan-to-Value (“LTV”) Ratio: In real es-
the start of the HAMP modification.209 The Home Price Index Table is available on            tate lending, the outstanding principal
the Federal Housing Finance Agency website.210                                               amount of the loan divided by the ap-
    The HPDP incentive payments will accrue monthly over a 24-month period                   praised value of the property.
and are paid out annually on the first and second anniversary of the initial HAMP
trial period mortgage payment. Accruals are discontinued if the borrower loses good          HAMP Trial Period: A 90-day trial period
standing under HAMP by missing three mortgage payments (three mortgage pay-                  of reduced mortgage payments for the
ments are considered due and unpaid on the last day of the third month) or if the            borrower. If all payments are success-
                                                                                             ful, then the mortgage modification will
mortgage loan is paid in full. If mortgage payments are discontinued, investors will
                                                                                             be accepted into the MHA program and
be entitled to receive all previously accrued incentive payments.211
                                                                                             HAMP incentive payments will begin.



                                                                                            For more information on HAMP trial
                                                                                            modification incentives, see SIGTARP’s
                                                                                            April Quarterly Report, page 113.
98   special inspector general I troubled asset relief program




                                            hpdp Program Example


                                                     Players:
                                                     Mr. Smith — homeowner, mortgage loan borrower

                                                     Servicer — the firm that “services” Mr. Smith’s mortgage —
                                                     collecting payments and generating reports. The servicer receives a
                                                     fee for its services but does not have an ownership interest in Mr.
                                                     Smith’s mortgage.

                                                     Mr. Jones — the investor who holds the MBS, a part of which is
                                                     based on Mr. Smith’s mortgage

                                            Step 1: Servicer Signs Up for HAMP and HPDP. Mr. Smith owns a single-
                                            family home in Santa Rosa, California, that he purchased for $250,000 and he
                                            has fallen behind on his payments. The UPB on the loan is currently $230,000.
                                            Mr. Smith approaches his loan servicer and asks if he can get a loan modification
                                            through HAMP. The servicer is at first reluctant, noting that the home’s current
                                            market value has declined to $215,000 and is thus now less than the UPB. After
                                            reviewing the terms of the program, the servicer decides to enter the loan into a
                                            HAMP modification, which will automatically apply HPDP incentives based on
                                            market conditions. There is no servicer incentive payment under HPDP; however,
                                            the servicer stands to receive an incentive payment through HAMP.

                                            Step 2: Servicer Rewrites the Mortgage. By enrolling in HPDP, the servicer is
                                            protecting the value of the MBS that funded the loan. The beneficiary of this pro-
                                            tection is Mr. Jones, who invested in the MBS. As part of the loan modification, the
                                            servicer rewrites the mortgage downward by 6.5% from $230,000 to $215,000, the
                                            current market value of the home. HPDP incentives for the investor are partially
                                            “insuring” the mortgage collateral (the home) against future loss in value.

                                            Step 3: Servicer Calculates Incentive Payment. Suppose that, in the six months
                                            prior to the loan modification date, the Home Price Index for the Santa Rosa area
                                            decreased by 14%. This rate, calculated at the start of the loan modification, will be
                                            effective for the entire 24-month period of the HPDP incentive payments.212
                                                                                                       quarterly report to congress I october 21, 2009   99




    Under Treasury’s standard HPDP formula, Mr. Jones can collect $500 for each
1% drop in the value of the average home price in Santa Rosa. The HPDP payment
is determined on a sliding scale based on certain characteristics of the loan adjust-
ment. In this case, Mr. Jones would be entitled to collect the maximum amount for
a 14% price decline — up to $7,000.
    Notice that the HPDP payment is not related to the lost value of Mr. Smith’s
specific house, but rather is based on the average area home price decline for the
six months prior to HAMP modification. These payments will not be affected if the
home price subsequently increased during the modification period.

Step 4: Servicer Collects HPDP Incentive Payment. Suppose Mr. Smith’s first
HAMP trial period payment on his reduced mortgage is due October 2009 and that
the total potential HPDP incentive award will accrue at $292 per month for 24
months totaling $7,000. If Mr. Smith loses good standing in December 2010, 14
months after the first trial payment, then Mr. Jones is eligible to receive 14 months
worth of accrued incentive payments. In this case, he receives payment for 14 out
of a possible 24 months, which is $4,083 of a possible $7,000 ((14/24)*$7,000).
Payment for the first 12 months of good standing will be paid to Mr. Jones on
October 1, 2010 (the first anniversary of the due date of the first mortgage trial
period payment), and the additional $583 for months 13 and 14 of good standing
will be paid to Mr. Jones on October 1, 2011 (the second anniversary of the due
date of the first mortgage trial period payment). Table 2.31 shows how his incentive
payment would be calculated.


Table 2.31
HPDP payment example
Potential Incentive Payment to Mr. Jones                                          $7,000
Mr. Smith remains in Good Standing during first 12 months                         $3,500 Paid 10/1/2010
Mr. Smith loses Good Standing after 2 more months                                   $583 Paid 10/1/2011
Total Payment Received by Mr. Jones                                              $4,083

Source: Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program – Home Price Decline
Protection Incentives,” 7/31/2009, http://www.financialstability.gov/docs/press/SupplementalDirective7-31-09.pdf,
accessed 9/1/2009.
100   special inspector general I troubled asset relief program




                                             Eligibility
                                             Each of the following criteria must be met in order for a loan to be eligible for
                                             HPDP incentive payments:213

                                             •	 Trial modification under HAMP must begin on or after September 1, 2009.214
                                             •	 Servicer must execute a Servicer Participation Agreement.
                                             •	 Borrower must successfully complete the trial period and execute a HAMP
                                                modification agreement.
                                             •	 HAMP modification must reduce the borrower’s monthly mortgage payment by
                                                at least 6%.

                                             Short-Sale / Deeds-In-Lieu of Foreclosure Program
                                             In May 2009, Treasury announced the outline of a program designed to provide
                                             alternatives to foreclosure entitled the Short-Sale / Deeds-In-Lieu of Foreclosure
                                             (“SS/DIL”) program. These alternatives to foreclosure are intended to provide a
                                             more orderly resolution for troubled properties — helping the borrowers, the inves-
                                             tors, and the communities.
                                                 A short sale is a sale that is conducted jointly by a borrower facing foreclosure
                                             and the holder of the mortgage. The goal is to sell the home before a foreclosure is
                                             finalized using the proceeds to satisfy a portion of the loan, with the agreement that
                                             the owner of the mortgage will forgive the balance. The borrower will still lose his
                                             home, and the mortgage holder will lose the difference between the outstanding
                                             mortgage amount and the short sale price, but a short sale can provide the follow-
                                             ing benefits over a traditional foreclosure:

                                             •	 A potentially better sales price on the house may be achieved because it is oc-
                                                cupied and sold in an orderly fashion and is not an abandoned home sold at a
                                                distressed price in deteriorating condition.
                                             •	 The borrower has control over the timing of a move.
                                             •	 The borrower has the opportunity to negotiate better terms including lessened
                                                impact on his credit rating.
                                             •	 Investors can avoid the risks and costs of a lengthy foreclosure.

                                                 A deed-in-lieu of foreclosure (“DIL”) is the method by which borrowers volun-
                                             tarily give their deed to the bank rather than subject the bank to the formal legal
                                             process of foreclosure. The bank still has to dispose of the property, but many of
                                             the advantages of a short sale still accrue, such as the ability to control the timing
                                             and nature of the transaction.
                                                 Both foreclosure alternatives also benefit the communities, as they lessen the
                                             potential for vacant and vandalized homes and reduce the number of discounted
                                             sales that can drive down all home equity values in the neighborhood.
                                                                             quarterly report to congress I october 21, 2009           101




    According to Treasury’s program guidance, the SS/DIL program is expected to
include a series of incentive payments for program participants. For each SS or
DIL that is successfully completed, servicers and borrowers may each receive up
to $1,000 and $1,500, respectively. In addition, for every three dollars an investor
pays to a junior lender to get its assent to the transaction, Treasury will reimburse
the investor for one dollar up to a maximum payment reimbursement of $1,000.215

Improving MHA Effectiveness and Efficiency
Frustrated with the pace of program implementation, representatives of the
Administration met with executives from MHA servicers on July 28, 2009, to
discuss ways to improve the effectiveness and efficiency of the MHA program.
They agreed on three steps to improve performance and reach the Administration’s
established goal of initiating 500,000 trial modifications by November 1, 2009.216
According to Treasury, this milestone was reached on October 8, 2009.217 The first
step agreed upon is to publicly report servicer-specific performance metrics on a           For more information regarding the
monthly basis. These metrics include:218                                                    Servicer Performance Report, see the
                                                                                            “Servicer Performance Report” discussion
•	   the number of trial modification offers each servicer has extended                     later in this section.

•	   the number of trial plans that are underway
•	   the number of final modifications
•	   the long-term success of those modifications

   The Administration and the servicers agreed to work together to develop better
metrics that measure processing performance. These metrics may include:219

•	   average borrower wait time for inbound borrower inquiries
•	   completeness and accuracy of information provided to applicants
•	   document handling
•	   response time for completed applications

    The final part of the plan requires Freddie Mac, the HAMP compliance agent,
to develop a “second look” process. As part of this process, Freddie Mac will audit
a sample of declined applications. For individual errors found during the audit,
Freddie Mac will coordinate with the respective servicers. When errors prove more
systemic, Freddie Mac will address general operational weaknesses. The stated
goal of this process is to minimize the likelihood that applications are overlooked or
inadvertently denied.220
102   special inspector general I troubled asset relief program




                                             HAMP Compliance
                                             The compliance department within OFS has the primary responsibility to oversee
                                             and monitor Freddie Mac, the compliance agent for HAMP. OFS observed that
                                             Freddie Mac, since the inception of the program, was having difficulty meeting the
                                             deadlines of its planned audits and delivering key compliance reports as expected.
                                             More specifically, in late August, OFS assessed the first Servicer Performance
                                             Reviews that were completed by Freddie Mac. Based on this review, OFS had
                                             several specific areas of concern, including: unqualified staff to perform audits;
                                             trouble using extensions from statistical sampling to reach general results; inability
                                             to take a “risk-based” approach; inconsistent and incomplete audit workpapers; dif-
                                             ficulty adapting to an “ever-evolving” HAMP; and too much reliance on contractors
                                             to perform the audits.
                                                 Due to these concerns, OFS met with Freddie Mac senior officials to review
                                             these problem areas, to suggest several remediation steps, and to inform Freddie
                                             Mac that a new OFS compliance officer would be placed at Freddie Mac on a full-
                                             time basis. Freddie Mac developed a detailed remediation plan with which OFS
                                             concurs. Steps include:

                                             •	 hiring a new program executive to lead Freddie Mac’s compliance efforts
                                             •	 restructuring Freddie Mac’s organization to better align with the goals of HAMP,
                                                including repositioning leaders and hiring new staff with the right skill sets
                                             •	 creating a quality assurance function at Freddie Mac that will report directly to
                                                Treasury
                                             •	 instituting a risk-based testing approach, as well as random audits
                                             •	 performing independent verification of controls and corrective actions
                                             •	 improving the timeliness of reporting to Treasury
                                             •	 developing one audit team to focus on the top-10 servicers, with quarterly audits
                                                being performed on such servicers
                                             •	 developing a second audit team to deal with all other servicers

                                                 SIGTARP commends OFS compliance for recognizing the deficiencies at
                                             Freddie Mac and taking steps to remedy the situation. SIGTARP will monitor prog-
                                             ress made on these issues.

                                             Servicer Performance Report
                                             The Administration released its first Servicer Performance Report on August 4,
                                             2009.221 Subsequent reports have been released on a monthly basis. The stated
                                             purpose of this report is to “document the number of struggling homeowners
                                             already helped under the [MHA] program, provide information on servicer perfor-
                                             mance and expand transparency around the initiative.”222
                                                                                                                     quarterly report to congress I october 21, 2009   103




Overall Performance Metrics
As of September 30, 2009, 63 servicers have signed Servicer Participation
Agreements to modify loans under HAMP. A snapshot of HAMP modifications is
shown in Table 2.32.
   Figure 2.13 shows the monthly increases in HAMP trial modifications started
and HAMP trial plans extended to borrowers.




Table 2.32

hamp snapshot
Number of Trial Modificationsa                                                                                         487,081
Number of Trial Period Plan Offers Extended to Borrowers (Cumulative)b                                                 797,955
Number of Requests for Financial Information Sent to Borrowers (Cumulative)                      b
                                                                                                                    2,484,783

Notes: Survey data provided by servicers.
a
  Trial and permanent modifications as of 9/30/2009; based on numbers reported by servicers to the HAMP system of record.
b
  Survey data provided by servicers as of 10/1/2009.
Source: Treasury, “Making Home Affordable Program Servicer Report through September 2009,” 10/8/2009,
http://www.treas.gov/press/releases/docs/MHA%20Public%20100809%20Final.pdf, accessed 10/8/2009.




                                                              Figure 2.13

                                                             HAMP TRIAL MODIFICATIONS STARTED
                                                             AND TRIAL PLANS EXTENDED
                                                             5/2009 – 9/2009

                                                             800,000
                                                             700,000
                                                             600,000
                                                             500,000
                                                             400,000
                                                             300,000
                                                             200,000
                                                             100,000
                                                                      0
                                                                           May           June     July       Aug        Sept
                                                                           (and prior)


                                                                           HAMP Trial Modifications (Cumulative)
                                                                           HAMP Trial Plans Extended to Borrowers
                                                                           (Cumulative)
                                                              Source: Treasury, “Making Home Affordable Program Servicer
                                                              Performance Report Through September 2009,” 10/8/2009,
                                                              www.treas.gov/press/releases/docs/MHA%20Public%
                                                              20100809%20final.pdf, accessed 10/8/2009.
104                special inspector general I troubled asset relief program




      Table 2.33

      HAMP Modification Activity by Servicer
                                                                                                                                                                                                     Trial
                                                                                                                                 Trial Plan Offers                                          Modifications
                                                                                         Estimated            Total Plan               as Share of                       Trial               as Share of
                                                              Participation                Eligible               Offers        Estimated Eligible              Modifications          Estimated Eligible
      Servicer                                                Date                      Mortgagesa            Extendedb                 Mortgages                   Startedb                  Mortgages
      J.P. Morgan Chase Bank, NAc                             4/13/2009                      437,652             163,617                            37%                117,196                      27%
      Wells Fargo Bank, NA                                    4/13/2009                      310,716             106,427                            34%                  62,989                     20%
      CitiMortgage, Inc                                       4/13/2009                      208,427              88,472                            42%                  68,248                     33%
      Saxon Mortgages Services, Inc                           4/13/2009                        79,921             38,332                            48%                  32,931                     41%
      Select Portfolio Servicing                              4/13/2009                        60,848             32,024                            53%                  15,706                     26%
      GMAC Mortgage, Inc                                      4/13/2009                        73,498             31,720                            43%                  19,331                     26%
      Ocwen Financial Corporation, Inc                        4/16/2009                        68,088             10,650                            16%                    5,193                     8%
      Bank of America, NAd                                    4/17/2009                      875,917             156,120                            18%                  94,918                     11%
      Wilshire Credit Corporation                             4/20/2009                        29,153               6,412                           22%                    2,929                    10%
      Home Loan Services, Inc.                                4/20/2009                        45,822                  279                            1%                          26                 0%
      Green Tree Servicing LLC                                4/24/2009                          4,114                 810                          20%                          474                12%
      Carrington Mortgage Services, LLC                       4/27/2009                        17,149               1,584                             9%                         584                 3%
      Aurora Loan Services, LLC                               5/1/2009                         72,912             37,831                            52%                  23,889                     33%
      Nationstar Mortgage LLC                                 5/28/2009                        29,846             16,974                            57%                    8,413                    28%
      Residential Credit Solutions                            6/12/2009                          1,831                 364                          20%                          313                17%
      CCO Mortgage                                            6/17/2009                          4,648                 879                          19%                          158                 3%
      RG Mortgage Corporation                                 6/17/2009                          3,473                 173                            5%                         64                  2%
      National City Bank                                      6/26/2009                        40,582               9,267                           23%                    3,845                     9%
      Wachovia Mortgage, FSB           e
                                                              7/1/2009                         75,074               2,896                             4%                   2,019                     3%
      Bayview Loan Servicing, LLC                             7/1/2009                           8,987              2,158                           24%                          196                 2%
      MorEquity, Inc                                          7/17/2009                          2,244                   11                            —                          —                   —
      American Home Mortgage Servicing Inc                    7/22/2009                      114,272                6,817                             6%                         440                 0%
      HomeEq Servicing                                        8/5/2009                         39,934                  444                            1%                          —                   —
      Litton Loan Servicing LP                                8/12/2009                      107,341              13,567                            13%                    2,229                     2%
      OneWest Bank                                            8/28/2009                      109,222              23,017                            21%                    5,217                     5%
      U.S. Bank NA                                            9/9/2009                         28,356               6,925                           24%                          863                 3%
      Franklin Credit Management                              9/11/2009                          2,635                   —                             —                     N/Af                    N/A
      Other SPA servicers       g
                                                              —                                  4,684                 185                            4%                         102                 2%
      Other GSE servicers       h
                                                              —                              242,959                   N/A                           N/A                 18,808                      8%
      Total                                                                              3,100,305              757,955                             24%               487,081                       16%

      Notes:
      a Estimated eligible mortgages with 60+ day delinquencies are as of 8/31/2009.
      b Trial plans offered and trial modifications started are as of 9/30/2009.
      c J.P. Morgan Chase Bank, NA includes EMC Mortgage Corporation.
      d Bank of America, NA includes Countrywide Home Loans Servicing LP.
      e Wachovia Mortgage FSB includes Wachovia Bank NA.
      f N/A denotes a newly signed servicer not yet fully reporting into the program.
      g Other SPA servicers are entities with less than 1,000 estimated eligible 60+ day delinquencies that have signed participation agreements with Treasury and Fannie Mae.
      h Other GSE servicers includes approximately 2,300 participants that service loans owned or guaranteed by Fannie Mae and Freddie Mac.


      Source: Treasury, “Making Home Affordable Program Servicer Report through September 2009,” 10/8/2009, http://www.treas.gov/press/releases/docs/MHA%20Public%20100809%20Final.pdf, accessed
      10/8/2009.
                                                                                                           quarterly report to congress I october 21, 2009   105




Servicer Metrics
Table 2.33 shows the HAMP modification activity by each servicer.
    Figure 2.14 shows the trial modifications started by each servicer as a percent
of that respective servicer’s estimated number of eligible mortgages.




Figure 2.14

TRIAL MODIFICATION TRACKER: TRIAL MODIFICATION
STARTS AS A SHARE OF ESTIMATED ELIGIBLE MORTGAGES


40
35
30
25
20
15
10
 5
 0
     Saxon
     Aurora
     CitiMortgage
     Nationstar
     J.P. Morgan Chase
     GMAC
     Select Portfolio
     Wells Fargo
     Residential Credit
     Green Tree
     Bank of America
     Wilshire
     National City
     Other GSE Servicers
     Ocwen
     OneWest
     Carrington
     CCO
     US Bank
     Wachovia
     RG Mortgage
     Litton
     Other SPA Servicers
                                                                                           Bayview
                                                                                           American Home
                                                                                           Home Loan
                                                                                           MorEquity
                                                                                           HomeEq




 Notes: Numbers may be affected by rounding. Data as of 9/30/2009. September trials as a share
 of mortgages with 60+ day delinquencies on August 31, 2009.

 Source: Treasury, “Making Home Affordable Program Servicer Performance Report Through
 September 2009,” 10/8/2009, www.treas.gov/press/releases/docs/MHA%20Public%
 20100809%20final.pdf, accessed 10/8/2009.
106            special inspector general I troubled asset relief program




                                                      Executive Compensation
      For more information on the Rule and            Restrictions on executive compensation have applied to TARP recipients since the
      a summary of the timeline on TARP               program’s inception; section 111 of EESA detailed the original restrictions, which
      executive compensation restrictions, see        have been changed over time by statutory amendment, Treasury regulations, and
      SIGTARP’s July Quarterly Report, page
                                                      notices. On February 17, 2009, section 111 of EESA was amended by section
      118.
                                                      7001 of the American Recovery and Reinvestment Act of 2009 (“ARRA”), which
                                                      further required that Treasury publish regulations to implement ARRA amend-
                                                      ments.223 On June 10, 2009, Treasury released its Interim Final Rule on TARP
                                                      Standards for Compensation and Corporate Governance (the “Rule”).224 Following
                                                      the release of the Rule, Treasury provided a 60-day period for public comment;
                                                      the 60-day comment period concluded on August 14, 2009. Treasury is currently
                                                      considering the public comments it received before issuing a Final Rule. The Rule
                                                      “implement[s] ARRA provisions, consolidates all of the executive-compensation-
                                                      related provisions that are specifically directed at TARP recipients into a single rule
                                                      (superseding all prior rules and guidance), and utilizes the discretion granted to the
                                                      [Treasury] Secretary under the ARRA to adopt additional standards, some of which
                                                      are adapted from principles set forth” in guidance previously provided by Treasury
                                                      in February 2009.225 The Rule applies to entities that meet the Rule’s definition
                                                      of a “TARP recipient,” i.e., “any entity that has received or holds a commitment to
                                                      receive financial assistance” under TARP, or to an entity that owns 50% or more,
                                                      or is 50% or more owned by the TARP recipient.226 As long as the TARP recipient
                                                      has an outstanding “obligation” to the Federal Government (as defined in the Rule;
                                                      this does not include warrants to purchase common stock), it must adhere to the
                                                      guidelines set forth under the Rule.227 Several TARP programs, however, are ex-
                                                      empt from the executive compensation restrictions outlined in the Rule as a result
                                                      of certain program characteristics:228

                                                      •	 TALF participants are exempt from the Rule because they are not directly
                                                         receiving TARP assistance. The TARP funds are used to purchase surrendered
                                                         collateral in the program.
                                                      •	 PPIP participants are exempt because no participant will own more than 9.9%
                                                         of any PPIF (therefore, no participant will own 50% or more of TARP recipient,
                                                         as required by the Rule).
                                                      •	 MHA participants are exempt from the Rule by virtue of statutory language
                                                         included in the ARRA amendments.
                                                                                                                    quarterly report to congress I october 21, 2009               107




     For a summary of the Rule’s executive compensation guidelines, see Table 2.34.
                                                                                                                                     Golden Parachute: Any payment to an
                                                                                                                                     employee for departure for any reason,
Table 2.34                                                                                                                           or any payment due to a change in
                                                                                                                                     control.
EXECUTIVE COMPENSATION: INTERIM FINAL RULE
Standard                                       Details
                                                                                                                                     Clawback: Recovery by the company
Limits executive compensation                  Limits bonus payments to protect taxpayer investment                                  of amounts paid to an employee based
for certain executives and highly              Curtails the payment of golden parachutes                                             on materially inaccurate performance
compensated employees at                       Imposes clawback for any bonus based on materially inaccurate
companies receiving TARP funds                                                                                                       criteria.
                                               performance criteria
                                               Responsible for reviewing any compensation for senior executive
                                               officers and most highly paid employees at firms receiving                            Exceptional Assistance: Companies
                                               exceptional assistance — with authority to disapprove plans                           receiving assistance under SSFI, TIP,
                                               where salary or other compensation is inappropriate, unsound or                       AGP, and AIFP, and any future Treasury
                                               excessive
Appoints a Special Master to                                                                                                         program designated by the Treasury
review compensation plans at firms Reviews and approves compensation structure for any executive
                                   officers and the 100 most highly paid employees at those firms                                    Secretary as providing exceptional
receiving exceptional assistance
                                   Possesses authority to negotiate for reimbursements on
                                                                                                                                     assistance. Currently includes AIG,
                                   payments to senior executive officers and certain highly                                          Citigroup, Bank of America, GM,
                                   compensated employees prior to February 17, 2009                                                  GMAC, and Chrysler.
                                               Makes determinations based on a clear set of principles
                                               Extends required risk analysis of compensation to all employees                       Tax Gross-up: A reimbursement of
Implements and expands upon key                of TARP firms
ARRA provisions consistent with                                                                                                      taxes owed with respect to any
                                               Requires luxury expenditure policies for all TARP firms
February 4th proposals                                                                                                               compensation.
                                               Institutes “Say on Pay” requirements for all TARP firms

Sets additional compensation and               Prohibits tax gross-ups                                                               Perk: Personal benefit, including a
governance standards to improve                Requires additional perk disclosure                                                   privilege, or profit incidental to regular
accountability and disclosure                  Mandates disclosure of compensation consultants                                       salary or wages.
Note: Table taken verbatim from source document with Treasury edits as per SIGTARP draft, 10/7/2009.
Source: Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009,
http://www.treas.gov/press/releases/tg165.htm, accessed 9/8/2009.
                                                                                                                                  For more information on executive
                                                                                                                                  compensation issues and findings, refer
                                                                                                                                  to SIGTARP’s August 19, 2009, audit,
                                                                                                                                  “Despite Evolving Rules on Executive
                                                                                                                                  Compensation, SIGTARP Survey Provides
                                                                                                                                  Insights on Compliance.”
108   special inspector general I troubled asset relief program                                                                         108




                                             Luxury Expenditures
                                             The Rule requires that the board of directors of each TARP recipient adopt an
                                             excessive or luxury expenditure policy (the “Policy”). The Policy must be posted to
                                             each TARP recipient’s website within 90 days of the publication of the Rule, which
                                             was published on June 15, 2009. Under the Rule, excessive or luxury expenditures
                                             may include excessive expenditures in the following categories:229

                                             •	   entertainment or events
                                             •	   office and facility renovations
                                             •	   aviation or other transportation services
                                             •	   other activities or events that are not reasonable expenditures for staff develop-
                                                  ment or performance incentives

                                                  The Rule requires that the Policy include the following elements:230

                                             •	 categories of expenses prohibited or requiring prior approval
                                             •	 reasonable approval procedures for those expenses
                                             •	 certification process whereby the principal executive officer and principal
                                                financial officer certify that proper approval was obtained for any expenditures
                                                needing approval by a senior executive officer, any executive officer of a similar
                                                level of responsibility, or the board of directors
                                             •	 a requirement that violations be promptly reported internally
                                             •	 mandated accountability for adherence to the Policy

                                             Comparison of Luxury Expenditure Policies
                                             The luxury expenditure policies for five of the institutions designated by Treasury as
                                             receiving “exceptional assistance” under TARP (AIG, Bank of America, Citigroup,
                                             Chrysler, and GM) are illustrated in Table 2.35. All five of these institutions directly
                                             address luxury expenditures, reporting, and compliance with the Policy; however,
                                             certain institutions provide more detailed guidance than others. For example, Bank
                                             of America provides vague guidelines for luxury expenses, stating that “reasonable
                                             expenditures occur when the costs of entertainment or events do not exceed the
                                             expected benefit to the corporation.”231 Chrysler, by comparison, includes a detailed
                                             “Personal and Unallowable Expenses” chart in its policy outlining specific expenses
                                             such as spa services, country club dues, and tuxedos that are prohibited.232 The five
                                             institutions also have notable differences in their aircraft and transportation policy
                                             ranging from GM’s policy of “generally prohibiting” private aircraft travel, to Bank
                                             of America’s policy “encouraging” senior management to use corporate aircraft for
                                             “safety and efficiency purposes.”233
                                                                                                                       quarterly report to congress I october 21, 2009                          109




Table 2.35

EXCEPTIONAL ASSISTANCE RECIPIENTS’ LUXURY EXPENDITURE POLICIES
                            Entertainment or Events                                             Office and Facility Renovations            Aviation or Other Transportation
AIG                         Required to have a clear business purpose, and                      Must be reasonable on a cost/benefit       Commercial travel must be pre-approved.
                            not be excessive, and are otherwise consistent                      basis and advance AIG’s business           Corporate aircraft is available solely for
                            with the policy and guidelines and applicable                       objectives. Business unit managers         business purposes and is only permitted
                            laws. Celebratory events are prohibited, unless                     are responsible for implementing           with written approval.
                            acknowledging key AIG career milestones or for                      appropriate monitoring and reviewing
                            holiday parties, and must be approved.                              and escalating exceptions to the Chief
                                                                                                Administrative Officer.
Bank of America             Based on:                                                           • Based on industry standard.              Senior management is encouraged to
                            1) revenue-generating potential of event                            • Any variation requires senior            use corporate aircraft when traveling on
                            2) if it is an appropriate use of company                             management approval.                     business for the corporation for safety
                               resources                                                                                                   and efficiency purposes. Any use of
                            3) whether alternatives are available that would                                                               corporate aircraft outside “reasonable
                               maximize cost savings and benefits                                                                          business development” or emergencies is
                                                                                                                                           considered excessive and is not allowed.
                                                                                                                                           All usage of the aircraft is controlled and
                                                                                                                                           scheduled centrally with periodic reporting
                                                                                                                                           of usage to senior management, thereby
                                                                                                                                           eliminating the likelihood of a violation of
                                                                                                                                           the policy.
Citigroup                   • Must support a legitimate                                         • Managed for efficiency and cost          • Corporate aircraft use requires written
                              business purpose.                                                   control.                                   approval by a member of Citigroup’s
                            • Limited to daily maximum per employee.a                           • Renovations of offices used by             Executive Committee and the Director of
                                                                                                  members of the Citigroup Executive         Citi Aviation.
                                                                                                  Committee must be reviewed by the        • Personal use by the Citigroup CEO must
                                                                                                  board of directors.                        be subject to a written reimbursement
                                                                                                                                             agreement.b
Chrysler                    • Expenses cannot be incurred exclusively or                        Request must be submitted for proper Arrange for reasonably priced travel,
                              primarily for the benefit of employees unless                     approval. All renovations exceeding   when available, through the internal travel
                              such expenses are reasonable in amount                            $5 million must go through the CFO    department.
                              and customary in nature.                                          or a committee designated by the CFO.
                            • Must be approved by a Senior Vice
                              President or higher.
GM                          Must be part of prudent and appropriate                             Appropriation requests are required for Private aircraft travel is generally
                            business activities; demonstrate cost efficiency                    acquisition or leasing of real estate or   prohibited. Prior approval is required in all
                            and avoiding impropriety in the use of funds.                       for the renovation or relocation of entire instances.
                                                                                                or significant portions of facilities.

Notes:
a Citigroup’s daily maximum for entertainment and events is not publicly available.
b Citigroup’s CEO has notified the board of directors that he will not use the corporate aircraft for personal use.

Sources: AIG, “AIG Luxury Expenditure Policy,” 9/14/2009, http://www.aigcorporate.com/corpgovernance/AIG%20Luxury%20Expenditure%20Policy.pdf, accessed 9/24/2009; Bank of America, “Excessive
or Luxury Expenditure Policy,” 9/2009, http://phx.corporate-ir.net/External.File?item=UGFyZW50SUQ9MTUxNjN8Q2hpbGRJRD0tMXxUeXBlPTM=&t=1, accessed 9/24/2009; Citigroup, “Luxury Expenditure
Policy,” 9/14/2009, http://www.citigroup.com/citi/corporategovernance/data/lux_exp_policy.pdf, accessed 9/24/2009; Citigroup, Governance Documents, no date, http://www.citigroup.com/citi/
corporategovernance/docs.htm, accessed 9/24/2009, Chrysler, “Chrysler Group LLC Policy,” 9/14/2009, http://www.chryslergroupllc.com/pdf/expense_policy_07082009.pdf, accessed 9/24/2009;
GM, “General Motors Expense Policy,” 9/14/2009, http://www.gm.com/corporate/investor_information/docs/corp_gov/GM_ExpensePolicy.pdf, accessed 9/24/2009.
110            special inspector general I troubled asset relief program




                                                      Special Master
                                                      Under the Rule, Treasury has created a new Office of the Special Master for TARP
                                                      Executive Compensation (the “Special Master”) to review executive compensation
                                                      at TARP recipients and ensure that compensation plans for certain employees of
                                                      financial institutions receiving exceptional assistance are aligned with shareholder
                                                      and taxpayer interests. TARP participants receiving exceptional assistance deliv-
                                                      ered their proposed executive compensation structures, and payments pursuant
                                                      to those structures, for the senior executive officers and the 20 next most highly
                                                      compensated employees to the Special Master in mid-August 2009.234 The Special
                                                      Master concluded that the submissions with respect to these employees at all seven
                                                      recipients of exceptional assistance were “substantially complete” for purposes of
                                                      the Rule on August 31, 2009. The Rule requires that the Special Master issue an
                                                      initial determination with respect to these proposals within 60 days of the receipt
                                                      of a substantially complete submission.235 The responsibilities of the Special Master
                                                      include:236

                                                      •	 Review of Payments: review and approve any payments of compensation at
      Senior Executive Officers (“SEOs”): A              TARP recipients that have received exceptional assistance for their 5 senior
      “named executive officer” of a TARP                executive officers (“SEOs”) and 20 next most highly paid employees
      recipient as defined under Federal              •	 Review of Structures: review and approve the structure of compensation at
      securities law, which generally includes
                                                         TARP recipients that have received exceptional assistance for their SEOs, ex-
      the principal executive officer (“PEO”),
                                                         ecutive officers, and 100 most highly compensated employees
      principal financial officer (“PFO”), and
                                                      •	 Review of Prior Payments: review bonuses, retention awards, and other
      the next three most highly compen-
                                                         compensation paid to the SEOs and 20 next most highly compensated employ-
      sated employees.
                                                         ees before February 17, 2009, by all TARP recipients and, where appropriate,
                                                         negotiate reimbursements
                                                      •	 Interpretation: provide advisory opinions with respect to the application of the
                                                         Rule and whether compensation payments and plans are consistent with EESA,
                                                         TARP, and the public interest

                                                          Since taking office, the Special Master has made an initial ruling, approv-
                                                      ing “in principle” the pay package of the new AIG President and CEO, Robert
                                                      Benmosche.237 The Special Master formally approved the proposed compensation
                                                      structure for Mr. Benmosche in a letter released on October 2, 2009.238

                                                      Executive Compensation Reform beyond TARP
                                                      On March 26, 2009, Treasury outlined its framework for regulatory reform to try to
                                                      close the “gaps and weaknesses in [the U.S.] financial regulatory system.”239 As part
                                                      of the overall regulatory reform agenda, Treasury proposed regulatory standards
                                                      that would apply to all public companies and not just TARP recipients. On July 16,
                                                      2009, Treasury delivered draft legislation addressing executive compensation at all
                                                                            quarterly report to congress I october 21, 2009   111




public companies — “Say on Pay” and compensation committee independence.
The “Say on Pay” legislation is intended to “encourage greater accountability … in
setting compensation.”240 The compensation committee independence legislation
is intended to further ensure that public companies’ compensation committees can
accomplish their job of “negotiating executive compensation arrangements that
protect long-term shareholder value.”241

Say on Pay
The “Say on Pay” legislation would require all publicly traded companies to give
shareholders a non-binding vote on the pay packages described in executive
compensation disclosures.242 The vote would be based on disclosures detailing the
forms of compensation paid — salary, bonuses, stock, and option awards — as well
as the total compensation amounts. This bill would also mandate a separate vote
on golden parachutes in the case of a merger or acquisition.243 The bill is designed
to make the board of directors at every public company more accountable to the
owners of the company and help align compensation plans with long-term value
creation.244

Compensation Committees
According to Treasury, the independence of directors on public companies’ com-
pensation committees can be compromised in the following circumstances: when
there are directors on the committee who may benefit from executives’ decisions;
when the compensation committee is unable to bargain effectively with executives
over complex compensation decisions; and when the committee relies on advice
from possibly conflicted consultants or legal counsel.245 The compensation commit-
tee independence legislation would require that these committees be “independent
in fact, and not just in name,” from outside influences.246
    The Treasury-proposed legislation would ensure compensation committee inde-
pendence through three standards:247

•	 by requiring “[m]embers of the compensation committee [to] meet exacting
   new standards for independence” (including standards that would, among other
   things, limit relationships with company management and prohibit independent
   directors from receiving payments from the company other than directors’ fees)
•	 by requiring that any compensation consultants and legal consultants that com-
   pensation committees hire be independent from management
•	 by giving compensation committees “the authority and funding to hire indepen-
   dent compensation consultants, outside counsel, and other advisors who can
   help ensure that the committee bargains for pay packages in the best interests
   of shareholders,” while, at the same time, requiring that “if the committee
   decides not to use its own compensation consultant, it explain that decision to
   shareholders”
112   special inspector general I troubled asset relief program
              the impact of credit
S ec tion 3   rating agencies on tarp
              and beyond
114   special inspector general I troubled asset relief program
                                                                               quarterly report to congress I october 21, 2009              115




Introduction
Credit rating agencies enjoy a position of significant influence in the U.S. and
world financial system. There are three dominant agencies within the market:
Moody’s Investor Services (“Moody’s”), Standard & Poor’s (“S&P”), and Fitch
Ratings (“Fitch”). Financial market players, including broker-dealers, investment
advisors, and investors, rely on credit rating agencies’ ratings of a security or issuer
as an independent evaluation of credit risk; thus rating agencies play an important
role in how financial institutions allocate their capital. Further, rating agencies
have a direct impact on companies’ and governments’ cost of capital — the lower
the credit rating, the more the debt issuer will have to pay in terms of interest. The          Cost of Capital: The “price” a company
power and influence of the rating agencies can often be seen in the marketplace,                must pay to finance an investment or
especially when they downgrade a security or issuer, as was the case with American              project. For debt financing, this is the
International Group, Inc. (“AIG”) in 2008. This can serve as the death knell of a               interest rate on any loans or bonds.
                                                                                                For equity financing, it is the “opportu-
company, especially a financial institution whose livelihood revolves around raising
                                                                                                nity cost” of using its capital elsewhere
capital at a cheaper rate than it earns on its investments. The U.S. Government
                                                                                                (i.e., what the company could have
reinforces the power of rating agencies by including in certain laws and regulations
                                                                                                reasonably expected to earn from
a reliance on high ratings.
                                                                                                using its cash in a low-risk investment
    Since the onset of the financial crisis and the Government’s efforts to restore             such as Government bonds).
financial stability through the Troubled Asset Relief Program (“TARP”) and other
measures, there has been considerable discussion of the extent to which rating
agencies contributed to the crisis, particularly with regard to ratings they provided
on securities based on subprime mortgages, and the prominent role they play in
Government programs designed to address the crisis, including TARP. Rating agen-
cies are often mentioned in the debate around reforming financial sector regulation
— with many observers calling for substantial changes in the regulation of rating
agencies, particularly changes designed to address the inherent conflicts of interest
that rating agencies face in their business model. In fact, the European Union re-
cently unveiled new rating agency regulations of its own stemming from the global
financial crisis.248
    The U.S. Government, however, while proposing some increased regulation of
rating agencies, has not called for the type of significant overhaul of rating agen-
cies that others have called for as part of its broad regulatory reform proposals.
On October 5, 2009, the Securities and Exchange Commission (“SEC”) adopted
several new final rules relating to rating agency regulation but re-opened others
to further discussion, deferring final decision until a future date.249 These reform
efforts have focused largely on disclosure and managing conflicts of interest, rather
than on Government regulation of ratings substance and methodologies. Indeed,
in Congressional testimony, Treasury’s Assistant Secretary for Financial Institutions
stated that such efforts would be counterproductive: “The government should not
be in the business of regulating or evaluating the methodologies themselves, or the
116            special inspector general I troubled asset relief program




                                                      performance of ratings. To do so would put the government in the position of vali-
                                                      dating private sector actors and would likely exacerbate over-reliance on ratings.”250
                                                          In this section, the Office of the Special Inspector General for the Troubled
                                                      Asset Relief Program (“SIGTARP”) intends to provide an overview of rating agen-
                                                      cies, their operations, and their prevailing role in the financial crisis (specifically
                                                      their impact on TARP recipients and on TARP-related programs such as the Term
                                                      Asset-Backed Securities Loan Facility (“TALF”) and the Public-Private Investment
                                                      Program (“PPIP”)) in order to put into context the role of rating agencies.


                                                      Background on Credit Rating Agencies
                                                      What Credit Rating Agencies Do
                                                      When a company requires funds for investment or to pay expenses, it often seeks to
      Due Diligence: The appropriate level of         borrow money through debt financing. Debt financing can come in several forms
      attention or care a reasonable person           — with the most common being loans, bonds, and commercial paper (unsecured
      should take before entering into an             short-term debt issued by a company). When a company approaches a bank for
      agreement or a transaction with an-             a loan, the bank might conduct a thorough analysis of the prospective borrower’s
      other party. In finance, often refers to        creditworthiness. This process of evaluation is called due diligence, and the bank
      the process of conducting an audit or           often takes a close look at a wide range of financial information from the prospec-
      review of documents and information             tive borrower — much as it might examine an individual’s financial health who has
      prior to initiating a transaction.              applied for a mortgage. The bank will look at the borrowers’ income to determine
                                                      if they have the means to repay the debt over time and their debts to determine
      Transaction Cost: The tangible and
                                                      whether the prospective borrowers have other obligations that may interfere with
      intangible costs associated with buying
                                                      their ability to repay, as well as a number of other factors. The process requires a
      or selling an asset. Tangible costs can
                                                      great deal of disclosure and effort from both parties, which makes for a high trans-
      include fees paid (such as to a broker
      when selling bonds or to lawyers for            action cost for the particular loan.
      drafting documents), while intangible                A similar due diligence process must also be conducted when a company issues
      costs can include the time or effort            securities (such as asset-backed securities (“ABS”)). An ABS issuance is a security
      spent reviewing documents and travel-           that packages together a number of underlying assets — such as mortgages, car
      ing to visit a client, for instance.            loans, or student loans with similar characteristics — and makes regular interest
                                                      payments to investors. The higher the risk level of the underlying assets, the higher
                                                      the interest rate the securities will typically pay to investors. An investor in a corpo-
                                                      rate debt issuance must conduct due diligence to understand the risk of the issuing
                                                      company, while the ABS investor must understand the risk of each underlying asset
                                                      and the ABS structure. For a typical investor to properly understand the composi-
                                                      tion of the security and the inherent risk of the underlying assets, the transaction
                                                      costs associated with conducting the due diligence could be significant. In the case
                                                      of both debt and securities issuance, there are dozens or hundreds of prospective
                                                      investors that would be subject to such transaction costs.
                                                                              quarterly report to congress I october 21, 2009              117




    This is where rating agencies become involved in the process. A rating agency
                                                                                               Special Purpose Vehicle (“SPV”): An
researches the risks of a prospective new security and of the security issuer and
                                                                                               off-balance-sheet legal entity that holds
issues its opinion, or rating, to the universe of prospective investors. The issuer can        the transferred assets presumptively
be any number of organizations from a company (public or private), to a govern-                beyond the reach of the entities provid-
ment (state, municipal, or national), to a special purpose vehicle (“SPV”) as is               ing the assets (e.g., legally isolated).
often the case in an ABS issuance. The rating agency conducts its research and
assigns a rating, or score, to both the security and the issuer. A higher rating means         Par Value: The face value of a bond or
lower risk and consequently a lower interest rate that the issuer will have to pay to          security (for instance $1,000 or $100).
investors.                                                                                     When a bond trades on the market,
    The rating given by a rating agency has significant implications for a company’s           the price can be above or below par. A
cost of capital. Prospective investors look at the score given by the rating agency            price above par means the purchaser
                                                                                               is paying a premium; a price below par
and use it to help determine the interest rate they expect from the issuer. For in-
                                                                                               means the purchaser is buying at a
stance, two companies issue bonds with a par value of $1,000. One has a top credit
                                                                                               discount.
rating (AAA) and one has a significantly lower rating (BB). The relative riskiness
of the company with the lower rating means that investors will demand that the
                                                                                               Ratings Watch: A formal announcement
company pay a higher interest rate to compensate for the higher risk that the bond             by a rating agency informing investors
will default.                                                                                  that the issue or issuer rating is being
    Rating agencies also monitor the ongoing creditworthiness of entities or securi-           reviewed to determine if the current
ties. If, for instance, a company experiences a significant deterioration in its busi-         rating is appropriate.
ness that has the potential to impair the company’s ability to honor its debt obliga-
tions, a rating agency is likely to initiate a rating action — potentially changing the        Government Regulators: Government
rating. First, it may put the company on “ratings watch,” meaning the rating agency            agencies responsible for overseeing
is conducting a review of the current rating to determine if it should be maintained.          the health and stability of a sector
If the rating agency determines that conditions no longer merit the current rating,            of the economy — in this case, the
                                                                                               financial sector, through supervision
the rating agency may downgrade the company and/or its securities to a lower rat-
                                                                                               and enforcement of regulations.
ing. Conversely, a company or security can also be upgraded. Typically these rating
actions are done gradually in notches or steps.
    The ratings issued by rating agencies are also often used by Government regula-
tors to monitor the health of financial institutions. Financial companies such as
money market mutual funds and insurance companies may be required by law
to invest a certain portion of their assets in securities of a certain credit rating.
Because money market mutual funds have an obligation to be among the safest
(lowest risk) investments, regulators review the composition of their portfolios to
determine whether they are sufficiently safe and, in so doing, place a premium on
holding the highest-rated securities. Likewise, insurance companies have a range of
available investment options but also have a responsibility to maintain sufficiently
low-risk, liquid investments on hand to make good on any claims. Accordingly, by
regulation, these financial institutions are required to hold some percentage of
AAA-rated (the highest rating available) securities or cash. There can be regulatory
consequences — such as penalties, suspension of license, or closure — should an
institution not meet these requirements. Rating agencies are thus the arbiters of
118            special inspector general I troubled asset relief program




                                                      what securities qualify to be held for regulatory purposes, and any changes to rat-
                                                      ings of securities can directly impact a financial institution’s regulatory compliance.
                                                      Further, because regulators rely so heavily on credit ratings in carrying out their
                                                      duties to ensure the solvency of regulated entities, errors by the rating agencies can
                                                      have profound effects on those institutions.
                                                          Historically, the credit rating agencies made their money by selling subscriptions
                                                      to their ratings publications to the community of investors. Today, however, rating
                                                      agencies make the vast majority of their income from the fees charged to issuers of
                                                      the securities that they rate — the issuers pay the rating agency to assign a rating
                                                      (commonly referred to as the “issuer-pay” model). This model is frequently cited
                                                      as the principal conflict of interest for the rating agencies because of the tension
                                                      between attracting new issuers and providing accurate ratings. Critics allege that, in
                                                      order to maintain or increase revenues, rating agencies must lower their rating stan-
                                                      dards in order to provide more favorable ratings for clients (issuers). Rating agencies
                                                      also receive fees from those same issuers for ongoing monitoring of the securities
                                                      they rate. In addition to credit ratings, many rating agencies make a portion of their
                                                      income from consulting services — advising companies, including prospective issu-
                                                      ers, on how to structure securities issuances in a way to attract the highest possible
                                                      rating and reduce their cost of capital. Some rating agencies refuse to issue credit
                                                      ratings on companies for which they provide consulting services.

                                                      Background on Credit Ratings and Process
      Investment Grade: A quality classifica-
                                                      Each rating agency provides a scale of ratings ranging from the highest rating (low-
      tion for bond or debt securities (rated
      BBB/Baa or higher) that suggests the            est likelihood of default), to the lowest (the highest likelihood of default). The term
      debt is likely to be repaid.                    “investment grade” refers to debt securities that are judged by the rating agency as
                                                      highly likely to repay and suitable for institutional investors. Conversely, the euphe-
      Yield: The effective interest rate paid         mism “junk” (sometimes called “speculative grade”) has come to mean anything
      by a security.                                  that is not investment grade, and the risk of the issuer not meeting its payment
                                                      obligations is high enough that an investor that must meet regulatory thresholds of
                                                      conservatism and prudence (such as a pension fund) should avoid them.
                                                          Table 3.1 provides an illustrative comparison of the ratings scales of the three
                                                      largest rating agencies, Moody’s, S&P, and Fitch. As the table suggests, each has a
                                                      different scale for long-term and short-term issues, and although the scoring used
                                                      appears to be similar, there are subtle differences among the three. The ratings con-
                                                      tained in the table are the most basic ratings for long- or short-term debt securities.
                                                      The three rating agencies also provide ratings for the issuers themselves, as well as
                                                      ratings for different types of structured finance products.
                                                          The lower the rating, the greater the perceived risk and the more yield an inves-
                                                      tor will demand. Obviously, the effect on the issuer is the opposite: the lower the
                                                      rating, the more it must pay or the lower the price it will get for its securities. For
                                                                                                                       quarterly report to congress I october 21, 2009   119




instance, according to data available from the Federal Reserve Bank of St. Louis,
the average rate paid by the highest-rated 30-year corporate bonds (AAA/Aaa) was
5.04% on September 30, 2009, compared to a rate of 6.17% for bonds rated BBB/
Baa — a full 1% difference for securities within the investment-grade category.251


Table 3.1

Credit Rating Scales of 3 Largest Agencies
                                                     Moody’s                        Standard &
                                                 Investor Services                    Poor’s              Fitch Ratings
                                               Long           Short            Long         Short       Long         Short
Band                     Rating                Term           Term             Term         Term        Term         Term
Investment Grade         Prime                 Aaa                             AAA                      AAA
                                               Aa1                             AA+                      AA+
                                                                                             A-1+                      F1+
                         High grade            Aa2                             AA                       AA
                                                              Prime-1
                                               Aa3                             AA-                      AA-
                         Upper medium A1                                       A+                       A+
                         grade                                                                A-1                       F1
                                      A2                                       A                        A
                                               A3                              A-                       A-
                                                              Prime-2                         A-2                       F2
                         Lower                 Baa1                            BBB+                     BBB+
                         medium grade
                                               Baa2                            BBB                      BBB
                                                              Prime-3                         A-3                       F3
                                               Baa3                            BBB-                     BBB-
Speculative              Speculative,          Ba1                             BB+                      BB+
Grade or “junk”          but likely to
                                               Ba2                             BB                       BB
                         repay
                                               Ba3                             BB-                      BB-
                                                                                                B                        B
                         Speculative,          B1                              B+                       B+
                         deterioration
                                               B2                              B                        B
                         expected
                                               B3                              B-                       B-
                         Substantial
                         risk
                                               Caa1                            CCC+
                         of business
                         interruption                         Not Prime
                         Substantial
                         risk of default       Caa2                            CCC                      CCC

                         Highly                                                                C                         C
                         vulnerable            Caa3                            CCC-                     CCC-

                         Near default                                          CC                       CC
                                               Ca
                                                                               C                        C

                         In default            C                               D                        D                D


 Sources: Moody’s (http://v3.moodys.com/ratings-process/Ratings-Definitions/002), S&P (http://www2.standardandpoors.com/
 spf/pdf/fixedincome/Ratings_Definitons_Update.pdf), Fitch Ratings (http://www.fitchratings.com/web_content/ratings/fitch_rat-
 ings_definitions_and_scales.pdf), accessed 10/5/2009.
120            special inspector general I troubled asset relief program




                                                      Issuance
                                                      Credit ratings are issued or edited at two key points: at security issuance and
                                                      when an event or change in business conditions could affect the issuer or security
                                                      creditworthiness and trigger an upgrade or downgrade. The issuance of a rating
                                                      for a security, especially a structured finance security, is often an iterative process.
                                                      Because the major rating agencies all publish their stated methodologies for deter-
                                                      mining a rating, it is routine for the investment bankers who structure the products
                                                      to review these documents and attempt to structure the security in such a way
                                                      as to receive the highest possible rating. If the issuer has questions about how to
                                                      improve its rating (or methods for minimizing the perception of default risk), it will
                                                      often ask rating agencies for comments or advice. In certain instances, an issuer
                                                      will pay for consulting services to receive assistance in structuring the product and
                                                      achieving a target credit rating. Securities Exchange Act Rule 17g-5(c), instituted
                                                      in early 2009, expressly prohibits a rating agency from providing consulting services
                                                      on issuances that it rates.252 Rating agencies can still provide consulting services,
                                                      however, on issuances rated by another rating agency.253
                                                          Each of the major rating agencies publicly discloses its stated methodology and
                                                      criteria for the instruments and institutions that it rates,254 however, an SEC study
                                                      of the three largest rating agencies has found that none of the rating agencies had
                                                      specific, comprehensive, written procedures for rating mortgage-backed securities
      Collateralized Debt Obligations
      (“CDOs”): A financial instrument that
                                                      (“MBS”) and collateralized debt obligations (“CDOs”).255
      entitles the purchaser to some portion
      of the cash flows from a portfolio of as-       Surveillance (Ongoing Monitoring)
      sets, which may include bonds, loans,           The vast majority of ratings are monitored by analysts at the rating agency for the
      mortgage-backed securities, or other            duration of the security term. This process is called surveillance. Surveillance is
      CDOs.                                           typically paid for by the issuer, with an annual surveillance fee negotiated at the
                                                      time of original rating.
      Rating Outlook: Guidance published by               As the business model for rating agencies shifted from subscriptions to issuer-
      a rating agency indicating the medium-          pay, the cost of maintaining and monitoring ratings has also shifted to the issu-
      or long-term outlook for a company’s            ers. Issuers pay for surveillance because investors demand it as a requirement for
      or security’s creditworthiness.
                                                      purchasing the security. Just as a downgrade of an entity’s securities can affect its
                                                      cost of raising capital on future issues, a lapse in ratings can also signify uncertainty
                                                      about the entity’s creditworthiness. Additionally, an unrated security requires very
                                                      high levels of regulatory capital making it undesirable for companies.
                                                          One element of a rating agency’s surveillance services is a rating outlook which
                                                      assesses the potential direction of an issuer’s long-term debt rating over the me-
                                                      dium term (a two- to three-year credit horizon). Rating outlooks reflect the rating
                                                      agency’s evaluation of trends or risks, including developments in the economy or
                                                      the fundamental business conditions, that are weighed against their potential im-
                                                      pact on the direction of the issuer’s credit rating. Rating agencies typically assign a
                                                      rating outlook to all issuers for whom they provide long-term credit ratings. A rating
                                                                               quarterly report to congress I october 21, 2009              121




outlook can be “positive,” “negative,” “stable,” or “developing,” depending on the
rating agency, and is not necessarily a precursor of a rating change or future credit
                                                                                                Credit Watch: Announcement by a
watch action.256
                                                                                                rating agency of developments that
    Over the course of the security’s term, any number of events and developments
                                                                                                may have a material impact on the
could change the creditworthiness outlook of the security, or more generally the                creditworthiness (either positive, nega-
issuer itself. These events, such as an “operational or fiscal deterioration, an acqui-         tive, or developing) of a company or
sition, a divestiture, or the announcement of a major share repurchase”257 would                security in the short term.
likely trigger a rating review and could ultimately lead to a rating action. A rating
review by the rating agency analysts monitoring the security or issuer is the first             Rating Review: A formal action by a
step in the process of initiating a rating action (an upgrade, downgrade, or affirma-           rating agency to re-assess the cred-
tion). If the analysts decide that a change to a rating may be merited, the rating              itworthiness of a company or secu-
agency may announce that the issue or issuer is being put on either “credit watch”              rity. Could lead to a change in rating
for short-term changes or rating outlook for long-term changes.                                 outlook, initiation of credit watch, or a
    Credit watch is a list maintained by a rating agency highlighting rated entities            rating action.

that are experiencing an emerging situation which could materially affect their
                                                                                                Rating Action: A modification (upgrade
credit profile in the short term.258 Credit watch can be designated as “credit watch
                                                                                                or downgrade) or confirmation of a
positive,” “credit watch developing,” or “credit watch negative.” These designa-
                                                                                                company’s or security’s credit rating.
tions are intended to signal to investors that further analysis is being performed,
although it does not necessarily mean that a rating change is inevitable.

Rating Actions
A rating action (downgrade or upgrade) can have a material impact on the cost
of capital for a company or issuer. A downgrade of the issuer’s rating means that
further issuances would be at a lower rating and the issuer would be required to
pay a higher interest rate compared to other less-risky opportunities in the market.
A change in rating can also have broader effects on the issuer’s business.
     A security’s upgrade or downgrade can have a direct impact on the finances
of those companies holding the security on their books. For instance, if a bond is
downgraded from AAA to AA, it could require all of the institutions that hold those
bonds as reserves (low-risk, high-liquidity securities) to put aside additional capital
per regulators’ requirements. As an example, consider a money market mutual
fund that must invest 95% of its assets in securities with ratings in the top four
long-term investment grades.259 A downgrade in one of its holdings can drive down
the value of that fund (suddenly one of its holdings that was selected because of
its low risk and volatility is no longer worth what it was before) and force the fund
to sell the downgraded asset at a loss and replace it with other AAA-rated securi-
ties. Furthermore, some debt agreements have “ratings triggers” embedded in their
contracts that can force a company to accelerate repayment of debt if its rating falls
below a specified level (such as being downgraded to speculative grade or junk).260
     There is considerable controversy surrounding the area of ratings surveillance
in that a ratings action, especially a downgrade, can have a dramatic effect on the
122            special inspector general I troubled asset relief program




                                                      viability of a company or the value of a security. Downgrades can trigger a domino
      Margin Call: A broker’s demand on
                                                      effect of margin calls and collateral devaluations — the “death spiral” — that can
      an investor using borrowed money
      (margin) to deposit additional cash or          force corporate failure.
      securities in its account if the value of
      its capital drops below a set percent of        Nationally Recognized Statistical Rating Organizations
      the total investment.                           An important development in the history of credit ratings occurred in 1975
                                                      with the creation of the nationally recognized statistical rating organizations
      SEC Net Capital Rule: A requirement             (“NRSROs”) designator for certain rating agencies. The SEC made explicit refer-
      that broker-dealers maintain a suf-             ence to NRSROs for the first time in a 1975 amendment to Securities Exchange
      ficient cushion of highly liquid assets         Act Rule 15c3-1 (the net capital rule).261 The net capital rule, which has been in
      (easily convertible to cash) in excess          use since the 1940s, sets minimum capital requirements for broker-dealers and
      of liabilities to cover potential market,
                                                      links the determination of what assets can be considered capital to an evaluation
      credit, and other risks if they should be
                                                      of the riskiness of the assets.262 Capital requirements for a broker-dealer func-
      required to liquidate.
                                                      tion similarly to the bank capital requirements discussed in SIGTARP’s Quarterly
                                                      Report dated April 21, 2009 (the “April Quarterly Report”) — they are set by regu-
      Capital Requirement: The amount of
      cash and easily liquidated assets that          lators to establish a minimum “cushion” against potential losses in the firm’s assets.
      a financial institution needs to meet           Rather than allowing the securities firms to determine for themselves the riskiness
      Government regulations and provide a            of their assets, or allow them to receive inflated ratings from dubious organizations,
      cushion against losses.                         the SEC decided to rely on the dominant three rating agencies, dubbing them
                                                      NRSROs.263
      Liquidity: The ability to easily convert             The SEC would rely on the ratings assigned by NRSROs “solely for determin-
      an asset to cash, without any signifi-          ing capital charges on different grades of debt securities under the Commission’s
      cant loss in value or transaction cost.         net capital rule for broker-dealers.”264 The rule requires broker-dealers to deduct
                                                      a percentage of the value of their securities investments from their net worth (a
                                                      capital charge, or haircut) because of the risk of loss in the investments. With the
      For more information on bank capital            advent of the NRSRO designation, however, a broker-dealer could take a smaller
      structure, see SIGTARP’s April Quarterly        haircut on securities that had received an investment-grade rating by one or more
      Report, “TARP Tutorial: Capital                 of the NRSROs because such a rating was deemed to correlate with liquidity (a
      Structure,” page 58.                            greater liquidity implied lower potential losses if a firm needed to convert the assets
                                                      to cash). According to former SEC Commissioner Isaac Hunt, securities with an
                                                      investment-grade rating from an NRSRO “typically were more liquid and less vola-
                                                      tile in price than those securities that were not so highly rated.”265
                                                           The three initial NRSROs were Moody’s, S&P, and Fitch.266 After the 2006 pas-
                                                      sage of the Credit Rating Agency Reform Act (“CRARA”), the number of NRSROs
                                                      grew. As of September 30, 2009, there were 10 NRSROs; for a complete list of
                                                      NRSROs, see Table 3.2.
                                                           Since 1975, the NRSRO concept was incorporated into a number of additional
                                                      SEC rules and regulations. Congress also began using the term in legislation as
                                                      did U.S. and international financial sector regulators.267 Certain Federal regulators
                                                      (as discussed in the “How the Federal Government Uses Ratings in Regulating
                                                      the Financial Sector” portion of this section) use NRSRO ratings in their rules for
                                                                                                               quarterly report to congress I october 21, 2009          123




Table 3.2
Credit Rating agencies Designated as NRSRO
 Rating Agency                                 Parent Company                             Notes
 Moody’s Investors Service, Inc.               Moody’s Corporation                        Rating TALF issues
 Standard & Poor’s Ratings Services            The McGraw-Hill Companies, Inc.            Rating TALF issues
 Fitch, Inc.                                   Fimalac S.A.                               Rating TALF issues
 Egan-Jones Ratings Co.
 A.M. Best Company, Inc.                                                                  Insurance companies only
 DBRS Limited                                                                             Rating TALF CMBS issues
 Rating and Investment Information,
 Inc.
 Realpoint LLC                                                                            Rating TALF CMBS issues
 Japan Credit Rating Agency, Ltd.
 LACE Financial Corporation

 Sources: Capital IQ, www.capitaliq.com, accessed 9/15/2009; FRBNY Press Release “New York Fed Names Four Non-Primary
 Dealer Broker-Dealers as TALF Agents,” 9/1/2009, www.newyorkfed.org/newsevents/news/markets/2009/an090901.html,
 accessed 9/15/2009.




calculating the risk-based capital of institutions, ultimately affecting how much
capital the institutions have on hand to lend or invest. The increased regulatory
reliance on ratings drove an increased demand for rating services by investors
and securities issuers, that, combined with increased regulatory oversight of the
securities industry, led to growth in the credit ratings industry. In other words, the
expansion of, and reliance on, credit rating agencies was heavily influenced by the
U.S. Government.

Rating Agency Impact on Financial Institutions
The financial services industry uses rating agencies to reduce the cost and effort of
evaluating investments. Rather than each firm or investor exhaustively researching
each potential investment and securities issuer, investors instead often rely on the
judgments of rating agencies. The rating agencies centralize the work and perform
analysis that would otherwise be done by the numerous investors in the market.
Many of the most important effects of ratings on financial institutions come as the
                                                                                                                               Permitted Investments List: A
result of Government regulation; ratings play a critical role, for example, in how
                                                                                                                               statement in the charter or policies
banks and other institutions value assets for regulatory capital.
                                                                                                                               of an organization (for instance, the
    Beyond the regulators, many market participants have come to depend on                                                     prospectus of a mutual fund) detailing
rating agencies for a range of needs. First, ratings are used widely in permitted                                              to stakeholders the nature or types
investments lists found in many investment firms’ policies. The largest investors in                                           of assets in which the institution is
the capital markets are institutional investors — such as pension funds, insurance                                             allowed to invest. To invest in assets
companies, mutual funds, trusts, and corporate or government treasury depart-                                                  not on the list could mean a breach
ments. Some of these institutions are concerned primarily with the preservation                                                in the fiduciary responsibility of the
of capital — meaning that they generally value safety and predictability in their                                              organization.
investments so they can reliably meet their obligations rather than risk eroding
124   special inspector general I troubled asset relief program




                                             their capital through the pursuit of higher returns. In their charters, the trustees
                                             of such institutions draw up investment policies that typically include a permitted
                                             investments clause. In the case of a risk-averse institution, such as certain pension
                                             funds or museum trust funds, it is common for the permitted investments clause
                                             to restrict fund investments to securities rated AAA or AA, the highest and second-
                                             highest ratings available. Because so many sectors of the investment world operate
                                             under similar requirements, these provisions create strong demand for the higher-
                                             rated securities. This means that higher-rated securities will be able to borrow at
                                             much lower rates, and lower-rated securities may have trouble finding a market at all.
                                                 Second, ratings are often used to re-balance institutional investors’ portfolios.
                                             Many investors, particularly institutional investors, set their strategies to optimize a
                                             certain mix of safe and speculative assets. These investors buy and sell securities on
                                             a daily, weekly, or monthly basis to maintain certain balances and ratios of ratings
                                             in their overall holdings. Thus, these investors constantly monitor any movements
                                             in securities’ or issuers’ ratings, and adjust their portfolio holdings accordingly.
                                                 Third, ratings have an effect on the structure of new securities. The rating
                                             agencies effectively set the structures and the rules for credit programs, particu-
                                             larly structured financings (such as ABS, residential mortgage-backed securities
                                             (“RMBS”), and commercial mortgage-backed securities (“CMBS”)), and the issuers
                                             and their advisors structure their products accordingly in order to gain the highest
                                             possible rating. Through this process, the rating agencies implicitly define what
                                             transaction structures can receive inexpensive financing and what cannot.
                                                 These are just a few of the ways in which rating agencies can influence the finan-
                                             cial markets; their decisions may create new markets and can mean the end of others.


                                             Credit Rating Market
                                             In 2007, the credit rating industry had total revenues of approximately $6 billion.268
                                             As cited in Congressional testimony, the three main NRSROs — Moody’s, S&P,
                                             and Fitch — currently account for 95% of the global market for credit ratings.269
                                             Historically, rating agencies have focused on providing ratings on several primary
                                             market segments:

                                             •	 Sovereigns (countries’ or governments’ debts)
                                             •	 Municipalities and their issues (state or local governments or public authorities
                                                may issue debt to finance operations for specific projects such as infrastructure
                                                investments)
                                             •	 Corporate Issuers (the companies that issue securities to finance their
                                                operations)
                                             •	 Corporate Issues (the specific securities issued by companies to finance their
                                                operations)
                                                                               quarterly report to congress I october 21, 2009             125




•	 Financial Institutions (deposit-taking banks)
•	 Insurance Companies

    Since the 1970s, however, structured finance, which includes asset-backed
securitization and a range of other financial innovations, has become an increas-
ingly prominent portion of the rating market. The asset-backed securitization
ratings market experienced enormous growth since the late 1990s with the booms
in telecommunications, the Internet, and especially housing. For example, total
residential mortgage production in the United States grew from $639 billion in
1995 to $3.3 trillion in 2005, leading to approximately $6.5 trillion of securitized
mortgages by year-end 2006.270 During this time period, Wall Street developed a
range of new products that helped institutions package up debt or other obliga-
tions and resell streams of income from the new products to other investors. These
products included CDOs and ABS — which included RMBS and CMBS. In fact,
CDOs often comprised bundles of different ABS, and sometimes other CDOs. The
growth of CDOs corresponded to a simultaneous growth of another product — an
insurance-like contract against the default of a company or security called a credit
default swap (“CDS”). Rating agencies provided ratings on all types of ABS and
CDOs.
    Coinciding with the growth of the structured finance market, the combined
revenues for Moody’s, S&P, and Fitch increased from $3 billion in 2002 to approxi-
mately $6 billion in 2007.271                                                                  Credit Default Swap (“CDS”): A contract
                                                                                               where the seller receives a series of
Rating-Agency Fees                                                                             payments from the buyer in return
The major rating agencies earn their income primarily through fees related to the              for agreeing to make a payment to
process of issuing ratings under the issuer-pay model. Prior to the 1970s, rating              the buyer when a particular credit
agencies made the majority of their income from selling their ratings to investors             event outlined in the contract occurs
who subscribed for regular reports — a method called “investor pay.”272 Now, al-               (for example, if the credit rating on a
though rating agencies continue to charge fees for other services, such as subscrip-           particular bond or loan is downgraded
                                                                                               or goes into default). It is commonly
tions, research reports, and consulting, such services provide a smaller portion of
                                                                                               referred to as an insurance-like product
their rating revenues.
                                                                                               where the seller is providing the buyer
    The fees charged to issuers can be structured several ways:273
                                                                                               insurance-like protection against the
                                                                                               failure of a bond. The buyer, how-
•	 a fixed-rate recurring fee for an issuer rating or for the surveillance of a rating         ever, does not need to own the asset
•	 a one-time transaction fee based on a percentage (typically several hundredths              covered by the contract, which means
   of 1%) of the nominal value of a transaction-related offering                               it can serve essentially as a bet against
•	 a combination of the two (such as a recurring or one-time fee covering both is-             the underlying bond.
   suer and transaction/offering ratings)

   Furthermore, fees can differ across types of offerings — with structured
126            special inspector general I troubled asset relief program




                                                      Table 3.3
                                                       Indicative Rating Fees (Issuance)
                                                                                   Fee                             Fee                             Example issuance fee:
                                                       Rating Agency               (corporate issuance)            (structured finance)                 $1 billion RMBS
                                                       Fitch Ratings               3 – 7 basis points              3 – 3.5 basis points                           $160,000
                                                                                   (0.03 – 0.07%)                  (0.03 – 0.03%)                    (@ 3.5 basis points) w/
                                                                                                                                                                    fee cap
                                                       Standard & Poor’s           3.25 – 4.25 basis               Up to 12 basis points                        $1,200,000
                                                       Ratings Services            points (0.0325 –                (up to 0.12%)                          (@ 12 basis points)
                                                                                   0.0425%)

                                                       Source: FRBNY, “Understanding the Securitization of Subprime Mortgage Credit,” 3/2008, www/newyorkfed.org/research/staff_
                                                       reports/sr318.pdf, accessed 9/22/2009. Fitch Ratings Ltd., Response to SIGTARP October 2009 Quarterly Report, 10/26/2009.


                                                      product offerings typically having a higher fee than corporate issuances.274
                                                      Table 3.3, derived from a report by the Federal Reserve Bank of New York
                                                      (“FRBNY”), illustrates the fees charged by S&P and Fitch (the report noted that
                                                      Moody’s does not publish its fees).
                                                          Many rating agencies make a portion of their income from sources other than
                                                      issuing ratings and surveillance. These sources include their traditional source of
                                                      revenue — subscriptions to ratings information services — but have also grown
                                                      to incorporate specialized credit risk management software and the provision of
                                                      consulting services around debt or structured finance issuances. In 2003, the SEC
                                                      noted that “these businesses include ratings assessment services where, for an ad-
                                                      ditional fee, issuers present hypothetical scenarios to the rating agencies to deter-
                                                      mine how their ratings would be affected by a proposed corporation action (e.g.,
                                                      a merger, asset sale, or stock repurchase).”275 Thus the rating agencies, for a fee,
                                                      advise the companies on how they can structure their transactions to get the best
                                                      ratings; since the enactment of Securities Exchange Act Rule 17g-5(c) in 2009,
                                                      however, they can no longer do so for an issue they are rating.276
                                                          Even when no official consulting services were provided, the process of receiv-
                                                      ing fees for ratings has been cited as having inherent conflicts of interest. Due to
                                                      the competition among the rating agencies, issuers often approach more than one
      Ratings Shopping: Also known as
                                                      rating agency to pursue the most favorable rating for a security issuance (“ratings
      “forum shopping”; the process where
                                                      shopping”). The issuer might approach several rating agencies to receive prelimi-
      an issuer approaches a rating agency
                                                      nary ratings on its prospective offering and then walk away from the ratings it does
      to receive a “preliminary rating” before
                                                      not like.277 As a result, an agency that consistently provides more conservative rat-
      it seeks an official rating. If it does
      not get the desired rating, the issuer          ings may find itself losing market share.
      proceeds to another rating agency until             The potential conflicts of interest are even higher for situations where a rat-
      it receives the desired rating.                 ing agency receives consulting fees directly associated with helping an issuer to
                                                      structure a security in order to maximize its credit rating while at the same time
                                                      also being paid to assign a rating to a different security issued by that same issuer.
                                                      Although some rating agencies claim that they have sufficient controls in place
                                                      to prevent the provision of such services from affecting their ratings, others have
                                                      made it a policy not to issue ratings for firms or securities for which they have
                                                                                    quarterly report to congress I october 21, 2009   127




provided structuring advice. One of the smaller rating agencies, DBRS Limited
(“DBRS”), explicitly prohibits its staff “from making recommendations to an
obligator, issuer, underwriter or sponsor of a security about the corporate or legal
structure, assets, liabilities, or activities of the obligator or issuer of the security for
which DBRS intends to assign, or has assigned, a rating.”278

Credit Rating Agency Reform Act
Following the various accounting scandals of the early 2000s involving companies
that had been assigned top credit ratings despite their imminent downfall (such
as Enron and WorldCom),279 Congress began to reexamine the role of NRSROs.
Congress attempted to tighten oversight of the NRSROs with the 2006 passage of
the Credit Rating Agency Reform Act (“CRARA”).
    One of the primary issues that CRARA tried to address was the concentrated
nature of the credit rating industry. One of the principal barriers to entry for new
competitors, prior to CRARA, was the requirement for a rating agency to be nation-
ally recognized in order to achieve NRSRO status — a chicken-or-egg dilemma
for many smaller rating agencies. Under CRARA, designation as an NRSRO is
determined by an application process and an SEC vote.280 Although this change
resulted in an increase in the number of NRSROs, the market share of the large
three rating agencies remains largely unaffected.
    CRARA also attempted to address challenges to the independence and reliabil-
ity of credit ratings, principally around information disclosure and the conflicts of
interest inherent in the issuer-pay business model. Changes made under CRARA
included:281

•	 authorizing the SEC to designate certain conflicts as “disclose-and-manage,”
   meaning the NRSRO must disclose conflicts of interest in its business and issue
   policies and procedures to mitigate against these conflicts
•	 authorizing the SEC to prohibit certain conflicts outright, such as an NRSRO
   issuing ratings for an entity from which it receives more than 10% of its net
   revenue or an NRSRO downgrading or threatening to downgrade an existing
   security if it does not receive the issuer’s business on another issue

    Additionally, CRARA authorized the SEC to conduct “reasonable periodic,
special, or other examination by representatives of the Commission.”282 To facilitate
such oversight, CRARA required NRSROs to create and maintain a set of docu-
ments, which includes documenting their ratings methodologies as well as retain-
ing any external and internal communications related to any ratings action.283
    While CRARA sought to promote more competition in the credit rating market,
reduce potential conflicts of interest, and promote more disclosure, its reforms
were insufficient to prevent the damage of the 2007–2008 financial crisis.284 At
128   special inspector general I troubled asset relief program




                                             the time CRARA was passed, the subprime market had not yet imploded and the
                                             general reforms of CRARA were focused on problems identified in the post-Enron
                                             years. These reforms, when codified into rules in 2007 and 2008, did little to af-
                                             fect the dominance of the three largest NRSROs in the field of structured finance
                                             (where subprime risks were most highly concentrated).285 As a 2009 working paper
                                             from the International Monetary Fund (“IMF”) observed, “in the U.S., implemen-
                                             tation of the 2006 Rating Act lagged the current crisis.”286 CRARA also explicitly
                                             prohibited the SEC from regulating the substance of ratings and did not address
                                             the quality and timeliness of monitoring activities.287


                                             How the Federal Government Uses Ratings
                                             in Regulating the Financial Sector
                                             The U.S. Government institutions that regulate the financial sector are responsible
                                             for ensuring its soundness and safety. These regulators oversee certain institutions,
                                             such as deposit-taking banks, pension funds, and insurance companies, that have a
                                             fiduciary responsibility to their customers because, in many ways, peoples’ savings
                                             and future livelihoods are dependent on the stability of these entities. For certain
                                             types of institutions, these fiduciary restrictions clearly dictate that the institutions
                                             must invest a certain portion of their assets in relatively “risk-free” or AAA-rated
                                             securities.

                                             Illustrative Regulations
                                             Financial sector regulators that rely heavily on ratings include the SEC, the U.S.
                                             Commodity Futures Trading Commission (“CFTC”), Federal Deposit Insurance
                                             Corporation (“FDIC”), the Federal Reserve, the National Association of Insurance
                                             Commissioners (“NAIC”), the National Credit Union Association (“NCUA”),
                                             Office of the Comptroller of the Currency (“OCC”), Office of Thrift Supervision
                                             (“OTS”), Department of Housing and Urban Development (“HUD”), and the
                                             Federal Housing Financing Agency (“FHFA”). Since the introduction of NRSROs
                                             in 1975, the Federal Government and its regulatory institutions have issued a
                                             number of regulations that specify how credit ratings are to be used for regulatory
                                             purposes. Some examples of Federal regulatory references to credit ratings include
                                             those outlined in Table 3.4.
                                                                                            quarterly report to congress I october 21, 2009                      129


Table 3.4

 Key Regulations Involving NRSRO credit ratings                         (continued)

 Pertains To     Regulator             Rule                             Description
 Banks           Banking regulators:   Standardized Approach to         The proposed “standardized approach” permits banks to use NRSRO ratings to
                 Fed, OCC, FDIC, OTS   Risk-Based Capital               determine risk weights for a broad range of exposures, including sovereign risk,
                                                                        corporate exposures, and securitization exposures, including exposures related
                                                                        to MBS. Employed by all banking regulators.
 Banks           FDIC                  Code of Federal Regulations,     FDIC’s incorporation of risk-based capital regulations from standardized approach
                                       Title 12, Banks & Banking        states appropriate risk weightings for assets rated by NRSROs.
                                       § 325
 Banks           FDIC                  Code of Federal Regulations,     Establishes risk-based premiums payable by insured banks to FDIC, depending
                                       Title 12, Banks & Banking        on their level of capitalization. Relies on NRSROs to calculate risk-based capital
                                       § 346.19                         determination of “adequately capitalized” versus “well capitalized” as determinant
                                                                        for premium payment.
 Banks           Federal Reserve       “Regulation H” (Code of          Per the standardized approach — refers extensively to ratings, relying on the
                 Board                 Federal Regulations, Title 12,   NRSRO designation for risk-based capital calculations, and other securities-relat-
                                       Banks & Banking § 208)           ed regulations for member banks in the Federal Reserve System.
 Banks           Federal Reserve       “Regulation F” (Code of          Regarding prudential standards for limiting liability in inter-bank relationships — a
                 Board                 Federal Regulations, Title 12,   “bank rating agency” can be relied upon to assess the financial condition of a
                                       Banks & Banking §§ 206.3,        correspondent (whether or not the correspondent is adequately capitalized) or to
                                       206.5)                           select a correspondent.
 Banks           Federal Reserve       “Regulation Y” (Code of          Per the standardized approach — establishes risk-based capital calculations for
                 Board                 Federal Regulations, Title 12,   bank holding companies; refers extensively to ratings of NRSROs.
                                       Banks & Banking § 225)
 Banks           OCC                   Code of Federal Regulations,     Defines the term “investment grade” as being rated in one of the four highest rat-
                                       Title 12, Banks & Banking        ing categories by two or more NRSROs, or one NRSRO (if it has only been rated
                                       §§ 1.2, 1.5                      by one); establishes that “Investment Securities” must be investment grade to not
                                                                        be considered predominantly speculative. Requires banks to conduct proper due
                                                                        diligence on investment securities, if not rated by an NRSRO.
 Banks           OCC                   Code of Federal Regulations,     Establishes risk-based capital ratings for banks regulated by OCC, per the stan-
                                       Title 12, Banks & Banking        dardized approach. Relies extensively on NRSRO ratings for capital requirements.
                                       §3
 Banks (Credit   NCUA                  Code of Federal Regulations,     Federal credit unions. Relies on NRSROs in setting permissible investments.
 Unions)                               Title 12, Banks & Banking        Allows Federal Credit Unions to invest in certain securities (such as municipal
                                       § 703                            bonds, mortgage notes, European financial option contracts) provided the
                                                                        securities or counterparties have a high enough credit rating as determined by an
                                                                        NRSRO.
 Banks (Credit   NCUA                  Code of Federal Regulations,     Corporate credit unions. Relies on NRSROs in setting permissible investments for
 Unions)                               Title 12, Banks & Banking        purposes of measuring minimum capital. All investments, other than in corporate
                                       § 704.2, 704 App. A              credit unions or in products of Government-Sponsored Enterprises (GSEs), must
                                                                        have long-term ratings no lower than AA- or short-term ratings no lower than A-1
                                                                        (or equivalent). Additionally sets requirements for corporate credit unions to make
                                                                        additional investments such as derivatives and lower-rated securities.
 Banks           FDIC                  Code of Federal Regulations,     Whenever a foreign bank has an FDIC-insured U.S. branch, it must pledge assets
 (Foreign)                             Title 12, Banks & Banking        to FDIC or its designee to protect the Deposit Insurance Fund in the event that
                                       § 347                            FDIC is called on to pay for insured deposits of the branch. Ratings by NRSROs
                                                                        are relied upon in determining what types of assets may be pledged by the bank.
 Banks           OTS                   Code of Federal Regulations,     Establishes risk-based capital ratings for banks regulated by OCC, per the stan-
 (Thrifts)                             Title 12, Banks & Banking        dardized approach. Relies extensively on NRSRO ratings for capital requirements.
                                       § 567
 Broker-         SEC                   Rule 15c3-1 (Net Capital         Under the Net Capital Rule, which requires broker-dealers to deduct from their
 Dealers                               Rule) under the Securities       net worth certain percentages of the market value of their proprietary securities
                                       Exchange Act of 1934             positions in calculating their net capital, broker-dealers may apply smaller deduc-
                                       (“Exchange Act”)                 tions, or “haircuts,” against the market value of commercial paper rated in one
                                                                        of the three highest rating categories by at least two NRSROs and to nonconvert-
                                                                        ible debt securities and preferred stock rated in one of the four highest rating
                                                                        categories by at least two NRSROs. (Commission has proposed removing the
                                                                        references to NRSRO ratings.)
                                                                                                                                       Continued on next page.
130             special inspector general I troubled asset relief program




      Key Regulations Involving NRSRO credit ratings                       (continued)

      Pertains To     Regulator             Rule                            Description
      Broker-         SEC                   Rule 10b-10 under the           Requires broker-dealers providing transaction confirmations to inform customers
      Dealers                               Exchange Act                    if a non-Government debt security is unrated by an NRSRO, if applicable. (Com-
                                                                            mission has proposed rescinding requirement.)
      Broker-         SEC                   Form X-17A-5 Part IIB,          A financial and operational report that must be completed by all broker-dealers
      Dealers                               under section 17 of the         that are registered with the SEC. Allows OTC derivatives dealers to employ
                                            Exchange Act                    NRSRO ratings to calculate credit risk weights of counterparties. (Commission
                                                                            has proposed removing references to NRSROs as well as the related substantive
                                                                            provisions of Net Capital Rule.)
      Corporate       SEC                   Rule 3a1-1 under the            Distinguishes between investment-grade corporate debt and non-investment-
      Debt                                  Exchange Act                    grade corporate debt based on NRSRO rating. (Commission has removed refer-
                                                                            ences to NRSROs in this rule as of 10/9/2009.)
      Corporate       SEC                   Regulation ATS under the        Establishes different trading system access and compliance requirements for
      Debt                                  Exchange Act                    investment-grade and non-investment-grade corporate debt securities. (Commis-
                                                                            sion has removed references to NRSROs in this rule as of 10/9/2009.)
      Corporate       SEC                   Form ATS-R and Form Pilot       Registration forms delineating reporting requirements for investment-grade and
      Debt                                  under the Exchange Act          non-investment-grade corporate debt securities. (Commission has removed refer-
                                                                            ences to NRSROs in this rule as of 10/9/2009.)
      Debt Issuers    SEC                   Form S-3, under Securities      Issuers of certain debt securities that receive an investment-grade rating (typi-
                                            Act of 1933 (the “Securities    cally, within an NRSRO’s top four rating categories) from an NRSRO are entitled
                                            Act”)                           to a streamlined registration process (short-form registration) under Form S-3.
                                                                            (Commission has proposed new guidelines for eligibility, not based on NRSRO
                                                                            ratings.)
      Debt Issuers    SEC                   Form F-3, under the             A form used by foreign private issuers to register offerings of securities with the
                                            Securities Act                  SEC. To be considered “investment grade,” primary offerings of non-convertible
                                                                            securities must be rated investment grade (typically, within an NRSRO’s top four
                                                                            rating categories) by at least one NRSRO. (Commission has proposed new guide-
                                                                            lines for eligibility, not based on NRSRO ratings.)
      Debt Issuers    SEC                   Rule 415, under the             Allows “mortgage-related securities” (rated in one of the two highest rating cat-
                                            Securities Act                  egories by at least one NRSRO), to be eligible for shelf registration. (Commission
                                                                            has proposed new guidelines for eligibility, not based on NRSRO ratings.)
      Debt Issuers    SEC                   Rule 3a-7 under the Invest-     Requires that structured financings offered to the general public are rated by at
                                            ment Company Act of 1940        least one NRSRO in one of the four highest ratings categories. (Commission has
                                            (the “1940 Act”)                proposed removal of references to NRSRO ratings.)
      Debt Issuers    SEC                   Regulation FD - (Code of        Exempts issuers from public disclosure requirements for material non-public
                                            Federal Regulations, Title      information provided to rating agencies (provided the rating agency’s ratings are
                                            17, Commodity & Security        publicly available).
                                            Exchanges § 243.100)
      Debt Issuers    SEC                   Rule 134 under the              Permits issuers to disclose certain ratings from NRSROs in “tombstone” adver-
                                            Securities Act                  tisements and other non-prospectus information. (Commission has proposed
                                                                            amending rule to include all credit ratings agencies rather than only NRSROs.)
      Debt Issuers    SEC                   Rule 436(g) under the           Issuers with credit rating from an NRSRO do not need to submit rating agency
                                            Securities Act                  consent form along with issue registration. Exempts NRSROs from expert liability
                                                                            under section 11 of the Securities Act. (Commission has solicited comment on
                                                                            whether rule should be rescinded.)
      Housing         FHFA                  Code of Federal Regulations,    Establishes risk-based capital requirements for the GSEs, relying extensively
      Finance                               Title 12, Banks & Banking       on credit ratings from NRSROs in “stress tests” used for calculating risk-based
                                            § 1750                          capital requirements.
      Housing         FHFA                  Code of Federal Regulations,    Establishes risk-based capital requirements for Federal Homeloan Banks, relying
      Finance                               Title 12, Banks & Banking       extensively on credit ratings from NRSROs for determination of investment-grade
                                            §§ 930, 932                     rating and capital requirements related to securities and off-balance-sheet items.
      Housing         FHFA                  Code of Federal Regulations,    Sets asset-quality requirements for participation in the Acquired Member Asset
      Finance                               Title 12, Banks & Banking       (“AMA”) program, which gives mortgage lenders an alternative to selling mort-
                                            § 955                           gages in the secondary market. Uses NRSRO designations in determining credit-
                                                                            risk-sharing structure and risk-based capital requirements for acquired assets.
                                                                                                                                         Continued on next page.
                                                                               quarterly report to congress I october 21, 2009                      131



Key Regulations Involving NRSRO credit ratings             (continued)

Pertains To    Regulator   Rule                            Description
Housing        FHFA        Code of Federal Regulations,    Sets permissible investment list for Federal Homeloan Banks, prohibiting them
Finance                    Title 12, Banks & Banking       from investing in debt instruments that are not investment-grade, as determined
                           § 956                           by NRSROs (with certain exceptions). Establishes risk-based capital requirements
                                                           for investments (based on NRSRO ratings).
Housing        FHFA        Code of Federal Regulations,    Requires the Federal Homeloan Banks to acquire, and at all times maintain, the
Finance                    Title 12, Banks & Banking       highest rating from an NRSRO rating on their consolidated obligations. Further
                           § 966                           requires each individual bank to maintain at least the second-highest rating from
                                                           an NRSRO.
Housing        HUD         Code of Federal Regulations,    To participate in a Federal Housing Administration (“FHA”) risk-sharing program
Finance                    Title 24, Housing and Urban     for insured, affordable multifamily project loans, a potential housing finance
                           Development § 266.100           agency must be rated “top-tier” by an NRSRO, and must maintain an overall A
                                                           rating for its bonds.
Insurance      NAIC        The FE Rule                     Securities rated and monitored by one or more NRSRO are automatically as-
                                                           signed an equivalent Securities Valuation Office (“SVO”) rating, rather than requir-
                                                           ing the SVO to conduct its own valuation.
Insurance      NAIC        Purposes & Procedures           Establishes guidelines enabling an NRSRO to be considered an Acceptable Rating
                           Manual                          Organization (“ARO”) for NAIC regulatory purposes.
Insurance      NAIC        Policy Statement on Financial   Identifies laws and regulations that must be adopted by state insurance regula-
                           Regulation Standards            tors, specifying the use of NAIC designations (which are interchangeable with
                           (“SFRS”)                        those of NRSROs).
Insurance      NAIC        Authorized Control Level Risk   Establishes levels of regulatory intervention linked to defined risk-based capital
                           Based Capital Rule              (“RBC”) ratios of the assets of insurers. NAIC ratings (interchangeable with
                                                           NRSROs) are used to set the reserve factor that an insurer must use to calculate
                                                           the appropriate RBC charges a purchased asset should make against an insurer’s
                                                           total RBC.
Insurance      NAIC        Asset Valuation and Interest    Certain insurance companies must reserve against potential credit-related and
                           Maintenance Reserve (“AVR”)     interest-related investment losses on all invested asset categories. AVR and IMR
                           and Interest Maintenance        rely on the extent to which a debt security or MBS asset is upgraded/down-
                           Reserve (“IMR”)                 graded during the holding period — with losses being attributable to credit (more
                                                           than one change in NAIC ratings classification — interchangeable with NRSROs),
                                                           or interest (one or no change in rating category).
Insurance      NAIC        Investment Law — The            Uses NAIC designations (interchangeable with NRSRO ratings) to set percentage
                           Medium Grade and Lower          limitations by credit quality — sets a maximum investment of 20% in medium-
                           Grade Obligations Model         grade securities designated NAIC 3, 4, 5, 6.
                           Regulation
Insurance      NAIC        Investment Law —- The           Classifies investments in categories with percentage limitations for each. Criteria
                           Investment of Insurer’s Model   include a general diversification percentage and also a credit quality percentage,
                           Act Defined Limits Version      many of which rely on NAIC designations (interchangeable with NRSRO ratings).
Insurance      NAIC        Investment Law — Invest-        Requires an insurer to establish a minimum financial security benchmark, after
                           ment of Insurer’s Model Act     which it may invest in any lawful investments. Limits the percentage of admitted
                           Defined Standards Version       assets that can be invested by reference to their NAIC designation (interchange-
                                                           able with NRSRO ratings).
Insurance      NAIC        Valuation of Securities —       NAIC’s accounting rules establish valuation guidance, driven by NAIC designations
                           Statement of Statutory Ac-      (interchangeable with NRSRO ratings) assigned to particular securities.
                           counting Principle (“SSAP”)
Investment     SEC         Rule 206(3)-3T under the        Provides a temporary means for investment advisors that are also registered
Advisors                   Investment Advisers Act of      broker-dealers to satisfy notice and consent requirements. Certain exclusions are
                           1940                            based on NRSRO ratings. (Commission has proposed removal of references to
                                                           NRSRO ratings.)
Money          SEC         Rule 2a-7 under the 1940        Uses NRSRO credit ratings to determine permissible investments for MMFs (e.g.,
Market                     Act                             portfolio investments limited to securities that have received credit ratings from
Mutual Funds                                               at least one NRSRO in one of the two highest short-term rating categories or, if
(MMF)                                                      unrated, are of comparable quality). (Commission has proposed amending rule to
                                                           remove references to NRSRO ratings.)
                                                                                                                          Continued on next page.
132              special inspector general I troubled asset relief program




      Key Regulations Involving NRSRO credit ratings                                            (continued)

      Pertains To         Regulator                     Rule                                    Description
      NRSRO               SEC                           Rule 17g-1 under the                    Prescribes how an NRSRO must apply to be registered with the Commission and
                                                        Exchange Act                            keep its registration up-to-date, including mandating disclosure regarding ratings
                                                                                                performance statistics, methodologies to determine and monitor credit ratings,
                                                                                                organizational structure, code of ethics, policies for preventing misuse of material
                                                                                                non-public information, and the firm’s conflicts of interest as well as its policies
                                                                                                for managing conflicts of interest.
      NRSRO               SEC                           Rule 17g-2 under the                    Requires an NRSRO to maintain certain financial and other records, document
                                                        Exchange Act                            methodologies, and track communications with regard to a firm’s rating.
      NRSRO               SEC                           Rule 17g-3 under the                    Requires an NRSRO to provide the SEC with audited financial statements and a
                                                        Exchange Act                            variety of unaudited reports.
      NRSRO               SEC                           Rule 17g-4 under the                    Requires an NRSRO to have procedures in place regarding material non-public
                                                        Exchange Act                            information that it has received during the ratings process.
      NRSRO               SEC                           Rule 17g-5 under the                    Prohibits an NRSRO from having any of a number of different types of conflicts.
                                                        Exchange Act                            Also, requires an NRSRO to disclose and manage other conflicts of interest.
      NRSRO               SEC                           Rule 17g-6 under the                    Prohibits an NRSRO from certain unfair, coercive, or abusive practices.
                                                        Exchange Act
      Repurchase          SEC                           Rule 5b-3 under the 1940                Allows a fund to treat the acquisition of a repurchase agreement as the acquisi-
      Agreements                                        Act                                     tion of the securities collateralizing the repurchase agreement, based in part
                                                                                                on the NRSRO rating of the securities. (Commission has removed references to
                                                                                                NRSROs in this rule as of 10/9/2009.)
      Repurchase          SEC                           Rule 5b-3 under the 1940                Requires the approval of an independent CPA for certain treatment on a refunded
      Agreements                                        Act                                     bond, unless the bond has the highest rating by an NRSRO. (Commission has
                                                                                                removed references to NRSROs in this rule as of 10/9/2009.)
      Securities          CFTC                          Code of Federal Regulations,            Requires foreign FCMs that accept money, securities or property from U.S.
      (Derivatives /                                    Title 17, Commodity &                   customers to maintain, in a separate depository account, sufficient assets to
      Futures)                                          Security Exchanges § 30.7               cover current obligations to those customers. If depository is outside the United
                                                                                                States and below a certain size, it may require a commercial paper rating of the
                                                                                                two highest tiers from an NRSRO.
      Securities          CFTC                          Rule 4d(a) 2 under the Com-             Establishes permissible investments for derivatives clearing organizations and
      (Derivatives /                                    modity Exchange Act (Code               future commission merchants (“FCMs”) holding customer segregated funds, in
      Futures)                                          of Federal Regulations, Title           order to minimize exposure to credit, liquidity, and market risks. Relies on NRSRO
                                                        17, Commodity & Security                ratings to determine allowable commercial paper, debt, and CD investments.
                                                        Exchanges § 1.25)
      Securities          SEC                           Rule 10f-3 under the 1940               Permits funds to purchase municipal securities that have received a certain
      (Municipal)                                       Act                                     NRSRO rating. (Commission has removed references to NRSROs in this rule as of
                                                                                                10/9/2009.)
      Securities          SEC                           Rule 101(c)(2), Rule 102(d)             Exempts from rule certain securities that are rated by an NRSRO in one of its
      (Non-                                             (2) of Regulation M under the           categories signifying investment grade. (Commission has proposed removing the
      convertible                                       Exchange Act                            references to NRSRO ratings.)
      securities
      (debt &
      preferred),
      ABS)

      Sources: SEC, Rules and Regulations for the Securities and Exchange Commission and Major Securities Laws, http://www.sec.gov/about/laws/secrulesregs.htm, accessed 10/5/2009; SEC, response to
      SIGTARP draft report, 10/14/2009; Electronic Code of Federal Regulations, http://ecfr.gpoaccess.gov/cgi/t/text/text-idx?c=ecfr&tpl=%2Findex.tpl, accessed 10/5/2009; NAIC, “Staff Report: NAIC Use
      of NRSRO Ratings in Regulation,” 3/10/2009, http://www.naic.org/documents/committees_e_rating_agency_comdoc_naic_staff_report_use_of_ratings.doc, accessed 10/5/2009.
                                                                             quarterly report to congress I october 21, 2009                           133




                                                                                         Table 3.5

                                                                                          Comparison of Risk-Weighting
                                                                                          Factors, across different
                                                                                          Ratings ($100 bond)
                                                                                                     Long-Term Risk Weightings

Regulatory Capital                                                                        Long-Term Rating
                                                                                          Category                                  Risk Weight
SIGTARP’s April Quarterly Report discussed the concept of regulatory capital and
                                                                                          AAA, AA                                              20%
the effects that a bank’s financial situation can have on meeting its regulatory capi-
                                                                                          A                                                    50%
tal requirements. Banking regulators are concerned about safety and soundness,
                                                                                          BBB                                                100%
and one of the prime metrics they use to determine safety and soundness is the
                                                                                          BB (and lower)                                     200%
level of a bank’s net regulatory capital — a calculation that relies heavily on credit
                                                                                                     Short-Term Risk Weightings
ratings. To calculate a net capital number, regulators divide a bank’s core capital
                                                                                          Short-Term
(such as stock or retained earnings) by the value of its risk-weighted assets. Credit     Rating Category                           Risk Weight
ratings provided by the rating agencies are frequently relied on by market partici-       A-1, P-1                                             20%
pants to determine the risk weightings and the values of the assets.
                                                                                          A-2, P-2                                             50%
    Regulators require banks to hold capital equal to 4 – 6% of their risk-weighted
                                                                                          A-3, P-3                                           100%
assets.288 FDIC uses risk weightings in the denominator of the formula that calcu-
lates the amount of regulatory capital a bank must hold to be considered adequate-        Source: Bank Holding Company Act of 1956, P.L. 511:
                                                                                          Appendix A — Capital Adequacy Guidelines for Bank Holding
ly (4%) or well (6%) capitalized. Risk-weighted assets are calculated as the value of     Companies: Risk-Based Measure, http://www.fdic.gov/regula-
                                                                                          tions/laws/rules/6000-1900.html, accessed 10/7/2009.
assets held by the bank, multiplied by the relevant risk weighting factor, as deter-
mined by the credit rating of the asset. In the numerator is the bank’s net capital.
So, the formula (Net Capital / Risk-Weighted Assets) must equal 6% if the bank is
                                                                                               Net Regulatory Capital: A regulatory
to be considered well-capitalized. In short, the higher the risk category, the more
                                                                                               metric that requires a bank to take
capital a bank must hold for the formula to produce the 6% requirement. Table
                                                                                               into consideration the relative riskiness
3.5 captures FDIC’s risk weightings of assets by credit rating category. In short, the
                                                                                               of its assets. Calculated as common
lower the credit rating of its assets, the more the bank must reserve (removing more
                                                                                               equity minus intangibles.
funds from active use). Thus, downgrades of securities by rating agencies have a
real effect on banks — forcing them into urgent action to either raise capital or              Core Capital: Also known as T1, refers
shed the downgraded assets from their balance sheets.                                          to the common stock, perpetual non-
    These requirements also have implications for a bank’s profitability — the high-           cumulative preferred stock, paid-in
er the capital reserve required to meet regulatory standards, the lower the return             capital, and retained earnings of a
on equity (“ROE”) for a fixed income investment. The bank must set aside capital               bank.
that it would otherwise have free for making other investments or lending money to
its customers — underscoring the clear link between the actions of rating agencies             Risk-Weighted Assets: The amount of
and the financial institutions’ profitability and ability to lend.                             a bank’s total assets after applying an
                                                                                               appropriate risk factor to each asset.
    When conducting a review of the soundness of a bank, the regulators typically
check to make sure the regulatory capital calculations are done correctly. They do
                                                                                               Return on Equity (“ROE”): A measure-
not, however, review the accuracy of the credit ratings, relying instead on the rating
                                                                                               ment of how much profit a company
agencies.
                                                                                               generates with the money shareholders
                                                                                               have invested. Calculated showing net
                                                                                               income as a percentage of sharehold-
                                                                                               ers’ equity. If a bank must hold capital
                                                                                               (equity) aside for regulatory purposes,
                                                                                               it can make fewer investments, with
                                                                                               implications for ROE.
134             special inspector general I troubled asset relief program




                                                      Table 3.6
                                                      Example: Impact of Downgraded Asset on Capital RequirementS
                                                      ($ millions)

                                                                                                                         Before                                              After
                                                                                                                      Downgrade                                         Downgrade
                                                      Rating                                                                      Aaa                                                B3
                                                      Face Value of Holding                                                  $100.0                                           $100.0
                                                      Risk Weighting                                                             20%                                               200%
                                                      Risk-Weighted Assets                                                     $20.0                                          $200.0
                                                      Net Capital Required                                                      $1.2                                               $12.0
                                                      Capital Raise Needed to Stay at 6%
                                                      Risk-Weighted Capital                                                        —                                               $10.8
                                                      Sources: FDIC, Part 325 — Capital Maintenance, Appendix A: Statement of Policy on Risk-Based Capital, http://www.fdic.gov/
                                                      regulations/laws/rules/2000-4600/html#fdic2000appendixatopart325, accessed 10/5/2009.




                                                       Example: Rating Downgrade and the Effect on a Bank’s
                                                       Balance Sheet
                                                       In 2007, the rating agencies began to downgrade rapidly a large number of se-
                                                       curities whose collateral was underperforming — especially ABS and CDOs.
      Fallen Angel: In finance, can refer to a
                                                       Subsequently, the rating agencies downgraded approximately $1.9 trillion in
      bond which held an investment-grade
      rating when issued, but has subse-               RMBS,289 with certain “fallen angels” being downgraded from AAA to junk over a
      quently fallen to a much lower rating,           short period, or even, in some cases, a single action. These downgrades had mate-
      or a once-popular investment that has            rial effects on the viability of certain banks because of Federal capital requirement
      fallen out of favor with investors and           regulations. Table 3.6 illustrates how a downgraded RMBS might impact a bank’s
      declined in value.                               ability to meet its capital requirements.
                                                           The example in Table 3.6 shows a bank that had $100 million invested in a
                                                       top-rated RMBS, such as the Impac Secured Assets Corp. Mortgage Pass-through
                                                       Certificates, Series IMSA 2005-2 A1 (“Impac RMBS”), which had a Aaa rating
                                                       from Moody’s as of March 12, 2008.290 Because of the securities’ Aaa rating, the
                                                       bank’s investment in Impac RMBS was classified in FDIC’s 20% risk category,
                                                       meaning that the bank must multiply its $100 million holding by 0.2 and further
                                                       multiply that product by 0.06 (the desired capitalization level) to determine the
                                                       amount of capital the bank must hold to satisfy regulatory requirements and be
                                                       considered “well capitalized.” Thus, pursuant to the FDIC formula, to be consid-
                                                       ered well capitalized (net capital at 6% of risk-weighted assets), the bank must set
                                                       aside $1.2 million net capital against that $100 million investment.
                                                           By February 20, 2009, Moody’s had cut the rating of the Impac RMBS to B3
                                                       (15 notches) — moving it from prime to junk in less than a year. Consequently, the
                                                       asset would be moved to the 200% risk category on the FDIC scale, and the bank
                                                       would be required to reserve $12 million (or 10 times more than initially required
                                                                             quarterly report to congress I october 21, 2009       135




when the security was rated Aaa approximately one year before). This meant that
the bank would have to raise an additional $10.8 million in capital if it wanted to
continue holding the security.
   In order to increase regulatory capital from $1.2 million to $12 million, the
bank would have to make some hard choices about how to raise that additional
money. The bank’s options include:

•	 Sell the RMBS (most likely at a loss because of the downgrade and the changed
   expectations for yield in the now-riskier securities) and acquire higher-quality,
   investment-grade assets of the same nominal amount. This would result in a
   reduction of cash or another asset due to the likely loss in value of the RMBS
   portfolio.
•	 Retain the RMBS, but raise regulatory capital through issuing new equity, in the
   process diluting the value of existing shareholders’ holdings (and likely driving
   down the bank’s stock price).
•	 Retain the RMBS, but raise cash by calling in $10.8 million of loans, reducing
   shareholders’ equity and profitability in the process, and harming its customers.

    In the current crisis, institutions responded to the widespread downgrades using
various combinations of these options, which led to an overall reduction in lending,
the crashing of prices in the MBS markets, and the large equity-raising efforts that
occurred earlier this year.


Role of Rating Agencies in the
                                                                                              Leverage: The ratio of a company’s
Financial Crisis                                                                              debt to its equity.
Any assessment of the role of rating agencies in the creation or exacerbation of the
financial crisis necessarily depends on an understanding of what factors caused the
crisis. A Government Accountability Office (“GAO”) study in July 2009, entitled
“Financial Crisis Highlights Need to Improve Oversight of Leverage at Financial
Institutions and Across System,” places a large part of the blame on rising levels
of leverage.291 Leverage enables a small amount of capital to control a much larger
investment. This leverage was facilitated by the dramatic increase in availability
of innovative financial products such as CDOs and MBS that allowed banks and
institutions to remove loans and other assets from their balance sheets and issue
new loans. The structured finance market grew dramatically over the years imme-
diately preceding the crisis, corresponding with a similar growth in revenues among
the dominant rating agencies. Later, it was discovered that a great portion of the
products given high ratings by the rating agencies were not deserving of those high
ratings, calling into question the credibility of the rating agencies’ work. Through
136   special inspector general I troubled asset relief program




                                             a series of hearings in Congress, reports by the Federal Reserve, and studies by the
                                             SEC, it is clear that Federal regulators and overseers are focusing on the following
                                             ways in which the rating agencies contributed to the financial crisis:

                                             •	 Conflicts of Interest. Credit ratings have been portrayed as effectively being
                                                marketing devices for a company’s securities (AAA being the brand that sells the
                                                best), and that the rating agencies are paid by the promoters of the securities
                                                being sold. This contributed to issuers shopping among the credit rating agen-
                                                cies to determine which agency would offer the better ratings. In Congressional
                                                testimony, a former executive at Moody’s stated “a large part of the blame can
                                                be placed on the inherent conflicts of interest found in the issuer-pay busi-
                                                ness model and on rating shopping by issuers of structured securities. A drive
                                                to maintain or expand market share made the rating agencies willing partici-
                                                pants in this shopping spree.”292 There has been anecdotal evidence that in the
                                                lead-up to the crisis, these conflicts of interest yielded highly suspect ratings as
                                                ratings shopping fed into a phenomenon referred to in the same testimony as a
                                                “race to the bottom.” The Moody’s executive stated that “originators of struc-
                                                tured securities typically chose the agency with the lowest standards, engender-
                                                ing a race to the bottom in terms of rating quality.”293 An SEC study produced
                                                internal communications between two analysts at an NRSRO in which one
                                                analyst expressed concern that the firm’s “model did not capture ‘half’ of the
                                                deal’s risk, but that ‘it could be structured by cows and we would rate it.’”294
                                             •	 Failure to Assess Subprime Risk Accurately. The financial crisis first reached
                                                critical proportion in the subprime mortgage markets, where ratings at times ap-
                                                peared to be lagging, not leading, the changes in valuation. Ratings of a corpo-
                                                rate bond rely heavily on analysts’ experience and judgment, whereas ratings for
                                                MBS rely almost exclusively on financial models.295 If those models are flawed,
                                                it renders the ratings unreliable. A primary flaw was that these models relied
                                                on historical data (typically, 1992–2000) of mortgage default and foreclosure
                                                frequency rates, whereas loans made during 2001–2007 were very different
                                                and often much riskier. In Congressional testimony, the head of a small rating
                                                agency pointed to a second flaw in the models used by credit rating agencies
                                                in predicting housing markets — “the assumption was that the housing prices
                                                would increase. In fact, they embedded an acronym — the house apprecia-
                                                tion rate,”296 sometimes also called the Home Price Appreciation (“HPA”). In
                                                Congressional testimony, a subprime fund manager commented that “at least
                                                one of the NRSROs was using HPA assumptions of +6% to +8% for 2006,
                                                2007, and 2008 in their models for securitizations underwritten in 2006 and
                                                the first quarter of 2007.”297 Obviously, this assumption that housing prices
                                                would only go up has been proven to be inaccurate. Another shortcoming in the
                                                                               quarterly report to congress I october 21, 2009   137




   models was that the rating agencies did not factor in the risk associated with the
   mortgage originators and their questionable practices on the overall risk of the
   underlying mortgage pool.298
•	 Overlooked Concentration of Risk in CDO Market. Rating agencies have
   been faulted for not correctly incorporating in their ratings the imbalances
   in the CDO market, and the concentrations of risk that were developing. A
   December 2006 email communication from an S&P analyst stated, as disclosed
   in a Congressional hearing, that “rating agencies continue to create an even big-
   ger monster, the CDO market. Let’s hope we are all wealthy and retired by the
   time this house of cards falters.”299
•	 Poor Market Surveillance Contributed to Market Instability and Volatility.
   A downgrade to the rating of a particular security or institution can have enor-
   mous ripple effects throughout the economy, acting as a transmission mecha-
   nism for financial stresses. It has been observed that ratings often lagged the
   broader capital markets, which could be attributable to underinvestment and
   poor protocols in the area of surveillance. In its study, the SEC observed that
   “the surveillance processes used by the rating agencies appear to have been less
   robust than the processes used for initial ratings.”300 In the case of the struc-
   tured finance securities, when downgrades happened they often came in a flood.
   As mentioned previously, approximately $1.9 trillion of securities lost their AAA
   status between mid-2007 and mid-2008 — with some being downgraded to
   junk in one action.301 For CDOs rated by Moody’s, the average downgrade was
   roughly seven notches (for example, Aaa to Baa1) as compared to a previous
   average of three to four notches prior to 2007.302
•	 Government-Endorsed Oligopoly. There is a perception that the NRSRO des-
   ignation that helped established the prominence of the three large rating agen-
   cies in the 1970s continues to help them build an effective oligopoly, fueled by
   the Government’s reliance on NRSRO ratings through regulation, as described
   above. Similarly, the Connecticut Attorney General is investigating the require-
   ments that the TALF program be limited to securities with AAA ratings from one
   of a subset of NRSROs. The Attorney General noted that the rating agencies
   stood to receive revenues of approximately $400 million from TALF transac-
   tions, despite being involved in the faulty ratings of the securities in the past. He
   likens the decision to “steering them cash to rebuild what they destroyed.”303

TARP Reliance on Credit Ratings
The ratings issued by credit rating agencies, whether corporate or securities, impact
a number of TARP programs, the TARP recipients, and ultimately the U.S. taxpay-
ers. In particular, the following TARP-related programs have explicit provisions that
rely on ratings issued by NRSROs:
138           special inspector general I troubled asset relief program




                                                     •	 Term Asset-Backed Securities Loan Facility (“TALF”): Rating agencies play
                                                        an integral role in TALF. TALF’s risk mitigation mechanism requires that the
                                                        collateral pledged for TALF loans must achieve ratings of the highest long-term
                                                        investment-grade rating category (i.e., AAA) from two or more of the TALF-
                                                        eligible NRSROs. Additionally, the collateral must have the highest rating from
                                                        any TALF-eligible NRSRO and cannot be on review or on watch for downgrade
                                                        by any of the approved NRSROs. The requirement that TALF can only involve
                                                        AAA-rated securities has had a significant effect on the CMBS market, poten-
                                                        tially enhancing the AAA market at the expense of others. For more detail on the
                                                        structure of TALF, see Section 2: “TARP Overview” in this report.
                                                     •	 Capital Assistance Program (“CAP”): In the Supervisory Capital Assessment
                                                        Program (“SCAP”) stress test, credit ratings were among the factors consid-
                                                        ered in setting capital values. Lower credit ratings for the securities held in an
                                                        institution’s investment portfolio meant that the institution would be required to
                                                        raise more capital.
                                                     •	 Public-Private Investment Program (“PPIP”): Assets eligible for inclusion
                                                        in PPIP investments must have originally received a AAA rating (or equivalent)
      Non-Agency RMBS: RMBS that are                    from two or more NRSROs. Eligible assets are CMBS and non-agency RMBS
      not guaranteed by a Government-                   issued prior to January 1, 2009, that were originally rated AAA or an equivalent
      Sponsored Enterprise (“GSE”) such                 rating by two or more NRSROs without external credit enhancement and that
      as Fannie Mae, Freddie Mac, or the
                                                        are secured directly by the actual mortgage loans, leases, or other assets and not
      Federal Home Loan Banks.
                                                        other securities.304

                                                     Credit Ratings Influence on TARP Recipients
                                                     Beyond the TARP programs that explicitly rely on credit ratings from the NRSROs,
                                                     a number of TARP programs were designed to address the needs of financial
                                                     institutions that were directly and indirectly affected by ratings and ratings actions.
                                                     These include:

                                                     •	 Capital Purchase Program (“CPP”): Ratings downgrades affected many of
                                                        the financial institutions that ultimately sought Government assistance through
                                                        CPP. Ratings downgrades on banks’ portfolios of securities forced them to hold
                                                        more regulatory capital, which most banks had difficulty raising privately, espe-
                                                        cially at the height of the financial crisis.
                                                     •	 Systemically Significant Failing Institutions (“SSFI”): AIG’s credit rating
                                                        decline was instrumental in its need for a taxpayer-funded rescue, as discussed
                                                        below in the AIG case study.

                                                     Example: The Downfall of AIG
                                                     Prior to the crisis, AIG had a solid reputation, reliable earnings, and was generally
                                                     perceived to be one of the stronger companies in the United States. Prior to March
                                                                              quarterly report to congress I october 21, 2009            139




2005, AIG had a AAA rating and was considered likely to honor its obligations and
contracts. Through its insurance policies, it was able to extend its good credit rating
to products that were unable to achieve an investment-grade rating on their own.
Since the 1990s, AIG had become a central figure in the fixed-income securities
market, underwriting the risk on a number of structured finance products, includ-
ing volatile RMBS.
                                                                                            For more information on the securitization
    As discussed in previous SIGTARP quarterly reports, RMBS and CMBS are
                                                                                            process, see SIGTARP’s April Quarterly
financial instruments backed by mortgage loans (residential and commercial,                 Report, page 92.
respectively). The underlying loans, in turn, had been issued by mortgage lenders
and banks. Most of these loans had been sold to Freddie Mac and Fannie Mae
or Wall Street investment banks that would package them into bundles of loans
sharing similar characteristics, turning them into a mortgage-backed security. This
process, called securitization, would allow the mortgage lenders and banks to sell
these loans, removing them from their balance sheet and use the cash from the
sales to issue new loans. The MBS would then be sold to investors (other banks,
pension funds, insurance funds) that were interested in the particular streams of
income the products offered. A considerable challenge to this process was that
many of these investors had a low risk tolerance and sought AAA-rated or compa-
rable investment-grade securities. AIG, along with other Wall Street firms, devel-
oped a structuring approach that appeared to meet the desires of these prospective
investors for high yields with low risks. The product AIG sold for this purpose,
called a credit default swap (“CDS”), was essentially an insurance-like contract that
provided protection to third-party investors against losses from the securities.
    AIG Financial Products Corp. (“AIGFP”), a subsidiary of AIG, sold the CDSs
to investors who were buying the MBS, firms issuing the MBS, and unrelated
investors. The MBS were often further bundled into CDOs. The underlying assets
upon which AIGFP’s CDS contracts were written were generally CDOs. The firm
purchasing the CDS (the “counterparty”) would pay AIG regular insurance premi-
ums; if the security upon which the CDS contract was written, generally a CDO,
should default, AIG would be obligated to make a payout to the counterparty. Due
to its corporate AAA rating, AIG was able to enter into these insurance contracts
without posting any collateral, a benefit that was not available to lower-rated firms.
Included in these contracts was a provision that, should AIG’s credit rating be
downgraded, AIG would be required to post collateral to ensure payment on these
contracts. As of June 2008, AIG was counterparty to more than $400 billion of
CDS, the majority of which it sold to banking institutions that used the instru-
ments to manage their regulatory capital requirements.305
    As reported in Congressional testimony, by 2005, the majority of CDS contracts
issued by AIG were based on underlying securities, such as CDOs that were, in
turn, backed by ABS, some of which were collateralized by subprime loans.306 In
early 2005, some credit rating agencies began to question certain transactions and
140               special inspector general I troubled asset relief program




      Figure 3.1

      AIG SHARE PRICE AND S&P RATINGS                                                                                                        AIG REPORTED COLLATERAL POSTINGS
      $ per share                                                                                                                                                 (12/1/2007 − 11/1/2009) $ Billions

                                        2005                                         2006                                         2007                                     2008
      $1500a                                                                                                                                                                                    $40

                                                                                                                                                                                                 35
       1200
                                                                                                                                                                                                 30
        900                                                                                                                                                                                      25

        600                                                                                                                                                                                      20

                                                                                                                                                                                                 15
        300
                                                                                                                                                                                                 10
            AAA            AA+     AA                                                                                                                                AA-           A-
           0                                                                                                                                                                                      5
                JUNE 26 1990                                                                            NOVEMBER 10 2006             FEBRUARY 12 2008
                  OCTOBER 29 2004                                                                                                                 MAY 8 2008
                         MARCH 15 2005                                                                                                            MAY 21 2008
                              MARCH 30 2005                                                                                                                    SEPTEMBER 12 2008
                                      JUNE 3 2005                                                                                                              SEPTEMBER 15 2008

         Downgrade                           Share Price
         Stable Outlook                      Collateral Postings
         Negative Outlook
         Watch Negative

      Notes: Numbers affected by rounding. Collateral postings are presented above on the date provided in AIG’s SEC filings rather than on the filing date.
      a
        AIG conducted a reverse stock split of 1 for 20 on 6/30/2009.

      Sources: Reported Collateral: AIG, 10K and 10 Q filings, http://www.aigcorporate.com/investors/sec_filings.html, accessed 10/5/2009. Share Price and Ratings Information: S&P,
      “Testimony of Rodney Clark Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC Before the Subcommittee on Capital Markets, Insurance, and Government-
      Sponsored Enterprises United States House of Representatives,” 3/18/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/rodney031809.pdf, accessed 9/28/2009;
      share price data from Google Finance.




                                                                           AIG’s creditworthiness in general. Although AIG still had a AAA rating, the firm
                                                                           was now closer to losing its AAA status.
                                                                                In addition, if the value of the securities that AIG was insuring fell, AIG was
                                                                           contractually obligated to produce quickly the collateral to its counterparty to make
                                                                           up for the difference in the drop in price of the security. That collateral could be
                                                                           either cash or AAA-rated securities. The more the value of the “insured” securities
                                                                           fell, the more collateral would be required. In the fourth quarter of 2007, the value
                                                                           of subprime RMBS fell so quickly that the market could no longer effectively price
                                                                           the securities, and counterparties began making significant collateral calls to AIG.
                                                                           Figure 3.1 shows a summary of AIG’s ratings changes by one rating agency, S&P,
                                                                           and the movement of AIG’s stock price and reported collateral calls.

                                                                           Select AIG Timeline Highlights:
                                                                           •	 March 30, 2005: S&P downgraded AIG from AAA to AA+, largely due, accord-
                                                                              ing to Congressional testimony of an S&P executive, to “the company’s involve-
                                                                              ment in a number of questionable financial transactions.”307
                                                                             quarterly report to congress I october 21, 2009   141




•	 June 3, 2005: S&P lowered AIG’s rating to AA “based on significant account-
   ing adjustments that had just been announced by the company.”308 For the next
   three years, S&P held AIG’s rating essentially stable.
•	 February 12, 2008: S&P placed a negative outlook on AIG based on “con-
   cerns about the way AIG was determining the fair value of CDS it had entered
   into.”309 Of particular concern were the CDS guaranteeing “an array of struc-
   tured finance securities, including securities backed by subprime residential
   mortgages.”310
•	 February 28, 2008: AIG announced that it had posted $5.3 billion in col-
   lateral “based on exposures, calculated in respect of super senior credit default
   swaps.”311
•	 May 8, 2008: AIG announced that it had posted an aggregate of $9.7 billion in
   collateral over the previous two years.312 A negative outlook on AIG was main-
   tained throughout the summer of 2008. S&P lowered its rating on AIG further
   to AA-, in reaction to “the company’s announcement of an after-tax loss of $7.8
   billion, including $5.9 billion in losses related to its CDS portfolio.”313
•	 August 2008: S&P announced that AIG’s actual credit-related losses in its CDS
   and investment portfolios would likely amount to approximately $8 billion. It
   would be considerably more if AIG were forced to mark its investments to mar-
   ket, or list its assets on its balance sheet at their current market value.314
•	 August 6, 2008: AIG announced that it had posted an aggregate of $16.5 bil-
   lion in collateral.315
•	 September 2008: Following the Government takeovers of Freddie Mac and
   Fannie Mae, and the bankruptcy of Lehman Brothers, among other market dis-
   ruptions, AIG’s financial condition deteriorated rapidly, exacerbated by “a sud-
   den drop in the market value of AIG’s investments and, more importantly, the
   investments of third parties that had purchased CDS guarantees from AIG.”316
•	 September 12, 2008: S&P warned the market that it had placed AIG and its
   subsidiaries on credit watch negative.
•	 September 15, 2008: S&P lowered its rating further to A-, based “primarily
   on a combination of AIG’s reduced flexibility in meeting collateral needs and its
   increasing CDS-related losses.”317 Following the S&P downgrade, AIG estimated
   that it would need “in excess of $20 billion in order to fund additional collateral
   demands and transaction termination payments.”318
•	 September 16, 2008: FRBNY extended an $85 billion borrowing facility to
   AIG.319
•	 As of September 30, 2009, $69.8 billion in TARP funds was committed to be
   made available to AIG, of which $43.2 billion has been drawn down.320

    Much of the Federal Reserve and TARP support for AIG stemmed from AIG’s
liquidity crisis related to the collateral AIG was contractually obligated to post
142             special inspector general I troubled asset relief program




                                                       to counterparties. Indeed, it was largely fear of further AIG downgrades and the
                                                       resulting systemic effect on the financial markets and the American retirement
                                                       system that led Treasury to commit to make $70 billion of TARP funding available
                                                       to AIG. In Congressional testimony, an S&P executive asserted that Government
                                                       intervention was critical in stopping the decline of AIG ratings: “were it not for
                                                       this government assistance, we believe that AIG’s creditworthiness would have
                                                       continued to deteriorate.”321 Should that creditworthiness have been allowed to
                                                       deteriorate further, financial institutions, companies, and individuals would have
                                                       potentially been exposed to hundreds of billions of dollars in losses from AIG’s wide
                                                       range of insurance and financial contracts.322 For instance, AIG’s corporate paper
                                                       was widely held by money market mutual funds who maintain a net asset value of
                                                       $1 per share; a default on that debt could have caused many funds to “break the
                                                       buck,” potentially triggering a run on those funds and other financial institutions.323


                                                       Evolving Regulatory Environment
      Net Asset Value: A fund’s per-share
      value. Calculated by dividing the total          The SEC has implemented a number of regulatory initiatives aimed at increasing
      value of all the securities in its portfo-       transparency within the credit rating market. Following the initial implementation
      lio, less any liabilities, by the number of      of CRARA, the SEC promulgated two additional rounds of regulations, and con-
      fund shares outstanding.                         tinues to modify those regulations to require more robust disclosure with respect
                                                       to ratings methodologies and further refine policies addressing potential conflicts
      Break the Buck: A decline below $1 in            of interest.324 Furthermore, Treasury has recently proposed legislation aimed at en-
      the net asset value (“NAV”) of a money           hancing supervision of the rating agencies, including provisions to require all rating
      market mutual fund.
                                                       agencies to register as NRSROs.

                                                       SEC Rule Changes — Round 1
                                                       Following the enactment of CRARA, in June 2007, the SEC initiated a registration
                                                       program for NRSROs, implemented an application and ongoing disclosure form
                                                       (“Form NRSRO”), and adopted six new rules. The newly adopted rules focused on
                                                       the following issues: disclosure of information related to internal processes; reten-
                                                       tion of financial and compliance records; submission of audited financial state-
                                                       ments to the SEC; the handling of non-public information; conflicts of interest;
                                                       and prohibited practices.325
                                                           Following the intense scrutiny that began to fall on rating agencies in light
                                                       of their role in the financial crisis, the SEC developed additional regulations. In
                                                       February 2009, CRARA regulations were further expanded by the SEC when it
                                                       adopted requirements related to three discrete areas: disclosure, records mainte-
                                                       nance, and conflicts of interest. Specifically, the SEC required that rating agencies
                                                       implement the following recommendations and adhere to the new restrictions:326
                                                                             quarterly report to congress I october 21, 2009         143




Disclosure
•	 provide greater specificity regarding how performance metrics are generated                Originator: The lead bank or
   (Form NRSRO)                                                                               underwriter for a structured finance
•	 report whether and to what extent verification of underlying assets and an as-             product.
   sessment of the quality of the originator are considered when determining a
   rating for a structured product
•	 report the frequency of credit rating reviews (Form NRSRO)
•	 report whether different models are used for surveillance (Form NRSRO)
•	 provide the SEC an unaudited annual report of the number of ratings actions
   taken in the last fiscal year
•	 publicly disclose, when an NRSRO has more than 500 ratings in a particular
   rating class, the credit rating histories for a random sample of 10% of their
   issuer-paid ratings

Records Maintenance
•	 record those instances when a quantitative model produced a different rating
   than was ultimately assigned to a structured product and provide rationale for
   the discrepancy
•	 record all ratings actions by date from the initial credit rating to the current
   credit rating for all outstanding ratings

Conflicts of Interest
•	 prohibits NRSROs from issuing ratings for securities in which the NRSRO has
   consulted as to the structure of the transaction
•	 prohibits fee discussions between rating agency credit analysts and issuers
•	 prohibits credit analysts from accepting certain gifts from issuers

    Additionally, on July 14, 2009, the SEC announced plans to establish a branch
of examiners specifically dedicated to conducting examination oversight of the
NRSROs, per the authorities given the SEC under CRARA.327

Treasury Proposal
On July 21, 2009, Treasury submitted recommendations to Congress with a
number of provisions to strengthen oversight of credit rating agencies. Many of
Treasury’s proposals were reflected in the actions later addressed by the SEC
during its open meeting on September 17, 2009. Treasury’s proposal focused on
mitigating potential conflicts of interest; increasing transparency and disclosure;
strengthening SEC supervision; and reducing reliance on credit rating agencies. As
announced by Treasury, the proposal would force rating agencies to take the follow-
ing actions:
144   special inspector general I troubled asset relief program




                                             •	   forgo consulting services for companies they rate
                                             •	   improve disclosure of conflicts of interest
                                             •	   disclose fees associated with each rating report
                                             •	   designate a compliance officer
                                             •	   perform a look-back for any rating issued to a company if the analyst assigned to
                                                  rate the security subsequently goes to work for the company
                                             •	   require disclosure of preliminary ratings to discourage ratings shopping
                                             •	   develop symbols to distinguish clearly risks of structured products
                                             •	   disclose qualitative and quantitative risk measured in a rating
                                             •	   provide full ratings history for issuer-paid credit ratings

                                                Treasury’s proposed legislation is intended to strengthen supervision of rating
                                             agencies through the establishment of an office within the SEC dedicated solely to
                                             supervision of the rating agencies. The Treasury proposal would require registration
                                             with the SEC and submission of documented rating methodologies. Additionally,
                                             Treasury and the SEC would work with The President’s Working Group on
                                             Financial Markets to eliminate references to ratings from existing regulations.

                                             SEC Rule Changes — Round 2
                                             On September 17, 2009, the SEC held an open meeting to discuss strengthening
                                             oversight of credit rating agencies. During the meeting, the SEC voted unanimous-
                                             ly to implement final rules, that, similar to the Treasury recommendations, were
                                             intended to further strengthen the regulatory framework for credit rating agen-
                                             cies.328 These actions will become law 30 days after the SEC publishes the rules in
                                             the Federal Register. The actions approved in the meeting:

                                             •	 enabled unsolicited ratings for structured finance products by ensuring access
                                                to information for all NRSROs
                                             •	 required annual compliance reports related to potential conflicts of interest
                                             •	 amended SEC rules and regulations to remove certain reference to NRSROs’
                                                credit ratings
                                             •	 required additional disclosure regarding whether “ratings shopping” occurred
                                             •	 required NRSROs to disclose publicly, online, their history of ratings actions for
                                                any rating that the NRSRO initially made as of June 26, 2007 (no later than two
                                                years after the action is taken for subscriber-paid ratings, and within one year
                                                for issuer-paid ratings)

                                                As noted previously, September 17, 2009, final rules would eliminate references
                                             to NRSRO credit ratings in a number of SEC rules and forms. Table 3.7 captures
                                             those rules that were amended.
                                                                                                                quarterly report to congress I october 21, 2009                                   145




                                                                                                                                  table 3.7
    Additionally, the SEC extended the period for public comment regarding the                                                      Proposed Eliminated
elimination of certain Federal regulatory references to NRSRO credit ratings before                                                 References to NRSRO Credit
eliminating them from regulations. The SEC will revisit the issue after the 60-day                                                  Ratings
comment period. Table 3.8 captures those rules in which references to credit rat-                                                   Regulation                             Form/Rule
ings might be eliminated.                                                                                                           Securities Exchange Act of
                                                                                                                                                                           Rule 3a-1
                                                                                                                                    1934
                                                                                                                                    Securities Exchange Act of
Alternative Regulatory Reform                                                                                                       1934
                                                                                                                                                                           Regulation ATS
The rating agencies have been under an increasingly bright spotlight ever since the                                                 Securities Exchange Act of             ATS-R and
financial scandals of the early 2000s called the quality and independence of their                                                  1934                                   Form Pilot
ratings into question. The president of Moody’s commented in a House Oversight                                                      Investment Company Act
                                                                                                                                                                           Rule 5b-3
                                                                                                                                    of 1940
and Government Reform Committee hearing that “it turns out that ratings quality
has surprisingly few friends: issuers want high ratings; investors don’t want rat-                                                  Investment Company Act
                                                                                                                                                                           Rule 10f-3
                                                                                                                                    of 1940
ings downgrades; short-sighted bankers labor short-sightedly to game the ratings
                                                                                                                                    Source: SEC, “Rules and Forms at Issue in Removal of Refer-
agencies.”329 The SEC and other regulators, such as NAIC, have been reviewing                                                       ences to NRSRO Credit Ratings,” 9/17/2009, www.sec.gov/
                                                                                                                                    news/press/2009-200-rulesformsaffected.htm, accessed
their regulations to assess the impact of removing reference to NRSROs. In ad-                                                      9/21/2009.
dition, regulators are looking for ways to improve rating agency transparency and
disclosure and better manage conflicts of interest. There are a number of options
for reforming the current system, however, that go further than the proposed SEC
reforms. Many of these can be found in the wide range of recommendations made
in Congressional testimony and other forums. SIGTARP does not endorse any
particular proposed reform. Examples of these proposed reforms include:

•	 Eliminate all reference to NRSROs in both securities and banking regu-
   lations: The SEC, in its September 17, 2009, actions, has initiated steps to
   reduce reliance on NRSRO ratings. SEC Commissioner Kathleen Casey, in a
   September 17, 2009, speech, commented that the SEC needs to “eliminate
   the government imprimatur given to certain debt analysts by removing NRSRO
   references in all of our rules.”330 At the same time, however, the banking regula-
   tors (the Federal Reserve, FDIC, OCC, and OTS) continue to move forward


table 3.8
 Open For Comment: Removal of References to NRSRO Credit Ratings
 Regulation                                                      Form/Rule                       Reference to NRSRO Removed
 Securities Exchange Act of 1934                                 Regulation M                    Determination of exception based on investment-grade rating
 Securities Exchange Act of 1934                                 Rule 10b-10                     Requirement that broker-dealers inform customers if security is unrated
 Securities Exchange Act of 1934                                 Net Capital Rule                All references related to the “haircut”
 Investment Company Act of 1940                                  Rule 3a-7                       Definition of “investment company” structured finance vehicles
 Investment Company Act of 1940                                  Rule 5b-3                       Repurchase Agreement for securities
 Investment Company Act of 1940                                  Rule 206(3)-3T                  Excludes securities from coverage

 Source: SEC, “Rules and Forms at Issue in Removal of References to NRSRO Credit Ratings,” 9/17/2009, www.sec.gov/news/press/2009-200-rulesformsaffected.htm, accessed 9/21/2009.
146   special inspector general I troubled asset relief program




                                                with risk-weighted capital regulations that explicitly rely on NRSRO ratings. The
                                                Mortgage Bankers’ Association, in a letter commenting on the SEC’s proposed
                                                changes of June and July 2008, observed that “these contradictory approaches,
                                                create the potential for the SEC and the banking regulatory agencies to promul-
                                                gate final rules that are inconsistent or even contradictory in their approaches
                                                regarding reliance on ratings.”331 In Congressional testimony on September
                                                30, 2009, Professor Lawrence White from New York University stated that the
                                                Administration’s proposals to reduce regulatory reliance on ratings seem to be
                                                largely lip service and do not go far enough.332 His advice is to eliminate refer-
                                                ences to NRSROs wherever they occur whether in securities regulations or in
                                                bank capital requirements: “Eliminate all regulatory reliance on ratings, by the
                                                SEC and by all other financial regulatory agencies — eliminate the force of law
                                                that has been accorded to these third-party judgments.”333
                                             •	 Establish an “FASB” to set standards for credit ratings: In Congressional
                                                testimony on September 29, 2009, Eric Kolchinsky, former managing director
                                                for the business line responsible for rating subprime CDOs at Moody’s, sug-
                                                gested that the Government must finally acknowledge the quasi-regulatory role
                                                of NRSROs and regulate them in a similar way to the accounting profession,
                                                which also plays such a role. He suggests establishing an independent body,
                                                based on the model of the Financial Accounting Standards Board (“FASB”), to
                                                set public standards for “regulatory ratings” — “the agencies would still be free
                                                to publish their own ratings but would have to follow the public standards for
                                                any rating used in a regulatory manner.”334 Examples include simple fixes, such
                                                as standarizing, for regulatory purposes, the definition of the term “AAA,” which
                                                is used extensively but can have different definitions at different rating agencies.
                                                Mr. Kolchinsky suggested that “the public body could also determine what kinds
                                                of products are ‘rate-able’ and what kind of information is required of issuers for
                                                rating purposes.”335
                                             •	 Promote a transition away from the issuer-pay model: Many observers focus
                                                on the issuer-pay model as the crux of the regulatory problem for credit rat-
                                                ing agencies. That the rating agencies are paid by the corporations for whose
                                                securities they are supposed to provide an independent, unbiased evaluation is
                                                a fundamental conflict of interest. In the words of one subprime fund manager,
                                                “it would be like cattle ranchers paying the Department of Agriculture to rate
                                                the quality and safety of their beef.”336 In its examination of the three largest
                                                NRSROs, the SEC made several observations about this conflict. First, it noted
                                                that rating agency “analysts appeared to be aware, when rating an issuer, of the
                                                rating agency’s business interest in securing the rating of the deal.”337 Further,
                                                the SEC observed that “rating agencies do not appear to take steps to prevent
                                                considerations of market share and other business interests from the possibility
                                                                             quarterly report to congress I october 21, 2009   147




   that they could influence ratings or ratings criteria.”338 The SEC has noted
   that “NRSROs that are compensated by subscribers appear less likely to be
   susceptible to ‘ratings shopping’ or reducing quality for initial ratings to induce
   revenues.”339
        One resolution would be to prohibit expressly the issuer-pay model.
    However, this would be controversial for many market participants; in
    Congressional testimony, one industry expert describes the investor-pay model
    as one “that issuers and underwriters may fear (because a more independent
    rating agency may be more critical of issuers).”340 As a means of gradually im-
    posing business model independence, Sean Egan (managing director at Egan-
    Jones, a smaller NRSRO) suggested in Congressional testimony that “one way
    to do this would be to phase in a requirement that any rating agency, in order
    to maintain its NRSRO designation, derive a given percentage of its annual
    revenues from investors rather than relying almost exclusively on issuers.”341
    Another option was advanced in Congressional testimony by Eric Baggesen
    of the California Public Employees Retirement System (“CALPERS”). Mr.
    Baggesen suggested that, since “there is a fundamental conflict of interest when
    the issuer pays the fees of the [rating agency],” the fees earned by the rating
    agencies might be made to “vest over a period of time equal to the average
    duration of the bonds rated. Fees should vest based on the performance of the
    original ratings and changes to those ratings over time relative to the credit
    performance of those bonds.”342
•	 Enforce better surveillance: Credit rating agencies have significant power in
   terms of their surveillance, related to the effect of a downgrade, but there is
   limited regulation on agencies’ surveillance. One observer, in Congressional tes-
   timony, asserts that “from a transparency perspective, the gravest problem today
   may be the staleness of debt ratings. As noted earlier, issuer-paid rating agencies
   earn no revenues from downgrades and may jeopardize their relationships with
   both issuers, investment banks, and many institutional investors (who must
   today typically write down the value of downgraded debt).”343 An SEC report
   in July 2008 found that rating agencies’ surveillance processes appear to have
   been less robust than their initial rating process.344 Many believe that enhanced
   standards for surveillance should be an integral part of any effort to restore the
   reliability of credit ratings.
•	 Equal access to information: A fundamental advantage enjoyed by NRSROs
   over other rating agencies (and individual investors) is that NRSROs are exempt
   from the SEC Fair Disclosure rules (Regulation FD). In Congressional testi-
   mony, Mr. Egan stated that this exemption “can allow them special access to
   material non-public information from issuers of corporate debt.”345 Mr. Egan
   suggests that “this special treatment should be ended in order to ensure the
   uniform release of credit information to all market participants” — a move that
148   special inspector general I troubled asset relief program




                                                could help end the perception that NRSROs’ judgments are better informed and
                                                inherently more valuable than others.346
                                             •	 Impose civil liability for negligence or fraud: Some observers have rec-
                                                ommended the imposition of strict rules on rating agencies similar to those
                                                imposed on accounting firms by Sarbanes-Oxley, wherein both the senior man-
                                                agement of a company and of its accounting firm must personally attest to the
                                                veracity of information contained in financial audits, opening themselves to per-
                                                sonal civil liability. In Congressional testimony, Gregory Smith of the Colorado
                                                Public Employees’ Retirement Association noted that rating agencies are, similar
                                                to auditors, “financial gatekeepers.” He states that “financial gatekeepers are
                                                less likely to engage in negligent, reckless or fraudulent behavior if they are
                                                subject to a risk of liability for these behaviors. Ratings agencies, however, are
                                                currently immune from such checks.”347 Representative Paul Kanjorski, in a
                                                Congressional hearing, stated “by considering proposals aimed at better disclo-
                                                sure, real accountability, and perhaps even civil liability, we can advance that
                                                debate today and ultimately figure out how to get the regulatory fit just right.”
                                                On September 25, 2009, Representative Kanjorski introduced legislation to this
                                                effect — including the possible imposition of industry-wide liability for the ac-
                                                tions of all rating agencies as a means of stimulating self-regulation.348
             tarp operations and
S ection 4
             administration
150   special inspector general I troubled asset relief program
                                                                                       quarterly report to congress I october 21, 2009   151




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress au-
thorized the Secretary of the Treasury (“Treasury Secretary”) to build the operation-
al and administrative infrastructure to support the Troubled Asset Relief Program
(“TARP”) activities. EESA established an Office of Financial Stability (“OFS”)
within the Department of Treasury (“Treasury”), which is responsible for the ad-
ministration of TARP.349 Treasury has the authority to establish program vehicles,
issue regulations, directly hire or appoint employees, enter into contracts, and
designate financial institutions as financial agents of the Federal Government.350
In addition to permanent and interim staff, OFS relies on contractors and financial
agents in legal, investment consulting, accounting, and other key service areas.351


TARP Administrative and Program
Expenditures
Treasury stated that it had incurred $50.8 million in TARP-related administrative
expenditures and $115.6 million in programmatic costs to hire financial agents and
legal firms through September 30, 2009.352 Table 4.1 summarizes the administra-
tive expenditures.353 The majority of these costs are allocated to “personnel ser-
vices” and “non-personnel services.”

Table 4.1

TARP Administrative expenditures and obligations
                                                              Obligations for   Expenditures for
                                                              Period Ending       Period Ending
Budget Object Class Title                                       9/30/2009           9/30/2009
Personnel Services
Personnel Compensation & Services                               $14,173,433         $13,625,364
Total Personnel Services                                       $14,173,433         $13,625,364


Non-Personnel Services
Travel & Transportation of Persons                                 $268,128            $230,257
Transportation of Things                                              11,934             11,934
Rents, Communications, Utilities & Misc. Charges                    112,965              41,531
Printing & Reproduction                                                  395                395
Other Services                                                   68,060,362          36,497,220
Supplies & Materials                                                257,418             147,418
Equipment                                                           232,054             222,675
Land & Structures                                                         —                  —
Interest & Dividends                                                       8                  8
Total Non-Personnel Services                                   $68,943,264         $37,151,439
Grand Total                                                    $83,116,697         $50,776,803

Note: Numbers affected by rounding.

Source: Treasury, response to SIGTARP data call, 10/7/2009.
152   special inspector general I troubled asset relief program




                                                 TARP operations are projected to cost a total of approximately $175 million
                                             for fiscal year 2009.354 Operational costs are not factored into any gains or losses
                                             on the TARP-related transactions and are not included in the $699 billion limit
                                             on asset purchases. Therefore, these expenditures will add to the Federal budget
                                             deficit regardless of whether the TARP transactions result in a gain or a loss for the
                                             Government.355


                                             Current Contractors and Financial Agents
                                             As of September 30, 2009, Treasury had retained 66 outside contractors and fi-
                                             nancial agents, including 4 asset managers, to help administer TARP. As permitted
                                             under EESA, Treasury streamlined solicitation procedures and structured several
                                             agreements and contracts to allow for flexibility in obtaining the required services
                                             expeditiously. Table 4.2 lists outside vendors as of September 30, 2009.356
                                                 As required by EESA, the Special Inspector General for the Troubled Asset
                                             Relief Program (“SIGTARP”) provides biographical information for each person or
                                             entity hired to manage the Government’s troubled assets acquired through TARP.357
                                             Subsequent to SIGTARP’s Quarterly Report to Congress, dated July 21, 2009
                                             (“July Quarterly Report”), OFS has not hired any additional asset managers. OFS,
                                             however, is in the process of selecting a group of smaller firms to function as asset
                                             managers and will notify SIGTARP when a final decision has been made.358



                                             Conflicts of Interest
                                             Within the framework of TARP procurement and contracting, actual or potential
                                             conflicts of interest can exist at the organizational level or pertain to an individual
                                             employee. Under EESA, the Treasury Secretary can issue regulations or guidelines
                                             to address and manage, or to prohibit, conflicts of interest that can arise in connec-
                                             tion with the administration and execution of TARP.359 TARP-related conflicts of
                                             interest can arise under various circumstances, such as when retained entities (fi-
                                             nancial agents or contractors) perform similar work for Treasury and other clients.
                                             In these situations, retained entities may find that their duty to certain clients may
                                             impair their objectivity when advising Treasury or may affect their judgment about
                                             the proper use of non-public information. Conflicts may also arise from the per-
                                             sonal interests of individuals employed by retained entities. Accordingly, Treasury
                                             has issued interim conflict-of-interest guidelines.360 These interim rules require
                                             interested contractors to provide sufficient information to evaluate the potential
                                             for organizational conflicts of interest and mitigation plans.361 The mitigation plan
                                             then becomes a binding term of the contract arrangement. On potential personal
                                                                                   quarterly report to congress I october 21, 2009   153




conflicts of interest, the provisions require that managers and employees of a hired
entity disclose any financial holdings or personal and familial relationships that
could impair their objectivity.362 Retained entities are also required to take steps to
protect non-public information and prevent its inappropriate use; this effort may
include the use of non-disclosure agreements.




Table 4.2

Outside Vendors
                                                                                                    Type of
Date          Vendor                                          Purpose                               Transaction*
10/10/2008    Simpson, Thacher & Bartlett                     Legal Services                        BPA
10/11/2008    EnnisKnupp                                      Investment and Advisory Services      BPA
10/14/2008    Bank of New York Mellon                         Custodian and Cash Management         Financial Agent
10/16/2008    PricewaterhouseCoopers                          Internal Control Services             BPA
10/18/2008    Ernst & Young                                   Accounting Services                   BPA
10/23/2008    GSA – Turner Consulting**                       Archiving Services                    IAA
10/29/2008    Hughes Hubbard & Reed                           Legal Services                        BPA
10/29/2008    Squire Sanders & Dempsey                        Legal Services                        BPA
10/31/2008    Lindholm & Associates**                         Human Resources Services              Contract
11/7/2008     Thacher Proffitt & Wood***                      Legal Services                        BPA
11/14/2008    Securities and Exchange Commission              Detailees                             IAA
11/14/2008    CSC Systems and Solutions                       IT Services                           Procurement
12/3/2008     Trade and Tax Bureau – Treasury                 IT Services                           IAA
12/5/2008     Department of Housing and Urban Development     Detailees                             IAA
12/5/2008     Washington Post                                 Vacancy Announcement                  Procurement
12/10/2008    Thacher Proffitt & Wood***                      Legal Services                        BPA
12/12/2008    Pension Benefit Guaranty Corporation            Legal Services                        IAA
12/15/2008    Office of Thrift Supervision                    Detailees                             IAA
12/24/2008    Cushman and Wakefield of VA, Inc.               Painting                              Procurement
1/6/2009      Office of the Controller of the Currency        Detailees                             IAA
1/6/2009      State Department                                Detailees                             IAA
1/7/2009      Colonial Parking                                Parking                               Procurement
1/9/2009      Internal Revenue Service                        Detailees                             IAA
1/27/2009     Cadwalader Wickersham & Taft, LLP               Legal Services                        BPA
1/27/2009     Whitaker Brothers Bus. Machines                 Office Machines                       Procurement
2/2/2009      Government Accountability Office                Oversight                             IAA
2/9/2009      Pat Taylor and Associates, Inc.**               Temporary Employee Services           Contract
                                                                                                 Continued on next page.
154     special inspector general I troubled asset relief program




      Outside Vendors                    (continued)
      2/12/2009             Locke Lord Bissell & Lidell LLP                                Legal Services                  Contract
      2/18/2009             Freddie Mac                                                    Homeownership Program           Financial Agent
      2/18/2009             Fannie Mae                                                     Homeownership Program           Financial Agent
      2/20/2009             Congressional Oversight Panel                                  Oversight                       IAA
      2/20/2009             Simpson, Thacher & Bartlett                                    Legal Services                  Contract
      2/22/2009             Venable LLP                                                    Legal Services                  Contract
      3/6/2009              Boston Consulting Group                                        Management Consulting Support   Contract
      3/16/2009             EARNEST Partners                                               Asset Management Services       Financial Agent
      3/23/2009             Heery International Inc.                                       Architects                      Procurement
      3/30/2009             McKee Nelson, LLP                                              Legal Services                  Contract
      3/30/2009             Sonnenschein Nath & Rosenthal                                  Legal Services                  Contract
      3/30/2009             Cadwalader Wickersham & Taft, LLP                              Legal Services                  Contract
      3/30/2009             Haynes and Boone LLP                                           Legal Services                  Contract
      3/31/2009             FI Consulting**                                                Modeling and Analysis           BPA
      4/3/2009              American Furniture Rentals**                                   Office Furniture                Procurement
      4/17/2009             Herman Miller                                                  Office Furniture                Procurement
      4/17/2009             Bureau of Printing and Engraving                               Detailee                        IAA
      4/21/2009             AllianceBernstein                                              Asset Management Services       Financial Agent
      4/21/2009             FSI Group                                                      Asset Management Services       Financial Agent
      4/21/2009             Piedmont Investment Advisors                                   Asset Management Services       Financial Agent
      5/4/2009              Federal Reserve                                                Detailee                        IAA
      5/14/2009             Phacil Inc.**                                                  FOIA Services                   Contract
      5/14/2009             Department of Treasury – U.S. Mint                             Administrative Support          IAA
      5/22/2009             Department of Justice – ATF                                    Detailee                        IAA
      5/26/2009             Anderson, McCoy & Orta, LLP**                                  Legal Services                  Contract
      5/26/2009             Simpson, Thacher & Bartlett                                    Legal Services                  Contract
      6/5/2009              Internal Revenue Services                                      Administrative Services         Contract
                            Department of Treasury –
      6/8/2009                                                                             IT Services                     IAA
                            Financial Management Services
      6/29/2009             Department of Interior                                         Website Testing                 IAA
      7/15/2009             Judicial Watch                                                 Legal Advisory                  Contract
      7/17/2009             Korn Ferry International                                       Administrative Support          Contract
      7/30/2009             Cadwalader Wickersham & Taft, LLP                              Legal Advisory                  Contract
      7/30/2009             Debevoise & Plimpton, LLF                                      Legal Advisory                  Contract
      7/30/2009             Fox Hefter Swibel Levin & Carol, LLF                           Legal Advisory                  Contract
      8/11/2009             NASA                                                           Detailee                        IAA
      9/2/2009              Knowledge Mosaic Inc**                                         Administrative Services         Contract
      9/10/2009             Equilar, Inc.**                                                Administrative Services         Contract
      9/14/2009             PricewaterhouseCoopers                                         Asset Management Services       Contract
      9/30/2009             SNL Financial LC                                               Administrative Services         Contract

      Notes:
      *IAA= Inter-Agency Agreement, BPA = Blanket Purchase Agreement.
      **Small- or Women-, or Minority-Owned Small Business.
      ***Contract responsibilities assumed by Sonnenschein Nath & Rosenthal via novation

      Source: Treasury, response to SIGTARP data call, 10/7/2009.
S e c tion 5   SIGtarp recommendations
156   special inspector general I troubled asset relief program
                                                                             quarterly report to congress I october 21, 2009   157




One of the responsibilities of the Office of the Special Inspector General for the
Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations to the
U.S. Department of the Treasury (“Treasury”) and those other Federal agencies
managing Troubled Asset Relief Program (“TARP”) initiatives so that the various
TARP programs can be designed or modified to facilitate transparency and effec-
tive oversight and to prevent fraud, waste, and abuse. SIGTARP has made such
recommendations in each of its quarterly reports to Congress and in several of its
audit reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, sets forth several new recommendations, and, in the table at the
end of this section, summarizes all past SIGTARP recommendations and notes the
extent of their implementation. Appendix H: “Correspondence” sets forth Treasury’s
written responses to these and prior SIGTARP recommendations.


Progress on Lessening the Term
Asset-Backed Securities loan
Facility’s Reliance on Rating Agencies
Beginning with SIGTARP’s Quarterly Report to Congress dated February 6, 2009
(the “Initial Report”), SIGTARP has been urging Treasury and the Federal Reserve
Board, in their design of the Term Asset-Backed Securities Loan Facility (“TALF”),
to rely less on the ratings of rating agencies and to use instead alternative under-
writing analysis such as security-by-security screening of the asset-backed securities
(“ABS”) posted as collateral. The Federal Reserve Board and the Federal Reserve
Bank of New York (“FRBNY”), which operate TALF, had previously taken various
steps to improve the credit protection and fraud prevention aspects of the program
and had adopted this recommendation fully with respect to commercial mortgage-
backed securities (“CMBS”) posted as collateral. With respect to other ABS, how-
ever, Treasury and the Federal Reserve had maintained that TALF’s anti-fraud and
credit protection structures were sufficient and that security-by-security screening
of ABS was unnecessary. While recognizing that the Federal Reserve, in adopting
other SIGTARP recommendations, had greatly improved TALF, SIGTARP repeat-
edly sounded the alarm in subsequent reports regarding TALF’s continued reliance
on credit rating agencies.
    The Federal Reserve recently modified the program to extend the security-by-se-
curity review to all ABS pledged as collateral, consistent with SIGTARP’s previous
recommendations. Beginning with the November subscription, FRBNY, working
with its collateral monitor, will engage in a formal risk-assessment process for all
proposed collateral. Among other things, the formal process gives FRBNY the right
to reject any ABS based on this risk assessment. Moreover, as part of the review
process, the issuer of the ABS will be required to provide FRBNY with all data
158   special inspector general I troubled asset relief program




                                             provided to any rating agency along with a written waiver to all rating agencies with
                                             which it had shared data regarding the proposed ABS. The waiver will permit the
                                             rating agency to provide FRBNY any view it has of the credit quality of the ABS,
                                             irrespective of whether the rating agency ever issued a formal rating for the ABS.
                                             These provisions will mitigate the possibility of “ratings shopping,” i.e., jumping to
                                             another rating agency if the first one approached seems inclined to give an unfavor-
                                             able rating.
                                                 Although any reliance on rating agency determinations is problematic in light of
                                             the inherent conflicts presented by the rating agency system, as discussed more ful-
                                             ly in Section 3 of this report, with these changes and the changes previously made,
                                             the role of the rating agencies in TALF is, appropriately, becoming one more of a
                                             backstop than a primary protection. These modifications represent further adop-
                                             tion of several SIGTARP recommendations and reflect the efforts of the Federal
                                             Reserve Board and FRBNY to continue monitoring and improving the compliance,
                                             risk management, and fraud prevention for TALF over time.


                                             Developments Relating to HAMP
                                             Streamlining
                                             In its earlier quarterly reports to Congress, SIGTARP reported on a series of
                                             recommendations with respect to the anti-fraud aspects of the Home Affordable
                                             Modification Program (“HAMP”), including that Treasury obtain verifiable,
                                             third-party information confirming a homeowner’s residence and income and
                                             that it conduct a closing-like procedure to ensure, among other things, that the
                                             homeowner is aware of the homeowner’s rights and obligations before the modi-
                                             fication is completed. Treasury had adopted these recommendations in part as
                                             described in SIGTARP’s prior reports. Treasury has recently notified SIGTARP of
                                             certain changes to the administration of HAMP that affect these recommenda-
                                             tions. Following consultation and an exchange of letters, included in Appendix H:
                                             “Correspondence,” SIGTARP can provide updates on three issues.
                                                 First, on the positive side, Treasury has stated that its program administrator,
                                             Fannie Mae, will be developing processes to verify residence prior to funding. This
                                             is consistent with SIGTARP’s recommendation, and SIGTARP will monitor the
                                             implementation of these processes.
                                                 The second and third changes relate to Treasury’s attempts to streamline the
                                             HAMP application process. As initially rolled out, HAMP required a homeowner to:

                                                1. 	 submit an application for a modification
                                                2. 	 then, if eligible, send in a signed Trial Plan Notice agreeing to the terms of
                                                     the trial modification
                                                                             quarterly report to congress I october 21, 2009   159




  3. 	 upon successful completion of the trial period, sign and return the formal
       modification plan agreement documents

    In an effort to streamline this process, Treasury has decided to eliminate
the requirement that the homeowner execute and return the Trial Plan Notice.
SIGTARP acknowledges the need to improve the customer service aspects of
HAMP (an issue about which SIGTARP has previously warned Treasury —
SIGTARP sent Treasury a Management Alert in light of numerous complaints
received on SIGTARP’s Hotline about HAMP customer service, included herein
in Appendix H: “Correspondence”), but SIGTARP’s concern here is that reason-
able steps be taken to ensure that homeowners are fully aware of their rights and
obligations under HAMP. Although Treasury has rejected SIGTARP’s recommen-
dation regarding the best practice to effect such warnings — a closing-like proce-
dure — Treasury’s previous requirement for a signed acknowledgement from the
homeowner on the Trial Plan Notice that he or she had received such information
was a workable alternative. After SIGTARP expressed concerns about the removal
of this safeguard, Treasury suggested that it could instead require the servicer to
retain proof of mailing of the program details to the homeowner; this action, when
coupled with homeowner’s signature on the final documents upon closing of the
modification, may also prove to be a reasonable alternative, although SIGTARP
encourages Treasury to monitor closely its effectiveness.
    Treasury also notified SIGTARP that it intended to do away with third-party
income verification for most HAMP applicants. In light of the incentive to misstate
income inherent in the program, SIGTARP objected to this modification. Treasury
subsequently informed SIGTARP that, while it will be making some modifications
to its processes, it will continue to require third-party income verification through
the Internal Revenue Service.


Developments in the Implementation of the
Public-Private Investment Program
In previous quarterly reports to Congress, SIGTARP made a series of recommen-
dations related to the design of the Public-Private Investment Program (“PPIP”).
Treasury adopted some of those recommendations and has rejected others, as sum-
marized in Table 5.1 at the end of this section. This report does not discuss those
recommendations further. Over the past quarter, however, Treasury has developed
and begun executing the final agreements with the managers of the Public-Private
Investment Funds (“PPIFs”), and the finalization of the documents has raised
several new issues.
160   special inspector general I troubled asset relief program




                                                  On the positive side, Treasury has changed its position on one issue, adopting,
                                             in part, one of SIGTARP’s recommendations that Treasury had previously indicated
                                             it would reject. SIGTARP previously recommended that Treasury should require
                                             PPIF managers to disclose to Treasury, as part of the Eligible Assets Watch List
                                             process, not only information about holdings in eligible assets (i.e., the mortgage-
                                             backed securities (“MBS”) being traded in the funds) across all of its and its affili-
                                             ates’ funds and holdings, but also holdings and trades in related assets or exposures
                                             to related liabilities (such as derivative products like credit default swaps (“CDS”)
                                             or collateralized debt obligations (“CDOs”) tied to MBS). Treasury had previously
                                             indicated that it would require reporting on the eligible assets, but not on related
                                             assets. In the final agreements, however, Treasury has required the fund managers
                                             to include, in their reporting, trades and positions of any derivative instruments
                                             where the value is connected to an eligible asset held by the PPIF. This adoption of
                                             SIGTARP’s recommendation is an improvement in the program design.
                                                  The final agreements also raise two issues that require follow-up recommenda-
                                             tions. The first relates to potential future modification of the compliance rules. As
                                             detailed in SIGTARP’s Quarterly Report to Congress dated July 21, 2009 (the “July
                                             Quarterly Report”), pursuant to section 402 of the Helping Families Save Their
                                             Homes Act of 2009 (the “Ensign-Boxer Amendment”), Treasury was required by
                                             law to consult with SIGTARP in developing certain aspects of the PPIP compli-
                                             ance and conflict-of-interest regime, which it did. In the final PPIP agreements,
                                             however, Treasury has left open its ability to change those rules without consult-
                                             ing with or even giving notice to SIGTARP before such change occurs. Although
                                             Treasury’s stated rationale is that SIGTARP is not a party to the final agreements,
                                             it is not clear why that fact should affect whether SIGTARP is consulted or why
                                             the contract issue would trump Treasury’s statutory obligations. Although Treasury
                                             told SIGTARP that it is likely to discuss significant proposed amendments with
                                             SIGTARP, such consultation is, in SIGTARP’s view, best practice and may be le-
                                             gally required. Accordingly, SIGTARP makes the following recommendation:

                                             •	 PPIP Recommendation #1 — SIGTARP recommends that Treasury unam-
                                                biguously commit to give SIGTARP notice of and an opportunity to comment
                                                upon any change to the PPIP compliance rules.

                                                 In response to this recommendation, Treasury informed SIGTARP that it “will
                                             consult with [SIGTARP] before making any material changes in the compliance
                                             rules.”
                                                 The second problematic issue relates to the final agreements’ provisions con-
                                             cerning access to the books and records of PPIF managers’ affiliates. In the final
                                             agreement, Treasury provides SIGTARP with access to the books and records of
                                             each PPIF, as is required by the Ensign-Boxer Amendment. Treasury, however, has
                                                                              quarterly report to congress I october 21, 2009     161




made the decision to deny SIGTARP access to the books and records that the PPIF
managers’ affiliates are required to keep for activities that are conducted in connec-
tion with the PPIF as well as the acquisition or disposition of PPIP-eligible assets.
This decision is particularly surprising given that Treasury itself has the contractual
right to these same books and records. Treasury has stated that it will only provide
SIGTARP access “in cases where Treasury has a disclosure or review right with
respect to Reports and Financial Information.” SIGTARP does not fully under-
stand why the fund manager’s affiliates’ books do not fall within this category in all
cases; more fundamentally, access to the books and records of the PPIF manager’s
affiliates’ transactions in connection with the PPIF and for PPIP-eligible assets may
prove to be critical for oversight and enforcement. These are books and records that
relate directly to the American taxpayer’s investment in the PPIF and could provide
compelling evidence of a fund manager violating the conflict-of-interest provisions
set forth in the PPIF agreements. SIGTARP will conduct oversight over all of the
activities in connection with the PPIF whether it is given contractual rights or not.
If Treasury refuses to give SIGTARP contractual access to books and records that
are critical to identifying conflicts of interest, SIGTARP will not hesitate to obtain
these same books and records using all of its tools, including SIGTARP’s subpoena
authority, which may be necessary if such documents are material to a PPIF audit
or investigation. To avoid this unnecessary complication, however:

•	 PPIP Recommendation #2 — SIGTARP recommends that Treasury give
   SIGTARP explicit contractual access to all of the fund manager and affiliate
   information to which Treasury has access, including books and records for the
   fund managers’ affiliates.

   In response to this recommendation, Treasury cited SIGTARP’s access to other
materials but did not directly address this recommendation.


Update on Recommendations and Lessons
Learned from SIGTARP Audit Reports
As noted in Section 1 of this report, as of the initial drafting of this report,
SIGTARP had released four audit reports. Its fifth audit report, on American
International Group (“AIG”) bonuses, was subsequently issued and will be de-
scribed in detail in SIGTARP’s next quarterly report. Of the four audit reports             For more information on PPIP safe-
detailed in Section 1, three contained formal recommendations or lessons learned.           guards and conflict mitigation, see
Those recommendations and lessons learned are summarized below, along with a                SIGTARP’s July Quarterly Report,
description of the responses of Treasury and the other agencies involved.                   page 89.
162   special inspector general I troubled asset relief program




                                             Use of Funds Audit
                                             As discussed in detail in the July Quarterly Report, as a result of Treasury’s
                                             refusal to require reporting more broadly on actual TARP funds use, SIGTARP
                                             decided to undertake the task itself by conducting a survey of the more than
                                             360 institutions that had received TARP funds through the end of January
                                             2009. The results of the survey demonstrated that, despite the inherent
                                             fungibility of money, financial institutions are capable of providing descrip-
                                             tions of how they used TARP funds. Accordingly, in the July Quarterly Report,
                                             SIGTARP renewed its prior recommendation that Treasury require TARP re-
                                             cipients to submit periodic reports to Treasury on their use of funds, including
                                             what they were able to do with their TARP funds, such as lending, investments,
                                             acquisitions, and other activities, that they could not have conducted without
                                             TARP funding.
                                                 In response to SIGTARP’s recommendation, on September 16, 2009,
                                             Treasury informed SIGTARP that it was expanding its Quarterly Capital
                                             Purchase Program (“CPP”) Report to include two additional use of funds
                                             categories that TARP recipients had mentioned in SIGTARP survey responses.
                                             Treasury said this expansion will begin with the next Quarterly CPP Report,
                                             scheduled to be released during October 2009. Although this expansion should
                                             provide some additional information on an aggregate basis, it falls short of
                                             meeting the goal of basic transparency regarding the use of TARP funds. Most
                                             importantly, it will only include aggregate data for all CPP institutions and will
                                             not report on this information for each individual institution. It will also not
                                             reflect the financial institution’s view of what steps it was able to take that it
                                             otherwise would not have been able to take absent its receipt of TARP funds.
                                             Although SIGTARP is encouraged that Treasury has apparently abandoned
                                             its prior position that it is impossible to measure and report on TARP recipi-
                                             ents’ use of funds, SIGTARP remains puzzled as to why Treasury refuses to
                                             adopt the recommendation to report on each TARP recipient’s use of funds.
                                             While Treasury has indicated that it considers this recommendation “closed,”
                                             SIGTARP continues to urge Treasury’s full adoption of this recommendation.

                                             External Influence Audit
                                             As discussed in more detail in Section 1 of this report, this audit, the report
                                             of which was issued on August 6, 2009, examined whether or to what extent
                                             external parties may have influenced decision making by Treasury or bank
                                             regulators in approving bank applications for funding under CPP. SIGTARP
                                             found limitations and inconsistencies in the logging of telephone and meet-
                                             ing conversations regarding individual CPP applicants, making it impossible
                                             to examine the impact of all potential external inquiries on the CPP process.
                                             Available information, however, gave little indication that external inquiries on
                                                                             quarterly report to congress I october 21, 2009   163




CPP applications had affected the decision-making process.
   In light of these findings, and to improve transparency and further guard
against outside influence, SIGTARP made two recommendations:

•	 Treasury should record the vote count for the decisions of Treasury’s Investment
   Committee, which makes the final recommendation of whether or not to ap-
   prove a CPP application.
•	 Treasury and each individual participating Federal banking agency should
   improve existing control systems to document the occurrence and nature of
   external oral communication about actual and potential recipients of funding
   under CPP and other similar TARP-assistance programs to which they may be
   part of the decision making.

    Treasury concurred with SIGTARP’s recommendations and adopted them, an-
nouncing that it has implemented policies on external contacts similar to those that
it has adopted with respect to applications for stimulus funds.

Original CPP and Bank of America Investments Audit
As discussed in more detail in Section 1 of this report, this audit, which was is-
sued on October 5, 2009, examined the review and approval process associated
with TARP assistance to the first nine CPP recipients, with emphasis on addi-
tional assistance to Bank of America subsequently authorized under the Targeted
Investment Program (“TIP”) and the Asset Guarantee Program (“AGP”). The audit
also examined selected issues and interactions among Treasury, Federal Reserve,
and Bank of America officials in connection with Bank of America’s acquisition of
Merrill Lynch and the timing of Government assistance under TIP and AGP fol-
lowing the acquisition.
    The audit concluded that Treasury, the Federal Reserve, and FDIC imple-
mented programs designed to help prevent a further deterioration of the economy
and a significant risk of financial market collapse. The audit also concluded that
Treasury’s description of the investments in the first nine institutions in October
2008 highlights an important lesson for Treasury on using greater care and accu-
racy in describing its actions and rationales in future programs. In an October 14,
2008, statement announcing the investment in the original nine institutions, then-
Secretary of the Treasury Henry Paulson stated: “These are healthy institutions,
and they have taken this step for the good of the U.S. economy. As these healthy
institutions increase their capital base, they will be able to increase their funding
to U.S. consumers and businesses.” The nine institutions were similarly described
as healthy in a joint statement released that same day by Treasury, the Federal
Reserve, and FDIC, and in a separate statement released by Treasury.
    Notwithstanding these assertions, senior Government officials had concerns,
164   special inspector general I troubled asset relief program




                                             at the time the nine institutions were selected, about the health of at least some of
                                             those institutions. The Federal Reserve had concerns over the financial condition
                                             of several of these institutions individually and for all of them collectively absent
                                             some Governmental action; and Secretary Paulson noted concerns about the
                                             potential of an outright failure of one of the institutions. In addition to the basic
                                             transparency concern that this inconsistency raises, by stating expressly that the
                                             “healthy” institutions would be able to increase overall lending, Treasury may have
                                             created unrealistic expectations about the institutions’ conditions and their abil-
                                             ity to increase lending. Treasury lost credibility when lending at those institutions
                                             did not increase and when subsequent events — the further assistance needed by
                                             Citigroup and Bank of America being the most significant examples — demonstrat-
                                             ed that at least some of those institutions were not healthy.
                                                  SIGTARP received official written responses to this audit report from both
                                             Treasury and the Federal Reserve. In a letter from its General Counsel, the Federal
                                             Reserve concurred with the report’s findings and expressly agreed “that an impor-
                                             tant lesson illustrated by the events that shocked the financial systems over the
                                             past two years is that transparency and effective communication are important to
                                             restoring and maintaining public confidence, especially during a financial crisis.”
                                             (emphasis added)
                                                  Treasury, on the other hand, did not initially express as positive a position on
                                             SIGTARP’s findings. Although Treasury characterized the report as “a useful con-
                                             tribution,” it did not expressly state whether it concurred with the lesson learned
                                             that SIGTARP identified in the report. Indeed, Treasury’s response appears to take
                                             issue with SIGTARP’s call for careful consideration of public statements in a time
                                             of crisis, stating that “[w]hile people may differ today on how the contemporaneous
                                             announcements about the reasons for selecting the initial nine recipients should
                                             have been phrased, any review of such announcement must be considered in light
                                             of the unprecedented circumstances in which they were made.” In a subsequent
                                             statement, Treasury described such a review as a “second guess” of the statements
                                             made last fall.
                                                  Although SIGTARP acknowledges the unprecedented circumstances that
                                             Treasury was operating under last fall, the lesson to be learned here is that it is pre-
                                             cisely during such extraordinary times, as the Federal Reserve correctly noted, that
                                             the Government must exercise increased vigilance about accuracy and transpar-
                                             ency in its statements to the public. It is axiomatic that the Government’s capac-
                                             ity to address financial crises depends in no small measure on its credibility, both
                                             with market participants whose confidence is essential to stabilize the financial
                                             system and with the American public whose confidence is essential to underpin the
                                             political support necessary to take the difficult (and often expensive) steps that are
                                             needed. Accuracy and transparency can enhance the public’s understanding of and
                                                                            quarterly report to congress I october 21, 2009   165




support for Government programs, whereas statements that are less-than-careful or
forthright — like those made in this case — may ultimately undermine the public’s
understanding and support for these same programs. This loss of public support
could damage the Government’s credibility and have long-term, unintended conse-
quences that actually hamper the Government’s ability to respond to crises.
    In response to this report, Treasury indicated that, not withstanding its earlier
statements, it now concurs with the lesson learned from the audit, repeating verba-
tim the Federal Reserve’s response.


Tracking the Implementation of
Recommendations in Previous Reports
SIGTARP has now made dozens of individual recommendations, and updating
compliance of each one in narrative form would be impractical. The following
table, Table 5.1, summarizes SIGTARP’s prior recommendations, gives an indica-
tion of SIGTARP’s view of the level of implementation to date, and provides a brief
explanation for that view where necessary. For more details on the recommenda-
tions, readers are directed to SIGTARP’s earlier quarterly reports to Congress.
Treasury’s views on the level of implementation of the recommendations are set
forth in Appendix H: “Correspondence.”
Table 5.1

SIGTARP RECOMMENDATIONS TABLE                                                                                                                                                                      166

                                                                                                Partially                    Not
         Recommendation                                                           Implemented Implemented   In Process   Implemented   TBD                     Comments
1               should include language in the automobile industry
     * Treasury
       transaction term sheet acknowledging SIGTARP’s oversight role
         and expressly giving SIGTARP access to relevant documents
         and personnel.

                                                                                          X
2        Treasury should include language in new TARP agreements                                                                             Although Treasury has made substantial
         to facilitate compliance and oversight. Specifically, SIGTARP                                                                       efforts to comply with this recommendation
         recommends that each program participant should (1) ac-                                                                             in many of its agreements, there have been
         knowledge explicitly the jurisdiction and authority of SIGTARP                                                                      exceptions, including in its agreements with
         and other oversight bodies, as relevant, to oversee compli-                                                                         servicers in MHA. Treasury has further stated
         ance of the conditions contained in the agreement in question,                                                                      that it will only implement this recommenda-
         (2) establish internal controls with respect to that condition,                                                                     tion in circumstances that it deems
         (3) report periodically to the Compliance department of the                                                                         “appropriate.”
         Office of Financial Stability (“OFS-Compliance”) regarding the
         implementation of those controls and its compliance with
         the condition, and (4) provide a signed certification from an
         appropriate senior official to OFS-Compliance that such report
         is accurate.                                                                                  X
3        All existing TARP agreements, as well as those governing new                                                                        Treasury agreed to do so in late January, but
                                                                                                                                                                                                   special inspector general I troubled asset relief program




         transactions, should be posted on the Treasury website as                                                                           as of the July Quarterly Report, hundreds of
         soon as possible.                                                                                                                   agreements had not yet been posted, and
                                                                                                                                             Treasury assured SIGTARP that all agree-
                                                                                                                                             ments would be posted by August 15, 2009.
                                                                                                                                             As of the drafting of this report, it still has not
                                                                                                                                             posted 78 CPP agreements on its website,
                                                                                                                                             but has promised that it will finally fulfill this
                                                                                                                                             commitment by November 1, 2009. SIGTARP
                                                                                                       X                                     will continue to monitor Treasury’s progress.
4        Treasury requires all TARP recipients to report on the actual                                                                       Treasury has failed to adopt this recommen-
         use of TARP funds.                                                                                                                  dation for all but three TARP recipients. See
                                                                                                       X                                     discussion in this section.
5               quickly determines its going-forward valuation meth-
     * Treasury
       odology.                                                                           X
6               begins to develop an overall investment strategy to                                                                          Treasury has begun implementing this
     * Treasury
       address its portfolio of stocks and decide whether it intends to                                                                      recommendation. Treasury has made a
         exercise warrants of common stock.                                                                                                  determination that it does not intend at this
                                                                                                                                             time to exercise warrants except under
                                                                                                                                             certain circumstances related to mergers and
                                                                                          X                                                  acquisitions.
7        In formulating the structure of TALF, Treasury should consider                                                                      The Federal Reserve recently adopted mecha-
     *   requiring, before committing TARP funds to the program, that                                                                        nisms that address this recommendation. See
         certain minimum underwriting standards and/or other fraud                                                                           discussion in this section.
         prevention mechanisms be put in place with respect to the
         ABS and/or the assets underlying the ABS used for collateral.                    X
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                                   Continued on next page.
SIGTARP RECOMMENDATIONS TABLE (continued)

                                                                                                Partially                    Not
         Recommendation                                                           Implemented Implemented   In Process   Implemented   TBD                   Comments
8        Agreements with TALF participants should include an acknowl-
     *   edgement that: (1) they are subject to the oversight of OFS-
         Compliance and SIGTARP, (2) with respect to any condition im-
         posed as part of TALF, that the party on which the condition is
         imposed is required to establish internal controls with respect
         to each condition, report periodically on such compliance, and
         provide a certification with respect to such compliance.                                                             X
9               should give careful consideration before agreeing                                                                            This recommendation has been implemented
     * Treasury
       to the expansion of TALF to include MBS without a full review                                                                         with respect to CMBS, and the Federal
         of risks that may be involved and without considering certain                                                                       Reserve has announced that it will not be
         minimum fraud protections.                                                       X                                                  expanding TALF to RMBS.
10       Treasury should oppose any expansion of TALF to legacy MBS                                                                          This recommendation has been implemented
     *   without significant modifications to the program to ensure a full                                                                   with respect to CMBS, and the Federal
         assessment of risks associated with such an expansion.                                                                              Reserve has announced that it will not be
                                                                                          X                                                  expanding TALF to RMBS.
11       Treasury should formalize its valuation strategy and begin                                                                          Although Treasury will provide a valuation
         providing values of the TARP investments to the public.                                                                             in its annual financial statement using
                                                                                                                                             methodology governed by Federal accounting
                                                                                                                                             policies, it has not committed to making
                                                                                                                                             its estimate of the value of its investments
                                                                                                                                             public on a sufficient, more frequent basis —
                                                                                                                                             even though it is receiving monthly valuation
                                                                                                       X                                     summaries from its asset managers.
12       Treasury and the Federal Reserve should provide to SIGTARP,                                                                         The Federal Reserve and Treasury continue to
     *   for public disclosure, the identity of the borrowers who sur-                                                                       oppose this basic aspect of transparency in
         render collateral in TALF.                                                                                                          the TALF program. SIGTARP intends to revisit
                                                                                                                                             this issue with the Federal Reserve once a
                                                                                                                              X              collateral surrender takes place.
13       In TALF, Treasury should dispense with rating agency deter-                                                                         The Federal Reserve has announced that
     *   minations and require a security-by-security screening for                                                                          RMBS will not be eligible for TALF loans,
         each legacy RMBS. Treasury should refuse to participate if                                                                          rendering this recommendation moot.
         the program is not designed so that RMBS, whether new or
         legacy, will be rejected as collateral if the loans backing par-
         ticular RMBS do not meet certain baseline underwriting criteria
         or are in categories that have been proven to be riddled with
         fraud, including certain undocumented subprime residential
         mortgages.                                                                                                           X
14       In TALF, Treasury should require significantly higher haircuts                                                                      This recommendation has been implemented
     *   for all MBS, with particularly high haircuts for legacy RMBS, or                                                                    with respect to CMBS, and the Federal
         other equally effective mitigation efforts.                                                                                         Reserve has announced that it will not be
                                                                                          X                                                  expanding TALF to RMBS.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                                   Continued on next page.
                                                                                                                                                                                                 quarterly report to congress I october 21, 2009
                                                                                                                                                                                                 167
                                                                                                                                                                                                 168
SIGTARP RECOMMENDATIONS TABLE (continued)

                                                                                                Partially                    Not
         Recommendation                                                           Implemented Implemented   In Process   Implemented   TBD                     Comments
15               should require additional anti-fraud and credit protec-                                                                     The Federal Reserve has adopted mecha-
     * Treasury
       tion provisions, specific to all MBS, before participating in an                                                                      nisms that address this recommendation with
         expanded TALF, including minimum underwriting standards and                                                                         respect to CMBS, and has announced that it
         other fraud prevention measures.                                                 X                                                  will not be expanding TALF to RMBS.
16       Treasury should design a robust compliance protocol with
     *   complete access rights to all TALF transaction participants for
         itself, SIGTARP, and other relevant oversight bodies.                                                                X
17       Treasury should not allow Legacy Securities PPIFs to invest
     *   in TALF unless significant mitigating measures are included to
         address these dangers.                                                           X
18       All TALF modeling and decisions, whether on haircuts or any
     *   other credit or fraud loss mechanisms, should account for po-
         tential losses to Government interests broadly, including TARP
         funds, and not just potential losses to the Federal Reserve.                     X
19       Treasury should address the confusion and uncertainty on                                                                            Although not immediate or final, Treasury did
     *   executive compensation by immediately issuing the required                                                                          issue regulations on June 15, 2009.
         regulations.                                                                     X
20       Treasury should significantly increase the staffing levels of
                                                                                                                                                                                                 special inspector general I troubled asset relief program




         OFS-Compliance and ensure the timely development and imple-
         mentation of an integrated risk management and compliance
         program.                                                                                               X
21               should require CAP participants to (1) establish an                                                                         Treasury has reported that in its draft docu-
     * Treasury
       internal control to monitor their actual use of TARP funds, (2)                                                                       ments it is including “most of the suggestions
         provide periodic reporting on their actual use of TARP funds,                                                                       of SIGTARP,” but is refusing to adopt a use of
         (3) certify to OFS-Compliance, under the penalty of criminal                                                                        funds reporting requirement.
         sanction, that the report is accurate, that the same criteria of
         internal controls and regular certified reports should be applied
         to all conditions imposed on CAP participants, and (4) acknowl-
         edge explicitly the jurisdiction and authority of SIGTARP and
         other oversight bodies, as appropriate, to oversee conditions
         contained in the agreement.                                                                                                    X
22              should impose strict conflict-of-interest rules upon                                                                         Treasury has adopted some significant
     * Treasury
       PPIF managers across all programs that specifically address                                                                           conflict-of-interest rules related to this recom-
         whether and to what extent the managers can (1) invest PPIF                                                                         mendation, but has failed to impose other
         funds in legacy assets that they hold or manage on behalf of                                                                        significant safeguards.
         themselves or their clients or (2) conduct PPIF transactions
         with entities in which they have invested on behalf of them-
         selves or others.                                                                             X
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                                  Continued on next page.
SIGTARP RECOMMENDATIONS TABLE (continued)

                                                                                                Partially                    Not
         Recommendation                                                           Implemented Implemented   In Process   Implemented   TBD                    Comments
23       Treasury should require that all PPIF fund managers (1) have                                                                        Treasury’s agreements with PPIF managers
     *   stringent investor-screening procedures, including comprehen-                                                                       include investor-screening procedures such
         sive “Know Your Customer” requirements at least as rigorous                                                                         as “Know Your Customer” requirements. Trea-
         as that of a commercial bank or retail brokerage operation to                                                                       sury has agreed that it will have access to any
         prevent money laundering and the participation of actors prone                                                                      information in a fund manager’s possession
         to abusing the system, and (2) be required to provide Treasury                                                                      relating to beneficial owners. However, Trea-
         with the identities of all of the beneficial owners of the private                                                                  sury is not making an affirmative requirement
         interests in the fund so that Treasury can do appropriate dili-                                                                     that managers obtain and maintain beneficial
         gence to ensure that investors in the funds are legitimate.                                   X                                     owner information.
24       Treasury should require most-favored-nation clauses, PPIF
     *   managers to acknowledge that they owe Treasury a fiduciary
         duty, and that each manager adopt a robust ethics policy and
         compliance apparatus.                                                            X
25       Treasury should require servicers in MHA to submit third-party                                                                      See discussion in this section.
         verified evidence that the applicant is residing in the subject
         property before funding a mortgage modification.                                                       X
26       In MHA, Treasury should require a closing-like procedure be                                                                         See discussion in this section.
     *   conducted that would include (1) a closing warning sheet that
         would warn the applicant of the consequences of fraud; (2)
         the notarized signature and thumbprint of each participant;
         (3) mandatory collection, copying, and retention of copies of
         identification documents of all participants in the transaction;
         (4) verbal and written warnings regarding hidden fees and
         payments so that applicants are made fully aware of them; (5)
         the benefits to which they are entitled under the program (to
         prevent a corrupt servicer from collecting payments from the
         Government and not passing the full amount of the subsidies
         to the homeowners); and (6) the fact that no fee should be
         charged for the modification.                                                                 X
27       Additional anti-fraud protections should be adopted in MHA to                                                                       Treasury stated that its compliance agent
         verify the identity of the participants in the transaction and to                                                                   Freddie Mac is refining its procedures to
         address the potential for servicers to steal from individuals                                                                       verify that incentive payments to servicers are
         receiving Government subsidies without applying them for the                                                                        applied to borrowers.
         benefit of the homeowner.




                                                                                                                X
28       In MHA, Treasury should require the servicer to compare the
     *   income reported on a mortgage modification application with
         the income reported on the original loan application.                                                                X
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                                 Continued on next page.
                                                                                                                                                                                               quarterly report to congress I october 21, 2009
                                                                                                                                                                                               169
                                                                                                                                                                                               170
SIGTARP RECOMMENDATIONS TABLE                          (continued)

                                                                                                Partially                    Not
        Recommendation                                                            Implemented Implemented   In Process   Implemented   TBD                    Comments
29         MHA, Treasury should require that verifiable, third-party in-                                                                     See discussion in this section.
     * Information be obtained to confirm an applicant’s income before
        any modification payments are made.                                               X
30                 Treasury should defer payment of the $1,000 incen-                                                                        Treasury continues to rely on servicer
     * IntiveMHA,
              to the servicer until after the homeowner has verifiably                                                                       representations that the homeowner has
        made a minimum number of payments under the mortgage                                                                                 made three trial payments before enter-
        modification program.                                                                                                                ing the program, but does not require any
                                                                                                                                             minimum payments after a mortgage enters
                                                                                                                                             the program.
                                                                                                                              X
31         MHA, Treasury should proactively educate homeowners
     * Inabout the nature of the program, warn them about modification
        rescue fraudsters, and publicize that no fee is necessary to
        participate in the program.


                                                                                          X
32         MHA, Treasury should require its agents to keep track of the                                                                      Treasury has refused to adopt this significant
                                                                                                                                                                                               special inspector general I troubled asset relief program




     * Innames and identifying information for each participant in each                                                                      anti-fraud measure designed to detect insid-
        mortgage modification transaction and to maintain a database                                                                         ers who are committing large-scale fraud.
        of such information.                                                                                                                 This represents a material deficiency in the
                                                                                                                              X              MHA anti-fraud regime.
33      Treasury should require the imposition of strict information bar-                                                                    Treasury has refused to adopt this significant
        riers or “walls” between the PPIF managers making investment                                                                         anti-fraud measure designed to prevent con-
        decisions on behalf of the PPIF and those employees of the                                                                           flicts of interest. This represents a material
        fund management company who manage non-PPIF funds.                                                                                   deficiency in the program.

                                                                                                                              X
34      Treasury should periodically disclose PPIF trading activity and                                                                      Although Treasury is developing a template
        require PPIF managers to disclose to SIGTARP, within seven                                                                           for periodic reporting, those reports will only
        days of the close of the quarter, all trading activity, holdings,                                                                    provide aggregated information on eligible
        and valuations so that SIGTARP may disclose such information,                                                                        asset investments in the PPIF. Treasury has
        subject to reasonable protections, in its quarterly reports.                                                                         not committed to providing full transparency
                                                                                                                                             to show where public dollars are invested by
                                                                                                                                             requiring periodic disclosure of every trade in
                                                                                                                                        X    the PPIF.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                                 Continued on next page.
SIGTARP RECOMMENDATIONS TABLE (continued)

                                                                                                Partially                    Not
         Recommendation                                                           Implemented Implemented   In Process   Implemented   TBD                    Comments
35       Appropriate metrics be defined and an evaluation system be                                                                          Treasury has indicated that it will substantively
         put in place to monitor the effectiveness of the PPIF managers,                                                                     adopt this recommendation and is developing
         both to ensure they are fulfilling the terms of their agreements                                                                    appropriate metrics.
         and to measure performance.
                                                                                                                X
36       The conditions that give Treasury “cause” to remove a PPIF                                                                          Treasury has refused to adopt this recommen-
         manager should be expanded to include a manager’s perfor-                                                                           dation relying solely on Treasury’s right to end
         mance below a certain standard benchmark, or if Treasury                                                                            the investment period after 12 months, during
         concludes that the manager has materially violated compliance                                                                       which time the PPIF manager’s performance
         or ethical rules.                                                                                                                   may continue to fall below a standard bench-
                                                                                                                                             mark potentially putting significant Govern-
                                                                                                                                             ment funds at risk.
                                                                                                                              X
37       Treasury should require PPIF managers to disclose to Treasury,                                                                      See discussion in this section.
     *   as part of the Watch List process, not only information about
         holdings in eligible assets but also holding in related assets or
         exposures to related liabilities.


                                                                                          X
38       Treasury should require PPIF managers to obtain and maintain                                                                        Treasury has agreed that it can have access
         information about the beneficial ownership of all of the private                                                                    to any information in a fund manager’s
         equity interests, and Treasury should have the unilateral ability                                                                   possession relating to beneficial owners. How-
         to prohibit participation of private equity investors.                                                                              ever, Treasury is not making an affirmative
                                                                                                                                             requirement that managers obtain and main-
                                                                                                                                             tain beneficial owner information. Treasury will
                                                                                                                                             not adopt the recommendation to give itself
                                                                                                                                             unilateral ability to deny access to or remove
                                                                                                                                             an investor, stating that such a right would
                                                                                                                              X              deter participation.
39       Treasury and FRBNY should (1) examine Moody’s assertions                                                                            See discussion in this section.
     *   that some credit rating agencies are using lower standards to
         give a potential TALF security the necessary AAA rating and (2)
         develop mechanisms to ensure that acceptance of collateral
         in TALF is not unduly influenced by the improper incentives to
         overrate that exist among the credit agencies.                                   X
40              should more explicitly document the vote of each                                                                             See discussion in this section.
     * Treasury
       Investment Committee member for all decisions related to the
         investment of TARP funds.
                                                                                          X
41              should improve existing control systems to document                                                                          See discussion in this section.
     * Treasury
       the occurrence and nature of external phone calls and in-
         person meetings about actual and potential recipients of fund-
         ing under the CPP and other similar TARP-assistance programs
                                                                                                                                                                                                 quarterly report to congress I october 21, 2009




         to which they may be part of the decision-making.


                                                                                          X
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                                                                                                                 171
172   special inspector general I troubled asset relief program
                                                                                                                             quarterly report to congress I OCTOBER 21, 2009                                         173



Endnotes
1. 	   Commitment source: Treasury, response to SIGTARP data call, 10/7/2009. The $699 billion represents the $700 billion authorized for TARP by EESA less the $1.2 billion reduction as a result of the
       Helping Families Save Their Homes Act of 2009 (Public Law 111-22).
2. 	   From a budgetary perspective, what Treasury has committed to spend (e.g., signed agreements with TARP fund recipients). Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/
       transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
3. 	   As of September 30, 2009, 47 TARP recipients in various programs had repaid their TARP funds. Under the Capital Purchase Program (“CPP”) 44 TARP recipients had repaid a total $70.7 billion.
       Chrysler Financial, LLC had repaid its TARP funds under the Automotive Industry Financing Program (“AIFP”) totaling $1.5 billion, and the two participants under the Auto Warranty Commitment
       Program (“AWCP”) had repaid a total $641 million.
4. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
5. 	   Treasury, response to SIGTARP data call, 10/7/2009.
6. 	   Treasury, “Press Release: Assistant Secretary for Financial Stability Herbert M. Allison, Jr. Written Testimony Senate Committee on Banking, Housing and Urban Affairs,” 9/24/2009, http://www.financial-
       stability.gov/latest/09242009_testimony.html, accessed 10/12/2009.
7. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, section 122, 10/3/2008.
8. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, section 204, 10/3/2008.
9. 	   EESA related information: Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008. Debt limit: Treasury, Monthly Statement of the Public Debt of the United States, 9/30/2008, http://
       www.treasurydirect.gov/govt/reports/pd/mspd/2008/opds092008.pdf, accessed 9/10/2009; Treasury, Monthly Statement of the Public Debt of the United States, 10/31/2008, http://www.treasurydirect.gov/
       govt/reports/pd/mspd/2008/opds102008.pdf, accessed 9/10/2009.
10. 	 SIGTARP Initial Report to Congress, 2/6/2009, pp. 29-31.
11. 	 Budget and Accounting Act of 1921 (31 U.S.C. 1105(1)), 1/8/2008, http://uscode.house.gov/download/pls/31C11.txt, accessed 9/27/2009.
12. 	 White House, OMB, http://www.gpoaccess.gov/usbudget/fy10/pdf/hist.pdf, accessed 9/25/2009.
13. 	 Office of Management and Budget, Historical Tables, Budget of the United States Government, FY 2009, “Summary of Receipts, Outlays, and Surpluses or Deficits,” p. 22, http://www.gpoaccess.gov/
      USbudget/fy09/pdf/hist.pdf, accessed 10/2/2009.
14. 	 White House, OMB, http://www.gpoaccess.gov/usbudget/fy10/pdf/hist.pdf, accessed 9/25/2009.
15. 	 Federal Reserve Bank of New York, Primary Dealers, 09/18/2009, http://www.newyorkfed.org/aboutthefed/fedpoint/fed02.html, accessed 9/25/2009.
16. 	 Treasury, “How Treasury Auctions Work,” http://www.treasurydirect.gov/instit/auctfund/work/work.htm, accessed 8/31/2009.
17. 	 Treasury, Monthly Statement of the Public Debt of the United States, 9/30/2008, http://www.treasurydirect.gov/govt/reports/pd/mspd/2008/opds092008.pdf, accessed 9/10/2009; Treasury, Monthly Statement
      of the Public Debt of the United States, 10/31/2008, http://www.treasurydirect.gov/govt/reports/pd/mspd/2008/opds102008.pdf, accessed 9/10/2009.
18. 	 Treasury, Historical Long Term Rates, http://www.ustreas.gov/offices/domestic-finance/debt-management/interest-rate/ltcompositeindex_historical.shtml, accessed 9/15/2009; Treasury, Daily Treasury Bill
      Rates, http://www.ustreas.gov/offices/domestic-finance/debt-management/interest-rate/daily_treas_bill_rates_historical_2008.shtml, accessed 9/15/2009.
19. 	 GAO, “Troubled Asset Relief Program: One Year Later, Actions Are Needed to Address Remaining Transparency and Accountability Challenges,” 10/8/2009, http://www.gao.gov/new.items/d1016.pdf,
      accessed 10/9/2009.
20. 	 White House, OMB, FY 2010 Presidential Budget, May 7, 2009, http://www.whitehouse.gov/omb/budget/fy2010/assets/assumptions.pdf, accessed 10/09/2009.
21. 	 Freddie Mac, COFI index, http://www.freddiemac.com/news/finance/cof_index.htm, accessed 10/8/2009.
22. 	 White House, OMB, FY 2010 Presidential Budget, May 7, 2009, http://www.whitehouse.gov/omb/budget/fy2010/assets/assumptions.pdf, accessed 10/9/2009.
23. 	 GAO, “Troubled Asset Relief Program: One Year Later, Actions Are Needed to Address Remaining Transparency and Accountability Challenges,” 10/8/2009, http://www.gao.gov/new.items/d1016.pdf,
      accessed 10/9/2009.
24. 	 Treasury, Office of Fiscal Projections, response to SIGTARP draft report, 10/8/2009.
25. 	 Treasury, Office of Fiscal Projections, response to SIGTARP draft report, 10/8/2009.
26. 	 Treasury, Office of Fiscal Projections, response to SIGTARP draft report, 10/8/2009; GAO, “Troubled Asset Relief Program: One Year Later, Actions Are Needed to Address Remaining Transparency and
      Accountability Challenges,” 10/8/2009, http://www.gao.gov/new.items/d1016.pdf, accessed 10/9/2009.
27. 	 GAO, “Troubled Asset Relief Program: One Year Later, Actions Are Needed to Address Remaining Transparency and Accountability Challenges,” 10/8/2009, http://www.gao.gov/new.items/d1016.pdf,
      accessed 10/9/2009.
28. 	 In FY 2006 there were 138.4 million U.S. individual income tax returns filed to the Internal Revenue Service. Source: IRS, Individual Income Tax Rates and Shares 2006, Winter 2009, http://www.irs.
      gov/pub/irs-soi/09winbulinincome.pdf, accessed 9/15/2009; National debt figure of $11.3 trillion, as authorized under EESA section 122; GDP for 2008 was $14.3 trillion. Source: U.S. Department of
      Commerce, Bureau of Economic Analysis, News Release, 3/26/2009, http://www.bea.gov/newsreleases/national/gdp/2009/pdf/gdp408f.pdf, accessed 9/15/2009.
29. 	 CBO, Director’s Blog, 4/17/2009, http://cboblog.cbo.gov/?m=200904&paged=2 , accessed 9/15/2009; CBO, http://www.cbo.gov/ftpdocs/100xx/doc10056/MainText.4.1.shtml, accessed 8/30/2009.
30. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, http://www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 9/1/2009.
31. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
32. 	 Source for funds invested and funds repaid is: Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009. Source
      for projected funding total is: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.
33. 	 Treasury, “Treasury White Paper: The Capital Assistance Program and Its Role in the Financial Stability Plan,” no date, http://www.treas.gov/press/releases/reports/tg40_capwhitepaper.pdf, accessed
      9/1/2009.
34. 	 Treasury, “Programs,” 5/7/2009, http://www.financialstability.gov/roadtostability/programs.htm, accessed 9/1/2009.
35. 	 The $40 billion Series D cumulative preferred shares were effectively converted to $41.6 billion Series D non-cumulative preferred without any cash outlay by Treasury. Treasury, Transactions Report,
      10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
36. 	 Treasury, response to SIGTARP data call, 10/7/2009.
37. 	 Treasury, “Targeted Investment Program,” 3/26/2009, http://www.financialstability.gov/roadtostability/targetedinvestmentprogram.html, accessed 9/1/2009.
38. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
39. 	 Treasury, Section 102 Report, 12/31/2008, http://www.treas.gov/press/releases/reports/0010208%20sect%20102.pdf, accessed 9/1/2009.
40. 	 Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, http://www.financialstability.gov/latest/hp1358.html, accessed 9/3/2009.
41. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
42. 	 Treasury, response to SIGTARP data call, 7/8/2009.
43. 	 This number was calculated by summing the March, April, May, June, July, August, and September TALF loan subscriptions. Federal Reserve Bank of New York, “Term Asset-Backed Securities Loan
      Facility,” no date, http://www.newyorkfed.org/markets/talf_operations.html, accessed 10/5/2009.
44. 	 This number was calculated by summing the June, July, August, and September TALF CMBS loan subscriptions. FRBNY, “Term Asset-Backed Securities Loan Facility,” no date, http://www.newyorkfed.
      org/markets/talf_operations.html, accessed 10/5/2009.
45. 	 Treasury, “Public-Private Investment Program,” 4/6/2009, http://www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 9/4/2009.
46. 	 FDIC, “Legacy Loans Program – Test of Funding Mechanism,” 7/31/2009, http://www.fdic.gov/news/news/press/2009/pr09131.html, accessed 9/22/2009.
47. 	 Treasury Press Release, “Joint Statement by Secretary of the Treasury Timothy F. Geithner, Chairman of the Board of Governors of the Federal Reserve System Ben S. Bernanke, and Chairman of the
      Federal Deposit Insurance Corporation Sheila Bair, Legacy Asset Program,” 7/8/2009, http://www.financialstability.gov/latest/tg_07082009.html, accessed 9/11/2009.
174                special inspector general I troubled asset relief program



      48. 	 Treasury, “Public-Private Investment Program,” 4/6/2009, http://www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 9/4/2009.
      49. 	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/17/2009, http://www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.html, accessed 10/6/2009.
      50. 	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, http://www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed 9/1/2009.
      51. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      52. 	 Treasury, “Obama Administration Restructuring Initiative: Chrysler-Fiat Alliance,” 4/30/2009, http://www.financialstability.gov/docs/AIFP/Chrysler-restructuring-factsheet_043009.pdf, accessed 9/23/2009;
            Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      53. 	 Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, http://www.treas.gov/press/releases/docs/supplier_support_program_3_18.pdf, accessed 9/1/2009.
      54. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      55. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      56. 	 Treasury, Transactions Report, 7/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_070209.pdf, accessed 9/3/2009.
      57. 	 Treasury, “Ron Bloom, Senior Advisor at the U.S. Treasury Department Written Testimony House Judiciary Commercial and Administrative Law Subcommittee, ‘Ramifications of Auto Industry
            Bankruptcies, Part II,’” 7/21/2009, http://treas.gov/press/releases/tg222.htm, accessed 9/3/2009.
      58. 	 Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, http://www.financialstability.gov/latest/tg48.html, accessed 9/1/2009.
      59. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” 4/28/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 9/3/2009.
      60. 	 Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.
      61. 	 Treasury, “Fact Sheet on Capital Purchase Program,” 3/17/2009, http://www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 9/14/2009.
      62. 	 Treasury, response to SIGTARP data call, 10/7/2009.
      63. 	 GAO, response to SIGTARP draft report, 10/7/2009.
      64. 	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, http://www.financialstability.gov/docs/CPP/Warrant-Statement.pdf, accessed
            9/12/2009.
      65. 	 Treasury, “Assistant Secretary for Financial Stability Herbert M. Allison, Jr. Written Testimony Senate Committee on Banking, Housing, and Urban Affairs,” 9/24/2009, http://www.financialstability.gov/
            latest/09242009_testimony.html, accessed 9/29/2009.
      66. 	 OFS Briefing, 9/24/2009.
      67. 	 Banco Popular Press Release, “Popular Completes Exchange of Outstanding Series C Preferred Stock Owned by U.S. Treasury for Newly Issued Trust Preferred Securities,” 8/25/2009, http://www.miban-
            copopular.com/us/about/news/newsItem.jsp?articleId=cid:2-10-0-167, accessed 9/30/2009.
      68. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      69. 	 Banco Release, “Popular Completes Exchange of Outstanding Series C Preferred Stock Owned by U.S. Treasury for Newly Issued Trust Preferred Securities,” 8/25/2009, http://www.mibancopopular.com/
            us/about/news/newsItem.jsp?articleId=cid:2-10-0-167, accessed 9/30/2009.
      70. 	 Popular, Inc, “Popular Completes Exchange of Outstanding Series C Preferred Stock Owned by U.S. Treasury for Newly Issued Trust Preferred Securities,” 8/25/2009, http://www.bancopopular.com/us/
            about/news/newsItem-en.jsp?articleId=cid:2-10-0-166, accessed 9/30/2009; Treasury, response to SIGTARP data call, 10/7/2009.
      71. 	 Federal Reserve, response to SIGTARP draft report, 10/8/2009.
      72. 	 Federal Reserve, response to SIGTARP draft report, 7/10/2009.
      73. 	 Treasury, Tranche Report, 6/3/2009, http://www.financialstability.gov/docs/TrancheReports/7th_Tranche-Report-Appendix.pdf, accessed 6/5/2009.
      74. 	 Treasury, “Treasury Department Monthly Lending and Intermediation Snapshot: Summary Analysis for July 2009,” 9/16/2009, http://www.financialstability.gov/docs/surveys/Snapshot%20Summary%20
            Analysis%20July%202009.pdf, accessed 9/22/2009.
      75. 	 Treasury, “Banks That Did Not Report — July 2009,” no date, http://www.financialstability.gov/docs/surveys/Did_Not_Report_July_2009.pdf, accessed 10/8/2009.
      76. 	 Treasury, “Quarterly Analysis of Institutions in the Capital Purchase Program 2009 Q1,” no date, http://www.financialstability.gov/docs/CPP/Report/Quarterly%20Analysis%20-%20Data%20Section%20
            07%2030%2009.pdf, accessed 9/30/2009.
      77. 	 Treasury, “Quarterly Analysis of Institutions in the Capital Purchase Program 2009 Q1,” no date, http://www.financialstability.gov/docs/CPP/Report/Quarterly%20Analysis%20-%20Data%20Section%20
            07%2030%2009.pdf, accessed 9/30/2009.
      78. 	 Treasury, “Follow-Up to SIGTARP Audit Report on Use of TARP Funds (SIGTARP-09-001),” 9/16/2009.
      79. 	 Treasury, “United States Department of the Treasury Seventh Tranche Report to Congress,” 6/3/2009, http://www.financialstability.gov/docs/TrancheReports/7th_Tranche-Report-Appendix.pdf, accessed
            9/30/2009.
      80. 	 Treasury, response to SIGTARP data call, 10/14/2009.
      81. 	 Treasury, “Treasury White Paper: The Capital Assistance Program and Its Role in the Financial Stability Plan,” no date, www.treas.gov, accessed 3/25/2009.
      82. 	 Federal Reserve, response to SIGTARP draft report, 10/8/2009.
      83. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      84. 	 Treasury, Stress Test Briefing, 5/8/2009.
      85. 	 Federal Reserve, response to SIGTARP draft report, 10/8/2009.
      86. 	 Treasury, Stress Test Briefing, 5/8/2009.
      87. 	 Treasury response to SIGTARP data call, 9/30/2009.
      88. 	 Treasury, “Programs,” 5/7/2009, www.financialstability.gov/roadtostability/programs.htm, accessed 6/9/2009.
      89. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      90. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      91. 	 Treasury, response to SIGTARP data call, 10/7/2009.
      92. 	 American International Group, Inc. Press Release, “AIG Reports Second Quarter 2009 Results,” 8/7/2009, http://www.sec.gov/Archives/edgar/data/5272/000095012309031640/y78704exv99w1.htm,
            accessed 9/8/2009.
      93. 	 American International Group, Inc., 10Q, 8/7/2009, http://www.sec.gov/Archives/edgar/data/5272/000095012309031618/y78668e10vq.htm, accessed 9/8/2009.
      94. 	 American International Group, Inc., 10Q, 8/7/2009, http://www.sec.gov/Archives/edgar/data/5272/000095012309031618/y78668e10vq.htm, accessed 9/8/2009.
      95. 	 Treasury, response to SIGTARP data call, 10/7/2009.
      96. 	 President and CEO Source: American International Group, Inc., 8-K, 8/4/2009, http://www.sec.gov/Archives/edgar/data/5272/000095012309029141/y78633e8vk.htm, accessed 9/14/2009. Non-Executive
            Chairman Source: American International Group, “AIG Board of Directors Elects Harvey Golub Non-Executive Chairman of the Board,” 8/6/2009, http://www.aigcorporate.com/newsroom/index.html,
            accessed 9/30/2009.
      97. 	 American International Group, Inc., 8-K, 8/4/2009, http://www.sec.gov/Archives/edgar/data/5272/000095012309029141/y78633e8vk.htm, accessed 9/14/2009.
      98. 	 Treasury, response to SIGTARP draft report, 10/8/2009.
      99. 	 Treasury, “Securities Purchase Agreement dated as of April 17, 2009 between American International Group, Inc. and United States Department of the Treasury,” 4/17/2009, http://www.financialstability.
            gov/docs/agreements/Series.F.Securities.Purchase.Agreement.pdf, accessed 9/30/2009.
      100. 	 Treasury, response to SIGTARP data call, 10/7/2009.
      101. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      102. 	 Treasury, “Treasury Releases Guidelines for Targeted Investment Program,” 1/2/2009, www.treas.gov, accessed 1/9/2009.
      103. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
                                                                                                                             quarterly report to congress I OCTOBER 21, 2009                                     175


104. 	 Treasury, “Asset Guarantee Program,” 3/2/2009, www.financialstability.gov/roadtostability/assetguaranteeprogram.htm, accessed 6/5/2009.
105. 	 Treasury, response to SIGTARP draft report, 10/8/2009.
106. 	 Citigroup, Inc., 10-Q, 8/7/2009, http://www.sec.gov/Archives/edgar/data/831001/000104746909007400/a2193853z10-q.htm, accessed 9/14/2009.
107. 	 Treasury response to SIGTARP data call, 9/30/2009.
108. 	 Citigroup, “What Citi is Doing to Increase Lending, Help Keep People in their Homes, and Help Create Jobs,” 8/11/2009, http://www.citibank.com/citi/press/2009/090811a1.pdf, accessed 9/22/2009.
109. 	 Citigroup, “What Citi is Doing to Increase Lending, Help Keep People in their Homes, and Help Create Jobs,” 8/11/2009, http://www.citibank.com/citi/press/2009/090811a1.pdf, accessed 9/22/2009.
110. 	 Bank of America, “Stress Test: Bank of America would need $33.9 billion more in Tier 1 common,” 5/7/2009, http://newsroom.bankofamerica.com/index.php?s=43&item=8450, accessed 9/8/2009.
111. 	 Bank of America, 8-K, 9/22/2009, http://www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 9/22/2009.
112. 	 Bank of America, “Termination Agreement,” 9/21/2009, http://www.financialstability.gov/docs/AGP/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 10/2/2009.
113. 	 Bank of America, “Quarterly Impact Report,” no date, http://www.bankofamerica.com/qir/quarterly_impacted_report.pdf, accessed 9/23/2009.
114. 	 Treasury, response to SIGTARP data call, 7/8/2009.
115. 	 Federal Reserve, “Federal Reserve and Treasury Department announce extension to Term Asset-Backed Securities Loan Facility,” 8/17/2009, http://www.federalreserve.gov/newsevents/press/
       monetary/20090817a.htm, accessed 8/20/2009.
116. 	 FRBNY, response to SIGTARP data call, 10/5/2009.
117. 	 Federal Reserve, response to SIGTARP draft report, 10/8/2009.
118. 	 FDIC Press Release, “Legacy Loans Program – Test of Funding Mechanism,” 7/31/2009, http://www.fdic.gov/news/news/press/2009/pr09131.html, accessed 9/8/2009.
119. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 10/5/2009, http://www.newyorkfed.org/markets/talf_terms.html, accessed 8/20/2009.
120. 	 CPP, TALF, and PPIP: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009.
121. 	 Federal Reserve, “Federal Reserve and Treasury Department announce extension to Term Asset-Backed Securities Loan Facility,” 8/17/2009, http://www.federalreserve.gov/newsevents/press/
       monetary/20090817a.htm, accessed 8/20/2009.
122. 	 Federal Reserve, “Federal Reserve and Treasury Department announce extension to Term Asset-Backed Securities Loan Facility,” 8/17/2009, http://www.federalreserve.gov/newsevents/press/
       monetary/20090817a.htm, accessed 8/20/2009.
123. 	 Federal Reserve Press Release, “Expansion of TALF,” 5/1/2009, www.federalreserve.gov/newsevents/press/monetary/20090501a.htm, accessed 6/1/2009.
124. 	 Source for newly issued CMBS: FRBNY, “Changes from June 23 CMBS Terms and Conditions,” 7/2/2009, http://www.newyorkfed.org/markets/Terms_Blackline_090702.pdf, accessed 7/2/2009. Source
       for legacy CMBS: FRBNY, “Changes from June 23 Legacy CMBS Terms and Conditions,” 7/2/2009, www.ny.frb.org/markets/Legacy_CMBS_Terms_090702_Blackline.pdf, accessed 7/2/2009.
125. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: FAQs,” 10/5/2009, http://www.newyorkfed.org/markets/talf_faq.html, accessed 10/5/2009.
126. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 10/5/2009, http://www.newyorkfed.org/markets/talf_terms.html, accessed 10/5/2009.
127. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 10/5/2009, http://www.newyorkfed.org/markets/talf_terms.html, accessed 10/5/2009.
128. 	 Federal Reserve, “Federal Reserve Announces Changes to Procedures for Evaluating ABS,” 10/5/2009, http://www.federalreserve.gov/newsevents/press/monetary/20091005b.htm, accessed 10/5/2009.
129. 	 Federal Reserve, 12 CFR Part 201, “Extensions of Credit by Federal Reserve Banks,” 10/5/2009, http://www.federalreserve.gov/newsevents/press/monetary/monetary20091005b1.pdf, accessed 10/5/2009.
130. 	 Federal Reserve, “Federal Reserve Announces Changes to Procedures for Evaluating ABS,” 10/5/2009, http://www.federalreserve.gov/newsevents/press/monetary/20091005b.htm, accessed 10/5/2009.
131. 	 Federal Reserve, “Federal Reserve Announces Changes to Procedures for Evaluating ABS,” 10/5/2009, http://www.federalreserve.gov/newsevents/press/monetary/20091005b.htm, accessed 10/5/2009.
132. 	 Federal Reserve, 12 CFR Part 201, “Extensions of Credit by Federal Reserve Banks,” 10/5/2009, http://www.federalreserve.gov/newsevents/press/monetary/monetary20091005b1.pdf, accessed 10/5/2009.
133. 	 Federal Reserve, 12 CFR Part 201, “Extensions of Credit by Federal Reserve Banks,” 10/5/2009, http://www.federalreserve.gov/newsevents/press/monetary/monetary20091005b1.pdf, accessed 10/5/2009.
134. 	 FRBNY, “Risk Assessment Principles for Non-Mortgage-Backed ABS,” 10/5/2009, http://www.ny.frb.org/markets/talf/Risk_Assessment_Principles.pdf, accessed 10/5/2009.
135. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: FAQs,” 10/5/2009, http://www.newyorkfed.org/markets/talf_faq.html, accessed 10/5/2009.
136. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: FAQs,” 10/5/2009, http://www.newyorkfed.org/markets/talf_faq.html, accessed 10/5/2009.
137. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: FAQs,” 10/5/2009, http://www.newyorkfed.org/markets/talf_faq.html, accessed 10/5/2009.
138. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: FAQs,” 10/5/2009, http://www.newyorkfed.org/markets/talf_faq.html, accessed 10/5/2009.
139. 	 FRBNY, response to SIGTARP draft report, 10/8/2009.
140. 	 PIMCO, PIMCO Funds, 6/30/2009, http://www.pimco-funds.com/Overview.aspx, accessed 8/25/2009.
141. 	 PIMCO, PIMCO Mortgage-Backed Securities Fund, 6/30/2009, http://www.pimco-funds.com/ff_reports/Mortgage-Backed%20Securities%20Fund%20Institutional.pdf, accessed 9/14/2009.
142. 	 FRBNY, “PIMCO Collateral Monitor Agreement,” 7/23/2009, http://newyorkfed.org/aboutthefed/PIMCO_TALF.pdf, accessed 9/30/2009.
143. 	 FRBNY, “PIMCO Collateral Monitor Agreement,” 7/23/2009, http://newyorkfed.org/aboutthefed/PIMCO_TALF.pdf, accessed 9/30/2009.
144. 	 FRBNY, “PIMCO Collateral Monitor Agreement,” 7/23/2009, http://newyorkfed.org/aboutthefed/PIMCO_TALF.pdf, accessed 9/30/2009.
145. 	 FRBNY, “PIMCO Collateral Monitor Agreement,” 7/23/2009, http://newyorkfed.org/aboutthefed/PIMCO_TALF.pdf, accessed 9/30/2009.
146. 	 FRBNY, response to SIGTARP draft report, 10/8/2009.
147. 	 FRBNY, response to SIGTARP data call, 10/5/2009.
148. 	 FRBNY, Accepted and Rejected Legacy CMBS CUSIPSs, 9/23/2009, http://www.newyorkfed.org/markets/talf_cusips.html, accessed 9/24/2009.
149. 	 FRBNY, Accepted and Rejected Legacy CMBS CUSIPSs, 9/23/2009, http://www.newyorkfed.org/markets/talf_cusips.html, accessed 9/24/2009.
150. 	 FRBNY, “New York Fed Names Four Non-Primary Dealer Broker-Dealers as TALF Agents,” 9/1/2009, http://www.newyorkfed.org/newsevents/news/markets/2009/an090901.html, accessed 9/1/2009.
151. 	 FRBNY, “New York Fed Names Four Non-Primary Dealer Broker-Dealers as TALF Agents,” 9/1/2009, http://www.newyorkfed.org/newsevents/news/markets/2009/an090901.html, accessed 9/1/2009.
152. 	 Federal Reserve, response to SIGTARP draft report, 10/8/2009.
153. 	 FRBNY, response to SIGTARP data call, 10/5/2009.
154. 	 FRBNY, response to SIGTARP data call, 10/5/2009.
155. 	 Federal Reserve, response to SIGTARP draft report, 10/8/2009.
156. 	 Treasury, Legacy Securities Public-Private Investment Program Compliance and Risk Management briefing, 7/2/2009.
157. 	 FRBNY, Future Program Changes, 8/18/2009, http://www.newyorkfed.org/markets/talf_future.html, accessed 8/20/2009.
158. 	 FRBNY, Future Program Changes, 8/18/2009, http://www.newyorkfed.org/markets/talf_future.html, accessed 8/20/2009.
159. 	 Treasury, “Public-Private Investment Program,” 9/2/2009, http://www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 9/8/2009.
160. 	 Treasury Press Release, “Joint Statement by Secretary of the Treasury Timothy F. Geithner, Chairman of the Board of Governors of the Federal Reserve System Ben S. Bernanke, and Chairman of the
       Federal Deposit Insurance Corporation Sheila Bair Legacy Asset Program,” 7/8/2009, www.financialstability.gov/latest/tg_07082009.html, accessed 9/8/2009.
161. 	 Treasury Press Release, “Treasury Department Announces Initial Closings of Legacy Securities Public-Private Investment Funds,” 9/30/2009, http://www.treas.gov/press/releases/tg304.htm, accessed
       9/30/2009; Treasury Press Release “Treasury Department Announces Additional Initial Closing of Legacy Securities Public-Private Investment Funds,” 10/6/2009, http://www.financialstability.gov/latest/
       tg_10052009.html, accessed 10/8/2009.
162. 	 Treasury, “Public-Private Investment Program,” 9/2/2009, http://www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 9/8/2009.
163. 	 FDIC Press Release, “Legacy Loans Program – Test of Funding Mechanism,” 7/31/2009, http://www.fdic.gov/news/news/press/2009/pr09131.html, accessed 9/8/2009.
164. 	 FDIC Press Release, “Legacy Loans Program – Test of Funding Mechanism,” 7/31/2009, http://www.fdic.gov/news/news/press/2009/pr09131.html, accessed 9/8/2009.
165. 	 FDIC Press Release, “Legacy Loans Program – Test of Funding Mechanism,” 7/31/2009, http://www.fdic.gov/news/news/press/2009/pr09131.html, accessed 9/8/2009.
176                special inspector general I troubled asset relief program



      166. 	 FDIC Press Release, “Legacy Loans Program – Winning Bidder Announced in Pilot Sale,” 9/16/2009, http://www.fdic.gov/news/news/press/2009/pr09172.html, accessed 9/8/2009.
      167. 	 FDIC Press Release, “Legacy Loans Program – Winning Bidder Announced in Pilot Sale,” 9/16/2009, http://www.fdic.gov/news/news/press/2009/pr09172.html, accessed 9/8/2009.
      168. 	 Treasury Press Release, “Treasury Department Provides Updated Guidance on Legacy Securities Public-Private Investment Program,” 4/6/2009, http://www.financialstability.gov/latest/tg82.html, accessed
             9/8/2009.
      169. 	 Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, http://www.financialstability.gov/latest/tg65.html, accessed 9/08/2009.
      170. 	 Treasury Press Release, “Joint Statement by Secretary of the Treasury Timothy F. Geithner, Chairman of the Board of Governors of the Federal Reserve System Ben S. Bernanke, and Chairman of the
             Federal Deposit Insurance Corporation Sheila Bair Legacy Asset Program,” 7/8/2009, www.financialstability.gov/latest/tg_07082009.html, accessed 9/8/2009.
      171. 	 Treasury, “Loan Agreement,” 9/30/2009, http://treas.gov/press/releases/docs/Loan%20Agreement%20-%20Final%20Form.pdf, accessed 9/30/2009.
      172. 	 Treasury, “Loan Agreement,” 9/30/2009, http://treas.gov/press/releases/docs/Loan%20Agreement%20-%20Final%20Form.pdf, accessed 9/30/2009.
      173. 	 Treasury, “Loan Agreement,” 9/30/2009, http://treas.gov/press/releases/docs/Loan%20Agreement%20-%20Final%20Form.pdf, accessed 9/30/2009.
      174. 	 OFS, PPIP Briefing, 9/30/2009.
      175. 	 Treasury Press Release, “Treasury Department Announces Additional Initial Closing of Legacy Securities Public-Private Investment Funds,” 10/6/2009, http://www.financialstability.gov/latest/tg_10052009.
             html, accessed 10/8/2009.
      176. 	 Treasury Press Release, “Treasury Department Announces Additional Initial Closing of Legacy Securities Public-Private Investment Funds,” 10/6/2009, http://www.financialstability.gov/latest/tg_10052009.
             html, accessed 10/8/2009.
      177. 	 Treasury, Contract, “PPIP Compliance and Oversight Services in Support of the Office of Financial Stability (OFS) for the Department of Treasury,” 9/10/2009.
      178. 	 Treasury, Contract, “PPIP Compliance and Oversight Services in Support of the Office of Financial Stability (OFS) for the Department of Treasury,” 9/10/2009.
      179. 	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, http://www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.html, accessed 3/17/2009.
      180. 	 Small Business Administration, “Q&A for Small Business Owners,” no date, www.treas.gov/press/releases/reports/tg58_smallbiz_qa.pdf, accessed 6/30/2009.
      181. 	 Treasury, response to SIGTARP draft report, 10/8/2009.
      182. 	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, http://www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed 9/2/2009.
      183. 	 COP, “The Use of TARP Funds in the Support and Reorganization of the Domestic Automotive Industry,” 9/2/2009, http://cop.senate.gov/documents/cop-090909-report.pdf, accessed 9/23/2009.
             According to the Auto Task Force, initial loans are $4 billion for Chrysler, but COP points to the $7.3 billion pre-bankruptcy and DIP financing as unlikely to be recovered.
      184. 	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, http://www.financialstability.gov/roadtostability/autoprogram.html, accessed 9/4/2009.
      185. 	 Treasury Press Release, “Treasury Announces Auto Supplier Support Program,” 3/19/2009, http://www.financialstability.gov/latest/auto3_18.html, accessed 9/2/2009.
      186. 	 Treasury Press Release, “Treasury Announces Auto Supplier Support Program,” 3/19/2009, http://www.financialstability.gov/latest/auto3_18.html, accessed 9/2/2009.
      187. 	 Treasury Press Release, “Treasury Announces Auto Supplier Support Program,” 3/19/2009, http://www.financialstability.gov/latest/auto3_18.html, accessed 9/2/2009.
      188. 	 Treasury, Transactions Report, 10/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_09-30-09.pdf, accessed 10/2/2009.
      189. 	 Treasury, Transactions Report, 10/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_09-30-09.pdf, accessed 10/2/2009.
      190. 	 Treasury, Transactions Report, 10/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_09-30-09.pdf, accessed 10/2/2009.
      191. 	 Treasury, “Obama Administration’s New Warranty Commitment Program,” 3/30/2009, http://www.financialstability.gov/docs/WarranteeCommitmentProgram.pdf, accessed 9/2/2009.
      192. 	 Treasury Press Release, 7/21/2009, http://treas.gov/press/releases/tg222.htm, accessed 9/9/2009. Treasury, response to SIGTARP draft report, 10/14/2009.
      193. 	 Treasury, Transactions Report, 10/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_09-30-09.pdf, accessed 10/2/2009.
      194. 	 In the event of a Chrysler Financial bankruptcy, Treasury would receive an equity interest in Chrysler Financial that is valued as the greater of $1.375 billion or 40% of its overall equity value. Treasury,
             response to SIGTARP draft report, 10/8/2009. Treasury, “Cumulative Interest Report,” 8/31/2009, http://financialstability.gov/docs/dividends-interest-reports/August2009_DividendsInterestReport.pdf,
             accessed 10/15/2009.
      195. 	 Treasury, “Obama Administration Auto Restructuring Initiative: Chrysler-Fiat Alliance,” 4/30/2009, www.financialstability.gov/docs/AIFP/Chrysler-restructuring-factsheet_043009.pdf, accessed 9/2/2009.
      196. 	 Treasury, Cumulative Interest Report, 8/20/2009, http://www.financialstability.gov/docs/dividends-interest-reports/072009_report.pdf, accessed 9/30/2009.
      197. 	 Treasury, response to SIGTARP draft report, 10/8/2009.
      198. 	 Treasury, Transactions Report, 10/2/2009, http://www.financialstability.gov/docs/transaction-reports/transactions-report_09-30-09.pdf, accessed 10/2/2009.
      199. 	 Treasury, “Obama Administration Auto Restructuring Initiative: General Motors Restructuring,” 6/1/2009, www.financialstability.gov/latest/05312009_gm-factsheet.html, accessed 9/2/2009.
      200. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/30/2009.
      201. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 6/30/2009.
      202. 	 Treasury, “Treasury Announces Home Price Decline Protection Incentives,” 7/31/2009, http://www.financialstability.gov/latest/tg_07312009.html, accessed 9/1/2009.
      203. 	 Treasury, response to SIGTARP data call, 10/7/2009.
      204. 	 Treasury, response to SIGTARP draft report, 4/9/2009.
      205. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      206. 	 Treasury, response to SIGTARP data call, 10/7/2009.
      207. 	 Treasury, Transactions Report, 10/2/2009, http://financialstability.gov/docs/transaction-reports/Transactions_Report_09-30-09.pdf, accessed 10/5/2009.
      208. 	 Treasury, “Treasury Announces Home Price Decline Protection Incentives,” 7/31/2009, http://www.financialstability.gov/latest/tg_07312009.html, accessed 9/1/2009.
      209. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program – Home Price Decline Protection Incentives,” 7/31/2009, http://www.financialstability.gov/docs/press/
             SupplementalDirective7-31-09.pdf, accessed 9/1/2009.
      210. 	 Federal Housing Finance Agency, “About HPI,” no date, http://www.fhfa.gov/Default.aspx?Page=81, accessed 9/30/2009.
      211. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program – Home Price Decline Protection Incentives,” 7/31/2009, http://www.financialstability.gov/docs/press/
             SupplementalDirective7-31-09.pdf, accessed 9/1/2009.
      212. 	 Assume that the HPDP rate is calculated at the start of the HAMP modification.
      213. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program – Home Price Decline Protection Incentives,” 7/31/2009, http://www.financialstability.gov/docs/press/
             SupplementalDirective7-31-09.pdf, accessed 9/1/2009.
      214. 	 According to Treasury, “HPDP incentive payments will be made only with respect to HAMP modifications with NPV dates on or after September 1, 2009. Fannie Mae will determine the potential HPDP
             incentive payable for a HAMP modification as of the date the NPV model is initially run by the servicer to evaluate the borrower’s eligibility to receive a HAMP offer (NPV Date).” It is assumed that the
             trial period starts on the NPV Date.
      215. 	 Treasury, “Update: Foreclosure Alternatives and Home Price Decline Protection Incentives, 5/14/2009, http://www.treas.gov/press/releases/docs/05142009FactSheet-MakingHomesAffordable.pdf, accessed
             9/14/2009.
      216. 	 Treasury, “Administration, Servicers Commit to Faster Relief for Struggling Homeowners through Loan Modifications,” 7/29/2009, http://www.financialstability.gov/latest/07282009.html, accessed
             9/2/2009.
      217. 	 Treasury, “Obama Administration Releases New Data on Making Home Affordable Program, Achieves Key Milestone Weeks Ahead of Schedule,” 10/8/2009, http://www.financialstability.gov/latest/
             tg_10082009.html, accessed 10/8/2009.
      218. 	 Treasury, “Administration, Servicers Commit to Faster Relief for Struggling Homeowners through Loan Modifications,” 7/29/2009, http://www.financialstability.gov/latest/07282009.html, accessed
             9/2/2009.
      219. 	 Treasury, “Administration, Servicers Commit to Faster Relief for Struggling Homeowners through Loan Modifications,” 7/29/2009, http://www.financialstability.gov/latest/07282009.html, accessed
             9/2/2009.
      220. 	 Treasury, “Administration, Servicers Commit to Faster Relief for Struggling Homeowners through Loan Modifications,” 7/29/2009, http://www.financialstability.gov/latest/07282009.html, accessed
             9/2/2009.
                                                                                                                           quarterly report to congress I OCTOBER 21, 2009                                      177


221. 	 Treasury, “Making Home Affordable Program On Pace to Offer Help to Millions of Homeowners,” 8/4/2009, http://www.financialstability.gov/latest/tg252.html, accessed 9/1/2009.
222. 	 Treasury, “Making Home Affordable Program On Pace to Offer Help to Millions of Homeowners,” 8/4/2009, http://www.financialstability.gov/latest/tg252.html, accessed 9/1/2009.
223. 	 American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
224. 	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.treas.gov/press/releases/tg165.htm, accessed 9/6/2009.
225. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 9/6/2009.
226. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 9/6/2009.
227. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 9/6/2009.
228. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 9/6/2009.
229. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 9/6/2009.
230. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 9/6/2009.
231. 	 Bank of America, “Excessive or Luxury Expenditure Policy,” 9/2009, http://phx.corporate-ir.net/External.File?item=UGFyZW50SUQ9MTUxNjN8Q2hpbGRJRD0tMXxUeXBlPTM=&t=1, accessed
       9/24/2009.
232. 	 Chrysler, “Chrysler Group LLC Policy,” 9/14/2009, http://corp.chryslerfinancial.com/documents/Excessive_or_Luxury_Expenditures_Policy_TARP_FINAL_9-9-09.pdf, accessed 9/24/2009.
233. 	 GM, “General Motors Expense Policy,” 9/14/2009, http://www.gm.com/corporate/investor_information/docs/corp_gov/GM_ExpensePolicy.pdf, accessed 9/24/2009; Bank of America, “Excessive or Luxury
       Expenditure Policy,” 9/2009, http://phx.corporate-ir.net/External.File?item=UGFyZW50SUQ9MTUxNjN8Q2hpbGRJRD0tMXxUeXBlPTM=&t=1, accessed 9/24/2009.
234. 	 Treasury, “Special Master for Executive Compensation,” 9/4/2009, http://www.financialstability.gov/about/spcMaster.html, accessed 9/6/2009.
235. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, http://www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 9/6/2009.
236. 	 Treasury, “Special Master for Executive Compensation,” 9/4/2009, http://www.financialstability.gov/about/spcMaster.html, accessed 9/6/2009.
237. 	 AIG, 8-K, 8/16/2009, http://www.corporate-ir.net/seccapsule/seccapsule.asp?m=f&c=76115&fid=6470357&dc=, accessed 9/6/2009.
238. 	 Treasury, response to SIGTARP draft report, 10/8/2009.
239. 	 Treasury Press Release, “Treasury Outlines Framework For Regulatory Reform,” 3/27/2009, http://www.financialstability.gov/latest/tg72.html, accessed 9/23/2009.
240. 	 Treasury Press Release, “FACT SHEET: Administration’s Regulatory Reform Agenda Moves Forward Say-on-Pay,” 7/16/2009, http://www.financialstability.gov/latest/tg_07162009b.html, accessed 9/7/2009.
241. 	 Treasury Press Release, “FACT SHEET: Administration’s Regulatory Reform Agenda Moves Forward Say-on-Pay,” 7/16/2009, http://www.financialstability.gov/latest/tg_07162009.html, accessed 9/7/2009.
242. 	 Treasury Press Release, “FACT SHEET: Administration’s Regulatory Reform Agenda Moves Forward Say-on-Pay,” 7/16/2009, http://www.financialstability.gov/latest/tg_07162009b.html, accessed 9/7/2009.
243. 	 Treasury Press Release, “FACT SHEET: Administration’s Regulatory Reform Agenda Moves Forward Say-on-Pay,” 7/16/2009, http://www.financialstability.gov/latest/tg_07162009b.html, accessed 9/7/2009.
244. 	 Treasury, “Say on Pay” Fact Sheet, 7/16/2009, http://www.treas.gov/press/releases/reports/fact_sheet_say%20on%20pay.pdf, accessed 9/7/2009.
245. 	 Treasury Press Release, “FACT SHEET: Administration’s Regulatory Reform Agenda Moves Forward Say-on-Pay,” 7/16/2009, http://www.financialstability.gov/latest/tg_07162009.html, accessed 9/7/2009.
246. 	 Treasury Press Release, “FACT SHEET: Administration’s Regulatory Reform Agenda Moves Forward Say-on-Pay,” 7/16/2009, http://www.financialstability.gov/latest/tg_07162009.html, accessed 9/7/2009.
247. 	 Treasury Press Release, “FACT SHEET: Administration’s Regulatory Reform Agenda Moves Forward Say-on-Pay,” 7/16/2009, http://www.financialstability.gov/latest/tg_07162009.html, accessed 9/7/2009.
248. 	 European Commission Press Release, “Commission Adopts Proposal To Regulate Credit Rating Agencies,” 4/23/2009, http://europa.eu/rapid/pressReleasesAction.do?reference=IP/09/629&format=HTML
       &aged=0&language=EN&guiLanguage=en, accessed 8/25/2009.
249. 	 SEC, Final Rule: References to Ratings of Nationally Recognized Statistical Rating Organizations, 10/5/2009, http://www.sec.gov/rules/other/2009/34-60789.pdf, accessed 10/9/2009.
250. 	 Treasury’s Testimony of Michael Barr, Assistant Treasury Secretary for Financial Institutions before the Senate Committee on Banking, Housing, and Urban Affairs, 8/5/2009, http://banking.senate.gov/
       public/index.cfm?FuseAction=Files.View&FileStore_id=bc6282ec-ed31-4e44-910e-eab02a74191c, accessed 8/25/2009.
251. 	 Federal Reserve Bank of St. Louis, FRED, Corporate Aaa & Baa, http://research.stlouisfed.org/fred2/categories/119, accessed 10/10/2009.
252. 	 SEC, Amendments to Rules for Nationally Recognized Statistical Rating Organizations, 2/9/2009, http://www.sec.gov/rules/final/2009/34-59342.pdf, accessed 10/9/2009.
253. 	 SEC, Amendments to Rules for Nationally Recognized Statistical Rating Organizations, 2/9/2009, http://www.sec.gov/rules/final/2009/34-59342.pdf, accessed 10/9/2009.
254. 	 Ratings methodologies for the three largest ratings agencies: Moody’s, http://v3.moodys.com/researchandratings/methodology/003006001/rating-methodologies/method-
       ology/003006001/4294966628/4294966848/0/0/-/0/rr; S&P, http://www2.standardandpoors.com/portal/site/sp/en/us/page.topic/ratings_pcd/2,1,1,4,0,0,0,0,0,0,0,0,0,0,0,0.html; Fitch, http://www.fitchrat-
       ings.com/creditdesk/public/criteria_rpt.cfm?sector_flag=1&marketsector=1&detail=&body_content=criteria_overview&CFID=41634665&CFTOKEN=91914739&jsessionid=02301f3dab06$0E$3F$3,
       accessed 9/30/2009.
255. 	 SEC, “Summary Report of Issues Identified in the Commission Staff’s Examinations of Select Credit Rating Agencies,” 7/2009, http://www.sec.gov/news/studies/2008/craexamination070808.pdf, accessed
       9/16/2009.
256. 	 Moody’s Investor Services, “Moody’s Rating Symbols and Definitions,” 6/2009, http://v3.moodys.com/sites/products/AboutMoodysRatingsAttachments/MoodysRatingsSymbolsand%20Definitions.pdf,
       accessed 9/23/2009.
257. 	 Fitch Ratings, “The Ratings Process,” 7/2006, http://www.fitchratings.com/creditdesk/reports/report_frame.cfm?rpt_id=284030, accessed 9/9/2009.
258. 	 Moody’s Investor Services, “Moody’s Rating Symbols and Definitions,” 6/2009, http://v3.moodys.com/sites/products/AboutMoodysRatingsAttachments/MoodysRatingsSymbolsand%20Definitions.pdf,
       accessed 9/23/2009.
259. 	 SEC, Speech by SEC Commissioner Troy A. Paredes, Remarks at the Open Meeting of the U.S. Securities & Exchange Commission Regarding Money Market Fund Reform, 6/24/2009, http://www.sec.
       gov/news/speech/2009/spch062409tap.htm, accessed 9/28/2009.
260. 	 SEC, Letter from Chairman William Donaldson to U.S. House of Representatives Subcommittee on Capital Markets and Government Sponsored Entities, 6/4/2003, http://www.sec.gov/spotlight/ratinga-
       gency/baker060403.pdf, accessed 9/15/2009.
261. 	 SEC, Proposed Rule 17 CFR Part 240 Definition of Nationally Recognized Statistical Rating Organization, 4/2005, http://www.sec.gov/rules/proposed/33-8570.pdf, accessed 9/22/2009.
262. 	 SEC, response to SIGTARP draft report, 10/9/2009.
263. 	 SEC, Proposed Rule 17 CFR Part 240 Definition of Nationally Recognized Statistical Rating Organization, 4/2005, http://www.sec.gov/rules/proposed/33-8570.pdf, accessed 9/22/2009.
264. 	 SEC, Testimony of Chairman Christopher Cox: “The Role and Impact of Credit Rating Agencies on the Subprime Credit Markets” before the Senate Committee on Banking, Housing and Urban Affairs,
       9/26/2007, http://www.sec.gov/news/testimony/2007/ts092607cc.htm, accessed 9/4/2009.
265. 	 SEC, Testimony of Commissioner Isaac C. Hunt Jr. Concerning the Role of Credit Rating Agencies in the U.S. Securities Markets, before the United States Senate Committee on Governmental Affairs,
       3/20/2002, http://www.sec.gov/news/testimony/032002tsih.htm, accessed 9/15/2009.
266. 	 SEC, Letter from Chairman William Donaldson to U.S. House of Representatives Subcommittee on Capital Markets and Government Sponsored Entities, 6/4/2003, http://www.sec.gov/spotlight/ratinga-
       gency/baker060403.pdf, accessed 9/15/2009; SEC, Testimony of Commissioner Isaac C. Hunt Jr. Concerning the Role of Credit Rating Agencies in the U.S. Securities Markets, before the United States
       Senate Committee on Governmental Affairs, 3/20/2002, http://www.sec.gov/news/testimony/032002tsih.htm, accessed 9/15/2009.
267. 	 SEC, Testimony of Chairman Christopher Cox: “The Role and Impact of Credit Rating Agencies on the Subprime Credit Markets,” 9/26/2007, http://www.sec.gov/news/testimony/2007/ts092607cc.htm,
       accessed 9/4/2009.
268. 	 Testimony of Sean Egan, Managing Director, Egan-Jones Rating Co. before the House Committee on Oversight and Government Reform, 10/22/2008, http://oversight.house.gov/docu-
       ments/20081022102906.pdf, accessed 8/26/2009.
269. 	 Testimony of Sean Egan, Managing Director, Egan-Jones Rating Co. before the House Committee on Oversight and Government Reform, 10/22/2008, http://oversight.house.gov/docu-
       ments/20081022102906.pdf, accessed 8/26/2009.
270. 	 2005 data source: Statement of Frank L. Raiter, Former Executive, Standard & Poor’s to U.S. House of Representatives, Committee on Oversight and Government Reform, Hearing: Credit Rating
       Agencies and the Financial Crisis, 10/23/2008, http://oversight.house.gov/documents/20081023162631.pdf, accessed 9/11/2009; 2006 data source: Statement by David Sherr, Managing Director
       and Global Head of Securitized Products, Lehman Brothers before the Senate Banking Subcommittee on Securities, Insurance, and Investment, 4/17/2007, http://banking.senate.gov/public/index.
       cfm?FuseAction=Files.View&FileStore_id=35f64e06-58c6-4a3f-a58e-a1e07b0e5ec5, accessed 9/15/2009.
178                special inspector general I troubled asset relief program



      271. 	 Representative Henry A. Waxman, Statement to U.S. House of Representatives Committee on Oversight and Government Reform, Hearing: Credit Rating Agencies and the Financial Crisis, 10/23/2008,
             http://oversight.house.gov/documents/20081023162631.pdf, accessed 9/11/2009.
      272. 	 Testimony of Sean Egan, Managing Director, Egan-Jones Rating Co. before the House Committee on Oversight and Government Reform, 10/22/2008, http://oversight.house.gov/docu-
             ments/20081022102906.pdf, accessed 8/26/2009.
      273. 	 Fitch Ratings, “The Ratings Process,” 7/2006, http://www.fitchratings.com/creditdesk/reports/report_frame.cfm?rpt_id=284030, accessed 9/9/2009.
      274. 	 FRBNY, “Understanding the Securitization of Subprime Mortgage Credit,” 3/2008, http://www.newyorkfed.org/research/staff_reports/sr318.pdf, accessed 9/22/2009.
      275. 	 SEC, Letter from Chairman William Donaldson to U.S. House of Representatives Subcommittee on Capital Markets and Government Sponsored Entities, 6/4/2003, http://www.sec.gov/spotlight/ratinga-
             gency/baker060403.pdf, accessed 9/15/2009.
      276. 	 SEC, Letter from Chairman William Donaldson to U.S. House of Representatives Subcommittee on Capital Markets and Government Sponsored Entities, 6/4/2003, http://www.sec.gov/spotlight/ratinga-
             gency/baker060403.pdf, accessed 9/15/2009.
      277. 	 Testimony of Professor John Coffee, Columbia University Law School, before the United States Senate Committee on Banking, Housing and Urban Affairs, 4/22/2008, http://banking.senate.gov/public/_
             files/OpgStmtCoffeeSenateTestimonyTurmoilintheUSCreditMarkets.pdf, accessed 9/30/2009.
      278. 	 DBRS, Internal Code of Conduct, June 2009, http://www.dbrs.com/research/228896/internal/Code_Of_Conduct.pdf, accessed 9/16/2009.
      279. 	 FDIC, Presentation by Paul Kupiec, “NRSRO’s: An Overview of the Policy Debate,” 7/2006, http://www.fdic.gov/bank/analytical/cfr/2006/july/cfrss_Kupiec_06.pdf, accessed 9/20/2009.
      280. 	 SEC, Testimony of Chairman Christopher Cox: “The Role and Impact of Credit Rating Agencies on the Subprime Credit Markets” before the Senate Committee on Banking, Housing and Urban Affairs,
             9/26/2007, http://www.sec.gov/news/testimony/2007/ts092607cc.htm, accessed 9/4/2009.
      281. 	 SEC, Testimony of Chairman Christopher Cox: “The Role and Impact of Credit Rating Agencies on the Subprime Credit Markets” before the Senate Committee on Banking, Housing and Urban Affairs,
             9/26/2007, http://www.sec.gov/news/testimony/2007/ts092607cc.htm, accessed 9/4/2009.
      282. 	 SEC, Testimony of Chairman Christopher Cox: “The Role and Impact of Credit Rating Agencies on the Subprime Credit Markets” before the Senate Committee on Banking, Housing and Urban Affairs,
             9/26/2007, http://www.sec.gov/news/testimony/2007/ts092607cc.htm, accessed 9/4/2009.
      283. 	 SEC, Testimony of Chairman Christopher Cox: “The Role and Impact of Credit Rating Agencies on the Subprime Credit Markets” before the Senate Committee on Banking, Housing and Urban Affairs,
             9/26/2007, http://www.sec.gov/news/testimony/2007/ts092607cc.htm, accessed 9/4/2009.
      284. 	 Rapid Ratings, Testimony to SEC Roundtable, “Oversight of Credit Rating Agencies,” http://www.sec.gov/comments/4-579/4579-20.pdf, accessed 9/29/2009.
      285. 	 Rapid Ratings, Testimony to SEC Roundtable, “Oversight of Credit Rating Agencies,” http://www.sec.gov/comments/4-579/4579-20.pdf, accessed 9/29/2009.
      286. 	 International Monetary Fund, “The Systemic Regulation of Credit Rating Agencies and Rated Markets,” June 2009, https://www.imf.org/external/pubs/ft/wp/2009/wp09129.pdf, accessed 10/1/2009.
      287. 	 SEC, Testimony of Chairman Christopher Cox: “The Role and Impact of Credit Rating Agencies on the Subprime Credit Markets” before the Senate Committee on Banking, Housing and Urban Affairs,
             9/26/2007, http://www.sec.gov/news/testimony/2007/ts092607cc.htm, accessed 9/4/2009.
      288. 	 Federal Reserve, Joint Statement by Secretary of the Treasury Timothy F. Geithner, Chairman of the Board of Governors of the Federal Reserve System Ben S. Bernanke, Chairman of the Federal Deposit
             Insurance Corporation Sheila Bair, and Comptroller of the Currency John C. Dugan, 5/6/2009, http://www.federalreserve.gov/newsevents/press/bcreg/20090506a.htm, accessed 10/10/2009.
      289. 	 State of California, Office of the Attorney General, News Release, “Brown Launches investigation into Credit Rating Agencies’ Role in Fueling Financial Crisis,” 9/17/2009, http://ag.ca.gov/newsalerts/
             print_release.php?.id=1808, accessed 9/28/2009.
      290. 	 Bloomberg Finance L.P., Rating for Impac Secured Assets Corp. Mortgage Pass-through Certificates, Series IMSA 2005-2 A1, 3/12/2008, retrieved 10/8/2009 from Bloomberg terminal.
      291. 	 GAO, Financial Crisis Highlights Need to Improve Oversight of Leverage at Financial Institutions and across System, 7/27/2009, http://www.gao.gov/new.items/d09739.pdf, accessed 8/31/2009.
      292. 	 Jerome S. Fons, Former Managing Director of Credit Policy, Moody’s Investor Services, Testimony to Congress, U.S. House of Representatives, Committee on Oversight and Government Reform, Hearing:
             Credit Rating Agencies and the Financial Crisis, 10/23/2008, http://oversight.house.gov/documents/20081023162631.pdf, accessed 9/11/2009.
      293. 	 Jerome S. Fons, Former Managing Director of Credit Policy, Moody’s Investor Services, Testimony to Congress, U.S. House of Representatives, Committee on Oversight and Government Reform, Hearing:
             Credit Rating Agencies and the Financial Crisis, 10/23/2008, http://oversight.house.gov/documents/20081023162631.pdf, accessed 9/11/2009.
      294. 	 SEC, Summary Report of Issues Identified in the Commission Staff’s Examinations of Select Credit Rating Agencies, 7/2009, http://www.sec.gov/news/studies/2008/craexamination070808.pdf, accessed
             9/16/2009.
      295. 	 FRBNY, “Understanding the Securitization of Subprime Mortgage Credit,” 3/2008, http://www.newyorkfed.org/research/staff_reports/sr318.pdf, accessed 9/22/2009.
      296. 	 Testimony of Sean Egan, Managing Director, Egan-Jones Rating Co. before the House Committee on Oversight and Government Reform, 10/22/2008, http://oversight.house.gov/docu-
             ments/20081022102906.pdf, accessed 9/11/2009.
      297. 	 Testimony of J. Kyle Bass, Managing Partner for Hayman Advisors L.P., U.S. House of Representatives Committee on Financial Services, Subcommittee on Capital Markets and Government Sponsored
             Entities, “The Role of the Credit Rating Agencies in the Structured Finance Market,” 9/27/2007, http://financialservices.house.gov/hearing110/bass.pdf, accessed 9/30/2009.
      298. 	 FRBNY, “Understanding the Securitization of Subprime Mortgage Credit,” 3/2008, http://www.newyorkfed.org/research/staff_reports/sr318.pdf, accessed 9/22/2009.
      299. 	 U.S. House of Representatives, Committee on Oversight and Government Reform, Hearing: Credit Rating Agencies and the Financial Crisis, 10/23/2008, http://oversight.house.gov/docu-
             ments/20081023162631.pdf, accessed 9/11/2009.
      300. 	 SEC, Summary Report of Issues Identified in the Commission Staff’s Examinations of Select Credit Rating Agencies, 7/2009, http://www.sec.gov/news/studies/2008/craexamination070808.pdf, accessed
             9/16/2009.
      301. 	 State of California, Office of the Attorney General, News Release, “Brown Launches Investigation into Credit Rating Agencies’ Role in Fueling Financial Crisis,” 9/17/2009, http://ag.ca.gov/newsalerts/
             print_release.php?.id=1808, accessed 9/28/2009.
      302. 	 SEC, Proposed Rules for Nationally Recognized Statistical Rating Organizations, 6/16/2008 http://www.sec.gov/rules/proposed/2008/34-57967.pdf, accessed 9/23/2009.
      303. 	 State of Connecticut, Attorney General’s Office Press Release, “Attorney General Questions Fed Program That Steers Up To $400 Million To Big Three Raters, Asks Fed To Reconsider,” 4/6/2009, http://
             www.ct.gov/ag/cwp/view.asp?Q=438034&A=3673, accessed 9/15/2009.
      304. 	 Treasury, “Public-Private Investment Program: Fact Sheet,” 3/23/2009, http://www.financialstability.gov/latest/tg65.html, accessed 9/8/2009.
      305. 	 Federal Reserve, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Secured Credit Facility Authorized for American International Group, Inc.,” no date, http://www.
             federalreserve.gov/monetarypolicy/files/129aigsecborrowfacility.pdf, accessed 10/1/2009.
      306. 	 Testimony of Maurice Greenberg, former Chairman and CEO of AIG, before the United States House of Representatives Committee on Oversight and Government Reform, 10/7/2009, http://oversight.
             house.gov/documents/20081007101332.pdf, accessed 10/10/2009.
      307. 	 Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC before the U.S. House of Representatives Subcommittee on Capital Markets and Government
             Sponsored Entities, 3/18/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/rodney031809.pdf, accessed 9/10/2009.
      308. 	 Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC before the U.S. House of Representatives Subcommittee on Capital Markets and Government
             Sponsored Entities, 3/18/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/rodney031809.pdf, accessed 9/10/2009.
      309. 	 Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC before the U.S. House of Representatives Subcommittee on Capital Markets and Government
             Sponsored Entities, 3/18/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/rodney031809.pdf, accessed 9/10/2009.
      310. 	 Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC before the U.S. House of Representatives Subcommittee on Capital Markets and Government
             Sponsored Entities, 3/18/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/rodney031809.pdf, accessed 9/10/2009.
      311. 	 AIG, 10-K, 2/28/2008, http://www.sec.gov/Archives/edgar/data/5272/000095012308002280/y44393e10vk.htm, accessed 10/6/2009.
      312. 	 AIG, 10-Q, 5/8/2008, http://www.sec.gov/Archives/edgar/data/5272/000095012308005336/y51401ae10vq.htm, accessed 10/5/2009.
      313. 	 Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC before the U.S. House of Representatives Subcommittee on Capital Markets and Government
             Sponsored Entities, 3/18/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/rodney031809.pdf, accessed 9/10/2009.
      314. 	 Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC before the U.S. House of Representatives Subcommittee on Capital Markets and Government
             Sponsored Entities, 3/18/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/rodney031809.pdf, accessed 9/10/2009.
      315. 	 AIG, 10-Q, 8/6/2008, http://www.sec.gov/Archives/edgar/data/5272/000095012308008949/y59464e10vq.htm, accessed 10/5/2009.
                                                                                                                           quarterly report to congress I OCTOBER 21, 2009                                    179


316. 	 Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC before the U.S. House of Representatives Subcommittee on Capital Markets and Government
       Sponsored Entities, 3/18/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/rodney031809.pdf, accessed 9/10/2009.
317. 	 Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC before the U.S. House of Representatives Subcommittee on Capital Markets and Government
       Sponsored Entities, 3/18/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/rodney031809.pdf, accessed 9/10/2009.
318. 	 AIG, 10-K, 3/2/2009, http://www.sec.gov/Archives/edgar/data/5272/000095012309003734/y74794e10vk.htm, accessed 10/5/2009.
319. 	 Federal Reserve, Testimony of Chairman Ben Bernanke before the committee on Financial Services, U.S. House of Representatives, 3/24/2009, http://www.federalreserve.gov/newsevents/testimony/
       bernanke20090324a.htm, accessed 10/5/2009.
320. 	 Treasury, response to SIGTARP data call, 10/7/2009.
321. 	 Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC before the U.S. House of Representatives Subcommittee on Capital Markets and Government
       Sponsored Entities, 3/18/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/rodney031809.pdf, accessed 9/10/2009.
322. 	 Federal Reserve, Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Secured Credit Facility Authorized for American International Group, Inc. http://www.federalre-
       serve.gov/monetarypolicy/files/129aigsecborrowfacility.pdf, accessed 10/1/2009.
323. 	 Federal Reserve, Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Secured Credit Facility Authorized for American International Group, Inc. http://www.federalre-
       serve.gov/monetarypolicy/files/129aigsecborrowfacility.pdf, accessed 10/1/2009.
324. 	 SEC, response to SIGTARP draft report, 10/9/2009.
325. 	 SEC Commissioner Kathleen Casey, Speech by SEC Commissioner: Statement at SEC Open Meeting, 9/17/2009, http://www.sec.gov/news/speech/2009/spch091709klc.htm, accessed 10/2/2009.
326. 	 SEC Commissioner Kathleen Casey, Speech by SEC Commissioner: Statement at SEC Open Meeting, 9/17/2009, http://www.sec.gov/news/speech/2009/spch091709klc.htm, accessed 10/2/2009.
327. 	 SEC, “SEC Oversight: Current state and Agenda” 7/14/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/sec_testimony.pdf, accessed 9/25/2009.
328. 	 SEC, “SEC Votes on Measure to Further Strengthen Oversight of Credit Rating Agencies,” 9/17/2009, www.sec.gov/new/press/2009/2009-200factsheet.htm, accessed 9/21/2009.
329. 	 Ray McDaniel, President of Moody’s, Testimony at Congressional Oversight Hearing, 10/22/2008, http://oversight.house.gov/story.asp?ID=2255, accessed 9/30/2009.
330. 	 SEC Commissioner Kathleen Casey, Speech by SEC Commissioner: Statement at SEC Open Meeting, 9/17/2009, http://www.sec.gov/news/speech/2009/spch091709klc.htm, accessed 10/2/2009.
331. 	 Mortgage Bankers’ Association, Comments on Proposed Modifications to SEC Rules and Forms, 9/5/2008, http://www.sec.gov/comments/s7-19-08/s71908-32.pdf, accessed 9/25/2009.
332. 	 Lawrence J. White, Testimony to U.S. House of Representatives Committee on Oversight and Government Reform, 9/30/2009, http://oversight.house.gov/documents/20090930084433.pdf, accessed
       10/1/2009.
333. 	 Lawrence J. White, Testimony to U.S. House of Representatives Committee on Oversight and Government Reform, 9/30/2009, http://oversight.house.gov/documents/20090930084433.pdf, accessed
       10/1/2009.
334. 	 Testimony of Eric Kolchinsky, prior Managing Director Moody’s Investor Service, to U.S. House of Representatives Committee on Oversight and Government Reform, 9/30/2009, http://oversight.house.
       gov/documents/20090930083904.pdf, accessed 10/1/2009.
335. 	 Testimony of Eric Kolchinsky, prior Managing Director Moody’s Investor Service, to U.S. House of Representatives Committee on Oversight and Government Reform, 9/30/2009, http://oversight.house.
       gov/documents/20090930083904.pdf, accessed 10/1/2009.
336. 	 Testimony of J. Kyle Bass, Managing Partner for Hayman Advisors L.P., U.S. House of Representatives Committee on Financial Services, Subcommittee on Capital Markets and Government Sponsored
       Entities, “The Role of the Credit Rating Agencies in the Structured Finance Market,” 9/27/2007, http://financialservices.house.gov/hearing110/bass.pdf, accessed 9/30/2009.
337. 	 SEC, Summary Report of Issues Identified in the Commission Staff’s Examinations of Select Credit Rating Agencies, 7/2008, http://www.sec.gov/news/studies/2008/craexamination070808.pdf, accessed
       9/16/2009.
338. 	 SEC, Summary Report of Issues Identified in the Commission Staff’s Examinations of Select Credit Rating Agencies, 7/2008, http://www.sec.gov/news/studies/2008/craexamination070808.pdf, accessed
       9/16/2009.
339. 	 SEC, Summary Report of Issues Identified in the Commission Staff’s Examinations of Select Credit Rating Agencies, 7/2008, http://www.sec.gov/news/studies/2008/craexamination070808.pdf, accessed
       9/16/2009.
340. 	 Testimony of Professor John Coffee, Columbia University Law School, before the United States Senate Committee on Banking, Housing and Urban Affairs, 4/22/2008, http://banking.senate.gov/public/_
       files/OpgStmtCoffeeSenateTestimonyTurmoilintheUSCreditMarkets.pdf, accessed 9/30/2009.
341. 	 Testimony of Sean Egan, Managing Director, Egan-Jones Rating Co. before the House Committee on Oversight and Government Reform, 10/22/2008, http://oversight.house.gov/docu-
       ments/20081022102906.pdf, accessed 8/26/2009.
342. 	 Testimony of Eric Baggesen, Senior Investment Officer, California Public Employees’ Retirement System before the House Committee on Oversight and Government Reform, 9/30/2009, http://oversight.
       house.gov/documents/20090930084407.pdf, accessed 10/1/2009.
343. 	 Testimony of Professor John Coffee, Columbia University Law School, before the United States Senate Committee on Banking, Housing and Urban Affairs, 4/22/2008, http://banking.senate.gov/public/_
       files/OpgStmtCoffeeSenateTestimonyTurmoilintheUSCreditMarkets.pdf, accessed 9/30/2009.
344. 	 SEC, Summary Report of Issues Identified in the Commission Staff’s Examinations of Select Credit Rating Agencies, 7/2008, http://www.sec.gov/news/studies/2008/craexamination070808.pdf, accessed
       9/16/2009.
345. 	 Testimony of Sean Egan, Managing Director, Egan-Jones Rating Co. before the House Committee on Oversight and Government Reform, 10/22/2008, http://oversight.house.gov/docu-
       ments/20081022102906.pdf, accessed 8/26/2009.
346. 	 Testimony of Sean Egan, Managing Director, Egan-Jones Rating Co. before the House Committee on Oversight and Government Reform, 10/22/2008, http://oversight.house.gov/docu-
       ments/20081022102906.pdf, accessed 8/26/2009.
347. 	 Testimony of Gregory Smith of the Colorado Public Employees’ Retirement Association before the Subcommittee on Capital Markets, Insurance, and Government Sponsored Entities of the Committee on
       Financial Services, 5/19/2009, http://www.house.gov/apps/list/hearing/financialsvcs_dem/gregory_w__smith_testimony.pdf, accessed 10/2/2009.
348. 	 House Committee on Financial Services Press Release; “Kanjorski Circulates Discussion Draft of Accountability and Transparency in Credit Rating Agencies Act,” 9/25/2009, http://www.house.gov/apps/
       list/press/financialsvcs_dem/presskanj_092509.shtml, accessed 10/2/2009.
349. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
350. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
351. 	 Treasury, response to SIGTARP data call, 10/7/2009.
352. 	 Treasury, response to SIGTARP data call, 10/7/2009.
353. 	 Treasury, response to SIGTARP data call, 10/7/2009.
354. 	 GAO-09-504, “Troubled Asset Relief Program: March 2009 Status of Efforts to Address Transparency and Accountability Issues,” 3/31/2009.
355. 	 Congressional Budget Office Press Release, “Cost Estimate on Emergency Economic Stabilization Act of 2008,” 9/28/2008, www.cbo.gov/ftpdocs/98xx/doc9829/09-28-HonorableFrank.htm, accessed
       1/15/2009.
356. 	 Treasury, response to SIGTARP data call, 4/8/2009.
357. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
358. 	 Treasury response to SIGTARP Data Call, 10/7/2009.
359. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
360. 	 Treasury, “Interim Rule: TARP Conflicts of Interest,” 10/6/2008, www.financialstability.gov/docs/COI-Rule.pdf, accessed 1/15/2009.
361. 	 TARP Conflicts of Interest, Interim Rule, Billing Code 4810-25-P, 1/21/2009.
362. 	 GAO-09-161, “Troubled Asset Relief Program: Additional Actions Needed to Better Ensure Integrity, Accountability, and Transparency,” 12/2/2008.
180                special inspector general I troubled asset relief program




      Sources for Figure 2.6: Treasury, Office of Financial Stability, Chief of Compliance and CFO, SIGTARP interview, 3/30/2009; Treasury, Transactions Report, 10/2/2009; Treasury, “Auto Supplier Support
      Program: Stabilizing the Auto Industry in a Time of Crisis,” 3/19/2009, http://www.treas.gov/press/releases/docs/supplier_support_program_3_18.pdf, accessed 3/19/2009; Treasury, “Unlocking Credit
      for Small Businesses Fact Sheet,” 3/17/2009, http://www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.html, accessed 6/10/2009; Treasury, “Treasury, Federal Reserve, and FDIC
      Provide Assistance to Bank of America,” 1/16/2009, http://www.treas.gov/press/releases/hp1356.htm, accessed 1/16/2009; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee
      Announced in November,” 1/16/2009, http://www.financialstability.gov/latest/hp1358.html, accessed 6/8/2009; Treasury, “Financial Stability Plan Fact Sheet,” 2/10/2009, http://www.financialstability.gov/
      docs/fact-sheet.pdf, accessed 6/8/2009; Treasury, “Making Home Affordable: Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf,
      accessed 6/10/2009; Treasury, “Public-Private Investment Program,” 4/6/2009, http://www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 6/9/2009.



      appendices
      A. 	Glossary	                                                                                                                181
      B. 	Acronyms and Abbreviations	                                                                                              185
      C. 	Reporting Requirements	                                                                                                  187
      D.	 Transaction Detail	                                                                                                      191
      E. 	Cross-Reference of Report to the Inspector General Act of 1978	                                                          216
      F.	 Public Announcement of Audits*	                                                                                            –
      G. 	Key Oversight Reports and Testimonies*	                                                                                    –
      H. 	Correspondence	                                                                                                          217
      I. 	 Organizational Chart	                                                                                                   251
      		
      *Visit www.sigtarp.gov to view Appendix F: Public Announcement of Audits and Appendix G: Key Oversight Reports and Testimonies,
      for further reference material.
                                                                                                         glossary I Appendix A I OCTOBER 21, 2009                   181




glossary
This appendix provides a glossary of terms that are used throughout the context of this report.

504 Community Development Loan Program: Small Business                          Cost of Capital: The “price” a company must pay to finance an investment
Administration (“SBA”) program combining Government-guaranteed loans            or project. For debt financing, this is the interest rate on any loans or bonds.
with private-sector mortgage loans to provide loans of up to $10 million for    For equity financing, it is the “opportunity cost” of using its capital elsewhere
community development.                                                          (i.e., what the company could have reasonably expected to earn from using
                                                                                its cash in a low-risk investment such as Government bonds).
7(a) Program: SBA loan program guaranteeing a percentage of loans for
small businesses that cannot otherwise obtain conventional loans at reason-     Credit Default Swap (“CDS”): A contract where the seller receives a series
able terms.                                                                     of payments from the buyer in return for agreeing to make a payment to the
                                                                                buyer when a particular credit event outlined in the contract occurs (for
Appropriation: Authority provided by law for Federal agencies to incur obli-    example, if the credit rating on a particular bond or loan is downgraded or
gations and to make payments out of the Treasury for specified purposes.        goes into default). It is commonly referred to as an insurance-like product
                                                                                where the seller is providing the buyer insurance-like protection against the
Asset Crossing: Buying or selling assets from affiliates, either directly or    failure of a bond. The buyer, however, does not need to own the asset covered
through third parties.                                                          by the contract, which means it can serve essentially as a “bet” against the
                                                                                underlying bond.
Asset Flipping: Buying assets with the intention of reselling those assets in
the short term.                                                                 Credit Watch: Announcement by a rating agency of developments that may
                                                                                have a material impact on the creditworthiness (either positive, negative, or
Bank Holding Company: A company that controls a bank. Typically, a              developing) of a company or security in the short term.
company controls a bank through the ownership of 25% or more of its voting
securities.                                                                     Crowding Out: A term historically used to describe the impact on the private
                                                                                sector of heavy Government debt issuance. This drives up interest rates,
Break the Buck: A decline below $1 in the net asset value (“NAV”) of a          forcing the private sector to pay more, and edging it out of the market. Just
money market mutual fund.                                                       as private-sector issuances have to compete with the lending Treasury did
                                                                                for TARP, so too will other Treasury issuances be forced to pay the higher
Call Report: Quarterly report of financial condition commercial banks file
                                                                                interest rates resulting from the TARP borrowing.
with their Federal and state regulatory agencies.
                                                                                Cumulative Preferred Stock: A type of stock that requires a defined divi-
Capital Call Notice: A capital call, or draw down, is an investment firm’s
                                                                                dend payment. If the company does not pay the dividend, it still owes the
legal right to demand a portion of the money promised to it by an investor.
                                                                                missed dividend to the owner of the stock.
Capital Requirement: The amount of cash and easily liquidated assets that
                                                                                CUSIP: Unique identifying number assigned to all registered securities
a financial institution needs to meet Government regulations and provide a
                                                                                (similar to a social security number).
cushion against losses.
                                                                                Debtor-in-Possession (“DIP”): A company which is operating under
Cash Management Bill (“CMB”): A type of short-term Treasury bill sold
                                                                                Chapter 11 bankruptcy protection, which still technically owns its assets but
by the Treasury to meet temporary funding shortfalls. CMB maturities
                                                                                is operating them to maximize the benefit to its creditors.
can range from a few days to more than six months, and auctions can be
announced with less than one-week notice.                                       Derivative: A financial instrument whose value is based on (“derived from”)
                                                                                a different underlying asset, indicator, or financial instrument.
Clawback: Recovery by the company of amounts paid to an employee based
on materially inaccurate performance criteria.                                  Due Diligence: The appropriate level of attention or care a reasonable
                                                                                person should take before entering into an agreement or a transaction with
Collateralized Debt Obligations (“CDOs”): A financial instrument that
                                                                                another party. In finance, often refers to the process of conducting an audit
entitles the purchaser to some portion of the cash flows from a portfolio of
                                                                                or review of documents/information prior to initiating a transaction.
assets, which may include bonds, loans, mortgage-backed securities, or other
CDOs.                                                                           Dutch Auction: Auction technique used for selling Treasury securities where
                                                                                investors bid different prices (yields) for different quantities of the offered
Commercial Mortgage-Backed Securities (“CMBS”): A financial instru-
                                                                                security. Treasury selects the highest group of bids that sells the full offering
ment that is backed by a commercial real estate mortgage or a group of
                                                                                and all winning bidders pay the same price — the lowest bid within that
commercial real estate mortgages that are packaged together.
                                                                                winning group. For instance, three investors place bids for $500 million each
                                                                                worth of securities (on a $1 billion offering by Treasury). Treasury selects the
Common Stock: Equity ownership that entitles an individual to share in the
                                                                                two highest bidders (totaling $1 billion) and they both pay the price bid by
corporate earnings and voting rights.
                                                                                the lower of the two winners.
Core Capital: Also known as T1, refers to the common stock, perpetual
                                                                                Equity Capital Facility: A commitment to invest equity capital in a firm
noncumulative, preferred stock, paid-in capital, and retained earnings of a
                                                                                under certain future conditions.
bank.
182             Appendix a I glossary I OCTOBER 21, 2009



      Exceptional Assistance: Companies receiving assistance under the programs          Moral Hazard: A term used in economics and insurance to describe the lack
      for SSFI, TIP, AGP, and AIFP, and any future Treasury program designed             of incentive individuals have to guard against a risk when they are protected
      by the Treasury Secretary as providing exceptional assistance. Currently           against that risk (for example, through an insurance policy). In the context of
      includes AIG, Citigroup, Bank of America, GM, GMAC, Chrysler, and                  TARP, it refers to the danger that private-sector executives/investors/lenders
      Chrysler Financial.                                                                may behave more recklessly knowing that the Government has insulated
                                                                                         them from the risks of their actions.
      Fallen Angel: In finance, can refer to a bond which held an investment grade
      rating when issued, but has subsequently fallen to a much lower rating, or         Mortgage-Backed Securities (“MBS”): A pool of mortgages bundled
      a once-popular investment that has fallen out of favor with investors and          together by a financial institution and sold as securities — a type of asset-
      declined in value.                                                                 backed security.

      Floorplan: Revolving lines of credit used to finance inventories of items.         Net Asset Value: A fund’s per-share value. Calculated by dividing the total
                                                                                         value of all the securities in its portfolio, less any liabilities, by the number of
      Front Running: Entering into a trade while taking advantage of advance             fund shares outstanding.
      knowledge of pending orders from other investors.
                                                                                         Net Regulatory Capital: A regulatory metric that requires a bank to take
      Golden Parachute: Any payment to an employee for departure for any                 into consideration the relative riskiness of its assets. Calculated as common
      reason, or any payment due to a change in control.                                 equity minus intangibles.

      Government Regulators: Government agencies responsible for overseeing              Non-Agency Residential Mortgage-Backed Securities (“RMBS”): RMBS
      the health and stability of a sector of the economy, in this case, the financial   that are not guaranteed by a Government-Sponsored Enterprise (“GSE”)
      sector, through supervision and enforcement of regulations.                        such as Fannie Mae, Freddie Mac, or the Federal Home Loan Banks.

      Government-Sponsored Enterprises (“GSEs”): Private corporations                    Non-cumulative Preferred Stock: A type of stock in which unpaid divi-
      created by the Government to reduce borrowing costs. They are chartered by         dends do not accrue when a company fails to make a dividend payment.
      the U.S. Government but are not considered to be direct obligations.
                                                                                         Non-Primary Dealer: Banks and securities broker-dealers that are not
      HAMP Trial Period: A 90-day trial period of reduced mortgage payments for          approved by FRBNY to trade in U.S. Government securities.
      the borrower. If all payments are successful, then the mortgage modification
      will be accepted into the MHA program and HAMP incentive payments will             Non-Recourse Loan: A secured loan whereby the borrower is relieved of the
      begin.                                                                             obligation to repay the loan upon the surrender of the collateral.

      Illiquid Assets: Assets that cannot be quickly converted to cash.                  Note: A short-term debt security, usually with a maturity of less than five
                                                                                         years.
      Investment Grade: A quality classification for bond or debt securities (rated
      BBB/Baa or higher) that suggests the debt is likely to be repaid.                  Originator: The lead bank or underwriter for a structured finance product.

      Legacy Assets: Also commonly referred to as troubled or toxic assets, legacy       Par Value: The face value of a bond or security (for instance $1,000 or
      assets are real estate-related loans and securities (legacy loans and legacy       $100). When a bond trades on the market, the price can be above or below
      securities) that remain on banks’ balance sheets that have lost value but are      par. A price above par means the purchaser is paying a premium; a price
      difficult to price due to the recent market disruption.                            below par means the purchaser is buying at a discount.

      Legacy Commercial Mortgage-Backed Securities (“CMBS”): CMBS                        Perk: Personal benefit, including a privilege, or profit incidental to regular
      issued before January 1, 2009.                                                     salary or wages.

      Legacy Loans: Underperforming real estate-related loans held by a bank that        Permitted Investments List: A statement in the charter or policies of an
      it wishes to sell, but recent market disruptions have made difficult to price.     organization (for instance, the prospectus of a mutual fund) detailing to
                                                                                         stakeholders the nature or types of assets in which the institution is allowed
      Legacy Securities: Troubled real estate-related securities (residential            to invest. To invest in assets not on the list could mean a breach in the fidu-
      mortgage-backed securities (“RMBS”), commercial mortgage-backed securi-            ciary responsibility of the organization.
      ties (“CMBS”), and other asset-backed securities (“ABS”)) lingering on
      institutions’ balance sheets because their value could not be determined.          Ponzi Scheme: An illegal pyramid scheme in which money from new inves-
                                                                                         tors is used to pay off earlier investors.
      Leverage: The ratio of a company’s debt to its equity.
                                                                                         Preferred Stock: “Equity ownership that usually pays a fixed dividend, gives
      Liquidity: The ability to easily convert an asset to cash, without any signifi-    the holder a claim on corporate earnings superior to common stock owners,
      cant loss in value or transaction cost.                                            and has no voting rights. Preferred stock also has priority in the distribution
                                                                                         of assets in the case of liquidation of a bankrupt company.”
      Loan-to-Value (“LTV”) Ratio: In real estate lending, the outstanding prin-
      cipal amount of the loan divided by the appraised value of the property.           Primary Dealer: Banks and securities broker-dealers that trade in U.S.
                                                                                         Government securities with FRBNY for the purpose of carrying out open
      London Interbank Offered Rate (“LIBOR”): The interest rate that large              market operations.
      banks in London charge each other for dollar-denominated funds.
                                                                                         Private-Label Mortgages: Loans that are not owned or guaranteed by
      Mandatorily Convertible Preferred (“MCP”) Share: A type of preferred               Fannie Mae, Freddie Mac, Ginnie Mae, or another Federal agency.
      share (ownership in a company that generally entitles the owner of the share
      to collect dividend payments) that can be converted to common stock under          Pro Forma: In finance, refers to the presentation of hypothetical financial
      certain parameters at the discretion of the company­—and must be converted         information assuming that certain assumptions will happen.
      to common stock by a certain time.
                                                                                         Pro Rata: Refers to dividing something among a group according to the
      Margin Call: A broker’s demand on an investor using borrowed money                 proportionate share that each participant holds as a part of the whole.
      (margin) to deposit additional cash or securities in its account if the value of
      its capital drops below a set percent of the total investment.
                                                                                                             glossary I Appendix A I OCTOBER 21, 2009                 183


Purchasing Power: The total amount of goods or services that can be                 Senior Subordinated Debenture: A subordinated debenture is a loan or
purchased by a unit of currency. For the purpose of PPIP, purchasing power          security that is junior to other loans or securities with regards to the debt
refers to the combined buying power of the PPIFs’ private capital, Treasury         holders’ claims on assets or earnings. Senior debt holders get paid in full
equity, and Treasury debt.                                                          before subordinated debt holders get paid. There are additional levels of
                                                                                    priority among subordinated debt holders. CPP invests in senior subordi-
Rating Action: A modification (upgrade or downgrade) or confirmation of a           nated debt.
company’s or security’s credit rating.
                                                                                    Small Business Administration (“SBA”) 7(a) Pool Certificates: 7(a) loans
Rating Outlook: Guidance published by a rating agency indicating the                grouped together to form one security eligible as collateral against a TALF
medium- or long-term outlook for a company’s or security’s creditworthiness.        loan.

Rating Review: A formal action by a rating agency to re-assess the creditwor-       Special Purpose Vehicle (“SPV”): An off-balance-sheet legal entity that
thiness of a company or security. Could lead to a change in rating outlook,         holds the transferred assets presumptively beyond the reach of the entities
initiation of Credit Watch, or a rating action.                                     providing the assets (e.g., legally isolated).

Ratings Shopping: Also known as “forum shopping;” the process where an              System Gaming: Using the rules, policies, and procedures of a system
issuer approaches a rating agency to receive a “preliminary rating” before          against itself for purposes other than those originally intended by the system
it seeks an official rating. If it does not get the desired rating, the issuer      designers.
proceeds to another rating agency until it receives the desired rating.
                                                                                    Systemically Significant: A financial institution whose failure would impose
Ratings Watch: A formal announcement by a rating agency informing                   significant losses on creditors and counterparties, call into question the
investors that the issue or issuer rating is being reviewed to determine if the     financial strength of other similarly situated financial institutions, disrupt
current rating is appropriate.                                                      financial markets, raise borrowing costs for households and businesses, and
                                                                                    reduce household wealth.
Receivership Assets: When an FDIC-insured institution fails, FDIC is
ordinarily appointed as receiver. In that capacity, it assumes responsibility       T1: See the definition of Core Capital.
for efficiently recovering the maximum amount possible from the disposi-
tion of the receivership’s assets and the pursuit of the receivership’s claims.     TALF Agent: Financial institution that is a party to the Master Loan and
Funds collected from the sale of assets and the disposition of valid claims are     Security Agreement and from time to time acts as an agent to the borrower.
distributed to the receivership’s creditors in accordance with the priorities set   TALF Agents include primary and non-primary broker-dealers.
by law.
                                                                                    Tax Gross-Up: A reimbursement of taxes owed with respect to any
Reorganization: Agreements between a company, its creditors, and the                compensation.
courts that allow the company to emerge from bankruptcy with an altered
debt structure.                                                                     Temporary Investments: For the purposes of PPIP, they are cash,
                                                                                    Treasuries, money market mutual funds, and interest rate hedges.
Return on Equity (“ROE”): A measurement of how much profit a company
generates with the money shareholders have invested. Calculated showing             Tier One Capital: Consists primarily of common equity (including retained
net income as a percentage of shareholders equity. If a bank must hold              earnings), limited types and amounts of preferred equity, certain minority
capital (equity) aside for regulatory purposes, it can make fewer investments,      interests, and limited types and amounts of trust preferred securities. T1 does
with implications for ROE.                                                          not include goodwill and certain other intangibles. Certain other assets are
                                                                                    also excluded from T1. It can be described as a measure of the bank’s ability
Return on Investment (“ROI”): A measure of the efficiency of one invest-            to sustain future losses and still meet depositor’s demands.
ment option versus other options. Calculated as a percentage: profit divided
by the cost of the investment.                                                      Tier One Common Equity (“T1 Common”): Also known as tangible
                                                                                    common equity (“TCE”), is calculated by removing all non-common
Risk-Weighted Assets: The amount of a bank’s total assets after applying an         elements from T1, e.g., preferred equity, minority interests, and trust
appropriate risk factor to each asset.                                              preferred securities. It can be thought of as the amount that would be left
                                                                                    over if the bank were dissolved and all creditors and higher levels of stock,
Round Tripping: Buying an asset from an entity and reselling the asset back         such as preferred stock, were paid off. T1 Common is the highest “quality”
to the entity or its affiliates.                                                    of capital in the sense of providing a buffer against loss by claimants on the
                                                                                    bank. T1 Common is used in calculating the tier-one common risk-based
Secondary Market: The secondary market, also known as the aftermarket, is           ratio (“T1 Common Ratio”) which determines what percentage of a bank’s
the financial market where previously issued securities and financial instru-       total assets is categorized as T1 Common. The higher the percentage, the
ments such as stocks, bonds, options, and futures are bought and sold.              better capitalized the bank. Preferred stock is an example of capital that is
                                                                                    counted in T1, but not in T1 Common.
SEC Net Capital Rule: A requirement that broker-dealers maintain a suffi-
cient cushion of highly liquid assets (easily convertible to cash) in excess of     Tier One Common Risk-Based Ratio (“T1 Common Ratio”): Determines
liabilities to cover potential market, credit, and other risks if they should be    what percentage of a bank’s total assets is categorized as T1 Common. Under
required to liquidate.                                                              traditional Federal regulations, a bank with a T1 Common Ratio of 4% or
                                                                                    greater is considered adequately capitalized.
Securities Exchange: An agreement between a firm and investors, permit-             = T1 Common / Risk-weighted assets
ting the investors to exchange one class of securities for another.
                                                                                    Tier One Risk-based Capital Ratio (“T1 Ratio”): A ratio which determines
Senior Executive Officers (“SEOs”): A “named executive officer” of a TARP           what percentage of a bank’s total assets is categorized as tier one capital
recipient as defined under Federal securities law, which generally includes         (“T1”).
the principal executive officer (“PEO”), principal financial officer (“PFO”),       = T1 / Risk-weighted assets
and the next three most highly compensated employees.
                                                                                    Transaction Cost: The tangible and intangible costs associated with buying
Senior Preferred Stock: Shares that give the stockholder priority dividend          or selling an asset. Tangible costs can include fees paid (such as to a broker
and liquidation claims over junior preferred and common stockholders.               when selling bonds or to lawyers for drafting documents), while intangible
184              Appendix a I glossary I OCTOBER 21, 2009



      costs can include the time or effort spent reviewing documents, traveling to       Sources:
      visit a client, for instance.                                                      California State Senate, “Senate Bill 668,” 5/5/09, http://info.sen.ca.gov/pub/01-02/
                                                                                         bill/sen/sb_0651-0700/sb_668_bill_20010417_amended_sen.pdf, accessed 1/28/2009.
      Treasury Bill: A short-term debt obligation of the U.S. Government with a          Commodities and Futures Trading Commission, “CFTC Glossary,” no date, www.cftc.gov/educationcenter/
      maturity of up to one year. Sold in denominations of $100 with maturities of       glossary/glossary_co.html, accessed 7/10/2009.
      4 weeks, 13 weeks, 26 weeks, and 52 weeks. Sold at auction, with the price         FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_card_se-
                                                                                         curitization/glossary.html, accessed 4/8/2009.
      below face value (discount to par) determining the yield.
                                                                                         FDIC, “Receivership Management Program,” 11/21/2008, www.fdic.gov/about/strategic/strategic/receiv-
                                                                                         ership.html, accessed 9/20/2009.
      Treasury Bond: A marketable, fixed-interest U.S. Government debt security
                                                                                         Federal Housing Finance Agency, “Mortgage Markets and the Enterprises 2007,” www.fhfa.gov, July 2008,
      with a maturity of between 10 and 30 years; paying interest semi-annually.         accessed 4/9/2009.
                                                                                         Federal Reserve Board, comments on SIGTARP draft report, 1/29/2009.
      Treasury Inflation-Protected Securities (“TIPS”): A special type of
                                                                                         Federal Reserve response to SIGTARP draft, 7/10/2009.
      Treasury note or bond that offers protection from inflation. TIPS pay interest
                                                                                         Fitch Ratings, “Fitch Ratings Definition,” no date, www.fitchratings.com/creditdesk/public/ratings_defin-
      semi-annually, but the coupon payments and underlying principal are auto-          tions/index.cfm, accessed 10/02/2009.
      matically increased to compensate for inflation as measured by the consumer
                                                                                         FRBNY, “Primary Dealer List”, no date, http://www.newyorkfed.org/markets/pridealers_current.html,
      price index (“CPI”).                                                               accessed 10/10/2009.
                                                                                         FRBNY, “TALF FAQs,” 9/1/2009, www.newyorkfed.org/markets/talf_faq.html, accessed 9/1/2009.
      Treasury Note: A marketable U.S. Government debt security with a fixed
                                                                                         FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 3/19/2009, www.newyork-
      interest rate and a maturity between 1 and 10 years. Purchasable directly          fed.org, accessed 3/27/2009. Comptroller of the Currency, “Floor Plan Loans: Comptroller’s Handbook,”
      from Treasury through an auction process or from a bank.                           May 1998, www.occ.treas.gov/handbook/floorplan1.pdf, accessed 4/13/2009.
                                                                                         GAO, “Small Business Administration: Additional Guidance on Documenting Credit Elsewhere Decisions
      Trust Preferred Securities: A security that has both equity and debt char-         Could Improve 7(a) Program Oversight,” 2/12/2009, www.gao.gov/products/GAO-09-228, accessed
                                                                                         3/17/2009.
      acteristics created by establishing a trust and issuing debt to it. A company
      would create a trust preferred security to realize tax benefits, since the trust   HUD, “Glossary,” no date, www.hud.gov/offices/hsg/sfh/buying/glossary.cfm, accessed 4/8/2009.
      is tax deductible.                                                                 National Information Center, “Institution Types Defined,” www.ffiec.gov/nicpubweb/Content/HELP/
                                                                                         Institution%20Type%20Description.htm, accessed 1/28/2009.

      Unpaid Principal Balance (“UPB”): Amount of a loan that is unpaid. This            Office of Financial Stability, response to SIGTARP draft, 7/9/2009.

      does not include additional charges.                                               SEC,”Citigroup Exchange Agreement,” 6/9/2009, http://www.sec.gov/Archives/edgar/
                                                                                         data/831001/000095010309000098/dp12291_ex1001.htm, accessed 6/10/2009.

      Warrant: “The right, but not the obligation, to purchase a certain number of       SEC, “Mortgage-Backed Securities,” no date, www.sec.gov/answers/mortgagesecurities.htm, accessed
                                                                                         1/28/2009.
      shares of common stock at a fixed price.”
                                                                                         SEC,”Cusip,” www.sec.gov/answers/cusip.htm, accessed 4/6/2009.
                                                                                         Small Business Administration, “Basic 7(a) Loan Programs,” www.sba.gov/services/financialassistance/
      Weighted Average Life: The average number of years for which each dollar           sbaloantopics/7a/, accessed 9/18/2009.
      of unpaid principal on a mortgage or loan remains outstanding.
                                                                                         Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed 4/9/2009.
                                                                                         Treasury, “Ethical Standards and Conflict of Interest Rules for Public-Private Investment Fund Managers,” no
      Yield: The effective interest rate paid by a security.                             date, Provided by SIGTARP 7/2/2009.
                                                                                         Treasury, “Treasury Direct,” no date, www.treasurydirect.gov/instit/auctfund/work/auctime/auctime.htm,
                                                                                         accessed 10/02/2009
                                                                                         Treasury, “Legacy Securities Public-Private Investment Program Compliance and Risk Management,”
                                                                                         7/2/2009, accessed 10/7/2009.
                                                                                         Treasury, “Letter of Intent and Term Sheet,” 7/8/2009, www.financialstability.gov/docs/S-PPIP_LOI_Term-
                                                                                         Sheets.pdf, accessed 7/8/2009.
                                                                                         Treasury, “Securities Purchase Agreement dated as of April 17, 2009 between American International
                                                                                         Group, Inc. and United States Department of the Treasury,” 4/17/2009, www.financialstability.gov/docs/
                                                                                         agreements/Series.F.Securities.Purchase.Agreement.pdf, accessed 6/8/2009.
                                                                                         Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.financialsta-
                                                                                         bility.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
                                                                                         Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press/
                                                                                         releases/tg58.htm, accessed 3/17/2009.
                                                                                         Treasury, “Home Affordable Modification Program Guidelines,” 03/14/2009, www.treas.gov/press/
                                                                                         releases/reports/modification_program_guidelines.pdf, accessed 10/2/2009.
                                                                                         USDA, “Glossary,” no date, www.rurdev.usda.gov/regs/handbook/hb-1-3565/w6gloss.pdf, accessed
                                                                                         4/8/2009.
                                                               Acronyms and abbreviations I Appendix B I october 21, 2009      185




Acronyms and Abbreviations

ABS     Asset-Backed Securities                          FDIC           Federal Deposit Insurance Corporation
AGP     Asset Guarantee Program                          FHA            Federal Housing Administration
AIFP    Automotive Industry Financing Program            FHFA           Federal Housing Finance Agency
AIG     American International Group, Inc.               FHMA           Federal Housing Modification Administration, Inc.
AIGFP   AIG Financial Products Corp.                     FinCEN         Financial Crimes Enforcement Network
AMA     Acquired Member Assets                           Fitch          Fitch Ratings
ARO     Acceptable Rating Organization                   FOIA           Freedom of Information Act
ARRA    American Recovery and Reinvestment Act of 2009   FRBNY          Federal Reserve Bank of New York
ASSP    Auto Supplier Support Program                    FSOB           Financial Stability Oversight Board
AVR     Asset Valuation Reserve                          FTC            Federal Trade Commission
AWCP    Auto Warranty Commitment Program                 GAO            Government Accountability Office
BHC     Bank Holding Company                             GDP            Gross Domestic Product
BPD     Bureau of Public Debt                            GM             General Motors Corporation
CAP     Capital Assistance Program                       GMAC           GMAC LLC
CBO     Congressional Budget Office                      GSE            Government–Sponsored Enterprise
CD      Certificate of Deposit                           HAMP           Home Affordable Modification Program
CDO     Collateralized Debt Obligation                   HERA           Housing and Economic Recovery Act
CDS     Credit Default Swaps                             HPA            Home Price Appreciation
CEO     Chief Executive Officer                          HPDP           Home Price Decline Protection
CFTC    Commodity Futures Trading Commission             HUD            Department of Housing and Urban Development
CMB     Cash Management Bills                            HUD OIG        Office of the Inspector General of the Department of
                                                                        Housing and Urban Development
CMBS    Commercial Mortgage-Backed Securities
                                                         IAA            Inter-Agency Agreement
COFI    Cost of Funds Index
                                                         ICE            U.S. Immigration and Customs Enforcement
COP     Congressional Oversight Panel
                                                         IG             Inspector General
CP      Commercial Paper
                                                         IMF            International Monetary Fund
CPA     Certified Public Accountant
                                                         IMR            Interest Maintenance Reserve
CPP     Capital Purchase Program
                                                         Initial Report SIGTARP’s Initial Report to Congress
CRARA   Credit Rating Agency Reform Act
                                                         IRS-CI         Internal Revenue Service Criminal Investigation
CRE     Commercial Real Estate
                                                         LIBOR          London Interbank Offered Rate
CUSIP   Credit Union System Investment Program
                                                         LLC            Limited Liability Company
C&I     Commercial and Industrial
                                                         LTV            Loan-to-Value
DBRS    DBRS Limited
                                                         MBS            Mortgage-Backed Securities
DIL     Deed-In-Lieu of Foreclosure
                                                         MCP            Mandatorily Convertible Preferred Shares
DIP     Debtor in Possession
                                                         MHA            Making Home Affordable
DOJ     Department of Justice
                                                         MMF            Money Market Mutual Fund
EESA    Emergency Economic Stabilization Act of 2008
                                                         Moody’s        Moody’s Investors Services
FASB    Financial Accounting Standards Board
                                                         NAIC           National Association of Insurance Commissioners
FBI     Federal Bureau of Investigation
                                                         NAV            Net Asset Value
FCM     Futures Commission Merchant
186              Appendix B I Acronyms and abbreviations I october 21, 2009




      NCUA           National Credit Union Administration                      TCE         Tangible Common Equity
      NPV            Net Present Value                                         the         Board Compensation Committee
                                                                               Committee
      NRSRO          Nationally Recognized Statistical Rating Organization
                                                                               the Rule    Interim Final Rule on TARP Standards for Compensation
      NY HIFCA       New York High Intensity Financial Crime Area
                                                                                           and Corporate Governance
      OLC            Office of Legal Counsel
                                                                               TIP         Targeted Investment Program
      OMB            Office of Management and Budget
                                                                               TIPS        Treasury Inflation-Protected Securities
      OTC            Over the Counter
                                                                               Treasury    U.S. Department of the Treasury
      OTS            Office of Thrift Supervision
                                                                               UCSB        Unlocking Credit for Small Businesses
      OCC            Office of the Comptroller of the Currency
                                                                               UGC         United Guaranty Corporation
      OFS            Office of Financial Stability
                                                                               UPB         Unpaid Principal Balance
      PIMCO          Pacific Investment Management Company LLC
                                                                               USPIS       U.S. Postal Inspection Service
      PPIF           Public-Private Investment Fund
                                                                               VEBA        Voluntary Employees Association Beneficiary
      PPIP           Public-Private Investment Program
                                                                               WFO         FBI’s Washington Field Office
      QFI            Qualifying Financial Institution
      RBC            Risk-Based Capital
      RMBS           Residential Mortgage-Backed Securities
      ROE            Return on Equity
      ROI            Return on Investment
      S&P            Standard & Poor’s
      SBA            Small Business Administration
      SCAP           Supervisory Capital Assessment Program
      SEC            Securities and Exchange Commission
      SEO            Senior Executive Officer
      SFRS           Statement on Financial Regulations Standard
      SIGTARP        Special Inspector General for the Troubled Asset Relief
                     Program
      Special        Office of the Special Master
      Master
      SPV            Special Purpose Vehicle
      SS             Short Sale
      SSAP           Statement of Statutory Accounting Principles
      SSFI           Systemically Significant Failing Institutions
      SVO            Securities Valuation Office
      T1             Tier One Capital
      T1 Common Tier One Common Equity
      T1 Common Tier One Common Risk-Based Ratio
      Ratio
      T1 Ratio       Tier One Risk-Based Capital Ratio
      TALF           Term Asset-Backed Securities Loan Facility
      TARP           Troubled Asset Relief Program
      TARP-IG        TARP Inspector General Council
      Council
                                                                                         Reporting Requirements I Appendix C I OCTOBER 21, 2009              187




Reporting Requirements
This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the
Special Inspector General for the Troubled Asset Relief Program outlined in EESA section 121, as well as a
cross-reference to related data presented in this report and prior reports. Italics style indicates relevant narrative
taken verbatim from source documents.

     EESA        EESA Reporting                                                                                                            SIGTARP
 #   Section     Requirement          Treasury Response to SIGTARP Data Call                                                               Report Section
 1   Section     A description of     Treasury posts several documents on its public website that are responsive to this ques-             Section 2:
     121(c)(A)   the categories of    tion, available at http://www.financialstability.gov/latest/reportsanddocs.html. Specifically,       “TARP Overview”
                 troubled assets      tranche reports and reports required under section 105(a) of the Emergency Economic
                 purchased or         Stabilization Act of 2008 (EESA) describe, at a high level, Treasury’s programs and troubled         Appendix D:
                 otherwise procured   asset purchases. The transaction reports describe these purchases in detail, including               “Transaction
                 by the Secretary.    the type of asset purchased, the identity of the institution selling the asset, and the price        Detail”
                                      Treasury paid for the asset. Other sources for this information are the determinations signed
                                      by the Secretary of the Treasury, designating certain financial instruments as “troubled as-
                                      sets” under section 3(9)(B) of EESA. Troubled asset determinations signed by the Treasury
                                      Secretary since June 30, 2009 [were provided to SIGTARP].

                                      Below are program descriptions from Treasury’s FinancialStability.gov website, as of
                                      9/30/2009:
                                      CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize the
                                      financial system by providing capital to viable financial institutions of all sizes throughout the
                                      nation. With a strengthened capital base, financial institutions have an increased capacity to
                                      lend to U.S. businesses and consumers and to support the U.S. economy.
                                      CAP: The purpose of the CAP is to restore confidence throughout the financial system that
                                      the nation’s largest banking institutions have a sufficient capital cushion against larger than
                                      expected future losses, should they occur due to a more severe economic environment, and
                                      to support lending to creditworthy borrowers.
                                      SSFI: Systemically Significant Failing Institution Program (SSFI) was established to provide
                                      stability and prevent disruptions to financial markets from the failure of institutions that are
                                      critical to the functioning of the nation’s financial system.
                                      AGP: The Asset Guarantee Program (AGP) provides government assurances for assets held
                                      by financial institutions that are critical to the functioning of the nation’s financial system,
                                      which face a risk of losing the critical confidence that is needed for them to continue to lend
                                      to other banks.
                                      TIP: Treasury created the Targeted Investment Program (TIP) to stabilize the financial system
                                      by making investments in institutions that are critical to the functioning of the financial sys-
                                      tem. This program focuses on the complex relationships and reliance of institutions within
                                      the financial system. Investments made through the TIP seek to avoid significant market
                                      disruptions resulting from the deterioration of one financial institution that can threaten other
                                      financial institutions and impair broader financial markets and pose a threat to the overall
                                      economy.
                                      TALF: The TALF is designed to increase credit availability and support economic activity by
                                      facilitating renewed issuance of consumer and small business ABS at more normal interest
                                      rate spreads… Under the TALF, the Federal Reserve Bank of New York (FRBNY) will provide
                                      non-recourse funding to any eligible borrower owning eligible collateral... The U.S. Treasury’s
                                      Troubled Assets Relief Program (TARP) will purchase $20 billion of subordinated debt in
                                      an SPV created by the FRBNY. The SPV will purchase and manage any assets received by
                                      the FRBNY in connection with any TALF loans. Residual returns from the SPV will be shared
                                      between the FRBNY and the U.S. Treasury.
188           Appendix C I Reporting Requirements I OCTOBER 21, 2009




          EESA        EESA Reporting                                                                                                           SIGTARP
      #   Section     Requirement             Treasury Response to SIGTARP Data Call                                                           Report Section
                                              PPIP: To address the challenge of legacy assets, Treasury – in conjunction with the Federal
                                              Deposit Insurance Corporation and the Federal Reserve – has announced the Public-Private
                                              Investment Program as part of its efforts to repair balance sheets throughout our financial
                                              system and ensure that credit is available to the households and businesses, large and
                                              small, that will help drive us toward recovery... Using $75 to $100 billion in TARP capital
                                              and capital from private investors, the Public-Private Investment Program will generate $500
                                              billion in purchasing power to buy legacy assets – with the potential to expand to $1 trillion
                                              over time.
                                              UCSB: The Treasury Department will begin making direct purchases of securities backed by
                                              SBA loans to get the credit market moving again, and it will stand ready to purchase new
                                              securities to ensure that community banks and credit unions feel confident in extending new
                                              loans to local businesses.
                                              AIFP: The objective of [AIFP] is to prevent a significant disruption of the American automo-
                                              tive industry, which would pose a systemic risk to financial market stability and have a
                                              negative effect on the economy of the United States... [Through AIFP, Treasury has provided]
                                              loans or equity investments to General Motors, GMAC, Chrysler, and Chrysler Financial in
                                              order to avoid a disorderly bankruptcy of one or more auto companies; such an event would
                                              pose a systemic risk to the country’s financial system. Treasury’s loans to the automobile
                                              industry forged a path for these companies to go through orderly restructurings and achieve
                                              viability.
                                              ASSP: [ASSP] will provide up to $5 billion in financing, giving suppliers the confidence they
                                              need to continue shipping parts, pay their employees and continue their operations.
                                              AWCP: The Treasury Department announced an innovative new program to give consumers
                                              who are considering new car purchases the confidence that even in this difficult economic
                                              period, their warrantees will be honored. This program is part of the Administration’s
                                              broader program to stabilize the auto industry and stand behind a restructuring effort that
                                              will result in stronger, more competitive and viable American car companies.
                                              HAMP (a program under MHA): The Home Affordable Modification Program has a simple
                                              goal: reduce the amount homeowners owe per month to sustainable levels to stabilize
                                              communities. This program will bring together lenders, investors, servicers, borrowers,
                                              and the government, so that all stakeholders share in the cost of ensuring that responsible
                                              homeowners can afford their monthly mortgage payments – helping to reach up to 3 to 4
                                              million at-risk borrowers in all segments of the mortgage market, reducing foreclosures, and
                                              helping to avoid further downward pressures on overall home prices.
      2   Section     A listing of the        Treasury posts transaction reports for all the troubled asset purchases on its public website Appendix D:
          121(c)(B)   troubled assets         within two business days after each transaction. Information on all transactions is available   “Transaction
                      purchased in each       at http://www.financialstability.gov/impact/transactions.htm. Since the publication of the      Detail”
                      such category           SIGTARP Report in July, Treasury has continued to invest funds in financial institutions across
                      described under         the United States through the Capital Purchase Program (CPP). Guidelines for all TARP pro-
                      [section 121(c)(A)].    grams, which explain each program’s scope and purpose are also posted on Treasury’s web-
                                              site at http://www.financialstability.gov/roadtostability/programs.htm. Additional informa-
                                              tion about these programs and related purchases is available in tranche reports and Section
                                              105(a) reports, which are posted on Treasury’s website. Information is also available in the
                                              troubled asset determinations [provided by Treasury to SIGTARP]. [Treasury also provided
                                              SIGTARP with] the latest transaction report dated September 30, 2009.
      3   Section     An explanation of       Pursuant to Section (3)(9)(B) of EESA, the Secretary of the Treasury periodically designates     Section 2:
          121(c)(C)   the reasons the         financial instruments as “troubled assets” and submits written determinations to appropriate     “TARP Overview”
                      Secretary deemed        committees of Congress. [Treasury provided SIGTARP with] all troubled asset determina-
                      it necessary to pur-    tions signed by the Secretary of the Treasury since Treasury responded to SIGTARP’s previ-
                      chase each such         ous data call on June 30, 2009. Additional information on the TARP programs associated
                      troubled asset.         with these “troubled assets,” including each program’s scope and purpose, can be found
                                              online at http://www.financialstability.gov/roadtostability/programs.htm.
      4   Section     A listing of each       See #2 above                                                                                     See #2
          121(c)(D)   financial institution
                      that such troubled
                      assets were pur-
                      chased from.
                                                                                                                   Reporting Requirements I Appendix C I OCTOBER 21, 2009                            189



      EESA            EESA Reporting                                                                                                                                            SIGTARP
#     Section         Requirement                  Treasury Response to SIGTARP Data Call                                                                                       Report Section
5     Section         A listing of and             There have been no additional asset managers hired during the third quarter 2009 (from                                       Section 4:
      121(c)(E)       detailed biographi-          July 1, 2009 through September 30, 2009). OFS is in the process of selecting additional                                      “TARP Operations
                      cal information on           asset managers consistent with Treasury’s intentions and announcement to select a group                                      and Administra-
                      each person or               of smaller asset managers to serve as Financial Agents in managing the portfolio of assets                                   tion”
                      entity hired to man-         issued by banks and institutions participating in the Capital Purchase Program and other
                      age such troubled            similar programs under EESA, and will inform SIGTARP once OFS selects the additional                                         Appendix C:
                      assets.                      asset managers.                                                                                                              “Reporting
                                                                                                                                                                                Requirements” of
                                                                                                                                                                                SIGTARP’s April
                                                                                                                                                                                21, 2009 and
                                                                                                                                                                                July 21, 2009
                                                                                                                                                                                Quarterly Reports
                                                                                                                                                                                to Congress
6     Section         A current estimate           Treasury received payments in connection with the repayment by financial institutions of                                     Obligations by
      121(c)(F)       of the total amount          Treasury’s investment through the Capital Purchase Program. As of September 30, 2009,                                        Program provided
                      of troubled assets           Treasury received a total of $70.7 billion in CPP repayments. Treasury incurred neither a                                    in Table C.1 below
                      purchased pursu-             profit nor a loss on the repayment of preferred shares since Treasury both purchased and
                      ant to any program           sold the preferred shares at par. As of September 30, 2009, Treasury received a total of                                     Section 2:
                      established under            $2.9 billion from institutions repurchasing their warrants. Treasury also received $13 million                               “TARP Overview”
                      section 101, the             in fees for the [Banco Popular] Exchange, and $276 million from Bank of America as AGP
                      amount of troubled           termination payment. Additional information on the repayments of Treasury’s investments                                      Appendix D:
                      assets on the                under the CPP and proceeds from the sale of warrants are available in [the transaction                                       “Transaction
                      books of the Trea-           report and FSP Budget report provided to SIGTARP].                                                                           Detail”
                      sury, the amount
                      of troubled assets
                      sold, and the profit
                      and loss incurred
                      on each sale or
                      disposition of each
                      such troubled
                      asset.
7     Section         A listing of the             No new insurance contracts this quarter.                                                                                     Section 2:
      121(c)(G)       insurance con-                                                                                                                                            “TARP Overview”
                      tracts issued under
                      section 102.                                                                                                                                              Appendix C:
                                                                                                                                                                                “Reporting
                                                                                                                                                                                Requirements” of
                                                                                                                                                                                SIGTARP’s April
                                                                                                                                                                                21, 2009 and
                                                                                                                                                                                July 21, 2009
                                                                                                                                                                                Quarterly Reports
                                                                                                                                                                                to Congress
8     Section         A detailed                   Treasury provides information about TARP purchases, obligations, expenditures, and                                           Obligations by
      121(f)          statement of                 revenues on Treasury’s public website at www.financialstability.gov. Treasury posts a                                        Program provided
                      all purchases,               transaction report for each purchase of troubled assets two business days after the transac-                                 in Table C.1 below
                      obligations, expen-          tion. Treasury also posts a detailed financial statement as part of its monthly Congressional
                      ditures, and rev-            report under section 105(a) of EESA. The next section 105(a) report will be posted on the                                    Section 2:
                      enues associated             Financial Stability web site on October 9, 2009.                                                                             “TARP Overview”
                      with any program
                      established by the           [Treasury provided] the most recent TARP/Financial Stability Plan Budget report (as of Octo-                                 Section 4:
                      Secretary of the             ber 6, 2009) and TARP transactions report (as of October 2, 2009), which capture detailed                                    “TARP Operations
                      Treasury under               information about TARP purchases, obligations, expenditures, and revenues.                                                   and Administra-
                      sections 101 and                                                                                                                                          tion”
                      102.
                                                                                                                                                                                Appendix D:
                                                                                                                                                                                “Transaction
                                                                                                                                                                                Detail”

Note: Treasury’s current TALF committment is $20 billion but should TALF exceed a total of $200 billion in loans extended by FRBNY, then Treasury’s committment could reach $80 billion.

Sources: Treasury, responses to SIGTARP data call, 9/30/2009 and 10/7/2009; Program Descriptions: Treasury, “Programs” webpage, http://www.financialstability.gov/roadtostability/programs.htm,
accessed 10/5/2009; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, http://www.financialstability.gov/latest/auto3_18.html, accessed 6/30/2009; AWCP, “Obama Admin-
istration’s New Warrantee Commitment Program,” no date, http://www.financialstability.gov/docs/WarranteeCommitmentProgram.pdf, accessed 6/30/2009; TALF: Federal Reserve, “Term Asset-Backed
Securities Loan Facility (TALF) Frequently Asked Questions,” no date, http://www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 6/30/2009; MHA: “Making Home
Affordable Updated Detailed Description Update,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 10/5/2009.	
			
			
			
190               Appendix C I Reporting Requirements I OCTOBER 21, 2009




 Table C.1

  TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS, AS OF 10/6/2009 ($ billions)
                                                                                        Obligationsa                 Expendedb                          On Treasury’s Booksc

  Capital Purchase Program (“CPP”)                                                            $204.6                       $204.6                                         $204.6
  Systemically Significant Failing Institutions (“SSFI”)                                          69.8                         43.2                                          43.2
  Home Affordable Modification Program (“HAMP”)                                                   27.3                            —                                              —
  Targeted Investment Program (“TIP”)                                                             40.0                         40.0                                          40.0
  Automotive Industry Financing Program (“AIFP”)                                                  81.1                         75.9                                          75.9
  Asset Guarantee Program (“AGP”)              d
                                                                                                    5.0                           —                                              —
  Term Asset-Backed Securities Loan Facility (“TALF”)                  e
                                                                                                  20.0                           0.1                                           0.2
  Legacy Securities Public-Private Investment Program (PPIP)                                      16.7                            —                                          16.7
          f
  Total                                                                                       $464.5                      $363.8                                         $380.6
 Notes:
 Numbers affected by rounding.
 a
   Based on “Face Value obligations” from Treasury souce document (TARP/Financial Stability Plan Budget Table dated 10/6/2009).
 b
   According to Treasury, “Represents TARP cash that has left the Treasury.” Based on “Face Value Disbursed/Outlays” from Treasury source document (TARP/Financial Stability Plan Tracking Report).
 c
   According to Treasury, “All assets are currently carried at par value.” On Treasury’s Books indicates “totals obligated,” and therefore “on the books.”
 d
   According to Treasury, “Reflects negative subsidy of $-750 million off of the total $301 billion Citigroup guarantee not just the $5 billion portion guaranteed by Treasury via the TARP (Breakdown of $301B:
 $39.5B from Citi, $5B from the UST, $10B from the FDIC and $246.5B from the Federal Reserve).”
 e
   According to Treasury, “Up to $20B may be disbursed as credit protection for the $200B Federal Reserve Loan Facility. Treasury will only provide funding to cover assets put to the TALF SPV and will
 receive 90% of funds accumulated in the SPV (from Interest spreads on the $200B Federal Reserve Loan Facility) over a 3-5 year period. Expected receipts exceed the expected disbursements, resulting in a
 significant negative subsidy rate. Initial funding of $100M on 3/25/09.”
 f
   This table may not align with numbers contained in the Overview section because the Overview is as of 9/30/2009 and the data in this table provided by Treasury is as of 10/6/2009.

 Source: Treasury, response to SIGTARP data call, 10/8/2009; Treasury, response to SIGTARP draft, 10/14/2009.			
Table D.1

CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                          (CONTINUED)
                                                                                                                                        Treasury Investment
                                                                                                                                            Remaining After
                                                Purchase Details                                        Capital Repayment Details        Capital Repayment              Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                  Current
                                                                                                                                                                                                                                                               Number of      Amount                      Income
                                                                                                                                                                                                                                       Strike   Number of     Outstanding      “In the                  Payment
                                                                                                         Capital           Capital   Remaining Remaining        Final Disposition                 Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                   Investment                      Investment Repayment         Repayment      Capital Investment Disposition Investment            Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
Date     Institution                                       Description                        Amount       Date           Amount6      Amount Description       Date Description             Proceeds      Pricee  (in millions)   updates)a        Issued      updates)a    Money”e     Moneye         Interest)f
12/23/08 1st Constitution Bancorp–Cranbury, NJ             Pref. Stock w/ Warr.          $12,000,000                                                                                                       $7.52            $32       $8.56       200,222        210,233       $(1.04)       Out      $386,667
2/13/09     1st Enterprise Bank–Los Angeles, CA2           Pref. Stock w/ Ex. Warr.        $4,400,000                                                                                                                                                                                                 $121,232
11/14/08 1st FS Corporation–Hendersonville, NC             Pref. Stock w/ Warr.          $16,369,000                                                                                                       $3.76            $19       $8.59       276,815        276,815       $(4.83)       Out      $616,111
1/23/09     1st Source Corporation–South Bend, IN          Pref. Stock w/ Warr.         $111,000,000                                                                                                      $16.30          $394       $19.87       837,947        837,947       $(3.57)       Out    $3,114,167
                                                       2
3/13/09     1st United Bancorp, Inc.–Boca Raton, FL Pref. Stock w/ Ex. Warr.             $10,000,000                                                                                                                                                                                                  $230,111
1/23/09     AB&T Financial Corporation–Gastonia, NC Pref. Stock w/ Warr.                  $3,500,000                                                                                                       $4.90            $13       $6.55        80,153         80,153       $(1.65)       Out        $98,194
                                       2
1/30/09     Adbanc, Inc–Ogallala, NE                       Pref. Stock w/ Ex. Warr.      $12,720,000                                                                                                                                                                                                  $375,505
1/23/09     Alarion Financial Services, Inc.–              Pref. Stock w/ Ex. Warr.        $6,514,000                                                                                                                                                                                                 $199,217
            Ocala, FL2
2/6/09      Alaska Pacific Bancshares, Inc.–               Pref. Stock w/ Warr.           $4,781,000                                                                                                       $5.80             $4       $4.08       175,772        175,772        $1.72          In     $125,502
            Juneau, AK
                                                  2
6/26/09     Alliance Bancshares, Inc.–Dalton, GA           Pref. Stock w/ Ex. Warr.        $2,986,000                                                                                                                                                                                                   $22,147
12/19/08 Alliance Financial Corporation–                   Pref. Stock w/ Warr.          $26,918,000 5/13/2009         $26,918,000          $0     Warrants 6/17/2009      Warrants          $900,000     $27.05          $125             –      173,069               –           –          –      $538,360
         Syracuse, NY4
6/26/09     Alliance Financial Services Inc.–              Sub. Debent. w/ Ex.           $12,000,000
            Saint Paul, MN8                                Warr.
                                                   2
4/24/09     Allied First Bancorp, Inc.–Oswego, IL          Pref. Stock w/ Ex. Warr.        $3,652,000                                                                                                                                                                                                   $61,381
3/27/09     Alpine Banks of Colorado–Glenwood              Pref. Stock w/ Ex. Warr.      $70,000,000                                                                                                                                                                                                $1,462,416
            Springs, CO2
1/30/09     AMB Financial Corp.–Munster, IN2               Pref. Stock w/ Ex. Warr.        $3,674,000                                                                                                                                                                                                 $108,474
3/6/09      AmeriBank Holding Company–                     Pref. Stock w/ Ex. Warr.        $2,492,000                                                                                                                                                                                                   $60,001
            Collinsville, OK2
1/9/09      American Express Company–                      Pref. Stock w/ Warr.        $3,388,890,000 6/17/2009     $3,388,890,000          $0     Warrants 7/29/2009      Warrants    $340,000,000       $33.90       $40,314             – 24,264,129                 –           –          – $74,367,308
            New York, NY4
5/29/09     American Premier Bancorp–Arcadia, CA2 Pref. Stock w/ Ex. Warr.                 $1,800,000                                                                                                                                                                                                   $20,710
1/9/09      American State Bancshares, Inc.–               Pref. Stock w/ Ex. Warr.        $6,000,000                                                                                                                                                                                                 $196,200
            Great Bend, KS2
11/21/08 Ameris Bancorp–Moultrie, GA                       Pref. Stock w/ Warr.          $52,000,000                                                                                                       $7.15            $98      $11.48       679,443        679,443       $(4.33)       Out    $1,906,667
12/19/08 AmeriServ Financial, Inc–Johnstown, PA            Pref. Stock w/ Warr.          $21,000,000                                                                                                       $1.80            $38       $2.40      1,312,500      1,312,500      $(0.60)       Out      $688,333
8/21/09     AmFirst Financial Services, Inc.–              Sub. Debent. w/ Ex.             $5,000,000
            McCook, NE8                                    Warr.
1/30/09     Anchor BanCorp Wisconsin Inc.–                 Pref. Stock w/ Warr.         $110,000,000                                                                                                       $1.30            $28       $2.23      7,399,103      7,399,103      $(0.93)       Out
            Madison, WI
1/30/09     Annapolis Bancorp, Inc.–Annapolis, MD          Pref. Stock w/ Warr.            $8,152,000                                                                                                      $3.00            $12       $4.08       299,706        299,706       $(1.08)       Out      $220,783
11/21/08 Associated Banc–Corp–Green Bay, WI                Pref. Stock w/ Warr.         $525,000,000                                                                                                      $11.42         $1,460      $19.77      3,983,308      3,983,308      $(8.35)       Out $19,250,000
2/27/09     Avenue Financial Holdings, Inc.–Nashville, Pref. Stock w/ Ex. Warr.            $7,400,000                                                                                                                                                                                                 $188,207
            TN2
                                                 2
3/13/09     BancIndependent, Inc.–Sheffield, AL            Pref. Stock w/ Ex. Warr.      $21,100,000                                                                                                                                                                                                  $485,535
7/10/09     Bancorp Financial, Inc.–                       Pref. Stock w/ Ex. Warr.      $13,669,000                                                                                                                                                                                                    $70,034
            Oak Brook, IL2,10
12/19/08 Bancorp Rhode Island, Inc.–                       Pref. Stock w/ Warr.          $30,000,000    8/5/2009       $30,000,000          $0     Warrants 9/30/2009      Warrants         $1,400,000    $24.98          $115             –      192,967               –           –          –      $941,667
         Providence, RI4
2/20/09     BancPlus Corporation–Ridgeland, MS2            Pref. Stock w/ Ex. Warr.      $48,000,000                                                                                                                                                                                                $1,271,666
4/3/09      BancStar, Inc.–Festus, MO2                     Pref. Stock w/ Ex. Warr.        $8,600,000                                                                                                                                                                                                 $171,857
12/19/08 BancTrust Financial Group, Inc.–                  Pref. Stock w/ Warr.          $50,000,000                                                                                                       $3.57            $63      $10.26       730,994        730,994       $(6.69)       Out    $1,638,889
         Mobile, AL
8/14/09     Bank Financial Services, Inc.–                 Pref. Stock w/ Ex. Warr.        $1,004,000
            Eden Prarie, MN2
10/28/08 Bank of America Corporation–Charlotte,            Pref. Stock w/ Warr.       $15,000,000,000                                                                                                     $16.92      $146,385                  73,075,674
         NCg
                                                                                                                                                                                                                                     $30.79                   121,792,790    $(13.87)        Out $897,916,667
1/9/09      Bank of America Corporation–Charlotte,         Pref. Stock w/ Warr.       $10,000,000,000                                                                                                     $16.92      $146,385                  48,717,116
            NC1,g
1/16/09     Bank of Commerce– Charlotte, NC2               Pref. Stock w/ Ex. Warr.        $3,000,000                                                                                                                                                                                                   $94,921
11/14/08 Bank of Commerce Holdings–                        Pref. Stock w/ Warr.          $17,000,000                                                                                                       $5.50            $48       $6.29       405,405        405,405       $(0.79)       Out      $639,861
         Redding, CA
3/13/09     Bank of George– Las Vegas, NV2                 Pref. Stock w/ Ex. Warr.        $2,672,000                                                                                                                                                                                                   $61,501
12/5/08     Bank of Marin Bancorp–Novato, CA4              Pref. Stock w/ Warr.          $28,000,000 3/31/2009         $28,000,000          $0     Warrants                                               $31.33          $163       $27.23       154,242        154,242        $4.10          In     $451,111
                                                                                                                                                                                                                                                                                                                     transaction detail I Appendix d I October 21, 2009




12/5/08     Bank of North Carolina–Thomasville, NC         Pref. Stock w/ Warr.          $31,260,000                                                                                                       $7.70            $57       $8.63       543,337        543,337       $(0.93)       Out    $1,085,417
4/17/09     Bank of the Carolinas Corporation–             Pref. Stock w/ Warr.          $13,179,000                                                                                                       $4.43            $17       $4.16       475,204        475,204        $0.27        Out      $215,990
            Mocksville, NC
12/12/08 Bank of the Ozarks, Inc.–Little Rock, AR          Pref. Stock w/ Warr.          $75,000,000                                                                                                      $26.53          $448       $29.62       379,811        379,811       $(3.09)       Out    $2,531,250
                                                                                                                                                                                                                                                                                         continued on next page
                                                                                                                                                                                                                                                                                                                     191
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                          (CONTINUED)                                                                                                                                                                                                        192
                                                                                                                                       Treasury Investment
                                                                                                                                           Remaining After
                                                Purchase Details                                       Capital Repayment Details        Capital Repayment              Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                 Current
                                                                                                                                                                                                                                                              Number of      Amount                      Income
                                                                                                                                                                                                                                      Strike   Number of     Outstanding      “In the                  Payment
                                                                                                         Capital          Capital   Remaining Remaining        Final Disposition                 Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                    Investment                     Investment Repayment        Repayment      Capital Investment Disposition Investment            Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
Date     Institution                                        Description                       Amount       Date          Amount6      Amount Description       Date Description             Proceeds      Pricee  (in millions)   updates)a        Issued      updates)a    Money”e     Moneye         Interest)f
1/30/09    Bankers’ Bank of the West Bancorp, Inc.– Pref. Stock w/ Ex. Warr.             $12,639,000                                                                                                                                                                                                 $373,117
           Denver, CO2
1/23/09    BankFirst Capital Corporation–                   Pref. Stock w/ Ex. Warr.     $15,500,000                                                                                                                                                                                                 $473,999
           Macon, MS2
2/13/09    BankGreenville–Greenville, SC2                   Pref. Stock w/ Ex. Warr.      $1,000,000                                                                                                                                                                                                   $27,553
11/21/08 Banner Corporation–Walla Walla, WA                 Pref. Stock w/ Warr.        $124,000,000                                                                                                      $2.73            $52      $10.89     1,707,989      1,707,989       $(8.16)       Out    $4,546,667
2/6/09     Banner County Ban Corporation–                   Pref. Stock w/ Ex. Warr.        $795,000                                                                                                                                                                                                   $22,759
           Harrisburg, NE2
1/16/09    Bar Harbor Bankshares–Bar Harbor, ME             Pref. Stock w/ Warr.         $18,751,000                                                                                                     $34.00            $98      $26.81       104,910        104,910        $7.19          In     $544,300
11/14/08 BB&T Corp.–Winston-Salem, NC4                      Pref. Stock w/ Warr.       $3,133,640,000 6/17/2009    $3,133,640,000          $0     Warrants 7/22/2009      Warrants     $67,010,402       $27.24       $18,566             – 13,902,573                 –           –          – $92,703,517
4/3/09     BCB Holding Company, Inc.–                       Pref. Stock w/ Ex. Warr.      $1,706,000                                                                                                                                                                                                   $34,083
           Theodore, AL2
12/23/08 BCSB Bancorp, Inc.–Baltimore, MD                   Pref. Stock w/ Warr.         $10,800,000                                                                                                      $8.56            $27       $8.83       183,465        183,465       $(0.27)       Out      $348,000
1/30/09    Beach Business Bank–                             Pref. Stock w/ Ex. Warr.      $6,000,000                                                                                                                                                                                                 $177,125
           Manhattan Beach, CA2
                                                        2
6/12/09    Berkshire Bancorp, Inc.–Wyomissing, PA Pref. Stock w/ Ex. Warr.                $2,892,000                                                                                                                                                                                                   $27,589
12/19/08 Berkshire Hills Bancorp, Inc.–                     Pref. Stock w/ Warr.         $40,000,000 5/27/2009        $40,000,000          $0     Warrants 6/24/2009      Warrants         $1,040,000    $21.94          $305             –      226,330               –           –          –      $877,778
         Pittsfield, MA4
2/13/09    Bern Bancshares, Inc.–Bern, KS2                  Pref. Stock w/ Ex. Warr.        $985,000                                                                                                                                                                                                   $27,174
                                                                                                                                                                                                                                                                                                                    Appendix d I transaction detail I October 21, 2009




4/24/09    Birmingham Bloomfield Bancshares, Inc– Pref. Stock w/ Ex. Warr.                $1,635,000                                                                                                                                                                                                   $27,483
           Birmingham, MI2
6/19/09    Biscayne Bancshares, Inc.–                       Sub. Debent. w/ Ex.           $6,400,000                                                                                                                                                                                                   $81,038
           Coconut Grove, FL8,10                            Warr.
                                                2
3/13/09    Blackhawk Bancorp, Inc.–Beloit, WI               Pref. Stock w/ Ex. Warr.     $10,000,000                                                                                                                                                                                                 $230,111
5/22/09    Blackridge Financial, Inc.–Fargo, ND2            Pref. Stock w/ Ex. Warr.      $5,000,000                                                                                                                                                                                                   $62,826
3/6/09     Blue Ridge Bancshares, Inc.–                     Pref. Stock w/ Ex. Warr.     $12,000,000                                                                                                                                                                                                 $288,850
           Independence, MO2
3/6/09     Blue River Bancshares, Inc.–                     Pref. Stock w/ Ex. Warr.      $5,000,000                                                                                                                                                                                                 $120,355
           Shelbyville, IN2
12/5/08    Blue Valley Ban Corp–Overland Park, KS           Pref. Stock w/ Warr.         $21,750,000                                                                                                      $9.50            $26      $29.37       111,083        111,083     $(19.87)        Out      $211,458
4/17/09    BNB Financial Services Corporation–New Pref. Stock w/ Ex. Warr.                $7,500,000                                                                                                                                                                                                 $133,980
           York, NY2
2/27/09    BNC Financial Group, Inc.–New Canaan,            Pref. Stock w/ Ex. Warr.      $4,797,000                                                                                                                                                                                                 $122,010
           CT2
                                            2
1/16/09    BNCCORP, Inc.–Bismarck, ND                       Pref. Stock w/ Ex. Warr.     $20,093,000                                                                                                                                                                                                 $635,767
3/6/09     BOH Holdings, Inc.–Houston, TX2                  Pref. Stock w/ Ex. Warr.     $10,000,000                                                                                                                                                                                                 $240,708
                                                    8
5/15/09    Boscobel Bancorp, Inc–Boscobel, WI               Sub. Debent. w/ Ex.           $5,586,000                                                                                                                                                                                                 $117,156
                                                            Warr.
11/21/08 Boston Private Financial Holdings, Inc.–           Pref. Stock w/ Warr.        $154,000,000                                                                                                      $6.47          $444        $8.00     2,887,500      2,887,500       $(1.53)       Out    $5,646,667
         Boston, MA
12/23/08 Bridge Capital Holdings–San Jose, CA               Pref. Stock w/ Warr.         $23,864,000                                                                                                      $7.00            $49       $9.03       396,412        396,412       $(2.03)       Out      $768,951
12/19/08 Bridgeview Bancorp, Inc.–Bridgeview, IL2 Pref. Stock w/ Ex. Warr.               $38,000,000                                                                                                                                                                                               $1,357,656
11/14/08 Broadway Financial Corporation–                    Pref. Stock w/ Warr.          $9,000,000                                                                                                      $5.45             $9       $7.37       183,175        183,175       $(1.92)       Out      $338,750
         Los Angeles, CA
5/15/09    Brogan Bankshares, Inc.– Kaukauna, WI8 Sub. Debent. w/ Ex.                     $2,400,000                                                                                                                                                                                                   $50,340
                                                  Warr.
7/17/09    Brotherhood Bancshares, Inc.–                    Pref. Stock w/ Ex. Warr.     $11,000,000                                                                                                                                                                                                   $46,628
           Kansas City, KS2
4/24/09    Business Bancshares, Inc.–Clayton, MO2 Pref. Stock w/ Ex. Warr.               $15,000,000                                                                                                                                                                                                 $252,063
3/13/09    Butler Point, Inc.–Catlin, IL2                   Pref. Stock w/ Ex. Warr.        $607,000                                                                                                                                                                                                   $13,955
1/9/09     C&F Financial Corporation–West Point, VA Pref. Stock w/ Warr.                 $20,000,000                                                                                                     $17.00            $52      $17.91       167,504        167,504       $(0.91)       Out      $600,000
12/23/08 Cache Valley Banking Company–                      Pref. Stock w/ Ex. Warr.      $4,767,000                                                                                                                                                                                                 $167,407
         Logan, UT2
1/9/09     Cadence Financial Corporation–                   Pref. Stock w/ Warr.         $44,000,000                                                                                                      $1.80            $21       $5.76     1,145,833      1,145,833       $(3.96)       Out    $1,320,000
           Starkville, MS
2/27/09    California Bank of Commerce–                     Pref. Stock w/ Ex. Warr.      $4,000,000                                                                                                                                                                                                 $101,733
           Lafayette, CA2
1/23/09    California Oaks State Bank–                      Pref. Stock w/ Ex. Warr.      $3,300,000                                                                                                                                                                                                 $100,916
           Thousand Oaks, CA2
1/23/09    Calvert Financial Corporation–                   Pref. Stock w/ Ex. Warr.      $1,037,000                                                                                                                                                                                                   $31,720
           Ashland, MO2
                                                                                                                                                                                                                                                                                        continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                       (CONTINUED)
                                                                                                                                     Treasury Investment
                                                                                                                                         Remaining After
                                                Purchase Details                                     Capital Repayment Details        Capital Repayment              Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                               Current
                                                                                                                                                                                                                                                            Number of      Amount                       Income
                                                                                                                                                                                                                                    Strike   Number of     Outstanding      “In the                   Payment
                                                                                                      Capital           Capital   Remaining Remaining        Final Disposition                 Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out      to Treasury
Purchase                                                Investment                      Investment Repayment         Repayment      Capital Investment Disposition Investment            Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the    (Dividend or
                                                                                                                                                                                                                                                                      a
Date     Institution                                    Description                        Amount       Date           Amount6      Amount Description       Date Description             Proceeds      Pricee  (in millions)   updates)a        Issued      updates)     Money”e     Moneye          Interest)f
1/23/09    CalWest Bancorp–                             Pref. Stock w/ Ex. Warr.        $4,656,000                                                                                                                                                                                                  $142,394
           Rancho Santa Margarita, CA2
12/23/08 Capital Bancorp, Inc.–Rockville, MD2           Pref. Stock w/ Ex. Warr.        $4,700,000                                                                                                                                                                                                  $165,075
12/12/08 Capital Bank Corporation–Raleigh, NC           Pref. Stock w/ Warr.          $41,279,000                                                                                                       $4.98            $56       $8.26       749,619        749,619       $(3.28)       Out      $1,393,167
4/10/09    Capital Commerce Bancorp, Inc.–              Pref. Stock w/ Ex. Warr.        $5,100,000                                                                                                                                                                                                    $96,511
           Milwaukee, WI2
11/14/08 Capital One Financial Corporation–             Pref. Stock w/ Warr.        $3,555,199,000 6/17/2009     $3,555,199,000          $0     Warrants                                               $35.73       $16,256       $42.13 12,657,960        12,657,960       $(6.40)       Out $105,174,638
         McLean, VA4
12/23/08 Capital Pacific Bancorp–Portland, OR2          Pref. Stock w/ Ex. Warr.        $4,000,000                                                                                                                                                                                                  $140,489
1/9/09     Carolina Bank Holdings, Inc.–                Pref. Stock w/ Warr.          $16,000,000                                                                                                       $4.00            $14       $6.71       357,675        357,675       $(2.71)       Out       $480,000
           Greensboro, NC
2/6/09     Carolina Trust Bank–Lincolnton, NC           Pref. Stock w/ Warr.            $4,000,000                                                                                                      $5.90             $9       $6.90        86,957         86,957                     Out       $105,000
2/13/09    Carrollton Bancorp–Baltimore, MD             Pref. Stock w/ Warr.            $9,201,000                                                                                                      $5.50            $14       $6.72       205,379        205,379       $(1.22)       Out       $232,581
1/16/09    Carver Bancorp, Inc–New York, NY3            Pref. Stock                   $18,980,000                                                                                                                                                                                                   $550,947
11/21/08 Cascade Financial Corporation–                 Pref. Stock w/ Warr.          $38,970,000                                                                                                       $1.70            $21       $6.77       863,442        863,442       $(5.07)       Out      $1,428,900
         Everett, WA
12/5/08    Cathay General Bancorp–Los Angeles, CA Pref. Stock w/ Warr.               $258,000,000                                                                                                       $8.09          $401       $20.96     1,846,374      1,846,374     $(12.87)        Out      $8,958,333
2/27/09    Catskill Hudson Bancorp, Inc–                Pref. Stock w/ Ex. Warr.        $3,000,000                                                                                                                                                                                                    $76,300
           Rock Hil, NY2
5/29/09    CB Holding Corp.–Aledo, IL2                  Pref. Stock w/ Ex. Warr.        $4,114,000                                                                                                                                                                                                    $47,340
2/20/09    CBB Bancorp–Cartersville, GA2                Pref. Stock w/ Ex. Warr.        $2,644,000                                                                                                                                                                                                    $70,039
3/27/09    CBS Banc-Corp.–Russellville, AL2             Pref. Stock w/ Ex. Warr.      $24,300,000                                                                                                                                                                                                   $507,668
12/23/08 Cecil Bancorp, Inc.–Elkton, MD                 Pref. Stock w/ Warr.          $11,560,000                                                                                                       $4.50            $17       $6.63       261,538        261,538       $(2.13)       Out       $372,489
2/6/09     CedarStone Bank– Lebanon, TN2                Pref. Stock w/ Ex. Warr.        $3,564,000                                                                                                                                                                                                  $101,966
1/9/09     Center Bancorp, Inc.–Union, NJ               Pref. Stock w/ Warr.          $10,000,000                                                                                                       $7.53          $110        $8.65       173,410        173,410       $(1.12)       Out       $300,000
12/12/08 Center Financial Corporation–                  Pref. Stock w/ Warr.          $55,000,000                                                                                                       $3.82            $64       $9.54       864,780        864,780       $(5.72)       Out      $1,856,250
         Los Angeles, CA
5/1/09     CenterBank–Milford, OH2                      Pref. Stock w/ Ex. Warr.        $2,250,000                                                                                                                                                                                                    $35,438
11/21/08 Centerstate Banks of Florida Inc.–             Pref. Stock w/ Warr.          $27,875,000 9/30/2009         $27,875,000          $0     Warrants                                                $7.89          $190       $16.67       250,825        125,413       $(8.78)       Out      $1,196,303
         Davenport, FLb,5
1/16/09    Centra Financial Holdings, Inc.–             Pref. Stock w/ Ex. Warr.      $15,000,000 3/31/2009         $15,000,000          $0    Preferred 4/15/2009      Preferred         $750,000                                                                                                  $172,938
           Morgantown, WV2,4,7                                                                                                                   Stock 2                   Stock
12/5/08    Central Bancorp, Inc.–Somerville, MA         Pref. Stock w/ Warr.          $10,000,000                                                                                                       $8.70            $14       $6.39       234,742        234,742        $2.31          In      $347,222
2/27/09    Central Bancorp, Inc.–Garland, TX2           Pref. Stock w/ Ex. Warr.      $22,500,000                                                                                                                                                                                                   $572,250
1/30/09    Central Bancshares, Inc.– Houston, TX2       Pref. Stock w/ Ex. Warr.        $5,800,000                                                                                                                                                                                                  $171,221
2/20/09    Central Community Corporation–               Pref. Stock w/ Ex. Warr.      $22,000,000                                                                                                                                                                                                   $582,847
           Temple, TX2
12/5/08    Central Federal Corporation–Fairlawn, OH Pref. Stock w/ Warr.               $7,225,000                                                                                                       $2.65            $11       $3.22       336,568        336,568       $(0.57)       Out       $250,868
12/23/08 Central Jersey Bancorp–Oakhurst, NJ            Pref. Stock w/ Warr.          $11,300,000                                                                                                       $6.00            $55       $6.31       268,621        268,621       $(0.31)       Out       $364,111
1/9/09     Central Pacific Financial Corp.–             Pref. Stock w/ Warr.         $135,000,000                                                                                                       $2.52            $72      $12.77     1,585,748      1,585,748     $(10.25)        Out      $2,362,500
           Honolulu, HI
1/30/09    Central Valley Community Bancorp–            Pref. Stock w/ Warr.            $7,000,000                                                                                                      $5.27            $41       $6.64       158,133        158,133       $(1.37)       Out       $189,583
           Fresno, CA
1/30/09    Central Virginia Bankshares, Inc.–           Pref. Stock w/ Warr.          $11,385,000                                                                                                       $3.76            $10       $6.48       263,542        263,542       $(2.72)       Out       $308,344
           Powhatan, VA
2/6/09     Centrix Bank & Trust– Bedford, NH2           Pref. Stock w/ Ex. Warr.        $7,500,000                                                                                                                                                                                                  $214,594
1/9/09     Centrue Financial Corporation–               Pref. Stock w/ Warr.          $32,668,000                                                                                                       $3.79             NA       $9.64       508,320        508,320       $(5.85)       Out       $571,690
           St. Louis, MO
6/19/09    Century Financial Services Corporation–      Sub. Debent. w/ Ex.           $10,000,000                                                                                                                                                                                                   $130,511
           Santa Fe, NM8                                Warr.
5/29/09    Chambers Bancshares, Inc.– Danville, AR8 Sub. Debent. w/ Ex.               $19,817,000                                                                                                                                                                                                   $351,007
                                                    Warr.
                                                    2
7/31/09    Chicago Shore Corporation–Chicago, IL        Pref. Stock w/ Ex. Warr.        $7,000,000
12/31/08 CIT Group Inc.–New York, NY                    Pref. Stock w/ Warr.        $2,330,000,000                                                                                                      $1.21          $474        $3.94 88,705,584        88,705,584       $(2.73)       Out $43,687,500
                                       11, h
10/28/08 Citigroup Inc.–New York, NY                    Pref. Stock w/ Warr.       $25,000,000,000                                                                                                      $4.84      $110,741     see note h 210,084,034                   see note h              $932,291,667
1/16/09    Citizens & Northern Corporation–             Pref. Stock w/ Warr.          $26,440,000                                                                                                      $14.79          $133       $20.36       194,794        194,794       $(5.57)       Out       $767,494
           Wellsboro, PA
12/23/08 Citizens Bancorp–Nevada City, CA2              Pref. Stock w/ Ex. Warr.      $10,400,000                                                                                                                                                                                                   $223,571
                                                                                                                                                                                                                                                                                                                   transaction detail I Appendix d I October 21, 2009




5/29/09    Citizens Bancshares Co.–Chillicothe, MO2 Pref. Stock w/ Ex. Warr.          $24,990,000                                                                                                                                                                                                   $287,533
3/6/09     Citizens Bancshares Corporation–             Pref. Stock                     $7,462,000                                                                                                                                                                                                  $164,786
           Atlanta, GA3
                                                                                                                                                                                                                                                                                      continued on next page
                                                                                                                                                                                                                                                                                                                   193
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                    (CONTINUED)                                                                                                                                                                                                       194
                                                                                                                                  Treasury Investment
                                                                                                                                      Remaining After
                                               Purchase Details                                   Capital Repayment Details        Capital Repayment            Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                          Current
                                                                                                                                                                                                                                                       Number of      Amount                      Income
                                                                                                                                                                                                                               Strike   Number of     Outstanding      “In the                  Payment
                                                                                                   Capital           Capital   Remaining Remaining        Final Disposition               Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                              Investment                     Investment Repayment         Repayment      Capital Investment Disposition Investment          Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
Date     Institution                                  Description                       Amount       Date           Amount6      Amount Description       Date Description           Proceeds      Pricee  (in millions)   updates)a        Issued      updates)a    Money”e     Moneye         Interest)f
3/20/09    Citizens Bank & Trust Company–             Pref. Stock w/ Ex. Warr.      $2,400,000                                                                                                                                                                                                  $19,983
           Covington, LA2
2/6/09     Citizens Commerce Bancshares, Inc.–        Pref. Stock w/ Ex. Warr.      $6,300,000                                                                                                                                                                                                $180,259
           Versailles, KY2
12/23/08 Citizens Community Bank–South Hill, VA2 Pref. Stock w/ Ex. Warr.           $3,000,000                                                                                                                                                                                                $105,367
12/19/08 Citizens First Corporation–                  Pref. Stock w/ Warr.          $8,779,000                                                                                                     $4.15             $8       $5.18       254,218        254,218       $(1.03)       Out      $287,757
         Bowling Green, KY
12/12/08 Citizens Republic Bancorp, Inc.–Flint, MI    Pref. Stock w/ Warr.        $300,000,000                                                                                                     $0.76            $96       $2.56 17,578,125        17,578,125       $(1.80)       Out $10,125,000
12/12/08 Citizens South Banking Corporation–          Pref. Stock w/ Warr.         $20,500,000                                                                                                     $6.10            $46       $7.17       428,870        428,870       $(1.07)       Out      $691,875
         Gastonia, NC
4/10/09    City National Bancshares Corporation–      Pref. Stock                   $9,439,000                                                                                                                                                                                                $163,872
           Newark, NJ3
11/21/08 City National Corporation–                   Pref. Stock w/ Warr.        $400,000,000                                                                                                    $38.93         $2,004      $53.16     1,128,668      1,128,668     $(14.23)        Out $14,666,667
         Beverly Hills, CA
3/27/09    Clover Community Bankshares, Inc.–         Pref. Stock w/ Ex. Warr.      $3,000,000                                                                                                                                                                                                  $62,675
           Clover, SC2
12/5/08    Coastal Banking Company, Inc.–             Pref. Stock w/ Warr.          $9,950,000                                                                                                     $3.45             $9       $7.26       205,579        205,579       $(3.81)       Out      $345,486
           Fernandina Beach, FL
8/28/09    CoastalSouth Bancshares, Inc.–             Pref. Stock w/ Ex. Warr.     $16,015,000
           Hilton Head Island, SC2,10
                                                                                                                                                                                                                                                                                                             Appendix d I transaction detail I October 21, 2009




12/19/08 CoBiz Financial Inc.–Denver, CO              Pref. Stock w/ Warr.         $64,450,000                                                                                                     $4.98          $180       $10.79       895,968        895,968       $(5.81)       Out    $2,112,528
1/9/09     Codorus Valley Bancorp, Inc.–York, PA      Pref. Stock w/ Warr.         $16,500,000                                                                                                     $5.75            $23       $9.38       263,859        263,859       $(3.63)       Out      $495,000
                                                  2
2/13/09    ColoEast Bankshares, Inc.–Lamar, CO        Pref. Stock w/ Ex. Warr.     $10,000,000                                                                                                                                                                                                $275,528
3/27/09    Colonial American Bank–                    Pref. Stock w/ Ex. Warr.        $574,000                                                                                                                                                                                                  $12,003
           West Conshohocken, PA2
1/9/09     Colony Bankcorp, Inc.–Fitzgerald, GA       Pref. Stock w/ Warr.         $28,000,000                                                                                                     $6.69            $48       $8.40       500,000        500,000       $(1.71)       Out      $840,000
11/21/08 Columbia Banking System, Inc.–               Pref. Stock w/ Warr.         $76,898,000                                                                                                    $16.55          $444       $14.49       796,046        796,046        $2.06          In   $2,819,593
         Tacoma, WA
2/27/09    Columbine Capital Corp.–                   Pref. Stock w/ Ex. Warr.      $2,260,000                                                                                                                                                                                                  $57,480
           Buena Vista, CO2
11/14/08 Comerica Inc.–Dallas, TX                     Pref. Stock w/ Warr.       $2,250,000,000                                                                                                   $29.67         $4,484      $29.40 11,479,592        11,479,592        $0.27        Out $84,687,500
1/9/09     Commerce National Bank–                    Pref. Stock w/ Warr.          $5,000,000                                                                                                     $5.00            $13       $8.60        87,209         87,209       $(3.60)       Out
           Newport Beach, CA
5/22/09    Commonwealth Bancshares, Inc.–             Sub. Debent. w/ Ex.          $20,400,000                                                                                                                                                                                                $394,615
           Louisville, KY8                            Warr.
1/23/09    Commonwealth Business Bank–                Pref. Stock w/ Ex. Warr.      $7,701,000                                                                                                                                                                                                  $25,648
           Los Angeles, CA2
1/16/09    Community 1st Bank– Roseville, CA2         Pref. Stock w/ Ex. Warr.      $2,550,000                                                                                                                                                                                                  $69,510
3/6/09     Community Bancshares of Kansas, Inc.–      Pref. Stock w/ Ex. Warr.        $500,000                                                                                                                                                                                                  $12,036
           Goff, KS2
9/11/09    Community Bancshares of Mississippi,       Pref. Stock w/ Ex. Warr.     $52,000,000
           Inc.–Brandon, MS2
7/24/09    Community Bancshares, Inc.–                Pref. Stock w/ Ex. Warr.      $3,872,000                                                                                                                                                                                                  $11,902
           Kingman, AZ2,10
1/16/09    Community Bank of the Bay–                 Pref. Stock                   $1,747,000                                                                                                                                                                                                  $21,838
           Oakland, CA3
5/29/09    Community Bank Shares of Indiana, Inc.– Pref. Stock w/ Warr.            $19,468,000                                                                                                     $7.50            $24       $7.56       386,270        386,270       $(0.06)       Out      $205,495
           New Albany, IN
12/19/08 Community Bankers Trust Corporation–         Pref. Stock w/ Warr.         $17,680,000                                                                                                     $3.44            $74       $3.40       780,000        780,000        $0.04        Out      $579,511
         Glen Allen, VA
2/27/09    Community Business Bank–                   Pref. Stock w/ Ex. Warr.      $3,976,000                                                                                                                                                                                                $101,131
           West Sacramento, CA2
12/19/08 Community Financial Corporation–             Pref. Stock w/ Warr.         $12,643,000                                                                                                     $4.16            $18       $5.40       351,194        351,194       $(1.24)       Out      $414,410
         Staunton, VA
5/15/09    Community Financial Shares, Inc.–          Pref. Stock w/ Ex. Warr.      $6,970,000                                                                                                                                                                                                  $94,978
           Glen Ellyn, IL2
3/20/09    Community First Bancshares Inc.–           Pref. Stock w/ Ex. Warr.     $20,000,000                                                                                                                                                                                                $439,028
           Union City, TN2
4/3/09     Community First Bancshares, Inc.–          Pref. Stock w/ Ex. Warr.     $12,725,000                                                                                                                                                                                                $254,280
           Harrison, AR2
2/27/09    Community First Inc.–Columbia, TN2         Pref. Stock w/ Ex. Warr.     $17,806,000                                                                                                                                                                                                $452,853
2/6/09     Community Holding Company of Florida,      Pref. Stock w/ Ex. Warr.      $1,050,000                                                                                                                                                                                                  $29,926
           Inc.–Miramar Beach, FL2
                                                                                                                                                                                                                                                                                 continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                            (CONTINUED)
                                                                                                                                            Treasury Investment
                                                                                                                                                Remaining After
                                                 Purchase Details                                         Capital Repayment Details          Capital Repayment            Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                    Current
                                                                                                                                                                                                                                                                 Number of      Amount                      Income
                                                                                                                                                                                                                                         Strike   Number of     Outstanding      “In the                  Payment
                                                                                                           Capital           Capital     Remaining Remaining        Final Disposition               Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                      Investment                     Investment Repayment         Repayment        Capital Investment Disposition Investment          Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
                                                                                                                                                                                                                                                                           a
Date     Institution                                          Description                       Amount       Date           Amount6        Amount Description       Date Description           Proceeds      Pricee  (in millions)   updates)a        Issued      updates)     Money”e     Moneye         Interest)f
12/23/08 Community Investors Bancorp, Inc.–                   Pref. Stock w/ Ex. Warr.      $2,600,000                                                                                                                                                                                                    $91,318
         Bucyrus, OH2
1/30/09    Community Partners Bancorp–                        Pref. Stock w/ Warr.          $9,000,000                                                                                                       $4.18            $30       $4.68       288,462        288,462       $(0.50)       Out      $243,750
           Middletown, NJ
1/9/09     Community Trust Financial Corporation–             Pref. Stock w/ Ex. Warr.     $24,000,000                                                                                                                                                                                                  $784,800
           Ruston, LA2
12/19/08 Community West Bancshares–Goleta, CA Pref. Stock w/ Warr.                         $15,600,000                                                                                                       $2.27            $13       $4.49       521,158        521,158       $(2.22)       Out      $511,333
1/9/09     Congaree Bancshares, Inc.–Cayce, SC2               Pref. Stock w/ Ex. Warr.      $3,285,000                                                                                                                                                                                                  $107,407
2/13/09    Corning Savings and Loan Association–              Pref. Stock w/ Ex. Warr.        $638,000                                                                                                                                                                                                    $17,583
           Corning, AR2
1/30/09    Country Bank Shares, Inc.–Milford, NE2             Pref. Stock w/ Ex. Warr.      $7,525,000                                                                                                                                                                                                  $222,133
6/5/09     Covenant Financial Corporation–                    Pref. Stock w/ Ex. Warr.      $5,000,000                                                                                                                                                                                                    $52,986
           Clarksdale, MS2
2/20/09    Crazy Woman Creek Bancorp, Inc.–                   Pref. Stock w/ Ex. Warr.      $3,100,000                                                                                                                                                                                                    $82,128
           Buffalo, WY2
1/9/09     Crescent Financial Corporation–Cary, NC Pref. Stock w/ Warr.                    $24,900,000                                                                                                       $4.80            $46       $4.48       833,705        833,705        $0.32        Out      $747,000
1/23/09    Crosstown Holding Company–Blaine, MN2 Pref. Stock w/ Ex. Warr.                  $10,650,000                                                                                                                                                                                                  $325,709
3/27/09    CSRA Bank Corp.–Wrens, GA2                         Pref. Stock w/ Ex. Warr.      $2,400,000                                                                                                                                                                                                    $50,140
12/5/08    CVB Financial Corp–Ontario, CAb,4                  Pref. Stock w/ Warr.        $130,000,000 8/26/2009         $97,500,000   $32,500,000    Preferred                                              $7.59          $804       $11.68     1,669,521        834,761       $(4.09)       Out    $4,739,583
                                                                                                                                                      Stock w/
                                                                                                                                                      Warrants
12/5/08    CVB Financial Corp–Ontario, CAb,4                                                              9/2/2009       $32,500,000            $0     Warrants
2/27/09    D.L. Evans Bancorp–Burley, ID2                     Pref. Stock w/ Ex. Warr.     $19,891,000                                                                                                                                                                                                  $505,914
5/15/09    Deerfield Financial Corporation–                   Sub. Debent. w/ Ex.           $2,639,000                                                                                                                                                                                                    $55,355
           Deerfield, WI8                                     Warr.
                                                      2
2/13/09    DeSoto County Bank–Horn Lake, MS                   Pref. Stock w/ Ex. Warr.      $1,173,000                                                                                                                                                                                                    $32,335
5/22/09    Diamond Bancorp, Inc.–Washington, MO8 Sub. Debent. w/ Ex.                       $20,445,000                                                                                                                                                                                                  $395,477
                                                 Warr.
1/16/09    Dickinson Financial Corporation II–                Pref. Stock w/ Ex. Warr.    $146,053,000                                                                                                                                                                                                $2,631,197
           Kansas City, MO2
3/13/09    Discover Financial Services–                       Pref. Stock w/ Warr.       $1,224,558,000                                                                                                     $16.23         $8,809       $8.96 20,500,413        20,500,413        $7.27          In $25,851,779
           Riverwoods, IL
1/30/09    DNB Financial Corporation–                         Pref. Stock w/ Warr.         $11,750,000                                                                                                       $6.50            $17       $9.46       186,311        186,311       $(2.96)       Out      $318,229
           Downingtown, PA
6/19/09    Duke Financial Group, Inc.–                        Sub. Debent. w/ Ex.          $12,000,000                                                                                                                                                                                                  $156,616
           Minneapolis, MN8                                   Warr.
12/5/08    Eagle Bancorp, Inc.–Bethesda, MD                   Pref. Stock w/ Warr.         $38,235,000                                                                                                       $9.58          $178        $7.44       770,867        770,867        $2.14          In   $1,327,605
12/5/08    East West Bancorp–Pasadena, CA                     Pref. Stock w/ Warr.        $306,546,000                                                                                                       $8.30          $761       $15.15     3,035,109      3,035,109       $(6.85)       Out $10,643,958
1/9/09     Eastern Virginia Bankshares, Inc.–                 Pref. Stock w/ Warr.         $24,000,000                                                                                                       $8.08            $48       $9.63       373,832        373,832       $(1.55)       Out      $720,000
           Tappahannock, VA
1/16/09    ECB Bancorp, Inc.–Engelhard, NC                    Pref. Stock w/ Warr.         $17,949,000                                                                                                      $16.50            $47      $18.57       144,984        144,984       $(2.07)       Out      $521,020
12/23/08 Emclaire Financial Corp.–Emlenton, PA                Pref. Stock w/ Warr.          $7,500,000                                                                                                      $17.10            $24      $22.45        50,111         50,111       $(5.35)       Out      $241,667
12/5/08    Encore Bancshares Inc.–Houston, TX                 Pref. Stock w/ Warr.         $34,000,000                                                                                                       $8.91            $92      $14.01       364,026        364,026       $(5.10)       Out    $1,180,556
12/19/08 Enterprise Financial Services Corp.–                 Pref. Stock w/ Warr.         $35,000,000                                                                                                       $9.25          $119       $16.20       324,074        324,074       $(6.95)       Out    $1,147,222
         St. Louis, MO
6/12/09    Enterprise Financial Services Group, Inc.– Pref. Stock w/ Ex. Warr.              $4,000,000                                                                                                                                                                                                    $38,150
           Allison Park, PA2
1/30/09    Equity Bancshares, Inc.–Wichita, KS2               Pref. Stock w/ Ex. Warr.      $8,750,000                                                                                                                                                                                                  $258,332
12/19/08 Exchange Bank–Santa Rosa, CA2                        Pref. Stock w/ Ex. Warr.     $43,000,000                                                                                                                                                                                                $1,536,294
5/22/09    F & C Bancorp, Inc.– Holden, MO8                   Sub. Debent. w/ Ex.           $2,993,000                                                                                                                                                                                                    $57,907
                                                              Warr.
                                                          2
1/30/09    F & M Bancshares, Inc.–Trezevant, TN               Pref. Stock w/ Ex. Warr.      $4,609,000                                                                                                                                                                                                  $136,040
2/6/09     F & M Financial Corporation–                       Pref. Stock w/ Ex. Warr.     $17,000,000                                                                                                                                                                                                  $486,413
           Salisbury, NC2
2/13/09    F&M Financial Corporation–                         Pref. Stock w/ Ex. Warr.     $17,243,000                                                                                                                                                                                                  $475,086
           Clarksville, TN2
                                                b,4
1/9/09     F.N.B. Corporation–Hermitage, PA                   Pref. Stock w/ Warr.        $100,000,000    9/9/2009      $100,000,000            $0     Warrants                                              $7.11          $810       $11.52     1,302,083        651,042       $(4.41)       Out    $3,333,333
3/6/09     Farmers & Merchants Bancshares, Inc.–              Pref. Stock w/ Ex. Warr.     $11,000,000                                                                                                                                                                                                  $264,780
           Houston, TX2
                                                                                                                                                                                                                                                                                                                       transaction detail I Appendix d I October 21, 2009




3/20/09    Farmers & Merchants Financial                      Pref. Stock w/ Ex. Warr.        $442,000                                                                                                                                                                                                     $9,699
           Corporation–Argonia, KS2
                                      2
1/23/09    Farmers Bank–Windsor, VA                           Pref. Stock w/ Ex. Warr.      $8,752,000                                                                                                                                                                                                  $267,661
                                                                                                                                                                                                                                                                                           continued on next page
                                                                                                                                                                                                                                                                                                                       195
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                        (CONTINUED)                                                                                                                                                                                                       196
                                                                                                                                      Treasury Investment
                                                                                                                                          Remaining After
                                                 Purchase Details                                     Capital Repayment Details        Capital Repayment            Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                              Current
                                                                                                                                                                                                                                                           Number of      Amount                      Income
                                                                                                                                                                                                                                   Strike   Number of     Outstanding      “In the                  Payment
                                                                                                       Capital           Capital   Remaining Remaining        Final Disposition               Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                      Investment                 Investment Repayment         Repayment      Capital Investment Disposition Investment          Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
Date     Institution                                          Description                   Amount       Date           Amount6      Amount Description       Date Description           Proceeds      Pricee  (in millions)   updates)a        Issued      updates)a    Money”e     Moneye         Interest)f
1/9/09     Farmers Capital Bank Corporation–              Pref. Stock w/ Warr.         $30,000,000                                                                                                    $17.88          $132       $20.09       223,992        223,992       $(2.21)       Out      $900,000
           Frankfort, KY
                                                          8
6/19/09    Farmers Enterprises, Inc.–Great Bend, KS Sub. Debent. w/ Ex.                $12,000,000                                                                                                                                                                                                $156,616
                                                    Warr.
3/20/09    Farmers State Bankshares, Inc.–                Pref. Stock w/ Ex. Warr.        $700,000                                                                                                                                                                                                  $15,547
           Holton, KS2
                                            2
6/26/09    FC Holdings, Inc.–Houston, TX                  Pref. Stock w/ Ex. Warr.     $21,042,000                                                                                                                                                                                                $156,090
12/19/08 FCB Bancorp, Inc.–Louisville, KY2                Pref. Stock w/ Ex. Warr.      $9,294,000                                                                                                                                                                                                $332,072
                                        2
12/19/08 FFW Corporation–Wabash, IN                       Pref. Stock w/ Ex. Warr.      $7,289,000                                                                                                                                                                                                $260,394
                                                      8
5/29/09    Fidelity Bancorp, Inc–Baton Rouge, LA          Sub. Debent. w/ Ex.           $3,942,000
                                                          Warr.
12/12/08 Fidelity Bancorp, Inc.–Pittsburgh, PA            Pref. Stock w/ Warr.          $7,000,000                                                                                                     $6.37            $19       $8.65       121,387        121,387       $(2.28)       Out      $236,250
12/19/08 Fidelity Financial Corporation–Wichita, KS2 Pref. Stock w/ Ex. Warr.          $36,282,000                                                                                                                                                                                              $1,296,269
6/26/09    Fidelity Resources Company–Plano, TX2          Pref. Stock w/ Ex. Warr.      $3,000,000                                                                                                                                                                                                  $22,254
12/19/08 Fidelity Southern Corporation–Atlanta, GA Pref. Stock w/ Warr.                $48,200,000                                                                                                     $3.06            $30       $3.14     2,266,458      4,589,804       $(0.08)       Out    $1,579,889
12/31/08 Fifth Third Bancorp–Cincinnati, OH                   Pref. Stock w/ Warr.   $3,408,000,000                                                                                                   $10.13         $8,057      $11.72 43,617,747        43,617,747       $(1.59)       Out $127,800,000
12/23/08 Financial Institutions, Inc.–Warsaw, NY              Pref. Stock w/ Warr.     $37,515,000                                                                                                     $9.97          $108       $14.88       378,175        378,175       $(4.91)       Out    $1,208,817
2/13/09    Financial Security Corporation–                Pref. Stock w/ Ex. Warr.      $5,000,000                                                                                                                                                                                                $137,764
           Basin, WY2
                                                                                                                                                                                                                                                                                                                 Appendix d I transaction detail I October 21, 2009




7/31/09    Financial Services of Winger, Inc.–            Sub. Debent. w/ Ex.           $3,742,000                                                                                                                                                                                                  $12,650
           Winger, MN8,10                                 Warr.
5/22/09    First Advantage Bancshares Inc.–               Pref. Stock w/ Ex. Warr.      $1,177,000                                                                                                                                                                                                  $14,792
           Coon Rapids, MN2
6/26/09    First Alliance Bancshares, Inc.–               Pref. Stock w/ Ex. Warr.      $3,422,000                                                                                                                                                                                                  $25,383
           Cordova, TN2
7/24/09    First American Bank Corporation–               Sub. Debent. w/ Ex.          $50,000,000                                                                                                                                                                                                $244,725
           Elk Grove Village, IL8                         Warr.
3/13/09    First American International Corp.–            Pref. Stock                  $17,000,000                                                                                                                                                                                                $358,889
           Brooklyn, NY3
1/9/09     First Bancorp–Troy, NC                         Pref. Stock w/ Warr.         $65,000,000                                                                                                    $18.05          $301       $15.82       616,308        616,308        $2.23          In   $1,950,000
1/16/09    First BanCorp–San Juan, PR                         Pref. Stock w/ Warr.    $400,000,000                                                                                                     $3.05          $282       $10.27     5,842,259      5,842,259       $(7.22)       Out    $6,611,111
                                                  2
2/20/09    First BancTrust Corporation–Paris, IL          Pref. Stock w/ Ex. Warr.      $7,350,000                                                                                                                                                                                                $194,746
2/6/09     First Bank of Charleston, Inc.–Charleston, Pref. Stock w/ Ex. Warr.          $3,345,000                                                                                                                                                                                                  $95,697
           WV2
1/16/09    First Bankers Trustshares, Inc.–               Pref. Stock w/ Ex. Warr.     $10,000,000                                                                                                                                                                                                $316,403
           Quincy, IL2
12/31/08 First Banks, Inc.–Clayton, MO2                   Pref. Stock w/ Ex. Warr.    $295,400,000                                                                                                                                                                                              $6,037,238
3/6/09     First Busey Corporation– Urbana, IL            Pref. Stock w/ Warr.        $100,000,000                                                                                                     $4.70          $266       $13.07     1,147,666      1,147,666       $(8.37)       Out    $2,208,333
4/10/09    First Business Bank, N.A.–                     Pref. Stock w/ Ex. Warr.      $2,211,000                                                                                                                                                                                                  $41,854
           San Diego, CA2
12/19/08 First California Financial Group, Inc–           Pref. Stock w/ Warr.         $25,000,000                                                                                                     $4.80            $56       $6.26       599,042        599,042       $(1.46)       Out      $819,444
         Westlake Village, CA
4/3/09     First Capital Bancorp, Inc.–Glen Ellen, VA Pref. Stock w/ Warr.             $10,958,000                                                                                                     $7.55            $22       $6.55       250,947        250,947        $1.00        Out      $200,897
2/13/09    First Choice Bank– Cerritos, CA2               Pref. Stock w/ Ex. Warr.      $2,200,000                                                                                                                                                                                                  $60,616
1/23/09    First Citizens Banc Corp– Sandusky, OH         Pref. Stock w/ Warr.         $23,184,000                                                                                                     $5.24            $40       $7.41       469,312        469,312       $(2.17)       Out      $650,440
3/20/09    First Colebrook Bancorp, Inc.–                 Pref. Stock w/ Ex. Warr.      $4,500,000                                                                                                                                                                                                  $98,782
           Colebrook, NH2
5/15/09    First Community Bancshares, Inc–OverlandPref. Stock w/ Ex. Warr.            $14,800,000                                                                                                                                                                                                $201,650
           Park, KS2
12/23/08 First Community Bank Corporation of                  Pref. Stock w/ Warr.     $10,685,000                                                                                                     $4.00            $17       $7.02       228,312        228,312       $(3.02)       Out      $344,295
         America–Pinellas Park, FL
11/21/08 First Community Bankshares Inc.–                     Pref. Stock w/ Warr.     $41,500,000    7/8/2009       $41,500,000          $0     Warrants                                             $12.62          $223       $35.26       176,546         88,273     $(22.64)        Out    $1,308,403
         Bluefield, VA5, b
11/21/08 First Community Corporation–Lexington,               Pref. Stock w/ Warr.     $11,350,000                                                                                                     $6.20            $20       $8.69       195,915        195,915       $(2.49)       Out      $416,167
         SC
12/5/08    First Defiance Financial Corp.–                    Pref. Stock w/ Warr.     $37,000,000                                                                                                    $14.91          $121       $10.08       550,595        550,595        $4.83          In   $1,284,722
           Defiance, OH
9/11/09    First Eagle Bancshares, Inc.–                  Sub. Debent. w/ Ex.           $7,500,000
           Hanover Park, IL8                              Warr.
2/6/09     First Express of Nebraska, Inc.–               Pref. Stock w/ Ex. Warr.      $5,000,000                                                                                                                                                                                                $143,063
           Gering, NE2
                                                                                                                                                                                                                                                                                     continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                             (CONTINUED)
                                                                                                                                          Treasury Investment
                                                                                                                                              Remaining After
                                                    Purchase Details                                      Capital Repayment Details        Capital Repayment              Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                    Current
                                                                                                                                                                                                                                                                 Number of      Amount                      Income
                                                                                                                                                                                                                                         Strike   Number of     Outstanding      “In the                  Payment
                                                                                                           Capital           Capital   Remaining Remaining        Final Disposition                 Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                        Investment                   Investment Repayment         Repayment      Capital Investment Disposition Investment            Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
                                                                                                                                                                                                                                                                           a
Date     Institution                                            Description                     Amount       Date           Amount6      Amount Description       Date Description             Proceeds      Pricee  (in millions)   updates)a        Issued      updates)     Money”e     Moneye         Interest)f
3/6/09     First Federal Bancshares of Arkansas,                Pref. Stock w/ Warr.        $16,500,000                                                                                                      $4.09            $20       $7.69       321,847        321,847       $(3.60)       Out      $364,375
           Inc.–Harrison, AR
12/23/08 First Financial Bancorp–Cincinnati, OH                 Pref. Stock w/ Warr.        $80,000,000                                                                                                     $12.05          $620       $12.90       930,233        930,233       $(0.85)       Out    $2,577,778
6/12/09    First Financial Bancshares, Inc.–                    Sub. Debent. w/ Ex.          $3,756,000                                                                                                                                                                                                   $53,341
           Lawrence, KS8,10                                     Warr.
12/5/08    First Financial Holdings Inc.–                       Pref. Stock w/ Warr.        $65,000,000                                                                                                     $15.97          $254       $20.17       483,391        483,391       $(4.20)       Out    $2,256,944
           Charleston, SC
1/9/09     First Financial Service Corporation–                 Pref. Stock w/ Warr.        $20,000,000                                                                                                     $13.47            $63      $13.89       215,983        215,983       $(0.42)       Out      $600,000
           Elizabethtown, KY
2/27/09    First Gothenburg Bancshares, Inc.–                   Pref. Stock w/ Ex. Warr.     $7,570,000                                                                                                                                                                                                 $192,552
           Gothenburg, NE2
8/28/09    First Guaranty Bancshares, Inc.–                     Pref. Stock w/ Ex. Warr.    $20,699,000
           Hammond, LA2
11/14/08 First Horizon National Corporation–                    Pref. Stock w/ Warr.       $866,540,000                                                                                                     $13.23         $2,892       $9.60 12,743,235        26,857,216        $3.63          In $32,615,603
         Memphis, TN
8/28/09    First Independence Corporation–                      Pref. Stock                  $3,223,000
           Detroit, MI2,3
3/13/09    First Intercontinental Bank–Doraville, GA2 Pref. Stock w/ Ex. Warr.               $6,398,000                                                                                                                                                                                                 $147,229
12/12/08 First Litchfield Financial Corporation–                Pref. Stock w/ Warr.        $10,000,000                                                                                                      $6.50            $15       $7.53       199,203        199,203       $(1.03)       Out      $337,500
         Litchfield, CT
2/27/09    First M&F Corporation–Kosciusko, MS                  Pref. Stock w/ Warr.        $30,000,000                                                                                                      $2.75            $25       $8.77       513,113        513,113       $(6.02)       Out      $700,000
1/16/09    First Manitowoc Bancorp, Inc.–                       Pref. Stock w/ Ex. Warr.    $12,000,000 5/27/2009        $12,000,000          $0    Preferred 5/27/2009      Preferred         $600,000                                                                                                 $237,983
           Manitowoc, WI2,4,7                                                                                                                         Stock 2                   Stock
2/6/09     First Market Bank, FSB– Richmond, VA2                Pref. Stock w/ Ex. Warr.    $33,900,000                                                                                                                                                                                                 $969,964
2/13/09    First Menasha Bancshares, Inc.–                      Pref. Stock w/ Ex. Warr.     $4,797,000                                                                                                                                                                                                 $132,178
           Neenah, WI2
2/20/09    First Merchants Corporation–Muncie, IN               Pref. Stock w/ Warr.       $116,000,000                                                                                                      $6.97          $148       $17.55       991,453        991,453     $(10.58)        Out    $2,819,444
12/5/08    First Midwest Bancorp, Inc.–Itasca, IL               Pref. Stock w/ Warr.       $193,000,000                                                                                                     $11.27          $554       $22.18     1,305,230      1,305,230     $(10.91)        Out    $6,701,389
                                                            2
3/13/09    First National Corporation– Strasburg, VA Pref. Stock w/ Ex. Warr.               $13,900,000                                                                                                                                                                                                 $319,855
3/20/09    First NBC Bank Holding Company–                      Pref. Stock w/ Ex. Warr.    $17,836,000                                                                                                                                                                                                 $391,532
           New Orleans, LA2
11/21/08 First Niagara Financial Group–                         Pref. Stock w/ Warr.       $184,011,000 5/27/2009       $184,011,000          $0     Warrants 6/24/2009      Warrants         $2,700,000    $12.33         $2,258            –    1,906,191               –           –          –    $4,753,618
         Lockport, NYb,5,9
3/13/09    First Northern Community Bancorp–                    Pref. Stock w/ Warr.        $17,390,000                                                                                                      $6.00            $54       $7.39       352,977        352,977       $(1.39)       Out      $367,122
           Dixon, CA
11/21/08 First PacTrust Bancorp, Inc.–                          Pref. Stock w/ Warr.        $19,300,000                                                                                                      $6.40            $27      $10.31       280,795        280,795       $(3.91)       Out      $707,667
         Chula Vista, CA
3/13/09    First Place Financial Corp.–Warren, OH               Pref. Stock w/ Warr.        $72,927,000                                                                                                      $2.95            $50       $2.98     3,670,822      3,670,822       $(0.03)       Out    $1,539,570
2/20/09    First Priority Financial Corp.–Malvern, PA2 Pref. Stock w/ Ex. Warr.              $4,579,000                                                                                                                                                                                                 $121,314
3/6/09     First Reliance Bancshares, Inc.–                     Pref. Stock w/ Ex. Warr.    $15,349,000                                                                                                                                                                                                 $369,446
           Florence, SC2
                                              2
1/30/09    First Resource Bank–Exton, PA                        Pref. Stock w/ Ex. Warr.     $2,600,000                                                                                                                                                                                                   $76,755
1/9/09     First Security Group, Inc.–                          Pref. Stock w/ Warr.        $33,000,000                                                                                                      $3.85            $63       $6.01       823,627        823,627       $(2.16)       Out      $990,000
           Chattanooga, TN
12/23/08 First Sound Bank–Seattle, WA                           Pref. Stock w/ Warr.         $7,400,000                                                                                                      $0.65             $1       $9.73       114,080        114,080       $(9.08)       Out      $238,444
7/17/09    First South Bancorp, Inc.–Lexington, TN8 Sub. Debent. w/ Ex.                     $50,000,000                                                                                                                                                                                                 $326,277
                                                    Warr.
1/30/09    First Southern Bancorp, Inc.–                        Pref. Stock w/ Ex. Warr.    $10,900,000                                                                                                                                                                                                 $321,777
           Boca Raton, FL2
3/6/09     First Southwest Bancorporation, Inc.–                Pref. Stock w/ Ex. Warr.     $5,500,000                                                                                                                                                                                                 $132,390
           Alamosa, CO2
2/27/09    First State Bank of Mobeetie–                        Pref. Stock w/ Ex. Warr.      $731,000                                                                                                                                                                                                    $18,611
           Mobeetie, TX2
3/6/09     First Texas BHC, Inc.–Fort Worth, TX2                Pref. Stock w/ Ex. Warr.    $13,533,000                                                                                                                                                                                                 $325,764
6/5/09     First Trust Corporation–New Orleans, LA8 Sub. Debent. w/ Ex.                     $17,969,000                                                                                                                                                                                                 $293,128
                                                    Warr.
                                            2,4,7
1/23/09    First ULB Corp.–Oakland, CA                          Pref. Stock w/ Ex. Warr.     $4,900,000 4/22/2009         $4,900,000          $0    Preferred 4/22/2009      Preferred         $245,000                                                                                                   $66,021
                                                                                                                                                      Stock 2                   Stock
1/30/09    First United Corporation–Oakland, MD                 Pref. Stock w/ Warr.        $30,000,000                                                                                                     $10.57            $65      $13.79       326,323        326,323       $(3.22)       Out      $812,500
                                                                                                                                                                                                                                                                                                                       transaction detail I Appendix d I October 21, 2009




6/12/09    First Vernon Bancshares, Inc.–                       Pref. Stock w/ Ex. Warr.     $6,000,000                                                                                                                                                                                                   $56,359
           Vernon, AL2,10
                                                        2
2/6/09     First Western Financial, Inc.–Denver, CO             Pref. Stock w/ Ex. Warr.     $8,559,000                                                                                                                                                                                                 $244,897
                                                                                                                                                                                                                                                                                           continued on next page
                                                                                                                                                                                                                                                                                                                       197
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                        (CONTINUED)                                                                                                                                                                                                        198
                                                                                                                                     Treasury Investment
                                                                                                                                         Remaining After
                                                Purchase Details                                     Capital Repayment Details        Capital Repayment              Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                               Current
                                                                                                                                                                                                                                                            Number of      Amount                      Income
                                                                                                                                                                                                                                    Strike   Number of     Outstanding      “In the                  Payment
                                                                                                      Capital           Capital   Remaining Remaining        Final Disposition                 Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                   Investment                   Investment Repayment         Repayment      Capital Investment Disposition Investment            Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
Date     Institution                                       Description                     Amount       Date           Amount6      Amount Description       Date Description             Proceeds      Pricee  (in millions)   updates)a        Issued      updates)a    Money”e     Moneye         Interest)f
1/30/09    Firstbank Corporation–Alma, MI                  Pref. Stock w/ Warr.        $33,000,000                                                                                                      $5.50            $42       $8.55       578,947        578,947       $(3.05)       Out      $893,750
1/9/09     FirstMerit Corporation–Akron, OH4               Pref. Stock w/ Warr.       $125,000,000 4/22/2009       $125,000,000          $0     Warrants 5/27/2009      Warrants         $5,025,000    $19.03         $1,634            –      952,260               –           –          –    $1,788,194
1/30/09    Flagstar Bancorp, Inc.–Troy, MI                 Pref. Stock w/ Warr.       $266,657,000                                                                                                      $1.03          $483        $0.62 64,513,790        64,513,790        $0.41        Out    $7,221,960
7/24/09    Florida Bank Group, Inc.–Tampa, FL2             Pref. Stock w/ Ex. Warr.    $20,471,000                                                                                                                                                                                                   $65,083
2/20/09    Florida Business BancGroup, Inc.–               Pref. Stock w/ Ex. Warr.     $9,495,000                                                                                                                                                                                                 $251,563
           Tampa, FL2
12/19/08 Flushing Financial Corporation–                   Pref. Stock w/ Warr.        $70,000,000                                                                                                     $11.40          $343       $13.97       751,611        751,611       $(2.57)       Out    $2,294,444
         Lake Success, NY
2/27/09    FNB Bancorp–South San Francisco, CA2            Pref. Stock w/ Ex. Warr.    $12,000,000                                                                                                                                                                                                 $305,200
2/13/09    FNB United Corp.–Asheboro, NC                   Pref. Stock w/ Warr.        $51,500,000                                                                                                      $2.62            $30       $3.50     2,207,143      2,207,143       $(0.88)       Out    $1,301,805
5/15/09    Foresight Financial Group, Inc.–                Pref. Stock w/ Ex. Warr.    $15,000,000                                                                                                                                                                                                 $204,375
           Rockford, IL2
5/22/09    Fort Lee Federal Savings Bank–                  Pref. Stock w/ Ex. Warr.     $1,300,000                                                                                                                                                                                                   $16,335
           Fort Lee, NJ2
4/3/09     Fortune Financial Corporation–                  Pref. Stock w/ Ex. Warr.     $3,100,000                                                                                                                                                                                                   $61,949
           Arnold, MO2
12/5/08    FPB Bancorp, Inc.–Port St. Lucie, FL            Pref. Stock w/ Warr.         $5,800,000                                                                                                      $3.10             $6       $4.75       183,158        183,158       $(1.65)       Out      $201,389
1/23/09    FPB Financial Corp.–Hammond, LA2                Pref. Stock w/ Ex. Warr.     $3,240,000                                                                                                                                                                                                   $99,081
                                                       2
5/22/09    Franklin Bancorp, Inc.–Washington, MO           Pref. Stock w/ Ex. Warr.     $5,097,000                                                                                                                                                                                                   $64,048
                                                                                                                                                                                                                                                                                                                  Appendix d I transaction detail I October 21, 2009




5/8/09     Freeport Bancshares, Inc.–Freeport, IL8         Sub. Debent. w/ Ex.          $3,000,000                                                                                                                                                                                                   $67,818
                                                           Warr.
                                                   8
6/26/09    Fremont Bancorporation–Fremont, CA              Sub. Debent. w/ Ex.         $35,000,000                                                                                                                                                                                                 $399,705
                                                           Warr.
1/23/09    Fresno First Bank–Fresno, CA2                   Pref. Stock w/ Ex. Warr.     $1,968,000                                                                                                                                                                                                   $26,805
4/24/09    Frontier Bancshares, Inc.–Austin, TX8           Sub. Debent. w/ Ex.          $3,000,000                                                                                                                                                                                                   $77,607
                                                           Warr.
12/23/08 Fulton Financial Corporation–                     Pref. Stock w/ Warr.       $376,500,000                                                                                                      $7.40         $1,303      $10.25     5,509,756      5,509,756       $(2.85)       Out $12,131,667
         Lancaster, PA
5/8/09     Gateway Bancshares, Inc.–Ringgold, GA2 Pref. Stock w/ Ex. Warr.              $6,000,000                                                                                                                                                                                                   $88,108
2/6/09     Georgia Commerce Bancshares, Inc.–              Pref. Stock w/ Ex. Warr.     $8,700,000                                                                                                                                                                                                 $248,929
           Atlanta, GA2
5/1/09     Georgia Primary Bank– Atlanta, GA2              Pref. Stock w/ Ex. Warr.     $4,500,000
3/6/09     Germantown Capital Corporation, Inc.–           Pref. Stock w/ Ex. Warr.     $4,967,000                                                                                                                                                                                                 $119,546
           Germantown, TN2
6/26/09    Gold Canyon Bank–Gold Canyon, AZ2,10            Pref. Stock w/ Ex. Warr.     $1,607,000                                                                                                                                                                                                   $11,525
1/30/09    Goldwater Bank, N.A.–Scottsdale, AZ2            Pref. Stock w/ Ex. Warr.     $2,568,000                                                                                                                                                                                                   $75,790
4/24/09    Grand Capital Corporation–Tulsa, OK2            Pref. Stock w/ Ex. Warr.     $4,000,000                                                                                                                                                                                                   $67,217
9/25/09    Grand Financial Corporation–                    Sub. Debent. w/ Ex.          $2,443,320
           Hattiesburg, MS8                                Warr.
5/29/09    Grand Mountain Bancshares, Inc.–                Pref. Stock w/ Ex. Warr.     $3,076,000
           Granby, CO2
1/9/09     GrandSouth Bancorporation–                      Pref. Stock w/ Ex. Warr.     $9,000,000                                                                                                                                                                                                 $294,300
           Greenville, SC2
7/17/09    Great River Holding Company–                    Sub. Debent. w/ Ex.          $8,400,000                                                                                                                                                                                                   $54,815
           Baxter, MN8                                     Warr.
12/5/08    Great Southern Bancorp–Springfield, MO Pref. Stock w/ Warr.                 $58,000,000                                                                                                     $23.71          $317        $9.57       909,091        909,091      $14.14           In   $2,013,889
12/23/08 Green Bankshares, Inc.–Greeneville, TN            Pref. Stock w/ Warr.        $72,278,000                                                                                                      $5.00            $66      $17.06       635,504        635,504     $(12.06)        Out    $2,328,958
2/27/09    Green Circle Investments, Inc.–Clive, IA2       Pref. Stock w/ Ex. Warr.     $2,400,000                                                                                                                                                                                                   $61,040
2/27/09    Green City Bancshares, Inc.–                    Pref. Stock w/ Ex. Warr.      $651,000                                                                                                                                                                                                    $16,576
           Green City, MO2
1/30/09    Greer Bancshares Incorporated–                  Pref. Stock w/ Ex. Warr.     $9,993,000                                                                                                                                                                                                 $295,019
           Greer, SC2
2/13/09    Gregg Bancshares, Inc.–Ozark, MO2               Pref. Stock w/ Ex. Warr.      $825,000                                                                                                                                                                                                    $22,720
2/20/09    Guaranty Bancorp, Inc.– Woodsville, NH2 Pref. Stock w/ Ex. Warr.             $6,920,000                                                                                                                                                                                                 $183,332
9/25/09    Guaranty Capital Corporation–                   Sub. Debent.                $14,000,000
           Belzoni, MS3,8
1/30/09    Guaranty Federal Bancshares, Inc.–              Pref. Stock w/ Warr.        $17,000,000                                                                                                      $5.90            $15       $5.55       459,459        459,459        $0.35        Out      $460,417
           Springfield, MO
                                               8,10
9/25/09    GulfSouth Private Bank– Destin, FL              Sub. Debent. w/ Ex.          $7,500,000
                                                           Warr.
6/26/09    Gulfstream Bancshares, Inc.–Stuart, FL2         Pref. Stock w/ Ex. Warr.     $7,500,000                                                                                                                                                                                                   $55,635
                                                                                                                                                                                                                                                                                      continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                                (CONTINUED)
                                                                                                                                              Treasury Investment
                                                                                                                                                  Remaining After
                                                       Purchase Details                                       Capital Repayment Details        Capital Repayment              Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                        Current
                                                                                                                                                                                                                                                                     Number of      Amount                      Income
                                                                                                                                                                                                                                             Strike   Number of     Outstanding      “In the                  Payment
                                                                                                               Capital           Capital   Remaining Remaining        Final Disposition                 Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                          Investment                     Investment Repayment         Repayment      Capital Investment Disposition Investment            Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
                                                                                                                                                                                                                                                                               a
Date     Institution                                              Description                       Amount       Date           Amount6      Amount Description       Date Description             Proceeds      Pricee  (in millions)   updates)a        Issued      updates)     Money”e     Moneye         Interest)f
2/20/09    Hamilton State Bancshares–                             Pref. Stock w/ Ex. Warr.      $7,000,000                                                                                                                                                                                                  $185,452
           Hoschton, GA2
12/31/08 Hampton Roads Bankshares, Inc.–                          Pref. Stock w/ Warr.         $80,347,000                                                                                                       $2.88            $63       $9.09     1,325,858      1,325,858       $(6.21)       Out    $2,510,844
         Norfolk, VA
7/17/09    Harbor Bankshares Corporation–                         Pref. Stock                   $6,800,000                                                                                                                                                                                                    $26,444
           Baltimore, MD2,3
6/26/09    Hartford Financial Services Group, Inc.–               Pref. Stock w/ Warr.       $3,400,000,000                                                                                                     $26.50         $8,696       $9.79 52,093,973        52,093,973      $16.71           In $23,138,889
           Hartford, CT
3/13/09    Haviland Bancshares, Inc.–Haviland, KS2                Pref. Stock w/ Ex. Warr.        $425,000                                                                                                                                                                                                     $9,771
12/19/08 Hawthorn Bancshares, Inc.–                               Pref. Stock w/ Warr.         $30,255,000                                                                                                       $9.75            $42      $17.78       245,443        500,704       $(8.03)       Out      $991,692
         Lee’s Summit, MO
3/6/09     HCSB Financial Corporation–Loris, SC                   Pref. Stock w/ Warr.         $12,895,000                                                                                                      $15.00            $57      $21.09        91,714         91,714       $(6.09)       Out      $284,765
9/11/09    Heartland Bancshares, Inc.–Franklin, IN2,10 Pref. Stock w/ Ex. Warr.                 $7,000,000
12/19/08 Heartland Financial USA, Inc.–Dubuque, IA Pref. Stock w/ Warr.                        $81,698,000                                                                                                      $14.75          $241       $20.10       609,687        609,687       $(5.35)       Out    $2,677,879
9/25/09    Heritage Bankshares, Inc.–Norfolk, VA2,10 Pref. Stock w/ Ex. Warr.                  $10,103,000
11/21/08 Heritage Commerce Corp.–San Jose, CA Pref. Stock w/ Warr.                             $40,000,000                                                                                                       $4.71            $56      $12.96       462,963        462,963       $(8.25)       Out    $1,466,667
11/21/08 Heritage Financial Corporation–Olympia,                  Pref. Stock w/ Warr.         $24,000,000                                                                                                      $13.15          $138       $13.04       276,074        276,074        $0.11        Out      $880,000
         WA
3/20/09    Heritage Oaks Bancorp–Paso Robles, CA Pref. Stock w/ Warr.                          $21,000,000                                                                                                       $7.35            $57       $5.15       611,650        611,650        $2.20          In     $422,916
11/21/08 HF Financial Corp.–Sioux Falls, SD4                      Pref. Stock w/ Warr.         $25,000,000    6/3/2009       $25,000,000          $0     Warrants 6/30/2009      Warrants          $650,000     $10.96            $44            –      302,419               –           –          –      $666,667
3/6/09     Highlands Independent Bancshares, Inc.– Pref. Stock w/ Ex. Warr.                     $6,700,000                                                                                                                                                                                                  $161,275
           Sebring, FL2
                                                   2
5/8/09     Highlands State Bank–Vernon, NJ                        Pref. Stock w/ Ex. Warr.      $3,091,000                                                                                                                                                                                                    $45,401
1/30/09    Hilltop Community Bancorp, Inc.–                       Pref. Stock w/ Ex. Warr.      $4,000,000                                                                                                                                                                                                  $118,083
           Summit, NJ2
12/23/08 HMN Financial, Inc.–Rochester, MN                        Pref. Stock w/ Warr.         $26,000,000                                                                                                       $3.75            $16       $4.68       833,333        833,333       $(0.93)       Out      $837,778
1/16/09    Home Bancshares, Inc.–Conway, AR                       Pref. Stock w/ Warr.         $50,000,000                                                                                                      $21.92          $546       $26.03       288,129        288,129       $(4.11)       Out    $1,451,389
2/20/09    Hometown Bancorp of Alabama, Inc.–                     Pref. Stock w/ Ex. Warr.      $3,250,000                                                                                                                                                                                                    $86,125
           Oneonta, AL2
                                                              2
2/13/09    Hometown Bancshares, Inc.–Corbin, KY                   Pref. Stock w/ Ex. Warr.      $1,900,000                                                                                                                                                                                                    $52,350
9/18/09    HomeTown Bankshares Corporation–                       Pref. Stock w/ Ex. Warr.     $10,000,000
           Roanoke, VA2,10
12/12/08 HopFed Bancorp–Hopkinsville, KY                          Pref. Stock w/ Warr.         $18,400,000                                                                                                      $10.05            $36      $11.32       243,816        243,816       $(1.27)       Out      $621,000
12/19/08 Horizon Bancorp–Michigan City, IN                        Pref. Stock w/ Warr.         $25,000,000                                                                                                      $17.10            $56      $17.68       212,104        212,104       $(0.58)       Out      $819,444
                                                          2
2/27/09    Howard Bancorp, Inc.–Ellicott City, MD                 Pref. Stock w/ Ex. Warr.      $5,983,000                                                                                                                                                                                                  $152,161
                                                          2
5/1/09     HPK Financial Corporation–Chicago, IL                  Pref. Stock w/ Ex. Warr.      $4,000,000                                                                                                                                                                                                    $62,978
11/14/08 Huntington Bancshares–Columbus, OH                       Pref. Stock w/ Warr.       $1,398,071,000                                                                                                      $4.71         $3,297       $8.90 23,562,994        23,562,994       $(4.19)       Out $52,621,840
                                               2
2/6/09     Hyperion Bank– Philadelphia, PA                        Pref. Stock w/ Ex. Warr.      $1,552,000                                                                                                                                                                                                    $44,426
9/18/09    IA Bancorp, Inc.–Iselin, NJ2,10                        Pref. Stock w/ Ex. Warr.      $5,976,000
                                             3,8
5/15/09    IBC Bancorp, Inc.–Chicago, IL                          Sub. Debent.                  $4,205,000                                                                                                                                                                                                    $80,946
12/5/08    Iberiabank Corporation–Lafayette, LAb,5,9 Pref. Stock w/ Warr.                      $90,000,000 3/31/2009         $90,000,000          $0     Warrants 5/20/2009      Warrants         $1,200,000    $45.56          $937             –      276,980               –           –          –    $1,450,000
                                        2
3/27/09    IBT Bancorp, Inc.–Irving, TX                           Pref. Stock w/ Ex. Warr.      $2,295,000                                                                                                                                                                                                    $47,955
3/13/09    IBW Financial Corporation–                             Pref. Stock w/ Ex. Warr.      $6,000,000                                                                                                                                                                                                  $138,067
           Washington, DC2
3/6/09     ICB Financial–Ontario, CA2                             Pref. Stock w/ Ex. Warr.      $6,000,000                                                                                                                                                                                                  $144,425
1/16/09    Idaho Bancorp–Boise, ID2                               Pref. Stock w/ Ex. Warr.      $6,900,000                                                                                                                                                                                                  $124,306
5/22/09    Illinois State Bancorp, Inc.–Chicago, IL2              Pref. Stock w/ Ex. Warr.      $6,272,000                                                                                                                                                                                                    $78,818
1/9/09     Independence Bank–East Greenwich, RI2                  Pref. Stock w/ Ex. Warr.      $1,065,000                                                                                                                                                                                                    $34,812
1/9/09     Independent Bank Corp.–Rockland, MA4                   Pref. Stock w/ Warr.         $78,158,000 4/22/2009         $78,158,000          $0     Warrants 5/27/2009      Warrants         $2,200,000    $22.13          $463             –      481,664               –           –          –    $1,118,094
12/12/08 Independent Bank Corporation–Ionia, MI                   Pref. Stock w/ Warr.         $72,000,000                                                                                                       $1.90            $46       $3.12     3,461,538      3,461,538       $(1.22)       Out    $2,430,000
4/24/09    Indiana Bank Corp.–Dana, IN2                           Pref. Stock w/ Ex. Warr.      $1,312,000                                                                                                                                                                                                    $22,059
12/12/08 Indiana Community Bancorp–Columbus, IN Pref. Stock w/ Warr.                           $21,500,000                                                                                                       $8.50            $29      $17.09       188,707        188,707       $(8.59)       Out      $725,625
2/27/09    Integra Bank Corporation–Evansville, IN                Pref. Stock w/ Warr.         $83,586,000                                                                                                       $1.11            $23       $1.69     7,418,876      7,418,876       $(0.58)       Out    $1,950,340
12/19/08 Intermountain Community Bancorp–                         Pref. Stock w/ Warr.         $27,000,000                                                                                                       $2.60            $22       $6.20       653,226        653,226       $(3.60)       Out      $885,000
         Sandpoint, ID
12/23/08 International Bancshares Corporation–                    Pref. Stock w/ Warr.        $216,000,000                                                                                                      $16.31         $1,112      $24.43     1,326,238      1,326,238       $(8.12)       Out    $6,960,000
         Laredo, TX
                                                                                                                                                                                                                                                                                                                           transaction detail I Appendix d I October 21, 2009




12/23/08 Intervest Bancshares Corporation–                        Pref. Stock w/ Warr.         $25,000,000                                                                                                       $3.53            $29       $5.42       691,882        691,882       $(1.89)       Out      $805,556
         New York, NY
                                                                                                                                                                                                                                                                                               continued on next page
                                                                                                                                                                                                                                                                                                                           199
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                         (CONTINUED)                                                                                                                                                                                                       200
                                                                                                                                       Treasury Investment
                                                                                                                                           Remaining After
                                               Purchase Details                                        Capital Repayment Details        Capital Repayment            Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                               Current
                                                                                                                                                                                                                                                            Number of      Amount                      Income
                                                                                                                                                                                                                                    Strike   Number of     Outstanding      “In the                  Payment
                                                                                                        Capital           Capital   Remaining Remaining        Final Disposition               Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                  Investment                      Investment Repayment         Repayment      Capital Investment Disposition Investment          Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
Date     Institution                                      Description                        Amount       Date           Amount6      Amount Description       Date Description           Proceeds      Pricee  (in millions)   updates)a        Issued      updates)a    Money”e     Moneye         Interest)f
5/8/09     Investors Financial Corporation of Pettis      Sub. Debent. w/ Ex.            $4,000,000                                                                                                                                                                                                  $90,425
           County, Inc.–Sedalia, MO8                      Warr.
                                                      4
10/28/08 JPMorgan Chase & Co.–New York, NY                Pref. Stock w/ Warr.       $25,000,000,000 6/17/2009 $25,000,000,000             $0     Warrants                                             $43.82      $172,325       $42.42 88,401,697        88,401,697        $1.40          In $795,138,889
1/30/09    Katahdin Bankshares Corp.–Houlton, ME2 Pref. Stock w/ Ex. Warr.              $10,449,000                                                                                                                                                                                                $308,442
11/14/08 KeyCorp–Cleveland, OH                            Pref. Stock w/ Warr.        $2,500,000,000                                                                                                    $6.50         $5,711      $10.64 35,244,361        35,244,361       $(4.14)       Out $94,097,222
                                                      2
3/20/09    Kirksville Bancorp, Inc.–Kirksville, MO        Pref. Stock w/ Ex. Warr.         $470,000                                                                                                                                                                                                  $10,335
8/21/09    KS Bancorp, Inc.–Smithfield, NC2               Pref. Stock w/ Ex. Warr.       $4,000,000
2/20/09    Lafayette Bancorp, Inc.–Oxford, MS2            Pref. Stock w/ Ex. Warr.       $1,998,000                                                                                                                                                                                                  $52,937
2/6/09     Lakeland Bancorp, Inc.–Oak Ridge, NJ           Pref. Stock w/ Warr.          $59,000,000                                                                                                     $7.50          $179        $9.32       949,571        949,571       $(1.82)       Out    $1,548,750
2/27/09    Lakeland Financial Corporation–                Pref. Stock w/ Warr.          $56,044,000                                                                                                    $20.65          $257       $21.20       396,538        396,538       $(0.55)       Out    $1,307,693
           Warsaw, IN
1/9/09     LCNB Corp.– Lebanon, OH                        Pref. Stock w/ Warr.          $13,400,000                                                                                                    $10.99            $73       $9.26       217,063        217,063        $1.73          In     $402,000
12/23/08 Leader Bancorp, Inc.–Arlington, MA2              Pref. Stock w/ Ex. Warr.       $5,830,000                                                                                                                                                                                                $204,792
1/30/09    Legacy Bancorp, Inc.–Milwaukee, WI3            Pref. Stock                    $5,498,000                                                                                                                                                                                                $148,904
1/23/09    Liberty Bancshares, Inc.–Jonesboro, AR2 Pref. Stock w/ Ex. Warr.             $57,500,000                                                                                                                                                                                              $1,758,382
2/13/09    Liberty Bancshares, Inc.–Springfield, MO2 Pref. Stock w/ Ex. Warr.           $21,900,000                                                                                                                                                                                                $603,406
2/6/09     Liberty Financial Services, Inc.–              Pref. Stock                    $5,645,000                                                                                                                                                                                                $148,182
           New Orleans, LA3
2/20/09    Liberty Shares, Inc.–Hinesville, GA2           Pref. Stock w/ Ex. Warr.      $17,280,000                                                                                                                                                                                                $457,800
                                                                                                                                                                                                                                                                                                                  Appendix d I transaction detail I October 21, 2009




7/10/09    Lincoln National Corporation– Radnor, PA Pref. Stock w/ Warr.               $950,000,000                                                                                                    $25.91         $7,827      $10.92 13,049,451                        $14.99           In   $4,618,055
12/12/08 LNB Bancorp Inc.–Lorain, OH                      Pref. Stock w/ Warr.          $25,223,000                                                                                                     $6.69            $49       $6.74       561,343        561,343       $(0.05)       Out      $851,277
2/6/09     Lone Star Bank–Houston, TX2                    Pref. Stock w/ Ex. Warr.       $3,072,000
12/12/08 LSB Corporation–North Andover, MA                Pref. Stock w/ Warr.          $15,000,000                                                                                                    $10.30            $46      $10.74       209,497        209,497       $(0.44)       Out      $506,250
6/26/09    M&F Bancorp, Inc.–Durham, NC2,3,10             Pref. Stock                   $11,735,000                                                                                                                                                                                                  $79,863
12/23/08 M&T Bank Corporation–Buffalo, NY                 Pref. Stock w/ Warr.         $600,000,000                                                                                                    $62.32         $7,351      $73.86     1,218,522      1,218,522     $(11.54)        Out $19,333,333
4/24/09    Mackinac Financial Corporation–                Pref. Stock w/ Warr.          $11,000,000                                                                                                     $4.10            $14       $4.35       379,310        379,310       $(0.25)       Out      $169,583
           Manistique, MI
3/13/09    Madison Financial Corporation–Richmond, Pref. Stock w/ Ex. Warr.              $3,370,000                                                                                                                                                                                                  $77,567
           KY
12/23/08 Magna Bank–Memphis, TN2                          Pref. Stock w/ Ex. Warr.      $13,795,000                                                                                                                                                                                                $484,526
1/16/09    MainSource Financial Group, Inc.–              Pref. Stock w/ Warr.          $57,000,000                                                                                                     $6.80          $137       $14.95       571,906        571,906       $(8.15)       Out    $1,654,583
           Greensburg, IN
                                                  4
12/5/08    Manhattan Bancorp–El Segundo, CA               Pref. Stock w/ Warr.           $1,700,000 9/16/2009          $1,700,000          $0     Warrants                                              $6.50            $26       $8.65        29,480         29,480       $(2.15)       Out        $66,347
6/19/09    Manhattan Bancshares, Inc.–                    Sub. Debent. w/ Ex.            $2,639,000                                                                                                                                                                                                  $34,443
           Manhattan, IL8                                 Warr.
3/6/09     Marine Bank & Trust Company–                   Pref. Stock w/ Ex. Warr.       $3,000,000                                                                                                                                                                                                  $72,213
           Vero Beach, FL2
2/20/09    Market Bancorporation, Inc.–                   Pref. Stock w/ Ex. Warr.       $2,060,000                                                                                                                                                                                                  $54,576
           New Market, MN2
5/15/09    Market Street Bancshares, Inc.–                Sub. Debent. w/ Ex.           $20,300,000                                                                                                                                                                                                $425,793
           Mt. Vernon, IL8                                Warr.
12/19/08 Marquette National Corporation–                  Pref. Stock w/ Ex. Warr.      $35,500,000                                                                                                                                                                                              $1,268,337
         Chicago, IL2
11/14/08 Marshall & Ilsley Corporation–                   Pref. Stock w/ Warr.        $1,715,000,000                                                                                                    $8.07         $2,971      $18.62 13,815,789        13,815,789     $(10.55)        Out $64,550,694
         Milwaukee, WI
3/27/09    Maryland Financial Bank–Towson, MD2            Pref. Stock w/ Ex. Warr.       $1,700,000                                                                                                                                                                                                  $35,516
12/5/08    MB Financial Inc.–Chicago, ILb                 Pref. Stock w/ Warr.         $196,000,000                                                                                                    $20.97         $1,053      $29.05     1,012,048        506,024       $(8.08)       Out    $6,805,556
2/27/09    Medallion Bank–Salt Lake City, UT2             Pref. Stock w/ Ex. Warr.      $11,800,000                                                                                                                                                                                                $300,113
5/15/09    Mercantile Bank Corporation–                   Pref. Stock w/ Warr.          $21,000,000                                                                                                     $4.20            $36       $5.11       616,438        616,438       $(0.91)       Out      $262,500
           Grand Rapids, MI
                                                      2
2/6/09     Mercantile Capital Corp.– Boston, MA           Pref. Stock w/ Ex. Warr.       $3,500,000                                                                                                                                                                                                $100,144
6/19/09    Merchants and Manufacturers Bank               Pref. Stock w/ Ex. Warr.       $3,510,000                                                                                                                                                                                                  $29,764
           Corporation–Joliet, IL2
3/6/09     Merchants and Planters Bancshares,             Pref. Stock w/ Ex. Warr.       $1,881,000                                                                                                                                                                                                  $45,276
           Inc.–Toone, TN2
                                      2
2/13/09    Meridian Bank– Devon, PA                       Pref. Stock w/ Ex. Warr.       $6,200,000                                                                                                                                                                                                $170,827
1/30/09    Metro City Bank– Doraville, GA2                Pref. Stock w/ Ex. Warr.       $7,700,000                                                                                                                                                                                                $227,311
1/16/09    MetroCorp Bancshares, Inc.–Houston, TX Pref. Stock w/ Warr.                  $45,000,000                                                                                                     $3.61            $39       $8.75       771,429        771,429       $(5.14)       Out    $1,306,250
6/26/09    Metropolitan Bank Group, Inc.–                 Pref. Stock w/ Ex. Warr.      $71,526,000                                                                                                                                                                                                $530,580
           Chicago, IL2
                                                                                                                                                                                                                                                                                      continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                          (CONTINUED)
                                                                                                                                       Treasury Investment
                                                                                                                                           Remaining After
                                               Purchase Details                                        Capital Repayment Details        Capital Repayment              Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                 Current
                                                                                                                                                                                                                                                              Number of      Amount                      Income
                                                                                                                                                                                                                                      Strike   Number of     Outstanding      “In the                  Payment
                                                                                                         Capital          Capital   Remaining Remaining        Final Disposition                 Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                   Investment                      Investment Repayment        Repayment      Capital Investment Disposition Investment            Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
                                                                                                                                                                                                                                                                        a
Date     Institution                                       Description                        Amount       Date          Amount6      Amount Description       Date Description             Proceeds      Pricee  (in millions)   updates)a        Issued      updates)     Money”e     Moneye         Interest)f
4/10/09    Metropolitan Capital Bancorp, Inc.–             Pref. Stock w/ Ex. Warr.       $2,040,000                                                                                                                                                                                                   $38,605
           Chicago, IL2
12/19/08 Mid Penn Bancorp, Inc.–Millersburg , PA           Pref. Stock w/ Warr.          $10,000,000                                                                                                     $15.50            $54      $20.52        73,099         73,099       $(5.02)       Out      $327,778
1/30/09    Middleburg Financial Corporation–               Pref. Stock w/ Warr.          $22,000,000                                                                                                     $13.05            $87      $15.85       208,202        208,202       $(2.80)       Out      $595,833
           Middleburg, VA
1/23/09    Midland States Bancorp, Inc.–                   Pref. Stock w/ Ex. Warr.      $10,189,000                                                                                                                                                                                                 $311,564
           Effingham, IL2
1/9/09     MidSouth Bancorp, Inc.–Lafayette , LA           Pref. Stock w/ Warr.          $20,000,000                                                                                                     $13.20            $90      $14.32       208,768        208,768       $(1.12)       Out      $600,000
2/27/09    Midtown Bank & Trust Company–                   Pref. Stock w/ Ex. Warr.       $5,222,000                                                                                                                                                                                                 $132,810
           Atlanta, GA2
12/5/08    Midwest Banc Holdings, Inc.–                    Pref. Stock w/ Warr.          $84,784,000                                                                                                      $0.71            $20       $2.97     4,282,020      4,282,020       $(2.26)       Out      $824,289
           Melrose Park , IL
2/13/09    Midwest Regional Bancorp, Inc.–                 Pref. Stock w/ Ex. Warr.         $700,000                                                                                                                                                                                                   $19,287
           Festus, MO2
2/6/09     MidWestOne Financial Group, Inc.–               Pref. Stock w/ Warr.          $16,000,000                                                                                                      $8.94            $77      $12.08       198,675        198,675       $(3.14)       Out      $420,000
           Iowa City, IA
2/20/09    Mid–Wisconsin Financial Services, Inc.–         Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                                 $264,931
           Medford, WI2
4/3/09     Millennium Bancorp, Inc.– Edwards, CO2          Pref. Stock w/ Ex. Warr.       $7,260,000                                                                                                                                                                                                 $145,080
1/9/09     Mission Community Bancorp–                      Pref. Stock                    $5,116,000                                                                                                                                                                                                 $153,750
           San Luis Obispo, CA3
                                                       3
12/23/08 Mission Valley Bancorp–Sun Valley, CA             Pref. Stock                    $5,500,000                                                                                                                                                                                                 $177,222
12/19/08 Monadnock Bancorp, Inc.–                          Pref. Stock w/ Ex. Warr.       $1,834,000                                                                                                                                                                                                   $65,542
         Peterborough, NH2
2/6/09     Monarch Community Bancorp, Inc.–                Pref. Stock w/ Warr.           $6,785,000                                                                                                      $3.57             $7       $3.90       260,962        260,962       $(0.33)       Out      $178,107
           Coldwater, MI
12/19/08 Monarch Financial Holdings, Inc.–                 Pref. Stock w/ Warr.          $14,700,000                                                                                                      $7.45            $43       $8.33       264,706        264,706       $(0.88)       Out      $481,833
         Chesapeake, VA
3/13/09    Moneytree Corporation–Lenoir City, TN2          Pref. Stock w/ Ex. Warr.       $9,516,000                                                                                                                                                                                                 $218,981
1/30/09    Monument Bank–Bethesda, MD2                     Pref. Stock w/ Ex. Warr.       $4,734,000                                                                                                                                                                                                 $139,766
10/28/08 Morgan Stanley–New York, NY4                      Pref. Stock w/ Warr.       $10,000,000,000 6/17/2009 $10,000,000,000            $0     Warrants 8/12/2009      Warrants    $950,000,000       $30.88       $41,971             – 65,245,759                 –           –          – $318,055,555
1/16/09    Morrill Bancshares, Inc.–Merriam, KS2           Pref. Stock w/ Ex. Warr.      $13,000,000                                                                                                                                                                                                 $411,324
1/23/09    Moscow Bancshares, Inc.–Moscow, TN2             Pref. Stock w/ Ex. Warr.       $6,216,000                                                                                                                                                                                                 $190,099
9/25/09    Mountain Valley Bancshares, Inc.–               Pref. Stock w/ Ex. Warr.       $3,300,000
           Cleveland, GA2
3/27/09    MS Financial, Inc.–Kingwood, TX2                Pref. Stock w/ Ex. Warr.       $7,723,000                                                                                                                                                                                                 $161,342
12/23/08 MutualFirst Financial, Inc.–Muncie, IN            Pref. Stock w/ Warr.          $32,382,000                                                                                                      $7.04            $49       $7.77       625,135        625,135       $(0.73)       Out    $1,043,420
3/27/09    Naples Bancorp, Inc.– Naples, FL2               Pref. Stock w/ Ex. Warr.       $4,000,000                                                                                                                                                                                                   $83,567
11/21/08 Nara Bancorp, Inc.–Los Angeles, CA                Pref. Stock w/ Warr.          $67,000,000                                                                                                      $6.95          $182        $9.64     1,042,531      1,042,531       $(2.69)       Out    $2,456,667
2/27/09    National Bancshares, Inc.–Bettendorf, IA2 Pref. Stock w/ Ex. Warr.            $24,664,000                                                                                                                                                                                                 $627,280
12/12/08 National Penn Bancshares, Inc.–                   Pref. Stock w/ Warr.         $150,000,000                                                                                                      $6.11          $748       $15.30     1,470,588      1,470,588       $(9.19)       Out    $5,062,500
         Boyertown, PA
6/26/09    NC Bancorp, Inc.–Chicago, IL2                   Pref. Stock w/ Ex. Warr.       $6,880,000                                                                                                                                                                                                   $51,036
12/19/08 NCAL Bancorp–Los Angeles, CA2                     Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                                 $357,278
                                                   8
6/19/09    NEMO Bancshares Inc.–Madison, MO                Sub. Debent. w/ Ex.            $2,330,000                                                                                                                                                                                                   $30,420
                                                           Warr.
1/16/09    New Hampshire Thrift Bancshares, Inc.–          Pref. Stock w/ Warr.          $10,000,000                                                                                                      $9.48            $55       $8.14       184,275        184,275        $1.34          In     $290,278
           Newport, NH
1/9/09     New York Private Bank & Trust                   Pref. Stock w/ Ex. Warr.     $267,274,000                                                                                                                                                                                               $8,739,876
           Corporation–New York, NY2
12/12/08 NewBridge Bancorp–Greensboro, NC                  Pref. Stock w/ Warr.          $52,372,000                                                                                                      $2.74            $43       $3.06     2,567,255      2,567,255       $(0.32)       Out    $1,767,555
12/23/08 Nicolet Bankshares, Inc.–Green Bay, WI2           Pref. Stock w/ Ex. Warr.      $14,964,000                                                                                                                                                                                                 $525,557
1/9/09     North Central Bancshares, Inc.–                 Pref. Stock w/ Warr.          $10,200,000                                                                                                     $16.50            $22      $15.43        99,157         99,157        $1.07          In     $306,000
           Fort Dodge, IA
12/12/08 Northeast Bancorp–Lewiston, ME                    Pref. Stock w/ Warr.           $4,227,000                                                                                                      $8.75            $20       $9.33        67,958         67,958       $(0.58)       Out      $142,662
5/15/09    Northern State Bank–Closter, NJ2                Pref. Stock w/ Ex. Warr.       $1,341,000                                                                                                                                                                                                   $18,270
2/20/09    Northern States Financial Corporation–          Pref. Stock w/ Warr.          $17,211,000                                                                                                      $3.80            $15       $4.42       584,084        584,084       $(0.63)       Out      $418,323
           Waukegan, IL
                                                                                                                                                                                                                                                                                                                    transaction detail I Appendix d I October 21, 2009




11/14/08 Northern Trust Corporation–Chicago, IL4 Pref. Stock w/ Warr.                  $1,576,000,000 6/17/2009    $1,576,000,000          $0     Warrants 8/26/2009      Warrants     $87,000,000       $58.16       $14,040             –    3,824,624               –           –          – $46,623,333
1/30/09    Northway Financial, Inc.– Berlin, NH2           Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                                 $295,208
2/13/09    Northwest Bancorporation, Inc.–                 Pref. Stock w/ Ex. Warr.      $10,500,000                                                                                                                                                                                                 $289,305
           Spokane, WA2
                                                                                                                                                                                                                                                                                        continued on next page
                                                                                                                                                                                                                                                                                                                    201
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                          (CONTINUED)                                                                                                                                                                                                         202
                                                                                                                                       Treasury Investment
                                                                                                                                           Remaining After
                                               Purchase Details                                        Capital Repayment Details        Capital Repayment               Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                  Current
                                                                                                                                                                                                                                                               Number of      Amount                      Income
                                                                                                                                                                                                                                       Strike   Number of     Outstanding      “In the                  Payment
                                                                                                        Capital           Capital   Remaining Remaining        Final Disposition                  Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                     Investment                   Investment Repayment         Repayment      Capital Investment Disposition Investment             Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
Date     Institution                                         Description                     Amount       Date           Amount6      Amount Description       Date Description              Proceeds      Pricee  (in millions)   updates)a        Issued      updates)a    Money”e     Moneye         Interest)f
2/13/09    Northwest Commercial Bank–                        Pref. Stock w/ Ex. Warr.     $1,992,000                                                                                                                                                                                                    $54,903
           Lakewood, WA2
1/30/09    Oak Ridge Financial Services, Inc.–               Pref. Stock w/ Warr.         $7,700,000                                                                                                       $6.25            $11       $7.05       163,830        163,830       $(0.80)       Out      $208,542
           Oak Ridge, NC
12/5/08    Oak Valley Bancorp–Oakdale, CA                    Pref. Stock w/ Warr.        $13,500,000                                                                                                       $4.30            $33       $5.78       350,346        350,346       $(1.48)       Out      $468,750
1/16/09    OceanFirst Financial Corp.–                       Pref. Stock w/ Warr.        $38,263,000                                                                                                      $11.60          $144       $15.07       380,853        380,853       $(3.47)       Out    $1,110,690
           Toms River, NJ
1/30/09    Ojai Community Bank–Ojai, CA2                     Pref. Stock w/ Ex. Warr.     $2,080,000                                                                                                                                                                                                    $61,403
12/5/08    Old Line Bancshares, Inc.–Bowie, MD               Pref. Stock w/ Warr.         $7,000,000 7/15/2009         $7,000,000          $0     Warrants   9/2/2009      Warrants          $225,000      $6.38            $25            –      141,892               –           –          –      $213,889
                                                 4
12/12/08 Old National Bancorp–Evansville, IN                 Pref. Stock w/ Warr.       $100,000,000 3/31/2009       $100,000,000          $0     Warrants   5/8/2009      Warrants         $1,200,000    $11.20          $946             –      813,008               –           –          –    $1,513,889
1/16/09    Old Second Bancorp, Inc.–Aurora, IL               Pref. Stock w/ Warr.        $73,000,000                                                                                                       $5.73            $79      $13.43       815,339        815,339       $(7.70)       Out    $2,119,028
                                                     2
4/17/09    Omega Capital Corp.–Lakewood, CO                  Pref. Stock w/ Ex. Warr.     $2,816,000                                                                                                                                                                                                    $50,311
                                         2
5/8/09     One Georgia Bank–Atlanta, GA                      Pref. Stock w/ Ex. Warr.     $5,500,000
6/5/09     OneFinancial Corporation–                         Sub. Debent. w/ Ex.         $17,300,000                                                                                                                                                                                                  $272,996
           Little Rock, AR8,10                               Warr.
12/19/08 OneUnited Bank–Boston, MA3                          Pref. Stock                 $12,063,000                                                                                                                                                                                                    $93,823
4/24/09    Oregon Bancorp, Inc.–Salem, OR2                   Pref. Stock w/ Ex. Warr.     $3,216,000                                                                                                                                                                                                    $54,048
5/1/09     OSB Financial Services, Inc.–Orange, TX8 Sub. Debent. w/ Ex.                   $6,100,000                                                                                                                                                                                                  $147,848
                                                    Warr.
                                                                                                                                                                                                                                                                                                                     Appendix d I transaction detail I October 21, 2009




11/21/08 Pacific Capital Bancorp–                            Pref. Stock w/ Warr.       $180,634,000                                                                                                       $1.44            $68      $17.92     1,512,003      1,512,003     $(16.48)        Out    $2,107,397
         Santa Barbara, CA
12/19/08 Pacific City Financial Corporation–                 Pref. Stock w/ Ex. Warr.    $16,200,000                                                                                                                                                                                                  $358,065
         Los Angeles, CA2
12/23/08 Pacific Coast Bankers’ Bancshares–                  Pref. Stock w/ Ex. Warr.    $11,600,000                                                                                                                                                                                                  $407,418
         San Francisco, CA2
1/16/09    Pacific Coast National Bancorp–                   Pref. Stock w/ Ex. Warr.     $4,120,000                                                                                                                                                                                                    $18,088
           San Clemente, CA2
12/23/08 Pacific Commerce Bank–                              Pref. Stock w/ Ex. Warr.     $4,060,000                                                                                                                                                                                                  $110,635
         Los Angeles, CA2
12/12/08 Pacific International Bancorp–Seattle, WA Pref. Stock w/ Warr.                   $6,500,000                                                                                                          NA             NA       $7.63       127,785        127,785           NA         NA      $138,125
3/6/09     Park Bancorporation, Inc.–Madison, WI2            Pref. Stock w/ Ex. Warr.    $23,200,000                                                                                                                                                                                                  $558,443
12/23/08 Park National Corporation–Newark, OH                Pref. Stock w/ Warr.       $100,000,000                                                                                                      $58.34          $826       $65.97       227,376        227,376       $(7.63)       Out    $3,222,222
1/30/09    Parke Bancorp, Inc.–Sewell, NJ                    Pref. Stock w/ Warr.        $16,288,000                                                                                                       $8.52            $34       $8.15       299,779        299,779        $0.37        Out      $441,133
12/23/08 Parkvale Financial Corporation–                     Pref. Stock w/ Warr.        $31,762,000                                                                                                       $9.20            $50      $12.66       376,327        376,327       $(3.46)       Out    $1,023,442
         Monroeville, PA
2/6/09     Pascack Community Bank–Westwood, NJ2 Pref. Stock w/ Ex. Warr.                  $3,756,000                                                                                                                                                                                                  $107,478
12/19/08 Patapsco Bancorp, Inc.–Dundalk, MD2                 Pref. Stock w/ Ex. Warr.     $6,000,000                                                                                                                                                                                                  $214,367
9/11/09    Pathfinder Bancorp, Inc.–Oswego, NY               Pref. Stock w/ Warr.         $6,771,000
3/27/09    Pathway Bancorp–Cairo, NE2                        Pref. Stock w/ Ex. Warr.     $3,727,000                                                                                                                                                                                                    $77,852
12/19/08 Patriot Bancshares, Inc.–Houston, TX2               Pref. Stock w/ Ex. Warr.    $26,038,000                                                                                                                                                                                                  $930,286
4/17/09    Patterson Bancshares, Inc–Patterson, LA2 Pref. Stock w/ Ex. Warr.              $3,690,000                                                                                                                                                                                                    $15,645
1/9/09     Peapack-Gladstone Financial Corporation– Pref. Stock w/ Warr.                 $28,685,000                                                                                                      $16.06          $140       $28.63       143,139        293,435     $(12.57)        Out      $860,551
           Gladstone, NJ
1/30/09    Peninsula Bank Holding Co.–Palo Alto, CA Pref. Stock w/ Warr.                  $6,000,000                                                                                                          NA            $15      $11.02        81,670         81,670           NA         NA
4/17/09    Penn Liberty Financial Corp.–Wayne, PA2 Pref. Stock w/ Ex. Warr.               $9,960,000                                                                                                                                                                                                  $177,924
2/13/09    Peoples Bancorp–Lynden, WA2                       Pref. Stock w/ Ex. Warr.    $18,000,000                                                                                                                                                                                                  $495,950
1/30/09    Peoples Bancorp Inc.–Marietta, OH                 Pref. Stock w/ Warr.        $39,000,000                                                                                                      $13.05          $137       $18.86       313,505        313,505       $(5.81)       Out    $1,056,250
12/23/08 Peoples Bancorp of North Carolina,                  Pref. Stock w/ Warr.        $25,054,000                                                                                                       $6.75            $37      $10.52       357,234        357,234       $(3.77)       Out      $807,296
         Inc.–Newton, NC
                                                         2
4/24/09    Peoples Bancorporation, Inc.–Easley, SC Pref. Stock w/ Ex. Warr.              $12,660,000                                                                                                                                                                                                  $212,741
3/20/09    Peoples Bancshares of TN, Inc–                    Pref. Stock w/ Ex. Warr.     $3,900,000                                                                                                                                                                                                    $85,610
           Madisonville, TN2
3/6/09     PeoplesSouth Bancshares, Inc.–                    Pref. Stock w/ Ex. Warr.    $12,325,000                                                                                                                                                                                                  $296,663
           Colquitt, GA2
9/11/09    PFSB Bancorporation, Inc.–                        Pref. Stock w/ Ex. Warr.     $1,500,000
           Pigeon Falls, WI2,10
                                                                                                                                                                                                                                                                                         continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                          (CONTINUED)
                                                                                                                                        Treasury Investment
                                                                                                                                            Remaining After
                                                 Purchase Details                                       Capital Repayment Details        Capital Repayment            Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                Current
                                                                                                                                                                                                                                                             Number of      Amount                      Income
                                                                                                                                                                                                                                     Strike   Number of     Outstanding      “In the                  Payment
                                                                                                         Capital           Capital   Remaining Remaining        Final Disposition               Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                    Investment                     Investment Repayment         Repayment      Capital Investment Disposition Investment          Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
                                                                                                                                                                                                                                                                       a
Date     Institution                                        Description                       Amount       Date           Amount6      Amount Description       Date Description           Proceeds      Pricee  (in millions)   updates)a        Issued      updates)     Money”e     Moneye         Interest)f
2/6/09     PGB Holdings, Inc.–Chicago, IL3                  Pref. Stock                   $3,000,000                                                                                                                                                                                                  $78,750
1/23/09    Pierce County Bancorp– Tacoma, WA2               Pref. Stock w/ Ex. Warr.      $6,800,000                                                                                                                                                                                                $207,948
3/6/09     Pinnacle Bank Holding Company, Inc.–             Pref. Stock w/ Ex. Warr.      $4,389,000                                                                                                                                                                                                $105,629
           Orange City, FL2
12/12/08 Pinnacle Financial Partners, Inc.–                 Pref. Stock w/ Warr.         $95,000,000                                                                                                    $12.71          $419       $26.64       534,910        267,455     $(13.93)        Out    $3,206,250
         Nashville, TNb
12/19/08 Plains Capital Corporation–Dallas, TX2             Pref. Stock w/ Ex. Warr.     $87,631,000                                                                                                                                                                                              $3,130,888
7/17/09    Plato Holdings Inc.–Saint Paul, MN8,10           Sub. Debent. w/ Ex.           $2,500,000                                                                                                                                                                                                  $16,121
                                                            Warr.
1/30/09    Plumas Bancorp–Quincy, CA                        Pref. Stock w/ Warr.         $11,949,000                                                                                                     $3.81            $18       $7.54       237,712        237,712       $(3.73)       Out      $323,619
12/5/08    Popular, Inc.–San Juan, PR12, f                  Pref. Stock w/ Warr.        $935,000,000                                                                                                     $2.83         $1,810       $6.70 20,932,836        20,932,836       $(3.87)       Out $33,777,778
11/21/08 Porter Bancorp Inc.–Louisville, KY                 Pref. Stock w/ Warr.         $35,000,000                                                                                                    $16.30          $136       $17.51       299,829        299,829       $(1.21)       Out    $1,283,333
4/3/09     Prairie Star Bancshares, Inc.–Olathe, KS2 Pref. Stock w/ Ex. Warr.             $2,800,000                                                                                                                                                                                                  $55,953
                                                 3, 8
5/8/09     Premier Bancorp, Inc.–Wilmette, IL               Sub. Debent.                  $6,784,000                                                                                                                                                                                                $140,749
3/20/09    Premier Bank Holding Company–                    Pref. Stock w/ Ex. Warr.      $9,500,000                                                                                                                                                                                                $208,538
           Tallahassee, FL2
5/22/09    Premier Financial Corp–Dubuque, IA8              Sub. Debent. w/ Ex.           $6,349,000                                                                                                                                                                                                $122,798
                                                            Warr.
                                                  2
2/20/09    Premier Service Bank–Riverside, CA               Pref. Stock w/ Ex. Warr.      $4,000,000
2/13/09    PremierWest Bancorp–Medford, OR                  Pref. Stock w/ Warr.         $41,400,000                                                                                                     $2.71            $67       $5.70     1,038,462      1,090,385       $(2.99)       Out    $1,046,500
1/23/09    Princeton National Bancorp, Inc.–                Pref. Stock w/ Warr.         $25,083,000                                                                                                    $15.75            $52      $24.27       155,025        155,025       $(8.52)       Out      $703,718
           Princeton, IL
2/27/09    Private Bancorporation, Inc.–                    Pref. Stock w/ Ex. Warr.      $4,960,000                                                                                                                                                                                                $126,149
           Minneapolis, MN2
1/30/09    PrivateBancorp, Inc.–Chicago, IL                 Pref. Stock w/ Warr.        $243,815,000                                                                                                    $24.46         $1,163      $28.35     1,290,026      1,290,026       $(3.89)       Out    $6,603,323
11/14/08 Provident Bancshares Corp.–Baltimore,              Pref. Stock w/ Warr.        $151,500,000                                                                                                        NA             NA       $9.57     2,374,608      2,374,608           NA         NA    $5,702,292
         MDd
3/13/09    Provident Community Bancshares, Inc.–            Pref. Stock w/ Warr.          $9,266,000                                                                                                     $3.25             $6       $7.77       178,880        178,880       $(4.52)       Out      $195,616
           Rock Hill, SC
                                                   2
2/27/09    PSB Financial Corporation–Many, LA               Pref. Stock w/ Ex. Warr.      $9,270,000                                                                                                                                                                                                $235,788
1/16/09    Puget Sound Bank–Bellevue, WA2                   Pref. Stock w/ Ex. Warr.      $4,500,000                                                                                                                                                                                                $142,382
1/16/09    Pulaski Financial Corp–Creve Coeur, MO           Pref. Stock w/ Warr.         $32,538,000                                                                                                     $7.57            $78       $6.27       778,421        778,421        $1.30          In     $944,506
2/13/09    QCR Holdings, Inc.–Moline, IL                    Pref. Stock w/ Warr.         $38,237,000                                                                                                    $10.20            $46      $10.99       521,888        521,888       $(0.79)       Out      $966,547
6/19/09    RCB Financial Corporation–Rome, GA2, 10 Pref. Stock w/ Ex. Warr.               $8,900,000                                                                                                                                                                                                  $72,974
1/16/09    Redwood Capital Bancorp–Eureka, CA2              Pref. Stock w/ Ex. Warr.      $3,800,000                                                                                                                                                                                                $120,233
1/9/09     Redwood Financial Inc.–                          Pref. Stock w/ Ex. Warr.      $2,995,000                                                                                                                                                                                                  $97,951
           Redwood Falls, MN2
                                             2
3/6/09     Regent Bancorp, Inc.–Davie, FL                   Pref. Stock w/ Ex. Warr.      $9,982,000                                                                                                                                                                                                $240,272
2/27/09    Regent Capital Corporation–Nowata, OK2 Pref. Stock w/ Ex. Warr.                $2,655,000                                                                                                                                                                                                  $67,536
                                                        2
2/13/09    Regional Bankshares, Inc.–Hartsville, SC         Pref. Stock w/ Ex. Warr.      $1,500,000                                                                                                                                                                                                  $41,330
11/14/08 Regions Financial Corp.–Birmingham, AL Pref. Stock w/ Warr.                   $3,500,000,000                                                                                                    $6.21         $7,379      $10.88 48,253,677        48,253,677       $(4.67)       Out $131,736,111
2/13/09    Reliance Bancshares, Inc.–                       Pref. Stock w/ Ex. Warr.     $40,000,000                                                                                                                                                                                              $1,102,111
           Frontenac, MO2
2/27/09    Ridgestone Financial Services, Inc.–             Pref. Stock w/ Ex. Warr.     $10,900,000                                                                                                                                                                                                $277,224
           Brookfield, WI2
                                                  2
1/9/09     Rising Sun Bancorp–Rising Sun, MD                Pref. Stock w/ Ex. Warr.      $5,983,000                                                                                                                                                                                                $195,637
6/12/09    River Valley Bancorporation, Inc.–               Sub. Debent. w/ Ex.          $15,000,000                                                                                                                                                                                                $220,238
           Wausau, WI8                                      Warr.
5/15/09    Riverside Bancshares, Inc.–                      Sub. Debent. w/ Ex.           $1,100,000                                                                                                                                                                                                  $23,073
           Little Rock, AR8                                 Warr.
                                                        2
1/30/09    Rogers Bancshares, Inc.–Little Rock, AR          Pref. Stock w/ Ex. Warr.     $25,000,000                                                                                                                                                                                                $738,021
2/20/09    Royal Bancshares of Pennsylvania, Inc.–          Pref. Stock w/ Warr.         $30,407,000                                                                                                     $1.55            $21       $4.13     1,104,370      1,104,370       $(2.58)       Out      $358,971
           Narberth, PA
1/16/09    S&T Bancorp–Indiana, PA                          Pref. Stock w/ Warr.        $108,676,000                                                                                                    $12.96          $358       $31.53       517,012        517,012     $(18.57)        Out    $3,154,623
12/23/08 Saigon National Bank–Westminster, CA2              Pref. Stock w/ Ex. Warr.      $1,549,000
3/13/09    Salisbury Bancorp, Inc.–Lakeville, CT            Pref. Stock w/ Warr.          $8,816,000                                                                                                    $24.90            $42      $22.93        57,671         57,671        $1.97          In     $186,116
12/5/08    Sandy Spring Bancorp, Inc.–Olney, MD             Pref. Stock w/ Warr.         $83,094,000                                                                                                    $16.28          $268       $19.13       651,547        651,547       $(2.85)       Out    $2,885,208
                                                                                                                                                                                                                                                                                                                   transaction detail I Appendix d I October 21, 2009




2/13/09    Santa Clara Valley Bank, N.A.–Santa              Pref. Stock w/ Ex. Warr.      $2,900,000                                                                                                                                                                                                  $79,903
           Paula, CA2
12/19/08 Santa Lucia Bancorp–Atascadero, CA                 Pref. Stock w/ Warr.          $4,000,000                                                                                                    $11.89            $23      $16.06        37,360         37,360       $(4.17)       Out      $131,111
3/27/09    SBT Bancorp, Inc.–Simsbury, CT2                  Pref. Stock w/ Ex. Warr.      $4,000,000                                                                                                                                                                                                  $83,567
                                                                                                                                                                                                                                                                                       continued on next page
                                                                                                                                                                                                                                                                                                                   203
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                         (CONTINUED)                                                                                                                                                                                                           204
                                                                                                                                        Treasury Investment
                                                                                                                                            Remaining After
                                                   Purchase Details                                   Capital Repayment Details          Capital Repayment               Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                   Current
                                                                                                                                                                                                                                                                Number of      Amount                      Income
                                                                                                                                                                                                                                        Strike   Number of     Outstanding      “In the                  Payment
                                                                                                        Capital          Capital     Remaining Remaining        Final Disposition                  Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                   Investment                     Investment Repayment        Repayment        Capital Investment Disposition Investment             Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
                                                                                                                                                                                                                                                                          a
Date     Institution                                       Description                       Amount       Date          Amount6        Amount Description       Date Description              Proceeds      Pricee  (in millions)   updates)a        Issued      updates)     Money”e     Moneye         Interest)f
1/16/09    SCBT Financial Corporation–Columbia,            Pref. Stock w/ Warr.         $64,779,000 5/20/2009        $64,779,000            $0     Warrants 6/24/2009       Warrants         $1,400,000    $28.10          $357             –      303,083               –           –          –    $1,115,639
           SC4
12/19/08 Seacoast Banking Corporation of Florida– Pref. Stock w/ Warr.                  $50,000,000                                                                                                         $2.52          $133        $6.36     1,179,245        589,623       $(3.84)       Out      $388,889
         Stuart, FLb
12/23/08 Seacoast Commerce Bank–                           Pref. Stock w/ Ex. Warr.      $1,800,000                                                                                                                                                                                                      $63,220
         Chula Vista, CA2
1/23/09    Seaside National Bank & Trust–                  Pref. Stock w/ Ex. Warr.      $5,677,000                                                                                                                                                                                                    $173,614
           Orlando, FL2
2/13/09    Security Bancshares of Pulaski County,          Pref. Stock w/ Ex. Warr.      $2,152,000                                                                                                                                                                                                      $59,312
           Inc.–Waynesville, MO2
1/9/09     Security Business Bancorp–                      Pref. Stock w/ Ex. Warr.      $5,803,000                                                                                                                                                                                                    $189,751
           San Diego, CA2
1/9/09     Security California Bancorp–                    Pref. Stock w/ Ex. Warr.      $6,815,000                                                                                                                                                                                                    $222,865
           Riverside, CA2
6/26/09    Security Capital Corporation–                   Pref. Stock w/ Ex. Warr.     $17,388,000                                                                                                                                                                                                    $124,729
           Batesville, MS2,10
12/19/08 Security Federal Corporation–Aiken, SC            Pref. Stock w/ Warr.         $18,000,000                                                                                                        $13.10            $32      $19.57       137,966        137,966       $(6.47)       Out      $590,000
2/20/09    Security State Bancshares, Inc.–                Pref. Stock w/ Ex. Warr.     $12,500,000                                                                                                                                                                                                    $331,163
           Charleston, MO2
5/1/09     Security State Bank Holding-Company–            Sub. Debent. w/ Ex.          $10,750,000                                                                                                                                                                                                    $260,576
                                                                                                                                                                                                                                                                                                                      Appendix d I transaction detail I October 21, 2009




           Jamestown, ND8                                  Warr.
11/21/08 Severn Bancorp, Inc.–Annapolis, MD                Pref. Stock w/ Warr.         $23,393,000                                                                                                         $3.25            $33       $6.30       556,976        556,976       $(3.05)       Out      $857,744
1/9/09     Shore Bancshares, Inc.–Easton, MD4              Pref. Stock w/ Warr.         $25,000,000 4/15/2009        $25,000,000            $0     Warrants                                                $16.73          $141       $21.68       172,970        172,970       $(4.95)       Out      $333,333
6/26/09    Signature Bancshares, Inc.–Dallas, TX8          Sub. Debent. w/ Ex.           $1,700,000                                                                                                                                                                                                      $19,414
                                                           Warr.
                                           4
12/12/08 Signature Bank–New York, NY                       Pref. Stock w/ Warr.        $120,000,000 3/31/2009       $120,000,000            $0     Warrants                                                $29.00         $1,177      $30.21       595,829        595,829       $(1.21)       Out    $1,816,667
1/16/09    Somerset Hills Bancorp–                         Pref. Stock w/ Warr.          $7,414,000 5/20/2009         $7,414,000            $0     Warrants 6/24/2009       Warrants          $275,000      $8.10            $42            –      163,065               –           –          –      $127,686
           Bernardsville, NJ4
2/20/09    Sonoma Valley Bancorp–Sonoma, CA2               Pref. Stock w/ Ex. Warr.      $8,653,000                                                                                                                                                                                                    $229,259
1/9/09     Sound Banking Company–                          Pref. Stock w/ Ex. Warr.      $3,070,000                                                                                                                                                                                                    $100,416
           Morehead City, NC2
12/5/08    South Financial Group, Inc.–Greenville, SC Pref. Stock w/ Warr.             $347,000,000                                                                                                         $1.47          $250        $5.15 10,106,796        10,106,796       $(3.68)       Out $12,048,611
7/17/09    SouthCrest Financial Group, Inc.–               Pref. Stock w/ Ex. Warr.     $12,900,000                                                                                                                                                                                                      $54,682
           Fayetteville, GA2
1/16/09    Southern Bancorp, Inc.–Arkadelphia, AR3 Pref. Stock                          $11,000,000                                                                                                                                                                                                    $319,306
12/5/08    Southern Community Financial Corp.–             Pref. Stock w/ Warr.         $42,750,000                                                                                                         $2.98            $50       $3.95     1,623,418      1,623,418       $(0.97)       Out    $1,484,375
           Winston–Salem, NC
2/27/09    Southern First Bancshares, Inc.–                Pref. Stock w/ Warr.         $17,299,000                                                                                                         $8.08            $25       $7.85       330,554        330,554        $0.23        Out      $403,644
           Greenville, SC
5/15/09    Southern Heritage Bancshares, Inc.–             Pref. Stock w/ Ex. Warr.      $4,862,000                                                                                                                                                                                                      $66,243
           Cleveland, TN2
                                                       2
1/23/09    Southern Illinois Bancorp, Inc.–Carmi, IL       Pref. Stock w/ Ex. Warr.      $5,000,000                                                                                                                                                                                                    $152,903
12/5/08    Southern Missouri Bancorp, Inc.–Poplar          Pref. Stock w/ Warr.          $9,550,000                                                                                                        $10.80            $23      $12.53       114,326        114,326       $(1.73)       Out      $331,597
           Bluff, MO
6/12/09    SouthFirst Bancshares, Inc.– Sylacauga,         Pref. Stock w/ Ex. Warr.      $2,760,000                                                                                                                                                                                                      $26,324
           AL2
12/5/08    Southwest Bancorp, Inc.–Stillwater, OK          Pref. Stock w/ Warr.         $70,000,000                                                                                                        $14.04          $206       $14.92       703,753        703,753       $(0.88)       Out    $2,430,556
3/13/09    Sovereign Bancshares, Inc.– Dallas, TX2         Pref. Stock w/ Ex. Warr.     $18,215,000                                                                                                                                                                                                    $419,157
                                               2
3/27/09    Spirit BankCorp, Inc.–Bristow, OK               Pref. Stock w/ Ex. Warr.     $30,000,000                                                                                                                                                                                                    $626,750
3/13/09    St. Johns Bancshares, Inc.–                     Pref. Stock w/ Ex. Warr.      $3,000,000                                                                                                                                                                                                      $69,033
           St. Louis, MO2
4/24/09    Standard Bancshares, Inc.–                      Pref. Stock w/ Ex. Warr.     $60,000,000                                                                                                                                                                                                  $1,008,250
           Hickory Hills, IL2
12/5/08    State Bancorp, Inc.–Jericho, NY                 Pref. Stock w/ Warr.         $36,842,000                                                                                                         $8.45          $124       $11.87       465,569        465,569       $(3.42)       Out    $1,279,236
1/16/09    State Bankshares, Inc.–Fargo, ND2,4             Pref. Stock w/ Ex. Warr.     $50,000,000 8/12/2009        $12,500,000   $37,500,000    Preferred                                                                                                                                          $1,576,806
                                                                                                                                                    Stock 2
2/13/09    State Capital Corporation–                      Pref. Stock w/ Ex. Warr.     $15,000,000                                                                                                                                                                                                    $413,292
           Greenwood, MS2
10/28/08 State Street Corporation–Boston, MAb,5,9 Pref. Stock w/ Warr.                $2,000,000,000 6/17/2009    $2,000,000,000            $0     Warrants   7/8/2009      Warrants     $60,000,000       $52.60       $26,010             –    5,576,208               –           –          – $63,611,111
                                                                                                                                                                                                                                                                                          continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                             (CONTINUED)
                                                                                                                                           Treasury Investment
                                                                                                                                               Remaining After
                                                   Purchase Details                                        Capital Repayment Details        Capital Repayment               Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                      Current
                                                                                                                                                                                                                                                                   Number of      Amount                       Income
                                                                                                                                                                                                                                           Strike   Number of     Outstanding      “In the                   Payment
                                                                                                            Capital           Capital   Remaining Remaining        Final Disposition                  Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out      to Treasury
Purchase                                                       Investment                     Investment Repayment         Repayment      Capital Investment Disposition Investment             Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the    (Dividend or
                                                                                                                                                                                                                                                                             a
Date     Institution                                           Description                       Amount       Date           Amount6      Amount Description       Date Description              Proceeds      Pricee  (in millions)   updates)a        Issued      updates)     Money”e     Moneye          Interest)f
6/26/09    Stearns Financial Services, Inc.–                   Sub. Debent. w/ Ex.          $24,900,000                                                                                                                                                                                                    $284,351
           St. Cloud, MN8                                      Warr.
9/25/09    Steele Street Bank Corporation–                     Sub. Debent. w/ Ex.          $11,019,000
           Denver, CO8,10                                      Warr.
12/19/08 StellarOne Corporation–Charlottesville, VA Pref. Stock w/ Warr.                    $30,000,000                                                                                                       $14.75          $335       $14.87       302,623        302,623       $(0.12)       Out       $983,333
12/23/08 Sterling Bancorp–New York, NY                         Pref. Stock w/ Warr.         $42,000,000                                                                                                        $7.22          $131       $12.19       516,817        516,817       $(4.97)       Out      $1,353,333
                                                       4
12/12/08 Sterling Bancshares, Inc.–Houston, TX                 Pref. Stock w/ Warr.        $125,198,000    5/5/2009      $125,198,000          $0     Warrants                                                 $7.31          $597        $7.18     2,615,557      2,615,557        $0.13        Out      $2,486,571
12/5/08    Sterling Financial Corporation–                     Pref. Stock w/ Warr.        $303,000,000                                                                                                        $2.00          $105        $7.06     6,437,677      6,437,677       $(5.06)       Out      $6,733,333
           Spokane, WA
1/30/09    Stewardship Financial Corporation–                  Pref. Stock w/ Warr.         $10,000,000                                                                                                        $9.27            $52      $11.80       127,119        127,119       $(2.53)       Out       $270,833
           Midland Park, NJ
2/6/09     Stockmens Financial Corporation–                    Pref. Stock w/ Ex. Warr.     $15,568,000                                                                                                                                                                                                    $445,421
           Rapid City, SD2
1/23/09    Stonebridge Financial Corp.–                        Pref. Stock w/ Ex. Warr.     $10,973,000                                                                                                                                                                                                    $335,579
           West Chester, PA2
6/19/09    Suburban Illinois Bancorp, Inc.–                    Sub. Debent. w/ Ex.          $15,000,000                                                                                                                                                                                                    $195,770
           Elmhurst, IL8                                       Warr.
12/19/08 Summit State Bank–Santa Rosa, CA                      Pref. Stock w/ Warr.          $8,500,000                                                                                                        $5.50            $26       $5.33       239,212        239,212        $0.17        Out       $278,611
1/9/09     Sun Bancorp, Inc.–Vineland, NJ4                     Pref. Stock w/ Warr.         $89,310,000    4/8/2009       $89,310,000          $0     Warrants 5/27/2009       Warrants         $2,100,000     $5.28          $122             –    1,543,376               –           –          –      $1,103,971
                                               c
11/14/08 SunTrust Banks, Inc.–Atlanta, GA                      Pref. Stock w/ Warr.       $3,500,000,000                                                                                                      $22.55       $11,249       $44.15 11,891,280        11,891,280     $(21.60)        Out
                                                                                                                                                                                                                                                                                                        $194,131,944
12/31/08 SunTrust Banks, Inc.–Atlanta, GAc                     Pref. Stock w/ Warr.       $1,350,000,000                                                                                                      $22.55       $11,249       $33.70     6,008,902      6,008,902     $(11.15)        Out
12/5/08    Superior Bancorp Inc.–Birmingham, AL                Pref. Stock w/ Warr.         $69,000,000                                                                                                        $2.44            $25       $5.38     1,923,792      1,923,792       $(2.94)       Out      $2,395,833
1/9/09     Surrey Bancorp– Mount Airy, NC2                     Pref. Stock w/ Ex. Warr.      $2,000,000                                                                                                                                                                                                      $65,400
12/12/08 Susquehanna Bancshares, Inc–Lititz, PA                Pref. Stock w/ Warr.        $300,000,000                                                                                                        $5.89          $508       $14.86     3,028,264      3,028,264       $(8.97)       Out $10,125,000
                                         2
4/10/09    SV Financial, Inc.–Sterling, IL                     Pref. Stock w/ Ex. Warr.      $4,000,000                                                                                                                                                                                                      $75,694
12/12/08 SVB Financial Group–Santa Clara, CA                   Pref. Stock w/ Warr.        $235,000,000                                                                                                       $43.27         $1,435      $49.78       708,116        708,116       $(6.51)       Out      $7,931,250
                                                           8
5/8/09     Sword Financial Corporation–Horicon, WI Sub. Debent. w/ Ex.                      $13,644,000                                                                                                                                                                                                    $308,434
                                                   Warr.
12/19/08 Synovus Financial Corp.–Columbus, GA                  Pref. Stock w/ Warr.        $967,870,000                                                                                                        $3.75         $1,801       $9.36 15,510,737        15,510,737       $(5.61)       Out $31,724,628
1/16/09    Syringa Bancorp–Boise, ID2                          Pref. Stock w/ Ex. Warr.      $8,000,000                                                                                                                                                                                                    $253,122
11/21/08 Taylor Capital Group–Rosemont, IL                     Pref. Stock w/ Warr.        $104,823,000                                                                                                        $6.60            $73      $10.75     1,462,647      1,462,647       $(4.15)       Out      $3,843,511
8/28/09    TCB Corporation– Greenwood, SC8,10                  Sub. Debent. w/ Ex.           $9,720,000
                                                               Warr.
1/16/09    TCB Holding Company, Texas Community Pref. Stock w/ Ex. Warr.                    $11,730,000                                                                                                                                                                                                    $371,167
           Bank– The Woodlands, TX2
                                                           4
11/14/08 TCF Financial Corporation–Wayzata, MN                 Pref. Stock w/ Warr.        $361,172,000 4/22/2009        $361,172,000          $0     Warrants                                                $13.04         $1,676      $16.93     3,199,988      3,199,988       $(3.89)       Out      $7,925,719
12/23/08 TCNB Financial Corp.–Dayton, OH2                      Pref. Stock w/ Ex. Warr.      $2,000,000                                                                                                                                                                                                      $70,244
12/19/08 Tennessee Commerce Bancorp, Inc.–                     Pref. Stock w/ Warr.         $30,000,000                                                                                                        $4.00            $19       $9.75       461,538        461,538       $(5.75)       Out       $983,333
         Franklin, TN
12/23/08 Tennessee Valley Financial Holdings, Inc.– Pref. Stock w/ Ex. Warr.                 $3,000,000                                                                                                                                                                                                    $105,367
         Oak Ridge, TN2
1/16/09    Texas Capital Bancshares, Inc.–                     Pref. Stock w/ Warr.         $75,000,000 5/13/2009         $75,000,000          $0     Warrants                                                $16.84          $601       $14.84       758,086        758,086        $2.00          In     $1,218,750
           Dallas, TX4
1/9/09     Texas National Bancorporation–                      Pref. Stock w/ Ex. Warr.      $3,981,000                                                                                                                                                                                                    $130,177
           Jacksonville, TX2
                                              2
8/7/09     The ANB Corporation–Terrell, TX                     Pref. Stock w/ Ex. Warr.     $20,000,000
12/12/08 The Bancorp, Inc.–Wilmington, DE                      Pref. Stock w/ Warr.         $45,220,000                                                                                                        $5.72          $141        $3.46     1,960,405      1,960,405        $2.26          In     $1,526,175
                                                   2
2/6/09     The Bank of Currituck–Moyock, NC                    Pref. Stock w/ Ex. Warr.      $4,021,000                                                                                                                                                                                                    $115,049
2/13/09    The Bank of Kentucky Financial                      Pref. Stock w/ Warr.         $34,000,000                                                                                                       $21.16          $119       $18.56       274,784        274,784        $2.60          In      $859,444
           Corporation–Crestview Hills, KY
10/28/08 The Bank of New York Mellon Corporation–Pref. Stock w/ Warr.                     $3,000,000,000 6/17/2009     $3,000,000,000          $0     Warrants   8/5/2009      Warrants    $136,000,000       $28.99       $34,870             – 14,516,129                 –           –          – $95,416,667
         New York, NY4
1/16/09    The Baraboo Bancorporation–                         Pref. Stock w/ Ex. Warr.     $20,749,000                                                                                                                                                                                                    $656,482
           Baraboo, WI2
12/19/08 The Connecticut Bank and Trust                        Pref. Stock w/ Warr.          $5,448,000                                                                                                        $4.12            $15       $4.65       175,742        175,742       $(0.53)       Out
         Company–Hartford, CT
12/19/08 The Elmira Savings Bank, FSB–Elmira, NY Pref. Stock w/ Warr.                        $9,090,000                                                                                                       $16.00            $31      $11.70       116,538        116,538        $4.30          In      $297,950
1/9/09     The First Bancorp, Inc.–Damariscotta, ME Pref. Stock w/ Warr.                    $25,000,000                                                                                                       $18.60          $181       $16.60       225,904        225,904        $2.00          In      $750,000
                                                                                                                                                                                                                                                                                                                          transaction detail I Appendix d I October 21, 2009




2/6/09     The First Bancshares, Inc.–                         Pref. Stock w/ Warr.          $5,000,000                                                                                                        $5.62            $17      $13.71        54,705         54,705       $(8.09)       Out       $131,250
           Hattiesburg, MS
2/6/09     The Freeport State Bank–Harper, KS2                 Pref. Stock w/ Ex. Warr.        $301,000                                                                                                                                                                                                       $8,610
                                                                                                                                                                                                                                                                                             continued on next page
                                                                                                                                                                                                                                                                                                                          205
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                                    (CONTINUED)                                                                                                                                                                                                         206
                                                                                                                                                  Treasury Investment
                                                                                                                                                      Remaining After
                                                  Purchase Details                                                Capital Repayment Details        Capital Repayment              Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                            Current
                                                                                                                                                                                                                                                                         Number of      Amount                      Income
                                                                                                                                                                                                                                                 Strike   Number of     Outstanding      “In the                  Payment
                                                                                                                   Capital           Capital   Remaining Remaining        Final Disposition                 Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                                             Investment                      Investment Repayment         Repayment      Capital Investment Disposition Investment            Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
Date     Institution                                                 Description                        Amount       Date           Amount6      Amount Description       Date Description             Proceeds      Pricee  (in millions)   updates)a        Issued      updates)a    Money”e     Moneye         Interest)f
10/28/08 The Goldman Sachs Group, Inc.–                              Pref. Stock w/ Warr.       $10,000,000,000 6/17/2009 $10,000,000,000             $0     Warrants 7/22/2009      Warrants $1,100,000,000 $184.35             $94,246             – 12,205,045                 –           –          – $318,055,555
         New York, NY4
                                                              2
5/22/09    The Landrum Company–Columbia, MO                          Pref. Stock w/ Ex. Warr.      $15,000,000                                                                                                                                                                                                  $188,479
12/23/08 The Little Bank, Incorporated–                              Pref. Stock w/ Ex. Warr.       $7,500,000                                                                                                                                                                                                  $263,417
         Kinston, NC2
12/31/08 The PNC Financial Services Group Inc.–                      Pref. Stock w/ Warr.        $7,579,200,000                                                                                                     $48.59       $22,420       $67.33 16,885,192        16,885,192     $(18.74)        Out $236,850,000
         Pittsburgh, PA
2/20/09    The Private Bank of California–                           Pref. Stock w/ Ex. Warr.       $5,450,000                                                                                                                                                                                                  $144,409
           Los Angeles, CA2
1/9/09     The Queensborough Company–                                Pref. Stock w/ Ex. Warr.      $12,000,000                                                                                                                                                                                                  $392,400
           Louisville, GA2
                                                              8,10
9/4/09     The State Bank of Bartley–Bartley, NE                     Sub. Debent. w/ Ex.            $1,697,000
                                                                     Warr.
2/27/09    The Victory Bank–Limerick, PA2                            Pref. Stock w/ Ex. Warr.         $541,000                                                                                                                                                                                                    $13,758
12/5/08    TIB Financial Corp–Naples, FL                             Pref. Stock w/ Warr.          $37,000,000                                                                                                       $1.49            $22       $5.07     1,063,218      2,180,023       $(3.58)       Out    $1,284,722
12/19/08 Tidelands Bancshares, Inc–                                  Pref. Stock w/ Warr.          $14,448,000                                                                                                       $2.96            $13       $3.79       571,821        571,821       $(0.83)       Out      $473,573
         Mt. Pleasant, SC
                                                      2
4/17/09    Tifton Banking Company–Tifton, GA                         Pref. Stock w/ Ex. Warr.       $3,800,000                                                                                                                                                                                                    $67,883
12/23/08 Timberland Bancorp, Inc.–Hoquiam, WA                        Pref. Stock w/ Warr.          $16,641,000                                                                                                       $4.64            $33       $6.73       370,899        370,899       $(2.09)       Out      $536,211
                                                      2
4/3/09     Titonka Bancshares, Inc–Titonka, IA                       Pref. Stock w/ Ex. Warr.       $2,117,000                                                                                                                                                                                                    $42,310
                                                                                                                                                                                                                                                                                                                               Appendix d I transaction detail I October 21, 2009




2/6/09     Todd Bancshares, Inc.–Hopkinsville, KY2                   Pref. Stock w/ Ex. Warr.       $4,000,000                                                                                                                                                                                                  $114,450
12/12/08 TowneBank–Portsmouth, VA                                    Pref. Stock w/ Warr.          $76,458,000                                                                                                      $12.75          $299       $21.31       538,184        538,184       $(8.56)       Out    $2,580,458
1/16/09    Treaty Oak Bancorp, Inc.–Austin, TX2                      Pref. Stock w/ Ex. Warr.       $3,268,000                                                                                                                                                                                                  $103,380
3/27/09    Triad Bancorp, Inc.– Frontenac, MO2                       Pref. Stock w/ Ex. Warr.       $3,700,000                                                                                                                                                                                                    $77,300
12/19/08 Tri–County Financial Corporation–                           Pref. Stock w/ Ex. Warr.      $15,540,000                                                                                                                                                                                                  $555,210
         Waldorf, MD2
3/27/09    Trinity Capital Corporation–                              Pref. Stock w/ Ex. Warr.      $35,539,000                                                                                                                                                                                                  $742,471
           Los Alamos, NM2
4/3/09     Tri–State Bank of Memphis–                                Pref. Stock                    $2,795,000                                                                                                                                                                                                    $51,242
           Memphis, TN2,3
2/27/09    TriState Capital Holdings, Inc.–                          Pref. Stock w/ Ex. Warr.      $23,000,000                                                                                                                                                                                                  $584,967
           Pittsburgh, PA2
4/3/09     TriSummit Bank–Kingsport, TN2                             Pref. Stock w/ Ex. Warr.       $2,765,000                                                                                                                                                                                                    $55,246
11/21/08 Trustmark Corporation–Jackson, MS                           Pref. Stock w/ Warr.         $215,000,000                                                                                                      $19.05         $1,094      $19.57     1,647,931      1,647,931       $(0.52)       Out    $7,883,333
5/29/09    Two Rivers Financial Group–                               Pref. Stock w/ Ex. Warr.      $12,000,000                                                                                                                                                                                                  $138,067
           Burlington, IA2
                                              4
11/14/08 U.S. Bancorp–Minneapolis, MN                                Pref. Stock w/ Warr.        $6,599,000,000 6/17/2009     $6,599,000,000          $0     Warrants 7/15/2009      Warrants    $139,000,000       $21.86       $41,796             – 32,679,102                 –           –          – $195,220,417
8/7/09     U.S. Century Bank–Miami, FL2                              Pref. Stock w/ Ex. Warr.      $50,236,000
                                                          2
1/30/09    UBT Bancshares, Inc.–Marysville, KS                       Pref. Stock w/ Ex. Warr.       $8,950,000                                                                                                                                                                                                  $264,334
11/14/08 UCBH Holdings, Inc.–San Francisco, CA                       Pref. Stock w/ Warr.         $298,737,000                                                                                                       $0.80            $96       $5.71     7,847,732      7,847,732       $(4.91)       Out    $7,509,920
                                                              b
11/14/08 Umpqua Holdings Corp.–Portland, OR                          Pref. Stock w/ Warr.         $214,181,000                                                                                                      $10.60          $883       $14.46     2,221,795      1,110,898       $(3.86)       Out    $8,061,535
5/1/09     Union Bank & Trust Company–                               Pref. Stock w/ Ex. Warr.       $3,194,000                                                                                                                                                                                                    $50,296
           Oxford, NC2
12/19/08 Union Bankshares Corporation–                               Pref. Stock w/ Warr.          $59,000,000                                                                                                      $12.45          $228       $20.94       422,636        422,636       $(8.49)       Out    $1,933,889
         Bowling Green, VA
2/20/09    United American Bank–San Mateo, CA2                       Pref. Stock w/ Ex. Warr.       $8,700,000
1/16/09    United Bancorp, Inc.–Tecumseh, MI                         Pref. Stock w/ Warr.          $20,600,000                                                                                                       $6.00            $30       $9.92       311,492        311,492       $(3.92)       Out      $597,972
12/23/08 United Bancorporation of Alabama,                           Pref. Stock w/ Warr.          $10,300,000                                                                                                       $5.00            $11      $14.85       104,040        104,040       $(9.85)       Out      $331,889
         Inc.–Atmore, AL
5/22/09    United Bank Corporation–                                  Sub. Debent. w/ Ex.           $14,400,000                                                                                                                                                                                                  $278,551
           Barnesville, GA8                                          Warr.
12/5/08    United Community Banks, Inc.–                             Pref. Stock w/ Warr.         $180,000,000                                                                                                       $5.00          $440       $12.37     2,132,701      2,182,297       $(7.37)       Out    $6,250,000
           Blairsville, GA
1/16/09    United Financial Banking Companies,                       Pref. Stock w/ Ex. Warr.       $5,658,000                                                                                                                                                                                                  $179,026
           Inc.–Vienna, VA2
12/5/08    Unity Bancorp, Inc.–Clinton, NJ                           Pref. Stock w/ Warr.          $20,649,000                                                                                                       $4.20            $30       $4.05       764,778        764,778        $0.15        Out      $716,980
5/22/09    Universal Bancorp– Bloomfield, IN2                        Pref. Stock w/ Ex. Warr.       $9,900,000                                                                                                                                                                                                  $124,396
6/19/09    University Financial Corp, Inc.–                          Sub. Debent.                  $11,926,000                                                                                                                                                                                                  $142,847
           St. Paul, MN3,8
                                                  2
2/6/09     US Metro Bank–Garden Grove, CA                            Pref. Stock w/ Ex. Warr.       $2,861,000                                                                                                                                                                                                    $81,858
12/23/08 Uwharrie Capital Corp–Albemarle, NC2                        Pref. Stock w/ Ex. Warr.      $10,000,000                                                                                                                                                                                                  $351,222
                                                                                                                                                                                                                                                                                                   continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                     (CONTINUED)
                                                                                                                                     Treasury Investment
                                                                                                                                         Remaining After
                                              Purchase Details                                     Capital Repayment Details          Capital Repayment            Final Disposition                             Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                             Current
                                                                                                                                                                                                                                                          Number of      Amount                      Income
                                                                                                                                                                                                                                  Strike   Number of     Outstanding      “In the                  Payment
                                                                                                    Capital           Capital     Remaining Remaining        Final Disposition               Final   Current       Market          Price    Warrants       Warrants Money” or        In/Out     to Treasury
Purchase                                              Investment                      Investment Repayment         Repayment        Capital Investment Disposition Investment          Disposition    Stock Capitalization     (reflects    Originally      (reflects “Out of the     of the   (Dividend or
                                                                                                                                                                                                                                                                    a
Date     Institution                                  Description                        Amount       Date           Amount6        Amount Description       Date Description           Proceeds      Pricee  (in millions)   updates)a        Issued      updates)     Money”e     Moneye         Interest)f
1/30/09    Valley Commerce Bancorp–Visalia, CA2       Pref. Stock w/ Ex. Warr.       $7,700,000                                                                                                                                                                                                  $227,311
1/9/09     Valley Community Bank– Pleasanton, CA2 Pref. Stock w/ Ex. Warr.           $5,500,000                                                                                                                                                                                                  $179,851
12/12/08 Valley Financial Corporation–Roanoke, VA Pref. Stock w/ Warr.              $16,019,000                                                                                                       $3.43            $16       $6.97       344,742        344,742       $(3.54)       Out      $540,642
                                              4
11/14/08 Valley National Bancorp–Wayne, NJ            Pref. Stock w/ Warr.         $300,000,000     6/3/2009      $75,000,000 $225,000,000     Preferred                                             $12.29         $1,758      $18.66     2,297,090      2,411,945       $(6.37)       Out $11,201,389
                                                                                                                                               Stock w/
                                                                                                                                               Warrants
11/14/08 Valley National Bancorp–Wayne, NJ4                                                        9/23/2009     $125,000,000 $100,000,000     Preferred
                                                                                                                                               Stock w/
                                                                                                                                               Warrants
5/1/09     Village Bank and Trust Financial Corp–     Pref. Stock w/ Warr.          $14,738,000                                                                                                       $4.01            $17       $4.43       499,029        499,029       $(0.42)       Out      $212,882
           Midlothian, VA
12/12/08 Virginia Commerce Bancorp–Arlington, VA Pref. Stock w/ Warr.               $71,000,000                                                                                                       $3.99          $107        $3.95     2,696,203      2,696,203        $0.04        Out    $2,396,250
6/12/09    Virginia Company Bank–                     Pref. Stock w/ Ex. Warr.       $4,700,000                                                                                                                                                                                                    $43,377
           Newport News, VA2,10
4/24/09    Vision Bank–Texas– Richardson, TX2         Pref. Stock w/ Ex. Warr.       $1,500,000                                                                                                                                                                                                    $25,207
12/19/08 VIST Financial Corp.–Wyomissing, PA          Pref. Stock w/ Warr.          $25,000,000                                                                                                       $5.85            $34      $10.30       364,078        364,078       $(4.45)       Out      $819,444
1/30/09    W.T.B. Financial Corporation–              Pref. Stock w/ Ex. Warr.     $110,000,000                                                                                                                                                                                                $3,247,291
           Spokane, WA2
12/19/08 Wainwright Bank & Trust Company–             Pref. Stock w/ Warr.          $22,000,000                                                                                                       $6.55            $48       $8.46       390,071        390,071       $(1.91)       Out      $721,111
         Boston, MA
1/16/09    Washington Banking Company–                Pref. Stock w/ Warr.          $26,380,000                                                                                                       $9.26            $88       $8.04       492,164        492,164        $1.22          In     $765,753
           Oak Harbor, WA
                                                  4
11/14/08 Washington Federal Inc.–Seattle, WA          Pref. Stock w/ Warr.         $200,000,000 5/27/2009        $200,000,000            $0     Warrants                                             $16.86         $1,839      $17.57     1,707,456      1,707,456       $(0.71)       Out    $5,361,111
1/30/09    WashingtonFirst Bank– Reston, VA2          Pref. Stock w/ Ex. Warr.       $6,633,000                                                                                                                                                                                                  $195,829
6/26/09    Waukesha Bankshares, Inc.–                 Pref. Stock w/ Ex. Warr.       $5,625,000                                                                                                                                                                                                    $40,351
           Waukesha, WI2,10
11/21/08 Webster Financial Corporation–               Pref. Stock w/ Warr.         $400,000,000                                                                                                      $12.47          $850       $18.28     3,282,276      3,282,276       $(5.81)       Out $14,666,667
         Waterbury, CT
10/28/08 Wells Fargo & Company–                       Pref. Stock w/ Warr.       $25,000,000,000                                                                                                     $28.18      $131,646       $34.01 110,261,688 110,261,688            $(5.83)       Out $996,527,778
         San Francisco, CA
12/5/08    Wesbanco Bank Inc.–Wheeling, WV4           Pref. Stock w/ Warr.          $75,000,000     9/9/2009      $75,000,000            $0     Warrants                                             $15.46          $411       $25.61       439,282        439,282     $(10.15)        Out    $2,854,167
12/31/08 West Bancorporation, Inc.–                   Pref. Stock w/ Warr.          $36,000,000                                                                                                       $4.96            $86      $11.39       474,100        474,100       $(6.43)       Out    $1,125,000
         West Des Moines, IA
2/13/09    Westamerica Bancorporation–                Pref. Stock w/ Warr.          $83,726,000     9/2/2009      $41,863,000   $41,863,000    Preferred                                             $52.00         $1,519      $50.92       246,640        246,640        $1.08          In   $2,215,250
           San Rafael, CA                                                                                                                      Stock w/
                                                                                                                                               Warrants
11/21/08 Western Alliance Bancorporation–             Pref. Stock w/ Warr.         $140,000,000                                                                                                       $6.31          $457       $13.34     1,574,213        787,107       $(7.03)       Out    $5,133,333
         Las Vegas, NVb
12/23/08 Western Community Bancshares, Inc.–          Pref. Stock w/ Ex. Warr.       $7,290,000                                                                                                                                                                                                  $256,071
         Palm Desert , CA2
12/23/08 Western Illinois Bancshares Inc.–            Pref. Stock w/ Ex. Warr.       $6,855,000                                                                                                                                                                                                  $240,778
         Monmouth, IL2
5/15/09    Western Reserve Bancorp, Inc–              Pref. Stock w/ Ex. Warr.       $4,700,000                                                                                                                                                                                                    $64,038
           Medina, OH2
2/20/09    White River Bancshares Company–            Pref. Stock w/ Ex. Warr.      $16,800,000                                                                                                                                                                                                  $445,083
           Fayetteville, AR2
12/19/08 Whitney Holding Corporation–                 Pref. Stock w/ Warr.         $300,000,000                                                                                                       $9.54          $646       $17.10     2,631,579      2,631,579       $(7.56)       Out    $9,833,333
         New Orleans, LA
12/12/08 Wilmington Trust Corporation–                Pref. Stock w/ Warr.         $330,000,000                                                                                                      $14.20          $984       $26.66     1,856,714      1,856,714     $(12.46)        Out $11,137,500
         Wilmington, DE
12/12/08 Wilshire Bancorp, Inc.–Los Angeles, CA       Pref. Stock w/ Warr.          $62,158,000                                                                                                       $7.34          $216        $9.82       949,460        949,460       $(2.48)       Out    $2,097,833
12/19/08 Wintrust Financial Corporation–              Pref. Stock w/ Warr.         $250,000,000                                                                                                      $27.96          $673       $22.82     1,643,295      1,643,295        $5.14          In   $8,194,444
         Lake Forest, IL
5/15/09    Worthington Financial Holdings, Inc.–      Pref. Stock w/ Ex. Warr.       $2,720,000                                                                                                                                                                                                    $37,060
           Huntsville, AL2
1/23/09    WSFS Financial Corporation–                Pref. Stock w/ Warr.          $52,625,000                                                                                                      $26.64          $165       $45.08       175,105        175,105     $(18.44)        Out    $1,476,424
           Wilmington, DE
1/16/09    Yadkin Valley Financial Corporation–       Pref. Stock w/ Warr.          $36,000,000                                                                                                       $4.67            $75      $13.99       385,990        385,990       $(9.32)       Out    $1,083,827
           Elkin, NC
7/24/09    Yadkin Valley Financial Corporation–       Pref. Stock w/ Warr.          $13,312,000                                                                                                       $4.67            $75       $7.30       273,534                      $(0.76)       Out
                                                                                                                                                                                                                                                                                                                transaction detail I Appendix d I October 21, 2009




           Elkin, NC
4/24/09    York Traditions Bank–York, PA2             Pref. Stock w/ Ex. Warr.       $4,871,000                                                                                                                                                                                                    $81,866
11/14/08 Zions Bancorporation–Salt Lake City, UT      Pref. Stock w/ Warr.        $1,400,000,000                                                                                                     $17.97         $2,272      $36.27     5,789,909      5,789,909     $(18.30)        Out $52,694,444
                                                                                                                                                                                                                                                                                    continued on next page
                                                                                                                                                                                                                                                                                                                207
CPP TRANSACTION DETAIL, AS OF 9/30/2009                                                         (CONTINUED)                                                                                                                                                                                                                         208
                                                                                                                                               Treasury Investment
                                                                                                                                                   Remaining After
                                               Purchase Details                                        Capital Repayment Details                Capital Repayment                 Final Disposition                               Warrant and Market Data for Publicly–Traded Companies
                                                                                                                                                                                                                                                                               Current
                                                                                                                                                                                                                                                                            Number of      Amount                        Income
                                                                                                                                                                                                                                                    Strike   Number of     Outstanding      “In the                    Payment
                                                                                                      Capital                Capital       Remaining Remaining        Final Disposition                     Final   Current       Market             Price    Warrants       Warrants Money” or          In/Out     to Treasury
Purchase                                               Investment                       Investment Repayment              Repayment          Capital Investment Disposition Investment                Disposition    Stock Capitalization        (reflects    Originally      (reflects “Out of the       of the   (Dividend or
Date     Institution                                   Description                         Amount       Date                Amount6          Amount Description       Date Description                 Proceeds      Pricee  (in millions)      updates)a        Issued      updates)a    Money”e       Moneye         Interest)f
                                                       TOTAL                                        TOTAL
                                                       PURCHASE AMOUNT                              CAPITAL REPAYMENT
                                                       $204,617,573,320                             AMOUNT
                                                                                                    $70,717,027,000
                                                       TOTAL
                                                       TREASURY CPP INVESTMENT AMOUNT
                                                       $133,900,546,320

Notes: Numbers affected by rounding. Data as of 9/30/2009. Numbered notes taken verbatim from Treasury’s 10/2/2009 Transactions Report containing data as of 9/30/2009.
1
  	 This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009,
      and this transaction under the CPP was funded on 1/9/2009.
2
  	 Privately–held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
  	 To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
4
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
  	Redemption pursuant to a qualified equity offering.
6
  	 This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
  	 The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
  	Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
  	 In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
    	 This institution participated in the expansion of CPP for small banks.
11
    	 Treasury has three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP
      Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of common stock. On 9/11/2009, Series M
                                                                                                                                                                                                                                                                                                                                    Appendix d I transaction detail I October 21, 2009




      automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
    	On 8/24/2009, Treasury exchanged its Series C Preferred Stock issued by Popular, Inc. for a like amount of non tax–deductible Trust Preferred Securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
a
  	According to Treasury, “If a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” Thus, the strike
      prices presented reflects these adjustments provided by Treasury. It appears that Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants.
b
  	According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”
c
  	 Treasury made two investments in SunTrust. Since the dividends could not be allocated between the transactions, they are presented on a combined basis.
d
  	According to Treasury, “Provident was purchase by M&T Bank (a public institution). Treasury is currently in the process of swapping the warrants issued by Provident for warrants issued by M&T Bank.” According to Treasury, “the closing of the merger of the two banks preferred shares and warrants have not yet
      taken place.”
e
   	 When a warrant’s current market price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.” Presented as of 9/30/2009.
f
  	 Popular paid Treasury $13 million in fee income, reflected in the Payments to Treasury column. See note 12.
g
   	According to Treasury, “on 1/9/09 the original warrant was replaced by a new warrant certificate (not a second certificate to go along with the first one) for 121,792,790 total warrant shares. The new warrant also has a $30.79 Strike Price.”
h
   	According to Treasury, on 9/11/2009, an “extinguishment” transaction “made [warrants] worthless upon execution of Citi Series M Common Stock Equivalent to Common Exchange.”

Sources: Treasury, responses to SIGTARP data call, 6/30/2009, 7/8/2009, 9/30/2009, 10/7/2009; Treasury, Transactions Report, 10/2/2009, www.treas.gov, accessed 10/6/2009; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 10/6/2009; Yahoo Finance, http://
finance.yahoo.com, accessed 10/7/2009, Treasury, response to SIGTARP draft, 10/16/2009.
Table D.2

SSFI Transaction Detail, as of 9/30/2009
                                    Seller                                             Purchase Details                                                         Exchange Details                                                                        Warrants and Market Data
                                                                                                                                                                                                                                             Market Strike Price Outstanding        Amount “In the     In or Out Payments
                      Name of                            Transaction     Investment                              Pricing                        Transaction Investment               Investment Pricing                               Capitalization    (reflects Number of         Money” or “Out        of the       to
Note     Date         Institution   City       State     Type            Description           Investment Amount Mechanism         Date         Type        Description                 Amount Mechanism         Stock Price            (in millions)  updates)    Warrants         of the Money”a     Money? a Treasury
         11/25/08 AIG               New York   NY        Purchase        Preferred Stock w/      $40,000,000,000 Par               4/17/09 Exchange         Preferred Stock   $40,000,000,000 Par                    $44.11                $5,936        $50.00      2,689,938               $(5.89)        Out           $-
                                                                         Warrants                                                                           w/ Warrants1
                                                                                                                        2
3        4/17/09      AIG           New York   NY        Purchase        Preferred Stock w/      $29,835,000,000 Par                                                                                                 $44.11                $5,936      $0.00002              150             $44.11          In           $-
                                                                         Warrants
                                                                         TOTAL                 $69,835,000,000

Notes: Numbers affected by rounding. Data as of 9/30/2009. Numbered notes taken from Treasury’s 10/2/2009 Transactions Report containing data as of 9/30/2009.
1
  	On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it has an additional obligation to
   Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
  	The investment price reflects Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
  	This transaction does not include AIG’s commitment fee of an additional $165 million scheduled to be paid from its operating income in three equal installments over the five-year life of the facility.

Source: Treasury, response to SIGTARP data call, 10/7/2009; Treasury, Transactions Report, 10/2/2009.




Table D.3

TIP Transaction Detail, AS OF 9/30/2009
                                                Seller                                                                                                                                Warrants and Market Data
                                                                                                                                                                                                                          Amount
                                                                                                                                                                         Market                  Outstanding      “In the Money”           In or Out          Payment to
                                                                               Transaction     Investment                    Investment Pricing             Stock Capitalization       Strike     Number of        or “Out of the             of the             Treasury
Note        Date       Name of Institution               City          State   Type            Description                      Amount Mechanism            Price   (in millions)       Price      Warrants              Money”a           Money?a     Dividend Payments
1           12/31/08 Citigroup Inc.                      New York      NY      Purchase        Trust Preferred        $20,000,000,000 Par                   $4.84         $110,741    $10.61    188,501,414                 $(5.77)             Out           $933,333,333
                                                                                               Securities
            1/16/09    Bank of America Corporation       Charlotte     NC      Purchase        Preferred Stock w/     $20,000,000,000 Par                  $16.92         $146,385    $13.30    150,375,940                  $3.62                In          $928,888,889
                                                                                               Warrants
                                                                                               TOTAL                 $40,000,000,000

Note: Numbers affected by rounding. Data as of 9/30/2009. Numbered notes taken from Treasury’s 10/2/2009 Transactions Report containing data as of 9/30/2009.
1
  Treasury has three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury
  exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.

Source: Treasury, response to SIGTARP data call, 10/7/2009; Treasury, Transactions Report, 10/2/2009.




Table D.4

AGP Transaction Detail, AS OF 9/30/2009
                                               Seller                                                                    Transaction Detailsb                                                                   Warrants and Market Data
                                                                                                                                                                                                                                                Amount
                                                                                                                                                                                                     Market                 Outstanding “In the Money”          In or Out          Payment to
                                                                                                                                                                                        Stock Capitalization       Strike    Number of or “Out of the              of the    Treasury Dividend
Note         Date       Name of Institution              City          State     Transaction Type         Investment Description   Guarantee Limit Premium Received                     Price   (in millions)       Price     Warrants        Money” a          Money? a            Payments
1,2          1/16/09 Citigroup Inc.                      New York      NY        Guarantee                Second-Loss Guarantee    $5,000,000,000 Preferred Stock and Warrants          $4.84      $110,741      $10.61      66,531,728             $(5.77)          Out        $174,806,667
                                                                                                          on Asset Pool

Notes: Numbers affected by rounding. Data as of 9/30/2009. Numbered notes taken from Treasury’s 10/2/2009 Transactions Report containing data as of 9/30/2009.
1
  	In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  	Treasury has three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed
   Rate Cumulative Perpetual Preferred Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
a
  	When a warrant’s current market price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
b
  	AGP transaction is a guarantee, not a purchase. Treasury received a premium including preferred stock and warrants as part of this transaction.

Sources: Treasury, response to SIGTARP data call, 10/7/2009; Treasury, Transactions Report, 10/2/2009; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 10/6/2009.
                                                                                                                                                                                                                                                                                                                               transaction detail I Appendix d I October 21, 2009
                                                                                                                                                                                                                                                                                                                               209
Table D.5                                                                                                                                                          210
TALF Transaction Detail, As of 9/30/2009
                                              Seller                                                            Purchase Details
                                                                                                                                                   Pricing
Note        Date       Name of Institution             City       State     Transaction Type Investment Description              Investment Amount Mechanism
1           3/3/09     TALF LLC                        Wilmington DE        Purchase            Debt Obligation w/ Additional     $20,000,000,000 N/A
                                                                                                Note
                                                                                                TOTAL                            $20,000,000,000

Notes: Numbers affected by rounding. Data as of 9/30/2009. Numbered notes taken from Treasury’s 10/2/2009 Transactions Report containing data as of 9/30/2009.
1
  	The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York. The amount of $20,000,000,000 represents the
   maximum loan amount. The loan will be incrementally funded.

Sources: Treasury, response to SIGTARP data call, 10/7/2009; Treasury, Transactions Report, 10/2/2009.




Table D.6

PPIP Transaction Detail, as of 9/30/2009
                                             Seller                                                         Purchase Details
                                                                           Transaction                                               Investment Pricing
Note        Date     Name of Institution               City       State    Type           Investment Description                        Amount Mechanism
1           9/30/09 UST/TCW Senior Mortgage            Wilmington DE       Purchase       Membership Interest                    $1,111,111,111 Par
                    Securities Fund, L.P.
2           9/30/09 UST/TCW Senior Mortgage            Wilmington DE       Purchase       Debt Obligation w/ Contingent          $2,222,222,222 Par
                    Securities Fund, L.P.                                                 Proceeds
                                                                                                                                                                   Appendix d I transaction detail I October 21, 2009




1           9/30/09 Invesco Legacy Securities          Wilmington DE       Purchase       Membership Interest                    $1,111,111,111 Par
                    Master Fund, L.P.
2           9/30/09 Invesco Legacy Securities          Wilmington DE       Purchase       Debt Obligation w/ Contingent          $2,222,222,222 Par
                    Master Fund, L.P.                                                     Proceeds
                                                                                          TOTAL                                 $6,666,666,666

Note: Numbers affected by rounding. Data as of 9/30/2009. Numbered notes taken from Treasury’s 10/2/2009 Transactions Report containing data as of
9/30/2009.
1
  	The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund
   their maximum equity capital obligations.
2	
   The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury
   fund 100% of their maximum equity obligations.

Source: Treasury, response to SIGTARP data call, 10/7/2009; Treasury, Transactions Report, 10/2/2009.
Table D.7

AIFP TRANSACTION DETAIL, as of 9/30/2009                                                    (CONTINUED)
                                 Seller                                       Purchase Details                                                                                            Exchange Details                        Principal Repayment Details       Payments to Treasury
                                                                                                                                                                                               Principal             Principal      Remaining      Remaining        Dividend        Interest
                                                     Transaction   Investment                             Pricing               Transaction   Investment                Investment   Pricing Repayment             Repayment         Principal    Investment       Payment a      Payment a
Note        Date       Name of Institution           Type          Description          Investment Amount Mechanism   Date      Type          Description                  Amount Mechanism        Date             Amount 19         Amount      Description
2           1/16/09    Chrysler Financial Services   Purchase      Debt Obligation w/      $1,500,000,000 N/A                                                                                  3/17/09          $3,499,054.95    1,496,500,945 Debt                       NA      $7,405,894
                       Americas LLC—Farmington                     Additional Note                                                                                                                                                             Obligation w/
                       Hills, MI                                                                                                                                                                                                               Additional Note
                                                                                                                                                                                               4/17/09         $31,810,122.11    1,464,690,823 Debt
                                                                                                                                                                                                                                               Obligation w/
                                                                                                                                                                                                                                               Additional Note
                                                                                                                                                                                               5/18/09         $51,136,083.81    1,413,554,739 Debt
                                                                                                                                                                                                                                               Obligation w/
                                                                                                                                                                                                                                               Additional Note
                                                                                                                                                                                               6/17/09         $44,357,709.98    1,369,197,029 Debt
                                                                                                                                                                                                                                               Obligation w/
                                                                                                                                                                                                                                               Additional Note
                                                                                                                                                                                               7/14/09       $1,369,197,029.15                - N/A
14,         1/2/09     Chrysler Holding LLC—         Purchase      Debt Obligation w/      $4,000,000,000 N/A
21, c                  Auburn Hills, MI                            Additional Note
4, 5,       4/29/09    Chrysler Holding LLC—         Purchase      Debt Obligation w/       $500,000,000 N/A
21, c                  Auburn Hills, MI                            Additional Note
4, 6,       4/29/09    Chrysler Holding LLC—         Purchase      Debt Obligation w/       $280,130,642 N/A                                                                                   7/10/09           $280,130,642                 - N/A
21,                    Auburn Hills, MI                            Additional Note                                                                                                                                                                                        NA     $55,237,713
b, c
7, c        5/1/09     Chrysler LLC—Wilmington,      Purchase      Debt Obligation w/      $3,043,143,000   N/A
                       DE                                          Additional Note
8, c        5/20/09    Chrysler LLC—Wilmington,      Purchase      Debt Obligation w/       $756,857,000    N/A
                       DE                                          Additional Note
1, 20       12/29/08   General Motors                Purchase      Debt Obligation          $884,024,131 N/A          5/29/09   Exchange      Equity Interest in     $884,024,131 Par                                                                                    see note a
                       Corporation—Detroit, MI                                                                                                GMAC 12, 15
20, d       12/31/08   General Motors                Purchase      Debt Obligation        $13,400,000,000 N/A         7/10/09   Exchange      Preferred and        $13,400,000,000 Par
                       Corporation—Detroit, MI                     w/ Warrants and                                                            common stock in
                                                                   Additional Note                                                            General Motors
                                                                                                                                              Company 18
3, 20       4/22/09    General Motors                Purchase      Debt Obligation w/      $2,000,000,000 N/A         7/10/09   Exchange      Preferred and         $2,000,000,000 Par
                       Corporation—Detroit, MI                     Additional Note                                                            common stock in
                                                                                                                                              General Motors
                                                                                                                                              Company 18
9, 20       5/20/09    General Motors                Purchase      Debt Obligation w/      $4,000,000,000 N/A         7/10/09   Exchange      Preferred and         $4,000,000,000 Par
                       Corporation—Detroit, MI                     Additional Note                                                            common stock in
                                                                                                                                              General Motors
                                                                                                                                              Company 18
11,         5/27/09    General Motors                Purchase      Debt Obligation w/       $360,624,198 N/A          7/10/09   Exchange      Preferred and          $360,624,198 Par                                                                             $34,083,686 $143,526,108
20, b                  Corporation—Detroit, MI                     Additional Note                                                            common stock in
                                                                                                                                              General Motors
                                                                                                                                              Company 16, 18
13, 20      6/3/09     General Motors                Purchase      Debt Obligation w/     $23,027,511,395 N/A         7/10/09   Exchange      Preferred and        $22,041,706,310 Par
                       Corporation—Detroit, MI                     Additional Note                                                            common stock in
                                                                                                                                              General Motors
                                                                                                                                              Company 17, 18
18, b       7/10/09    General Motors Company—       Purchase      Debt Obligation w/      $7,072,488,605 N/A                                                                                  7/10/09           $360,624,198    6,711,864,407 Debt
                       Detroit, MI                                 Additional Note,                                                                                                                                                            Obligation
                                                                   Equity Interest                                                                                                                                                             w/ Additional
                                                                                                                                                                                                                                               Note, Equity
                                                                                                                                                                                                                                               Interest
15          12/29/08   GMAC LLC—Detroit, MI          Purchase      Preferred Stock         $5,000,000,000 Par
                                                                   w/ Exercised
                                                                   Warrants
                                                                                                                                                                                                                                                                                           NA
15          5/21/09    GMAC LLC—Detroit, MI          Purchase      Preferred Stock         $7,500,000,000 Par                                                                                                                                                    $430,611,111
                                                                   w/ Exercised
                                                                   Warrants
10          5/27/09    New CarCo Acquisition         Purchase      Debt Obligation w/      $6,642,000,000 N/A
                       LLC—Wilmington, DE                          Additional Note,
                                                                   Equity Interest
                                                                              TOTAL     $79,966,778,971                                                                    Total Principal Repayment Amount $2,140,754,840


                                       Total Treasury Investment Amount $77,826,024,131

                                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                                 transaction detail I Appendix d I October 21, 2009
                                                                                                                                                                                                                                                                                                 211
AIFP TRANSACTION DETAIL, as of 9/30/2009                                                              (CONTINUED)                                                                                                                                                                                                                                 212
Note: Numbers affected by rounding. Data as of 6/30/2009. Numbered notes taken from Treasury’s 7/2/2009 Transactions Report containing data as of 6/30/2009.			
1
  Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate level of funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
2
  The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler Financial. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
3
  This transaction is an amendment to Treasury’s 12/31/2008 agreement with General Motors Corporation, which brought the total loan amount to $15,400,000,000.
4
  This transaction is an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding LLC, increasing the total loan amount to $4,780,130,642. 	
5
  The loan may be incrementally funded.
6
  The loan will be used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Chrysler LLC.
7
  The terms of this transaction, first reported based on a binding term sheet fully executed on 5/1/2009 but made effective as of 4/30/2009, are now finalized and reflected in a credit agreement fully executed on 5/5/2009. Under the terms of the credit agreement, all commitment amounts were adjustedas follows:
Treasury’s commitment amount is $3.04 billion of the total $4.1 billion debtor-in-possession (DIP) credit facility. The amount of $1.4 billion, of which Treasury’s share is $1.04 billion, is available in weekly disbursements under the terms of the Bankruptcy Court’s interim order approving the DIP credit facility; the balance will be
available in weekly disbursements after certain Bankruptcy Court milestones are met.
8
  This transaction is an amendment to Treasury’s DIP credit agreement with Chrysler LLC dated 5/5/2009 and increases Treasury’s commitment to $3,800,000,000. The amendment was fully executed on 5/20/2009, but was made effective as of 5/15/2009.
9
  This transaction is an amendment to Treasury’s 12/31/2008 agreement with General Motors Corporation, which brought the total loan amount to $19,400,000,000, including the 4/22/2009 amendment.
10
   The terms of this transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, are now finalized and reflected in a credit agreement fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New CarCo Acquisition LLC
(renamed Chrysler Group LLC on or about 6/10/2009) of up to $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed from Treasury’s 1/2/2009 credit agreement with Chrysler Holding LLC. The debt obligations will be secured by a first priority lien on the assets of New CarCo
Acquisition LLC (the company that purchased Chrysler LLC’s assets in a sale pursuant to section 363 of the Bankruptcy Code).
11
   This transaction is an amendment to Treasury’s 12/31/2008 agreement with General Motors Corporation, which brings the total loan amount to $19,760,624,198, including the 4/22/2009 and 5/20/2009 amendments. The $360 million loan will be used to capitalize GM Warranty LLC, a special purpose vehicle created
by General Motors Corporation. On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed by the new GM, as explained in footnote 17.
12
   Pursuant to its rights under the loan agreement with General Motors Corporation (GM) reported on 12/29/2009, Treasury exchanged its $884 million loan to GM for a portion of GM’s common equity interest in GMAC LLC. As a result of the exchange, Treasury holds a 35.4% common equity interest in GMAC LLC.	
13
   Under the terms of the $33.3 billion debtor-in-possession (DIP) credit agreement, Treasury’s commitment amount is $30.1 billion. Up to $15 billion is available pursuant to the interim order the Bankruptcy Court entered approving the DIP credit facility, of which Treasury’s share is $12.8 billion; the balance will be available
shortly after the Bankruptcy Court’s final and non-appealable order approving the DIP credit facility.
14
   Pursuant to the agreement originally reported on 5/27/2009 and fully executed on 6/10/2009 (explained in Footnote 10), $500 million of this deal’s debt will be assumed under that fully executed agreement.
15
   GMAC LLC is now known as GMAC Inc. effective 6/30/2009.
16
   This investment amount was funded as a prepayment of the new General Motors Company’s assumed note described in footnote 17.	
17
   On 7/10/2009, Treasury and Motors Liquidation Company (formerly known as General Motors Corporation) amended the 6/3/2009 DIP credit agreement for $30.1 billion between Treasury and General Motors Corporation. Under the terms of the amendment, the DIP loan and interest accruing thereunder were extinguished
and exchanged for privately placed preferred and common equity in General Motors Company (the new GM) except for $986 million, which remained for the benefit of Motors Liquidation Company, and $7.07 billion, which was assumed by General Motors Company as a new obligation under the terms of a separate agreement
(see footnote 18). In total, Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of General Motors Company.
18
   On 7/10/2009, Treasury and General Motors Company entered into an agreement under which General Motors Company assumed $7.07 billion of General Motors Corporation’s (now known as Motors Liquidation Company) obligation under its 6/3/2009 agreement with Treasury.
19
   This amount does not include accrued and unpaid interest, which must be paid at the time of principal repayment.
20
   General Motors Corporation is now known as Motors Liquidation Company.
21
   Chrysler Holding LLC is now known as CGI Holding LLC.
a
  The information provided by Treasury on principal, income, and dividends was not broken out by transaction. For purposes of this table, it is presented in aggregate for each AIFP participant.
b
  This table include AWCP transactions. See notes 6 and 11.
c
  This table does not reflect any de-obligations for Chrysler because they were not listed on the 10/2/2009 Transaction Report.
d
  According to Treasury, “the GM Warrant was extinguished as part of the bankruptcy exit. It is no longer a holding of UST.”

Source: Treasury, response to SIGTARP data call, 10/7/2009; Treasury, Transactions Report, 10/2/2009; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 10/6/2009.	
                                                                                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                                                                                  Appendix d I transaction detail I October 21, 2009




Table D.8

ASSP Transaction Detail
AUTOMOTIVE SUPPLIER SUPPORT PROGRAM, as of 9/30/2009
                                                 Seller                                                                                                                             Adjustment Details
                                                                                                                                                                                                                                             Payment to
                                                                                    Transaction Investment                       Investment Pricing  Adjustment                        Adjustment        Adjusted Investment                    Treasury
Note        Date       Name of Institution                City          State       Type        Description                         Amount Mechanism Date                                 Amount                     Amount           Dividend Payments
1           4/9/09     GM Supplier Receivables LLC        Wilmington    DE          Purchase       Debt Obligation w/      $3,500,000,000 N/A                 7/8/09 3          $(1,000,000,000)             $2,500,000,000                   $3,601,370
                                                                                                   Additional Note
2           4/9/09     Chrysler Receivables SPV LLC       Wilmington    DE          Purchase       Debt Obligation w/      $1,500,000,000 N/A                 7/8/09 3            $(500,000,000)             $1,000,000,000                   $2,300,564
                                                                                                   Additional Note
                                                                                                   INITIAL TOTAL         $5,000,000,000                                        ADJUSTED TOTAL               $3,500,000,000

Notes: Numbers affected by rounding. Data as of 9/30/2009. Numbered notes taken from Treasury’s 10/2/2009 Transactions Report containing data as of 9/30/2009.
1
  The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally
  funded. The credit agreement was fully executed on 4/9/2009, but was made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
  The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit
  agreement was fully executed on 4/9/2009, but was made effective as of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
  Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.

Sources: Treasury, response to SIGTARP data call, 10/7/2009; Treasury, Transactions Report, 10/2/2009.
Table D.9

HAMP Transaction Detail, as of 9/30/2009
                         Servicer Modifying Borrowers’ Loans                                                                                                                                            Adjustment Details
                                                                                                                          Cap of Incentive
                                                                                                                     Payments on Behalf
                                                                                                                     of Borrowers and to                                                                                                                                 Market
                                                                      Transaction   Investment                      Servicers & Lenders/ Pricing       Adjustment    Cap Adjustment                                                                               Capitalization
Date        Name of Institution              City             State   Type          Description                          Investors (Cap) 1 Mechanism   Date                 Amount        Adjusted Cap Reason for Adjustment                                        (in millions)
4/13/09     Select Portfolio Servicing       Salt Lake City   UT      Purchase      Financial Instrument for Home         $376,000,000       N/A       6/12/09        $284,590,000      $660,590,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                 9/30/09        $121,910,000      $782,500,000 Updated portfolio data from servicer & HPDP initial cap
4/13/09     CitiMortgage, Inc.               O’Fallon         MO      Purchase      Financial Instrument for Home       $2,071,000,000       N/A       6/12/09       $(991,580,000)    $1,079,420,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                 9/30/09       $1,010,180,000    $2,089,600,000 Updated portfolio data from servicer & HPDP initial cap
4/13/09     Wells Fargo Bank, NA             Des Moines       IA      Purchase      Financial Instrument for Home       $2,873,000,000       N/A       6/17/09       $(462,990,000)    $2,410,010,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                                                                                                                                $131,646
                                                                                                                                                       9/30/09          $65,070,000    $2,475,080,000 Updated portfolio data from servicer & HPDP initial cap 2
4/13/09     GMAC Mortgage, Inc.              Ft. Washington   PA      Purchase      Financial Instrument for Home         $633,000,000       N/A       6/12/09        $384,650,000     $1,017,650,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                 9/30/09       $2,537,240,000    $3,554,890,000 Updated portfolio data from servicer & HPDP initial cap
4/13/09     Saxon Mortgage Services, Inc.    Irving           TX      Purchase      Financial Instrument for Home         $407,000,000       N/A       6/17/09        $225,040,000      $632,040,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                 9/30/09        $254,380,000      $886,420,000 Updated portfolio data from servicer & HPDP initial cap
4/13/09     Chase Home Finance, LLC          Iselin           NJ      Purchase      Financial Instrument for Home       $3,552,000,000       N/A       7/31/09      $(3,552,000,000)               $— Termination of SPA
                                                                                    Loan Modifications
4/16/09     Ocwen Financial Corporation,     West Palm BeachFL        Purchase      Financial Instrument for Home         $659,000,000       N/A       6/12/09       $(105,620,000)     $553,380,000 Updated portfolio data from servicer
            Inc.                                                                    Loan Modifications                                                                                                                                                                   $1,081
                                                                                                                                                       9/30/09        $102,580,000      $655,960,000 Updated portfolio data from servicer & HPDP initial cap
4/17/09     Bank of America, N.A.            Simi Valley      CA      Purchase      Financial Instrument for Home         $798,900,000       N/A       6/12/09           $5,540,000     $804,440,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                                                                                                                                $146,385
                                                                                                                                                       9/30/09        $162,680,000      $967,120,000 Updated portfolio data from servicer & HPDP initial cap
4/17/09     Countrywide Home Loans           Simi Valley      CA      Purchase      Financial Instrument for Home       $1,864,000,000       N/A       6/12/09       $3,318,840,000    $5,182,840,000 Updated portfolio data from servicer
            Servicing LP                                                            Loan Modifications                                                 9/30/09       $(717,420,000)    $4,465,420,000 Updated portfolio data from servicer & HPDP initial cap
4/20/09     Home Loan Services, Inc.         Pittsburgh       PA      Purchase      Financial Instrument for Home         $319,000,000       N/A       6/12/09        $128,300,000      $447,300,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                 9/30/09          $46,730,000     $494,030,000 Updated portfolio data from servicer & HPDP initial cap
4/20/09     Wilshire Credit Corporation      Beaverton        OR      Purchase      Financial Instrument for Home         $366,000,000       N/A       6/12/09          $87,130,000     $453,130,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                 9/30/09       $(249,670,000)     $203,460,000 Updated portfolio data from servicer & HPDP initial cap
4/24/09     Green Tree Servicing LLC         Saint Paul       MN      Purchase      Financial Instrument for Home         $156,000,000       N/A       6/17/09        $(64,990,000)       $91,010,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                 9/30/09        $130,780,000      $221,790,000 Updated portfolio data from servicer & HPDP initial cap
4/27/09     Carrington Mortgage Services, Santa Ana           CA      Purchase      Financial Instrument for Home         $195,000,000       N/A       6/17/09        $(63,980,000)     $131,020,000 Updated portfolio data from servicer
            LLC                                                                     Loan Modifications                                                 9/30/09          $90,990,000     $222,010,000 Updated portfolio data from servicer & HPDP initial cap
5/1/09      Aurora Loan Services, LLC        Littleton        CO      Purchase      Financial Instrument for Home         $798,000,000       N/A       6/17/09       $(338,450,000)     $459,550,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                 9/30/09        $(11,860,000)     $447,690,000 Updated portfolio data from servicer & HPDP initial cap
5/28/09     Nationstar Mortgage LLC          Lewisville       TX      Purchase      Financial Instrument for Home         $101,000,000       N/A       6/12/09          $16,140,000     $117,140,000 Updated portfolio data from servicer
                                                                                    Loan Modifications                                                 9/30/09        $134,560,000      $251,700,000 Updated portfolio data from servicer & HPDP initial cap
6/12/09     Residential Credit Solutions     Fort Worth       TX      Purchase      Financial Instrument for Home          $19,400,000       N/A       9/30/09          $(1,860,000)      $17,540,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                    Loan Modifications
6/17/09     CCO Mortgage                     Glen Allen       VA      Purchase      Financial Instrument for Home          $16,520,000       N/A       9/30/09          $13,070,000       $29,590,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                    Loan Modifications
6/17/09     RG Mortgage Corporation          San Juan         PR      Purchase      Financial Instrument for Home          $57,000,000       N/A       9/30/09         $(11,300,000)      $45,700,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                    Loan Modifications
6/19/09     First Federal Savings and Loan   Port Angeles     WA      Purchase      Financial Instrument for Home             $770,000       N/A
                                                                                    Loan Modifications
6/19/09     Wescom Central Credit Union      Anaheim          CA      Purchase      Financial Instrument for Home             $540,000       N/A       9/30/09             $330,000          $870,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                    Loan Modifications
6/26/09     Citizens First Wholesale         The Villages     FL      Purchase      Financial Instrument for Home               $30,000      N/A       9/30/09             $(10,000)          $20,000 Updated portfolio data from servicer & HPDP initial cap
            Mortgage Company                                                        Loan Modifications
6/26/09     Technology Credit                San Jose         CA      Purchase      Financial Instrument for Home               $70,000      N/A
            Union                                                                   Loan Modifications
6/26/09     National City Bank               Miamisburg       OH      Purchase      Financial Instrument for Home         $294,980,000       N/A       9/30/09        $315,170,000      $610,150,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                    Loan Modifications
7/1/09      Wachovia Mortgage, FSB           Des Moines       IA      Purchase      Financial Instrument for Home         $634,010,000       N/A       9/30/09        $723,880,000     $1,357,890,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                    Loan Modifications
7/1/09      Bayview Loan Servicing, LLC      Coral Gables     FL      Purchase      Financial Instrument for Home          $44,260,000       N/A       9/30/09          $23,850,000       $68,110,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                    Loan Modifications
7/10/09     Lake National Bank               Mentor           OH      Purchase      Financial Instrument for Home             $100,000       N/A       9/30/09             $150,000          $250,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                    Loan Modifications
7/10/09     IBM Southeast Employees’         Delray Beach     FL      Purchase      Financial Instrument for Home             $870,000       N/A       9/30/09             $(10,000)         $860,000 Updated portfolio data from servicer & HPDP initial cap
            Federal Credit Union                                                    Loan Modifications
7/17/09     MorEquity, Inc.                  Evansville       IN      Purchase      Financial Instrument for Home          $23,480,000       N/A       9/30/09          $18,530,000       $42,010,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                    Loan Modifications
7/17/09     PNC Bank, National               Pittsburgh       PA      Purchase      Financial Instrument for Home          $54,470,000       N/A       9/30/09        $(36,240,000)       $18,230,000 Updated portfolio data from servicer & HPDP initial cap       $22,419.57
            Association                                                             Loan Modifications
                                                                                                                                                                                                                                                                                    transaction detail I Appendix d I October 21, 2009




7/17/09     Farmers State Bank               West Salem       OH      Purchase      Financial Instrument for Home             $170,000       N/A       9/30/09             $(90,000)          $80,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                    Loan Modifications
                                                                                                                                                                                                                                                         continued on next page
                                                                                                                                                                                                                                                                                    213
HAMP Transaction Detail, as of 9/30/2009                                                                                                                                                                                                                                       214
                       Servicer Modifying Borrowers’ Loans                                                                                                                                          Adjustment Details
                                                                                                                        Cap of Incentive
                                                                                                                   Payments on Behalf
                                                                                                                   of Borrowers and to                                                                                                                              Market
                                                                    Transaction   Investment                      Servicers & Lenders/ Pricing       Adjustment   Cap Adjustment                                                                             Capitalization
Date      Name of Institution              City             State   Type          Description                          Investors (Cap) 1 Mechanism   Date                Amount       Adjusted Cap Reason for Adjustment                                       (in millions)
7/17/09   ShoreBank                        Chicago          IL      Purchase      Financial Instrument for Home            $1,410,000      N/A       9/30/09           $890,000        $2,300,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
7/22/09   American Home Mortgage           Coppell          TX      Purchase      Financial Instrument for Home       $1,272,490,000       N/A       9/30/09       $(53,670,000)   $1,218,820,000 Updated portfolio data from servicer & HPDP initial cap
          Servicing, Inc                                                          Loan Modifications
7/22/09   Mortgage Center, LLC             Southfield       MI      Purchase      Financial Instrument for Home            $4,210,000      N/A       9/30/09         $1,780,000        $5,990,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
7/22/09   Mission Federal Credit Union     San Diego        CA      Purchase      Financial Instrument for Home             $860,000       N/A       9/30/09          $(490,000)         $370,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
7/29/09   First Bank                       St. Louis        MO      Purchase      Financial Instrument for Home            $6,460,000      N/A       9/30/09        $(1,530,000)       $4,930,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
7/29/09   Purdue Employees Federal         West Lafayette   IN      Purchase      Financial Instrument for Home            $1,090,000      N/A       9/30/09           $(60,000)       $1,030,000 Updated portfolio data from servicer & HPDP initial cap
          Credit Union                                                            Loan Modifications
7/29/09   Wachovia Bank, N.A.              Charlotte        NC      Purchase      Financial Instrument for Home          $85,020,000       N/A       9/30/09       $(37,700,000)      $47,320,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
7/31/09   J.P.Morgan Chase Bank, NA        Lewisville       TX      Purchase      Financial Instrument for Home       $2,699,720,000       N/A       9/30/09       $(14,850,000)   $2,684,870,000 Updated portfolio data from servicer & HPDP initial cap     $172,325.35
                                                                                  Loan Modifications
7/31/09   EMC Mortgage Corporation         Lewisville       TX      Purchase      Financial Instrument for Home         $707,380,000       N/A       9/30/09           $(10,000)    $707,370,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
8/5/09    Lake City Bank                   Warsaw           IN      Purchase      Financial Instrument for Home             $420,000       N/A       9/30/09           $180,000          $600,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
8/5/09    Oakland Municipal Credit Union Oakland            CA      Purchase      Financial Instrument for Home             $140,000       N/A       9/30/09           $290,000          $430,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
                                                                                                                                                                                                                                                                               Appendix d I transaction detail I October 21, 2009




8/5/09    HomEq Servicing                  North Highlands CA       Purchase      Financial Instrument for Home         $674,000,000       N/A       9/30/09      $(121,190,000)    $552,810,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
8/12/09   Litton Loan Servicing LP         Houston          TX      Purchase      Financial Instrument for Home         $774,900,000       N/A       9/30/09       $313,050,000    $1,087,950,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
8/12/09   PennyMac Loan Services, LLC      Calasbasa        CA      Purchase      Financial Instrument for Home            $6,210,000      N/A       9/30/09        $(1,200,000)       $5,010,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
8/12/09   Servis One, Inc.                 Titusville       PA      Purchase      Financial Instrument for Home          $29,730,000       N/A       9/30/09       $(25,510,000)       $4,220,000 Updated portfolio data from servicer & HPDP initial cap
                                                                                  Loan Modifications
8/28/09   OneWest Bank                     Pasadena         CA      Purchase      Financial Instrument for Home         $668,440,000       N/A
                                                                                  Loan Modifications
8/28/09   Stanford Federal Credit Union    Palo Alto        CA      Purchase      Financial Instrument for Home             $300,000       N/A
                                                                                  Loan Modifications
8/28/09   RoundPoint Mortgage Servicing Charlotte           NC      Purchase      Financial Instrument for Home             $570,000       N/A
          Corporation                                                             Loan Modifications
9/2/09    Horicon Bank                     Horicon          WI      Purchase      Financial Instrument for Home             $560,000       N/A
                                                                                  Loan Modifications
9/2/09    Vantium Capital, Inc.            Plano            TX      Purchase      Financial Instrument for Home            $6,000,000      N/A
                                                                                  Loan Modifications
9/9/09    Central Florida Educators        Lake Mary        FL      Purchase      Financial Instrument for Home            $1,250,000      N/A
          Federal Credit Union                                                    Loan Modifications
9/9/09    U.S. Bank National Association   Owensboro        KY      Purchase      Financial Instrument for Home         $114,220,000       N/A
                                                                                  Loan Modifications
9/9/09    CUC Mortgage Corporation         Albany           NY      Purchase      Financial Instrument for Home            $4,350,000      N/A
                                                                                  Loan Modifications
9/11/09   ORNL Federal Credit Union        Oak Ridge        TN      Purchase      Financial Instrument for Home            $2,070,000      N/A
                                                                                  Loan Modifications
9/11/09   Allstate Mortgage Loans &        Ocala            FL      Purchase      Financial Instrument for Home             $250,000       N/A
          Investments, Inc.                                                       Loan Modifications
9/11/09   Metropolitan National Bank       Little Rock      AR      Purchase      Financial Instrument for Home             $280,000       N/A
                                                                                  Loan Modifications
9/11/09   Franklin Credit Management       Jersey City      NJ      Purchase      Financial Instrument for Home          $27,510,000       N/A
          Corporation                                                             Loan Modifications
9/16/09   Bay Federal Credit Union         Capitola         CA      Purchase      Financial Instrument for Home             $410,000       N/A
                                                                                  Loan Modifications
9/23/09   AMS Servicing, LLC               Buffalo          NY      Purchase      Financial Instrument for Home            $4,390,000      N/A
                                                                                  Loan Modifications
9/23/09   Schools Financial Credit Union   Sacramento       CA      Purchase      Financial Instrument for Home             $390,000       N/A
                                                                                  Loan Modifications
9/23/09   Glass City Federal Credit Union Maumee            OH      Purchase      Financial Instrument for Home             $230,000       N/A
                                                                                  Loan Modifications
9/23/09   Central Jersey Federal Credit    Woodbridge       NJ      Purchase      Financial Instrument for Home               $30,000      N/A
          Union                                                                   Loan Modifications
9/23/09   Yadkin Valley Bank               Elkin            NC      Purchase      Financial Instrument for Home             $240,000       N/A                                                                                                                         $75
                                                                                  Loan Modifications
                                                                                                                                                                                                                                                     continued on next page
HAMP Transaction Detail, as of 9/30/2009
                       Servicer Modifying Borrowers’ Loans                                                                                                                                                              Adjustment Details
                                                                                                                                  Cap of Incentive
                                                                                                                             Payments on Behalf
                                                                                                                             of Borrowers and to                                                                                                                                           Market
                                                                          Transaction      Investment                       Servicers & Lenders/ Pricing         Adjustment        Cap Adjustment                                                                                   Capitalization
Date       Name of Institution             City             State         Type             Description                           Investors (Cap) 1 Mechanism     Date                     Amount         Adjusted Cap Reason for Adjustment                                           (in millions)
9/25/09    SEFCU                           Albany           NY            Purchase         Financial Instrument for Home               $440,000        N/A
                                                                                           Loan Modifications
                                                                                                                           Total Initial Cap: $23,411,540,000                    Total Cap Adjustments: $3,654,220,000
                                                                                                                           TOTAL CAP: $27,065,760,000

Notes: Numbers affected by rounding. Data as of 9/30/2009. Numbered notes taken from Treasury’s 10/2/2009 Transactions Report containing data as of 9/30/2009.
1
  The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount
  allocated to the program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
  On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.

Source: Treasury, Transactions Report, 10/2/2009.
                                                                                                                                                                                                                                                                                                      transaction detail I Appendix d I October 21, 2009
                                                                                                                                                                                                                                                                                                      215
216           Appendix E I Cross Reference of Report to the Inspector General Act of 1978 | October 21, 2009




      Cross-Reference of Report to the Inspector General
      Act of 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

  Section    Statute (Inspector General Act of 1978)                 SIGTARP Action                               Report Reference
  Section    “Description of significant problems, abuses, and       List problems, abuses, and deficiencies      Section 1: “The Office of the SIGTARP”
  5(a)(1)    deficiencies... ”                                       from SIGTARP audits and investigations.      Section 5: “SIGTARP Recommendations”
             “Description of recommendations for corrective ac-
  Section                                                            List recommendations from SIGTARP            Section 1: “The Office of the SIGTARP”
             tion…with respect to significant problems, abuses,
  5(a)(2)                                                            audits and investigations.                   Section 5: “SIGTARP Recommendations”
             or deficiencies... ”
             “Identification of each significant recommendation      List all instances of incomplete correc-
  Section
             described in previous semiannual reports on which       tive action from previous semiannual         Section 5: “SIGTARP Recommendations”
  5(a)(3)
             corrective action has not been completed...”            reports.
             “A summary of matters referred to prosecutive
  Section                                                            List status of SIGTARP investigations
             authorities and the prosecutions and convictions                                                     Section 1: “The Office of the SIGTARP”
  5(a)(4)                                                            referred to prosecutive authorities.
             which have resulted... ”
             “A summary of each report made to the [Treasury
                                                                     List TARP oversight reports by Treasury,
  Section    Secretary] under section 6(b)(2)... ” (instances                                                     Appendix G: “Key Oversight Reports and
                                                                     FSOB, SEC, GAO, COP, OMB, CBO,
  5(a)(5)    where information requested was refused or not                                                       Testimonies”
                                                                     Federal Reserve, FDIC, and SIGTARP.
             provided)
             “A listing, subdivided according to subject matter,
  Section    of each audit report issued...” showing dollar value
                                                                     List SIGTARP audits.                         Section 1: “The Office of the SIGTARP”
  5(a)(6)    of questioned costs and recommendations that
             funds be put to better use.
  Section    “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                  Section 1: “The Office of the SIGTARP”
  5(a)(7)    report... ”                                             SIGTARP audits.
                                                                                                                  As detailed in Section 1, “The Office of the
             “Statistical tables showing the total number of audit   Provide statistical tables showing dollar
  Section                                                                                                         SIGTARP,” SIGTARP has made significant findings
             reports and the total dollar value of questioned        value of questioned costs from SIGTARP
  5(a)(8)                                                                                                         in its audit reports. However, to date SIGTARP’s
             costs... ”                                              audits.
                                                                                                                  audits have not included questioned costs findings.
                                                                                                                  As detailed in Section 1, “The Office of the
             “Statistical tables showing the total number of audit   Provide statistical tables showing dollar
  Section                                                                                                         SIGTARP,” SIGTARP has made important findings in
             reports and the dollar value of recommendations         value of funds put to better use by
  5(a)(9)                                                                                                         its audit reports. However, to date SIGTARP’s audits
             that funds be put to better use by management...”       management from SIGTARP audits.
                                                                                                                  have not included funds put to better use findings.
             “A summary of each audit report issued before
             the commencement of the reporting period for
             which no management decision has been made by           Provide a synopsis of significant
  Section
             the end of reporting period, an explanation of the      SIGTARP audit reports in which recom-        Section 1: “The Office of the SIGTARP”
  5(a)(10)
             reasons such management decision has not been           mendations by SIGTARP are still open.
             made, and a statement concerning the desired
             timetable for achieving a management decision...”
                                                                                                                  As detailed in Section 1: “The Office of the
                                                                                                                  SIGTARP,” and Section 5: “SIGTARP Recommenda-
                                                                     Explain audit reports in which significant   tions,” SIGTARP has made noteworthy recom-
  Section    “A description and explanation of the reasons for
                                                                     revisions have been made to manage-          mendations in its audit reports, and the majority
  5(a)(11)   any significant revised management decision...”
                                                                     ment decisions.                              of these recommendations have been agreed to.
                                                                                                                  To date, no management decisions have been
                                                                                                                  revised.
             “Information concerning any significant manage-                                                      See discussion of Use of Funds Audit in Section 1:
  Section                                                            Provide information where management
             ment decision with which the Inspector General is in                                                 “The Office of the SIGTARP,” and Section 5:
  5(a)(12)                                                           disagreed with a SIGTARP audit finding.
             disagreement...”                                                                                     “SIGTARP Recommendations.”
                                                                                        correspondence I Appendix H I OCTOBER 21, 2009   217




correspondence
This appendix provides copies of the following correspondence:

Correspondence
Date           From             To                Regarding
                                                  Management Alert Regarding Possible MHA Program Internal
7/10/2009      SIGTARP          Treasury
                                                  Weaknesses
                                Treasury          Issuance of Instructions Regarding Communication with Outside
9/10/2009      Treasury Staff
                                General Counsel   Persons About EESA Funds and Recovery Act Funds
                                                  Response to Recommendations Contained in SIGTARP’s July 21,
9/25/2009      SIGTARP          Treasury
                                                  2009 Quarterly Report
10/2/2009      SIGTARP          Treasury          HAMP Streamlined Borrower Evaluation Process
                                                  Response to SIGTARP Recommendations on Treasury’s changes
10/15/09       Treasury         SIGTARP
                                                  to the HAMP streamlined Borrower Evaluation Process
10/19/2009     Treasury         SIGTARP           SIGTARP October Quarterly Report
218   Appendix H I correspondence I OCTOBER 21, 2009
correspondence I Appendix H I OCTOBER 21, 2009   219
                                                                                                                                                                                                             220




                                                                                                       Standard MHA Request Form

Supplemental Directive 09-07                                                October 8, 2009            Effective immediately, borrowers who want to be considered for HAMP may complete and
                                                                                                       submit to their servicer a RMA, a copy of which is attached to this Supplemental Directive as
                                                                                                       Exhibit A. All documents and forms described herein are posted on www.HMPadmin.com. The
Home Affordable Modification Program – Streamlined Borrower                                            RMA, which includes a new borrower financial information section, is intended to replace in
Evaluation Process                                                                                     their entirety the current Hardship Affidavit and the SIGTARP notice, as well as elements from
                                                                                                       the current Trial Period Plan.
Background                                                                                             Servicers may require use of the RMA by all borrowers requesting consideration under HAMP
                                                                                                       or may continue to use other proprietary financial information forms that are substantially similar
In Supplemental Directive 09-01, the Treasury Department (Treasury) announced the eligibility,         in content to the RMA. When provided by or on behalf of the borrower, the RMA must be
underwriting and servicing requirements for the Home Affordable Modification Program                   accepted by servicers in lieu of any servicer specific form(s). When the RMA is not used,
(HAMP). Under HAMP, servicers apply a uniform loan modification process to provide eligible            servicers must obtain an executed MHA Hardship Affidavit, an updated version of which
borrowers with affordable monthly payments for their first lien mortgage loans. This                   (including the SIGTARP notice) is attached as Exhibit B. The use of “RMA” throughout the
Supplemental Directive represents an ongoing effort to improve process efficiency by updating          remainder of this Supplemental Directive shall refer to the RMA or its equivalent.
the borrower underwriting requirements in Supplemental Directive 09-01 and introducing
                                                                                                                                                                                                             Appendix H I correspondence I OCTOBER 21, 2009




revised model documentation for the program. The objectives of these changes are to streamline
the program documentation requirements and standardize the evaluation process that servicers           Borrower Income/Asset Documentation and Verification
use to make a HAMP eligibility determination.
                                                                                                       The following information replaces in its entirety the guidance in Supplemental Directive 09-01,
The significant changes described in this Supplemental Directive include:                              on pages 5 through 8, under the heading “Underwriting —Verifying Borrower Income and
                                                                                                       Occupancy Status.” The portions of that section that are in italics below are not changed from
                                                                                                       Supplemental Directive 09-01 but are included here for ease of reference.
       The creation of a standard MHA Request for Modification and Affidavit form (RMA)
       that incorporates borrower income and expense information, a revised Hardship
                                                                                                       Verbal and Verified Income Analysis
       Affidavit, the SIGTARP fraud notice and portions of the current Home Affordable
                                                                                                       There are two forms of Trial Period Plan Notices (TPP Notices) for use by servicers: stated
       Modification Trial Period Plan;
                                                                                                       income and verified income. They should be prepared as follows:
       Updated and simplified income documentation and verification requirements;
       The conversion of the current Trial Period Plan to a notice that does not require a
                                                                                                               Servicers may use recent verbal financial information obtained from the borrower (the
       borrower signature; and
                                                                                                               term “borrower” includes any co-borrower) to assess the borrower’s eligibility for a trial
       Standardized borrower response timeframes.                                                              period plan. A servicer may rely on this information to prepare and send to the borrower
                                                                                                               a TPP Notice (stated income), attached as Exhibit C. Following receipt of a completed
The changes under the heading “Borrower Income/Asset Documentation and Verification” in                        and signed RMA and income or other required documentation, the servicer must verify
this Supplemental Directive are effective immediately for loans that are currently in a HAMP                   the borrower’s financial information and eligibility, including completing a final Net
trial period where income has not yet been verified or for loans that are evaluated for HAMP on                Present Value (NPV) evaluation.
or after the date of this Supplemental Directive. The requirements under the heading “Servicer
Response” in this Supplemental Directive are effective for loans that begin a trial period after the
                                                                                                               As an alternative, a servicer may require a borrower to submit the RMA and all required
date of this Supplemental Directive. The new forms outlined in this document, with the
                                                                                                               income or other documentation to verify the borrower’s financial information and
exception of the RMA (the use of which is addressed below), may be utilized immediately but
                                                                                                               eligibility prior to issuing a TPP Notice (verified income), attached as Exhibit D.
must be in use by March 1, 2010. Servicers should continue to use the Home Affordable
Modification Cover Letter and Home Affordable Modification Agreement when providing the
                                                                                                       A borrower’s income documentation may not be more than 90 days old as of the date that such
borrower with an agreement that outlines the terms of the final modification.
                                                                                                       documentation is received by the servicer in connection with evaluating a mortgage loan for
                                                                                                       HAMP. There is no requirement to refresh such documentation during the remainder of the trial
                                                                                                       period.




                                                                                                       Supplemental Directive 09-07                                                                 Page 2
Debt to Income Calculation                                                                            Information Documentation
The borrower will only qualify for HAMP if the verified income documentation confirms that the        Servicers are responsible for determining that any information provided by the borrower and
monthly mortgage payment ratio prior to the modification is greater than 31 percent. The              which is needed to evaluate the request is complete and accurate. Servicers should request that
“monthly mortgage payment ratio” is the ratio of the borrower’s current monthly mortgage              the borrower provide the documentation listed below, but may, consistent with investor
payment to the borrower’s monthly gross income (or the borrowers’ combined monthly gross              guidelines, substitute other reliable forms of verification when appropriate.
income in the case of co-borrowers). The “monthly mortgage payment” includes the monthly
payment of principal, interest, property taxes, hazard insurance, flood insurance, condominium        IRS Form 4506-T
association fees and homeowner’s association fees, as applicable (including any escrow payment        All borrowers must provide a signed and completed IRS Form 4506-T (Request for Transcript of
shortage amounts subject to a repayment plan). When determining a borrower’s monthly                  Tax Return). A servicer must submit the borrower’s Form 4506-T to the IRS for processing
mortgage payment ratio, servicers must adjust the borrower’s current mortgage payment to              unless the borrower provides a signed copy of his or her most recent federal income tax return,
include, as applicable, property taxes, hazard insurance, flood insurance, condominium                including all schedules and forms (the federal income tax return and all schedules and forms
association fees and homeowner’s association fees if these expenses are not already included in       shall be referred to herein as the federal income tax return). A servicer also must submit the
the borrower’s payment. The monthly mortgage payment does not include mortgage insurance              borrower’s Form 4506-T to the IRS for processing when required by the Compliance Agent.
premium payments or payments due to holders of subordinate liens.
                                                                                                      The servicer should review the tax information for all borrowers to help verify income and
Analysis of ARM Resets                                                                                identify discrepancies. If the tax information identifies income relevant to the HAMP decision
With respect to adjustable rate loans where there is a rate reset scheduled within 120 days after     that the borrower did not disclose on the RMA, the servicer must obtain other documentation to
the date of the evaluation (a “Reset ARM”), the monthly mortgage payment used to determine            reconcile the inconsistency. In resolving inconsistencies servicers must use reasonable business
eligibility will be the greater of (i) the borrower’s current scheduled monthly mortgage payment      judgment to determine whether such income is no longer being earned or has been reduced to the
or (ii) a fully amortizing monthly mortgage payment based on the note reset rate using the index      amounts disclosed on an RMA.
value as of the date of the evaluation (the “Reset Interest Rate”). With respect to adjustable rate
loans that reset more than 120 days after the date of the evaluation, the borrower’s current          Credit Report and Occupancy Verification
scheduled monthly mortgage payment will be used to determine eligibility.                             In all cases, the servicer must obtain a credit report for each borrower or a joint report for a
                                                                                                      married couple who are co-borrowers to validate installment debt and other liens as described on
Monthly Gross Income                                                                                  page 10 of Supplemental Directive 09-01. Servicers should use the credit report to confirm that
The borrower’s “monthly gross income” is the borrower’s income amount before any payroll              the property securing the mortgage loan is the borrower’s principal residence. The servicer is no
deductions and includes wages and salaries, overtime pay, commissions, fees, tips, bonuses,           longer required to verify the borrower’s principal residence using other documentation. If the
housing allowances, other compensation for personal services, Social Security payments,               credit report is inconsistent with other information provided by the borrower, the servicer must
including Social Security and adoption subsidies received by adults on behalf of minors or by         reconcile the inconsistency.
minors intended for their own support, and monthly income from annuities, insurance policies,
retirement funds, pensions, disability or death benefits, unemployment benefits, rental income        Income Documentation
and other income. If only net income is available, the servicer must multiply the net income          Based on the type and source of a borrower’s income, the servicer will obtain and review the
amount by 1.25 to estimate the monthly gross income. All non-taxed income, including non-             following documents to verify borrower financial information:
taxed social security income, is considered net income.
                                                                                                              Tax Return. A borrower in imminent default may, in accordance with investor
Servicers should include non-borrower household income in monthly gross income if it is                       guidelines, be required to provide a signed copy of his or her most recent federal income
voluntarily provided by the borrower and if there is documentary evidence that the income has                 tax return. All other borrowers may elect to provide signed federal income tax returns
been, and reasonably can continue to be, relied upon to support the mortgage payment. All non-                but are not required to do so. Whenever a borrower does not provide a tax return, the
borrower household income included in monthly gross income must be documented and verified                    servicer must obtain the borrower’s tax return transcript by submitting the borrower’s
by the servicer using the same standards for verifying a borrower’s income.                                   Form 4506-T to the IRS for processing as provided above.

The servicer may not require a borrower to make an up-front cash contribution (other than the                 Employment Income. Copies of the two most recent paystubs indicating year-to-date
first trial period payment) for the borrower to be considered for HAMP.                                       earnings.

                                                                                                              Self-employment Income. The most recent quarterly or year-to-date profit and loss
                                                                                                              statement for each self-employed borrower.
                                                                                                                                                                                                          correspondence I Appendix H I OCTOBER 21, 2009




Supplemental Directive 09-07                                                                 Page 3   Supplemental Directive 09-07                                                               Page 4
                                                                                                                                                                                                          221
                                                                                                                                                                                                              222
        Other earned income (e.g., bonus, commission, fee, housing allowance, tips, overtime).        valuation documentation. Property value information must be less than 90 days old on the date
        Reliable third party documentation describing the nature of the income (e.g. an               the servicer first evaluates the borrower for a HAMP trial period plan using the NPV model. The
        employment contract or printouts documenting tip income).                                     information will remain valid for the duration of the trial period and does not need to be updated
                                                                                                      for any subsequent NPV evaluation.
        Benefit Income (e.g., social security, disability, death benefits, pension, public
                                                                                                      Document Perfection
        assistance, adoption assistance). Evidence of (i) the amount and frequency of the
                                                                                                      Servicers must use good business judgment when determining the level of perfection of the
        benefits such as letters, exhibits, a disability policy or benefits statement from the
                                                                                                      verification documents. Servicers may elect to accept documents with imperfections (blank
        provider, and (ii) receipt of payment, such as copies of the two most recent bank
                                                                                                      fields, erasures, use of correction tape, inaccurate dates, etc.) if the servicer determines that the
        statements showing deposit amounts.
                                                                                                      imperfections are immaterial to the business decision, are not indicative of fraud and do not
                                                                                                      impact the servicer’s ability to verify the completeness and accuracy of the borrower’s financial
        Unemployment Benefits. Evidence of the amount, frequency and duration of the
                                                                                                      representations.
        benefits (usually obtained through a monetary determination letter). The unemployment
        income must continue for at least nine months from the date of the application. The
                                                                                                      Borrower Signatures
        duration of benefit eligibility – including federal and state extensions – may be evidenced
                                                                                                      Unless a borrower or co-borrower is deceased or divorced, all parties who signed the original
        by a screenshot or printout from the Department of Labor UI benefit tool, which is
                                                                                                      loan documents or their duly authorized representative(s) should sign the HAMP documents.
        available at http://www.ows.doleta.gov/unemploy/ben_entitle.asp.
                                                                                                      Servicers may encounter circumstances where a co-borrower signature is not obtainable, for
                                                                                                      reasons such as mental incapacity, military deployment or contested divorce. Servicer should
        Rental income. Rental income should be documented through the Schedule E –                    look to investor guidance when determining whether to accept a document without a co-
        Supplemental Income and Loss of the most recent tax year. If the borrower is using            borrower’s signature.
                                                                                                                                                                                                              Appendix H I correspondence I OCTOBER 21, 2009




        income from the rental of a portion of the borrower’s principal residence, the income
        should be calculated at 75 percent of the monthly gross rental income, with the remaining     Electronic Submission
        25 percent considered vacancy loss and maintenance expense. If the borrower is using          For all documents required by Treasury (other than for IRS Form 4506-T), electronic submission
        rental income from properties other than the borrower’s principal residence, the income       and signatures are acceptable.
        to be calculated for HAMP purposes should be 75 percent of the monthly gross rental
        income, reduced by the monthly debt service on the property (i.e., principal, interest,       Fraud Detection
        taxes, insurance, including mortgage insurance, and association fees), if applicable. The     Servicers should not modify a mortgage loan if there is reasonable evidence indicating the
        needed tax forms can be obtained either through a signed and executed 4506-T or the           borrower submitted income information that is false or misleading or if the borrower otherwise
        signed copy of the most recent federal income tax return if provided by the borrower.         engaged in fraud in connection with the modification.
        Alimony, Separation Maintenance, and Child Support Income. Borrowers are not                  Fannie Mae, in its capacity as a financial agent for the Treasury, will establish a fraud detection
        required to use alimony, separation maintenance or child support income to qualify for        surveillance procedure using reported trial period data. When discrepancies or potential
        HAMP. However, if the borrower chooses to provide this income, it should be                   misrepresentations are identified, servicers will be notified during the trial period and will be
        documented with (i) copies of the divorce decree, separation agreement or other legal         required to take appropriate action to resolve the discrepancy prior to executing a final
        written agreement filed with a court, or a court decree that provides for the payment of      modification.
        alimony or child support and states the amount of the award and the period of time over
        which it will be received, and (ii) evidence of receipt of payment, such as copies of the     Document Retention
        two most recent bank statements showing deposit amounts.                                      The document retention requirements described on pages 13 and 14 of Supplemental Directive
                                                                                                      09-01 remain in effect. Additionally, servicers must make all documentation related to HAMP
        20% Threshold for Passive and Non-Wage Income. Notwithstanding the foregoing, all             program available to Freddie Mac, as compliance agent for Treasury.
        passive and non-wage income (including rental, part-time employment, bonus/tip,
        investment and benefit income) does not have to be documented if the borrower
        declares such income and it constitutes less than 20% of the borrower’s total income.         Trial Period Plan Notices

Property Valuation Documentation                                                                      As described above, revised and updated TPP Notices are attached and replace the current cover
Page 5 of Supplemental Directive 09-01 describes requirements for assessing property value for        letters and current Trial Period Plan. The TPP Notices describe the terms and conditions of the
use in the NPV model. This supplemental directive amends the aging requirement for property           trial period plan and must be sent to borrowers as noted below in the section titled, “Servicer


                                                                                                      Supplemental Directive 09-07                                                                   Page 6
Supplemental Directive 09-07                                                                 Page 5
Response”. Borrowers are not required to sign or return the TPP Notice. Servicers should retain
a copy of the TPP Notice in the borrower file and note the date that it was sent to the borrower.
Timely receipt of the first payment under the TPP Notice is evidence of the borrower’s
acceptance of the trial period plan and its terms and conditions.

A borrower in a trial period plan who makes all required trial period payments, but does not sign
and return current trial period plan prior to the end of the trial period, may receive a HAMP
modification as long as the servicer has received all required trial period plan payments and all
other HAMP-required documentation from the borrower, including a fully executed Home
Affordable Modification Agreement.

Servicer Response
Within 10 business days following receipt of borrower financial information verbally or in a
completed RMA, the servicer must acknowledge the borrower’s request for HAMP participation
by sending the borrower one of the following documents:

        The stated income TPP Notice -- if the servicer is evaluating borrower eligibility based
        on verbal income information and is prepared to offer the borrower a trial period plan.

        A written notice with information describing HAMP and including appropriate forms and
        a list of verification documents and a specific date by which documentation must be                         Exhibit A
        received -- if the servicer is evaluating borrower eligibility based on verified income      MHA Request for Modification and Affidavit
        information.

        If the servicer determines that a borrower cannot be approved for a trial period plan, the
        servicer must communicate that determination to the borrower in writing and consider the
        borrower for another foreclosure prevention alternative.

Within 30 calendar days following the servicer’s receipt of a completed RMA, Form 4506-T
and all required income and other information (including all required documentation and either
the borrower's tax transcript or tax return when using the verified approach), the servicer must
complete its evaluation of borrower eligibility and notify the borrower of its determination as
follows:

        If the servicer determines that the borrower is approved for a trial period plan, the
        servicer must either:
            Send a TPP Notice (verified income) to the borrower, or
            If the borrower is currently in a trial period plan pursuant to a stated income TPP
            Notice, send a written notice that the borrower has been approved for a HAMP
            modification pending timely receipt of all trial period payments.
        If the servicer determines that a borrower cannot be approved for a trial period plan, the
        servicer must communicate that determination to the borrower in writing and consider the
        borrower for another foreclosure prevention alternative.
                                                                                                                                                  correspondence I Appendix H I OCTOBER 21, 2009




Supplemental Directive 09-07                                                                Page 7
                                                                                                                                                  223
                                                                                                                                                                                                                                                                                                                                 224

                                                                                          Making Home Affordable Program                                                                        INCOME/EXPENSES FOR HOUSEHOLD*
                                                                                       Request For Modification and Affidavit (RMA)                                                                            Number of People in Household ___________
                                                                                                                                                                          1                                                     2                                                          3
                                               Loan I.D. Number __________________________                                                                     Monthly Household Income                           Monthly Household Expenses/Debt                                    Household Assets
I want to:                                          Keep the Property                 Sell the Property                                                Monthly Gross wages              $                      First Mortgage Payment        $                        Checking Account(s)            $
The property is my:                                 Primary Residence                  Second Home                 Investment                          Overtime                         $                      Second Mortgage Payment       $                        Checking Account(s)            $
The property is:                                    Owner Occupied                     Renter occupied             Vacant
                                                                                                                                                       Child Support / Alimon y*        $                      Insurance                     $                        Saving s/ Money Market         $
                         BORROWER                                                                  CO-BORROWER
                                                                                                                                                       Social Security/SSDI             $                      Property Taxes                $                        CDs                            $
BORROWER’S NAME                                                      CO-BORROWER’S NAME
                                                                                                                                                       Other monthly income from        $                      Credit Cards / Installment    $                        Stocks / Bonds                 $
SOCIAL SECURITY NUMBER                 DATE OF BIRTH                 SOCIAL SECURITY NUMBER                            DATE OF BIRTH                   pensions, annuities or                                  Loan(s) (total minimum
                                                                                                                                                       retirement plans                                        payment per month)
HOME PHONE NUMBER WITH AREA CODE                                     HOME PHONE NUMBER WITH AREA CODE
                                                                                                                                                       Tips, commissions, bonus and     $                      Alimony, child support        $                        Other Cash on Hand             $
                                                                                                                                                       self-employed income                                    payments
CELL OR WORK NUMBER WITH AREA CODE                                   CELL OR WORK NUMBER WITH AREA CODE
                                                                                                                                                       Rents Received                   $                      Net Rental Expenses           $                        Other Real Estate              $
MAILING ADDRESS                                                                                                                                                                                                                                                       (estimated value)
                                                                                                                                                       Unemployment Income              $                      HOA/Condo Fees/Property       $                        Other ________________         $
PROPERTY ADDRESS (IF SAME AS MAILING ADDRESS, JUST WRITE SAME)                                                            EMAIL ADDRESS                                                                        Maintenance                                            _____________________
                                                                                                                                                       Food Stamps/Welfare              $                      Car Payments                  $                                                       $

Is the property listed for sale?    Yes No                           Have you contacted a credit-counseling agency for help?                           Other (investment income,        $                      Other ________________        $                        Do not include the value of life insurance or retirement
Have you received an offer on the property?    Yes No                  Yes             No                                                              royalties, interest, dividends                          _____________________                                  plans when calculating assets (401k, pension funds,
Date of offer _________ Amount of Offer $_________                   If yes, please complete counselor contact information below.
                                                                                                                                                                                                                                                                                                                                 Appendix H I correspondence I OCTOBER 21, 2009




                                                                                                                                                       etc) ________________                                                                                          annuities, IRAs, Keogh plans, etc.)
Agent’s Name:                                                        Counselor’s Name:
                                                                                                                                                       _____________________
Agent’s Phone Number:                                                Counselor’s Phone Number:
For Sale by Owner?            Yes     No                             Counselor’s Email:                                                                Total (Gross income)             $                      Total Debt/Expenses           $                        Total Assets                   $

Who pays the Real Estate Tax bill on your property?                  Who pays the hazard insurance policy for your property?                                                                            * * * * * ALL INCOME MUST BE DOCUMENTED * * * * * *
    I do    Lender does                                                 I do    Lender Does Paid by Condo or HOA                                       * Include combined income and expenses from the borrower and co-borrower (if any). If you include income and expenses from a household
Are the taxes current?            Yes     No                         Is the policy current?   Yes      No
Condominium or HOA Fee            Yes     No $ _______               Name of Insurance Co. ____________________________________                            member who is not a borrower please specify using the back of this form if necessary. You are not required to disclose Child Support,
Paid to: ____________________________________                        Insurance Co. Tel #: ______________________________________                                                Alimony or Separation Maintenance income, unless you choose to have it considered by your servicer.
Have you filed for bankruptcy?        Yes No        If yes:           Chapter 7   Chapter 13      Filing Date:_______________
Has your bankruptcy been discharged?             Yes No                    Bankruptcy case number _____________________
                                                                                                                                                                                            INFORMATION FOR GOVERNMENT MONITORING PURPOSES
  If there are additional Liens/Mortgages or Judgments on this property, please name the person(s), company or firm and their telephone numbers.       The following information is requested by the federal government in order to monitor compliance with federal statutes that prohibit discrimination in
  Lien Holder’s Name/Servicer                        Balance                             Contact Number                        Loan Number             housing. You are not required to furnish this information, but are encouraged to do so. The law provides that a lender or servicer may not
                                                                                                                                                       discriminate either on the basis of this information, or on whether you choose to furnish it. If you furnish the information, please provide both
                                                                                                                                                       ethnicity and race. For race, you may check more than one designation. If you do not furnish ethnicity, race, or sex, the lender or servicer is required
                                                                                                                                                       to note the information on the basis of visual observation or surname if you have made this request for a loan modification in person. If you do not
                                                                                                                                                       wish to furnish the information, please check the box below.
                              HARDSHIP AFFIDAVIT (use back of request for explanation IF necessary)
                                                                                                                                                       BORROWER                I do not wish to furnish this information                 CO-BORROWER    I do not wish to furnish this information
I (We) am/are requesting review under the Making Home Affordable program. I am having difficulty making my monthly payment because of                  Ethnicity:            Hispanic or Latino                                          Ethnicity:      Hispanic or Latino
financial difficulties created by (Please check all that apply):                                                                                                             Not Hispanic or Latino                                                      Not Hispanic or Latino
                                                                                                                                                       Race:                American Indian or Alaska Native                             Race:           American Indian or Alaska Native
                                                                                                                                                                            Asian                                                                       Asian
   My household income has been reduced. For example                My monthly debt payments are excessive and I am overextended with my                                    Black or African American                                                   Black or African American
unemployment, underemployment, reduced pay or hours, decline creditors. Debt includes credit cards, home equity or other debt.                                              Native Hawaiian or Other Pacific Islander                                   Native Hawaiian or Other Pacific Islander
in business earnings, death, disability or divorce of a borrower or                                                                                                         White                                                                        White
co-borrower.                                                                                                                                           Sex:                 Female                                                       Sex:           Female
                                                                                                                                                                           Male                                                                         Male
   My expenses have increased. For example: monthly mortgage          My cash reserves, including all liquid assets, are insufficient to maintain my   To be Completed by Interviewer                  Interviewer’s Name (print or type) & ID Number      Name/Address of Interviewer’s Employer
payment reset, high medical or health care costs, uninsured losses, current mortgage payment and cover basic living expenses at the same time.         This application was taken by:
                                                                                                                                                           Face-to-face interview                      Interviewer’s Signature               Date
increased utilities or property taxes.                                                                                                                     Mail                                        ___________________________________________
                                                                                                                                                           Telephone                                   Interviewer’s Phone Number (include area code)
   Other ______________________________________________________________________________________________________________                                    Internet

Explanation (continue on back of page 3 if necessary): ________________________________________________________________________

______________________________________________________________________________________________________________________
                                              ACKNOWLEDGEMENT AND AGREEMENT

In making this request for consideration under the Making Home Affordable Program I certify under
penalty of perjury:

     1.   That all of the information in this document is truthful and the event(s) identified on page 1 is/are the reason that I need to
          request a modification of the terms of my mortgage loan, short sale or deed-in-lieu of foreclosure.
     2.   I understand that the Servicer, the U.S. Department of the Treasury, or its agents may investigate the accuracy of my
          statements, may require me to provide supporting documentation. I also understand that knowingly submitting false
          information may violate Federal law.
     3.   I understand the Servicer will pull a current credit report on all borrowers obligated on the Note.
     4.   I understand that if I have intentionally defaulted on my existing mortgage, engaged in fraud or misrepresented any fact(s) in
          connection with this document, the Servicer may cancel any Agreement under Making Home Affordable and may pursue
          foreclosure on my home.
     5.   That: my property is owner-occupied; I intend to reside in this property for the next twelve months; I have not received a
          condemnation notice; and there has been no change in the ownership of the Property since I signed the documents for the
          mortgage that I want to modify.
     6.   I am willing to provide all requested documents and to respond to all Servicer questions in a timely manner.
     7.   I understand that the Servicer will use the information in this document to evaluate my eligibility for a loan modification or
          short sale or deed-in-lieu of foreclosure, but the Servicer is not obligated to offer me assistance based solely on the statements
          in this document.
     8.   I understand that the Servicer will collect and record personal information, including, but not limited to, my name, address,
          telephone number, social security number, credit score, income, payment history, government monitoring information, and
          information about account balances and activity. I understand and consent to the disclosure of my personal information and
          the terms of any Making Home Affordable Agreement by Servicer to (a) the U.S. Department of the Treasury, (b) Fannie
          Mae and Freddie Mac in connection with their responsibilities under the Homeowner Affordability and Stability Plan; (c) any               Exhibit B
          investor, insurer, guarantor or servicer that owns, insures, guarantees or services my first lien or subordinate lien (if
          applicable) mortgage loan(s); (d) companies that perform support services in conjunction with Making Home Affordable; and
                                                                                                                                               MHA Hardship Affidavit
          (e) any HUD certified housing counselor.

          _________________________ ___________                                           _________________________ __________
          Borrower Signature        Date                                                  Co-Borrower Signature     Date

    If you have questions about this document or the modification process, please call your servicer at
__________________. If you have questions about the program that your servicer cannot answer or need
  further counseling, you can call the Homeowner’s HOPE™ Hotline at 1-888-995-HOPE (4673). The
 Hotline can help with questions about the program and offers free HUD-certified counseling services in
                                          English and Spanish.




                                      NOTICE TO BORROWERS
Be advised that you are signing the following documents under penalty of perjury. Any misstatement of material fact
made in the completion of these documents including but not limited to misstatement regarding your occupancy in
your home, hardship circumstances, and/or income will subject you to potential criminal investigation and prosecution
for the following crimes: perjury, false statements, mail fraud, and wire fraud. The information contained in these
documents is subject to examination and verification. Any potential misrepresentation will be referred to the
appropriate law enforcement authority for investigation and prosecution.
By signing the enclosed documents you certify, represent and agree that:
“Under penalty of perjury, all documents and information I have provided to Lender in connection with this Agreement,
including the documents and information regarding my eligibility for the program, are true and correct.”

If you are aware of fraud, waste, abuse, mismanagement or misrepresentations affiliated with the Troubled Asset
Relief Program, please contact the SIGTARP Hotline by calling 1-877-SIG-2009 (toll-free), 202-622-4559 (fax), or
www.sigtarp.gov. Mail can be sent to Hotline Office of the Special Inspector General for Troubled Asset Relief
Program, 1801 L St. NW, Washington, DC 20220.
                                                                                                                                                                        correspondence I Appendix H I OCTOBER 21, 2009
                                                                                                                                                                        225
                                                                                                                                                                                                                                                                                                               226

                                                                                                Making Home Affordable Program
                                                                                                                                           Hardship Affidavit
                                                                                                                                                                                                               ACKNOWLEDGEMENT AND AGREEMENT


BORROWER’S NAME                                                                    CO-BORROWER’S NAME                                                           In making this request for consideration under the Making Home Affordable Program I certify under
                                                                                                                                                                penalty of perjury:
SOCIAL SECURITY NUMBER                     DATE OF BIRTH                           SOCIAL SECURITY NUMBER                          DATE OF BIRTH
                                                                                                                                                                    1.    That all of the information in this document is truthful and the event(s) identified on page 1 is/are the reason that I need to
LOAN SERVICER                                                                      LOAN NUMBER                                                                            request a modification of the terms of my mortgage loan, short sale or deed-in-lieu of foreclosure.
                                                                                                                                                                    2.    I understand that the Servicer, the U.S. Department of the Treasury, or its agents may investigate the accuracy of my
PROPERTY ADDRESS (include city, state and zip):                                                                                                                           statements, may require me to provide supporting documentation, and that knowingly submitting false information may
                                                                                                                                                                          violate Federal law and may result in foreclosure.
                                                                                                                                                                    3.    I understand the Servicer will pull a current credit report on all borrowers obligated on the Note.
I want to:                                                 Keep the Property                Sell the Property                                                       4.    I understand that if I have intentionally defaulted on my existing mortgage, engaged in fraud or misrepresented any fact(s) in
The property is my:                                        Primary Residence                 Second Home                     Investment Property                          connection with this document, the Servicer may cancel any Agreement under the Home Affordable Modification Program
The property is:                                           Owner Occupied                    Renter occupied                 Vacant                                       and may pursue foreclosure on my home.
                                                                                                                                                                    5.    I certify that: my property is owner-occupied; I intend to reside in this property for the next twelve months; I have not
                                                                  HARDSHIP AFFIDAVIT
                                                                                                                                                                          received a condemnation notice; and there has been no change in the ownership of the Property since I signed the documents
I (We) am/are requesting review under the Making Home Affordable program. I am having difficulty making my monthly payment because of                                     for the mortgage that I want to modify.
financial difficulties created by (Please check all that apply):                                                                                                    6.    I am willing to provide all requested documents and to respond to all Servicer questions in a timely manner.
                                                                                                                                                                    7.    I understand that the Servicer will use the information in this document to evaluate my eligibility for a loan modification or
   My household income has been reduced. For example                  My monthly debt payments are excessive and I am overextended with my                                short sale or deed-in-lieu of foreclosure, but the Servicer is not obligated to offer me assistance based solely on the statements
unemployment, underemployment, reduced pay or hours, decline creditors. Debt includes credit cards, home equity or other debt.                                            in this document.
in business earnings, death, disability or divorce of a borrower or
                                                                                                                                                                    8.    I understand that Servicer will collect and record personal information, including, but not limited to, my name, address,
co-borrower.
                                                                                                                                                                          telephone number, social security number, credit score, income, payment history, government monitoring information, and
                                                                                                                                                                                                                                                                                                               Appendix H I correspondence I OCTOBER 21, 2009




   My expenses have increased. For example: monthly mortgage          My cash reserves, including all liquid assets, are insufficient to maintain the
payment reset, high medical or health care costs, uninsured losses, payment on my mortgage loan and cover basic living expenses at the same time.                         information about account balances and activity. I understand and consent to the disclosure of my personal information and
increased utilities or property taxes.                                                                                                                                    the terms of any Making Home Affordable Agreement by Servicer to (a) the U.S. Department of the Treasury, (b) Fannie
                                                                                                                                                                          Mae and Freddie Mac in connection with their responsibilities under the Homeowner Affordability and Stability Plan; (c) any
   Other ______________________________________________________________________________________________________________                                                   investor, insurer, guarantor or servicer that owns, insures, guarantees or services my first lien or subordinate lien (if
                                                                                                                                                                          applicable) mortgage loan(s); (d) companies that perform support services in conjunction with Making Home Affordable; and
Explanation (attach another page if necessary): ______ ________________________________________________________________________
                                                                                                                                                                          (e) any HUD certified housing counselor.
______________________________________________________________________________________________________________________
                                                                                                                                                                          _________________________ ___________                                            _________________________ __________
                                                                                                                                                                          Borrower Signature        Date                                                   Co-Borrower Signature     Date

                                    INFORMATION FOR GOVERNMENT MONITORING PURPOSES                                                                                  If you have questions about this document or the modification process, please call your servicer at
The following information is requested by the federal government in order to monitor compliance with federal statutes that prohibit discrimination in           __________________. If you have questions about the program that your servicer cannot answer or need
housing. You are not required to furnish this information, but are encouraged to do so. The law provides that a lender or servicer may not                        further counseling, you can call the Homeowner’s HOPE™ Hotline at 1-888-995-HOPE (4673). The
discriminate either on the basis of this information, or on whether you choose to furnish it. If you furnish the information, please provide both
ethnicity and race. For race, you may check more than one designation. If you do not furnish ethnicity, race, or sex, the lender or servicer is required
                                                                                                                                                                 Hotline can help with questions about the program and offers free HUD-certified counseling services in
to note the information on the basis of visual observation or surname if you have made this request for a loan modification in person. If you do not                                                      English and Spanish.
wish to furnish the information, please check the box below.

BORROWER            I do not wish to furnish this information              CO-BORROWER         I do not wish to furnish this information
Ethnicity:         Hispanic or Latino                                      Ethnicity:           Hispanic or Latino
                   Not Hispanic or Latino                                                       Not Hispanic or Latino
Race:             American Indian or Alaska Native                         Race:               American Indian or Alaska Native
                  Asian                                                                        Asian
                  Black or African American                                                    Black or African American
                  Native Hawaiian or Other Pacific Islander                                    Native Hawaiian or Other Pacific Islander                                                             NOTICE TO BORROWERS
                  White                                                                        White                                                            Be advised that you are signing the following documents under penalty of perjury. Any misstatement of material
                                                                                                                                                                fact made in the completion of these documents including but not limited to misstatement regarding your
Sex:                 Female                                                Sex:               Female                                                            occupancy in your home, hardship circumstances, and/or income will subject you to potential criminal investigation
                    Male                                                                      Male
                                                                                                                                                                and prosecution for the following crimes: perjury, false statements, mail fraud, and wire fraud. The information
To be Completed by Interviewer             Interviewer’s Name (print or type) & ID Number       Name/Address of Interviewer’s Employer
                                                                                                                                                                contained in these documents is subject to examination and verification. Any potential misrepresentation will be
This application was taken by:
    Face-to-face interview                 Interviewer’s Signature             Date
                                                                                                                                                                referred to the appropriate law enforcement authority for investigation and prosecution.
    Mail                                   ___________________________________________                                                                          By signing the enclosed documents you certify, represent and agree that:
    Telephone                              Interviewer’s Phone Number (include area code)                                                                       “Under penalty of perjury, all documents and information I have provided to Lender in connection with this
    Internet                                                                                                                                                    Agreement, including the documents and information regarding my eligibility for the program, are true and correct.”

                                                                                                                                                                If you are aware of fraud, waste, abuse, mismanagement or misrepresentations affiliated with the Troubled Asset
                                                                                                                                                                Relief Program, please contact the SIGTARP Hotline by calling 1-877-SIG-2009 (toll-free), 202-622-4559 (fax), or
                                                                                                                                                                www.sigtarp.gov. Mail can be sent to Hotline Office of the Special Inspector General for Troubled Asset Relief
                                                                                                                                                                Program, 1801 L St. NW, Washington, DC 20220.
                                           [Servicer Logo]


                                           [Date]

                                           [Name]
                                           [Address 1]                                                                [Loan number]
                                           [Address 2]

                                           Dear ______________

                                           Congratulations! You are approved to enter into a trial period plan under the Home Affordable Modification
                                           Program! This is the first step towards lowering your mortgage payments. Please read this letter so that you
                                           understand all the steps you need to take now to lower your mortgage payments permanently.

                Exhibit C                  What do I need to do first?
Trial Period Plan Notice (Stated Income)   To accept this offer, you must make a new monthly payment of $_______ for the next three months of the trial
                                           period. This payment is due on the first day of each month. So your first payment is due ________, your
                                           second payment is due _______ and your third payment is due ________. Send these payments instead of your
                                           normal monthly mortgage payment.

                                           Why is there a trial period?
                                           The trial period offers you immediate payment relief while we process the paperwork to determine if we can
                                           offer you a permanent loan modification. It also gives you time to make sure that you can manage the lower
                                           monthly mortgage payment. Please note that your existing loan and its requirements remain in effect and
                                           unchanged during the trial period.

                                           How do I get a permanent modification?
                                           If you do not make each trial period payment in the month in which it is due, your loan may not be modified
                                           under the Home Affordable Modification Program.

                                           In addition to making your trial period payments on time, you must send copies of all the documents that are
                                           checked below to _________________________________, no later than _______________ so that we can
                                           verify the financial information you already provided to us. Use the return envelope provided for your
                                           convenience. If the documents are not received by [insert the due date again], this offer will end and your
                                           loan will not be modified.

                                                    1. Your first trial period payment of $ ________,
                                                    2. The enclosed [Select one] MHA Request for Modification & Affidavit (RMA) OR MHA Hardship
                                                    Affidavit form completed and signed by all borrowers, and
                                                    3. Signed and dated copy of the enclosed IRS Form 4506 T (Request for Transcript of Tax Return) for
                                                    each borrower (borrowers who filed their tax returns jointly may send in one IRS Form 4506 T signed
                                                    and dated by both of the joint filers), and
                                                                                                                                                          correspondence I Appendix H I OCTOBER 21, 2009
                                                                                                                                                          227
                                                                                                                                                                                                                                                                 228
       4. Documentation that will be used by us to verify the income of each borrower. This documentation                                                                              Additional Information
       includes:
                                                                                                                                           What else should I know about this offer?
                For each borrower who receives a salary or hourly wages:                                                                          If you make your new payments timely and submit the paperwork by the deadline, we will not conduct a
                    Copy of your two most recent pay stubs that show year to date earnings.                                                       foreclosure sale.
                                                                                                                                                  You will not be charged any fees for this trial period plan or final modification.
                For each borrower who is self employed:                                                                                           If your loan is modified, we will waive all unpaid late charges.
                    Most recent quarterly or year to date profit/loss statement.                                                                  Your credit score may be affected by accepting a trial period offer or modification. For more information
                For each borrower who has income such as social security, disability or death benefits,                                           about your credit score please go to http://www.ftc.gov/bcp/edu/pubs/consumer/credit/cre24.shtm.
                pension, adoption assistance, public assistance, or unemployment:                                                                 You may be required to attend credit counseling.
                    Copy of benefits statement or letter from the provider that states the amount, frequency
                    and duration of the benefit, and                                                                                       How was my new payment in the trial period determined?
                                                                                                                                           Your trial period payment is approximately 31% of your total gross monthly income, which you told us was
                     Two most recent bank statements showing receipt of such payment.                                                      $_________. The new payment includes principal and interest and an escrow amount of $________ to pay
                For each borrower who is relying on alimony or child support as qualifying income*:                                        property taxes, insurance and other permissible escrow fees. If we were able to modify your loan today, based
                    Copy of divorce or other court decree; or separation agreement or other written agreement                              on the information you gave us, we estimate your modified interest rate would be ____%. If we modify your
                    filed with the court that states the amount and period of time over which it will be received,                         loan permanently after the trial period, the interest rate may be different due to a variety of factors that affect
                    and                                                                                                                    the terms of your final modification. If you did not have an escrow account before, the timing of your tax and
                    Two most recent bank statement showing receipt of such payment.                                                        insurance bills may require that you make a payment to cover any such bills when they come due. This is known
                * You are not required to disclose Child Support, Alimony or Separation Maintenance income, unless you choose to have it   as an escrow shortage. Your loan has an escrow shortage of $_______; this can either be paid in a lump sum
                considered by your servicer.
                                                                                                                                           when the loan is modified or over the next ____ years (or ______ months). If you wish to pay the total shortage
                For borrowers who are current on their mortgage payments: [Optional – delete if not required                               as a lump sum, please contact us.
                                                                                                                                                                                                                                                                 Appendix H I correspondence I OCTOBER 21, 2009




                by investor]
                    Copies of the most recently filed signed federal tax return with all schedules, including                              What happens if my verified income is different from the amount I told you verbally?
                    Schedule E—Supplemental Income and Loss.                                                                               During the trial period, we will verify your income based on the documentation you must provide. Your verified
                                                                                                                                           income will determine your eligibility for a permanent modification and its final terms. If your verified income is
       If you have other types of income, cannot locate the required documents, or have questions about the                                significantly higher than the income you told us, you may have to restart your trial period with a larger payment
       paperwork required, please contact us at [1.000.000.0000].                                                                          based on that higher income. Also, if your verified income is different from the amount you gave us verbally,
                                                                                                                                           you may no longer be eligible for a Home Affordable Modification.
          Keep a copy of all documents for your records. Don’t send original income documentation.
                                                                                                                                           When will I know if my loan can be modified permanently and how will the modified loan balance be
 IF YOU DO NOT MAKE YOUR TRIAL PERIOD PAYMENTS OR DO NOT PROVIDE ALL REQUIRED, SIGNED AND COMPLETED                                        determined?
                                                                                                                                           Once we confirm you are eligible for a Home Affordable Modification and you make all of your trial period
DOCUMENTATION FOR EACH BORROWER ON TIME, WE WILL NOT BE ABLE TO DETERMINE WHETHER YOU QUALIFY FOR
                                                                                                                                           payments on time, we will send you a modification agreement detailing the terms of the modified loan. Any
                                     THE HOME AFFORDABLE MODIFICATION PROGRAM.                                                             difference between the amount of the trial period payments and your regular mortgage payments will be added
                                                                                                                                           to the balance of your loan along with any other past due amounts as permitted by your loan documents. While
                                                                                                                                           this will increase the total amount that you owe, it should not significantly change the amount of your modified
     If you have further questions about this trial period plan or the program, please call your servicer at                               mortgage payment as that is determined based on your total monthly gross income, not your loan balance.
                                                            XXX XXX XXXX
                                                                                                                                           Are there incentives that I may qualify for if am current with my new payments?
                                                                                                                                           Once your loan is modified, you can earn a pay for success incentive for every month that you make on time
                                                                                                                                           payments beginning with the trial period Payments. Depending on your modified monthly payment, you may
                             Homeowner’s HOPE™ Hotline
                                                                                                                                           accrue up to $1,000 each year for five years for a total of $5,000. This important benefit, which will be applied
 If you have questions about the program that your servicer cannot answer or need                                                          to your principal balance each year after the anniversary date of your first trial period payment due date, will
    further counseling, call the Homeowner’s HOPE™ Hotline at 1-888-995-HOPE                                                               help you earn equity in your home by reducing the amount that you owe. However, you must remain current
(4673). The Hotline can help with questions about the program and offers access to                                                         on your loan. You will lose this benefit if your modified loan becomes 90 days delinquent.
             free HUD-certified counseling services in English and Spanish.
                                                                                                                                           Will my interest rate and principal and interest payment be fixed after my loan is permanently modified?
 If you are aware of fraud, waste, mismanagement, or misrepresentations affiliated                                                         Once your loan is modified, your interest rate and monthly principal and interest payment will be fixed for the
  with the Troubled Asset Relief Program, please contact SIGTARP at 1-877-SIG-                                                             life of your mortgage unless your initial modified interest rate is below current market interest rates. In that
2009 (toll-free), 202-622-4559 (fax), or www.sigtarp.gov. Mail can be sent to Hotline                                                      case, the below market interest rate will be fixed for five years. At the end of the fifth year, your interest rate
 Office of the Special Inspector General for Troubled Asset Relief Program, 1801 L
                                                                                                                                           may increase by 1% per year until it reaches a cap. The cap will equal the market rate of interest being charged
                           St. NW, Washington, DC 20220.
by mortgage lenders on the day your modification agreement is prepared (the Freddie Mac Primary Mortgage
Market Survey Rate for 30 year, fixed rate conforming mortgages). Once your interest rate reaches the cap, it
will be fixed for the remaining life of your loan. Like your trial period payment, your new monthly payment will
also include an escrow for property taxes, hazard insurance and other escrowed expenses. If the cost of your
homeowner’s insurance, property tax assessment or other escrowed expenses increases, your monthly payment
will increase as well.

If you have any questions or if you cannot afford the trial period payments shown above, but want to remain
         in your home, or if you have decided to leave your home but still want to avoid foreclosure,
                        please call us at ### ### ####. We may be able to help you.


                          Additional Trial Period Plan Information and Legal Notices

The terms of your trial period plan below are effective on the day you make your first trial period payment,
provided you have paid it on or before ________________________. You and we agree that:

        We will not proceed to foreclosure sale during the trial period, provided you are complying with the
        terms of the trial period plan, except as detailed below:
            o   During trial period, any pending foreclosure action or proceeding will not be dismissed and may
                be immediately resumed if you fail to comply with the terms of the Trial Period Plan or do not
                qualify for a modification. A new notice of default, notice of intent to accelerate, notice of
                acceleration, or similar notice will not be necessary to continue the foreclosure action
                (foreclosure notices). You waive any and all rights to receive such foreclosure notices to the
                extent permitted by applicable law. However, if your property is located in Georgia, Hawaii,                         Exhibit D
                Missouri, or Virginia and a foreclosure sale is currently scheduled, the foreclosure sale will not   Trial Period Plan Notice (Verified Income)
                be suspended and foreclosure may proceed if you do not make each and every trial period
                payment that is due through the end of the month preceding the month in which the
                foreclosure sale is scheduled to occur. For example, if a foreclosure sale is scheduled in
                February and you do not make your January and any earlier required trial period payment by
                the end of January, the foreclosure sale may proceed in these four states. If a foreclosure sale
                occurs pursuant to this provision, the Trial Period Plan will be deemed to have terminated.
       During the trial period, we may accept and post your trial period payments to your account and it will
       not affect foreclosure proceedings that have already been started.
            o   The servicer’s acceptance and posting of your new payment during the trial period will not be
                deemed a waiver of the acceleration of your loan or foreclosure action and related activities,
                and shall not constitute a cure of your default under your loan unless such payments are
                sufficient to completely cure your entire default under your loan.
        If your monthly payment did not include escrows for taxes and insurance, you are now required to do
        so:
            o   You agree that any prior waiver that allowed you to pay directly for taxes and insurance is
                revoked. You agree to establish an escrow account and to pay required escrows into that
                account.
        Your current loan documents remain in effect; however, you may make the trial period payment instead
        of the payment required under your loan documents:
            o   You agree that all terms and provisions of your current mortgage note and mortgage security
                instrument remain in full force and effect and you will comply with those terms; and that
                nothing in the Trial Period Plan shall be understood or construed to be a satisfaction or release
                in whole or in part of the obligations contained in the loan documents.
                                                                                                                                                                  correspondence I Appendix H I OCTOBER 21, 2009
                                                                                                                                                                  229
                                                                                                                                                                                                                                         230

                                                                                                                                                               Additional Information
                                                                                                                   What else should I know about this offer?
                                                                                                                          If you make your new payments timely, we will not conduct a foreclosure sale.
                                                                                                                          You will not be charged any fees for this Trial Period Plan or final modification.
                                                                                                                          If your loan is modified, we will waive all unpaid late charges.
                                                                                                                          Your credit score may be affected by accepting a trial period offer or modification. For more information
                                                                                                                          about your credit score please go to http://www.ftc.gov/bcp/edu/pubs/consumer/credit/cre24.shtm.
[Servicer Logo]                                                                                                           You may be required to attend credit counseling.

                                                                                                                   How was my new payment in the trial period determined?
[Date]                                                                                                             Your trial period payment is approximately 31% of your total gross monthly income, which is $_________. The
                                                                                                                   new payment includes principal and interest and an escrow amount of $________ to pay property taxes,
[Name]                                                                                                             insurance and other permissible escrow fees. If we were able to modify your loan today, based on the
[Address 1]                                                                  [Loan number]                         information you gave us, we estimate your modified interest rate would be ____%. If we modify your loan
[Address 2]                                                                                                        permanently after the trial period, the interest rate may be different due to a variety of factors that affect the
                                                                                                                   terms of your final modification. If you did not have an escrow account before, the timing of your tax and
Dear ______________                                                                                                insurance bills may require that you make a payment to cover any such bills when they come due. This is known
                                                                                                                   as an escrow shortage. Your loan has an escrow shortage of $_______; this can either be paid in a lump sum
Congratulations! You are approved to enter into a trial period plan under the Making Home Affordable               when the loan is modified or over the next ____ years (or ______ months). If you wish to pay the total shortage
program! This is the first step towards lowering your mortgage payments. Please read this letter so that you       as a lump sum, please contact us.
                                                                                                                                                                                                                                         Appendix H I correspondence I OCTOBER 21, 2009




understand all the steps you need to take now to lower your mortgage payments permanently.
                                                                                                                   When will I know if my loan can be modified permanently and how will the modified loan balance be
What do I need to do first?                                                                                        determined?
To accept this offer, you must make a new monthly payment of $_______ for the next three months of the trial       Once you make all of your trial period payments on time, we will send you a modification agreement detailing
period. This payment is due on the first day of each month. So your first payment is due ________, your            the terms of the modified loan. Any difference between the amount of the trial period payments and your
second payment is due _______ and your third payment is due ________. Send these payments instead of your          regular mortgage payments will be added to the balance of your loan along with any other past due amounts as
normal monthly mortgage payment.                                                                                   permitted by your loan documents. While this will increase the total amount that you owe, it should not
                                                                                                                   significantly change the amount of your modified mortgage payment as that is determined based on your total
Why is there a trial period?                                                                                       monthly gross income, not your loan balance.
The trial period offers you immediate payment relief and it gives you time to make sure that you can manage
the lower monthly mortgage payment. Please note that your existing loan and its requirements remain in effect      Are there incentives that I may qualify for if am current with my new payments?
and unchanged during the trial period.                                                                             Once your loan is modified, you can earn a pay for success incentive for every month that you make on time
                                                                                                                   payments beginning with the trial period payments. Depending on your modified monthly payment, you may
How do I get a permanent modification?                                                                             accrue up to $1,000 each year for five years for a total of $5,000. This important benefit, which will be applied
You must make all of your trial period payments by their due dates; if you do not make each of your trial period   to your principal balance each year after the anniversary date of your first trial period payment due date, will
payments in the month in which it is due, your loan will not be modified under Making Home Affordable.             help you earn equity in your home by reducing the amount that you owe. However, you must remain current
                                                                                                                   on your loan. You will lose this important benefit if your modified mortgage becomes 90 days delinquent.
     If you have further questions about this trial period plan or the program, please call your servicer at
                                                 XXX XXX XXXX                                                      Will my interest rate and principal and interest payment be fixed after my loan is permanently modified?
                                                                                                                   Once your loan is modified, your interest rate and monthly principal and interest payment will be fixed for the
                             Homeowner’s HOPE™ Hotline                                                             life of your mortgage unless your initial modified interest rate is below current market interest rates. In that
 If you have questions about the program that your servicer cannot answer or need                                  case, the below market interest rate will be fixed for five years. At the end of the fifth year, your interest rate
    further counseling, call the Homeowner’s HOPE™ Hotline at 1-888-995-HOPE                                       may increase by 1% per year until it reaches a cap. The cap will equal the market rate of interest being charged
(4673). The Hotline can help with questions about the program and offers access to
             free HUD-certified counseling services in English and Spanish.
                                                                                                                   by mortgage lenders on the day your modification agreement is prepared (the Freddie Mac Primary Mortgage
                                                                                                                   Market Survey Rate for 30 year, fixed rate conforming mortgages). Once your interest rate reaches the cap, it
                                                                                                                   will be fixed for the remaining life of your loan. Like your trial period payment, your new monthly payment will
 If you are aware of fraud, waste, mismanagement, or misrepresentations affiliated
                                                                                                                   also include an escrow for property taxes, hazard insurance and other escrowed expenses. If the cost of your
  with the Troubled Asset Relief Program, please contact SIGTARP at 1-877-SIG-
2009 (toll-free), 202-622-4559 (fax), or www.sigtarp.gov. Mail can be sent to Hotline                              homeowner’s insurance, property tax assessment or other escrowed expenses increases, your monthly payment
 Office of the Special Inspector General for Troubled Asset Relief Program, 1801 L                                 will increase as well.
                           St. NW, Washington, DC 20220.
If you have any questions or if you cannot afford the trial period payments shown above, but want to remain
         in your home, or if you have decided to leave your home but still want to avoid foreclosure,
                        please call us at ### ### ####. We may be able to help you.



                         Additional Trial Period Plan Information and Legal Notices

The terms of your trial period plan below are effective on the day you make your first trial period payment,
provided you have paid it on or before ________________________. You and we agree that:

       We will not proceed to foreclosure sale during the trial period, provided you are complying with the
       terms of the trial period plan, except as detailed below:
           o   During trial period, any pending foreclosure action or proceeding will not be dismissed and may
               be immediately resumed if you fail to comply with the terms of the trial period plan or do not
               qualify for a modification. A new notice of default, notice of intent to accelerate, notice of
               acceleration, or similar notice will not be necessary to continue the foreclosure action
               (foreclosure notices). You waive any and all rights to receive such foreclosure notices to the
               extent permitted by applicable law. However, if your property is located in Georgia, Hawaii,
               Missouri, or Virginia and a foreclosure sale is currently scheduled, the foreclosure sale will not
               be suspended and foreclosure may proceed if you do not make each and every trial period
               payment that is due through the end of the month preceding the month in which the
               foreclosure sale is scheduled to occur. For example, if a foreclosure sale is scheduled in
               February and you do not make your January and any earlier required trial period payment by
               the end of January, the foreclosure sale may proceed in these four states. If a foreclosure sale
               occurs pursuant to this provision, the trial period plan will be deemed to have terminated.
       During the trial period, we may accept and post your trial period payments to your account and it will
       not affect foreclosure proceedings that have already been started.
           o   The servicer’s acceptance and posting of your new payment during the trial period will not be
               deemed a waiver of the acceleration of your loan or foreclosure action and related activities,
               and shall not constitute a cure of your default under your loan unless such payments are
               sufficient to completely cure your entire default under your loan.
       If your monthly payment did not include escrows for taxes and insurance, you are now required to do
       so:
           o   You agree that any prior waiver that allowed you to pay directly for taxes and insurance is
               revoked. You agree to establish an escrow account and to pay required escrows into that
               account.
       Your current loan documents remain in effect; however, you may make the trial period payment instead
       of the payment required under your loan documents:
           o   You agree that all terms and provisions of your current mortgage note and mortgage security
               instrument remain in full force and effect and you will comply with those terms; and that
               nothing in the trial period plan shall be understood or construed to be a satisfaction or release
               in whole or in part of the obligations contained in the loan documents.
                                                                                                                    correspondence I Appendix H I OCTOBER 21, 2009
                                                                                                                    231
232   Appendix H I correspondence I OCTOBER 21, 2009
correspondence I Appendix H I OCTOBER 21, 2009   233
234   Appendix H I correspondence I OCTOBER 21, 2009
correspondence I Appendix H I OCTOBER 21, 2009   235
236   Appendix H I correspondence I OCTOBER 21, 2009
correspondence I Appendix H I OCTOBER 21, 2009   237
238   Appendix H I correspondence I OCTOBER 21, 2009
correspondence I Appendix H I OCTOBER 21, 2009   239
240   Appendix H I correspondence I OCTOBER 21, 2009
correspondence I Appendix H I OCTOBER 21, 2009   241
242   Appendix H I correspondence I OCTOBER 21, 2009
                          The U.S. Department of the Treasury                                               Treasury’s Response
                     Summary Response to SIGTARP Recommendations
                                                                                                            Treasury does not believe this recommendation is necessary or appropriate for the PPIP,
                                       September 25, 2009                                                   and has previously explained to SIGTARP officials the alternative ways that Treasury has
                                                                                                            addressed concerns raised by the SIGTARP in a supplemental letter dated July 2, 2009.
The Department of the Treasury (Treasury) welcomes the recommendations on the Troubled                      As discussed, Treasury considers this recommendation closed.
Assets Relief Program (TARP) from the Office of the Special Inspector General for the Troubled
Asset Relief Program (SIGTARP). This summary response serves as a status report on                   SIGTARP Recommendation 2:
Treasury's response to recommendations contained in SIGTARP's February 2009, April 2009,             Treasury should periodically disclose trading activity and require PPIF managers to disclose to
and July 2009 Quarterly Reports.                                                                     SIGTARP, within seven days of the close of the quarter, all trading activity, holdings, and
                                                                                                     valuations so that SIGTARP may disclose such information, subject to reasonable protections, in
The Treasury has given careful consideration to the 40 recommendations in SIGTARP's prior            its quarterly reports.
quarterly reports when taking actions to stabilize the financial system and restore the flow of
credit. Treasury’s policies and programs currently address many of the issues raised in your                Treasury’s Response
recommendations, and in other cases, Treasury has taken specific actions to implement your
recommendations. Treasury also has executed or will execute alternative approaches that we                  Treasury is currently developing a template for periodic reports to be publicly disclosed,
believe address some of the issues raised in your recommendations. When we believe a                        which would provide aggregated information on Eligible Assets investments across the
particular recommendation would not help carry out Treasury’s statutory duties under the                    PPIFs. These reports will provide meaningful information regarding the performance of
Emergency Economic Stabilization Act (EESA), we have developed alternative ways to address                  PPIF investments while protecting confidential, sensitive information related to the
the underlying concerns SIGTARP has raised and have explained the measures we are                           investment strategies and individual positions of each PPIF.
employing to do so to in our summary responses to SIGTARP and to Congress.
                                                                                                     SIGTARP Recommendation 3:
This report first presents Treasury's response to the new recommendations issued by SIGTARP          Treasury should have appropriate metrics defined and an evaluation should be put in place to
in the July 2009 Quarterly Report, and then provides a status report on our actions to address the   monitor the effectiveness of the PPIF managers, both to ensure that they are fulfilling the terms
outstanding recommendations identified in the SIGTARP chart contained in the same quarterly          of their agreements and to measure their performance against pre-established benchmarks and
report. We used the corresponding recommendation number from the SIGTARP chart to                    against each other.
identify the actions Treasury has taken to address the relevant outstanding recommendations.
We have not included in this summary response those recommendations that SIGTARP has                        Treasury’s Response
confirmed that Treasury has “implemented,” specifically, 1, 17, 18, 19, 24, 25, 29, and 31. We
also have not included those recommendations that Treasury has previously described in our                  Treasury has substantively adopted this recommendation, and is developing appropriate
summary responses the measures we have taken to address concerns raised by SIGTARP, and,                    metrics to monitor the effectiveness of the PPIP fund managers as well as the PPIP in
based on previous conversation with SIGTARP officials, consider these recommendations as                    general. Treasury is presently working with PPIP fund managers to establish expected
“closed,” specifically, 7, 8, 9, 10, 12, 13, 14, 15, 16, 21, 22, 23, 26, 28, 30, and 32. The                reporting requirements. In addition, Treasury is hiring a fund advisor consultant that will
summary response covers the eight recommendations identified in the July 2009 Quarterly                     assist in the ongoing evaluation, monitoring and reporting of each PPIF. Treasury
Report and the remaining eight outstanding recommendations identified in the SIGTARP chart.                 currently expects to have selected this fund advisor consultant by mid-November and will
                                                                                                            solicit additional input from this firm in order to refine Treasury’s ongoing reporting
Recommendations from the July 2009 Quarterly Report                                                         requirements after that point.

SIGTARP Recommendation 1:                                                                                   Performance metrics will be evaluated across three principal areas:
Treasury should require the imposition of strict information barriers or “walls” between the
Public-Private Investment Program (PPIP) fund managers making investment decisions on                               •   Effectiveness of achieving policy goals for programs for Legacy Assets –
behalf of the Public-Private Investment Fund (PPIF) and those employees of the fund                                     Metrics to measure the program’s effects on price discovery and restarting the
management company who manage non-PPIF funds.
                                                                                                                                                     2
                                                1
                                                                                                                                                                                                          correspondence I Appendix H I OCTOBER 21, 2009
                                                                                                                                                                                                          243
                                                                                                              Treasury's Response                                                                             244
                   markets for Eligible Assets are expected to include pricing for Eligible Assets
                   including benchmark indices (e.g. ABX and CMBX).                                           Treasury has adopted most of this recommendation, and explained measures employed to
               •   Financial performance of a PPIF – Metrics are expected to include PPIF                     address the concerns raised by the SIGTARP in our summary response and supplemental
                   returns relative to appropriate fixed income benchmarks. Treasury will work                letter, both dated July 2, 2009. As further explained in our supplemental letter, Treasury
                   with its fund advisor consultant to establish appropriate fixed income                     does not agree that having the unilateral ability to prohibit participation of private equity
                   benchmarks with which to measure performance.                                              investors is necessary or appropriate for the PPIP. As previously discussed, Treasury
               •   Adherence to compliance regime – Treasury is presently discussing the                      considers this recommendation closed.
                   applicability of compliance metrics with its compliance contractor.
                                                                                                       SIGTARP Recommendation 7:
       Treasury has the ability to end the investment period after 12 months in its sole               Treasury and the Federal Reserve Bank of New York should examine Moody’s assertions and
       discretion, and to the extent a certain PPIP fund manager is underperforming, Treasury          develop mechanisms to ensure that acceptance of collateral in the Term Asset-Backed Securities
       and the private investors will have the ability to replace the General Partner of the PPIF.     Loan Facility (TALF) is not unduly influenced by the improper incentives to overrate that exist
       In addition, material violations of the Rules will be included as Events of Cause in the        among the rating agencies.
       Partnership Agreements governing each PPIF.
                                                                                                              Treasury’s Response
SIGTARP Recommendation 4:
The conditions that give Treasury "cause" to remove a manager should be expanded to include a                 The Treasury and Federal Reserve have a robust TALF risk management program that
manager's performance below a certain standard benchmark, or if Treasury concludes that the                   does not rely solely on ratings issued by rating agencies. Additionally, the Federal
manger has materially violated compliance or ethical rules.                                                   Reserve Bank of New York recently engaged collateral monitors to assess the risk
                                                                                                              associated with ABS and CMBS collateral. The collateral monitors, in addition to the
       Treasury’s Response                                                                                    credit ratings, conservative haircuts, interest premiums, and other terms and conditions,
                                                                                                              collectively serve to protect taxpayer interests.
                                                                                                                                                                                                              Appendix H I correspondence I OCTOBER 21, 2009




       Treasury does not believe this recommendation is necessary or appropriate for the PPIP,
       and previously explained the alternative ways that Treasury has addressed concerns                     Treasury and the Federal Reserve have discussed concerns about potential overrating or
       raised by the SIGTARP in our supplemental letter dated July 2, 2009. As previously                     rating shopping with the rating agencies, and we will continue to develop and enhance
       discussed, Treasury considers this recommendation closed.                                              our risk management tools and processes, where appropriate.

SIGTARP Recommendation 5:                                                                              SIGTARP Recommendation 8:
Treasury should require fund managers to disclose to Treasury, as part of the Watch List process        Treasury should require TARP recipients to submit periodic reports to Treasury on their use of
outlined in the term sheet, info about holdings in eligible assets and holdings in related assets or   funds, including what they were able to do with their TARP funds, such as lending, investments,
exposure to related liabilities.                                                                       acquisitions, and other activities that they could not have conducted without TARP funding.
                                                                                                       Treasury should also require TARP recipients to retain all supporting documentation in
       Treasury’s Response                                                                             conjunction with any reporting requirement that Treasury may impose.

       Treasury accepts this recommendation and will require PPIP fund managers to disclose                   Treasury's Response
       holdings in derivatives in non-PPIF funds where derivative values are related to Eligible
       Assets held in the PPIF.                                                                               In our continuing effort to improve the transparency of our programs, and in order to
                                                                                                              more closely adopt the recommendations in the SIGTARP report, Treasury is expanding
SIGTARP Recommendation 6:                                                                                     its Quarterly Capital Purchase Program (CPP) Report to include additional categories of
Treasury should require PPIF managers to obtain and maintain information about the beneficial                 information included in the SIGTARP survey responses underlying the SIGTARP report,
ownership of all the private equity interests, and Treasury should have the unilateral ability to             such as financial institutions’ repayments of their outstanding debt obligations and total
prohibit participation of private equity investors.
                                                                                                                                                        4
                                                 3
                                                                                                    controls and its compliance with the condition, and (4) provide a signed certification from an
       investments. This expansion will begin with the next Quarterly CPP Report, scheduled to      appropriate senior official to OFS-Compliance that such report is accurate.
       be released during October 2009.
                                                                                                           Treasury's Response
       Most of the information contained in SIGTARP survey responses is already captured by
       Treasury’s Monthly Lending and Intermediation Snapshot, CPP Monthly Lending Report                  Treasury will implement this recommendation with respect to new TARP programs going
       or Quarterly CPP Report. Specifically, these Treasury reports capture financial                     forward, as appropriate. Additional details on how Treasury has implemented this
       institution activities regarding lending, capital cushions and other reserves, and                  recommendation are available in our summary responses dated April 7, 2009 and July 2,
       investments in mortgage-backed securities and asset-backed securities. Treasury                     2009. As previously discussed, Treasury considers this recommendation closed.
       publishes its Monthly Lending and Intermediation Snapshot to help measure the lending
       activities of the nation’s largest Capital Purchase Program (CPP) financial institutions.    SIGTARP Recommendation 3:
       This report includes quantitative information on lending and other intermediation            All existing TARP agreements, as well as those governing new transactions, should be posted on
       activities, as well as a qualitative section that allows banks to comment on the lending     the Treasury website as soon as possible.
       environment and the host of factors outside a bank’s control that affect lending levels,
       such as loan demand, borrower creditworthiness, capital markets liquidity and the                   Treasury’s Response
       macroeconomic environment. Although some of the largest recipients of TARP funds
       have recently repaid the assistance, Treasury has obtained their agreement to provide this          Treasury continues to make progress on implementing this recommendation. Treasury
       information to Treasury for the remainder of 2009.                                                  posts all the agreements governing new transactions on its Financial Stability website.
                                                                                                           Treasury posts a redacted version of the new agreement for each transaction on the
       In addition to the Monthly Lending and Intermediation Snapshot, Treasury provides an                Treasury website ten business days from the closing date of the transaction.
       expanded CPP Monthly Lending Report that includes the monthly average outstanding
       balances of consumer loans and commercial loans and total loans from all CPP                        Additionally, Treasury has posted all previously executed TARP agreements, except for
       participants. Finally, Treasury publishes a Quarterly CPP Report that provides extensive            approximately 78 CPP agreements. Treasury is working towards posting the remaining
       detail on the financial positions and activities of both CPP and non-CPP banks based on             78 CPP agreements, and expects to complete this task by November 1, 2009.
       regulatory data collected by each institution’s primary financial regulator.
                                                                                                    SIGTARP Recommendations 4:
       The SIGTARP report provided descriptions of the general uses of capital by TARP              Treasury should require all TARP recipients to report on the actual use of TARP funds.
       recipients but did not contain quantitative data on such uses. By tracking the additional
       information discussed above, we believe that these reports will now capture all of the              Treasury’s Response
       categories of information covered by SIGTARP’s audit responses. Moreover, because
       quantitative data used in these reports is based on data that is provided and reviewed by           Treasury has previously explained the alternative ways that Treasury has addressed
       the financial institution's primary banking regulator, they constitute a more reliable and          concerns raised by the SIGTARP in our summary response dated July 2, 2009, and as
       measurable way of tracking how financial institutions use their capital.                            described above, plans to expand its current quarterly report to capture all categories of
                                                                                                           uses of TARP funds identified by participants in response to SIGTARP's survey. As
Recommendations from the SIGTARP Chart                                                                     previously discussed, Treasury considers this recommendation closed.

SIGTARP Recommendation 2:                                                                           SIGTARP Recommendation 5
Treasury should include language in new TARP agreements to facilitate compliance and                Treasury should formalize its going-forward valuation methodology.
oversight. Specifically, each program participant should (1) acknowledge explicitly the
jurisdiction and authority of SIGTARP and other oversight bodies, as relevant, to oversee                  Please see response below under Recommendation 11.
compliance of the conditions contained in the agreement in question, (2) establish internal
controls with respect to that condition, (3) report periodically to the Compliance department of
the Office of Financial Stability (“OFS-Compliance”) regarding the implementation of those

                                                                                                                                                    6
                                                5
                                                                                                                                                                                                        correspondence I Appendix H I OCTOBER 21, 2009
                                                                                                                                                                                                        245
                                                                                                     SIGTARP Recommendation 20:                                                                            246
SIGTARP Recommendation 11:                                                                           Treasury should significantly increase the staffing levels of OFS-Compliance and ensure the
Treasury should formalize its valuation strategy and begin providing values of the TARP              timely development and implementation of an integrated risk management and compliance
                                                                                                     program.
investments to the public.
                                                                                                            Treasury’s Response
       Treasury’s Response
                                                                                                            Treasury has made significant progress in increasing staffing levels in its compliance
       Treasury agrees with SIGTARP that it is in the public interest to provide periodic                   functions; notably, we now have a team of executive compensation professionals and a
       disclosure of the estimated value of the TARP portfolio so that the public knows the                 dedicated lead of conflicts has joined the OFS-Compliance staff (overseeing conflicts
       value of the investments that Treasury has made. A valuation of the portfolio was                    issues involving contractors and financial agents). A number of other hires are in various
       previously provided as part of the President's 2010 Budget. Under Federal law, Treasury              stages of the hiring process and we expect a number of additional hires to begin work in
       is required to provide a valuation of its investments in connection with the preparation of          the next few weeks in various functions within OFS-Compliance, including anti-fraud,
       its annual financial statements. On November 16, 2009, Treasury will publish the                     conflicts, reporting, and oversight. In addition, Treasury has posted job descriptions and
       financial statements for the fiscal year ended September 30, 2009. The methodology                   is reviewing resumes and conducting interviews to fill remaining compliance positions at
       used for such valuation is governed by Federal accounting principles and the financial               all levels in the organization. When fully staffed, the compliance department will have
       statements and the methodology are being audited by the GAO.                                         senior compliance professionals and supporting teams overseeing each TARP program.

                                                                                                            In the meantime, the compliance staff is receiving assistance from other OFS personnel,
SIGTARP Recommendation 6:                                                                                   including those in the risk management, financial management, home ownership
Treasury should develop an overall investment strategy to address its portfolio of stocks and               preservation and investment areas, to ensure that TARP participants are meeting their
decide whether it intends to exercise warrants of common stock.                                             responsibilities under the investment agreements. In addition, Treasury is using Freddie
                                                                                                            Mac, Fannie Mae, and contractors to provide substantive expertise and program
                                                                                                                                                                                                           Appendix H I correspondence I OCTOBER 21, 2009




                                                                                                            monitoring services under the direction of the compliance staff.
       Treasury’s Response
                                                                                                     SIGTARP Recommendation 27:
       Treasury has been implementing this recommendation. In Treasury’s July 2, 2009                Additional anti-fraud protections should be adopted in MHA to verify the identity of the
       response to the SIGTARP’s April 21, 2009 Quarterly Report to Congress, Treasury               participants in the transaction and to address the potential for services to steal from individuals
       described its investment strategy policy and asset management tenets prescribed by            by receiving Government subsidies without applying them for the benefit of the homeowner.
       EESA. Treasury is refining the investment and asset management guidelines for CPP and
       the other programs which comprise the TARP portfolio. Such a strategy considers                      Treasury’s Response
       financial market stability and broader economic goals, taxpayer protection and
       transparency, a portfolio approach with discipline at the individual investment level, risk          Incentive payments to servicers include servicer incentives, investor payments, and
       management at the portfolio, program and individual investment levels, and a disposition             borrower incentives. Payments represent (i) incentive payments to the servicer at the
       methodology which minimizes market disruption.                                                       successful conclusion of the trial loan modification period (90-120 days) and (ii)
                                                                                                            payments to the servicer to be passed on to the investor as a partial offset to reduced
       With respect to the recommendation on warrants, as previously stated in our summary                  interest income resulting from the loan modification. After one year (and annually
       response dated July 2, 2009, Treasury does not, at this time, intend to exercise the                 thereafter, and for up to five years) payments to servicers also include borrower
       warrants except under certain circumstances related to mergers and acquisitions activity,            incentives, assuming the borrower is current, which would be applied to reduce the
                                                                                                            principal amount of the residential mortgage loan for the borrower.
       although Treasury could consider exercising the warrants in the future. Treasury will
       review its policies from time to time to ensure they serve the goals of promoting financial          Freddie Mac, Treasury’s compliance agent for the Home Affordable Modification
       stability and protecting the taxpayer. Treasury considers this recommendation closed.                Program (“HAMP”), is in the process of refining procedures to verify that incentives paid

                                                                                                                                                      8



                                                7
to servicers are applied to the respective borrower participating in HAMP, and to
investors. These compliance procedures will be performed by Freddie Mac on each
HAMP participating servicer by reviewing a random sample of serviced mortgage loans,
starting in October, since cash payments have only just begun (Treasury made payments
to just one HAMP servicer in August). Through this random sampling, Freddie Mac’s
procedures will look to verify that borrower incentives paid to servicers were properly
applied to reduce the outstanding principal balance of the related borrower’s residential
mortgage loan by tracing the incentives allocated to such loan. Freddie Mac will also
look to verify that the investor incentives have been passed through to the related
investors. Additional procedures include loan file reviews performed by Freddie Mac to
verify that the loan exists, and that the data submitted by the servicer to the HAMP
system of record is accurate. Freddie Mac will also use third party databases to verify the
existence of the mortgaged property.
 
Treasury does not believe that additional anti-fraud protections are necessary to identify
borrowers and/or co-borrowers involved in HAMP because borrower incentives are in the
form of a principal reduction of the related borrower’s residential mortgage loan, and
thus, no cash payments are made to the borrowers. In addition, controls are in place to
ensure that borrowers can receive benefit for only one modification to a first lien loan
and, if applicable, only one modification to a second lien loan.

Treasury also does not believe that additional anti-fraud protections are necessary to
identify incentives paid to investors since the ownership of mortgage loans can change on
a regular basis, as they are often traded in the secondary mortgage market, or in the case
of any mortgage loans held in a securitization, the loans are held in a pooled trust and
many investors may hold separate slices of this pooled trust. Freddie Mac will, as part of
its servicer compliance reviews, reconcile on a sample basis the investor payments
remitted to the servicer to verify that servicers are not retaining these incentives.




                                         9
                                                                                              correspondence I Appendix H I OCTOBER 21, 2009
                                                                                              247
248   Appendix H I correspondence I OCTOBER 21, 2009
correspondence I Appendix H I OCTOBER 21, 2009   249
250   Appendix H I correspondence I OCTOBER 21, 2009
                       organizational chart I Appendix I I OCTOBER 21, 2009   251




organizational chart
SIGTARP
SIG-QR-09-04

202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
